Audit Report




OIG-08-009
Audit of the Department of the Treasury’s Fiscal Years 2007 and
2006 Financial Statements
November 15, 2007




Office of
Inspector General
Department of the Treasury
      Treasury has made every effort to make these documents accessible;
                           for the full report, see:

http://www.ustreas.gov/offices/management/dcfo/accountability-reports/2007-par.shtml
Contents


Memorandum for the Secretary


Section I – Independent Auditors’ Report and Management’s Response


Section II - Department of the Treasury Fiscal Year 2007
             Performance & Accountability Report
THIS PAGE INTENTIONALLY LEFT BLANK
                                          DEPARTMENT OF THE TREASURY
                                                  W ASHINGTON, D.C. 20220




     OFFICE OF                                      November 15, 2007
INSPECTOR GENERAL




            MEMORANDUM FOR SECRETARY PAULSON

            FROM:                      Dennis S. Schindel /s/
                                       Acting Inspector General

            SUBJECT:                   Audit of the Department of the Treasury’s Financial Statements for
                                       Fiscal Years 2007 and 2006


            INTRODUCTION

            I am pleased to transmit KPMG LLP’s report on the Department of the Treasury’s (the
            Department) financial statements as of and for the fiscal years (FY) ending September 30, 2007
            and 2006.

            The Department of the Treasury Office of Inspector General is responsible for ensuring that the
            financial statement audit of the Department of the Treasury is conducted in accordance with the
            Chief Financial Officers’ Act of 1990, as amended by the Government Management Reform Act
            of 1994.

            RESULTS OF INDEPENDENT AUDIT

            Under a contract monitored by my office, KPMG LLP, an independent certified public
            accounting firm, performed an audit of the FY 2007 and 2006 financial statements. The contract
            required that the audit be performed in accordance with generally accepted government auditing
            standards issued by the Comptroller General of the United States; Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements; and the
            GAO/PCIE Financial Audit Manual.

            In its audit of the Department of the Treasury, KPMG LLP

                •   found that the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;

                •   reported that the four material weaknesses and the other significant deficiency in
                    financial management practices identified by the auditor of the Internal Revenue Service
                    (IRS) are collectively considered a material weakness for the Department as a whole;

                •   reported that control deficiencies related to (1) information system controls and (2)
                    financial management practices at the departmental level represent significant
                    deficiencies for the Department as a whole;
Page 2

   •     reported two instances of noncompliance with laws and regulations related to the Internal
         Revenue Code Section 6325 and the Federal Information Security Management Act of
         2002;

   •     reported that the Department’s financial management systems did not substantially
         comply with the requirements of the Federal Financial Management Improvement Act of
         1996; and

   •     reported an instance of a potential Anti-deficiency Act violation related to transactions
         and activities of the Treasury Franchise Fund.

IRS’s pervasive internal control weaknesses have existed since audits of its financial statement
were initiated in FY 1992. The Government Accountability Office (GAO), the auditor of IRS’s
financial statements for the fiscal years ending September 30, 2007 and 2006, reported that the
bureau continued to make significant strides in addressing its financial management challenges
and substantially mitigated several material weaknesses in its internal controls. In particular,
IRS made progress related to tax receipts reporting and certification, cost accounting
implementation, targeting outstanding tax debt collection efforts, reducing the risk of improper
refund disbursements, and improving accounting for tax administration activities. However,
IRS’s ability to fully address its remaining financial management issues largely depends on
addressing the limitations of its automated systems used to process tax-related activities. IRS is
in the midst of a major business systems modernization effort that is ultimately intended to
resolve its most serious financial systems challenges. However, it is unclear when this effort will
be completed or if it will be fully successful. Continued involvement by IRS officials and the
Department’s senior leadership is essential to effectively address these matters.

EVALUATION OF AUDITORS’ PERFORMANCE

To ensure the quality of the audit work performed, we reviewed KPMG LLP’s approach and
planning of the audit, evaluated the qualifications and independence of the auditors, monitored
the progress of the audit at key points, reviewed and accepted KPMG LLP’s audit report, and
performed other procedures that we deemed necessary. We also provide oversight of the audits
of financial statements and certain accounts and activities conducted at 12 component entities of
the Department. Our review, as differentiated from an audit in accordance with generally
accepted government auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the effectiveness of internal
control or on whether the Department’s financial management systems substantially complied
with the Federal Financial Management Improvement Act of 1996 or conclusions on compliance
with laws and regulations. KPMG LLP is responsible for the attached auditor’s report dated
November 14, 2007, and the conclusions expressed in that report. However, our review disclosed
no instances where KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.
Page 3

I appreciate the courtesies and cooperation extended to KPMG LLP and my staff during the
audit. Should you or your staff have questions, you may contact me at (202) 622-1090 or
Marla A. Freedman, Assistant Inspector General for Audit, at (202) 927-5400.

Attachment

cc: Peter B. McCarthy
    Assistant Secretary for Management
       and Chief Financial Officer
THIS PAGE INTENTIONALLY LEFT BLANK
         SECTION I –

INDEPENDENT AUDITORS’ REPORT
 AND MANAGEMENT’S RESPONSE
THIS PAGE INTENTIONALLY LEFT BLANK
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                          Independent Auditors’ Report


Inspector General
Department of the Treasury:

We have audited the accompanying consolidated balance sheets of the U.S. Department of the Treasury
(the Department) as of September 30, 2007 and 2006, and the related consolidated statements of net cost,
changes in net position, combined statements of budgetary resources, and the statements of custodial
activity (hereinafter referred to as the consolidated financial statements), for the years then ended. The
objective of our audits was to express an opinion on the fair presentation of these consolidated financial
statements. These consolidated financial statements are incorporated in the accompanying Department of
the Treasury Fiscal Year 2007 Performance and Accountability Report (PAR).

We did not audit the amounts included in the consolidated financial statements related to the Internal
Revenue Service (IRS), a component entity of the Department. The financial statements of the IRS were
audited by another auditor whose report has been provided to us. Our opinion, insofar as it relates to the
amounts included for IRS’s financial statements, is based solely on the report of the other auditor.

In connection with the fiscal year 2007 audits, we, and the other auditor, also considered the Department’s
internal controls over financial reporting and performance measures, and tested the Department’s
compliance with certain provisions of applicable laws, regulations, contracts, and grant agreements that
could have a direct and material effect on these consolidated financial statements.

SUMMARY

As stated in our opinion on the consolidated financial statements, based on our audits and the report of the
other auditor, we concluded that the Department’s consolidated financial statements as of and for the years
ended September 30, 2007 and 2006, are presented fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles.

As discussed in Note 23 to the consolidated financial statements, the Department changed its method of
reporting the reconciliation of budgetary resources to the net cost of operations in fiscal year 2007 in
accordance with OMB Circular No. A-136, Financial Reporting Requirements.

Our, and the other auditor’s, consideration of internal controls over financial reporting and performance
measures resulted in the following areas being identified as significant deficiencies:

•   Financial Management Practices at the IRS (Repeat Condition)
•   Information System Controls (Repeat Condition)
•   Financial Management Practices at the Departmental Level.

We consider the significant deficiency related to Financial Management Practices at the IRS noted above,
to be a material weakness.

We, and the other auditor, noted no deficiencies involving the design of the internal control over the
existence and completeness assertions related to key performance measures.



                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
The results of our tests, and the tests performed by the other auditor, of compliance with certain provisions
of laws, regulations, contracts, and grant agreements disclosed instances of noncompliance with Internal
Revenue Code (IRC) Section 6325, and the Federal Information Security Management Act of 2002
(FISMA), that are required to be reported under Government Auditing Standards, issued by the
Comptroller General of the United States, and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. In addition, the Department’s financial
management systems did not substantially comply with the Federal Financial Management Improvement
Act of 1996 (FFMIA) requirements related to compliance with Federal financial management system
requirements (FFMSR), applicable Federal accounting standards, and the U.S. Government Standard
General Ledger (SGL) at the transaction level.

In other matters, the Department’s management has informed us of an instance of a potential
Anti-deficiency Act violation related to certain transactions and activities within the Treasury Franchise
Fund. This potential violation is currently under review.

The following sections discuss our opinion on the Department’s consolidated financial statements; our, and
the other auditor’s, consideration of the Department’s internal control over financial reporting and
performance measures; our, and the other auditor’s, tests of the Department’s compliance with certain
provisions of applicable laws, regulations, contracts, and grant agreements; other matters; and
management’s and the auditors’ responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of the U.S. Department of the Treasury as of
September 30, 2007 and 2006, and the related consolidated statements of net cost, changes in net position,
the combined statements of budgetary resources, and the statements of custodial activity, for the years then
ended. We did not audit the amounts included in the consolidated financial statements related to the financial
statements of the IRS, a component entity of the Department, which reflects total assets of $31.3 billion and
$26.3 billion, net costs of operations of $11.7 billion and $11.5 billion, and custodial revenues of $2.7 trillion
and $2.5 trillion, as of and for the years ended September 30, 2007 and 2006, respectively. The financial
statements of the IRS as of and for the years ended September 30, 2007 and 2006, were audited by another
auditor whose report dated November 5, 2007, has been provided to us and our opinion, insofar as it relates
to the amounts included for the IRS’s financial statements, is based solely on the report of the other auditor.

In our opinion, based on our audits and the report of the other auditor, the consolidated financial statements
referred to above present fairly, in all material respects, the financial position of the Department of the
Treasury as of September 30, 2007 and 2006, and its net costs, changes in net position, budgetary
resources, and custodial activity, for the years then ended, in conformity with U.S. generally accepted
accounting principles.

As discussed in Note 23 to the consolidated financial statements, the Department changed its method of
reporting the reconciliation of budgetary resources to the net cost of operations in fiscal year 2007 in
accordance with OMB Circular No. A-136 (OMB Circular No. A-136).

The information in the PAR in Part I – Management’s Discussion and Analysis, and the Required
Supplemental Information section of Part III – Annual Financial Report, is not a required part of the
consolidated financial statements, but is supplementary information required by U.S. generally accepted
accounting principles, and OMB Circular No. A-136. We, and the other auditor, have applied certain
limited procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we did not audit this information and,
accordingly, we express no opinion on it.


                                                       2

Our audits, and the audits of the other auditor, were conducted for the purpose of forming an opinion on
the consolidated financial statements taken as a whole. The information in the PAR on pages v through xx,
in Part II – Annual Performance Report; in Other Accompanying Information section of Part III – Annual
Financial Report; and in Part IV – Appendices, are presented for purposes of additional analysis and are
not required as part of the consolidated financial statements. This information has not been subjected to
auditing procedures, and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our, and the other auditor’s, consideration of internal control over financial reporting is described below in
the Responsibilities section of this report. Our consideration of internal control over financial reporting was
for a limited purpose and would not necessarily disclose all matters in the internal control over financial
reporting that might be significant deficiencies or material weaknesses. The other auditor’s consideration
of internal control over financial reporting was for the purpose of providing an opinion on the effectiveness
of IRS’s internal controls.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the Department’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with U.S. generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of the Department’s consolidated financial statements that is more
than inconsequential will not be prevented or detected by the Department’s internal control over financial
reporting. A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements will not be
prevented or detected by the Department’s internal control.

In our fiscal year 2007 audit, we, and the other auditor, noted certain matters, summarized below,
involving internal control over financial reporting and its operations that we consider to be significant
deficiencies. Because of the IRS material weaknesses in internal controls discussed below, the other
auditor’s opinion on internal controls stated that the IRS did not maintain effective internal controls over
financial reporting (including safeguarding of assets), or compliance with laws and regulations, and thus
did not provide reasonable assurance that losses, misstatements, and noncompliance with laws material in
relation to the financial statements would be prevented or detected on a timely basis.

MATERIAL WEAKNESS

Financial Management Practices at the IRS (Repeat Condition)

IRS has continued to make significant strides in addressing its financial management challenges and has
substantially mitigated several material weaknesses in its internal controls. However, serious internal
control and financial management systems deficiencies continued to make it necessary for IRS to rely on
resource-intensive compensating procedures to prepare its financial statements. IRS’s ability to fully
address its remaining financial management issues largely depends on addressing the limitations of its
automated systems used to process tax related activities.

As a result, IRS personnel will continue to be challenged to sustain the level of effort needed to produce
reliable financial statements timely until the IRS successfully addresses the underlying systems and
internal control weaknesses. These challenges affect IRS’s ability to fulfill its responsibilities as the
nation’s tax collector because the IRS continues to lack accurate, useful, and timely financial information


                                                       3

and sound controls with which to make fully informed decisions day to day and to ensure ongoing
accountability.

The material weaknesses and the other significant deficiency in internal control over financial reporting
identified by the auditors of IRS’s financial statements, all of which are repeat conditions, and collectively
considered a material weakness for the Department as a whole, are summarized as follows:

•	 Weaknesses in controls over the financial reporting process, resulting in IRS not (1) being able to
   prepare reliable financial statements without extensive compensating procedures, and (2) having
   current and reliable ongoing information to support management decision making and to prepare
   cost-based performance measures

•	 Weaknesses in controls over unpaid tax assessments, resulting in IRS’s inability to properly manage
   unpaid tax assessments and leading to increased taxpayer burden

•	 Weaknesses in controls over the collection of tax revenues due to the federal government and over the
   issuance of tax refunds, resulting in lost revenue to the federal government and potentially billions of
   dollars in improper payments

•	 Weaknesses in information security controls, resulting in increased risk of unauthorized individuals
   accessing, altering, or abusing proprietary IRS programs and electronic data and taxpayer information.

The material weaknesses in internal control noted above may adversely affect decisions by IRS’s
management that is based, in whole or in part, on information that is inaccurate because of these
deficiencies.

Another significant deficiency in internal control, although not a material weakness, a repeat condition,
was identified that involved weaknesses in IRS’s controls over hard-copy taxpayer receipts and related
information, that increase the risk that this information may be lost, stolen, or compromised.

Additional details related to the material weaknesses and the significant deficiency identified above have
been provided to IRS management by the auditors of the IRS’s financial statements in their report dated
November 5, 2007.

Recommendations

Recommendations to address the material weaknesses and other significant deficiency discussed above
have been provided to IRS management by the auditors of the IRS’s financial statements. We recommend
that the Assistant Secretary for Management and Chief Financial Officer (ASM/CFO) provide effective
oversight to ensure that corrective actions are taken by the IRS to fully address this material weakness and
the other significant deficiency.

SIGNIFICANT DEFICIENCIES

Information System Controls (Repeat Condition)

Information controls and security programs Department-wide require additional improvements. The
weaknesses identified are summarized below.




                                                      4

Financial Management Service (FMS)

During fiscal year 2007, FMS continued to make progress in addressing information technology (IT)
general controls weaknesses raised in prior years. However, control weaknesses continue to exist in this
area. Current year tests conducted over IT general controls revealed the following weaknesses:

•	 Entity-wide Information Security Management – An entity-wide program for security planning and
   management represents the foundation for an entity’s security control structure and a reflection of
   senior management’s commitment to addressing security risks. While weaknesses were corrected in
   some systems and platforms, they continue to exist in other areas as evidenced by the continued
   existence of previously identified problems in newly reviewed IT areas indicating a lack of consistency
   in the application of an agency-wide strategy.

•	 System Software – Controls over access to, and modification of system software are essential to
   protect the overall integrity and reliability of information systems. Previously noted mainframe
   operating system support issues were identified again this year.

•	 Access Controls – Access controls are designed to limit or detect access to computer programs, data,
   equipment, and facilities to protect these resources from unauthorized modification, disclosure, loss, or
   impairment. A comprehensive access control program, including increased management oversight, is
   needed to fully address the administration of access controls in order to increase the reliability of
   computerized data and decrease the risk of destruction or inappropriate disclosure of data. Although
   prior access control findings have been substantially addressed, additional access control weaknesses
   were identified again this year.

The above weaknesses collectively serve to weaken the IT general control environment at FMS. The
detailed findings and related recommendations will be provided to FMS management in a separate report.

Departmental IT Security Program

We identified deficiencies related to configuration management throughout the Department. Specifically,
not all Treasury bureaus/offices have established configuration, vulnerability, and patch management
guides or baselines for IT systems, and some bureaus/offices that have configuration baselines in place do
not meet the requirements of National Institute of Standards and Technology (NIST) Special Publication
800-70. This deficiency impacts the Department’s ability to comply with FISMA. FISMA lays out a
framework for required annual information security reviews, reporting, and remediation planning by
Federal agencies. It is intended to strengthen information security by requiring agencies to develop,
document, and implement agency-wide information security programs.

A key reason for the Department’s information security weaknesses is that it has not yet fully implemented
an agency-wide information security program to ensure that controls are effectively established and
maintained to meet NIST and FISMA requirements.

Recommendation

We recommend that the Department’s ASM/CFO provide effective oversight and the resources necessary
to ensure that required information security requirements over financial systems are implemented
throughout the Department.




                                                     5

Financial Management Practices at the Departmental Level

Improvements are needed in current financial management and reporting practices at the Departmental
level. We reported that improvements are needed in these areas in respective Management Letters that
were issued related to our fiscal year 2006 and 2005 audits. The Office of Accounting and Internal Control
(AIC), within the Office of the Deputy Chief Financial Officer (ODCFO), is responsible for establishing
and maintaining financial policies that guide consolidated financial reporting throughout the Department,
and implementing internal controls to ensure the overall integrity of the consolidated financial statements
that are prepared by AIC from trial balances and other financial data submitted by Treasury components.
The Department’s Office of Strategic Planning and Performance Management (OSPPM) within the Office
of Performance Budgeting (OPB), is responsible for the preparation of the performance section of the
PAR. Certain quality control procedures are conducted by AIC and OSPPM to ensure that Treasury
bureaus’ and offices’ financial and other data is accurate and complete for inclusion in the Department’s
consolidated financial statements and PAR. However, several deficiencies were noted as described below
that indicated a weak control environment, resulting in financial management and reporting weaknesses.
These deficiencies in internal control over financial reporting are collectively considered a significant
deficiency for the Department as a whole.

•	 AIC’s financial management infrastructure is inadequately staffed for an office that is responsible for
   the consolidated financial reporting and internal control structure of a large and complex Executive
   Branch agency. AIC does not have a sufficient number of experienced financial managers and staff to
   expeditiously address routine and nonroutine accounting issues. In addition, the accuracy of financial
   information is highly dependent on the knowledge and experience of a limited number of key financial
   personnel. Both AIC and OPB have several key personnel with significant institutional knowledge of
   the Department’s accounting and reporting processes that are at or near retirement eligibility status, and
   in the event of the retirement or sudden prolonged absence of one or more of the key accounting
   individuals, there could be a serious loss of operational and institutional knowledge. Some steps have
   been taken to address succession planning during the year, such as the development of a set of core
   competencies as well as an analysis of the strengths and weaknesses within AIC; however, continued
   focus is needed to resolve this long-term issue.

•	 Supervisory and monitoring control procedures were not consistently performed and documented over
   work prepared by AIC and OSPPM staff, and over financial data and other information transmitted by
   Treasury components. During our review of the March 31 and June 30 consolidated financial
   statements, we noted errors and discrepancies that were only corrected after they were identified during
   audit test work. Further, comments provided by the auditor on the initial draft 2007 PAR were not
   reviewed by responsible officials within OSPPM prior to submission of the revised draft of the 2007
   PAR for audit, causing the same errors to be identified repeatedly. In other instances, we noted
   inadequate and/or untimely follow-up of accounting and/or reporting issues.

•	 Although the Department established an effective plan to assess, document, test and report on internal
   controls over financial reporting, in accordance with OMB Circular No. A-123 Revised, Management’s
   Responsibility for Internal Control (A-123), Appendix A, certain Treasury components did not fully
   execute the plan. Specifically, certain smaller components did not have or provide verifiable and
   documented results to support their conclusion as to whether internal controls over financial reporting
   were properly designed and operating effectively for certain areas in accordance with the Department’s
   guidelines. Instead, these components relied on prior year financial statement audit results to support
   their position that no further work was required. In addition, AIC did not conduct an adequate and
   timely centralized review of the work done by components to assess whether the Department’s A-123
   methodology and implementation requirements had been followed and supported the Departmental
   assurance statement on internal control over financial reporting.


                                                     6

The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires that agencies establish internal
controls according to standards prescribed by the Comptroller General and specified in the Government
Accountability Office’s (GAO) Standards for Internal Control in the Federal Government (Standards).
The GAO defines “internal control” as an integral component of an organization’s management that
provides reasonable assurance that the following objectives are achieved: effectiveness and efficiency of
operations, reliability of financial reporting, and compliance with applicable laws and regulations. The
GAO Standards identify the control environment as one of the five key elements of control, which
emphasizes the importance of control conscientiousness in management’s operating philosophy and
commitment to internal control. These standards cover controls such as human capital practices,
supervisory reviews, and segregation of duties, policies, procedures, and monitoring.

A-123 requires agencies to (1) develop and implement management controls; (2) assess the adequacy of
management controls; (3) identify needed improvements; (4) take corresponding corrective actions; and
(5) report annually on management controls in support of FMFIA.

The issues identified occurred mainly due to the fact that key AIC financial personnel have excessive
workloads and insufficient time is available for key financial personnel to devote to supervisory reviews
and other financial management activities. AIC has not hired the staff necessary, nor has it been able to
train other Treasury staff sufficiently to assume their responsibilities, due in part to budget constraints.
These issues have resulted in increased reliance being placed on the annual audit process to identify errors
and omissions in the consolidated financial statements, as well as the Department’s implementation of
A-123.

Recommendations

We recommend that the ASM/CFO, and Deputy Assistant Secretary for Human Resources and Chief
Human Capital Officer, with input from the Director of AIC, as appropriate:

1.	 Complete a human capital needs assessment, with particular focus on the management skills needed to
    perform the daily operations of AIC. Once the human capital needs are assessed, hire staff, or consider
    transferring suitable staff from other offices within Treasury to meet these immediate needs. Consider
    what actions can be taken now, without additional staff, to ensure that if a key staff member is
    unexpectedly unavailable to perform his/her duties, that the Department’s financial management
    responsibilities will be met with minimal disruption, and document these actions, as necessary.

2.	 Improve supervisory and monitoring control procedures over all financial data, and other information
    to ensure timely identification and correction of errors and discrepancies.

3.	 Conduct an earlier review of the A-123 work being conducted by components to ensure that the
    Department’s A-123 guidance is fully implemented, and if not, document the rationale or mitgating
    factors that were considered for not following the Department’s requirements. Also, communicate the
    deficiencies identified during the fiscal year 2007 A-123 testing, as discussed above, to all
    components, and conduct timely follow-up to ensure that these deficiencies have been addressed, as
    necessary, during fiscal year 2008 A-123 testing. In addition, conduct training, as necessary, to ensure
    that there is consistency amongst all components in following Departmental A-123 requirements.




                                                     7

INTERNAL CONTROL OVER PERFORMANCE MEASURES

Our, and the other auditor’s, tests of internal control over performance measures, as described below in the
Responsibilities section of this report, disclosed no deficiencies involving the design of the internal control
over the existence and completeness assertions related to key performance measures.

COMPLIANCE AND OTHER MATTERS

Our tests, and the tests performed by the other auditor, of compliance with certain provisions of laws,
regulations, contracts, and grant agreements, as described below in the Responsibilities section of this
report, exclusive of those referred to in FFMIA, disclosed two instances of noncompliance that are required
to be reported under Government Auditing Standards and OMB Bulletin No. 07-04, and are described
below.

•	 Noncompliance with IRC Section 6325 – The IRC grants IRS the power to file a lien against the
   property of any taxpayer who neglects or refuses to pay all assessed Federal taxes. Under IRC Section
   6325, the IRS is required to release a Federal tax lien within 30 days after the date the tax liability is
   satisfied, or has become legally unenforceable, or the Secretary of the Treasury has accepted a bond for
   the assessed tax. The fiscal year 2007 audit continued to identify instances in which the IRS did not
   release the applicable Federal tax lien within 30 days of the tax liability being either paid off or abated
   as required by the IRC (Repeat Condition).

•	 Noncompliance with FISMA – FISMA requires agencies to conduct annual security reviews,
   reporting, and remediation planning. Information security weaknesses continue to exist throughout the
   Department, despite notable progress made in fiscal year 2007, as discussed further in the section
   above related to Internal Control Over Financial Reporting. These deficiencies collectively constitute
   noncompliance with FISMA (Repeat Condition).

The results of our tests, and the tests performed by the other auditor, of compliance as described in the
Responsibilities section of this report, exclusive of those referred to in FFMIA, disclosed no other
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA, and the tests performed by the other auditor, disclosed instances where
the Department’s financial management systems did not substantially comply with FFMIA Section 803(a)
requirements related to compliance with FFMSR, applicable Federal accounting standards, and the SGL at
the transaction level, as described below.

Instances of noncompliance with FFMSR are summarized below:

•	 IRS’s financial management systems do not provide timely and reliable information for financial
   reporting and preparation of financial statements. IRS had to rely extensively on resource-intensive
   compensating procedures to generate reliable financial statements. IRS also lacks a subsidiary ledger
   for its unpaid assessments and lacks an effective audit trail from its general ledger back to subsidiary
   detailed records and transaction source documents for material tax-related balances such as tax
   revenues, tax receivables, and tax refunds.

•	 Deficiencies were identified in information security controls at the IRS, resulting in increased risk of
   unauthorized individuals accessing, altering, or abusing proprietary IRS programs and electronic data
   and taxpayer information.



                                                      8

Instances of noncompliance with Federal accounting standards are summarized below:

•	 Material weaknesses at the IRS related to controls over unpaid tax assessments, tax revenue, and
   refunds.

•	 IRS’s financial management system cannot produce managerial cost information consistent with the
   requirements of Statement of Federal Financial Accounting Standards No. 4, Managerial Cost
   Accounting Standards.

An instance of noncompliance with the SGL at the transaction level is summarized below:

•	 IRS also lacks a subsidiary ledger for its unpaid assessments and lacks an effective audit trail from its
   general ledger back to subsidiary detailed records and transaction source documents for material tax-
   related balances such as tax revenues, tax receivables, and tax refunds.

The Secretary of the Treasury also has stated in the Secretary’s Letter of Assurance, included in Part I –
Management’s Discussion and Analysis, of the accompanying PAR that the Department cannot provide
assurance that its financial management systems are in substantial compliance with FFMIA. The
Department’s remedial actions and related time frames are presented in Appendix E of the PAR.

FFMIA requires that if the head of an agency determines that its financial management systems do not
substantially comply with FFMIA, a remediation plan must be developed, in consultation with OMB that
describes the resources, remedies, and intermediate target dates for achieving substantial compliance.
FFMIA also requires OMB concurrence with any plan not expected to bring the agency’s system into
substantial compliance within three years after a determination of noncompliance is made.

IRS has established a remediation plan to address the conditions affecting its systems’ inability to comply
substantially with the requirements of FFMIA. This plan outlines the actions to be taken to resolve these
issues, but because of the long-term nature of IRS’s systems modernization efforts, which IRS expects will
resolve many of the most serious issues, many of the planned time frames exceed the three-year resolution
period specified in FFMIA. OMB concurred with Treasury’s determination that IRS could not bring its
systems into substantial compliance within three years, and OMB monitors IRS’s progress in remediating
its systems deficiencies on an ongoing basis.

Recommendations

We recommend that the ASM/CFO ensure that (1) IRS implements appropriate controls so that Federal tax
liens are released in accordance with Section 6325 of the IRC; (2) information security programs are
implemented throughout the Department in accordance with FISMA; and (3) IRS defines a plan of action
to solve its financial management problems so as to enable resolving the identified instances of financial
management systems noncompliance with the requirements of FFMIA.

Other Matters

The Department’s management informed us of an instance of a potential Anti-deficiency Act violation
related to transactions and activities of the Treasury Franchise Fund. Specifically, budgetary control
weaknesses existing within the Treasury Franchise Fund may have allowed a potential violation of the
Anti-deficiency Act. This matter is currently under review.




                                                     9

Management’s Response to Internal Control and Compliance Findings

The Department’s management has indicated in a separate letter immediately following this report that it
concurs with the findings presented in this section of our report. Further, it has responded that it will take
corrective action as necessary to ensure the matters presented are addressed by the respective component
management within the Department. We did not audit the Department’s response and, accordingly, we
express no opinion on it.

                                                 * * * * *

We noted certain additional matters involving internal control over financial reporting and its operation
that we will report to the Department’s management in a separate letter.

RESPONSIBILITIES

Management’s Responsibilities. The United States Code Title 31 Section 3515 and 9106 require agencies
to report annually to Congress on their financial status and any other information needed to fairly present
their financial position and results of operations. To meet these reporting requirements, the Department
prepares and submits financial statements in accordance with OMB Circular No. A-136.

Management is responsible for the consolidated financial statements, including:

•	 Preparing the consolidated financial statements in conformity with U.S. generally accepted accounting
   principles

•	 Preparing Management’s Discussion and Analysis (including the performance measures), and Required
   Supplemental Information

•	 Establishing and maintaining effective internal control

•	 Complying with laws, regulations, contracts, and grant agreements applicable to the Department,
   including FFMIA.

In fulfilling this responsibility, management is required to make estimates and judgments to assess the
expected benefits and related costs of internal control policies.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2007 and 2006
consolidated financial statements of the Department based on our audits and the report of the other auditor.
We, and the other auditor, conducted our audits in accordance with auditing standards generally accepted
in the United States of America; the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin No. 07-04.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the consolidated financial statements are free of material misstatement.
An audit includes consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the Department’s internal control over financial reporting. Accordingly, we express no
such opinion. However, the purpose of the other auditor’s audit is to express an opinion on the
effectiveness of the IRS’s internal control over financial reporting.




                                                     10

An audit also includes:

•	 Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
   financial statements

•	 Assessing the accounting principles used and significant estimates made by management

•	 Evaluating the overall consolidated financial statement presentation.

We believe that our audits, and the report of the other auditor, related to the amounts included for the IRS’s
financial statements, provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2007 audit, we considered the Department’s internal control
over financial reporting, exclusive of the internal control over financial reporting related to the IRS, by
obtaining an understanding of the design effectiveness of the Department’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
consolidated financial statements. Internal control over financial reporting related to the IRS was
considered by the other auditor whose report thereon dated November 5, 2007 has been provided to us.
We, and the other auditor, limited our internal control testing to those controls necessary to achieve the
objectives described in Government Auditing Standards and OMB Bulletin No. 07-04. We did not test all
internal controls relevant to operating objectives as broadly defined by the FMFIA. The objective of our
audit was not to express an opinion on the effectiveness of the Department’s internal control over financial
reporting. Accordingly, we do not provide an opinion on the effectiveness of the Department’s internal
control over financial reporting. The objective of the other auditor’s audit was to express an opinion on the
effectiveness of the IRS’s internal control over financial reporting. Accordingly, the other auditor provided
an opinion on IRS’s internal control over financial reporting.

As required by OMB Bulletin No. 07-04, in our fiscal year 2007 audit, with respect to internal control
related to performance measures determined by management to be key and reported in Part I –
Management’s Discussion and Analysis, and Part II – Annual Performance Report sections of the PAR, we
obtained an understanding of the design of significant internal controls relating to the existence and
completeness assertions, and determined whether these internal controls had been placed in operation,
exclusive of those related to performance measures presented for the IRS. An understanding of the design
of significant internal controls relating to the existence and completeness assertions and determination as to
whether these internal controls had been placed in operation related to the IRS’s performance measures
was obtained by the other auditor whose report thereon dated November 5, 2007 was provided to us. We,
and the other auditor, limited our testing to those controls necessary to report deficiencies in the design of
internal control over key performance measures in accordance with OMB Bulletin No. 07-04. However,
our, and the other auditor’s, procedures were not designed to provide an opinion on internal control over
reported performance measures and, accordingly, we do not provide an opinion thereon.

As part of obtaining reasonable assurance about whether the Department’s fiscal year 2007 consolidated
financial statements are free of material misstatement, we, and the other auditor, performed tests of the
Department’s compliance with certain provisions of laws, regulations, contracts, and grant agreements,
noncompliance with which could have a direct and material effect on the determination of the consolidated
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 07-04, including certain provisions referred to in FFMIA. We, and the other auditor, limited
our tests of compliance to the provisions described in the preceding sentence, and we did not test
compliance with all laws, regulations, contracts, and grant agreements applicable to the Department.


                                                     11

However, providing an opinion on compliance with laws, regulations, contracts, and grant agreements was
not an objective of our audit, or the other auditor’s audit, and, accordingly, we do not express such an
opinion.

Under OMB Bulletin No. 07-04 and FFMIA, we are required to report whether the Department’s financial
management systems substantially comply with (1) FFMSR, (2) applicable Federal accounting standards,
and (3) the United States Government Standard General Ledger at the transaction level. To meet this
requirement, we, and the other auditor, performed tests of compliance with FFMIA Section 803(a)
requirements.

RESTRICTED USE

This report is intended solely for the information and use of the Department’s management, the
Department’s Office of Inspector General, OMB, the GAO, and the U.S. Congress and is not intended to
be and should not be used by anyone other than these specified parties.




November 14, 2007




                                                  12

THIS PAGE INTENTIONALLY LEFT BLANK
        SECTION II –

 DEPARTMENT OF THE TREASURY
FISCAL YEAR 2007 PERFORMANCE
   & ACCOUNTABILITY REPORT
THIS PAGE INTENTIONALLY LEFT BLANK
                         Department of the Treasury


                         Performance &
                         Accountability Report




Fisc a l Yea r 2 0 0 7
           The United States 

      Department Of The Treasury



                       Our Mission
    Serve the American people and strengthen national security by
  managing the U. S. Government’s finances effectively, promoting
  economic growth and stability, and ensuring the safety, soundness
       and security of U.S. and international financial systems.



                         Our Values

Service – Work for the benefit of the American people.

Integrity – Aspire to the highest ethical standards of honesty,
             trustworthiness, and dependability.
Excellence – Strive to be the best, continuously improve,
             innovate, and adapt.
Objectivity – Encourage independent views.

Accountability – Responsible for our conduct and work.

Community – Dedicated to excellent customer service,
             collaboration, and teamwork while promoting diversity.
Department of the Treasury


Fiscal Year 2007
Performance & Accountability Report
ii   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007
                                                                                                                                                                                                                                                        iii




Contents

Major Sections
   Message from the Secretary .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .v

   Message from the Assistant Secretary for Management and Chief Financial Officer  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .vii

   About this Report .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . ix

   Operational Highlights  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . xvii

   Performance Highlights  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . xviii

   Financial Highlights  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . xix


Part I: Management’s Discussion & Analysis

   Executive Summary                              .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

   Treasury Department’s Strategic Framework  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

   Strategic-Operational Relationship  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

   Performance Scorecard .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 22

   Analysis of Financial Statements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28

   Improper Payments Information Act and Recovery Act .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37

   Management Assurances  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39

   Material Weaknesses, Audit Follow-up, and Financial Systems  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 40


Part II: Annual Performance Report

   Financial - Effectively Managed U .S . Government Finances  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47

   Economic - U .S . and World Economies Perform at Full Economic Potential                                                                                                        .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 68

   Security - Prevented Terrorism and Promoted the Nation’s Security

              Through Strengthened International Financial Systems  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 86

   Management - Management and Organizational Excellence  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 99


Part III: Annual Financial Report

   Inspector General’s Transmittal Letter  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 117

   Independent Auditors’ Report on Department’s Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 119

   Management’s Response to Auditors’ Report  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 131

   Financial Statements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 133

   Notes to the Financial Statements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 140

   Required Supplemental Information (Unaudited)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 187

   Other Accompanying Information (Unaudited)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 191


Part IV: Appendices
   Appendix A: Full Report of the Treasury Department’s

               Fiscal Year 2007 Performance Measures by Focus and Strategic Goal  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 197

   Appendix B: Completeness and Reliability of Performance Data .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 277





                                                                                                                                                                                                                                                   Contents
iv                                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




     Appendix C: Improper Payments Information Act  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 279

     Appendix D: Management Challenges and Responses .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 287

     Appendix E: Material Weaknesses, Audit Follow-up & Financial Systems .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 319

     Appendix F: Organizational Structure  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 333

     Appendix G: Program Assessment Rating Tool (PART) Evaluations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 335

     Appendix H: Cost by Outcome Determination  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 355

     Appendix I: Glossary of Acronyms  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 357

                                                                                                                                            v




Message from
the Secretary
November 15, 2007


On behalf of the Department of the Treasury, I am pleased to submit the
Fiscal Year 2007 Performance and Accountability Report . This annual
report provides our stakeholders with insight into the Department’s
broad leadership role for the economic and financial activities of the U .S .
Government . Currently, the United States has a fundamentally healthy
economy . Our unemployment rate remains low and real incomes are ris­
ing . In industry after industry, we innovate and create new opportunities .

The Treasury Department continues to work on maintaining a healthy economy . Our mission is to promote
the conditions for prosperity and stability in the United States, and in the world’s economies .

To meet our mission and focus our efforts, the Treasury Department released its Strategic Plan for fiscal years
2007-2012 . This plan outlines the Department’s priorities in the coming years and identifies the desired
outcomes that will guide us to effectively manage and leverage resources across the Department .

Measuring performance is paramount to keep the Department of the Treasury accountable to the American
people . In fiscal year 2007, the Department met 72 percent of its performance targets; an increase of 13
percent over last year . The Department continues to address performance challenges, and is developing
meaningful performance measures that align resources to deliver outcomes and help ensure taxpayer dollars
are spent effectively .

The President’s Management Agenda is the central focus for the Treasury Department’s effort in manage­
ment improvement . The Department maintained its scores in Performance Improvement, Human Capital,
Credit Management, E-Government, and Competitive Sourcing, while improving its score in the Financial
Performance initiative .

During fiscal year 2007, the Department of the Treasury achieved progress on many fronts; however, the
effective administration and oversight of information technology systems continues to be one of our major
challenges, representing risk to our operations and mission responsibilities . Significant advancements were
made in addressing ongoing challenges by building an integrated and consolidated information technology
infrastructure, successfully managing large IT investments, and improving information security . In fiscal
year 2007, the Treasury Department concentrated on expanding its oversight of the bureau IT governance
process, and progressed in safeguarding privacy information and related assets .

The Department of the Treasury has again received an unqualified opinion on its financial statements, which
validates the accuracy, completeness, and reliability of the financial data in this report . Likewise, the perfor­
mance data presented herein are complete and reliable . The Department has continued to make progress
in reducing management control weaknesses . We also established corrective action plans to satisfy federal
financial systems and control objectives .




                                                                                                                     Message from the Secretary
vi                                                             Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         The successes and challenges of this fiscal year will serve as a foundation for our future efforts . Looking
                         ahead, the Treasury Department will continue to work to keep the economy strong, tackle long-term issues
                         such as entitlement reform, maintain our competitiveness, protect the global financial system from illicit
                         use, and strengthen trade and investment policies that can provide better jobs and higher wages to American
                         workers .

                         Sincerely,




                         Henry M . Paulson, Jr .
                         Secretary of the Treasury




Message from the Secretary
                                                                                                                                             vii




Message from the
Assistant Secretary for
Management and Chief
Financial Officer

November 15, 2007


Secretary Paulson’s message describes the Department of Treasury’s broad

management role as the economic and financial leader for the U .S .

Government . The Department’s vast and complex responsibilities are reflected in its financial statements — 

$9 .5 trillion in assets and liabilities, $2 .7 trillion in gross revenues, and $436 billion in net outlays .


To effectively manage the Department’s $17 billion operating budget in support of these efforts, senior

department leaders meet regularly to prioritize activities, discuss emerging issues, and review long term strate­

gies . Our key functional leaders in the areas of procurement, human capital, information technology, and

finance have each formed robust councils that oversee compliance, best practices, and new initiatives across

the Department .


In fiscal year 2007, the Department maintained or improved its results in all of the President’s Management

Agenda initiatives, most notably in the Financial Management initiative, and consistently closed its books 

within three days following the end of each month, enabling prompt delivery of reliable financial informa­

tion to key decision makers .


Other important developments in fiscal year 2007 included the release of Treasury’s revised five-year Strategic

Plan, a strengthened investment review process for information technology projects, an initiative to establish

an office to address privacy issues, and a methodology to link proprietary costs to budget activities and their

associated performance measures .


Despite our successes, we have ongoing challenges to address . In 2003, the Department of the Treasury had

fourteen material management control weaknesses under the Federal Managers’ Financial Integrity Act of

1982 (FMFIA) . Through continuous senior level attention over the past several years, the Department has 

been able to close eight of these, leaving six material weaknesses open as of September 30, 2007 . Due to

these six weaknesses, the Department provides only qualified assurance that it is meeting Federal manage­

ment control objectives . Moreover, due to one of the weaknesses, the Department is not in full compliance

with Federal financial systems requirements . Nevertheless, the Department of the Treasury again received an

unqualified opinion on its consolidated financial statements – the eighth consecutive unqualified opinion .


Looking ahead, continued oversight and emphasis is needed as we work toward eliminating the Department’s 

six material weaknesses . The Department expects to close one such weakness in fiscal year 2008 . The 

remaining five are complex systems issues requiring several years to rectify . The last of the Department’s 

material weaknesses is scheduled to be closed in fiscal year 2011 . Similarly, constant attention to the 

Management Challenges outlined by the Department’s Inspectors General is required . While these challenges 

do not necessarily indicate deficiencies in performance, they represent inherent risks that must be monitored





                                                                  Message from the Assistant Secretary for Management and Chief Financial Officer
viii                                                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         continuously . Finally, continued progress toward our goal of “Making Treasury a Great Place to Work” will
                         ensure the Department is able to attract, develop, and retain the diverse talent it requires to meet its mission
                         today and into the future .

                         The Department of the Treasury has a rich and proud 218-year history as the steward of the Nation’s
                         financial resources . The staff of the Assistant Secretary for Management and Chief Financial Officer has a
                         special responsibility to maintain the integrity of Treasury’s financial operations and to manage the resources
                         entrusted to the Department in a way that best serves the American people . We strive to merit this trust, to
                         continuously improve, and to position the Department effectively for the future .

                         Sincerely,




                         Peter B . McCarthy
                         Assistant Secretary for Management
                         and Chief Financial Officer




Message from the Assistant Secretary for Management and Chief Financial Officer
                                                                                                                                    ix




About this Report

The Department of the Treasury’s Performance and Accountability Report (PAR) for fiscal year 2007
provides information that enables Congress, the President, and the public to assess the Department’s perfor­
mance relative to its mission and stewardship of the resources entrusted to it . The Treasury Department’s
report is designed around four areas of focus: Financial, Economic, Security, and Management . Each of
these four areas has one strategic goal with a supporting objective with multiple outcomes and performance
measures that outline the Treasury Department’s approach and measures their progress .

In fiscal year 2007, the Treasury Department estimated the costs to achieve the outcomes stated in this
report . While this is similar to previous reports, this year the estimation was calculated by allocating the total
gross cost of the Department to each outcome . Prior reports only reported net costs at the goal level . Gross
cost includes imputed costs, depreciation, losses, and other expenses not requiring budgetary resources . An
example of imputed costs is post-employment benefits . These costs, however, exclude any Treasury accounts
that do not contribute to the cost of the agency, such as the Exchange Stabilization Fund and the Federal
Financing Bank .

We define this as the Department’s performance cost . Performance cost will be less than the total gross cost
reported on the Statement of Net Cost in this report .

Performance cost was used rather than net cost because it more accurately represents the total cost to achieve
a result or outcome . For instance, while the net cost to manufacture coins and notes for non-appropriated
bureaus such the U .S . Mint and the Bureau of Engraving and Printing is zero because it is essentially self-
funded, the real cost of operating these organizations is over $2 billion once all imputed costs, depreciation,
losses and other expenses are included . Taking this approach across the entire department, the Treasury
Department’s performance cost in fiscal year 2007 was approximately $17 .9 billion as compared to a net cost
of $12 billion .

Performance costs were allocated based on the relationship between a budget activity and an outcome . In
some cases there was a one-to-one relationship between a budget activity and an outcome, and in others mul­
tiple outcomes were involved . While allocating costs on a budgetary basis does not equate to activity-based
costing, it does provide some insight as to what the true operational costs are, and provides the agency with
the opportunity to begin asking questions that relate cost to performance for the outcomes it is trying to
achieve . And, since both cost and performance is known at the budget activity level, we can come closer to
understanding cost on a performance measure basis .


How this Report is organized

MESSAGE FROM THE SECRETARY
The Secretary’s message broadly describes the Department’s mission, accomplishments and challenges, and
includes an assessment of whether financial and performance data in the report is reliable and complete . The
Secretary’s message sets the tone for conveying the Department’s value to the American public .




                                                                                                                      About This Report
x                                                          Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                    MESSAGE FROM THE ASSISTANT SECRETARY FOR MANAGEMENT/
                    CHIEF FINANCIAL OFFICER
                    The Assistant Secretary’s message describes the progress and challenges about the Treasury Department’s
                    financial management, including integration of budget and performance information on the Department’s
                    management controls program under Federal Manager’s Financial Integrity Act (FMFIA), and financial man­
                    agement systems under the Federal Financial Management Improvement Act of 1996 . This message includes
                    a statement of assurance as required by FMFIA indicating whether management controls are in place and
                    financial system conform to government-wide standards .


                    MANAGEMENT’S DISCUSSION AND ANALYSIS
                    The Discussion and Analysis section provides an overview of this report . It includes a summary of the most
                    important performance results and challenges for fiscal year 2007; a brief analysis of financial performance;
                    a description of systems, controls, and legal compliance; and information on the Department’s progress in
                    implementing the President’s Management Agenda .


                    PERFORMANCE SECTION
                    This section contains the annual program performance information required by the Government
                    Performance and Results Act of 1993 (GPRA) and, combined with the Appendices, includes all of the
                    required elements of an annual program performance report as specified in OMB Circular A-11, Preparation,
                    Submission, and Executing of the Budget .


                    FINANCIAL SECTION
                    This section contains the Treasury Department’s financial statements and related Independent Auditors’
                    Report, and other information pertaining to financial management .


                    APPENDICES
                    This section contains more detailed information on the Department’s performance results, including infor­
                    mation on program evaluations, revisions to indicators or targets, and organizational structure, in-depth
                    information on the Improper Payments Information Act, Management Challenges and Responses, and infor­
                    mation on the completeness and reliability of data .




About This Report
                                                                                                                                        xi




Our Mission
Serve the American people and strengthen national security by managing the U . S . Government’s finances
effectively, promoting economic growth and stability, and ensuring the safety, soundness and security of U .S .
and international financial systems .


Our Organization
Most know the Treasury Department has something to do with money, but few understand the scope of its
functions or how it affects their daily lives .

The Department of the Treasury is the steward of the public purse . It takes in money, pays bills, and when
appropriate, borrows and invests . On a typical day, the Treasury Department’s cash transactions average
nearly $60 billion .

The most visible evidence of the Department’s work is currency - the nation’s coins and notes . The Bureau
of Engraving and Printing (BEP) produces notes and the United States Mint manufactures coins, both for
circulation and as collectibles . In addition, the United States Mint makes bullion coins for investment and
secures the nation’s gold and silver reserves .

One of the most important functions the Department of the Treasury performs is tax collection, which funds
the federal government’s operations on behalf of the American people . The Internal Revenue Service (IRS)
collects taxes and is the Department’s largest bureau, accounting for about 90 percent of its employees . The
Alcohol and Tobacco Tax and Trade Bureau (TTB) collects excise taxes on alcohol, tobacco and firearms, and
ensures that alcoholic beverages are properly produced, labeled, advertised, and marketed .

At some point nearly every American will receive a federal disbursement, such as an income tax refund or
Social Security payment, through the Financial Management Service (FMS) . The FMS also operates the
federal government’s collections and deposit systems, provides government-wide accounting and reporting
services, and manages the collection of delinquent debt .

When the total operating cost of the federal government exceeds available funds, the Bureau of the Public
Debt (BPD) borrows money by selling Treasury securities to the public, institutional investors, and autho­
rized government agencies .

Many Americans have bank accounts . The Treasury Department’s Office of the Comptroller of the Currency
(OCC) and Office of Thrift Supervision (OTS) charter, regulate, examine, and supervise national banks and
savings institutions to maintain their safety and soundness, and ensure fair access and treatment of custom­
ers . The Community Development Financial Institutions Fund (CDFI) expands the capacity of financial insti­
tutions to provide credit, capital, and financial services to underserved communities which spur economic
development and create jobs .

The Office of the Treasurer of the United States advises the Secretary on currency matters and communicates
changes in currency design to the public . The Treasurer also promotes improved financial literacy for




                                                                                                               Our Mission/Our Organization
xii                                                             Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Americans by providing education about the basics of cash and credit management so that informed deci­
                         sions can be made about their personal and family budgets .

                         The Office of Terrorism and Financial Intelligence (TFI) and the Financial Crimes Enforcement Network
                         (FinCEN) enhance national security and combat terrorist financing and their support organizations, weapons
                         of mass destruction (WMD) proliferators, drug traffickers, money launderers, and other financial criminals .

                         The Inspector General (IG) conducts independent audits, investigations, and reviews to help ensure that the
                         Treasury Department accomplishes its mission, improves its programs and operations, promotes economy,
                         efficiency, and effectiveness, and prevents and detects fraud, waste, and abuse .

                         The Treasury Inspector General for Tax Administration (TIGTA) provides audit and investigative services to
                         promote economy, efficiency, and effectiveness in the administration of the internal revenue laws .

                         The Department’s headquarters offices develop policies related to financial regulation, entitlements, taxation,
                         and terrorist financing . They also maintain accountability through internal controls, and provide guidance
                         in legal, public, and congressional matters . These offices provide data, analysis, and recommendations that
                         assist the Secretary of the Treasury, Congress and the President, and other federal agencies in financial and
                         economic decision-making for the nation .

                         Through these combined efforts the Treasury Department stays accountable to its most important stakehold­
                         ers, the American people .




Our Mission/Our Organization
                                                                                                                                        xiii




2007 Leadership Changes
In fiscal year 2007, there were several key leadership changes at the Department of the Treasury . In August
2007, David H. McCormick, sworn in as the Under Secretary for International Affairs, replaced Tim Adams
as the principal advisor to the Secretary of the Treasury on international economic issues . Before assum­
ing this role, Mr . McCormick was the Deputy National Security Advisor to the President for International
Economic Affairs and responsible for coordinating U .S . international economic policy, foreign assistance, and
humanitarian affairs . Prior to his role at the White House, Mr . McCormick served as the Under Secretary
of Commerce for Export Administration with global policy and law enforcement responsibilities for high
technology trade and controls .

Phillip Swagel, the Assistant Secretary for Economic Policy, was sworn in on December 11, 2006, to advise
the Secretary on all aspects of economic policy, including current and prospective macroeconomic develop­
ments, and the development and analysis of the Administration’s economic initiatives . Prior to this, Mr .
Swagel served as the Chief of Staff for the White House Council of Economic Advisers for three years .

On December 12, 2006, Eric Solomon was sworn in as Assistant Secretary for Tax Policy . Prior to this
position, Mr . Solomon held several positions within the Department, including serving as the Assistant Chief
Counsel for the Internal Revenue Service . He was also a partner at Ernst & Young, LLP and Drinker Biddle
& Reath, and practiced law at Cadwalader, Wickersham & Taft, LLP .

On December 18, 2006, after serving as a Senior Advisor to the Secretary of the Treasury, Anthony W. Ryan
was sworn in as Assistant Secretary for Financial Markets . In this role, he serves as the Senior Advisor to the
Secretary, Deputy Secretary, and Under Secretary on broad matters of federal, state, and local finance, finan­
cial markets, and federal government credit policies, lending and privatization . Prior to joining the Treasury
Department, he spent 20 years in the financial services industry, most recently as a partner of Grantham,
Mayo, Van Otterloo and Co, LLC .

Kenneth Carfine, after serving almost four years as the Deputy Assistant Secretary for Fiscal Operations
and Policy, was appointed Fiscal Assistant Secretary on March 15, 2007, replacing Donald Hammond . Mr .
Carfine provides oversight to the FMS and the BPD, and serves as the Treasury liaison to the Federal Reserve
System . He began his career at the Treasury Department with the Financial Management Service in 1973 .

On June 28, 2007, after serving as the Deputy Assistant Secretary for Financial Institutions, David G.
Nason replaced Emil Henry as the Assistant Secretary . Mr . Nason serves as a Senior Advisor to the Secretary,
the Deputy Secretary, and the Under Secretary for Domestic Finance on all matters relating to financial
institutions, government sponsored enterprises, financial education initiatives, and the CDFI Fund, ensuring
the resilience of the financial services sector . He also serves as a key advisor to the Secretary of the Treasury
in his capacity as Chair of the President’s Working Group on Financial Markets . Prior to his contributions
at the Treasury Department, Mr . Nason served as counsel to Commissioner Paul S . Atkins at the Securities
& Exchange Commission, and was an attorney at Covington & Burling in Washington, D .C ., where he
focused on securities offerings, mergers and acquisitions, and federal tax planning . Mr . Nason also served as
a law clerk to the Honorable Marvin J . Garbis of the U .S . District Court for District of Maryland .




                                                                                                                     2007 Leadership Changes
xiv                                                            Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Peter B. McCarthy was sworn in on August 3, 2007, succeeding Sandra Pack as the Assistant Secretary
                          for Management and Chief Financial Officer . Mr . McCarthy serves as the principal policy advisor to the
                          Secretary and Deputy Secretary of the Treasury on the management of the annual planning and budget
                          process, and on matters involving the internal management of the Department . Mr . McCarthy comes to the
                          Treasury Department with over 30 years experience in the banking industry, including 18 years in expatri­
                          ate assignments, most recently serving as Bank One’s senior officer in London . From 2002 to 2006, Mr .
                          McCarthy served as the Deputy Managing Director of the Institute of International Finance, a global, non­
                          profit association of financial institutions .




2007 Leadership Changes
                                                                                                                                                      xv




Directory of Key Officials and Senior Management


                                      Secretary of the Treasury Henry M . Paulson, Jr .
                          Deputy Secretary of the Treasury Robert M . Kimmett



 Departmental Offices                                              Inspectors General
                   Chief of Staff       Jim Wilkinson                                   Acting IG       Dennis Schindel
           Executive Secretary          Taiya Smith                                     TIGTA IG        J . Russell George
                   U .S . Treasurer     Anna Cabral
               General Counsel          Robert Hoyt                Bureau of Engraving and Printing

 Public Affairs:                                                                          Director      Larry Felix
  Asst Secretary & Director             Michele Davis
                                                                   U.S. Mint
         of Policy Planning
Legislative Affairs:                                                                      Director      Edmund Moy
                   Asst Secretary       Kevin Fromer
                                                                   Financial Crimes Enforcement Network
 Economic Policy:
                                                                                          Director      James Freis
                   Asst Secretary       Phillip Swagel
 International Affairs:
                                                                   Internal Revenue Service
               Under Secretary          David McCormick
                                                                         Acting Commissioner            Linda Stiff
                   Asst Secretary       Clay Lowery
 Domestic Finance:                                                 Financial Management Services
               Under Secretary          Robert Steel                              Commissioner          Kenneth Papaj
          Asst Secretary Fiscal         Kenneth Carfine
      Asst Secretary Fin Inst           David Nason                Bureau of the Public Debt

 Asst Secretary Fin Markets             Anthony Ryan                              Commissioner          Van Zeck
 Comm Dev Fin Inst Fund                 Kim Reed
                                                                   Office of the Comp of the Currency
 Tax Policy:
                   Asst Secretary       Eric Solomon                                 Comptroller        John Dugan

 Terrorist Finance and Intelligence:
                                                                   Office of Thrift Supervision
               Under Secretary          Stuart Levey
                                                                                          Director      John Reich
      Asst Secretary Terr Fin           Patrick O’Brien
    Asst Secretary Intel Ana            Janice Gardner             Alcohol and Tobacco Tax and Trade
               Director, OFAC           Adam Szubin                                Administrator        John Manfreda
Asst Secretary Mgmt/CFO                 Peter McCarthy




                                                                                                          Directory of Key Officials and Senior Management
xvi                                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          The Department
                          of the Treasury
                          Organizational Chart




The Department of the Treasury Organizational Chart
                                                                                                                                                          xvii




Operational Highlights


Collected	                                                            Disbursed

    $4,000
                                                                          $2,000

    $3,000
                                                                          $1,500

    $2,000
                                                                          $1,000

    $1,000
                                                                           $500

        $0
                                                                             $0


 • 	U .S . Government Receipts : $3 .11 trillion                       • 	Total Treasury Disbursements: $1 .5* trillion
 • 	Delinquent Debt Collected : $3 .7 6 billion                        • 	Volume of electronic disbursements made through Treasury’s
 • 	Collected through the Electronic Federal Tax Payment
                Regional Finance Centers: 764 million
    System: $2 .46 trillion
                                           • 	Volume of check payments made through Treasury’s

 • 	Enforcement revenue collected from all sources was at a rec          Regional Finance Centers: 215 million

    ord level of: $59 .2 billion                                        * Treasury Disbursements only

Borrowed                                                              Regulated

                                                                            $10.0
     $400
                                                                             $8.0
     $300
                                                                             $6.0

     $200                                                                    $4.0

                                                                             $2.0
     $100
                                                                              $0
       $0


 • 	Net Amount Borrowed from the Public: $206 billion                  • 	Number of National Banks Regulated: 1755
 • 	Marketable Treasury Securities issued: $4 .4 trillion              • 	Number of Federal Branches Regulated: 49
 • 	Non-Marketable Treasury Securities issued to the public and        • 	Number of thrifts and Savings Associations Regulated: 836
   government accounts: $34 trillion
 • 	Number of Savings Bonds Issued : 28 million
 • 	Interest Paid by Treasury (including interest credited to Trust
   Fund): $430 billion

Manufactured                                                          Assured

       18                                                                     200
       16                                                                     180
       14                                                                     160
                                                                              140
       12
                                                                              120
       10
                                                                              100
        8                                                                      80
        6                                                                      60
        4                                                                      40
        2                                                                      20
        0                                                                       0




 • 	Produced 9 .1 billion currency notes                               •  Performed 244 audits and evaluations through the efforts of
 • 	Produced 15 .4 billion coins                                         the Inspectors’ General




                                                                                                                                        Operational Highlights
xviii                                                                                          Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Performance Highlights



                                  100
                                                                                                                        115,000
                                    80                                                                                  113,625

                                    60                                                                                  112,250
                                                                                                                        110,875
                                    40                                                                                  109,500
                                                                                                                        108,125
                                    20
                                                                                                                        106,750
                                     0                                                                                  105,375
                                                                                                                        104,000




                                   100

                                    80                                                                                 $18,000,000
                                                                                                                       $17,500,000
                                    60
                                                                                                                       $17,000,000
                                    40                                                                                 $16,500,000
                                                                                                                       $16,000,000
                                    20                                                                                 $15,500,000
                                                                                                                       $15,000,000
                                     0
                                                                                                                       $14,500,000
                                                                                                                       $14,000,000




                          President’s Management Agenda
                                                                  Status                      FY 2007 Progress
                                         Initiative        FY     FY     FY     FY
                                                          2004                        Q1          Q2     Q3     Q4
                                                                 2005   2006   2007
                                                                                                                           1
                                    Human Capital          Y      Y      G      G         G       G       G      G

                              Competitive Sourcing         Y      G      G      Y         Y       R       Y      Y

                          Financial Performance            R      R      R      Y         G       G       G      G

                                    E-Government           R      R      Y      Y         R       G       G      Y

                                     Performance                  Y      Y      Y         G       G       G      G
                                                          N/A
                                     Improvement
                               Improper Payments          N/A     R      R      R         Y       Y       Y      Y
                                                                                                                           0
                               Credit Management          N/A N/A N/A           Y     N/A         G       G      G

                          G     Green for Success     Y    Yellow for Mixed Results   R       Red for Unsatisfactory




 Performance Highlights
                                                                                                                                                             xix




Financial Highlights



    $10,000                                                               $14.0
     $9,000
                                                                          $12.0
     $8,000
     $7,000                                                               $10.0
     $6,000                                                                 $8.0
     $5,000
     $4,000                                                                 $6.0
     $3,000                                                                 $4.0
     $2,000
                                                                            $2.0
     $1,000
         $0                                                                  $0


The increase of $540 .8 billion in total assets in fiscal year 2007   The decrease of total net cost of operations from $14 .0 billion
is largely due to the increase in future funds required from the      in fiscal year 2006 to $12 .0 billion in fiscal year 2007 is largely
General Fund of the U .S . Government to pay for the federal          due to the increase in revenue in the economic program and the
debt owed to the public and other Federal agencies .                  decrease in cost for the financial program .




    $10,000                                                               $450.0
     $9,000                                                               $400.0
     $8,000                                                               $350.0
     $7,000                                                               $300.0
     $6,000
                                                                          $250.0
     $5,000
                                                                          $200.0
     $4,000
     $3,000                                                               $150.0
     $2,000                                                               $100.0
     $1,000                                                                $50.0
          0                                                                  $0


Total liabilities increased by $534 .6 billion from fiscal year       The increase of $29 .5 billion in net interest paid on the federal
2006 to fiscal year 2007 . The majority of the increase is due to     debt is due to the increase in the debt and higher interest rates .
borrowings from other federal agencies and debt issued to the         Total federal debt and interest payable increased by $511 .8 bil­
public .                                                              lion in fiscal year 2007 .




      $60                                                                 $600.0

      $50                                                                 $500.0

      $40                                                                 $400.0

      $30                                                                 $300.0

      $20                                                                 $200.0

      $10                                                                 $100.0

       $0                                                                     $0


The net increase of $2 .2 billion in cumulative results of            The majority of the increase in total budgetary resources for

operations was largely due to an increase in the earnings of the      fiscal year 2007 was due to the increase in funding to pay for the 

Exchange Stabilization Fund from exchange rate fluctuations           interest on the federal debt .

between the U .S . dollar and foreign currencies .





                                                                                                                                             Financial Highlights
xx                                                                      Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           $450.0                                                                 $2.5
                           $400.0
                           $350.0                                                                 $2.0
                           $300.0
                                                                                                  $1.5
                           $250.0
                           $200.0
                                                                                                  $1.0
                           $150.0
                           $100.0                                                                 $0.5
                            $50.0
                              $0                                                                  $0.0


                       The majority of the $23 .1 billion increase in net outlays was due    Total custodial revenue collected on behalf of the U .S .
                       to the increase in interest payments on the federal debt .            Government increased by $167 .3 billion . The majority of the
                                                                                             increase is attributed to the rise in individual and corporate
                                                                                             income taxes due to increased economic activity .



                                                                                             Note: On March 1, 2003, several Treasury law enforcement
                                                                                             bureaus were divested to either the Department of Homeland
                                                                                             Security or Department of Justice . Fiscal year 2003 data includes
                                                                                             these bureaus from October 1, 2002 to February 28, 2003 .




Financial Highlights
Part I:
Management’s
Discussion & Analysis
THIS PAGE INTENTIONALLY LEFT BLANK
Part I – Management’s Discussion and Analysis                                                                                     3




Executive Summary

The Department of the Treasury shoulders a great responsibility for the American people . While the
Department performs a critical role in U .S . and global economies, it continually evolves to meet the ever
changing needs of the nation . The Treasury Department provides cash management for the federal govern­
ment, currency and coin production, administration of the tax code, oversight of the financial sector, and
plays an integral role combating the financing of terrorism, the proliferation of weapons of mass destruction,
and other threats to our national security .

In fiscal year 2007, the Department of the Treasury released its Strategic Plan for Fiscal Years 2007-2012 .
This plan was developed collaboratively with employees and senior management, and was tested and refined
against a changing global environment . Additionally, the Department went beyond linking performance to
the budget, and established an Integrated Management System to address continuous improvement and add
value for its stakeholders . The Strategic Framework shown on the following page illustrates the four strategic
priorities in which the Department operates, and provides the foundation for this report . These four areas
are:
The Financial Focus: Managing the government’s finances effectively includes collecting money due to
               the U .S . Government by maximizing voluntary compliance with tax laws and regulations,
               making payments, and financing the federal government by continually improving financial
               management processes . The Department oversees, accounts for, and reports on government
               collections and expenditures, and is responsible for collecting delinquent debt owed the
               government . The Treasury Department forecasts receipts and payments, determines borrow­
               ing needs, and executes the borrowing strategy to meet the financial demands of the federal
               government at the lowest possible cost over time .

The Economic Focus: The Treasury Department performs policy and operational roles in promoting pros­
              perous U .S . and world economies, raising living standards, and protecting domestic and
              international economic and financial systems . As the principal economic advisor to the
              President, the Secretary of the Treasury utilizes the policy expertise of the Department to
              address national and global economic and financial challenges .

The Security Focus: The sponsorship of terrorism and the potential acquisition of weapons of mass destruc­
               tion by rogue regimes and non-state entities represent a grave threat to U .S . national security
               and all free and open societies . The Treasury Department implements targeted financial
               measures and other forms of sanctions against terrorists and their support networks, with
               the goal of stopping the flow of money to terrorist groups, state sponsors of terrorism,
               proliferators of weapons of mass destruction (WMD), drug traffickers, money launder­
               ers, and regimes that constitute a threat to the United States . The Department leads the
               U .S . Government’s multi-faceted effort to keep the world’s financial systems accessible to
               legitimate users, while excluding those who wish to exploit these systems for illegal purposes
               through law enforcement and appropriate financial regulatory initiatives .

The Management Focus: Management’s primary role and responsibility in the Department is to create the
            conditions that allow all programs and activities to perform efficiently and effectively . The
            Treasury Department continues to develop integrated plans where policies and operations
            align to produce maximum value for the American people .




                                                                                                                   Executive Summary
4                                                                                  Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         The Treasury Department’s
                         Strategic Framework

                         The Treasury Department’s strategic framework is a summary of goals, objectives, and outcomes . This frame­
                         work provides the basis for performance planning and continuous improvement .

                                                                      Strategic
                                        Strategic Goals                                            Value Chains**   Strategic Outcomes
                                                                      Objectives
                                        Effectively Managed           Cash resources               Collect          •  Revenue collected when due through a fair and
                                        U .S . Government             are available                Disburse           uniform application of the law at the lowest pos­
                                        Finances                      to operate the               Borrow             sible cost
                                                                      government                   Invest
                                                                                                                    •  Timely and accurate payments at the lowest pos­
                                                                                                   Account
                           Financial




                                                                                                                      sible cost
                                                                                                                    •  Government financing at the lowest possible cost
                                                                                                                      over time
                                                                                                                    •  Effective cash management
                                                                                                                    •  Accurate, timely, useful, transparent and acces­
                                                                                                                      sible financial information
                                        U .S . and World              Improved                     Strengthen       •  Strong U .S . economic competitiveness
                                        Economies Perform             economic oppor­              Regulate
                                        at Full Economic              tunity, mobility                              •  Free trade and investment
                                        Potential                     and security with                             •  Decreased gap in global standard of living
                                                                      robust, real, sus­
                                                                      tainable economic
                                                                                                                    •  Competitive capital markets
                                                                                                                    •  Prevented or mitigated financial and economic
                           Economic




                                                                      growth at home
                                                                      and abroad                                      crises


                                                                      Trust and                    Manufacture      •  Commerce enabled through safe, secure U .S .
                                                                      confidence in                                   notes and coins
                                                                      U .S . currency
                                                                      worldwide


                                        Prevented Terrorism           Pre-empted and               Secure           •  Removed or reduced threats to national security
                                        and Promoted the              neutralized threats                             from terrorism, proliferation of weapons of
                                        Nation’s Security             to the internation­                             mass destruction, narcotics trafficking and other
                           Security




                                        Through Strengthened          al financial system                             criminal activity on the part of rogue regimes,
                                        International Financial       and enhanced                                    individuals, and their support networks
                                        Systems                       U .S . national                               •  Safer and more transparent U .S . and interna­
                                                                      security                                        tional financial systems

                                        Management and                Enabled and                  Manage           •  A citizen-centered, results-oriented and strategi­
                                        Organizational                effective Treasury                              cally aligned organization
                           Management




                                        Excellence                    Department
                                                                                                                    •  Exceptional accountability and transparency



                                        ** Value Chains – Programs grouped by a common purpose .




The Treasury Department’s Strategic Framework
Part I – Management’s Discussion and Analysis                                                                                          5




The Strategic-Operational
Relationship

The relationship between the Department’s strategic goals and its annual program performance goals are
depicted in the chart below .


                   TREASURY DEPARTMENT                               BUREAUS & POLICY OFFICES

                      Strategic Goal                                   Performance Goals

                                                                              
                    Strategic Objective                              Performance Measures       
                                                                              
                   Value Chain Outcome                                 Outcomes & Outputs

                                                                              
                  Departmental Strategies                               Program Activity

                                                                              
                 Indicators and Measures                                Budget Resources




The Treasury Department’s strategic goals are stated as long-term outcomes which will assist the organiza­
tion in achieving its mission . Strategic objectives are broad-based outcome statements for a group of value
chains . Value chains are programs grouped by a common purpose . Strategic or value chain outcomes are
important results for each of the Department’s major functions . Departmental strategies are agency-wide
methods used to achieve value chain outcomes and guide program activities .

To achieve performance goals, program resources must be properly managed to generate desired outcomes
and output . Departmental indicators and measures are used to guide the development of long-term and
annual performance targets associated with performance goals, which are essential components of the annual
performance budget .




                                                                                                    The Strategic-Operational Relationship
6                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




    The Tax Gap                                       Strategic Goal
    The tax gap represents the amount                 Effectively Managed U.S.
    of noncompliance with tax laws. The               Government’s Finances
    most recent IRS estimate of the gross
    tax gap, completed in 2006, was                   The Treasury Department manages the nation’s finances by collect­
    $345 billion for tax year 2001.
                                                      ing money due to the United States, making its payments, manag­
    The net tax gap is currently                      ing its borrowing, investing when appropriate, and performing
    estimated as follows:
                                                      central accounting functions . The ability of the Department of
     Net Tax Gap                                      the Treasury to manage the nation’s finances with integrity is para­
     Gross Tax Gap                 $345 billion       mount to maintaining financial stability and enabling economic
     Enforced and Other             $55 billion       growth .
     Late Payments
     Net Tax Gap                   $290 billion
                                                      Strategic Outcome
    The components of the tax gap are:                Revenue collected when due through a fair
                                                      and uniform application of the law
                                                      Collecting federal taxes and other revenue is integral to the
                                                      Department of the Treasury . Increasing voluntary compliance
                                                      with the tax laws reduces the cost of tax administration, increases
                                                      revenue, lessens the need to borrow, and ultimately lowers the
                                                      cost of government . To reduce the tax gap, the Department must
                                                      execute its comprehensive, integrated, multi-year strategy, while
                                                      remaining sensitive to taxpayer rights and maintaining an appro­
                                                      priate balance between enforcement activity and the burden of
                                                      compliance on taxpayers .

    In August 2007, the IRS released the              The IRS delivered a successful 2007 filing season, addressing new
    report, “Reducing the Federal Tax
    Gap: A Report on Improving Voluntary
                                                      challenges associated with the implementation of the telephone
    Compliance,” a follow-up to Treasury’s            excise tax refund, the split refund capability, and new legislation .
    “Comprehensive Strategy for Reducing
                                                      The IRS processed more than 139 .7 million individual returns
    the Tax Gap” issued in September
    2006. The report presents the current             and issued over 105 .5 million refunds totaling $244 billion .
    tax gap activities and the steps taken            Additionally, 57 .1 percent of individual returns were electronically
    to improve compliance. The report:
      •	Details	information	on	steps	being	           filed, an increase of 5 percent over 2006; 19 .1 percent of business
        taken to reduce opportunities for             returns were electronically filed, an increase of 15 percent over
        tax evasion, leverage technology,
        and support legislative proposals
                                                      2006; 22 .5 million returns were filed on home computers, an
        that will improve compliance                  increase of 11 percent over 2006; 57 .2 million returns were e-filed
      •	Presents	an	outreach	approach	to	             by tax professionals, an increase of 10 percent over 2006; and over
        ensure all taxpayers understand
        their tax obligations                         4 .1 million taxpayers used the free services offered by the Free File
      •	Recognizes	the	importance	of	having	          Alliance .
        a multi-year research program to help
        the IRS under-stand both the scope
        of and reasons for noncompliance
                                                      In fiscal year 2007, the IRS continued to improve its enforcement
                                                      results; revenue from all enforcement sources reached $59 .2 bil­
    This report, combined with legislative
    changes and tax simplification, will guide
                                                      lion, an increase of 22 percent enforcement revenue over fiscal year
    the IRS’s efforts to reduce the tax gap.          2006 . In addition, the IRS Examination and Collection Programs
                                                      targeted contributors to the tax gap by increasing the number of



Effectively Managed U.S. Government’s Finances
Part I – Management’s Discussion and Analysis                                                                                        7




audits of high-income taxpayers by 29 percent, individual taxpay­
ers by 8 percent, and small business and corporations by 17 and 3
percent respectively; and the closure of collection cases increased         $60.0
by 12 percent .
                                                                            $45.0

The TTB administers the collection of federal taxes on tobacco,
                                                                            $30.0
alcohol, and firearms and ammunitions from more than 8,000
organizations; 200 of these account for 98 percent of all excise tax        $15.0

collections annually . In fiscal year 2007, the TTB collected $14 .7
                                                                             $0.0
billion in excise taxes, interest, and other revenues, and voluntary
compliance, by industry members, was 75 percent of taxpayers fil­
                                                                                      In fiscal year 2007, revenue from all
ing payments on or before the scheduled due date .                                    enforcement sources reached $59.2
                                                                                      billion, an increase of 21.5 percent
The FMS manages the collection of federal revenue for individual                      enforcement revenue over fiscal year
                                                                                      2006. IRS Examination and Collection
and corporate income tax deposits, and recovers delinquent                            programs targeted contributors to the
government and child support debt by providing centralized debt                       tax gap; the IRS increased their audits of
                                                                                      high-income taxpayers by 29 percent.
collection, oversight, and operational services to Federal Program
Agencies (FPA) and states . In fiscal year 2007, the FMS collected
a record $3 .1 trillion through a network of more than 9,000
financial institutions with 79 percent of the dollars collected elec­                 IRS Helps Taxpayers Avoid
tronically; an increase of 6 percent for total revenue collected over                 Phishing Schemes
fiscal year 2006 . In addition, a record $3 .76 billion was collected
                                                                                      Phishing is an attempt to criminally and
in delinquent debt; consisting of $1 .7 billion in past due child                     fraudulently acquire sensitive information
support, $1 .47 billion in federal non-tax debt, $243 million in                      by masquerading as a trustworthy entity
                                                                                      in an electronic communication.Taxpayers
state tax offsets, and $343 million in tax levies .                                   should be aware that the IRS does
                                                                                      not send unsolicited e-mail. The IRS
                                                                                      never asks taxpayers for PIN numbers
Strategic Outcome                                                                     or passwords for credit card, bank, or
                                                                                      other financial accounts. Recipients
Timely and accurate payments at                                                       of questionable e-mail, that appears to
the lowest possible cost                                                              come from the IRS, should not open
                                                                                      any attachments or click on any links
The Treasury Department, through the FMS, plays an important                          contained in the e-mail; instead the e-mail
                                                                                      should be forwarded to phishing@irs.gov
role in providing critical services to millions of U .S . taxpayers as it
issues government payments such as Social Security benefits, tax
refunds, and veterans’ benefits to the correct recipient at the prop­
er time . As the government’s financial manager, the FMS oversees                     Foreclosure Tax Relief Available
a daily cash flow of nearly $60 billion, disbursing 85 percent of                     The IRS unveiled a special new section
the federal government’s payments or nearly one billion payments                      on their website for people who have
to over 100 million people, valued at nearly $1 .5 trillion .                         lost their homes due to foreclosure. The
                                                                                      section includes a worksheet designed to
                                                                                      help borrowers determine whether any
                                                                                      of the foreclosure-related relief provisions
                                                                                      apply to them. In some cases, eligible
                                                                                      taxpayers may qualify to settle their tax
                                                                                      debt for less than the full amount due
                                                                                      using an offer-in-compromise. The IRS
                                                                                      urges struggling homeowners to consider
                                                                                      their options carefully before giving up
                                                                                      their homes through foreclosure.




                                                                                    Effectively Managed U.S. Government’s Finances
8                                                Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                                     Strategic Outcome
                                                     Government financing at the lowest
                                                     possible cost over time
           80
                                                     The Department determines and executes the federal borrowing
           78
                                                     strategy to meet the monetary needs of the government at the
           76                                        lowest possible cost . The federal government finances its expen­
                                                     ditures in excess of tax receipts through the sale of debt obligations
           74
                                                     at various maturities . The Treasury Department’s activities mini­
           72                                        mize the interest paid on the national debt over time and enhance
                                                     market liquidity .

                                                     The BPD conducts the debt financing operations by issuing and
                                                     servicing Treasury securities . In fiscal year 2007, the BPD con­
                                                     ducted more than 200 auctions and issued more than $4 trillion
           105                                       in marketable Treasury bills, notes, bonds, and Treasury Inflation-
                                                     Protected Securities, while providing retail investment services
           100                                       to 50 million retail customers holding $278 billion in Treasury
                                                     securities .
            95
                                                     Expeditiously releasing detailed auction information minimizes the
            90                                       time bidders are exposed to the risk of adverse market movements,
                                                     encouraging more aggressive bidding, and enabling the federal
                                                     government to borrow at more favorable rates . In fiscal year 2007,
                                                     the BPD consistently met its performance goal of releasing securi­
                                                     ties auction results within two minutes, plus or minus 30 seconds .

            6
                                                     Strategic Outcome
            4
                                                     Effective cash management
                                                     The Department of the Treasury ensures that funds are available
            2                                        on a daily basis to cover federal payments, maximize investment
                                                     earnings, and minimize borrowing costs through accurately fore­
            0
                                                     casting receipts, outlays, and debt . Forecasting accuracy continued
                                                     to improve this year; the variance was 2 .1 percent, as compared to
                                                     3 .9 percent in fiscal year 2006 .

                                                     Over the past several years, the Department explored new and
                                                     innovative ways to invest excess cash . The Treasury Department
                                                     invested $6 .7 trillion in overnight and short-term investments
                                                     through the Term Investment Option (TIO) Program and the
                                                     Repurchase (Repo) Program . By reinvesting excess cash through
                                                     the TIO and the Repo, the Department earned an additional $33
                                                     million; these programs earn market rates of interest .




Effectively Managed U.S. Government’s Finances
Part I – Management’s Discussion and Analysis                                                                        9




Strategic Outcome
Accurate, timely, useful, transparent, and
accessible financial information
                                                                         $15.00

The Department, through FMS’s Government-wide Accounting
and Reporting Program, maintains the federal government’s books,         $10.00

and accounts for its monetary assets and liabilities by operating,
and overseeing its accounting and reporting system . For the third        $5.00

consecutive year, the FMS released the Financial Report of the
United States Government, 75 days after the close of the fiscal year .      $0

This report presents a picture of government-wide finances and is
critical to a fully informed budget process .

In addition, the FMS continues to improve its policies, proce­
                                                                             $10.00
dures, information systems, and internal controls used to prepare
the government-wide consolidated financial statements . During a              $9.50


2006 audit, the Government Accountability Office (GAO) made                   $9.00
recommendations to the FMS regarding their internal controls;
                                                                              $8.50
with continued effort, the FMS has implemented 74 of the 143
recommendations, and continues to resolve issues within their                 $8.00

authority .


Strategic Goal
U.S. and World Economies Perform
at Full Economic Potential
To achieve conditions that enable economies to perform at full               5

economic potential, the Treasury Department encourages eco­                  4

nomic growth through the development and implementation of                   3
policies that effectively regulate banking and financial markets,            2
create pro-growth tax policies, and advocate free trade .
                                                                             1

                                                                             0
Strategic Outcome
Strong U.S. economic competitiveness
Strong economic competitiveness is critical to robust economic
growth worldwide, continued investment in the United States,
                                                                             6
and job creation . The Treasury Department’s contribution to the
facilitation of a prosperous financial infrastructure, a balanced
                                                                             4
macro economy, market efficiency, technological readiness, and
innovation are essential for keeping a sharp competitive edge .
                                                                             2
While drawing a direct connection between the Department’s
actions and economic indicators is difficult, policymakers aid in            0




                                                                                      U.S. and World Economies Perform
                                                                                              at Full Economic Potential
10                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                       creating an environment conducive to strong economic growth
                                       and a healthy labor market .
           5,000

                                       For fiscal year 2007, real Gross Domestic Product (GDP), the
           3,750
                                       broadest measure of the economy’s performance, expanded by
           2,500                       an estimated 2 .4 percent . Real GDP growth fell short of the
                                       Administration’s estimate of the economy’s potential growth rate
           1,250
                                       of 3 .1 percent . Even so, the economy created 1 .6 million jobs and
                0
                                       the unemployment rate averaged a low 4 .5 percent . A healthy,
                                       growing economy and strong labor market create economic
                                       opportunity .

                                       The TTB contributes to economic growth by through its permit­
          100                          ting and labeling processes, and international trade program .
           75
                                       Permitting and labeling helps safeguard the consumer by protect­
                                       ing them from fraud and deception, and by promoting market and
           50
                                       product integrity . The TTB accomplishes this by requiring pro­
           25                          ducers to submit certificate of label approval applications, which
                                       have increased 30 percent over the last four years .
            0

                                       The TTB’s International Trade Program helps keep the U .S .
                                       economy strong by facilitating import and export trade in alcohol
                                       and tobacco products . As an example, the program assists in ensur­
                                       ing tequila exports, valued at $400 million per year, continue from
                                       Mexico to the United States without interruption .

                                       The Community Development Financial Institutions (CDFI)
                                       Fund’s Program awardees and New Markets Tax Credit allocatees
                                       create jobs, in economically distressed communities, by lending
                                       to and investing in business and real estate projects . In fiscal year
                                       2007, the CDFI Fund reported 35,022 jobs created or maintained
          100                          by awardees and allocatees .

                                       The CDFI Fund’s Native Initiatives are designed to overcome
           50                          barriers preventing access to credit, capital, and financial services
                                       in Native American Communities . Through these initiatives, the
                                       CDFI Fund provides monetary awards and training aimed at
            0                          increasing the number and capacity of existing or new CDFI’s
                                       serving Native Communities . In fiscal year 2007, the CDFI Fund
                                       issued $3 .6 million in Native Initiative Awards to 19 CDFIs,
                                       resulting in a growth of 35 percent of native CDFI Awardees’
                                       assets; in fiscal year 2006, $4 .3 million was awarded to 23 CDFIs .




U.S. and World Economies Perform
at Full Economic Potential
Part I – Management’s Discussion and Analysis                                                                               11




Strategic Outcome                                                             Competitive Capital Markets
Competitive capital markets                                                   The U.S. capital markets are the most
                                                                              efficient and transparent in the world.
U .S . capital markets make a vital contribution to the nation’s              Leading the world in mergers and
wealth and prosperity by directing investments toward innovation,             acquisitions advice, venture capital,
                                                                              private equity, hedge funds, derivatives,
promoting economic growth, and ensuring that the allocation                   securitization	skills,	and	exchange	traded	
of resources are directed toward the most efficient use . Capital             funds. With this expertise, U.S. financial
                                                                              institutions have contributed greatly to
markets give U .S . citizens the confidence to invest, earn higher            economic success throughout the world.
returns on savings, and reduce the cost of borrowing . The chal­              The Treasury Department’s efforts to
                                                                              enhance U.S. market competitiveness
lenge facing U .S . regulators today is preserving the public interest        include	pursuing	a	modernized	regulatory	
while preventing excessive regulatory burden on financial markets             structure, encouraging the development
                                                                              and adoption of industry best practices
and institutions .                                                            for asset managers and investors in
                                                                              hedge	funds,	Modernizing	the	Treasury	
In fiscal year 2007, in an effort to encourage a responsible and              Department’s Cash Management and
                                                                              Debt Management, completing Basel
measured approach, the Department launched a study of the                     II rulemaking, empowering all investors
regulatory framework for securities, banking, and insurance . In              through financial education, and
                                                                              encourage international investment.
addition, a three part plan was announced to encourage competi­
tive capital markets, and draw on recent trends, such as globaliza­
tion, to leverage competitiveness and increase the benefit to the
economy .
                                                                         20


Strategic Outcome
Free trade and investment                                                10

Foreign investment in the U .S . strengthens the economy, improves
productivity, creates good jobs, spurs healthy competition, and
                                                                         0
is vital for a robust and sustainable economy . Foreign-owned
companies directly provide jobs to over five million workers, and
indirectly provide an additional five million jobs, due to foreign-
                                                                              CAFTA-DR

owned subsidiaries procuring about 80 percent of their inputs
                                                                              The Central America-Dominican Republic-
from the U .S . markets . . In fiscal year 2007, these companies
                                                                              United States Free Trade Agreement
produced about 6 percent of U .S . output, provided 10 percent of             (CAFTA-DR) includes seven signatories:
U .S . total capital investment, 13 percent of research and develop­            1. United States (2006)
ment, and 20 percent of exports .                                               2. El Salvador (2006)
                                                                                3. Guatemala (2006)
                                                                                4. Honduras (2006)
The Treasury Department participates in the negotiation and the
                                                                                5. Nicaragua (2006)
implementation of international agreements to remove trade and                  6. Dominican Republic (2007)
investment barriers, stimulate domestic and global growth, and                  7. Costa Rica (2007)
allow for increased employment opportunities for Americans .
                                                                              The U.S. Congress approved the CAFTA­
The U .S . seeks strong commitments from its trading partners to              DR in July 2005 and the President
ensure those markets are open to U .S . exporters and investors .             signed the implementation legislation
                                                                              on August 2, 2005. Costa Rica was the
Once implemented, these agreements serve as a core element for a              last country to approve the agreement,
trading partner’s economic infrastructure, enhancing international            resulting in a national referendum
                                                                              being passed on October 8, 2007. U.S.
economic and financial stability . In fiscal year 2007, 10 trade and          exports to the CAFTA-DR countries
                                                                              increased by 16 percent, based on
                                                                              the most recent data available.


                                                                                          U.S. and World Economies Perform
                                                                                                  at Full Economic Potential
12                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                               investment negotiations were either concluded or underway; an increase of
                                               approximately 43 percent over the performance target .

                                               In fiscal year 2007, the U .S . concluded FTA negotiations with Korea . Once
                                               approved by Congress and fully implemented, the Korea FTA will end tariffs
                                               on more than $78 billion of trade between the United States and Korea . With
  The Paris Club
                                               Costa-Rica’s approval, the CAFTA-DR has been approved by all partner coun­
  The first meeting of the Paris Club, a       tries . Once this agreement is executed, this FTA will end most tariffs on more
  voluntary	informal	organization,	was	in	
  1956 when Argentina agreed to meet           than $32 billion of two-way trade between the U .S . and the CAFTA-DR coun­
  its public creditors in Paris, France.       tries . In addition, the Panama FTA was signed in June 2007 . This agreement
  The objective of the Paris Club is to find
  manageable solutions for debtor nations      will provide new opportunities to U .S . workers, manufacturers, and service
  that have payment difficulties. Club         providers, as well as expand markets for U .S . farmers and ranchers; another
  creditors agree to provide a country with
  debt relief under certain conditions. The
                                               building block in the Department’s efforts to create a Western Hemisphere free
  Paris Club has reached 400 agreements        trade area .
  regarding 84 debtor countries since its
  inception. The total amount of debt
  covered $505 billion since 1983.             The Department of the Treasury supports trade liberalization and budget disci­
                                               pline through its role in negotiating, implementing, and policing international
                                               agreements to reduce official export subsidies . By negotiating agreements, the
                                               Treasury Department drastically reduced the subsidies that other governments
                                               can provide when financing national exports . The volume of this financing
                                               activity is approximately $70 billion annually . These agreements open markets
                                               and level the playing field for U .S . exporters, and save U .S . taxpayers about
                                               $800 million each year .


  To qualify for the MDRI, countries must
                                               Strategic Outcome
  complete the HIPC initiative, or with        Prevented or mitigated financial and economic crises
  respect to the IMF have a per capita
  income below US$380 and outstanding          It is essential to prevent financial and economic crises, and diminish its impact .
  debt to the IMF. In addition to these
  standards the IMF Executive Board added
                                               By promoting sound pro-growth policies, the Department of the Treasury aids
  that eligible countries must be current      in the retention of the benefits of economic progress, reducing poverty, main­
  on their obligations to the Fund, and
                                               taining political stability, and avoiding expensive intervention .
  demonstrate satisfactory performance in
  macroeconomic policies, implementation
  of a poverty reduction strategy, and         In fiscal year 2007, the Department’s Office of International Debt Policy
  public expenditure management. At
  the close of fiscal year 2007, twenty-
                                               (IDD) worked to implement major initiatives that are providing massive debt
  two countries had completed the HIPC         reduction to heavily indebted poor countries committed to economic reform
  initiative and received MDRI debt relief     and poverty reduction . Through the Heavily Indebted Poor Countries (HIPC)
  from the MDBs and IMF. Two non-HIPC
  countries were eligible and benefited        Initiative, the Multilateral Debt Relief Initiative (MDRI), and the 2007 agree­
  from the MDRI relief from the IMF.           ment for additional debt relief from the Inter-American Development Bank,
                                               more than $86 billion has been agreed to in debt relief for 22 countries .

                                               In fiscal year 2007, the Department of the Treasury promoted sustainable
                                               economic growth, and supported the global war on terror by advancing debt
                                               reduction for Iraq and Afghanistan . The IDD spearheaded Afghanistan’s entry
                                               into the HIPC Initiative, to reduce its debts by over 92 percent, more than $11
                                               billion . In addition, the IDD continued to provide support for Iraq’s efforts


U.S. and World Economies Perform
at Full Economic Potential
Part I – Management’s Discussion and Analysis                                                                                13




to obtain debt relief from additional creditors, implementing the
                                                                                www.helpwithmybank.gov
2004 Paris Club, which was designed to bring debt down to a
manageable level . Debt restructuring bolsters economic develop­                The OCC recently launched
                                                                                helpwithmybank.gov, a new website
ment and reduces dependency on the U .S . and international                     dedicated to providing answers to
community .                                                                     common questions and assistance to
                                                                                national bank customers. The website
                                                                                presents information with straightforward,
The Department of the Treasury, through the OCC and OTS, is                     easy-to-use terms in a simple question-
the primary regulator and supervisor of national banks, savings                 and-answer format. Topics include credit
                                                                                cards, interest rates, check cashing, late
associations, and savings and loan holding companies .                          payments, mortgages, and many others.
                                                                                The site also provides guidance on how to
During fiscal year 2007, the Department of the Treasury,                        determine if a bank is a national bank or
                                                                                operating subsidiary and who to contact if
Department of Housing and Urban Development (HUD), and                          the bank is not. The OCC hopes to work
others in the Administration carefully focused on evaluating the                with other financial regulators to expand
                                                                                this effort to support all bank customers.
challenges faced by individuals in the subprime market . The
Treasury Department and HUD took several actions to provide
assistance to homeowners, including the pursuit of legislation
modernizing the Federal Housing Administration . Due to the
threat of increased foreclosures, temporary changes were proposed
to the federal tax code provision that currently considers cancelled
mortgage debt on primary residences as taxable income .

The OCC and the OTS worked with other federal banking
regulators to issue guidance on subprime mortgage lending and
non-traditional mortgage products . This guidance articulates con­
                                                                         99.6
sumer protection standards to ensure borrowers obtain loans they
                                                                         99.4
can afford to repay . Additionally, the agencies worked with the
Conference of State Bank Supervisors and American Association            99.2

of Residential Mortgage Regulators to encourage individual states         99
to adopt the guidelines for mortgage brokers under their supervi­        98.8
sion . The agencies also encouraged financial institutions to work
                                                                         98.6
with residential borrowers that are unable to meet their contractual
home loan obligations .

Financing the ownership of homes has been a focus of thrift
institutions throughout their history . Thrifts currently hold over      150
$1 trillion in housing-related loans and securities . In addition,
the thrift charter is used extensively by some thrifts to make small     100
business, consumer retail, and commercial real estate loans .
                                                                          50
Adequate capital absorbs losses, promotes public confidence,
and provides protection to depositors and the FDIC insurance
                                                                           0
funds . It also provides a financial cushion that allows a thrift
institution to continue operating during periods of loss or other
adverse conditions . As of June 2007, the OTS supervised 836
thrift institutions with assets totaling $1 .5 trillion, and 472 hold­


                                                                                           U.S. and World Economies Perform
                                                                                                   at Full Economic Potential
14                                               Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




  Capital Markets                                    ing company enterprises with U .S . domiciled consolidated assets
  Citigroup Inc., Bank of America Corp.
                                                     of approximately $8 .5 trillion; 93 percent of the regulated thrifts
  and JPMorgan Chase & Co. have agreed               achieved an overall composite CAMELS rating of 1 or 2, with 99
  to create a rescue fund to buy distressed
  debt from markets affected during the
                                                     percent well-capitalized . The OCC supervised 1,755 institutions
  fiscal year 2007 financial crises. The             with national bank charters and 49 federal branches with assets
  fund has the potential to reach $100               totaling approximately $7 .2 trillion . Relative to their risk, 99 per­
  billion to bail out troubled global credit
  markets. The joint effort is the result            cent of all national banks were well-capitalized, and 96 percent of
  of more than a month of discussions                national banks earned the highest composite CAMEL rating of 1
  with the Treasury Department with the
  intention of increasing confidence in the          or 2 under the standard method of evaluating a bank’s operations .
  market for mortgage-backed securities
  while avoiding a government bailout.
                                                     Strategic Outcome
                                                     Decreased gap in global standard of living
                                                     Sustained strong economic growth creates opportunities, improves
           98                                        quality of life, and reduces poverty .

           96                                        The Department’s Office of Multilateral Development Banks
                                                     (MDBs) advances the United States’ development agenda of pro­
           94                                        moting economic growth, and reducing poverty through its over­
                                                     sight and participation in global and regional MDBs . To decrease
           92                                        the gap in global standards of living, the Department initiated a
                                                     number of reforms to increase the effectiveness of the development
                                                     assistance provided by the MDBs .
  CAMELS is an interagency bank and thrift-
  rating system used b U.S. supervisory
  authorities to rate financial institutions.        The Multilateral Debt Relief Initiative (MDRI), a landmark effort
  The rating is based on six factors, which
  make up the acronym, Capital adequacy,
                                                     agreed to in 2005, will cancel 100 percent of debt owed to the
  Asset quality, Management, Earnings,               World Bank’s International Development Association, the African
  Liquidity, and Sensitivity to market risk.         Development Fund, and the International Monetary Fund (IMF)
  Banks are assigned a rating on a scale
  of one to five, with one being the best. A         by the world’s poorest and most heavily indebted countries . In fis­
  composite rating Of “1” or “2” generally           cal year 2007, through U .S . efforts, a similar landmark debt relief
  is considered to be a high-quality or
  satisfactory institution, while banks with a       initiative, the Fund for Special Operations at the Inter-American
  rating of “3”, “4”, or “5” are considered          Development Bank, was approved . With the support of this ini­
  to be less-than-satisfactory. This system
  allows supervisory authority to identify           tiative, the MDBs have increased new resources to debt-vulnerable
  the banks that are in need of attention.           countries in the form of grants - not loans - which is integral to
                                                     ending the lend-and-forgive cycle . For two consecutive years,
                                                     nearly $2 .7 billion in grant funding has been provided to the
                                                     poorest and most debt vulnerable countries by the concessional
           94.5                                      arms of the World Bank, the African Development Bank, and the
           94.0                                      Asian Development Bank . With the adoption of debt sustainabil­
                                                     ity frameworks at the MDBs, assistance to the poorest and most
           93.5
                                                     debt distressed countries will be solely through grants .
           93.0
                                                     In July 2007, the U .S . Treasury Department and the International
           92.5                                      Finance Corporation (IFC) launched the Latin America and



U.S. and World Economies Perform
at Full Economic Potential
Part I – Management’s Discussion and Analysis                                                                   15




Caribbean (LAC) Infrastructure Development Program of the
Americas to help drive private sector investment in this region .
The $17 .5 million program, managed by the IFC, aids in identify­
                                                                            150
ing sustainable infrastructure projects suitable for private partici­
pation, makes information publicly available, provides advisory
                                                                            100
support, and organizes the public tendering process . The program
also assists in improving regulatory frameworks on private sector
                                                                             50
participation in LAC countries . In its first four years, the program
is estimated to mobilize as much as $1 billion in new investments             0
and $400 million in fiscal savings for local governments .


Strategic Outcome
Commerce enabled through safe,
secure U.S. notes and coins
Trust and confidence are vital to the continued global acceptance
of U .S . currency, and to protect the global user from counterfeit­
ing schemes, U .S . currency is redesigned and manufactured . The
Department reliably provides safe, secure, cost-efficient, high
quality U .S . notes, security documents, and coins that are readily
accepted by all currency users and customers, which facilitates
                                                                         $29.00
seamless and stable commerce . In addition, the Department of
the Treasury secures the nation’s gold and silver reserves .
                                                                         $28.00

The Bureau of Engraving and Printing (BEP) designs next genera­
                                                                         $27.00
tion currency to guard against counterfeiting, and manufactures
the nation’s paper currency . In fiscal year 2007, the BEP main­
                                                                         $26.00
tained its position as a world-class securities printer providing its
customers with superior products through excellence in manu­
facturing and technological innovation . The BEP continued to
produce U .S . currency at the highest quality while incorporating
state-of-the-art counterfeit-deterrent features . In fiscal year 2007,   $6.10
the BEP delivered 9 .1 billion paper currency notes, meeting the
                                                                         $6.00
Federal Reserve’s exacting quality standards of 100 percent defect
                                                                         $5.90
free, while under running their budget by $32 million .
                                                                         $5.80

In fiscal year 2007, the BEP met its performance target for costs        $5.70
per 1,000 notes produced . Manufacturing costs increased from            $5.60
$27 .49, in 2006, to $28 .71, in 2007, due to changes in the
production program and the production of higher cost denomina­
tions, but were still below target . Security costs were favorable at
$5 .92 per thousand notes produced against a performance target
of $6 .00 per thousand notes delivered .




                                                                                  U.S. and World Economies Perform
                                                                                          at Full Economic Potential
16                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                                             The United States Mint manufactures circulating coinage and
                                                             popular numismatic products . In fiscal year 2007, the Mint suc­
                                                             cessfully launched the first three circulating Presidential $1 coins .
                                                             The Presidential $1 Coin Act of 2005, created this educational
                                                             program to honor the presidents, in chronological order by term
                                                             in office, with four different designs being released each year . In
                                                             addition, the Mint issued the first three First Spouse gold coins
          $8.00
                                                             honoring the spouses of each of the presidents .

                                                             Rising metal prices continue to have an impact on production
                                                             cost . For the second consecutive year, the penny and the nickel
          $7.50
                                                             cost more to produce than their face value; the Department is
                                                             exploring alternative materials in an effort to overcome production
                                                             challenges .
          $7.00

                                                             In fiscal year 2007, the Mint had revenue and other financing
                                                             sources of $2,635 billion for circulating and numismatic coin
                                                             products, an increase of 13 percent over fiscal year 2006 . As a
                                                             result of operations, $825 million was returned to the Treasury
                                                             General Fund, as compared to $750 million in fiscal year 2006, an
  The United States Mint H.I.P. Pocket
  Change web site was launched in                            increase of 10 percent . This increase in operating results was due
  July 1999. H.I.P. Pocket Change is a                       primarily to the introduction of the Presidential $1 Coins .
  fun educational tool for students and
  teachers that generate interest in coins,
  the United States Mint, and U.S. history.
  Check it out at: www.usmint.gov/kids/                      Strategic Goal
                                                             Prevented Terrorism and Promoted the
                                                             Nation’s Security through Strengthened
                                                             International Financial Systems
                                                             While promoting financial and economic growth at home
                                                             and abroad, the Treasury Department performs an important,
            100                                              unique, and growing role in protecting national security . The
                                                             Department’s sanctions, regulatory law enforcement, and intel­
             98
                                                             ligence authorities, provide powerful tools for the United States to
             96                                              apply pressure against threats to national security, and safeguard
                                                             the international financial and economic systems,keeping them
             94
                                                             free and open to legitimate users .
             92




Prevented Terrorism and Promoted the Nation’s Security
through Strengthened International Financial Systems
Part I – Management’s Discussion and Analysis                                                                                           17




Strategic Outcome                                                                          The Department of the Treasury
                                                                                           participated in the U.S. Government
Removed or reduced threats to national security from terrorism,                            interagency working group that published
proliferation of weapons of mass destruction, drug trafficking,                            the 2007 National Money Laundering
                                                                                           Strategy. This strategy built on a solid
and other criminal activity on the part of rogue regimes,                                  foundation of successful initiatives
individuals, and their financial and other support networks                                and programs introduced in previous
                                                                                           strategies.		As	globalization	opens	borders	
Since 2001 and the inception of an Executive Order, 483 individuals and                    to travel and trade, and global payments
                                                                                           and clearing systems evolve, new money
entities were designated by the U .S . Government as terrorists, their finan­              laundering opportunities are created and
ciers, or facilitators . In fiscal year 2007, three Libyan individuals, members            exploited, the strategy addressed these
of both al-Qa’ida and the Libyan Islamic Fighting Group, were designated                   emerging money laundering trends.

for executing various activities from recruitment, to military training, to
procurement of explosive components .

The Department in cooperation with the State Department, continued to
target proliferators of WMD and their supporters, freezing their U .S . assets,
and prohibiting U .S . individuals from doing business with them . The
Department designated Bank Sepah, the fifth-largest Iranian state-owned                    TFFC spearheads a Muslim-American
                                                                                           outreach initiative, which included
financial institution, for providing extensive financial services to Iranian enti­         planning the U.S. Treasury Department’s
ties responsible for developing missiles capable of carrying WMD . Bank                    annual iftaar dinner, a traditional meal
                                                                                           to break the daily fast during the Muslim
Sepah’s isolation has potentially made it more difficult for Iran to facilitate
                                                                                           holy month of Ramadan. The dinner is
some of its missile proliferation-related activities .                                     held to honor Muslim-Americans and
                                                                                           to thank them for their contributions to
                                                                                           the U.S. economy and community as a
The OFAC’s Specially Designated Narcotics Traffickers Program continued                    whole. Through this initiative and other
to see significant activity in fiscal year 2007, targeting additional leaders of           outreach programs, the Department
Colombia’s North Valle cartel and their financial networks, including 30                   is constructively engaging Muslims in
                                                                                           order to create a better environment for
individuals in Colombia, and 42 front companies . In fiscal year 2007, the                 partnerships on a range of Treasury issues
OFAC targeted Medellin-based narcotics trafficker Fabio Enrique Ochoa                      with the Muslim-American community.

Vasco for designation, along with his extensive criminal and financial net­
work of 65 individuals and 45 companies . In addition, after targeting two
leaders of Colombia’s Cali Cartel, Miguel and Gilberto Rodriguez Orejuela,
their front man, Fernando Gutierrez Cancino, pled guilty to money launder­
ing charges and agreed to forfeit his right, title, and interest in all business
                                                                                           The Treasury Department Intelligence
entities . These entities are part of the 246 front companies that were desig­             Operations Center has become a fully-
nated over the past 11 years, and under at least 12 OFAC actions targeting                 functional 24 hour/ 7 days-a-week
Colombian drug cartels .                                                                   operation, providing timely, relevant,
                                                                                           and accurate intelligence to support:
                                                                                             •	Treasury’s	participation	in	the	
The TFI engages in outreach and education to advance the Department’s                          NSC policymaking process
unique security mission . The Terrorist Financing and Financial Crimes                       •	Policymaker’s	engagement	with	
                                                                                               counterparts abroad, including
(TFFC) initiated a series of private sector Anti-Money Laundering/                             normalizing	the	sharing	of	economic	
Combating Financing of Terrorism (AML/CFT) dialogues, linking the U .S .                       and financial intelligence
banking sector with those from the Middle East/North Africa and Latin                        •	Identification	and	dissemination	of	
                                                                                               high-priority intelligence to senior
American regions . These dialogues raise awareness of terrorist financing and                  Treasury decision-makers
money laundering risks, facilitate a better understanding of effective practices
and programs to combat the risks, and strengthen implementation of effec­
tive AML/CFT controls .



                                                                                     Prevented Terrorism and Promoted the Nation’s Security
                                                                                      through Strengthened International Financial Systems
18                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                               Strategic Outcome
                                               Safer and more transparent U.S. and
                                               international financial systems
            90

            85                                 Confidence in the integrity of the U .S . and international financial
            80
                                               systems fosters economic growth, and improves national security .
                                               Transparency in the financial sector denies terrorists, drug traffick­
            75
                                               ers, WMD proliferators, and other criminals the ability to conceal
            70
                                               their illicit activities . The U .S . national security is enhanced when
            65                                 financial systems are safeguarded from criminal abuse .

                                               To improve the consistency of the application of BSA rules regu­
                                               lating financial institutions, the FinCEN’s regulatory policy efforts
                                               focus on efficient and effective administration of the BSA . This
          100
                                               is achieved through briefings to increase understanding of how
                                               the BSA’s regulatory requirements generate information for law
                                               enforcement . The FinCEN requires that financial institutions cre­
           50                                  ate policies, procedures, and systems to make the financial system
                                               transparent and protect it from becoming a conduit for financial
                                               crime . In fiscal year 2007, the FinCEN published amended BSA
            0                                  regulations, including special measures against Banco Delta Asia,
                                               and its subsidiaries, casino recordkeeping and reporting require­
                                               ments, and guidance for certain foreign accounts under the anti-
                                               money laundering program/special due diligence rules .

           1.50                                In addition, the FinCEN published guidance to improve consis­
                                               tency in the interpretation and application of BSA regulations, and
                                               advance the understanding of regulatory expectations, including a
           0.75                                report on the risk of money laundering related to the Shell com­
                                               panies and information on compliance requirements for reporting
                                               suspicious transaction reporting at mutual funds .
           0.00



                                               Strategic Goal
                                               Management and
                                               Organizational Excellence
                                               The Department of the Treasury strives to maintain public trust
                                               and confidence in U .S . and international economic and financial
                                               systems, through exemplary leadership, best-in-class processes, and
                                               a culture of excellence, integrity, and teamwork . The Treasury
                                               Department realizes its strategic goals by building a strong institu­
                                               tion that is citizen-centered, results-oriented, and efficient, while
                                               actively promoting innovation . The Department works to imple­
                                               ment initiatives and programs that benefit the American people .



Management and Organizational Excellence
Part I – Management’s Discussion and Analysis                                                                             19




Strategic Outcome                                                            Protecting Citizens’ Personally
A citizen-centered, results-oriented and                                     Identifiable Information
strategically aligned organization                                           Safeguarding personally identifiable
                                                                             information and preventing its breach
The Treasury Department ensures that taxpayers receive the most              is essential to ensuring the Department
                                                                             retains the trust of the American
efficient and effective use of their tax dollars by building a strong
                                                                             public. The Treasury Department has
institution that is dedicated to serving the public interest and             initiated a policy to encrypt all data on
focused on delivering results .                                              mobile computers and devices. To
                                                                             date, the Department has encrypted
                                                                             100 percent of its laptop computers.
                                                                             Additionally, the Department of the
In fiscal year 2007, the Department of the Treasury released its             Treasury is actively engaged in activities
Strategic Plan for Fiscal Years 2007-2012 . This plan was devel­             to oversee its compliance with privacy
                                                                             protection requirements and the
oped collaboratively with employees and senior management, and               breach of personal information.
was tested and refined against a changing global environment .
Additionally, the Department went beyond linking performance to
the budget, and established an Integrated Management System to
monitor continuous improvement and make changes as necessary .


Through an established strategic framework, the Department will
use performance planning and budgeting to determine funding
                                                                             Selected Federal Human
that will achieve intended results . Performance measures with               Capital Survey Questions
long-term and annual targets will be used and funding will be tied
to the level of performance that needs to be achieved . As part of
the management process, a number of options can be executed to
improve value for stakeholders .                                        70



President’s Management Agenda (PMA): The Department of the              60

Treasury is enabled through the principles of the PMA . The PMA
is designed to improve management practices across the federal          50

government and transform it into a results-oriented, efficient, and
citizen-centered enterprise . Executing the PMA involves lowering       40
the cost of doing business through competition, strengthening the
Department’s workforce, improving financial performance, increas­
ing the use of information technology and e-government capabili­
ties, and integrating budget decisions with performance data .
                                                                        43



In fiscal year 2007, the Department continued to be successful in       41

the Human Capital initiative; for the Performance Improvement,
                                                                        39
Competitive Sourcing, Financial Performance, and E-Government
initiatives each had mixed results during the year; while the           37

Improper Payments initiative remained unchanged . In its first
                                                                        35
year as a PMA initiative, the Credit Management initiative was
rated with mixed results .




                                                                               Management and Organizational Excellence
20                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                                 President’s Management Agenda
                                                                                                Status                         FY 2007 Progress
                                                                   Initiative     FY       FY        FY       FY
                                                                                 2004                                     Q1       Q2       Q3    Q4
               55                                                                         2005      2006     2007
                                                               Human Capital      Y         Y            G       G        G        G        G     G

                                                        Competitive Sourcing      Y         G            G       Y        Y        R        Y     Y

               50                                      Financial Performance      R         R            R       Y        G        G        G     G

                                                               E-Government       R         R            Y       Y        R        G        G     Y

                                                    Performance Improvement      N/A        Y            Y       Y        G        G        G     G

               45
                                                          Improper Payments      N/A        R            R       R        Y        Y        Y     Y

                                                          Credit Management      N/A      N/A       N/A          Y       N/A       G        G     G

                                                         G   Green for Success   Y    Yellow for Mixed Results       R   Red for Unsatisfactory




              70

                                               Strategic Outcome
              60                               Exceptional accountability and transparency
                                               Good management begins with accountability and responsibil­
              50
                                               ity for the people, property, and money that the Department
              40
                                               manages . Internal control is a key tool to fulfill the Treasury
                                               Department’s obligations to the American people . It serves as
                                               the first line of defense in safeguarding assets and preventing and
                                               detecting errors and fraud . The Treasury Department continues to
                                               strengthen and improve the execution of its mission through the
              45
                                               application of sound internal controls over financial reporting .
              40
                                               In fiscal year 2007, testing and assessments were completed
              35
                                               Department-wide . No new material weaknesses were found
              30                               through the assessment of financial reporting under A-123,
              25                               Appendix A; however, the IRS continues to address issues related
              20                               to the revenue accounting system, one of its material weaknesses .

                                               The OIG auditors conduct financial, performance, and infor­
                                               mation technology audits within the Treasury Department .
                                               These audits are intended to save taxpayer dollars, improve the
              55
                                               Department’s effectiveness and efficiency, and help prevent waste
                                               and detect fraud and abuse in Department programs and opera­
              50
                                               tions . During fiscal year 2007, the OIG completed 64 audit
              45
                                               products and referred 188 cases for criminal, civil, or administra­
              40
                                               tive action .
              35

              30
                                               The TIGTA’s audit and investigative services promote and protect
                                               the fair administration of the internal revenue laws, and their
                                               oversight is essential to the efficiency and equity of the federal
                                               tax administration system . In addition, the TIGTA’s offices assist




Management and Organizational Excellence
Part I – Management’s Discussion and Analysis                                                                                  21




in maintaining taxpayers’ confidence in the federal tax system by
ensuring that the IRS is managed fairly and effectively, and viola­
tors of the public’s trust are detected and appropriately sanctioned .
                                                                                     75


In fiscal year 2007, the TIGTA issued 180 audit reports; one spe­                    70

cifically addressing whether the proper amounts of Social Security                   65

and Medicare taxes are being collected for tips and wages reported                   60

on Social Security and Medicare Tax on Unreported Tip Income                         55
Form . It is estimated that an additional $108 million in Social
                                                                                     50
Security and Medicare taxes each year could be assessed .

The IRS’s ability to deliver taxpayer service, enforce tax laws effec­
tively, and collect the proper amount of taxes can be undermined
by employee misconduct; over 50 percent of current investigations
involve alleged employee misconduct . The TIGTA’s investiga­
tions of employee misconduct include extortion, theft, taxpayer
abuse, false statements, financial fraud, and unauthorized access to
confidential taxpayer records . In fiscal year 2007, approximately
81 percent of the 3,597 closed investigations generated positive
results, including 1,663 cases of employee misconduct referred for
                                                                               100
action and 206 cases accepted for criminal prosecution . In addi­
tion, the TIGTA opened 521 new unauthorized access cases and                   80

closed 621 cases, 594 of which resulted in personnel action against            60

IRS employees .                                                                40

                                                                               20

                                                                                0




                                                                         200


                                                                         150


                                                                         100


                                                                          50


                                                                           0




                                                                                          Management and Organizational Excellence
22                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                        Performance Scorecard

                        The following scorecard indicates the fiscal year 2007 results for a selection of key Treasury Department
                        measures . For a complete list of official performance measures refer to Appendix A .

                         Performance Measure                                                                  FY 2007        FY 2007      Target     FY 2008
                                                                                                              Planned         Actual       Met?      Planned
                         Financial
                         Percentage of voluntary compliance in filing tax payments timely and                 74 .0%         75 .0%         Y        75 .0%
                         accurately (in terms of number of compliant industry members)
                         Percentage of voluntary compliance in filing tax payments timely and accu­           86 .0%        86 .37%         Y        87 .0%
                         rately (in terms of revenue)
                         Percentage of total tax receipts collected electronically                            98 .0%         98 .0%         Y        98 .0%
                         Percentage collected electronically of total dollar amount of Federal                80 .0%         79 .0%         N        80 .0%
                         Government Receipts
                         Unit cost to process a federal revenue collection transaction                        $1 .33       Est $1 .19       Y         $1 .30
                         Amount of delinquent debt collected per $1 spent                                     $36 .50      Est $42 .09      Y        $36 .75
                         Amount of delinquent debt collected through all available tools (in Billion $)       $3 .20         $3 .76         Y         $3 .30
                         Percentage of delinquent debt referred to FMS for collection compared to             94 .0%        100 .0%         Y        95 .0%
                         amount eligible for referral
                         Percentage of Government-wide accounting reports issued accurately                  100 .0%        100 .0%         Y       100 .0%
                         Percentage of Government-wide accounting reports issued timely                      100 .0%        100 .0%         Y       100 .0%
                         Cost per summary debt accounting transaction                                         $10 .98      Est $8 .93       Y        $10 .88
                         Variance between estimated and actual receipts                                        5 .0%         2 .1%          Y         5 .0%
                         Cost per debt financing operation                                                  $228,409     Est $216,801       Y      $249,679
                         Percent of auction results released in 2 minutes +/- 30 seconds                      95 .0%         99 .1%         Y        95 .0%
                         Cost per TreasuryDirect assisted transaction                                         $6 .16       Est $6 .03       Y         $7 .05
                         Cost per TreasuryDirect online transaction                                           $2 .96       Est $2 .79       Y         $2 .44
                         Percentage of retail customer service transactions completed within 12               90 .0%        99 .43%         Y        90 .0%
                         business days
                         Percentage of Treasury Payments and associated information made                      78 .0%         78 .0%         Y        79 .0%
                         electronically
                         Percentage of Paper Check and Electronic Funds Transfer Payments made               100 .0%        100 .0%         Y       100 .0%
                         accurately and on-time
                         Unit Cost for Federal Government Payments                                            $0 .39       Est $0 .38       Y         $0 .38
                         Field collection embedded quality                                                    86 .0%         84 .0%         N        86 .0%
                         Timeliness of critical other tax products to the public                              79 .6%         84 .0%         Y        86 .0%
                         Timeliness of critical filing season tax products to the public                      85 .2%         83 .5%         N        86 .0%
                         Taxpayer self assistance rate                                                        48 .6%         49 .5%         Y        51 .5%
                         Automated collection system accuracy                                                 91 .0%         92 .9%         Y        92 .0%
                         Percent individual returns processed electronically                                  57 .0%         57 .1%         Y        61 .8%
                         Percent of business returns processed electronically                                 19 .5%         19 .1%         N        20 .8%
                         Customer accuracy – Accounts (Phones)                                                93 .3%         93 .4%         Y        93 .5%
                         Customer accuracy - Tax law phones                                                   91 .0%         91 .2%         Y        91 .0%
                                                                                                                                Table continued on next page 




Performance Scorecard
Part I – Management’s Discussion and Analysis                                                                                                     23




 Performance Measure                                                           FY 2007     FY 2007      Target     FY 2008
                                                                               Planned      Actual       Met?      Planned
 Customer contacts resolved per staff year                                      7,702       7,648         N         8,000
 Customer Service Representative (CSR) Level of Service                        82 .0%      82 .1%         Y        82 .0%
 Refund timeliness - Individual (paper)                                        99 .2%      99 .1%         N        99 .2%
 Examination coverage-Individual                                                1 .0%       1 .0%         Y         1 .0%
 Examination coverage-Business                                                  8 .2%       7 .2%         N         6 .8%
 Field exam embedded quality                                                   87 .0%      85 .9%         N        87 .0%
 Examination quality - (LMSB) Industry                                         88 .0%      87 .0%         N        90 .0%
 Examination quality – (LMSB) Coordinated industry                             97 .0%      96 .0%         N        97 .0%
 Office exam embedded quality                                                  89 .0%      89 .4%         Y        89 .4%
 Automated Underreporter Efficiency                                             1,932       1,956         Y         1,808
 Automated Underreporter Coverage                                               2 .5%       2 .5%         Y         2 .7%
 Examination efficiency – Individual                                             136         137          Y          136
 Collection efficiency – units                                                  1,723       1,828         Y         1,751
 Collection coverage – units                                                   54 .0%      54 .0%         Y        54 .0%
 Economic
 Improve International Monetary Fund (IMF) effectiveness and quality through   90 .0%       100%          Y        90 .0%
 periodic reviews of IMF programs
 Rehabilitated problem national banks as a percentage of the problem nation­   40 .0%      52 .0%         Y        40 .0%
 al banks one year ago (CAMELS 3, 4, or 5)
 Percentage of national banks that are categorized as well-capitalized         95 .0%      99 .0%         Y        95 .0%
 Percent of thrifts with composite CAMELS ratings of 1 or 2                    90 .0%      93 .0%         Y        90 .0%
 Percent of thrifts that are well-capitalized                                  95 .0%      99 .0%         Y        95 .0%
 Percentage of grant and loan proposals containing satisfactory frameworks     90 .0%      92 .0%         Y        90 .0%
 for results measurement
 Number of new Free Trade Agreement negotiations and Bilateral Investment         7          10           Y      Discontinued
 Treaty negotiations underway or completed
 Number of full-time equivalent jobs created or maintained in underserved      34,009      35,022         Y        28,676
 communities by businesses financed by CDFI Program Awardees and New
 Markets Tax Credit (NMTC) Allocatees
 Dollars of private and non-CDFI Fund investments that CDFIs are able to       $861 .00    $778 .00       N       $643 .00
 leverage because of their CDFI Fund Financial Assistance . (in millions)
 Administrative costs per Financial Assistance application processed           $6,920     Est $7,180      N        $6,920
 Percent of Electronically filed Certificate of Label Applications             47 .0%      51 .0%         Y        48 .0%
 Unit Cost to process a Wine Certificate of Label Approval                     Baseline    $34 .00        Y        $34 .00
 Manufacturing costs for currency (dollar cost per thousand notes produced)    $32 .50     $28 .71        Y        $33 .00
 Percent of currency notes delivered to the Federal Reserve that meet cus­     99 .9%      100 .0%        Y        99 .9%
 tomer quality requirements
 Cost per 1,000 coin equivalents                                                $7 .27      $7 .23        Y         $7 .15
 Order fulfillment                                                             96 .0%      98 .0%         Y        96 .0%
 Currency shipment discrepancies per million notes                             0 .01%      0 .01%         Y        0 .01%
 Percentage of national banks with composite CAMELS rating 1 or 2              90 .0%      96 .0%         Y        90 .0%
                                                                                              Table continued on next page 




                                                                                                                                Performance Scorecard
24                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Performance Measure                                                                  FY 2007        FY 2007      Target    FY 2008
                                                                                                              Planned         Actual       Met?     Planned
                         Security
                         Average time to process enforcement matters (Years)                                    1 .0           1 .1        N          1 .0
                         Number of federal and state regulatory agencies with which FinCEN has                  50             50           Y         52
                         concluded memoranda of understanding information sharing agreements
                         Percentage of customers finding FinCEN’s analytic reports highly valuable           Baseline        82 .0%         Y       79 .0%
                         Percentage of customers satisfied with the BSA Direct E-filing                       90 .0%         94 .0%         Y       90 .0%
                         Management
                         Number of open material weakness (significant management problems                       1              0          N           1
                         identified by GAO, the IGs and/or the Bureaus) (President’s Management
                         Agenda) Targeted for Closure in fiscal year 2007
                         Complete investigations of EEO complaints within 180 days                            50 .0%         51 .6%         Y       50 .0%
                         Operating Expenses as a Percentage of Revenue – Consolidated/Integrated              12 .0%         4 .3%          Y       12 .0%
                         Administrative Management
                         Operating Expenses as Percent of Revenue – Financial Management Support              12 .0%         15 .1%        N        12 .0%
                         Services
                         Percent of statutory audits completed by the required date                          100 .0%        100 .0%         Y      100 .0%
                         Percentage of audit products delivered when promised to stakeholders                Baseline        68 .0%         Y       60 .0%
                         Percentage of recommendations made that have been implemented                       Baseline        90 .0%         Y       80 .0%
                         Percentage of results from investigative activities                                  73 .0%         81 .0%         Y       76 .0%
                         KEY: Some measures have estimates for their actual fiscal year data – due to information not available at the time of publication
                         of this document .




                        Scorecard Shortfalls
                        The information below explains the shortfalls for key performance measures shown above that did not
                        achieve the target level of performance . The Appendix A shows the full suite of performance measures, data,
                        and shortfalls .

                        In fiscal year 2007, the FinCEN experienced a slight increase in the average processing time of cases by 21
                        days; this increase in processing time resulted in just missing the target of 1 .0 years average time to process
                        cases . The additional time taken for processing was the result of joint investigations with other enforcement
                        agencies . In the future, the FinCEN will consider the appropriate amount of time needed for joint enforce­
                        ment actions when establishing their target for this performance measure .

                        The IRS was within one percent of meeting its performance target for the measure “Refund Timeliness-
                        Individual .” Delays that caused this shortfall were attributed to the increase in the number of Individual
                        Taxpayer Identification Number applications, verification of required documentation that is often submitted
                        in foreign languages, and the Individual Taxpayer Identification Number system caused instabilities by mal­
                        functioning during peak processing season .

                        For fiscal year 2007, the actual data for the performance measure “Field Examination Embedded Quality”
                        was 85 .9 percent, missing its target by 1 .1 percentage points . The target predicted a 10 percent improve­
                        ment factor for weak quality attributes, however this did not occur . After not meeting its target, the IRS




Performance Scorecard
Part I – Management’s Discussion and Analysis                                                                                        25




planned actions to improve its quality score by studying the consistency between the Embedded Quality
Review and the National Quality Review Systems’ processes .

For fiscal year 2007, the FMS set its target at 80 percent for the performance measure “Percentage collected
electronically of total dollar amount of federal government receipts .” Results indicated that the FMS missed
the target by one percent; this due to the large number of the paper 1040 form tax remitters . Most online
tax preparation sites charge fees for filing the 1040 forms electronically, discouraging e-filing . The FMS will
continue to work with the appropriate entities to reduce associated costs and encourage electronic filing .

The IRS missed its fiscal year 2007 target of 8 .2 by one percentage point for the performance measure
“Examination Coverage – Business Corporations .” Key factors contributing to this shortfall included
the implementation of currency and cycle time initiatives . An increase in time spent on the Compliance
Assurance Program to addresses issues in a pre-filing environment resulted in fewer numbers of closed returns
from a comparable current coordinated industry case examination; the Issue Management System consumed
more agent time than planned .


Summary of Management Challenges and High-Risk Areas
The Department of the Treasury’s Inspectors General and the Government Accountability Office has
identified the most significant, high-risk challenges facing the Department . While these challenges do not
necessarily indicate deficiencies in performance, progress has been made in fiscal year 2007; they represent
inherent risks that must be monitored continuously . The Treasury Department is committed to addressing
these challenges in fiscal year 2008 . Below are the management challenges identified by the IGs .
   • Corporate Management
   • Management of Capital Investment
   • Information Security
   • Linking Resources to Results
   • Anti-Money laundering and Terrorist Financing/Bank Secrecy Act Enforcement
   • Modernization of the Internal Revenue Service
   •	 Tax Compliance Initiatives

        ¤ Business and Individual

        ¤ Tax-Exempt Entities

   • Security of the Internal Revenue Service
   • Providing Quality Taxpayer Service Operations
   • Complexity of the Tax Law
   • Human Capital
   • Erroneous and Improper Payments
   • Taxpayer Protection and Rights
   • Processing Returns and Implementing Tax Law Changes During the Tax Filing Season
   • Using Performance and Financial Information for Program and Budget Decision




                                                                                                                   Performance Scorecard
26                                                              Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                        Although it critical for the Department to address all of these challenges, a selected few are discussed below,
                        noting the actions taken during fiscal year 2007 . (For the comprehensive response to the full list, refer to
                        Appendices D) .

                        Information Security: In fiscal year 2007 the Treasury Department launched a privacy awareness training
                        course for all employees highlighting the policies and practices necessary to safeguard and protect citizens’
                        data . Although the Department met its goal of encrypting 100 percent of its laptops during fiscal year 2007,
                        the Treasury Department will continue to work towards properly safeguarding all of its information assets .
                        By fiscal year 2009, the Department plans to achieve 100 percent compliance with Security Configuration
                        installation and the industry standard of 90 percent maintenance .

                        Linking Resources to Results: In July 2007, the Treasury Department issued its new strategic plan for fiscal
                        years 2007-2012 . In this plan, the Department went beyond linking performance to the budget, and estab­
                        lished an Integrated Management System to monitor continuous improvement . Performance planning and
                        budgeting will determine funding, which will be tied to the desired level of performance . The Integrated
                        Management System will be implemented during fiscal year 2008 .

                        Treasury recognizes that lacking relevant and reliable cost accounting information, federal managers may
                        not understand and control the full cost of programs . And without a link between performance and cost,
                        agencies are not in a position to establish cost reduction goals and maintain or improve performance results
                        because they do not know how much it costs to deliver outcomes .

                        In 2008, the Chief Financial Officers Council work group will continue to refine the Departmental manage­
                        rial cost accounting model, establish key cost accounting goals for all of the Department’s components, and
                        develop a plan for future Departmental oversight of cost accounting implementation and use as a manage­
                        ment tool . Additionally, the Department will work diligently in fiscal year 2008 to more fully integrate
                        budget and performance, linking changes in funding levels to corresponding changes in performance .

                        Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act (BSA) Enforcement: The Department
                        of the Treasury plays a key role in the U .S . Government’s efforts to track and cut off the flow of funds to
                        terrorist and other national security threats . The Department initiated a series of private sector Anti-Money
                        Laundering/Combating the Financing of Terrorism (AML/CFT) dialogues . These dialogues raise awareness
                        of terrorist financing and money laundering risks, facilitate a better understanding of effective practices and
                        programs to combat the risks, and strengthen implementation of effective AML/CFT controls .

                        The Treasury Department effectively administers and enforces the BSA, an important tool in combating anti-
                        money laundering . The BSA requires that financial institutions report on suspicious activities, keep records,
                        and establish appropriate internal controls to guard against financial crime . As the administrator of the BSA,
                        the Department oversees and coordinates the sharing of financial intelligence and analysis with its stakehold­
                        ers, and works closely with regulatory partners to take action against violating institutions .

                        Tax compliance Initiatives: In fiscal year 2007, the IRS continued compliance efforts that promote tax­
                        payer confidence and support the Department’s goal to reduce the tax gap . The IRS improved its ability to
                        estimate non-compliance to pinpoint areas where taxpayers are not in compliance with federal tax laws . This
                        year, two reporting compliance studies began; one addresses Subchapter S Corporations, the second is look-




Performance Scorecard
Part I – Management’s Discussion and Analysis                                                                                      27




ing at the Tax Year 2006 individual income . When completed, these studies will enable the IRS to better
leverage limited enforcement resources and reduce the burden on compliant taxpayers .

Complexity of the Tax Law: In fiscal year 2007, the IRS took steps to reduce taxpayer burden, including
the review of existing tax products with the goal to simplify . The IRS also incorporated taxpayer feedback,
research, and focus group results to obtain taxpayer information relative to product changes . In an effort
to ease the burden associated with the complexity of the tax system and recent revisions to the tax laws,
the IRS continued to provide important and current information needed to file tax returns on the IRS .gov
website . For individual taxpayers, the IRS designed a “1040 Central” page which contains news releases, fact
sheets and tax tips, all designed to keep taxpayers informed of changes . The IRS also developed a three-point
plan, that expanded Earned Income Tax Credit (EITC) outreach initiatives, identified ways to simplify and
improve the forms, and outlined efforts to improve the IRS .gov website, making it more user friendly for
EITC filers .

Erroneous and Improper payments: In fiscal year 2007, the IRS protected about $2 .6 billion in revenue
through Earned Income Tax Credit (EITC) enforcement efforts which included the examination of almost
500,000 returns claiming EITC, approximately 390,000 document matching reviews, and 400,000 math
error process corrections . In addition, the IRS met all the Improper Payment Improvement Act requirements
for the EITC, providing a current estimate of erroneous payment amounts, an explanation of the methodol­
ogy to calculate the amount and an action plan to reduce the number and amount of those payments .




                                                                                                                 Performance Scorecard
28                                                                            Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Analysis of Financial Statements



                          The following are the condensed financial statements of the Department as of and for the years ended
                          September 30, 2007 and 2006 . The complete financial statements and auditors’ report are in part III of
                          this report .


                                                                    Condensed Consolidated Balance Sheets
                                                                               As of September 30, 2007 and 2006
                                                                                           (In Millions)


                          ASSETS                                                                                                 2007                        2006
                          Intra-governmental Assets
                             Due From the General Fund                                                                $      9,052,624           $      8,540,195

                             Other Intra-governmental Assets                                                                   322,255                    326,552

                          Total Intra-governmental Assets                                                                    9,374,879                  8,866,747


                          Cash, Foreign Currency, and Other Monetary Assets                                                     92,330                     63,892
                          Gold and Silver Reserve                                                                               11,062                     11,062
                          Investments and Related Interest                                                                      10,074                      9,325
                          Tax, Other and Related Interest Receivables, Net                                                      27,559                     21,962
                          Other Assets                                                                                          12,903                     14,990
                          Total Assets                                                                                $      9,528,807           $      8,987,978


                          LIABILITIES
                          Intra-governmental Liabilities
                             Federal Debt and Interest Payable                                                        $      3,974,788           $      3,673,117 

                             Other Intra-governmental Liabilities                                                              343,466                    320,817 

                          Total Intra-governmental Liabilities                                                               4,318,254                  3,993,934


                          Federal Debt and Interest Payable                                                                  5,054,250                  4,844,074 

                          Other Liabilities                                                                                     35,204                     35,056 

                          Total Liabilities                                                                                  9,407,708                  8,873,064


                          NET POSITION
                             Unexpended Appropriations                                                                          72,317                     68,270 

                             Cumulative Results of Operations                                                                   48,782                     46,644 

                          Total Net Position                                                                                   121,099                    114,914 

                          Total Liabilities and Net Position                                                          $      9,528,807           $      8,987,978 





Analysis of Financial Statements
Part I – Management’s Discussion and Analysis                                                                                                                                                 29




                                       Condensed Consolidated Statements of Net Cost
                                                   For the Years Ended September 30, 2007 and 2006
                                                                       (In Millions)


                                                                                                                            2007                                 2006
Cost of Treasury Operations:
   Net Financial Program Cost                                                                                 $           11,735               $            12,413
   Net Economic Program (Revenue)/Cost                                                                                      (456)                            1,188
   Net Security Program Cost *                                                                                                300                                   0
   Net Management Program Cost                                                                                                440                                 428
Total Net Cost of Treasury Operations                                                                                     12,019                            14,029


   Net Federal Costs (primarily interest on the Federal Debt)                                                           429,302                           399,806
Net Cost of Treasury Operations, Federal Debt Interest, and Other Federal Costs                               $         441,321                $          413,835


 * Treasury’s Strategic Plan for fiscal years 2007 – 2012 includes a new Security Program. Subcomponent reporting assignments were also realigned with the New
  Strategic Plan.




                                                                                                                                                                 Analysis of Financial Statements
30                                                                  Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                                    Condensed Consolidated Statement of Changes in Net Position
                                                                    For the Year Ended September 30, 2007
                                                                                   (In Millions)


                                                                               Combined
                                                                              Earmarked             Combined All                             Consolidated
                                                                                  Funds              Other Funds      Eliminations                   Total
                          UNEXPENDED APPROPRIATIONS
                          Beginning Balance                              $            202       $        68,068                          $         68,270
                          Budgetary Financing Sources
                               Appropriations Received                                390               450,832                                   451,222
                               Appropriations Used                                   (390)              (446,667)                                (447,057)
                               Other                                                    (2)                 (116)                                    (118)
                          Total Budgetary Financing Sources                             (2)                4,049                                    4,047
                          Total Unexpended Appropriations                             200                72,117                                    72,317


                          CUMULATIVE RESULTS OF OPERATIONS
                          Beginning Balance                                        31,614                15,030                  0                 46,644

                          Budgetary Financing Sources                                 708               446,666                (43)               447,331
                          Other Financing Sources (Uses)                              299                 (3,679)             (492)                 (3,872)
                          Total Financing Sources                                   1,007               442,987               (535)               443,459
                            Net Cost of Operations                                  2,764               (444,620)             535                (441,321)
                            Net Change                                              3,771                 (1,633)                0                  2,138
                          Cumulative Results of Operations                         35,385                13,397                  0                 48,782
                          Net Position - Year End                        $         35,585       $        85,514       $          0       $        121,099




Analysis of Financial Statements
Part I – Management’s Discussion and Analysis                                                                                                      31




                          Condensed Consolidated Statement of Changes in Net Position
                                          For the Year Ended September 30, 2006
                                                         (In Millions)


                                                      Combined            Combined
                                                     Earmarked             All Other                          Consolidated
                                                         Funds                Funds       Eliminations                Total
UNEXPENDED APPROPRIATIONS
Beginning Balance                                $         202       $       62,980                       $         63,182
Budgetary Financing Sources
     Appropriations Received                               298              417,468                                417,766
     Appropriations Used                                   (298)           (412,116)                              (412,414)
     Other                                                    0                   (264)                               (264)
Total Budgetary Financing Sources                             0               5,088                                  5,088
Total Unexpended Appropriations                            202               68,068                                 68,270


CUMULATIVE RESULTS OF OPERATIONS
Beginning Balance                                       30,817               21,309                  0              52,126

Budgetary Financing Sources                                441              412,061                (30)            412,472
Other Financing Sources (Uses)                                4               (3,653)             (470)              (4,119)
Total Financing Sources                                    445              408,408               (500)            408,353
  Net Cost of Operations                                   352             (414,687)              500             (413,835)
  Net Change                                               797                (6,279)                0               (5,482)
Cumulative Results of Operations                        31,614               15,030                  0              46,644
Net Position - Year End                          $      31,816       $       83,098       $          0    $        114,914




                                                                                                                      Analysis of Financial Statements
32                                                                              Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                                      Condensed Combined Statements of Budgetary Resources

                                                                        For the Years Ended September 30, 2007 and 2006

                                                                                            (In Millions)



                                                                                                                                   2007                       2006
                          Budgetary Resources:
                          Unobligated Balance, Brought Forward                                                          $         57,540          $          64,670
                          Recoveries of Prior Year Unpaid Obligations                                                                474                        380
                          Budget Authority                                                                                      474,974                    446,742
                          Other Budget Authority                                                                                 (10,008)                    (8,701)
                          Total Budgetary Resources                                                                     $       522,980           $        503,091


                          Status of Budgetary Resources:
                          Obligations Incurred                                                                          $       465,530           $        445,551
                          Unobligated Balance                                                                                     46,455                     47,093
                          Unobligated Balance Not Available                                                                       10,995                     10,447
                          Total Status of Budgetary Resources                                                           $       522,980           $        503,091


                          Change in Obligated Balance
                          Total Unpaid Obligated Balances, Net                                                          $         52,448          $          45,738
                          Obligations Incurred, Net                                                                             465,530                    445,551
                          Gross Outlays                                                                                         (460,302)                  (438,494)
                          Recoveries of Prior Year Unpaid Obligations, Actual                                                       (474)                      (380)
                          Changes in Uncollected Customer Payments from Federal Sources                                              191                         33
                          Total Unpaid Obligated Balance, Net, End of Year                                              $         57,393          $          52,448


                          Net Outlays
                             Gross Outlays                                                                              $       460,302           $        438,494
                             Offsetting Collections and Distributed Offsetting Receipts                                          (24,232)                   (25,467)
                          Net Outlays                                                                                   $       436,070           $        413,027




Analysis of Financial Statements
Part I – Management’s Discussion and Analysis                                                                                                 33




                                    Condensed Statements of Custodial Activity

                                         For the Years Ended September 30, 2007 and 2006

                                                             (In Millions)



                                                                                                2007             2006
SOURCES OF CUSTODIAL REVENUE
Revenue Received
  Individual and FICA Taxes                                                         $       2,201,464    $   2,034,209
  Corporate Income Taxes                                                                     395,320          380,426
  Other Revenues                                                                             142,005          146,937
Total Revenue Received                                                                      2,738,789        2,561,572
  Less Refunds                                                                               (292,684)        (277,778)
Net Revenue Received                                                                        2,446,105        2,283,794
  Accrual Adjustment                                                                           5,588              554
Total Custodial Revenue                                                                     2,451,693        2,284,348


Disposition of Custodial Revenue:
  Amounts Provided to Fund the Federal Government                                           2,445,619        2,283,420
  Other                                                                                        6,074              928
Total Disposition of Custodial Revenue                                                      2,451,693        2,284,348
Net Custodial Revenue Activity                                                      $               0    $           0




                                                                                                                 Analysis of Financial Statements
34                                              Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                   Auditors’ Report on the Treasury
                                   Department’s Financial Statements
                                   The Department received an unqualified audit opinion on its fiscal year 2007
                                   financial statements . The auditor reported a material weakness in financial
                                   management and other significant deficiencies in: (1) Information Controls
                                   and Security Programs Over Financial Systems, and (2) Financial Management
                                   Practices at the Department Level .

                                   Summary of Financial Statement Audit

                                              Audit Opinion                        UNQUALIFIED
                                               Restatement                              NO
                                                               Beginning                                    Ending
                                        Material Weakness       Balance    New   Resolved    Consolidated   Balance
                                     Financial Management         1        0        0             0           1
                                        Practices at the IRS



                                   Limitations on the Principal Financial Statements
                                   The principal financial statements have been prepared to report the financial
                                   position and results of operations of the Department of the Treasury, pursu­
                                   ant to the requirements of 31 U .S .C . 3515 (b) . While the statements have
                                   been prepared from the books and records of the Department of the Treasury,
                                   in accordance with GAAP for Federal entities and the formats prescribed by
                                   OMB, the statements are in addition to the financial reports used to monitor
                                   and control budgetary resources which are prepared from the same books and
                                   records .

                                   The financial statements should be read with the realization that they are for
                                   a component of a sovereign entity, that liabilities not covered by budgetary
                                   resources cannot be liquidated without the enactment of an appropriation, and
                                   that the payment of all liabilities other than for contracts can be abrogated by
                                   the sovereign entity .


                                   Financial Highlights
                                   The following provides the highlights of Treasury’s financial position and
                                   results of operations for fiscal year 2007 .




Analysis of Financial Statements
Part I – Management’s Discussion and Analysis                                                                                                35




Assets. Total assets increased from $9 .0 trillion at September
                                                                                                    Total Assets
30, 2006 to $9 .5 trillion at September 30, 2007 . The primary
                                                                                     Other Assets                      Intra-Governmental
reason for the increase is the rise in the federal debt, which causes                    3%                             Loans and Interest
                                                                                                                            Receivable
a corresponding rise in the “Due from the General Fund of the                                                                  2%
U .S . Government” account ($9 .1 trillion .) This account repre­
                                                                          Due from the
sents future funds required from the General Fund of the U .S .           General Fund
                                                                              95%
Government to pay borrowings from the public and other federal
agencies .

The majority of loans and interest receivable ($236 .9 billion)
included in “Other Intra-governmental Assets” are the loans
issued by the Federal Financing Bank to other federal agencies
for their own use or to private sector borrowers, whose loans are
guaranteed by the federal agencies . In addition, $175 million
loans and interest receivable from non-federal entities include
certain loans and credits issued by the United States to various
foreign governments . These loans are due and payable in U .S .
denominations .

Liabilities. Intra-governmental liabilities totaled $4 .3 trillion,
and include $4 .0 trillion of principal and interest payable to
various Federal agencies such as the Social Security Trust Fund .
These borrowings do not include debt issued separately by other
governmental agencies, such as the Tennessee Valley Authority or
the Department of Housing and Urban Development .
                                                                            $14,000
Liabilities also include federal debt held by the public, including
                                                                            $12,000
interest, of $5 .1 trillion; the majority of this debt was issued as        $10,000
Treasury Notes . The increase in total liabilities in fiscal year 2007       $8,000

over fiscal year 2006 ($534 .6 billion and 6 .0 percent), is the result      $6,000
                                                                             $4,000
of increases in borrowings from various federal agencies ($293 .8            $2,000
billion), and federal debt held by the public, including interest,                  $0
($206 .2 billion) . Debt held by the public increased primarily             ($2000)

because of the need to finance budget deficits .

Net Cost of Treasury Operations. The Consolidated Statement
of Net Cost presents the Department’s gross and net cost for its
four strategic missions: financial program, economic program,               $14.0

security program, and management program . The majority of                  $12.0
                                                                            $10.0
the Net Cost of Treasury Operations is in the financial program .
                                                                             $8.0
Treasury is the primary fiscal agent for the Federal government
                                                                             $6.0
in managing the Nation’s finances by collecting revenue, mak­
                                                                             $4.0
ing Federal payments, managing Federal borrowing, performing                 $2.0
central accounting functions, and producing coins and currency                 $0
sufficient to meet the demand . Treasury’s Strategic Plan for FY



                                                                                                              Analysis of Financial Statements
36                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                       2007 – FY 2012 includes a new Security program, which resulted
                                       in a reclassification between the four programs in fiscal year 2007 .
        $450.0
        $400.0                         Net Federal Debt Interest Costs. Interest costs have increased
        $350.0                         significantly ($29 .5 billion in fiscal year 2007 and $48 .5 billion
        $300.0
        $250.0
                                       in fiscal year 2006) over the past two years due to the increase in
        $200.0                         the federal debt and higher interest rates .
        $150.0
        $100.0
         $50.0
                                       Custodial Revenue. Total net revenue collected by Treasury on
           $0                          behalf of the federal government includes various taxes, primar­
                                       ily income taxes, user fees, fines and penalties, and other revenue .
                                       Over 94 .3 percent of the revenues are from income and social
                                       security taxes . Following a 12 percent ($247 .4 billion) increase
                                       in fiscal year 2006, net revenue increased by 7 .1 percent ($162 .3
                                       billion) in fiscal year 2007, due to a continuing high level of eco­
                                       nomic activity . The majority of increase in revenue was from the
                                       individual income and FICA taxes, which was primarily attributed
                                       to the growth in wages and overall taxable income .




         $3.0

         $2.5

         $2.0

         $1.5

         $1.0

         $0.5

         $0.0




Analysis of Financial Statements
Part I – Management’s Discussion and Analysis                                                                                             37




Improper Payments Information
Act and Recovery Act

Summary of FY 2007 Activities

Background
The Improper Payments Information Act of 2002 (IPIA) requires agencies to annually review their pro­
grams and activities to identify those that are susceptible to significant erroneous payments . According
to OMB Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation of
Improper Payments (A-123, Appendix C), “significant” means that an estimated error rate and a dollar
amount exceed the threshold of 2 .5% and $10 million of total program funding . A-123, Appendix C also
requires the agency to implement a corrective action plan that includes improper payment reduction and
recovery targets .

Some federal programs are so complex that developing an annual error rate is not feasible . The govern­
ment-wide Chief Financial Officers Council developed an alternative for such programs to assist them in
meeting the IPIA requirements . Agencies may establish an annual estimate for a high-risk component of
a complex program (e .g ., a specific program population) with Office of Management and Budget (OMB)
approval . Agencies must also perform trend analyses to update the program’s baseline error rate in the
interim years between detailed program studies . When development of a statistically valid error rate is pos­
sible, the reduction targets are revised and become the basis for future trend analyses .


Treasury’s Risk Assessment Methodology and Results for FY 2007
Each year, Treasury develops a comprehensive inventory of all funding sources and conducts a risk assessment
for improper payments on all of its programs and activities . The risk assessment performed on all of Treasury’s
programs and activities resulted in low and medium risk susceptibility for improper payments except for the
Internal Revenue Service’s (IRS) Earned Income Tax Credit (EITC) program . The high-risk status of this
program is well-documented and has been deemed a complex program for the purposes of the IPIA .


Earned Income Tax Credit
The EITC is a refundable tax credit that offsets income tax owed by low-income taxpayers and, if the credit
exceeds the amount of taxes due, provides a lump-sum payment in the form of a refund to those who qualify .
The FY 2007 estimate is that a maximum of 28% ($12 .3 billion) and a minimum of 23% ($10 .4 billion) of
the EITC total program payments are overclaims .

Since June 2003, IRS has focused on reducing erroneous EITC overclaims through a five-point initiative
designed to:
   • Reduce the backlog of pending EITC examinations
   • Minimize the burden and enhance the quality of communications with taxpayers
   • Encourage eligible taxpayers to claim the EITC
   • Ensure fairness by refocusing compliance efforts on income-ineligible taxpayers
   • Pilot a certification effort to substantiate qualifying child residency eligibility




                                                                                           Improper Payments Information Act and Recovery Act
38                                                                Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Recovery Auditing Act

                          Background
                          In accordance with OMB Circular A-123, Appendix C, the Recovery Auditing Act requires agencies issuing
                          in excess of $500 million in contracts to establish and maintain recovery auditing activities and report on the
                          results of those recovery efforts annually . Recovery auditing activities include the use of (1) contract audits,
                          in which an examination of contracts pursuant to the audit and records clause incorporated in the contract
                          is performed, (2) contingency contracts for recovery services in which the contractor is paid a percentage of
                          the recoveries, and (3) internal review and analysis in which payment controls are employed to ensure that
                          contract payments are accurate .

                          For Recovery Auditing Act compliance, Treasury requires each bureau and office to review their post-
                          payment controls and report on recovery auditing activities, contracts issued, improper payments made, and
                          recoveries achieved . Bureaus and offices may use recovery auditing firms to perform many of the steps in
                          their recovery program and identify candidates for recovery action .


                          Results for FY 2007
                          During FY 2007, $5 .1 billion in contracts (defined as issued and obligated contracts, modifications, task
                          orders, and delivery orders) were issued . Improper payments in the amount of $843,230 were identified
                          from recovery auditing efforts and, of this amount, $821,667 has been recovered with $21,564 outstand­
                          ing as accounts receivable on September 30, 2007 . Additional detail on Treasury’s Recovery Auditing Act
                          Program can be found in Appendix C .




Improper Payments Information Act and Recovery Act
Part I – Management’s Discussion and Analysis                                                                                  39




Management Assurances



 The Secretary’s Letter of Assurance

  The Department of the Treasury’s management is responsible for establishing and maintaining

  effective internal control and financial management systems that meet the objectives of the Federal

  Managers’ Financial Integrity Act (FMFIA) . The Department of the Treasury has evaluated its 

  management controls, internal controls over financial reporting, and compliance with Federal

  financial systems standards . As part of the evaluation process, we considered results of extensive

  testing and assessment across the Department and independent audits .


  Treasury provides reasonable assurance that the objectives of the Federal Managers’ Financial

  Integrity Act over operations have been achieved, except for the material weaknesses noted below .

  In accordance with OMB Circular A-123, Appendix A, we provide qualified assurance that inter­

  nal control over financial reporting is effective as of June 30, 2007 . Treasury is not in substantial

  compliance with the Federal Financial Management Improvement Act due to the material weak­

  ness involving revenue accounting systems; this weakness is a significant reason for our qualified

  overall assurance level for A-123, Appendix A .


     Treasury has six remaining material weaknesses as of September 30, 2007, as follows:
           Operations:
             Internal Revenue Service
             • Systems modernization management and controls
             • Overclaims in the Earned Income Tax Credit Program
             • Systems security controls
              Financial Management Service
              • Systems, controls and procedures to prepare the Government-wide financial statements
              Departmental Offices
              • Systems security

           Financial Reporting:
              Internal Revenue Service
              • Revenue accounting systems

  We identified no new material weaknesses in FY 2007, and made progress toward addressing our

  existing weaknesses . (Refer to Appendix E for detailed information .) We will continue to achieve 

  positive results in FY 2008 by:

              •   Emphasizing internal control program responsibilities throughout Treasury
              •   Ensuring senior management attention to management controls
              •   Developing and implementing capital planning investment control processes
              •   Focusing on the need to develop and carry out responsible plans for resolving weaknesses
                                                        Sincerely,



                                                        Henry M . Paulson, Jr .


                                                                                                             Management Assurances
40                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Material Weaknesses, Audit
                         Follow-up, and Financial Systems

                         Summary of Management Assurance

                           Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
                                    Statement of Assurance                                                 Qualified Assurance
                                                                        Beginning                                                                        Ending
                                     Material Weaknesses                 Balance            New         Resolved       Consolidated    Reassessed        Balance
                           IRS - Revenue Accounting Systems                 0                0              0               0               1              1
                           Total Material Weaknesses                        0                0              0               0               1              1


                           Effectiveness of Internal Control over Operations (FMFIA § 2)
                                    Statement of Assurance                                                 Qualified Assurance
                                                                        Beginning                                                                        Ending
                                     Material Weaknesses                 Balance            New         Resolved       Consolidated    Reassessed        Balance
                           IRS - Systems Modernization                      1                0              0               0               0              1
                           Management and Controls
                           IRS - Overclaims in the Earned                   1                0              0               0               0              1
                           Income Tax Credit Program
                           IRS - Systems Security Controls                  1                0              0               0               0              1
                           FMS - Systems, Controls,                         1                0              0               0               0              1
                           and Procedures to Prepare the
                           Government-wide Financial
                           Statements
                           DO - Systems Security                            1                0              0               0               0              1
                           Total Material Weaknesses                        5                0              0               0               0              5


                           Conformance with Financial Management System Requirements (FMFIA § 4)
                                    Statement of Assurance                          Systems do not conform to financial management system requirements
                                                                        Beginning                                                                        Ending
                                      Non-Conformances                   Balance            New         Resolved       Consolidated    Reassessed        Balance
                           IRS -Accounting for Revenue                      1                0              0               0              (1)             0
                           Total Non-conformances                           1                0              0               0              (1)             0


                           Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                                           Agency                                        Auditor
                           Overall Substantial Compliance                                   No                                             No
                             1 . System Requirements                                        No                                             No
                             2 . Accounting Standards                                       No                                             No
                             3 . USSGL at Transaction Level                                 No                                             No




Material Weaknesses, Audit
Follow-up, and Financial Systems
Part I – Management’s Discussion and Analysis                                                                                               41




Federal Managers’ Financial Integrity Act (FMFIA)
The management control objectives under FMFIA are to reasonably ensure that:
   • programs achieve their intended results .
   • resources are used consistent with overall mission .
   • programs and resources are free from waste, fraud and mismanagement .
   • laws and regulations are followed .
   • controls are sufficient to minimize any improper or erroneous payments .
   • performance information is reliable .
   • system security is in substantial compliance with all relevant requirements .
   • continuity of operations planning in critical areas is sufficient to reduce risk to reasonable levels .
   • financial management systems are in compliance with Federal financial systems standards .

Deficiencies that seriously affect an agency’s ability to meet these objectives are deemed “material weakness­
es .” Treasury can provide reasonable assurance that the objectives of FMFIA have been achieved, except for
the remaining material weaknesses noted in the Secretary’s Letter of Assurance . Currently, the last identified
material weakness is targeted to be closed in fiscal year 2011 .

Material weaknesses, both the resolution of existing ones and the prevention of new ones, received special
attention during fiscal year 2007 . Over the past five years, we have made great progress in reducing the
number of material weaknesses Treasury-wide . During fiscal year 2007, we made material weakness resolu­
tion a performance requirement for every executive, manager, and supervisor to continue our path of resolv­
ing the current material weaknesses and preventing new ones before they occur .


Office of Management and Budget Circular A-123, Appendix A
The Department of the Treasury continues to strengthen and improve the execution of our mission through
the application of sound internal controls over financial reporting . In response to Office of Management
and Budget (OMB) Circular A-123, Management’s Responsibility for Internal Controls, Appendix A, Treasury
developed and implemented an extensive testing and assessment methodology that identified and docu­
mented internal controls over financial reporting at the transaction level integrated with the Government
Accountability Office’s Standards for Internal Control . The testing and assessment were completed across all
material Treasury bureaus and offices by June 30, 2007 . Treasury provides qualified reasonable assurance that
internal controls over financial reporting are effective as of June 30, 2007, due in large part to the revenue
accounting system weaknesses at the Internal Revenue Service .


Federal Financial Management Improvement Act (FFMIA)
FFMIA mandates that agencies “ . . . implement and maintain financial management systems that comply sub­
stantially with Federal financial management systems requirements, applicable Federal accounting standards,
and the United States Government Standard General Ledger at the transaction level .” FFMIA also requires
that remediation plans be developed for any entity that is unable to report substantial compliance with these
requirements .




                                                                                                                     Material Weaknesses, Audit
                                                                                                               Follow-up, and Financial Systems
42                                                               Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         As of September 30, 2007, the Treasury Department’s financial management systems were not in substantial
                         compliance with FFMIA due to deficiencies with the IRS’s financial management systems . The IRS has
                         a remediation plan in place to correct the deficiencies . For each FFMIA recommendation, the remedia­
                         tion plan identifies specific remedies, target dates, responsible officials, and resource estimates required for
                         completion . This plan is reviewed and updated on a quarterly basis . (Refer to Appendix E for detailed
                         information .)


                         Audit Follow-Up
                         During fiscal year 2007, Treasury continued its efforts to improve both the general administration of man­
                         agement control issues throughout the Department and the timeliness of the resolution of all findings and
                         recommendations identified by the Office of the Inspector General (OIG), the Treasury Inspector General
                         for Tax Administration (TIGTA), the Government Accountability Office, and external auditors .

                         Treasury management at every level will maintain the momentum on accomplishing Planned Corrective
                         Actions (PCAs) to resolve and implement sound solutions for all audit recommendations . Although we have
                         made great progress, we have considerably more work to do . Specifically, we must provide timely and accu­
                         rate performance in addressing PCA schedules and implementation and integrate the effects of those actions
                         more fully into our management decision-making processes . We need to identify more precisely what it costs
                         to accomplish our varied missions and develop ways to improve overall performance . This will entail building
                         upon the progress we have made in expanding the communication and coordination among offices variously
                         involved in strategic planning, budget formulation, budget execution, performance management and finan­
                         cial management .


                         Financial Management Systems Framework
                         The Department’s overall financial management systems framework consists of a Treasury-wide financial
                         data warehouse, supported by a financial reporting tool and separate bureau financial systems . Bureaus
                         submit their monthly financial data to the data warehouse within three business days of the month-end .
                         The Department then produces its monthly financial statements and reports for management analysis .
                         This framework satisfies both the bureaus’ diverse financial operational and reporting needs as well as the
                         Department’s internal and external reporting requirements . The financial data warehouse is part of the
                         overarching Treasury-wide Financial Analysis and Reporting System (FARS), which also includes applications
                         for bureaus to report the status of their performance measures and the status of their planned audit corrective
                         actions . Treasury has also implemented a budget application which is used by Departmental Offices (DO) in
                         the management of DO’s budget expenditures . Additional FARS applications are being planned to improve
                         the Department’s financial management and operations . This includes asset management and enhanced
                         reporting functionality .

                         Treasury’s FARS applications operate at a contractor operated hosting facility . In accordance with the guid­
                         ance contained in the American Institute of Certified Public Accountants’ Statement of Auditing Standards
                         (SAS) No . 70, Service Organizations, the service provider’s independent auditors examined the controls for
                         the dedicated hosting service . In the opinion of the auditors, the description of the controls presents fairly,
                         in all material respects, the relevant aspects of the provider’s controls that had been placed in operation as of
                         September 30, 2007 . Also, the controls described are suitably designed to provide reasonable assurance that



Material Weaknesses, Audit
Follow-up, and Financial Systems
Part I – Management’s Discussion and Analysis                                                                                          43




the specified control objectives would be achieved if the described controls were complied with satisfactorily
and customer organizations applied the controls contemplated in the design of the provider’s controls .

The Department continues to enhance its financial management systems structure . As of September 30,
2007, the number of financial management systems decreased to 64, down from 69 at the end of fiscal year
2006 .

The Bureau of Public Debt’s Administrative Resource Center (ARC) has been designated by the Office of
Management and Budget as a Financial Management Line of Business Shared Service Provider . ARC cur­
rently services 28 Federal entities for core financial systems, including twelve Treasury bureaus and reporting
entities . Annually, under a contract monitored by the Office of Inspector General, an independent public
accountant performs an examination of ARC’s accounting processing and general computer controls related
to certain services provided to its customer agencies . Treasury will continue to evaluate opportunities to
consolidate financial management systems and better utilize existing resources .

ARC also provides systems and service support to eleven Department bureaus in the processing of their travel
needs as part of the Department’s E-Gov Travel initiative . Of the three remaining bureaus, two are exempt
from the Federal Travel Regulations and do not plan to migrate at this time . The IRS, which is not currently
cross-serviced by ARC, is working towards a May 2008 E-Gov Travel implementation date .

The Department’s FARS applications are also used to support other Federal agencies . Treasury currently
hosts two agencies for consolidated financial processing and reporting . In addition, the Department has
demonstrated various FARS applications to other agencies . Several Federal agencies have already imple­
mented FARS applications to run in their own systems environment, reducing their capital investment is
systems software .




                                                                                                                Material Weaknesses, Audit
                                                                                                          Follow-up, and Financial Systems
44   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




     This page left intentionally blank
Part II:
Annual Performance
Report
THIS PAGE INTENTIONALLY LEFT BLANK
Part II – ANNUAL PERFORMANCE REPORT                                                                                                                     47




Financial - Effectively ManagedPerformance Cost - $13.3 Billion
 FINANCIAL
U.S. Government Finances  *For information on calculating cost – see Appendix H

 STRATEGIC GOAL: Effectively Managed U.S. Government Finances

 STRATEGIC OBJECTIVE: Cash resources are available to operate the government

 STRATEGIC OUTCOMES AND VALUE CHAINS:
   •  Revenue collected when due through a fair and uniform application of the law (Collect)
   •  Timely and accurate payments at the lowest possible cost (Disburse)
   •  Government financing at the lowest possible cost over time (Borrow)
   •  Effective cash management (Invest)
   •  Accurate, timely, useful, transparent and accessible financial information (Account)




 ** This amount does not reflect the cost associated with payments made by DC Pensions . These activities do not contribute to the
    achievement of the “Timely and accurate payments at the lowest possible cost” outcome .



The Treasury Department manages the nation’s finances by collecting money due the United States, mak­
ing its payments, managing its borrowing, investing when appropriate, and performing central accounting
functions . Sound fiscal management enables continual operation of essential government services and allows
the Department to meet its financial obligations while minimizing borrowing costs . Accurate projections
of the U .S . Government’s cash requirements ensure that funds are available to cover federal payments on a
daily basis . The ability of the Department of the Treasury to manage the nation’s finances with integrity is
paramount to maintaining financial stability and enabling economic growth .


Revenue collected when due through a fair and uniform application of the law
Collecting federal taxes and other revenue is integral to the Department of the Treasury’s strategic goal of
effectively managing the federal government’s finances . The Department allocates 90 percent of its resources
to this activity . Three Department bureaus collect and process federal tax revenue and other revenue owed
the federal government: the Internal Revenue Service (IRS), the Alcohol and Tobacco Tax and Trade Bureau
(TTB) and the Financial Management Service (FMS) .




                                                                                                               Effectively Managed U.S. Government Finances
48                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




            Activities Related:
               •	 The IRS’s Taxpayer Service program assists taxpayers in understanding their obligations and makes it
                  easier for them to participate in the tax system
               •	 The IRS’s Enforcement program ensures taxpayers meet their tax obligations
               •	 The IRS’s Business System Modernization program combines industry best practices and government
                  expertise in business and technology solutions to develop a modernized tax administration system that
                  meets taxpayer needs and fulfills revenue collection requirements
               •	 The TTB’s Collect the Revenue program collects federal taxes on tobacco, alcohol, and firearms and
                  ammunitions
               •	 The FMS’s Collection program collects individual and corporate federal revenue through the 

                  government’s collections infrastructure

               •	 The FMS’s Debt Collection program recovers delinquent government and child support debt by
                  providing centralized debt collection, oversight, and operational services to Federal Program Agencies
                  (FPA) and states


            Taxpayer Service
            Helping taxpayers understand their tax reporting and payment obligations is the cornerstone of taxpayer
            compliance . Underreporting tax liability accounts for 82 percent of the gap between what taxpayers owe and
            what they actually pay . The IRS maximizes the level of voluntary compliance through effective enforcement
            of tax laws and taxpayer service, which is essential to addressing the tax gap . Although the Department of
            the Treasury relies on those with financial obligations to the government to voluntarily comply with the law,
            it is prepared to take appropriate action when they do not .

            In fiscal year 2007, the IRS issued the report, Reducing the Federal Tax Gap, which identifies current tax gap
            activities, presents steps to leverage technology, and supports legislative proposals to improve compliance .
            It also provides an outreach approach to ensure all taxpayers understand their tax obligations . The report
            highlights the importance of having a multi-year research program to help the IRS understand the scope of,
            and reasons for, non-compliance while reaffirming the need to minimize the burden on compliant taxpayers .
            This report, along with others, combined with legislative changes and tax simplification, will provide the
            roadmap necessary to deliver service and enforcement, and lead to improved compliance .

            Key strategies to improving taxpayer service are expanding options and simplifying the tax process . In fis­
            cal year 2007, the IRS continued to improve its services by providing year-round assistance to millions of
            taxpayers through the IRS .gov website, toll-free call centers, Taxpayer Assistance Centers, Volunteer Income
            Tax Assistance, and Tax Counseling for the Elderly sites . Opening and maintaining lines of communication,
            enables the IRS to identify and respond to emerging issues, and effectively provide education and outreach to
            a broader population of taxpayers, thereby improving compliance .

            Throughout the year, taxpayers use toll-free services to contact the IRS, and obtain answers to tax law and
            account questions . In fiscal year 2007, the IRS:
               •	 Achieved an 82 .1 percent for customer service representative level, meeting its performance 

                  measurement target




Financial
Part II – ANNUAL PERFORMANCE REPORT                                                                                                      49




   •	 Responded to 33 .2 million assistor telephone calls and completed nearly 23 .1 million automated calls
   •	 Responded correctly to 91 .2 percent of tax law questions and 93 .4 percent of account questions 

      received by telephone


The IRS delivered a successful 2007 filing season, despite the challenges associated with the implementation
of the Telephone Excise Tax Refund, the split refund capability, and new legislation related to the Tax Relief
and Health Care Act of 2006 . Results of the 2007 filing season included:
   •	 139 .7 million individual returns were processed
   •	 Over 105 .5 million refunds were issued totaling $244 billion
   •	 57 .1 percent of individual returns were electronically filed, an increase of 5 percent over 2006
   •	 19 .1 percent of business returns were electronically filed, an increase of 15 percent over 2006
   •	 22 .5 million returns were filed on home computers, an increase of 11 percent over 2006
   •	 57 .2 million returns were e-filed by tax professionals, an increase of 10 percent over 2006
   •	 Over 4 .1 million taxpayers used the free services offered by the Free File Alliance

The IRS redesigned its website, making information easier for the taxpayer to find, and they received an
American Customer Satisfaction Index rating of 74 out of 100, an increase of five points over the last filing
season’s score .

Successful delivery of an integrated approach to the Telephone Excise Tax Refund (TETR) enabled the filing
of over 94 million 2006 federal income tax returns, claiming more than $4 .81 billion in credits or refunds .
The excise tax refund was a one-time payment designed to refund long-distance telephone taxes . To reduce
taxpayer burden, the IRS developed a standard deduction for individuals, based on the number of claimed
exemptions, and an estimation formula for businesses . An extensive communication strategy was launched,
focusing on education by maximizing media outreach, and publicizing the associated compliance issues . To
further assist taxpayers and the practitioner community, the IRS established a TETR web page on IRS .gov,
which was viewed by more than 4 .5 million people . In addition, the IRS prevented more than $40 million
in erroneous refunds, through in-depth analysis of TETR claims and split refund requests . The compre­
hensive approach to administering the refund allowed the IRS to successfully meet taxpayer and stakeholder
expectations .

In the 2007 filing season, taxpayers filing the 1040 forms were given the option to split their tax refunds in
up to three financial accounts . Over 83,000 taxpayer returns took advantage of this split refund option .

For the second consecutive year, the IRS responded quickly to last minute changes to the Tax Relief and
Health Care Act of 2006 legislation . More than 1,000 revisions were made, affecting 137 of the 164 prod­
ucts at the start of the filing season, resulting in no negative impact .

Taxpayer Outreach: In fiscal year 2007, the IRS enhanced its outreach and educational services through
partnerships with public organizations . The IRS relies on partner organizations, such as state taxing authori­
ties and volunteer groups, to serve taxpayer needs . Through its 11,922 Volunteer Income Tax Assistance and
Tax Counseling for the Elderly sites, the IRS provided free tax assistance to the elderly, disabled, and limited




                                                                                                Effectively Managed U.S. Government Finances
50                                                  Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




            English proficient individuals and families . The 76,619 volunteers filed approximately 2 .63 million returns,
            a 14 percent increase over fiscal year 2006 .

            In addition, the IRS established 16 new clinics in rural areas to help low income taxpayers meet their tax
            obligations . These clinics, through outreach and education efforts, reduce uncertainty and errors by clarify­
            ing taxpayer rights and responsibilities .

            The Earned Income Tax Credit (EITC) is a refundable federal income tax credit for low-income working
            individuals and families . The IRS improved services for EITC participants by developing a three-point plan
            to expand outreach initiatives, simplify and improve tax forms, and make the IRS website more user-friendly .
            In addition, the IRS increased partnerships with community-based organizations dedicated to assisting
            taxpayers with financial literacy and preparing and filing tax returns . As a result, the IRS increased its EITC
            outreach by 15 percent and return preparation by 18 percent over fiscal year 2006 .


            Enforcement of the Tax Law
            In fiscal year 2007, revenue from all enforcement sources reached $59 .2 billion, an increase of 22 percent
            in enforcement revenue over fiscal year 2006 . In addition, the IRS Examination and Collection programs
            targeted contributors to the tax gap . Highlights included:
               •	 Increased audits of high-income taxpayers by 29 percent
               •	 Increased audits of individuals by 8 percent
               •	 Increased audits of small businesses and corporations, by 17 percent and 3 percent respectively
               •	 Increased closures of collection cases by 12 percent

            The IRS enhanced its productivity by implementing technological and process improvements in programs,
            including the Automated Underreporter, Examination, and Compliance Services Collection Operations .
            Improvements made during fiscal year 2007 included:
               •	 Implementing a new Automated Underreporter program case selection and scoring methodology for
                  individuals, resulting in a 20 .5 percent increase in assessments
               •	 Controlling and directing incoming Examination program toll-free calls through the Intelligent Call
                  Management system, resulting in a 6 .1 percent increase in the level of service
               •	 Automating the processing of over 43 percent of installment agreement problem cases, thereby allowing
                  resources to process additional installment agreement compliance cases

            In fiscal year 2007, the IRS continued to reengineer its examination and collection procedures to reduce
            time, increase yield, and expand coverage . Emphasizing the early identification of tax liabilities, through
            increased audits and focused collection activities, the IRS undertook the following actions:
               •	 Piloted new Automated Substitute for Return screening and batching procedures, with increased
                  efficiencies, resulting in productivity improvements of over 156 percent, from 7 .5 cases per hour to
                  19 .2 cases per hour
               •	 Increased detection of fraud activities and increased the number of recommendations for civil fraud
                  penalties by 49 percent over last year’s level



Financial
Part II – ANNUAL PERFORMANCE REPORT                                                                                                     51




   •	 Developed an employment tax strategy to eliminate or reduce overlap and gaps in current processes
      to enhance organizational effectiveness, expand work relationships with state and federal authorities,
      conduct compliance studies to better understand the components of the tax gap, and assess new ways
      to impact taxpayer behavior

The Compliance Assurance Process continues to expand and work with large businesses, to identify and
resolve issues prior to filing corporate tax returns . The objective of the program is to reduce taxpayer burden
and uncertainty, while assuring tax returns are accurate prior to filing, thereby reducing or eliminating the
need for post-filing examinations . In addition, the program allows corporations to better manage their tax
reserves and increase the accuracy of earnings reported on financial statements .

Through targeted audits, aggressive litigation, and publicity, the IRS continues to deter tax shelter abuse and
tax scheme promoters . The IRS made significant progress in resolving civil matters with promoters of abu­
sive and listed tax shelter transactions . In fiscal year 2007, the IRS obtained future compliance agreements
from all promoters after levying sizeable penalties against them and former employees; penalties assessed and
collected from the program were nearly $69 million .

In fiscal year 2007, the IRS reorganized to address the increasing scope of international tax administration
where non-compliance is a growing problem . To accomplish this, the IRS developed a comprehensive
strategy to identify activities that will improve customer service, enhance international tax compliance, and
modernize the IRS to keep pace with globalization .

The exchange of information, between a foreign revenue agency and the IRS, led to the unraveling of an
abusive cross-border tax scheme, involving hundreds of taxpayers and tens of millions of dollars in improper
deductions and unreported income . In fiscal year 2007, the Japanese National Tax Agency joined the Joint
International Tax Shelter Information Centre, which shares information and expertise in identifying and
curbing tax avoidance and shelters . As collaboration between member countries continues to grow, more
cross-border schemes will be uncovered, shared, and addressed .

In fiscal year 2007, the IRS continued to investigate significant tax, money laundering, and other financial
activities that adversely affect tax administration . In addition, the IRS took steps to combat fraudulent and
financial crime schemes identified through improved case development efforts and partnerships with other
law enforcement agencies . In fiscal year 2007; highlights include:
   •	 Completed 4,269 criminal investigations, exceeding the target of 4,000
   •	 Maintained a conviction rate of over 90 percent
   •	 Acceptance rate of cases sent for prosecution to the Department of Justice was 94 .6 percent, an increase
      of over 2 percent over fiscal year 2006, and the acceptance rate for U .S . Attorney’s cases was 90 .2
      percent, an increase of 2 percent over fiscal year 2006
   •	 Total convictions were 2,155 exceeding the performance target of 2,069

Maintaining a strong enforcement presence in the tax-exempt and government sectors is particularly impor­
tant, given the role that a small number of entities play in accommodating abusive transactions entered into
by taxable parties . In fiscal year 2007, the IRS expanded its enforcement presence by conducting reviews
of executive compensation practices among tax-exempt organizations . In addition, new outreach tools were



                                                                                               Effectively Managed U.S. Government Finances
52                                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




            developed and implemented, including the deployment of a popular tax compliance website for exempt enti­
            ties, stayexempt .org .


            Business Systems Modernization
            Evolving technology, its effect on business processes, and the increased pressure to maximize resources
            impacts how the IRS conducts business and delivers services .

            In fiscal year 2007, the IRS delivered most of major project milestones within the target of plus or minus ten
            percent variance for cost and schedule, a significant accomplishment which continues to validate the Business
            Systems Modernization program management’s effectiveness . In addition, for IRS’s major project segments,
            92 percent were within cost and 77 percent met schedule variance targets . Successes included:
               •	 The delivery of the new Customer Account Data Engine (CADE) filing capabilities, which enabled the
                  faster processing of over 11 million returns and refund issuance totaling in excess of $11 .6 billion
               •	 The addition of new capabilities to the modernized e-File system (MeF), allowed for the receipt

                  of electronically filed Partnership Returns, receiving over two million corporate, non-profit, and

                  partnership forms for processing

               •	 More than 51,000 cases being placed with Private Collection Agencies using the Filing and Payment
                  Compliance (F&PC) system, to facilitate the collection of more than $23 .9 million
               •	 The deployment of the first two releases of the Accounts Management Services (AMS) system, which is
                  designed to enable authorized users to resolve taxpayer issues by accessing integrated account data

            In addition to the key modernization projects, the IRS undertook several initiatives and improvements,
            in 2007, to effectively integrate the systems with the legacy production environment, and improve the
            technology infrastructure . New and improved processes were put into place to better integrate business and
            technology strategies and allow the IRS to operate more efficiently, with improved productivity . Highlights
            included:
               •	 Institutionalizing the use of Enterprise Architecture (EA) into the Modernization Vision and Strategy
                  process; the IRS received the E-Gov award as the Best Civilian Agency to use EA for Government
                  Business Transformation
               •	 Completing the Enterprise Service Oriented Architecture strategy, and established the process to

                  identify Enterprise Common Services to achieve operational excellence and cost savings

               •	 Delivering high-priority portal platform improvements and stabilizing operations to meet the projected
                  needs of practitioners and internal IRS users for the 2007 and 2008 tax filing seasons
               •	 Integrating the Enterprise Application Integration Broker into the core infrastructure to enable the use
                  of common service to leverage data and applications between legacy and modernized environments
               •	 Expanding the Infrastructure Center of Excellence to include configuration management measurement
                  and analysis capacity planning and performance engineering, and project monitoring and control

            In fiscal year 2007, a new governance structure was implemented for all IRS information technology (IT)
            investment projects . This structure facilitates the ability to identify and address project-related issues and
            risks, ensuring IT investment projects deliver the required results .



Financial
Part II – ANNUAL PERFORMANCE REPORT                                                                                                     53




In addition, the IRS developed a five-year IT Modernization Vision and Strategy which will address priorities
for modernizing front-line tax administration functions . The strategy guides IT investment decision-making
for 2007 and beyond . Important aspects include: establishing partnerships among IT and business leader­
ship, leveraging existing systems, emphasizing the delivery of incremental releases, and unifying the portfolio-
level view of investments .

Protection of Sensitive Information: Security of infrastructure and IT systems remains a top priority for the
IRS . In fiscal year 2007, the IRS continued to update its systems, processes, and training efforts, to ensure
taxpayer information is properly safeguarded . Highlights of security measures implemented included:
   •	 Installed automatic full disk encryption on over 50,000 IRS laptops
   •	 Implemented a secure electronic online solution for data exchanged with federal and state governments,
      and other partners
   •	 Deployed mandatory information protection training for IRS employees and contractors with access to
      sensitive information
   •	 Deployed upgraded firewalls and intrusion detection devices
   •	 Created a second cyber security incident response center to provide back-up capabilities and monitor
      IRS’s computer and network security
   •	 Implemented enterprise-wide anti-virus gateway solutions




                                                                                               Effectively Managed U.S. Government Finances
54                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




            Fiscal Year 2007 Performance Data for Business Systems Modernization
            For the third consecutive year, the IRS achieved the milestones, for most of its major projects, within the target of +/- ten per­
            cent variance for cost and schedule, a significant accomplishment which continues to validate management’s effectiveness for the
            business systems modernization program . In fiscal year 2007, for IRS’s major project segments, 92 percent were within cost and
            77 percent met schedule variance targets .
                                                        Schedule Variance (based on SPECIFIC estimates)
                                                           Planned Finish     Actual Finish        Variance         Variance      Within Acceptable
              Project        Release           MS              Date               Date              (days)            (%)             Tolerance
              AMS             R1 .1            2-3           1/31/07            1/31/07                   0           0%                  Y
              AMS             R1 .1            4a            4/30/07             5/3/07                   3           5%                  Y
              AMS             R1 .1            4b            9/27/07            9/27/07                   0           0%                  Y
              AMS             R1 .2            2-3           3/13/07            3/13/07                   0           0%                  Y
              AMS             R1 .2            4a            7/26/07            7/24/07               -2              -2%                 Y
              AMS             R1 .3            2-3           7/24/07            7/24/07                   0           0%                  Y
              AMS             R2 .1             2            10/23/07            TBD                      0           0%                  Y
              AMS             R2 .1             3            6/24/08             TBD                      0           0%                Y
             CADE             R2 .2             4            12/31/06           6/27/07              123             65%                N1
             CADE              R3              2-3           11/20/06           9/26/07              214             152%               N2
             CADE             R3 .1             4            8/31/07            9/26/07               17              6%                  Y
              F&PC            R1 .1            3-5           1/31/07            1/31/07                   0           0%                  Y
              F&PC            R1 .2             5            9/30/07            9/30/07                   0           0%                  Y
              FP&C            R1 .2            4b            1/31/07            1/19/07               -8              -6%                 Y
               MeF             R4              4-5           3/31/07            4/24/07               16              5%                  Y
               MeF             R5               3            1/19/07             3/5/07               30             41%                N3
            1/ Complexity of the CADE requirements extended the elicitation process and delayed the physical design phase . This resulted
               in delays throughout the rest of the development life cycle of the project
               Future Plans: The IRS has developed an operating model, which includes weekly management meetings; detailed integrated
               schedule and resources; embedded staff and management; and working jointly on technical assessments . These actions will
               ensure successful delivery of BSM projects within cost and schedule .
            2/ The late delivery of Release 2 .2 diverted resources from Release 3 and in order to reduce the risk to Release 3, significant re­
               planning was done to revise scope as well as incorporate lessons learned from Release 2 .
            3/ Time required to achieve scope and funding approval delayed the ability to start contracting actions as previously planned .
               Future Plans: Release 5, Milestone 3 efforts were delayed, as adequate funding was not identified for starting the effort .
               Future releases will not be impacted in this manner as the project has taken appropriate steps to align project requirements
               with funding availability .




Financial
Part II – ANNUAL PERFORMANCE REPORT                                                                                                                           55




 Cost Variance (based on SPECIFIC estimates)
                                                   Planned         Current Cost                          Variance      Within Acceptable
   Project        Release           MS            Cost(000)           (000)           Variance ($)         (%)             Tolerance
    AMS            R1 .1            2-3             4,011             4,011                -               0%                  Y
    AMS            R1 .1            4a              1,421             1,421                -               0%                  Y
    AMS            R1 .1            4b              2,007             2,007                -               0%                  Y
    AMS            R1 .2            2-3             3,489             3,489                -               0%                  Y
    AMS            R1 .2            4a              1,793             1,793                -               0%                  Y
    AMS            R1 .3            2-3             2,596             2,596                -               0%                  Y
    AMS            R2 .1             2              2,369             2,369                -               0%                  Y
    AMS            R2 .1             3              2,580             2,580                -               0%                  Y
   CADE            R2 .2             4             25,720            29,497              3,777            15%                N1
   CADE             R3              2-3            16,373            16,373                -               0%                  Y
   CADE            R3 .1             4             19,000            19,000                -               0%                  Y
   F&PC            R1 .1            3-5             8,100             8,584               484              6%                  Y
   F&PC            R1 .2             5              3,500             3,840               340             10%                  Y
   F&PC            R1 .2            4b             10,000             9,660              (340)             -3%                 Y
    MeF             R4              4-5            26,900            27,650               750              3%                  Y
    MeF             R5               3              5,000             5,200               200              4%                  Y
 1/ Complexity of the CADE requirements extended the elicitation process and delayed the physical design phase . This resulted
    in delays throughout the rest of the development life cycle of the project
    Future Plans: The IRS has developed an operating model, which includes weekly management meetings; detailed integrated
    schedule and resources; embedded staff and management; and working jointly on technical assessments . These actions will
    ensure successful delivery of BSM projects within cost and schedule .
 2/ The late delivery of Release 2 .2 diverted resources from Release 3 and in order to reduce the risk to Release 3, significant re­
    planning was done to revise scope as well as incorporate lessons learned from Release 2 .
 3/ Time required to achieve scope and funding approval delayed the ability to start contracting actions as previously planned .
    Future Plans: Release 5, Milestone 3 efforts were delayed, as adequate funding was not identified for starting the effort .
    Future releases will not be impacted in this manner as the project has taken appropriate steps to align project requirements
    with funding availability .




Collect the Revenue
The TTB administers the collection of federal taxes on tobacco, alcohol, and firearms and ammunitions from
more than 8,000 organizations; 200 of these accounts for 98 percent of all excise tax collections annually .
Highlights included:
   •	 Partnered with industry, states, and other federal agencies to develop alternative methods of promoting
      voluntary tax compliance
   •	 Audited “major” and “at-risk” taxpayers to ensure the correct payment of taxes were made
   •	 Accounted accurately for assessed and collected revenue
   •	 Created alternative electronic filing methods and reduced taxpayer paperwork burden
   •	 Ensured consistent tax administration




                                                                                                                     Effectively Managed U.S. Government Finances
56                                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




               •	 Prevented tax evasion and identified other criminal conduct in regulated industries, including the
                  diversion and smuggling of taxable commodities

            In addition, the TTB used a field approach to target non-compliant industry members and establish an
            identifiable presence to encourage voluntary compliance . In fiscal year 2007, the TTB, using a risk model
            to evaluate and select targeted audiences, completed more than 150 audits of alcohol, tobacco, and firearms
            companies, an increase of 20 audits over fiscal year 2006 .

            In fiscal year 2007, the TTB collected $321 in alcohol and tobacco excise taxes for every dollar spent on
            administration . The TTB benchmarks its performance by comparing its operations to those of similar enti­
            ties in other countries and found that it excelled in terms of resources used as a percentage of taxes collected .

            In fiscal year 2007, 48 .9 percent of taxes collected were from tobacco, the remaining amounts collected were
            49 .2 percent from alcohol, and 1 .9 percent from firearms and ammunitions .

            Examples of the TTB’s fiscal year performance highlights were:
               •	 Collecting $14 .7 billion in excise taxes, interest, and other revenues from 8,000 excise taxpayers holding
                  permits in the alcohol, tobacco, and firearms and ammunition industries
               •	 Voluntary compliance, by industry members, was 75 percent of taxpayers filing payments on or before
                  the scheduled due date
               •	 Expanding the e-filing program, pay .gov, for monthly filing and payment of excise taxes, and the filing
                  of monthly operational reports; 98 percent of tax receipts were collected electronically
               •	 Analyzing 2,259 beverage alcohol samples for product integrity, pre-import analysis, and 5010-tax
                  credit determination
               •	 Analyzing 312 tobacco product samples to ensure compliance with tax and classification regulations
               •	 Proposed new regulatory guidance for cigar and cigarette tax classification, which will provide the
                  industry with clear classification criteria for tobacco products and reduce the risks of misclassification


            Collection
            The FMS manages the collection of federal revenue for individual and corporate income tax deposits . In
            fiscal year 2007, the FMS collected a record $3 .1 trillion through a network of more than 9,000 financial
            institutions with 79 percent of the dollars collected electronically; an increase of 6 percent for total revenue
            collected over fiscal year 2006 .

            In fiscal year 2007, the FMS initiated the Collections and Cash Management Modernization Initiative, a
            comprehensive strategy which streamlines, modernizes, and improves processes and systems supporting the
            Department’s Cash and Debt Management Modernization Initiative . The FMS’ efforts will improve finan­
            cial performance by enabling the FMS and government agencies to effectively manage financial transaction
            information and improve the efficiency of the collections information reporting process . With the expansion
            of web-based technologies, data will be provided daily, integrating financial and performance information
            government-wide .




Financial
Part II – ANNUAL PERFORMANCE REPORT                                                                                                      57




The FMS Electronic Federal Tax Payment System (EFTPS) offers businesses and individuals the convenience
of making payments electronically 24 hours a day, seven days a week . In fiscal year 2007, the EFTPS pro­
cessed more than 90 million payments and collected more than $2 .09 trillion, representing an increase of 8
percent over 2006 .

During fiscal year 2007, the EFTPS-Online collected a total of $349 billion, for the volume of 22 .3 mil­
lion transactions, an increase in dollar collections and transaction volume of 26 .7 percent and 40 .9 percent,
respectively, over fiscal year 2006 .

Pay .gov, an innovative system allowing individuals and businesses to make non-tax payments to federal agen­
cies over the internet, processed approximately 23 .5 million transactions, valued at over $86 .6 billion, since
its inception in 2005 . Pay .gov responds to the increasing demands of consumers and businesses, by provid­
ing electronic alternatives to complete forms and applications, make payments, and submit queries 24 hours
a day, seven days a week . In addition, pay .gov was implemented with 102 federal agencies, representing 317
cash flows, collecting $67 .4 billion for fiscal years 2006 and 2007; $29 .5 for 2006 and $37 .9 in 2007 .


Debt Collection
The FMS recovers delinquent government and child support debt by providing centralized debt collection,
oversight, and operational services to FPAs and states .

In fiscal year 2007, FMS collected a record $3 .76 billion in delinquent debt .
   • $1 .70 billion in past due child support
   • $1 .47 billion in federal non-tax debt
   • $243 million in state tax offsets
   • $343 million in tax levies

As a result of the FMS’s continued improvements to the program, collections have steadily increased to more
than $31 .5 billion since the enactment of the Debt Collection Improvement Act of 1996 . In fiscal year
2007, agencies referred 100 percent of their eligible delinquent debt to the FMS for collection .




                                                                                                Effectively Managed U.S. Government Finances
58                                                          Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




            Outcome: Revenue collected when due through a fair and uniform application of the law at the lowest possible cost
            Cost of related activities in trying to achieve this outcome: $12,093,471,430
                                                                       Fiscal Year   Fiscal Year 2006          Fiscal Year   Fiscal Year
                              Performance Measure                      2006 Target        Actual        Met?   2007 Target   2007 Actual    Met?
            Timeliness of Critical Filing Season Tax Products to        92 .0%           83 .0%          N       85 .2%         83 .5%       N
            the Public
            Timeliness of Critical Other Tax Products to the            85 .0%           61 .2%          N       79 .6%         84 .0%        Y
            Public
            Taxpayer Self Assistance Rate                               45 .7%           46 .8%          Y       48 .6%         49 .5%        Y
            Percent Individual Returns Filed Electronically             55 .0%           54 .1%          N       57 .0%         57 .1%        Y
            Percent of Business Returns Processed Electronically        18 .6%           16 .6%          N       19 .5%         19 .1%       N
            Customer Accuracy - Tax Law Phones                          90 .0%           90 .9%          Y       91 .0%         91 .2%        Y
            Customer Accuracy - Accounts (Phones)                       92 .0%           93 .2%          Y       93 .3%         93 .4%        Y
            Customer Service Representative (CSR) Level of              82 .0%           82 .0%          Y       82 .0%         82 .1%        Y
            Service
            Customer Contacts Resolved per Staff Year                    7,477           7,414           N        7,702         7,648        N
            Refund Timeliness - Individual (paper)                      99 .2%           99 .3%          Y       99 .2%         99 .1%       N
            Criminal Investigations Completed                            3,945           4,157           Y        4,000         4,269         Y
            Conviction Rate                                             92 .0%            92%            N       92 .0%         90 .2%       N
            Field Exam Embedded Quality                                 Baseline        85 .9%*          Y       87 .0%         85 .9%       N
            Office Exam Embedded Quality                                Baseline        88 .2%*          Y       89 .0%         89 .4%        Y
            Examination Quality - (LMSB) Industry                       80 .0%           85 .0%          Y       88 .0%         87 .0%       N
            Examination Quality - (LMSB) Coordinated                    92 .0%           96 .0%          Y       97 .0%         96 .0%       N
            Industry
            Percentage of Voluntary Compliance in filing tax            74 .00%         75 .95%          Y      74 .00%        75 .00%        Y
            payments timely and accurately (in terms of number
            of compliant industry members)
            Percentage of Voluntary Compliance in filing tax            86 .00%         87 .20%          Y      86 .00%         86 .4%        Y
            payments timely and accurately (in terms of rev­
            enue) (revenue %)
            Percentage of Total Tax Receipts Collected                  98 .0%           98 .0%          Y       98 .0%         98 .0%        Y
            Electronically
            Percentage collected electronically of total dollar         83 .0%           79 .0%          N       80 .0%         79 .0%       N
            amount of Federal Government Receipts
            Unit Cost to process a federal revenue collection            $1 .37          $1 .10          Y        $1 .33         Est          Y
            transaction                                                                                                         $1 .19
            Amount of Delinquent Debt Collected per $1 spent            $36 .40          $39 .97         Y       $36 .50          Est         Y
                                                                                                                                $42 .09
            Amount of Delinquent Debt Collected through all              $3 .10          $3 .34          Y        $3 .20        $3 .76        Y
            available tools (in Billion $)
            Percentage of Delinquent Debt Referred to FMS for           93 .0%           95 .0%          Y       94 .0%        100 .0%        Y
            collection compared to amount eligible for referral
            BSM Contracted Project Cost Variance by Release/              0%               0%            Y       10 .0%         10 .0%        Y
            Subrelease (see full chart for information)
            BSM Contracted Project Schedule Variance by                    0                0           N/A      10 .0%         10 .0%        Y
            Release
                                                                                                                   Table continued on next page 




Financial
Part II – ANNUAL PERFORMANCE REPORT                                                                                                                        59




 Outcome: Revenue collected when due through a fair and uniform application of the law at the lowest possible cost
 Cost of related activities in trying to achieve this outcome: $12,093,471,430
                                                          Fiscal Year    Fiscal Year 2006           Fiscal Year   Fiscal Year
                  Performance Measure                     2006 Target         Actual        Met?    2007 Target   2007 Actual   Met?
 HCTC Cost per Taxpayer Served                                                                       $14 .25         $14 .93     N
 HCTC Sign-up Time (days)                                                                              97 .0          93 .3      Y
 Automated Collection System (ACS) Accuracy                 88 .0%           91 .0%          Y       91 .0%          92 .9%      Y
 Examination Coverage - Individual                           0 .9%            1 .0%          Y        1 .0%          1 .0%       Y
 Examination Coverage - Business (Corporations >             7 .5%            7 .4%          N        8 .2%          7 .2%       N
 $10M)
 Examination Efficiency - Individual                         121              128            Y         136            137        Y
 AUR (Automated Underreporter) Efficiency                   1,759            1,832           Y        1,932          1,956       Y
 AUR (Automated Underreporter) Coverage                      2 .3%            2 .4%          Y        2 .5%          2 .5%       Y
 Collection Coverage - units                                52 .0%           54 .0%          Y       54 .0%          54 .0%      Y
 Collection Efficiency - units                              1,650            1,677           Y        1,723          1,828       Y
 Field Collection Embedded Quality                           84 .2           84 .2%          Y       86 .0%          84 .0%      N
 Unit Cost to Process an Excise Tax Return                 Baseline          $76 .00         Y       $76 .00         $61 .00     Y
 Cumulative percentage of excise tax revenue audited        90 .0%           93 .0%          Y       12 .0%          16 .0%      Y
 over 3 years
 Resources as a Percent of Revenue                          0 .34%           0 .31%          Y       0 .34%          0 .31%      Y
 Conviction Efficiency Rate (Cost per Conviction)          339,565          328,750          Y       314,008       301,788       Y
 Number of Convictions                                      2,260            2,019           N        2,069          2,155       Y
 TEGE Determination Case Closures                          112,400          108,462          N       118,200      109,408        N
 KEY: Some measures have estimates for their actual fiscal year data – due to information not available at the time of publication
 of this document .


In fiscal year 2007, the Treasury Department’s estimated cost in trying to achieve the outcome “revenue col­
lected when due through a fair and uniform application of the law” was $12 billion . The performance of
this outcome is assessed through 43 performance measures, and in fiscal year 2007, the Department met 72
percent of their performance targets .

Of those measures where goals were not met, the difference between the target and the year end results
appears to be minimal; however the impact on the American taxpayer is greater than the data reflects .

The primary cause for the performance measure “Timeliness of Critical Filing Season Tax Products to the
Public” not meeting its fiscal year target was due to the late passage of extender legislation affecting state and
local sales taxes, and education expenses . This change required more than 1,000 tax product revisions, affect­
ing 137 filing season products; these changes had no impact to the start of the filing season . To accommodate
priority forms and publication, a total of 27 products were delayed as a result of workload modifications .

In fiscal year 2007, the performance measure “Conviction Rate” missed its target by 1 .8 percent due to the
increase in dismissals, many involving complex legal issues and multiple defendants; some of these dismissals
were appealed by the U .S . Government . By selecting less sophisticated cases, the number of dismissals could
be reduced . Although these cases involve risk, the IRS has found investigating high dollar, high impact cases
acts as an effective deterrent .



                                                                                                                  Effectively Managed U.S. Government Finances
60                                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




            For the full suite of performance measures and associated information, refer to Appendix A .


            Timely and accurate payments at the lowest possible cost
            The Treasury Department plays an important role in society and the economy as it issues government pay­
            ments, such as Social Security benefits, tax refunds, and veterans’ benefits to the correct recipient at the
            proper time .

            The FMS provides critical services to millions of U .S . taxpayers and other customers . As the government’s
            financial manager, the FMS oversees a daily cash flow of nearly $60 billion, disbursing 85 percent of the fed­
            eral government’s payments, or nearly one billion payments to over 100 million people, valued at nearly $1 .5
            trillion . In addition, the FMS administers the world’s largest collection system, collecting over $3 .1 trillion in
            fiscal year 2007, provides cash management guidance to FPAs, maintains the government’s accounting books,
            and compiles and publishes government-wide financial information used to monitor the government’s finan­
            cial status . The FMS serves as the government’s central debt collection agency for delinquent non-tax debt .

            Through continued efforts to expand and market electronic media to deliver federal payments, improve
            service to payment recipients, and reduce government program costs, in fiscal year 2007, the FMS decreased
            the number of paper checks issued by 4 .3 million, thereby minimizing postage costs and saving the U .S .
            Government money . Additionally, the use of electronic media decreases the number of reissued payments
            from lost, stolen, or misplaced checks, and inefficiencies associated with non-electronic delivery of benefits .

            The FMS’s nationwide campaign GoDirect encourages current paper payment recipients to enroll in direct
            deposit . In May 2007, the GoDirect campaign achieved a major milestone and surpassed its target by con­
            verting one million paper payment recipients to direct deposit .

            In addition, in fiscal year 2007, the FMS worked collaboratively with other organizations to develop and
            implement a pilot program called Direct Express, which provides un-banked, federal benefit recipients the
            option of receiving payments electronically using a debit card . The purpose of this pilot is to determine
            whether debit cards offer a cost-effective way to disburse federal benefit payments to an un-banked recipient .

            A recent survey of Direct Express cardholders showed 85 percent of respondents were satisfied and would
            recommend it . Initial success of the pilot program supported expansion to other areas of the country which
            will occur in fiscal year 2008 .

            In fiscal year 2007, the FMS undertook considerable efforts to modernize its payment systems by incorporat­
            ing new technologies and the internet . These efforts included:

            Stored Value Card (SVC), a smartcard, similar to a credit/debit card, which uses an encrypted computer
            chip to process “electronic money” stored on the card . The program is aimed at improving financial controls
            and cash-management applications, streamlining administrative processes, and improving the quality of
            life for cardholders . From the inception of the program in 1997 to June 2007, over 2 million cards have
            been issued and placed into service, representing in excess of $1 .3 billion in value . Annually, over 8 million
            Electronic Funds Transfer (EFT) transactions are processed through the SVC program .




Financial
Part II – ANNUAL PERFORMANCE REPORT                                                                                                                       61




Automated Standard Application for Payments (ASAP.gov), a web-based system built by the FMS in
coordination with the Federal Reserve Bank of Richmond . Through this electronic grants payment system
organizations, universities, profit and non-profit entities receive federal funds from accounts pre-authorized
by federal agencies . The ASAP is one of two systems authorized by the Chief Financial Officer’s Council to
disburse civilian grant payments on behalf of program agencies . Twenty-five federal agencies use ASAP .gov
and total disbursements to organizations during fiscal year 2006 were $425 billion; fiscal year 2007 data was
not available at the time of publication .

 Outcome: Timely and accurate payments at the lowest possible cost
 Cost of related activities in trying to achieve this outcome: $756,269,210
                                                              Fiscal Year   Fiscal Year           Fiscal Year    Fiscal Year
                      Performance Measure                     2006 Target   2006 Actual   Met?    2007 Target    2007 Actual    Met?
 Percentage of Treasury Payments and associated informa­        78 .0%        77 .0%       N        78 .0%         78 .0%        Y
 tion made electronically
 Percentage of Paper Check and Electronic Funds                100 .0%       100 .0%        Y      100 .0%        100 .0%        Y
 Transfer (EFT) Payments made accurately and on-time
 Unit Cost for Federal Government Payments                       $0 .35       $0 .37       N        $0 .39       Est $0 .38      Y
 KEY: Some measures have estimates for their actual fiscal year data – due to information not available at the time of publication
 of this document .

In fiscal year 2007, the Treasury Department’s estimated cost in trying to achieve the outcome “timely and
accurate payments at the lowest possible cost” was $756 .2 million . The performance of this outcome is
assessed through 3 performance measures, and in fiscal year 2007, the Department met 100 percent of their
performance targets .

The FMS issued over 980 million payments, 78 percent of them electronically in fiscal year 2007, an increase
of 1 percent over last year; issuing 100 percent of all payments accurately and on-time . In addition, the
FMS worked on Universal Direct Deposit, a proposal to require all newly eligible federal benefit recipients to
receive their payments by direct deposit, if they have a bank account . Outreach to Congress, consumer and
disability groups, and financial organizations increased their awareness of the initiative and garnered the sup­
port of the Social Security Administration .

For the full suite of performance measures and associated information, refer to Appendix A .


Government financing at the lowest possible cost over time
The Department determines and executes the federal borrowing strategy to meet the monetary needs of the
government at the lowest possible cost . Each year, the Treasury Department borrows and accounts for tril­
lions of dollars necessary for the government to function . Moreover, as the government’s money manager,
the Department provides centralized payment, collection, and reporting services . The federal government
finances its expenditures in excess of tax receipts through the sale of debt obligations at various maturities .
The Treasury Department’s activities minimize the interest paid on the national debt over time and enhance
market liquidity .

The BPD conducts the Department’s debt financing operations by issuing and servicing Treasury securities .
Debt is held by individuals, corporations, federal agencies, and state, local, and foreign governments . In




                                                                                                                 Effectively Managed U.S. Government Finances
62                                                           Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




            fiscal year 2007, the BPD conducted more than 200 auctions and issued more than $4 trillion in marketable
            Treasury bills, notes, bonds, and Treasury Inflation-Protected Securities . In addition, the Department pro­
            vided retail investment services to 50 million retail customers holding $278 billion in Treasury Securities .

            One of the hallmarks of the U .S . Treasury marketplace is transparency . The Department is able to expedi­
            tiously release detailed auction information, provide immediate feedback to bidders, and publish preliminary
            results of the offering amount awarded to non-competitive tenders 15 minutes before auction close, resulting
            in more market certainty around Treasury securities auctions . In fiscal year 2007, the BPD consistently met
            its performance goal of releasing securities auction results within two minutes, plus or minus 30 seconds . By
            minimizing the time bidders are exposed to the risk of adverse market movements, auction participants are
            likely to bid more aggressively, thereby allowing the federal government to borrow at more favorable rates .

            To further improve the efficiency of the auction process and provide a modern, flexible platform for
            Department debt managers, the BPD will replace its aging auction system the first quarter of calendar year
            2008 . The new system fully automates the announcement, auction, and issuance of marketable securities,
            and provides greater speed and flexibility in bringing new types of securities to market .

            The BPD’s Government Agency Investment Services program supports federal, state, and local government
            agency’s investments in non-marketable Treasury securities, and manages approximately $4 trillion in cus­
            tomer assets . In fiscal year 2007, in an effort to reduce costs and facilitate future enhancements, the BPD
            established a long-term goal to consolidate all program functions into one automated system .

            The BPD’s Retail Securities Program serves more than 50 million retail customers who invest directly with
            the Treasury Department in marketable and savings securities . In fiscal year 2007, the BPD reduced its
            targeted timeframe from 13 to 12 business days for completing retail customer service transactions; this sup­
            ports its long-term goal of completing like transactions within 10 business days by fiscal year 2010 .


             Outcome: Government financing at the lowest possible cost over time
             Cost of related activities in trying to achieve this outcome: $341,674,980
                                                                       Fiscal Year    Fiscal Year            Fiscal Year     Fiscal Year
                             Performance Measure                       2006 Target    2006 Actual   Met?     2007 Target     2007 Actual    Met?
             Cost per debt financing operation                         $133,683       $148,926        N      $228,409           Est          Y
                                                                                                                             $216,801
             Percent of auction results released in 2 minutes            95 .0%        100 .0%        Y        95 .0%         99 .1%         Y
             +/- 30 seconds
             Cost per TreasuryDirect assisted transaction                $7 .75         $4 .97        Y        $6 .16        Est $6 .03      Y
             Cost per TreasuryDirect online transaction                  $2 .99         $3 .06        N        $2 .96        Est $2 .79      Y
             Percentage of retail customer service transactions          90 .0%         98 .0%        Y        90 .0%         99 .43%        Y
             completed within 12 business days
             Cost per federal funds investment transaction               $90 .15       $62 .64        Y       $72 .33       Est $59 .93      Y
             Percentage of Government Agency customer initi­             65 .0%        97 .03%        Y        75 .0%         97 .31%        Y
             ated transactions conducted online
             KEY: Some measures have estimates for their actual fiscal year data – due to information not available at the time of publication
             of this document .




Financial
Part II – ANNUAL PERFORMANCE REPORT                                                                                                     63




In fiscal year 2007, the Treasury Department’s estimated cost in trying to achieve the outcome “government
financing at the lowest possible cost” was $341 .6 million . The performance of this outcome is assessed
through 7 performance measures, and in fiscal year 2007, the Department met 100 percent of them .

The performance measure “cost per federal funds investment transaction” saw a decrease in the cost per
single investment transaction of $2 .71 from the prior year; $62 .64 and $59 .93 per transaction, 2006 and
2007 respectively . The projected cost per federal funds investment transaction is increasing each year due
to inflationary cost increases and transaction volumes are projected to remain constant .

For the full suite of performance measures and associated information, refer to Appendix A .


Effective cash management
The Treasury Department forecasts receipts and payments accurately to ensure sufficient funds, minimize
excess borrowing, and when necessary, invest excess cash balances .

The Department of the Treasury’s Office of Fiscal Projections (OFP) ensures that funds are available on a
daily basis to cover federal payments, maximize investment earnings, and minimize borrowing costs . The
accuracy of forecasting receipts, outlays, and debt have a direct and material impact on the cost of borrow­
ing and return on investments . This means that forecast reliability assists Department officials in avoiding
excess borrowing, cover anticipated cash needs, and enable them to make effective investment decisions .
The Treasury Department measures the difference between actual and projected receipts to optimize cash
management . In fiscal year 2007, the OFP continued to improve its forecasts; this year, the variance was
2 .1 percent, as compared to 3 .9 percent in fiscal year 2006 .

Over the past several years, the Fiscal Service, the Department’s Office of Fiscal Assistant Secretary, BPD,
and FMS, explored new and innovative ways to invest excess cash, including auctioning excess cash at com­
petitive market rates . During fiscal year 2007, the Department completed a pilot program to invest cash
balances in reverse repurchase transactions . The Treasury Department invested $6 .7 trillion in overnight
and short-term investments through the Term Investment Option Program (TIO) and the Repurchase
Program (Repo) . By reinvesting excess cash through the TIO and Repo, the Department earned an addi­
tional $33 million; these programs earn market rates of interest, whereas, investments in the legacy Treasury
Tax and Loan System earn interest at an administered rate established approximately 30 years ago .

In addition, as part of a modernization initiative, the Treasury Department proposed legislation to broaden
its investment authority . The proposed legislation will give the Department the authority to invest excess
operating cash through repurchase arrangements with acceptable parties . This proposal was included in the
Administration’s fiscal year 2008 budget submission and language which were transmitted to Congress in
May 2007 .




                                                                                               Effectively Managed U.S. Government Finances
64                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




             Outcome: Effective cash management
             Cost of related activities in trying to achieve this outcome: $13,379,900
                                                                         Fiscal Year   Fiscal Year          Fiscal Year   Fiscal Year
                                Performance Measure                      2006 Target   2006 Actual   Met?   2007 Target   2007 Actual   Met?
             Variance between estimated and actual receipts (annual        5 .0%         3 .9%        Y        5 .0%        2 .1%        Y
             forecast)



            In fiscal year 2007, the Treasury Department’s estimated cost in trying to achieve the outcome “effective
            cash management” was $13 .3 million . The performance of this outcome is assessed through one perfor­
            mance measure, and in fiscal year 2007, the Department met its target 100 percent .

            For the full suite of performance measures and associated information, refer to Appendix A .


            Accurate, timely, useful, transparent, and accessible financial information
            The Department of the Treasury produces government-wide financial information and reports contributing
            to the improved quality of the nation’s financial decision-making .

            The FMS’s Government-wide Accounting and Reporting program maintains the federal government’s
            books, and accounts for its monetary assets and liabilities by operating, and overseeing its accounting and
            reporting system . For the third consecutive year, the FMS released the Financial Report of the United States
            Government, 75 days after the close of the fiscal year . The report presents a picture of government-wide
            finances and is critical to a fully informed budget process .

            In addition, the FMS continues to improve its policies, procedures, information systems, and internal
            controls used to prepare the government-wide consolidated financial statements . During a 2006 audit, the
            Government Accountability Office made recommendations to FMS regarding their internal controls; with
            continued effort, the FMS has eliminated 74 of the 143 recommendations, and continues to resolve issues
            within their authority . The FMS has found there are data integrity preparation issues in the financial data
            submitted by the agencies .

            The FMS has two major initiatives to modernize long standing federal accounting processes and provide
            agencies with methodologies and tools to improve the accuracy and consistency of their financial data . The
            initiatives are:
               •	 The Government-wide Accounting Modernization project replaces existing government-wide
                  accounting functions and processes . This project will improve the reliability, usefulness, and timeliness
                  of the government’s financial data, provide agencies and other users with better access to information,
                  and eliminate duplicative reporting and reconciliation burdens, resulting in significant government-
                  wide savings . In addition, it will improve the budgetary information being collected at the transaction
                  level .
               •	 The Financial Information and Reporting Standardization initiative integrates budget and financial
                  reports from FPAs; improving the consistency of the budgetary and proprietary accounting data
                  recorded in agency financial statements and reported through its trial balance .




Financial
Part II – ANNUAL PERFORMANCE REPORT                                                                                                                       65




The Schedules of Federal Debt is prepared annually and compares the current fiscal year to the prior, and pro­
vides reasons for any fluctuations between the years . The audit for fiscal year 2007 will take place in 2008 .
In fiscal year 2007, the BPD received an unqualified or “clean” audit opinion on its Fiscal Years 2006 and
2005 Schedules of Federal Debt, representing the largest single liability on the government wide financial state­
ment . In addition, the BPD successfully introduced daily financial statements, providing timely financial
information to the public .



 Outcome: Accurate, timely, useful, transparent and accessible financial information
 Cost of related activities in trying to achieve this outcome: $195,044,810
                                                                Fiscal Year   Fiscal Year          Fiscal Year   Fiscal Year
                      Performance Measure                       2006 Target   2006 Actual   Met?   2007 Target   2007 Actual   Met?
 Percentage of Government-wide accounting reports issued         100 .0%       100 .0%       Y      100 .0%       100 .0%       Y
 accurately
 Percentage of Government-wide accounting reports issued         100 .0%       100 .0%       Y      100 .0%       100 .0%       Y
 timely
 Cost per summary debt accounting transaction                    $11 .59       $10 .96       Y       $10 .98        Est         Y
                                                                                                                   $8 .93
 Release Federal Government-wide financial statements on           Met           Met         Y         1 .0       Est . 1 .0    Y
 time
 Unit Cost to Manage $1 Million Dollars of Cash Flow             Baseline       $8 .50       Y       $10 .69        Est         Y
                                                                                                                   $9 .70
 KEY: Some measures have estimates for their actual fiscal year data – due to information not available at the time of publication
 of this document .



In fiscal year 2007, the Treasury Department’s estimated cost in trying to achieve the outcome “accurate,
timely, useful, transparent and accessible financial information” was $195 million . The performance of this
outcome is assessed through 5 performance measures, and in fiscal year 2007, the Department met 100
percent of their performance targets .

For the full suite of performance measures and associated information, refer to Appendix A .


Financial – moving forward
In fiscal year 2008, the IRS will continue to deliver taxpayer service and bolster its enforcement efforts to
improve compliance with the tax laws and, ultimately, increase tax revenue . In addition, through the
expansion of their outreach programs, the IRS will identify the needs, preferences, and behaviors of taxpayers
and partners . By utilizing the Department’s performance measures, the IRS will assess its achievements .

Reducing the tax gap is a priority for the Department . To accomplish this, the IRS will restore its enforce­
ment presence in an effort to reduce evasion opportunities, increase research, improve IT capabilities, and
expand relationships with partners and stakeholders . In fiscal year 2008, the IRS will continue developing
initiatives to target enforcement in key areas such as reporting, filing, and payments within the small business
and self-employment taxpayer community, and target fraud and financial crime schemes identified through
improved case development efforts and Bank Secrecy Act (BSA) investigations . In addition, the IRS will
increase audits of large multinational corporations, and improve tax gap research capabilities .



                                                                                                                 Effectively Managed U.S. Government Finances
66                                                  Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




            Modernizing technology requires the IRS to address critical upgrades for aging and out-dated equipment that
            supports enforcement and taxpayer service activities, and complex technical demands caused by high vol­
            umes, widely varying taxpayer inquiries, and storage capacity . The IRS will continue the modernization of
            IT systems to align with its overall business strategy . In addition, the IRS will implement audits to enhance
            its IT security, contingency planning, and disaster recovery .

            In fiscal year 2008, the IRS will develop a quantitative scope measure to address performance against three
            key factors that point to future project outcomes – cost, schedule, and scope . The scope variance will ulti­
            mately be measured as the difference between a project release’s delivered capabilities and baseline capabilities
            established at the exit of Milestone 3, which is the completion of logical and physical design of the project .

            In fiscal year 2008, the IRS will continue to work towards its goal of 80 percent electronic filing for indi­
            vidual income tax returns . While individual e-filing rates continue to increase each year, changes in the
            Taxpayer Relief Act of 1997 will assist the IRS to meet its e-filing goal . In addition, to support ongoing
            efforts to improve and simplify the tax code and taxpayer compliance, the Department will resolve 303 proj­
            ects to provide regulations and guidance on the Internal Revenue Code .

            In fiscal year 2008, the TTB will continue to encourage the use of pay .gov as a preferred method of filing .
            During 2007, all alcohol and tobacco tax forms were placed in pay .gov, thereby allowing industry members
            to file their alcohol and tobacco tax related forms through this system . In addition, the TTB will expand the
            functionality to include changes that will help reduce data entry and expedite the reporting process .

            In addition, the new Trade Analysis and Enforcement Division will further its objectives of developing lead
            sources to provide greater investigative effectiveness for the TTB . In fiscal year 2008, the TTB will continue
            to work with the OMB and other agencies to fully utilize the International Trade Data System to help
            efficiently regulate the flow of commerce and effectively enforce international trade laws as they relate to the
            TTB’s mission .

            Recently, the TTB developed a new “Reporting Category Account Code” system which allows them to track
            costs by program and activity levels, and provide more accurate cost information for management decision
            making . In fiscal year 2008, the TTB will implement this system and provide training and monitoring of
            data input as it relates to the new system .

            In fiscal year 2008, the Department will implement the Cash and Debt Management Modernization
            Initiative, to strengthen the nation’s cash and debt management systems, and continuously improve the
            efficiency, integrity, transparency, and competitiveness of the U .S . Treasury market . Cash management
            modernization will redefine and streamline payments, collections, and its infrastructure . The debt manage­
            ment modernization effort, allows senior management to make informed decisions, thereby financing the
            Department’s obligations with less cost to the American public .

            Through risk management, the Treasury Department will improve its ability to manage the volatility of cash
            balances and participate in industry contingency planning tests, and improve its market integrity, infrastruc­
            ture, and operations . The BPD will continue to look for ways to improve its operations, and by fiscal year
            2012, will work to ensure that at least 90 percent of the primary dealers, in Wholesale Securities Services, can
            participate in Treasury auctions from contingency locations .




Financial
Part II – ANNUAL PERFORMANCE REPORT                                                                                                     67




In fiscal year 2008, the BPD will continue to accurately account for and report on federal debt . By fis­
cal year 2013, the BPD, by moving to a shared service provider, will modernize its current summary debt
accounting system .

A long-term goal for the BPD’s Retail Securities Services program is the electronic issuance of all retail
Treasury securities . A key challenge for them is communicating to customers the benefits of purchasing
securities and managing holdings online . TreasuryDirect, a system with nearly 300,000 investor accounts,
will continue to be enhanced with security upgrades and new registration options for trust, estate, and orga­
nization accounts .

In fiscal year 2008, the FMS will continue to roll-out its Debt Check, an online program used to help
agencies bar delinquent debtors from obtaining new loans or loan guarantees . In addition, the FMS will
continue working on its Integrated FedDebt system, which combines the FMS’s Cross-Servicing program
and the Treasury Offset Program into one system . The Integrated FedDebt system, expected to be available
in fiscal year 2009, will reduce system redundancies, improve data integrity, and provide direct online access
to agencies .

In addition, the FMS will continue to expand the use of electronic collection mechanisms, which use the
most advanced and secure collection technologies that are flexible and can accommodate the varying needs
and technical sophistication of all taxpayers and FPAs . Currently, collection agents use multiple systems
interfacing with different sources and a variety of formats . The FMS will develop a system which will
provide a single touch point for reporting and retrieval of information via transaction brokering, data ware­
housing, and business intelligence, enabling the standardization and consolidation of collections information
and eliminate duplication in the federal government’s collection reporting processes . In fiscal year 2008, the
FMS will continue focusing on security oversight efforts at financial agent processing facilities and banking
institutions . This effort will identify security control weaknesses associated with the collection of government
remittances and protection of sensitive information .




                                                                                               Effectively Managed U.S. Government Finances
68                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           Economic - U.S. and World Economies
            ECONOMICat Full Economic Potential
           Perform
                                                        Performance Cost - $3.2 Billion
                                       *For information on calculating cost – see Appendix H

            STRATEGIC GOAL: U.S. and World Economies Perform at Full Economic Potential

            STRATEGIC OBJECTIVE: Improved economic opportunity, mobility and security with robust, real,
            sustainable economic growth at home and abroad

            STRATEGIC OUTCOMES AND VALUE CHAINS:
              •  Strong U .S . economic competitiveness (Strengthen)
              •  Competitive capital markets (Strengthen)
              •  Free trade and investment (Strengthen)
              •  Prevented or mitigated financial and economic crises (Strengthen/Regulate)
              •  Decreased gap in global standard of living (Strengthen)

            STRATEGIC OBJECTIVE: Trust and confidence in U.S. currency worldwide

            STRATEGIC OUTCOME AND VALUE CHAIN:
             •  Commerce enabled through safe, secure U .S . notes and coins (Manufacture)




           The Department of the Treasury, with other agencies and organizations, works to stimulate economic growth
           and raise living standards in the United States and abroad .

           To achieve conditions that enable economies to perform at full economic potential, the Treasury Department
           must stimulate economic growth through the development and implementation of policies that effectively
           regulate banking and financial markets, create pro-growth tax policies, and advocate free trade .

           Economic growth stimulates economic opportunity, mobility, and security for Americans and others around
           the world . Promoting the development of new markets in the U .S . ensures that all Americans benefit from
           economic growth . The expansion of underdeveloped economies abroad opens markets, enhances regional
           stability, reduces the spread of disease, creates opportunities for profitable trade, and demonstrates democracy
           in action . The Department of the Treasury leads these efforts on behalf of the American people .


           Strong U.S. economic competitiveness
           Strong economic competitiveness is critical to robust economic growth worldwide, continued investment in
           the United States, and job creation . The Treasury Department’s contribution to the facilitation of a pros-



Economic
Part II – ANNUAL PERFORMANCE REPORT                                                                                                        69




perous financial infrastructure, a balanced macro economy, market efficiency, technological readiness, and
innovation are essential for keeping a sharp competitive edge .

Monitoring the Economy: The Department of the Treasury’s Office of Economic Policy assists in the devel­
opment of policies to stimulate economic growth and job creation in the U .S . and abroad . While drawing a
direct connection between the Department’s actions and economic indicators is difficult, policymakers aid in
creating an environment conducive to strong economic growth and a healthy labor market .

For fiscal year 2007, real Gross Domestic Product (GDP), the broadest measure of the economy’s perfor­
mance, expanded by an estimated 2 .4 percent . Real GDP growth fell short of the Administration’s estimate
of the economy’s potential growth rate – 3 .1 percent . Even so, the economy created 1 .6 million jobs and the
unemployment rate averaged a low 4 .5 percent . A healthy, growing economy and strong labor market creates
economic opportunity .

U.S. Small Business Finance Initiative: In most countries, small businesses are responsible for over 50
percent of new job creation . In June 2007, the Department of the Treasury, in partnership with Multilateral
Investment Fund of the Inter-American Development Bank and the Overseas Private Investment Corporation,
launch a three-part program encouraging market-based bank lending to small and medium enterprises in Latin
America . Part one introduces new lending models to fit the characteristics of smaller firms; part two offers
risk-sharing guarantees and loans to eligible banks to broaden their financing activity; and part three identifies
regulatory changes needed for more credit to be made available to small businesses . It is expected that 80
percent of the volume of lending will be loans under $100,000 . Since only a limited percentage of small busi­
nesses in Latin America have access to financing from banks and commercial lenders, this initiative, hopefully,
will provide increased access to capital and help expand economic opportunity in the region .

Protect the Public: Is a program ensuring the integrity of the alcohol and tobacco industries, and regulating
approximately 40,000 businesses . In addition, the TTB enforces federal laws related to the issuance of permits
to industry members and the production, labeling, advertising, and marketing of alcohol products . Working
with industry, foreign and state governments, and other interested parties facilitates compliance with regulatory
requirements, and maintain the appropriate level of oversight to ensure public safety . Education, partnerships,
and open communication are paramount strategies in promoting compliance with regulatory requirements .

The TTB uses business regulation to protect alcohol consumers from fraud and deception . Before alcoholic
beverages can be introduced into interstate commerce, a Certificate of Label Approval (COLA) or an exemp­
tion must be obtained by the importers and bottlers from the TTB . In fiscal year 2007, the TTB approved
98,000 of the 125,117 COLA applications received; the remaining 27,117 or 22 percent were either rejected,
returned for correction, withdrawn, expired or surrendered .

International Trade Program: This program helps keep the U .S . economy strong by facilitating import and
export trade in alcohol and tobacco products, while balancing consumer protection standards . Highlights
included:
   •	 Ensuring exports of tequila from Mexico to the United States continue without interruption; valued at
      $400 million per year
   •	 The completion of an international labeling agreement, to facilitate trade in wine among the World
      Wine Trade Group


                                                                                                             U.S. and World Economies Perform
                                                                                                                     at Full Economic Potential
70                                                          Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           The TTB provides technical support to other federal agencies in the administration of U .S . alcohol laws,
           regulations, and policies . In addition, the TTB provides technical advice on foreign regulatory proposals
           impacting the alcohol and tobacco trade; reviewing these proposals provides an opportunity to assess the
           impact of potential trade barriers for U .S . alcohol and tobacco exporters . In fiscal year 2007, U .S . exports
           of distilled spirits to China reached a record $3 .4 million, nearly four times the $760,000 exported dur­
           ing previous years; this growth shown is a result of China’s admittance, as a member, into the World Trade
           Organization (WTO) and the breaking down of trade barriers .

            Outcome: Strong U.S. economic competitiveness
            Cost of related activities in trying to achieve this outcome: $178,836,340
                                                                           Fiscal Year   Fiscal Year          Fiscal Year   Fiscal Year
                                 Performance Measure                       2006 Target   2006 Actual   Met?   2007 Target   2007 Actual    Met?
            Number of full-time equivalent jobs created or main­            29,158        22,329        N       34,009        35,022        Y
            tained in underserved communities by businesses
            financed by CDFI Program Awardees and New Markets
            Tax Credit (NMTC) Allocatees
            Dollars of private and non-CDFI Fund investments that            1,100         1,400        Y       $861           $778         N
            CDFIs are able to leverage because of their CDFI Fund
            Financial Assistance (in millions)
            Administrative costs per Financial Assistance (FA) appli­       $5,130        $8,710        N       $6,920      Est $7,180      N
            cation processed
            Percent of Electronically filed Certificate of Label            27 .0%        38 .0%        Y       47 .0%        51 .0%        Y
            Applications
            Unit Cost to process a Wine Certificate of Label Approval         N/A           N/A        N/A     Baseline       $34 .00       Y
            Annual percentage increase in the total assets of Native        33 .0%        182 .0%       Y       33 .0%        19 .0%        N
            CDFIs
            Administrative costs per number of Bank Enterprise              $1,280        $1,630        N       $1,455      Est $1,950      N
            Award (BEA) Applications processed
            Increase in community development activities over prior            81           318         Y        100           227          Y
            year for all BEA program applicants ($ in millions)
            Administrative costs per number of Native American            $10,050 .00    $8,130 .00     Y     $9,090 .00        Est         N
            CDFI Assistance applications processed                                                                          $13,510 .00
            Amount of investments in low-income communities that             $1 .60        $2 .00       Y        $2 .10        $2 .50       Y
            Community Development Entities (CDEs) have made
            with capital raised through their New Markets Tax Credit
            (NMTC) tax credit allocations ($in billions)
            Administrative costs per number of New Markets Tax              $5,390 .0     $4,360 .0     Y      $ 4,875 .0       Est         N
            Credit (NMTC) applications processed                                                                             $5,320 .0
            U .S . unemployment rate                                         5 .2%         4 .6%        Y       5 .1%          4 .5%        Y
            U .S . Real Gross Domestic Product (GDP) growth rate             3 .4%         3 .0%        N       3 .3%          2 .4%        N
            Percentage of licensing applications and notices com­           95 .0%        94 .0%        N       95 .0%        96 .0%        Y
            pleted within established timeframes
            Percentage of permit applications (original and amend­          80 .0%        86 .0%        Y       80 .0%       85 .09%        Y
            ed) processed by the National Revenue Center within
            60 days
            Percentage of COLA approval applications processed              55 .0%        44 .0%        N       45 .0%        42 .0%        N
            within 9 calendar days of receipt (This measure will
            become inactive beginning FY 2008)
            KEY: Some measures have estimates for their actual fiscal year data – due to information not available at the time of publication
            of this document .



Economic
Part II – ANNUAL PERFORMANCE REPORT                                                                                                      71




In fiscal year 2007, the Treasury Department’s estimated cost in trying to achieve the outcome “strong U .S .
economic competitiveness” was $178 .8 million . The performance of this outcome is assessed through 16 per­
formance measure, and in fiscal year 2007, the Department met 50 percent of their performance targets .

It is difficult to measure policy activities related to the outcome “strong U .S . economic competitiveness .” The
use of quantitative measures does not adequately describe these activities; therefore, in fiscal year 2008, the
Department will consider various types of measures for this important work, such as traction and impact, and
will review these with relevant stakeholders .

For the full suite of performance measures and associated information, refer to Appendix A .


Competitive capital markets
U .S . capital markets make a vital contribution to the nation’s wealth and prosperity by directing investments
toward innovation, promoting economic growth, and ensuring that the allocation of resources are directed
toward the most efficient use . For the American economy to continue to be the model of strength, flexibility,
and resiliency, it must grow and remain competitive .

Access to capital allows entrepreneurs to implement new ideas and expand operations, creating new employ­
ment opportunities . Capital markets give U .S . citizens the confidence to invest, earn higher returns on savings,
and reduce the cost of borrowing . Prosperous, competitive capital markets inspire investor confidence and play
an important role in facilitating economic growth .

The Treasury Department strives to preserve the integrity of the U .S . capital market which is essential to main­
taining competitiveness, however, there is a growing concern that they are losing market share to foreign com­
petitors . Recently, there has been a diminishing presence of foreign Initial Public Offerings in the U .S . market,
which may be in response to the costs of implementing U .S . accounting standards, higher underwriting costs,
and the shift to their domestic capital markets . The challenge facing U .S . regulators today is preserving the
public interest while preventing excessive regulatory burden on financial markets and institutions . In an effort
to encourage a responsible and measured approach, the Department initiated a review of the issues affecting the
competitiveness of the U .S . capital markets, and engages in an ongoing initiative to strengthen them .

In fiscal year 2007, the Treasury Department launched a study of the regulatory framework for securities, bank­
ing, and insurance . The Department of the Treasury announced a three part plan to encourage competitive
capital markets, and draw on recent trends, such as globalization, to leverage competitiveness and increase the
benefit to the economy . Part one, seeks a streamlined regulatory structure with improved oversight, increased
efficiency, less overlap, and the ability to adapt to the market’s constantly-changing strategies and tools . Part
two, focuses on the condition of the accounting industry . The Department will concentrate on the review
of the current accounting system, whether it is producing high quality audits, attracting sufficient talented
auditors, and there is adequate competition in the accounting field . Part three, recognizes that legal reform
is crucial to the long-term competitiveness of the U .S . economy . The Treasury Department will work with
other stakeholders to reform the tort system, which negatively impacts U .S . economic competitiveness, when
litigation is frivolous, costly, and unnecessary . All three parts focus on the impact to capital markets and are
important to the overall economic competitiveness of the nation .




                                                                                                           U.S. and World Economies Perform
                                                                                                                   at Full Economic Potential
72                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           In fiscal year 2007, the Treasury Department’s estimated cost in trying to achieve this outcome “competitive
           capital markets” was $15 .4 million . The Treasury Department does not currently have any performance
           measures for this outcome; it is difficult to measure policy activities related to competitive capital markets .
           The use of quantitative measures would not adequately describe these activities; therefore, in fiscal year 2008,
           the Department will consider various types of measures for this important work, such as traction and impact,
           and will review these with relevant stakeholders .


           Free trade and investment
           Foreign investment in the U .S . strengthens the economy, improves productivity, creates good jobs, spurs
           healthy competition, and is vital for a robust and sustainable economy .

           Foreign-owned companies directly provide jobs to over five million workers, and indirectly provide an
           additional five million jobs, due to foreign-owned subsidiaries procuring about 80 percent of their inputs
           from the U .S . markets . In fiscal year 2007, these companies produced about 6 percent of the U .S . output,
           provided 10 percent of U .S . total capital investment, 13 percent of the research and development, and 20
           percent in exports .

           Removing International Barriers to Trade and Investment: By participating in the negotiation and
           implementation of international agreements, the Treasury Department helps to remove trade and investment
           barriers, stimulate domestic and global growth, and create employment opportunities for Americans . The
           U .S . seeks strong commitments from its trading partners to ensure those markets are open to U .S . exporters
           and investors . Once implemented, these agreements serve as a core element for a trading partner’s economic
           infrastructure, enhancing international economic and financial stability . The Treasury Department partici­
           pates actively in multilateral Doha Development Round negotiations of the WTO, U .S .-initiated bilateral
           and regional Free Trade Agreements (FTAs), and Bilateral Investment Treaties (BITs) . In fiscal year 2007,
           10 trade and investment negotiations were either concluded or underway; an increase of approximately 43
           percent over the performance target .

           The Trade Promotion Authority, the centerpiece of the U .S . trade liberalization agenda, expired in July 2007 .
           During its six year existence, the United States implemented FTAs with 12 countries, concluded negotia­
           tions with five others, and launched the Doha Development Round, to lower trade barriers around the
           world, permitting free trade between countries of varying wealth . If the Trade Promotion Authority is not
           reauthorized, the Doha Development Round could falter and the pace of trade negotiations will decelerate
           significantly .

           In fiscal year 2007, the U .S . concluded FTA negotiations with Korea, the world’s tenth largest economy,
           with a GDP of nearly $1 trillion . The Treasury Department co-led the financial services negotiations of the
           investment provision . Once approved by Congress and fully implemented, the Korea FTA will end tariffs on
           more than $78 billion of trade between the United States and Korea . In fiscal year 2007, as part of a biparti­
           san template on trade, the U .S . negotiated stronger labor and environment provisions in the FTA with Peru,
           Colombia, Panama, and Korea . In 2005, Congress passed the Central American – Dominican Republic
           FTA (CAFTA-DR); in 2006, the agreement was implemented by El Salvador, Honduras, Nicaragua, and
           Guatemala; and in 2007, the CAFTA-DR was implemented for the Dominican Republic . Once this agree­
           ment is implemented for Costa Rica, the CAFTA-DR will end most tariffs on more than $32 billion of two-



Economic
Part II – ANNUAL PERFORMANCE REPORT                                                                                                       73




way trade between the U .S . and the CAFTA-DR countries . In addition, the Panama FTA was signed in June
2007 . This agreement will provide new opportunities to U .S . workers, manufacturers, and service providers,
as well as expand markets for U .S . farmers and ranchers; another building block in the Department’s efforts
to create a Western Hemisphere free trade area .

BITs contain provisions that encourage efficient and effective use of capital, and provide a legal framework to
enhance investor confidence, economic growth, and greater opportunities for American workers and employ­
ers . Building on the model BIT, the Treasury Department conducted negotiations with Rwanda, in fiscal
year 2007 .

The Treasury Department worked with other agencies to promote the integration of developing countries
into the world trading system . This is accomplished through expanded membership with the WTO, the
promotion of trade-related capacity building programs at the International Monetary Fund (IMF), World
Bank, other Multilateral Development Banks (MDBs), and the appropriate use of trade preferences . Fiscal
year 2007 Department milestones include:
   •	 The reform and extension of the Generalized System of Preferences, which promotes economic growth
      in developing countries by providing duty free access to the U .S . markets
   •	 The extension of the Andean Trade Promotion and Drug Eradication Act of 2002, formerly known
      as the Andean Trade Preference Act of 1991, initially was established to combat drug production and
      trafficking in the Andean countries, but now offers trade benefits to help these countries develop and
      strengthen legitimate industries
   •	 The amendment of the African Growth and Opportunity Act of 2000, to spur trade and development
      opportunities; offering tangible incentives for African countries to open their economies and build free
      markets

In addition, the Treasury Department worked with other agencies to implement U .S . trade laws and policies,
enforce rules and agreements to reduce and eliminate foreign trade barriers, and formulate trade policy on
customs revenue functions .

In fiscal year 2007, the Department testified before the Senate Foreign Relations Committee in support of
the ratification of income tax treaties with Belgium, Denmark, Finland, and Germany, to prevent double
taxation and reduce fiscal evasion .

Promoting Free Trade and Budget Savings: The Department of the Treasury supports trade liberalization
and budget discipline through its role in negotiating, implementing, and policing international agreements
to reduce official export subsidies . By negotiating agreements in the OECD, the Treasury Department
drastically reduced the subsidies that member governments can provide when financing national exports .
The volume of this financing activity is approximately $70 billion annually . The OECD’s agreements open
markets and level the playing field for U .S . exporters, and save U .S . taxpayers about $800 million annually .
Cumulative budget savings from these agreements are estimated to be over $12 billion .

In fiscal year 2007, the Department led a major negotiation to secure a new Aircraft Sector Understanding
in the OECD, with the inclusion of Brazil – not an OECD member, but an aircraft manufacturer – as a full
participant . This Understanding revises and updates the original agreement from 20 years ago, and provides



                                                                                                            U.S. and World Economies Perform
                                                                                                                    at Full Economic Potential
74                                                      Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           the rules for member governments when financing the sale of their domestically-produced aircraft to foreign
           airline purchasers . As with other OECD agreements, the revised and updated rules remove the bulk of the
           subsidies that previously existed, encourage airlines to seek commercial rather than government financing,
           and prevent aircraft-financing governments from providing unfair benefits to their customers .

           In addition, in fiscal year 2007, a pilot OECD agreement extending repayment terms for renewable energy
           and water projects was rolled over for an additional two years . Led by the Treasury Department, the U .S .
           Government supported the pilot agreement that encourages developing countries to choose renewable energy
           sources to meet their energy demands .


            Outcome: Free trade and investment
            Cost of related activities in trying to achieve this outcome: $8,900,780
                                                                        Fiscal Year    Fiscal Year          Fiscal Year   Fiscal Year
                               Performance Measure                      2006 Target    2006 Actual   Met?   2007 Target   2007 Actual   Met?
            Number of new Free Trade Agreement (FTA) negotiations           9              12         Y         7             10         Y
            and Bilateral Investment Treaty (BIT) negotiations under­
            way or completed



           In fiscal year 2007, the Treasury Department’s estimated costs in trying to achieve the outcome “free trade
           and investment” was $8 .9 million . The performance of this outcome is assessed through one measure, and
           in fiscal year 2007, the Department met its target 100 percent .

           Although the Department exceeded the target of this measure by 43 percent, due to the uncertainty of the
           renewal of the Trade Promotion Authority, the nature of trade and investment agreements may change in the
           next fiscal year . To better assess the Treasury Department’s performance in this area, this measure is being
           discontinued for fiscal year 2008, and will be replaced with a trade metric that expands the scope of treaties
           and agreements .

           It is difficult to measure policy activities related to the outcome “free trade and investment .” The use
           of quantitative measures does not adequately describe these activities; therefore, in fiscal year 2008, the
           Department will consider various types of measures for this important work, such as traction and impact,
           and will review these with relevant stakeholders .

           For the full suite of performance measures and associated information, refer to Appendix A .


           Prevented or mitigated financial and economic crises
           It is essential to prevent financial and economic crises, and diminish its impact . By promoting sound pro-
           growth policies, the Department of the Treasury aids in the retention of the benefits of economic progress,
           reducing poverty, maintaining political stability, and avoiding expensive intervention .

           In fiscal year 2007, the Department’s Office of International Debt Policy (IDD) worked to implement major
           initiatives that are providing massive debt reduction to the heavily indebted poor countries committed to
           economic reform and poverty reduction . Through the Heavily Indebted Poor Countries (HIPC) initiative,
           the Multilateral Debt Relief Initiative (MDRI), and the 2007 agreement for additional debt relief from the




Economic
Part II – ANNUAL PERFORMANCE REPORT                                                                                                     75




Inter-American Development Bank, more than $86 billion has been agreed in debt relief for 22 countries .
Additionally, in an effort to prevent renewed debt problems, the IDD worked to achieve greater use of the
debt sustainability framework for low-income countries, and increased assistance on grant terms rather than
loans .

In fiscal year 2007, the Department of the Treasury promoted sustainable economic growth, and supported
the global war on terror by advancing debt reduction for Iraq and Afghanistan . The IDD spearheaded
Afghanistan’s entry into the HIPC initiative, to reduce its debts by over 92 percent, more than $11 billion .
In addition, the IDD continued to provide support for Iraq’s efforts to obtain debt relief from additional
creditors, implementing the 2004 Paris Club, which was designed to bring debt down to a manageable level .
These steps bolster economic development in Afghanistan and reduce its dependence on the U .S . and inter­
national community . In 2006, the growth of the non-drug Afghan economy reached approximately 8 per­
cent, and government revenues increased by 40 percent to $570 million . Additionally, Afghanistan’s develop­
ment to tackle financial crimes will strengthen its ability to target drug traffickers and terrorist financing .

In support of debtor country debt management efforts, the United States and other Paris Club creditors
accepted prepayments at face value from Peru and Macedonia, adding to earlier agreements with Poland,
Russia, Brazil, and Algeria . During fiscal year 2007, the U .S . negotiated debt swap agreements with
Botswana and Costa Rica, under the Tropical Forest Conservation Act of 1998; over time those agreements
will generate more than $34 million for tropical forest conservation .

Regulating National Banks and Savings Associations: The Department of the Treasury is the primary
regulator and supervisor of national banks, savings associations, and savings and loan holding companies .
The Treasury Department’s regulation efforts are performed through the Office of the Comptroller of the
Currency (OCC) and the Office of Thrift Supervision (OTS) . The OCC and OTS work to streamline their
licensing and supervisory procedures, and to keep regulations current, clearly written and supportive of an
effective process promoting competitive financial services, and consistent with safety and soundness .

The OCC evaluates the adequacy of banks and subsidiary structures and activities . A responsive and effi­
cient licensing operation is essential to meet the needs of banks that are part of, or seek to become part of,
the national banking system . In fiscal year 2007, the OCC received approximately 2,278 corporate applica­
tions and notices, of which 96 percent were completed within the established timeframe, while providing a
consistently high level of services as rated by the applicants . In addition, the OCC received 1,261 applica­
tions and notices electronically .

In fiscal year 2007, the OCC issued 81 legal opinions on significant topics . Of the opinions subject to the
established processing timeframe, 96 percent were issued on time, an increase of 7 percent over fiscal year
2006, exceeding the target .

Under the Economic Growth and Regulatory Paperwork Reduction Act (EGRPRA) of 1996, federal bank
and thrift regulations are reviewed at least once every ten years in an effort to eliminate burdensome, unnec­
essary, and outdated regulatory requirements . The EGRPRA also requires agencies to submit a report to
Congress on the findings of their reviews . During fiscal year 2006, the OCC, OTS, and federal banking
agencies conducted this review process, and identified and proposed changes to its rules to streamline exist-




                                                                                                          U.S. and World Economies Perform
                                                                                                                  at Full Economic Potential
76                                                  Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           ing requirements or procedures, and enhance national banks’ flexibility in conducting authorized activities .
           Work to finalize these changes will continue into fiscal year 2008 .

           In fiscal year 2007, the OCC and OTS continued to work with Federal Reserve Bank (FRB) and Federal
           Deposit Insurance Corporation (FDIC) to implement the Basel II framework for large, internationally active
           U .S . bank and thrift institutions . Basel II enhances or modernizes Basel I capital rules for institutions not
           governed by the rules of Basel II . Work has been done in a number of countries to integrate Basel capital stan­
           dards with national capital organizations . The revised framework, the Basel II, aims to improve consistency
           of capital regulations internationally, increase risk sensitivity of regulatory capital, and promote enhanced risk-
           management practices among large internationally active banking organizations . The complexity and costs
           incurred by banking organizations implementing the Basel II in the United States is significant . Therefore,
           federal banking agencies are proposing revisions that would apply to non-Basel II banking organizations .

           The OCC legal opinions and corporate decisions enable national bank activities to continue to evolve,
           remain competitive, and consistent with safety and soundness . In fiscal year 2007, the OCC continued to
           support the ability of national banks to operate under uniform national standards, clarifying and refining key
           attributes defining the national banks’ charter . During fiscal year 2006, the U .S . Supreme Court granted the
           re-examination of actions of a national bank pre-emptive case, Watters v. Wachovia Bank, N.A. In this case,
           the OCC, represented by the Solicitor General of the United States, participated as a friend of the court and
           not a party to the litigation, but with an interest in the court’s decision . In fiscal year 2007, the Supreme
           Court reaffirmed the longstanding principle that state law may not significantly burden, curtail, or hinder a
           national bank’s s efficient exercise of any of its banking powers established by Congress under the National
           Bank Act . The opinion expressly recognized duplicative state examination, supervision, and regulation as
           significant burdens triggering preemption, but it also recognized that national banks are subject to state laws
           of general application to their daily business, if they do not conflict with the provisions or purposes of the
           National Bank Act .

           The OTS, like the OCC, charters, examines, supervises, and regulates federal savings associations and their
           holding companies . The OTS strives to reduce regulatory burden on savings associations while maintaining
           effective supervision . To accomplish this, the OTS conducts safety and soundness, and compliance examina­
           tions every 12 to 18 months, during which the thrifts ability to identify, measure, monitor, and control risk
           is evaluated . When weaknesses are identified, supervisory action is taken . Compliance examinations help
           to ensure fair and equal access to credit for all Americans . The OTS places special emphasis on ensuring the
           thrift industry guards against money laundering and terrorist financing, and protects the privacy and security
           of consumer financial information .

           Through its examination program, the OTS assures all thrifts are at least adequately capitalized and most
           thrifts are well-capitalized . In addition, the OTS ensures the thrift industry effectively complies with con­
           sumer protection laws and regulations, and customers are treated fairly and have access to financial services .

           Capital Adequacy: Adequate capital absorbs losses, promotes public confidence, and provides protection to
           depositors and the FDIC insurance funds . It provides a financial cushion that allows a thrift institution to
           continue operating during periods of loss or other adverse conditions . The Federal Deposit Insurance Act
           established a system that classifies insured depository institutions into five categories based on their relative




Economic
Part II – ANNUAL PERFORMANCE REPORT                                                                                                         77




capital levels . The thrift industry is strong and well-capitalized; over 99 percent of all thrift institutions were
in the highest capital category, meeting the well-capitalized standards .

The interagency CAMELS rating system evaluates the Capital adequacy, Asset quality, Management,
Earnings, Liquidity and Sensitivity to market risks of each bank or thrift institution . The OCC and OTS
assign a composite CAMELS rating to bank or thrift institutions at each examination, and adjusts the level
of supervisory resources devoted to its composite rating . The CAMELS rating is based upon a scale of 1 to
5 in increasing order of supervisory concern . In fiscal year 2007, 93 percent of the OTS regulated thrifts
achieved an overall composite CAMELS rating of 1 or 2 .

The OCC supervised 1,755 institutions with national bank charters and 49 federal branches with assets
totaling approximately $7 .2 trillion . In fiscal year 2007, relative to their risk, 99 percent of all national
banks were well-capitalized . The OCC examiners concluded that 96 percent of national banks earned the
highest composite ratings of 1 or 2 under the standard method of evaluating a bank’s operations . For the
relatively few problem national banks, one percent improved their composite CAMELS rating to either 1 or
2 since last year .

Strengthening financial institutions: A strong financial sector with a full spectrum of competitive services
mitigates the timely and fluid conduct of business on every level, from individual citizens to multi-national
corporations . Effective supervision of national banks and thrifts ensures a safe and sound financial system
that complies with laws and regulations, and provides fair access and treatment of customers . Building finan­
cial institutions capacity, to serve the nation’s low income and underserved communities facilitates economic
opportunity .

Last year, the OCC implemented the performance measure, total OCC costs relative to every $100,000
in bank assets regulated, reflecting the efficiency of operations while meeting the increasing supervisory
demands of a growing and more complex national banking system . In fiscal year 2007, the total OCC cost
relative to every $100,000 regulated was $8 .89, meeting the target . Likewise, the OTS utilizes the same per­
formance measure . For fiscal year 2007, the total OTS estimated cost relative to every $100,000 in savings
association assets regulated is $13 .90, meeting their target .

In fiscal year 2007, the Bank Secrecy Act/Anti-Money Laundering (BSA/AML) supervision remained a priority
for both the OCC and OTS . Through on-site examination activities, banks and savings associations are evalu­
ated on the BSA/AML compliance requirements and, where weaknesses are noted, corrective action is taken . In
July 2007, the OCC and OTS, collaboratively with the other federal regulatory agencies, issued the Interagency
Statement on Enforcement of Bank BSA/AML Requirements, which provides greater consistency in enforcement
decisions in BSA matters . In addition, the OCC issued the results of the 2007 Money Laundering Risk System
assessment, providing over 1,650 community banks with succinct BSA/AML information .

The thrift industry is strong and operating in a safe and sound manner, however, several factors related to the
U .S . or global economies could significantly affect the industry’s health; one risk could be a rapid increase in
market interest rates . As a result, the thrift industry has a natural concentration in longer-term loans funded
with shorter-term deposits and borrowings . Thus, a rise in interest rates could cause declining earnings mar­
gins and profitability . The OTS is vigilant and closely monitors interest rates and maintains a risk sensitivity
model to test savings association’s portfolios and evaluate potential exposure to changing interest rates .



                                                                                                              U.S. and World Economies Perform
                                                                                                                      at Full Economic Potential
78                                                  Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           Subprime Markets: During fiscal year 2007, the Department of the Treasury, Housing and Urban
           Development (HUD), and others in the Administration carefully focused on evaluating the challenges
           faced by individuals in the subprime market . The Treasury Department and HUD took several actions
           to provide assistance to homeowners, including the pursuit of legislation modernizing the Federal
           Housing Administration . In addition, the Department will reach out to a wide variety of entities, such as
           NeighborWorks America, mortgage originators and servicers, and government-sponsored entities, like Fannie
           Mae and Freddie Mac, to identify struggling homeowners and expand their mortgage financing options .
           Due to the threat of increased foreclosures, temporary changes were proposed to the federal tax code provi­
           sion that currently considers cancelled mortgage debt on primary residences as taxable income .

           During fiscal year 2007, the OCC and OTS worked with other federal banking regulators to issue guidance
           on subprime mortgage lending and non-traditional mortgage products . This guidance articulates consumer
           protection standards to ensure borrowers obtain loans they can afford to repay . Additionally, the agencies
           worked with the Conference of State Bank Supervisors and American Association of Residential Mortgage
           Regulators to encourage individual states to adopt the guidelines for mortgage brokers under their supervi­
           sion . The agencies also encouraged financial institutions to work with residential borrowers that are unable
           to meet their contractual home loan obligations .

           To make an informed decision when entering into a mortgage, the consumer needs to understand and
           compare material features and potential risks . The guidance, issued by the OCC and OTS and other federal
           banking agencies, sets forth recommended practices to ensure that consumers have clear and balanced infor­
           mation about products . To facilitate this, the agencies published a booklet which provides a glossary of lend­
           ing terms, a mortgage shopping worksheet, and additional information for buying or refinancing a home .

           An important factor for the thrift industry is credit quality . Over the past several years, the OTS has seen
           growth in consumer lending as financial institutions have sought new and innovative ways to attract custom­
           ers and design products to meet their financial needs . In the family mortgage market, total loans outstand­
           ing for this product have more than doubled in the past ten years . Additional alternative mortgage products,
           including interest-only and payment-option mortgages present unique credit and interest rate risks . As a
           result, alternative mortgage products receive close supervisory monitoring . Although delinquencies for most
           types of loans continued to rise from record-low levels, asset quality remained strong by historical standards
           during 2007 . Thrifts responded to this environment by maintaining strong capital and increasing provisions
           for loan losses . The combination of solid earnings, strong capital, and increasing loan-loss provisions will
           permit thrifts to withstand any further weakening in the housing market .

           Financing the ownership of homes has been a focus of thrift institutions throughout their history . Thrifts
           currently hold over $1 trillion in housing-related loans and securities . In addition, the thrift charter is used
           extensively by some thrifts to make small business, consumer retail, and commercial real estate loans . As of
           June 2007, the OTS regulated 836 thrifts with assets totaling $1 .5 trillion; and 472 holding company enter­
           prises with U .S . domiciled consolidated assets of approximately $8 .5 trillion .




Economic
Part II – ANNUAL PERFORMANCE REPORT                                                                                                                           79




 Outcome: Prevented or mitigated financial and economic crises
 Cost of related activities in trying to achieve this outcome: $870,257,140
                                                                Fiscal Year   Fiscal Year           Fiscal Year   Fiscal Year
                      Performance Measure                       2006 Target   2006 Actual   Met?    2007 Target   2007 Actual    Met?
 Percentage of national banks with composite CAMELS              90 .0%        95 .0%        Y       90 .0%        96 .0%         Y
 rating 1 or 2
 Rehabilitated problem national banks as a percentage of         40 .0%        46 .0%        Y       40 .0%        52 .0%         Y
 the problem national banks one year ago (CAMELS 3,
 4, or 5)
 Percentage of national banks that are categorized as well       95 .0%        99 .0%        Y       95 .0%        99 .0%         Y
 capitalized
 Percentage of national banks with consumer compliance           94 .0%        94 .0%        Y       94 .0%        97 .0%         Y
 rating of 1 or 2
 Total OCC costs relative to every $100,000 in bank assets       Baseline       $8 .84       Y        $9 .55        $8 .89        Y
 regulated
 Percent of thrifts with composite CAMELS ratings of 1           90 .0%        93 .0%        Y       90 .0%        93 .0%         Y
 or 2
 Percent of thrifts that are well-capitalized                    95 .0%        99 .9%        Y       95 .0%        99 .0%         Y
 Percent of safety and soundness exams started as                90 .0%        94 .0%        Y       90 .0%        95 .0%         Y
 scheduled
 Total OTS costs relative to every $100,000 in savings           Baseline      $13 .46       Y       $14 .33        Est .         Y
 association assets regulated                                                                                      $13 .90
 Percentage of grant and loan proposals containing satisfac­     90 .0%        88 .0%        N       90 .0%        92 .0%         Y
 tory frameworks for results measurement
 Percent of thrifts with compliance examination ratings of       90 .0%        93 .0%        Y       90 .0%        97 .0%         Y
 1 or 2
 KEY: Some measures have estimates for their actual fiscal year data – due to information not available at the time of publication
 of this document .



In fiscal year 2007, the Treasury Department’s estimated costs in trying to achieve the outcome “prevented or
mitigated financial and economic crises” was $870 .2 million . The performance of this outcome is assessed
through 11 performance measures, and in fiscal year 2007, the Department met 100 percent of its perfor­
mance targets .

In fiscal year 2007, the OTS provided estimated year end data for the performance measure “Total OTS
costs relative to every $100,000 in savings association assets regulated .” This estimate indicates that the OTS
met their target . For fiscal year 2008, the OTS is committed to continuing to tailor supervisory examina­
tions to the risk profile of the institutions, while effectively allocating resources to oversee and assess the
safety and soundness, and consumer compliance record of the thrift industry .

It is difficult to measure policy activities related to the outcome “prevented or mitigated financial and eco­
nomic crises .” The use of quantitative measures does not adequately describe these activities; therefore, in
fiscal year 2008, the Department will consider various types of measures for this important work, such as
traction and impact, and will review these with relevant stakeholders .

For the full suite of performance measures and associated information, refer to Appendix A .




                                                                                                                                U.S. and World Economies Perform
                                                                                                                                        at Full Economic Potential
80                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           Decreased gap in global standard of living
           Sustained strong economic growth creates opportunities, improves quality of life, and reduces poverty . The
           Multilateral Development Banks (MDBs) serve a critical central organizing function in the international
           development architecture of promoting sustainable economic growth by providing financial support and
           technical expertise in developing countries . Specifically, the MDBs help to promote private sector-led growth
           in developing countries, improve infrastructure, build human capacity through investments in education and
           health care, improve governance, and combat corruption .

           The MDBs, one of the most effective means of deploying development resources, provided approximately
           $50 billion in assistance in fiscal year 2007 . The United States, as the largest shareholder in most of these
           institutions, continues to push for reforms to improve the MDBs’ ability to promote economic growth and
           reduce poverty . The Department’s Office of Multilateral Development Banks initiated a number of reforms
           to increase the effectiveness of the development assistance provided . Those reforms included:
              •	 The development of robust results-based management systems to incorporate measurable performance
                 goals
              •	 The improvement of performance based allocation systems to distribute resources to countries that can
                 use them effectively
              •	 The increased effort to combat corruption and promote greater transparency
              •	 The adoption of debt sustainability framework to provide increased grant resources for the poorest
                 countries

           Debt Relief: The MDRI, a landmark effort agreed to in 2005, will cancel 100 percent of debt owed to the
           World Bank’s International Development Association, the African Development Fund, and the International
           Monetary Fund (IMF) by the world’s poorest and most heavily indebted countries . In fiscal year 2007,
           through U .S . efforts, a similar landmark debt relief initiative, the Fund for Special Operations (FSO) at
           the Inter-American Development Bank, was approved . The FSO will provide critical debt relief to Bolivia,
           Guyana, Haiti, Honduras, and Nicaragua, helping to end the lend-and-forgive-cycle development assistance,
           while freeing-up poor countries’ funds for other poverty reduction efforts .

           Grants: Under U .S . leadership, the MDBs increased amounts of new resources to debt-vulnerable countries
           in the form of grants - not loans - which is integral to ending the lend-and-forgive cycle of development
           assistance . For the last two years, nearly $2 .7 billion in grant funding has been provided by the concessional
           arms of the World Bank, the African Development Bank, and the Asian Development Bank .

           To help ensure the MDBs demonstrate results of their development assistance, they will closely monitor the
           percentage of grant and loan proposals containing satisfactory measurement frameworks . In fiscal year 2007, 92
           percent of proposals contained results measurement frameworks, exceeding the Department’s target of 90 percent .

           Infrastructure Development Program of the Americas: In July 2007, the U .S . Treasury Department
           and the International Finance Corporation (IFC) launched the Latin America and Caribbean (LAC)
           Infrastructure Development Program of the Americas to help drive private sector investment in this region .
           The $17 .5 million program, managed by the IFC, aids in identifying sustainable infrastructure projects suit­
           able for private participation, makes information publicly available, provides advisory support, and organizes




Economic
Part II – ANNUAL PERFORMANCE REPORT                                                                                                                     81




the public tendering process . The program also assists in improving regulatory frameworks on private sector
participation in LAC countries . In its first four years, the program is estimated to mobilize as much as $1
billion in new investments and $400 million in fiscal savings for local governments .

Underinvestment in infrastructure directly impacts the quality of life and economic performance in Latin
America . For example, 55 percent of entrepreneurs cite infrastructure as a serious problem and 135 million
people do not have adequate sanitation . Support for additional infrastructure development will help to
reduce the gap in regional living standards and encourage robust, sustainable growth in Latin America .


 Outcome: Decreased gap in the global standard of living
 Cost of related activities in trying to achieve this outcome: $13,445,750
                                                           Fiscal Year   Fiscal Year          Fiscal Year   Fiscal Year
                   Performance Measure                     2006 Target   2006 Actual   Met?   2007 Target   2007 Actual    Met?
 Improve International Monetary Fund (IMF) effec­           90 .0%        100 .0%       Y      90 .0%        100 .0%        Y
 tiveness and quality through periodic review of IMF
 programs



In fiscal year 2007, the Treasury Department’s estimated costs in trying to achieve the outcome “decreased
gap in the global standard living” was $13 .4 million . The performance of this outcome is assessed through
one measure, and in fiscal year 2007, the Department met its performance target 100 percent .

It is difficult to measure policy activities related to the outcome “decreased gap in the global standard of liv­
ing .” The use of quantitative measures does not adequately describe these activities; therefore, in fiscal year
2008, the Department will consider various types of measures for this important work, such as traction and
impact, and will review these with relevant stakeholders .

For the full suite of performance measures and associated information, refer to Appendix A .


Commerce enabled through safe, secure U.S. notes and coins
Trust and confidence are vital to the continued global acceptance of U .S . currency, and to protect the global
user from counterfeiting schemes, U .S . currency is redesigned and manufactured . The Department reliably
provides safe, secure, cost-efficient, high quality U .S . notes, security documents, and coins that are readily
accepted by all currency users and customers, which facilitates seamless and stable commerce . In addition,
the Department of the Treasury secures the nation’s gold and silver reserves .

The Bureau of Engraving and Printing (BEP) designs next generation currency to guard against counterfeit­
ing and manufactures the nation’s paper currency . In fiscal year 2007, the BEP maintained its position as a
world-class securities printer providing its customers with superior products through excellence in manufac­
turing and technological innovation . The BEP continued to produce U .S . currency at the highest quality
while incorporating state-of-the-art counterfeit-deterrent features . In fiscal year 2007, the BEP delivered 9 .1
billion paper currency notes, meeting the Federal Reserve’s exacting quality standards .




                                                                                                                          U.S. and World Economies Perform
                                                                                                                                  at Full Economic Potential
82                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           In addition, the BEP currency production program is designed to maintain national and worldwide con­
           fidence in U .S . currency and addresses the need for counterfeit-deterrent currency by applying the latest
           technologies in security printing and processing .

           In fiscal year 2007, the BEP met its performance target for costs per 1,000 notes produced . Manufacturing
           costs increased from $27 .49, in 2006, to $28 .71, in 2007, due to changes in the production program and
           the production of higher cost denominations . Security costs were favorable at $5 .92 per thousand notes
           produced against a performance target of $6 .00 per thousand notes delivered .

           The United States Mint manufactures circulating coinage and popular numismatic products . In fiscal year
           2007, the Mint successfully launched the first three circulating Presidential $1 coins; George Washington,
           John Adams and Thomas Jefferson . The Presidential $1 Coin Act of 2005, created this educational program
           to honor the presidents, in chronological order by term in office, with four different designs being released
           each year . In addition, the Mint issued the first three First Spouse gold coins honoring the spouses of each
           of the presidents . The spouse coins are half-ounce 24-karat $10 gold coins featuring the images, in the
           order that they served as First Spouse . To date, all first spouses have been women (First Ladies), but the Act
           uses the term “First Spouse” because before the end of the program, a first spouse could be a man . In the
           event a President served without a First Spouse, such as Thomas Jefferson, a gold coin is issued featuring the
           emblematic image of Liberty, as depicted on a circulating coin of that President’s era, and bearing a reverse
           emblematic image of themes of that President . In fiscal year 2007, First Spouse Gold Coins were issued
           honoring Martha Washington, Abigail Adams, and a Liberty design for Thomas Jefferson .

           In fiscal year 2007, the Mint had revenue and other financing sources of $2,635 billion for circulating
           and numismatic coin products, an increase of 13 percent over fiscal year 2006 . As a result of operations,
           $825 million was returned to the Treasury General fund, as compared to $750 million in fiscal year 2006,
           an increase of 10 percent . This increase in operating results was due primarily to the introduction of the
           Presidential $1 Coins .

           During fiscal year 2007, the Mint produced 15 .4 billion circulating coins, and numismatic and bullion
           products, with total revenue of $881 million . Sales of numismatic coins to the public were $525 million, an
           increase of five percent over fiscal year 2006 . Bullion sales to investors seeking precious metal holdings were
           $356 million, a decrease of 34 percent from fiscal year 2006 .

           Rising metal prices continue to have an impact on production cost . For the second consecutive year, the
           penny and the nickel cost more to produce than their face value; the Department is exploring alternative
           materials in an effort to overcome production challenges . The cost per 1,000 coin equivalents decreased one
           percent to $7 .47, from $7 .55 in fiscal year 2006, missing the target of $7 .27 . In fiscal year 2007, the cycle
           time was 61 days, a decrease from 72 days in 2006, meeting the target of 75 days .

           Financial and Currency Education: The Department’s financial literacy program provides information, tools,
           and guidance on a wide range of financial activities from opening a bank account to learning how to invest . These
           resources help people manage their personal finances more effectively, ensuring them a sound financial future .

           The Treasurer, as a key advisor for the Department, works closely with the Directors of the BEP and Mint on
           various collaborative outreach and educational efforts, and serves as an advisor on matters relating to coin-




Economic
Part II – ANNUAL PERFORMANCE REPORT                                                                                                                           83




age, currency, and the production of other items by the Department, and improving currency and financial
education .

During fiscal year 2007, the Treasurer emphasized the success of the U .S . economy and promoted financial
education for Americans, while advocating the establishment of a relationship with a traditional financial
institution to plan and save for the future . The Treasurer is committed to educating the public on federal
resources available for personal finance . The Treasurer is a key spokesperson for Treasury’s GoDirect cam­
paign, an effort to educate federal benefit payment recipients on the advantages, safety, and security of receiv­
ing their payments by direct deposit rather than by paper check .

In fiscal year 2007, the Treasurer’s office worked closely with the Assistant Secretary for Financial Institutions
and the Office of Financial Education to develop a series of initiatives focused on improving the country’s
level of financial literacy . Once these initiatives are approved, the Treasurer will continue to work with
Department offices on implementation .

The Treasurer, with the Office of Financial Education, hosted a series of financial education discussions,
to focus on financial literacy within specific minority and underserved communities . Again this year, the
Treasurer coordinated activities to address special challenges faced by the estimated ten million American
households who do not have an established relationship with a traditional financial institution . This ongoing
effort focuses on developing possible approaches to encourage this portion of the U .S . population to save for
the future .

In fiscal year 2007, the Treasurer partnered with the Office of International Banking to promote economic
development, through expanded access to basic financial services, in the Western Hemisphere, particularly
Latin America .

 Outcome: Commerce enabled through safe, secure U.S. notes and coins
 Cost of related activities in trying to achieve this outcome: $2,141,891,680
                                                                Fiscal Year   Fiscal Year           Fiscal Year   Fiscal Year
                      Performance Measure                       2006 Target   2006 Actual   Met?    2007 Target   2007 Actual    Met?
 Manufacturing Costs for Currency (dollar costs per thou­        $28 .50       $27 .49       Y       $32 .50       $28 .71        Y
 sand notes produced)
 Percent of Currency Notes Delivered to the Federal              99 .9%        99 .9%        Y       99 .9%        100 .0%        Y
 Reserve that meet customer quality requirements
 Cost per 1000 Coin Equivalents                                   $6 .62        $7 .55       N        $7 .27        $7 .23        Y
 Order Fulfillment                                               95 .0%        95 .0%        Y       96 .0%        98 .0%         Y
 Currency Shipment Discrepancies per Million Notes               0 .01%        0 .01%        Y       0 .01%        0 .01%         Y
 Security Costs per 1000 Notes Delivered                          $6 .25        $6 .00       Y        $6 .00        $5 .92        Y
 Total Losses                                                    $15,000        $0 .00       Y       $10,000        Est 0         Y
 Protection Cost per Square Foot                                 $32 .00       $32 .49       N       $32 .99       $31 .75        Y
 Cycle Time (Days) (E) (DISCONTINUED FISCAL                         67            72         N          75            61          Y
 YEAR 2008)
 KEY: Some measures have estimates for their actual fiscal year data – due to information not available at the time of publication
 of this document .




                                                                                                                                U.S. and World Economies Perform
                                                                                                                                        at Full Economic Potential
84                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           In fiscal year 2007, the Treasury Department’s estimated costs in trying to achieve the outcome “commerce
           enabled through safe, secure U .S . notes and coins” was $2 .1 billion . The performance of this outcome is
           assessed through 9 performance measures, and in fiscal year 2007, the Department met 100 percent of their
           performance targets .

           The BEP continued to produce U .S . currency at the highest quality, incorporating state-of-the-art counter­
           feit-deterrent features . In fiscal year 2007, the BEP delivered 9 .1 billion paper currency notes, meeting the
           Federal Reserve’s exacting quality standards of 99 .99 percent defect free, while under running their budget by
           $32 million .

           For the full suite of performance measures and associated information, refer to Appendix A .


           Economic – moving forward
           In fiscal year 2008, the TTB, through its international trade efforts, will continue to work on the imple­
           mentation of the international labeling agreement between the U .S . and the European Community . This
           agreement will improve conditions for U .S . wine exports, into a market valued at potentially over $600
           million . The TTB will work with the State Department to obtain information from foreign tobacco shippers
           pursuant to cases of alleged excise tax diversion, with an estimated value of several billion dollars worldwide .

           In the coming year, the Treasury Department will take steps to be part of the broader competitiveness dis­
           cussion, to ensure that U .S . markets remain efficient, innovative, and continue to drive capital to its most
           productive use .

           In fiscal year 2008, the Treasury Department and other agencies will explore negotiating opportunities for
           an investment agreement with China, as part of the U .S .-China Strategic Economic Dialogue . In addition,
           explore the possibilities of accelerating the pace of negotiating BITs in Asia, Africa, and the Middle East’s
           emerging markets .

           During fiscal year 2008, the Department of the Treasury will focus on implementing the new Aircraft Sector
           Understanding, and commence an update of the OECD’s Nuclear Sector Understanding, which will provide
           clear guidance on current financing practices .

           Last year, the Department of the Treasury led the resolution of disputes over investments abroad, thereby
           protecting assets of U .S . firms and institutional investors . In fiscal year 2008, the Department will focus on
           improving the investment climate for U .S . businesses in emerging markets, and facilitate the export of goods
           and services . U .S . investments in foreign countries benefits the recipient because it creates jobs, increases
           wages, improves the quality of life, and provides access to healthcare, transportation networks, and other
           critical infrastructure . For the United States to achieve similar benefits, the Treasury Department will actively
           participate in all aspects of international investment negotiations, BITs, the investment chapters of FTAs, and
           the Investment Committee of the OECD .

           An effective and efficient supervision program supports the OCC goal of a safe and sound national banking
           system, fair access to financial services, and fair treatment of customers . In fiscal year 2008, the OCC will
           address supervisory issues related to potential adverse changes in national bank asset quality and risk profiles,
           and continue to work on proposed revisions to the federal banking agencies’ risk-based capital standards,



Economic
Part II – ANNUAL PERFORMANCE REPORT                                                                                                    85




compliance with BSA/AML and USA PATRIOT Act requirements, and addressing issues raised by the range
of retail banking products offered by national banks .

In addition, the OCC will continue to provide case-by-case analysis for national banks operating efficiently
and under uniform national standards as reflected in the case of Watters v. Wachovia Bank, N.A . The OCC
will also develop and communicate clarification of the principles determining the application of state con­
sumer protection laws to national banks .

In fiscal year 2008, the OTS will continue to place emphasis on ensuring the thrift industry guards against
money laundering and terrorist financing, protecting the privacy and security of consumer financial informa­
tion, and providing needed home lending and other financial services to all customers in a fair and equal
manner . In addition, the OTS is committed to reducing regulatory burden on the industry and providing a
regulatory framework that facilitates a competitive, sound industry .

In fiscal year 2008, as part of a multi-year initiative, the BEP will introduce the redesigned $5 note, and
begin production of the redesigned $100 note, with its introduction scheduled for 2009 . In addition, the
re-tooling of the currency manufacturing process at the DC and Fort Worth facilities will continue . As an
efficiency effort, the BEP will convert its current 32-note sheet production process to a 50-note production
format and enhance its capability to produce innovative currency designs to better protect the nation’s cur­
rency for future generations .

In fiscal year 2008, the Treasurer will continue efforts to promote economic development, through expanded
access to basic financial services, and focus on encouraging the portion of un-banked U .S . population to save
for the future . The Treasurer, a member of the Advanced Counterfeit Deterrence Committee, coordinates
the work of the Treasury Department, the Federal Reserve System, and the U .S . Secret Service in analyzing
threats, monitoring counterfeit activity, evaluating deterrence tools, and implementing design changes . In
addition, through an educational campaign, the Treasurer will create global awareness of the newly designed
$5 and $100 notes .




                                                                                                         U.S. and World Economies Perform
                                                                                                                 at Full Economic Potential
86                                                      Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           Security - Prevented Terrorism and       Performance Cost - $537 Million
            SECURITY
           Promoted the Nation’s Security       Through
                                     *For information on calculating cost – see Appendix H

           Strengthened
            STRATEGIC GOAL: Prevented International                  Financial
                                      Terrorism and Promoted the Nation’s                  Systems
                                                                          Security Through Strengthened
            International Financial Systems
            STRATEGIC OBJECTIVE: Pre-empted and neutralized threats to the international financial system
            and enhanced U.S. national security

            STRATEGIC OUTCOMES AND VALUE CHAIN:
              •  Removed or reduced threats to national security from terrorism, proliferation of weapons of mass destruction, narcotics
                 trafficking and other criminal activity on the part of rogue regimes, individuals, and their support networks (Secure)
              •  Safer and more transparent U.S. and international financial systems (Secure)




           While promoting financial and economic growth at home and abroad, the Treasury Department performs
           an important, unique, and growing role in preserving national security. All national security threats from
           terrorists, to drug traffickers, to proliferators of weapons of mass destruction and rogue regimes depend on
           financial and support networks. Terrorists use financial systems to move money for training and indoctrinat­
           ing operatives, bribing officials, procuring false documents, and carrying out horrific attacks. Weapons pro­
           liferators access the financial sector to pay for the components and services needed to build weapons. Drug
           cartels funnel money through fraudulent businesses and front companies to cloak their trafficking activities.
           Rogue regimes turn to gray markets and illicit activity to raise funds and purchase arms.

           When diplomatic outreach is unproductive and traditional military action is ineffective or inappropriate, the
           Department’s regulatory, law enforcement and intelligence authorities provide powerful tools for the United
           States to apply pressure against threats to national security.

           The Department of the Treasury leverages its unique authorities to safeguard the security of the U.S. and
           international financial and economic systems. These authorities defend against threats by detecting and
           excluding those who would use these systems for illegal purposes or compromise U.S. national security inter­
           est, while keeping them free and open to legitimate users.

           The Office of Terrorism and Financial Intelligence (TFI) marshals the Treasury Department’s intelligence and
           enforcement functions, aimed at safeguarding the financial system against illicit use and combating rogue
           nations, terrorist facilitators, WMD proliferators, money launderers, drug traffickers, and other national
           security threats.



Security
Part II – ANNUAL PERFORMANCE REPORT                                                                                                        87




The TFI extracts financial and other source intelligence to effectively utilize the Department’s unique author­
ities to combat national security threats and safeguard the financial system . This is accomplished through
uniting five policy offices and one bureau within the Department . These are:
   •	 The Office of Foreign Assets Control (OFAC) administers and enforces economic and trade sanctions
   •	 The Office of Terrorist Financing and Financial Crimes (TFFC) is the policy and outreach apparatus
      for TFI
   •	 The Office of Intelligence and Analysis (OIA) is responsible for intelligence functions, integrating the
      Treasury Department into the larger Intelligence Community (IC), and providing support to Treasury
      leadership
   •	 The Financial Crimes Enforcement Network (FinCEN) is responsible for administering the Bank
      Secrecy Act (BSA) and other regulatory functions
   •	 The IRS Criminal Investigative Division (IRS-CI), works in partnership with the TFI, to enforce laws
      against terrorist financing, money laundering, and related financial crimes
   •	 The Treasury Executive Office of Asset Forfeiture (TEOAF) administers the Treasury Forfeiture Fund,
      which is the receipt account for the deposit of non-tax forfeitures


Removed or reduced threats to national security from terrorism, proliferation of weap­
ons of mass destruction, drug trafficking, and other criminal activity on the part
of rogue regimes, individuals, and their financial and other support networks
The financial and other support networks of terrorists, weapons proliferators, drug traffickers, rogue regimes,
and other criminals are degraded, impairing the ability of individuals and organizations to carry out criminal
activities or attacks against the United States, its allies, and interests worldwide .

Unified Action Produces Success in Targeting Terrorists: Collectively, the TFI implements authorities tar­
geted at terrorist financiers, and aims to deny terrorists and their supporters, access to the financial system .

The targeting process begins with the OIA’s all-source intelligence analysis of Al-Qa’ida, Hizballah, HAMAS,
and other groups which focuses on proper identification of potential designees, and builds the evidence nec­
essary to take action . Prior to designation, the TFFC, collaboratively with the OIA and OFAC, works with
the U .S . Government interagency community, and other foreign partners, to develop policy-level consensus
for taking action and implementing strategy . The OFAC then designates these targets and implements the
resulting sanctions, ensuring that designated persons’ assets are blocked and are denied access to the U .S .
financial system . After the designation, the Department coordinates with the international community, to
expand action into multilateral pressure .

Designating Terrorist Financiers: Since 2001 and the inception of the Executive Order 13224, the U .S .
Government has designated 483 individuals and entities as terrorists, their financiers, or facilitators . In fiscal
year 2007, the TFI designations included:
   •	 Three Libyan individuals, members of both al-Qa’ida and the Libyan Islamic Fighting Group, for
      executing various activities from recruitment, to military training, to procurement of explosive
      components



                                                                                                             Prevented Terrorism and Promoted
                                                                                                                          the Nation’s Security
88                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




              •	 A Lebanon-based construction company, formed and operated by Hizballah, receiving direct funding
                 from Iran
              •	 Two South African individuals and a related entity, for financing and facilitating al-Qa’ida
              •	 Five individuals providing financial support and facilitating terrorist activities to al-Qa’ida and other
                 terrorist organizations
              •	 Nine individuals and two entities, for providing financial and logistical support to Hizballah

           Designation programs often have an impact beyond their legal reach . Many banks, around the world, screen
           their customers and transactions against the U .S . list of designated entities and individuals . Additionally,
           information made public, in combination with designated actions, can have a substantial impact by creating
           a deterrent effect .

           The Treasury Department plays an important role in the United States’ efforts to combat terrorism, at
           home and abroad, through actionable intelligence, the application of targeted financial tools, and expanded
           outreach .

           Combating the Proliferation of Weapons of Mass Destruction (WMD), Drug Traffickers, and other
           criminals through targeted Financial Measures and Economic Sanctions: In fiscal year 2007, the
           Department, in cooperation with the State Department, continued to target proliferators of WMD and their
           supporters, freezing their U .S . assets, and prohibiting U .S . persons from doing business with them .

           As part of the U .S . Government’s overall Iran effort, the TFI led the effort to develop the financial compo­
           nent of an innovative strategy, to combat Tehran’s support for terrorism and development of WMD, and its
           abuse and manipulation of the international financial system .

           Previously, U .S . actions were limited to broad commercial and financial sanctions, prohibiting U .S . persons
           from engaging in trade and financial transactions with Iran or its government . Moving beyond general
           country sanctions, the OFAC, with analytical and policy support from the OIA and TFFC, relies heavily on
           targeted measures aimed at specific individuals, key members of government, front companies, and financial
           institutions .

           For example, in fiscal year 2007, the OFAC designated Bank Sepah, the fifth-largest Iranian state-owned
           financial institution, for providing extensive financial services to Iranian entities responsible for developing
           missiles capable of carrying WMD . This designation, and the subsequent imposition of sanctions on Bank
           Sepah, under the United Nation’s Security Council Resolution 1747, has effectively cut off this bank from
           the United States and international financial systems, potentially making it more difficult for Iran to facilitate
           its missile proliferation-related activities .

           In fiscal year 2007, other designations by the OFAC included:
              •	 Three Syrian entities, tied to the Scientific Studies and Research Center, an agency that was previously
                 designated for developing and producing non-conventional weapons and missiles
              •	 In three separate designations, eight Iranian entities, one British entity, and one other individual for
                 their roles in Iranian weapons proliferation




Security
Part II – ANNUAL PERFORMANCE REPORT                                                                                                      89




   • Two Iranian individuals designated for their involvement in Iran’s nuclear program

In addition, the OFAC took other actions to prevent the funding of terrorism, such as, countering Iran’s sup­
port for terrorism; regulations were amended to disconnect Bank Saderat, one of the largest Iranian-owned
banks, from all direct and indirect access to the U .S . financial system . Bank Saderat is used by the Iranian
Government to transfer money to terrorist organizations, to include Hizballah, Hamas, and the Popular
Front for the Liberation of Palestine-General Command, and the Palestinian Islamic Jihad .

In an effort to protect the international financial system from Iran’s illicit activity, the Department’s senior
officials engaged in unprecedented levels of outreach to the international, private, and public sectors, empha­
sizing the risks associated with doing business with Tehran . Supported by this outreach effort, a number
of financial institutions either decreased, or eliminated Iran-related business, and two UN Security Council
resolutions against Iran were unanimously adopted . These resolutions contain requirements to freeze the
assets of designated proliferators, and financial measures targeting Iran’s pursuit of nuclear weapons and the
development of ballistic missiles .

North Korea poses a number of different challenges . To address them, the Treasury Department targets
North Korea’s missile proliferation network and takes steps to combat illicit financial activity . After an 18
month investigation, the Treasury Department finalized the rule to impose special measures that prohibit
U .S . financial institutions from opening or maintaining correspondent accounts in the U .S . for, or on behalf
of, Banco Delta Asia SARL . The TFI worked with interagency partners and the Macanese authorities in this
investigation, confirming the bank’s facilitation of illicit financial transactions on behalf of its North Korea-
related clients . Systemic problems were identified and the Macanese Government has taken steps to address
and reform its jurisdictional AML/CFT deficiencies .

Drug Traffickers: The Specially Designated Narcotics Traffickers Program continued to see significant activ­
ity in fiscal year 2007 . The OFAC continued to target additional leaders of Colombia’s North Valle cartel
and their financial networks, including 30 individuals in Colombia, and 42 front companies . In fiscal year
2007, the OFAC targeted Medellin-based narcotics trafficker Fabio Enrique Ochoa Vasco for designation,
along with his extensive criminal and financial network of 65 individuals and 45 companies .

After targeting the financial assets of two leaders of Colombia’s Cali Cartel, Miguel and Gilberto Rodriguez
Orejuela, their front man, Fernando Gutierrez Cancino, pled guilty to money laundering charges, and agreed
to forfeit his right, title, and interest in all business entities named by the OFAC . These entities are part of
the 246 front companies that were designated over the past 11 years, and under at least 12 OFAC actions
targeting Colombian drug cartels .

Separate from the Colombia program, the Foreign Narcotics Kingpin Designation Act applies financial mea­
sures against significant foreign drug kingpins worldwide . More than 300 businesses and individuals, associ­
ated with 68 drug kingpins, have been designated in the past seven years . In fiscal year 2007, the OFAC
designated a key financial network of Mexican drug kingpin, Ismael Zambada Garcia, leader of the Sinaloa
Cartel . This network was comprised of six entities and 12 individuals, including a large regional industrial
dairy and cattle concern .




                                                                                                           Prevented Terrorism and Promoted
                                                                                                                        the Nation’s Security
90                                                  Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           Enforcement: The OFAC Enforcement Division conducts civil investigations, primarily through administra­
           tive subpoenas, of possible violations of OFAC sanctions, such as the transfer of funds to designated terrorist
           organizations . The Division refers criminal matters to law enforcement agencies and provides support for
           criminal investigations and prosecution . Civil matters can result in cautionary and warning letters or refer­
           rals to the OFAC’s Civil Penalties Division . Additionally, the Enforcement Division blocks the physical
           property of entities designated as threats to national security, in the United States, effectively suspending their
           domestic operations .

           The imposition of civil monetary penalties is important for sanctions enforcement . The OFAC’s Civil
           Penalties division is responsible for administering and enforcing actions under the economic and trade sanc­
           tions programs . While penalty cases are aggressively pursued under all sanctions programs, a large percentage
           of them are based upon the illegal trade of goods and services .

           Shaping Policy and Expanding Outreach: The TFFC shapes policy and works with other governments
           and the international private sector . The office develops and implements strategies, policies, and initiatives,
           to identify and address vulnerabilities in the international financial system, and safeguard it from illicit use .
           The TFFC’s efforts are enhanced by collaborating with other federal agencies, the regulatory community,
           private sector, and foreign government counterparts . The TFFC leads and coordinates U .S . representation at
           international bodies dedicated to fighting terrorist financing and financial crime, such as the Financial Action
           Task Force . In addition, the TFFC advances the development of international standards, conducts assess­
           ments, and applies protective countermeasures against high-risk foreign jurisdictions and financial institu­
           tions . The TFFC works directly with foreign partners to develop financial strategies for combating terrorist
           and proliferation threats .

           Countering Proliferation Finance: The TFFC led Department efforts to raise the issues of terrorist and
           proliferation finance, bilaterally with international partners . The TFI continues to work closely with the
           Finance Ministries, the G7, and through the Proliferations Security Initiative, for the expansion of the man­
           date that addresses the proliferation finance threat, and vulnerabilities associated with governments that fail
           to recognize international standards; currently that work is underway .

           Financial Action Task Force: The TFFC works with other financial centers worldwide to establish and
           maintain effective international standards, and protect the international financial system from illicit use . In
           coordination with the interagency community, the Department primarily advances this objective through the
           Financial Action Task Force (FATF) .

           The FATF sets global standards in the form of recommendations, guidelines, and best practices, for combat­
           ing financing of terrorism and money laundering . In addition, these principles aid countries in developing
           their own specific AML/CFT laws and regulations to protect the international financial system from abuse .
           The Department continues to advance discussions in the FATF on how existing AML/CFT international
           standards should be supplemented, amended, or applied to enhance effectiveness .

           The Treasury Department works through the FATF, various FATF-Style Regional Bodies, the World Bank,
           and IMF to establish a comprehensive global system of AML/CFT assessments . This system facilitates com­
           pliance with the international AML/CFT standards by auditing the AML/CFT regimes in over 150 countries
           around the world .



Security
Part II – ANNUAL PERFORMANCE REPORT                                                                                                       91




Identifying systemic vulnerabilities that terrorists and other criminals exploit to finance their operations
and interests is critical for preventing terrorism and strengthening national security . In fiscal year 2007, the
Treasury Department, as a member of the FATF:
   •	 Co-chaired a working group to produce guidance regarding the implementation of financial provisions
      of UN Security Council Resolutions to counter WMD proliferation
   •	 Led an international working group that completed a study of vulnerabilities of new payment products
      introduced into the international financial system; the study included an assessment of the exploitation
      of these new payment products by criminal organizations
   •	 Worked with interagency partners on two FATF studies on the misuse of corporate vehicles, money
      laundering, and terrorist financing through the real estate industry
   •	 Contributed to the development of guidance for the private sector and governments on implementing a
      risk-based approach to AML/CFT; this guidance discusses the benefits and challenges of designing and
      implementing an effective risk-based AML/CFT regime
   •	 Continued to work on globalizing FATF’s processes by facilitating the development of new FATF Style
      Regional Bodies, and a partnership between the FATF, the World Bank and IMF, where AML/CFT
      evaluations are currently incorporated into every financial sector assessment . The development of these
      bodies ensure that systemic vulnerabilities will be identified, and allow for governmental authorities and
      the international financial community to take appropriate action

In fiscal year 2007, the Department continued to pursue additional initiatives, within international bodies,
to identify systemic threats to the international financial system and focus efforts on developing appropriate
policies to protect it from abuse . The TFFC worked with the State Department on a series of workshops
with the EU, aimed at sharing best practices and education on implementing an effective sanctions regime
against terrorist financing . The result of these workshops was the development of a joint U .S .-EU statement
of principles, on fair and clear procedures for listing and de-listing designations .

To improve jurisdictions’ understanding, the TFFC facilitated a technical workshop on targeted economic
sanctions and the implementation of FATF’s Special Recommendation III, freezing and seizing terrorist
assets . In addition, the workshop assisted countries in establishing a national legal authority and basis for
terrorist finance designations, and address issues such as identification and targeting, ensuring compliance,
and conducting follow-up investigations . The TFFC continues to work on developing similar workshops
that address illicit finance threats and WMD proliferation .

International Private Sector Outreach on AML/CFT: The TFI engages in outreach and education to
advance the Department’s unique security mission . Leading the way, the TFFC, with the support of financial
and regulatory authorities, initiated a series of private sector AML/CFT dialogues, linking the U .S . banking
sector with those from the Middle East/North Africa and Latin American regions . These dialogues raise
awareness of terrorist financing and money laundering risks, facilitate a better understanding of effective
practices and programs to combat the risks, and strengthen implementation of effective AML/CFT controls .

In fiscal year 2007, the TFFC, in collaboration with interagency and regional partners, successfully sup­
ported and organized the second U .S .-Middle East/North Africa Private Sector Dialogue on AML/CFT .
Discussions between bankers and financial and regulatory authorities involved a range of challenges associ-



                                                                                                            Prevented Terrorism and Promoted
                                                                                                                         the Nation’s Security
92                                                  Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           ated with the development and implementation of effective AML/CFT jurisdictional and institutional
           measures .

           In June 2006, the TFFC launched the U .S .-Latin America Private Sector Dialogue, establishing a permanent
           dialogue . Over 200 participants, from 20 different countries, representing regulators and the financial sec­
           tor in the United States and Latin America, attended the conference . The Treasury Department continues
           to further engage and encourage the private sector and other relevant regional organizations to expand this
           initiative, through the internet, virtual working groups, and best practices papers . A second conference,
           building on previously discussed topics and concerns, is tentatively scheduled for 2008 .

           The Private Sector Dialogue outreach to the international financial community complements the TFI’s other
           work to address vulnerabilities in the international financial system by providing a vehicle to explain money
           laundering and terrorist financing concerns, assess and facilitate AML/CFT progress and implementation,
           and receive feedback on its effectiveness, from regional participants in the international financial system .

           Charitable and Muslim-American Outreach: Outreach and guidance is essential to the TFFC’s strategy
           in combating terrorist exploitation and the abuse of charities . The TFFC published the revised U.S.
           Department of the Treasury Anti-Terrorist Financing Guidelines: Voluntary Best Practices for U.S.-Based Charities .
           These guidelines outline fundamental principles of charitable practices, governance accountability and
           transparency, financial accountability, and programmatic verification . In addition, the revised guidelines
           include a new section on anti-terrorist financing best practices that provides a non-exhaustive list of industry
           best practices, which a charity may implement on a risk-based approach . Lastly, in response to concerns that
           the U .S . had overstated the terrorist threat to charities, the revised guidelines include an addendum, that
           provides open-source materials outlining the efforts of designated terrorist organizations to infiltrate charities,
           to advance their radical agenda and ideology .

           To assist charities in assessing their risk profile for anti-terrorist financing purposes, the TFFC and OFAC
           published the OFAC Risk Matrix . This publication provides a list of indicators for possible terrorist financ­
           ing, ranging from low to high risk, and allows charities to better utilize the guidelines’ preventive measures
           and anti-terrorist financing best practices .

           Integration into the Broader Intelligence Community: The OIA drives and supports policy actions taken
           by the Department through the support to targeted financial measures, strategic all-source analysis of illicit
           finance, and liaison support to the Treasury Department’s policy offices . Integrated into the IC, the OIA
           analysts work closely with their interagency counterparts and frequently collaborate on intelligence analytic
           products . This integration ensures the Department is able to provide its broader interagency partners expert
           all-source analysis on financial and other networks, supporting terrorism, WMD proliferation, and other
           national security threats .

           Integrating into the IC is dependent on the ability to send and receive information that is timely, relevant,
           and accurate . The OIA, which has regular access to the intelligence necessary to produce analytical products
           for dissemination, effectively supporting financial measures against terrorists and their supporters, developed
           a Top Secret/Sensitive Compartmented Information website, accessed by partners .




Security
Part II – ANNUAL PERFORMANCE REPORT                                                                                                                           93




The Department of the Treasury broadened its unique intelligence role overseas through participation of the
Baghdad-based Iraq Threat Finance Cell (ITFC), where an OIA officer serves as co-lead . The U .S . and coali­
tion military commanders depend on timely and relevant financial intelligence provided by the ITFC . In
addition, the ITFC makes significant contributions to understanding and disrupting financial networks that
support terrorist, insurgent, and militia groups, active in Iraq .


  Outcome: Removed or reduced threats to national security from terrorism, proliferation of weapons of mass destruction, drug
  trafficking and other criminal activity on the part of rogue regimes, individuals, and their support networks
  Cost of related activities in trying to achieve this outcome: $426,167,660
                                                                Fiscal Year   Fiscal Year          Fiscal Year   Fiscal Year
                     Performance Measure                        2006 Target   2006 Actual   Met?   2007 Target   2007 Actual     Met?
  Number of countries that are assessed for compliance              45             5         N          6            6            Y
  with the Financial Action Task Force (FATF) 40+9
  recommendations
  Increase the number of outreach engagements with the             105            45         N         70            85           Y
  charitable and international financial communities
  Percent of forfeited cash proceeds resulting from high-        75 .0%        72 .9%        N       75 .0%       84 .18%         Y
  impact cases
  Number of open civil penalty cases that are resolved              85            85         Y         85           296           Y
  within the Statute of Limitations period



In fiscal year 2007, the Treasury Department’s estimated cost in trying to achieve the outcome “removed
or reduced threats to national security” was $426 .1 million . The performance of this outcome is assessed
through 4 performance measures, and in fiscal year 2007, the Department met 100 percent of their perfor­
mance targets .

It is difficult to measure activities related to preventing terrorism, and removing or reducing threats to the
nation’s financial system . Quantitative measures such as assets seized or blocked can be used; however, these
only partially describe the impact of this important work . In fiscal year 2007, the Department began devel­
oping a composite TFI measure that considers important factors related to the impact of economic sanctions
and financial actions, intelligence, law enforcement and regulatory activities, policymaking, and outreach
and diplomacy . In addition, this metric will contain measures and indicators, and a rating system to assess
impact on the two outcomes related to the Department’s goal of preventing terrorism and promoting the
nation’s security through strengthened international financial systems; the development of this measure will
be completed in fiscal year 2008 and will be reviewed with relevant stakeholders .

For the full suite of performance measures and associated information, refer to Appendix A .


Safer and more transparent financial systems
Confidence in the integrity of the U .S . and international financial systems fosters economic growth, and
improves national security . Transparency in the financial sector denies terrorist, drug traffickers, WMD
proliferators, and other criminals the ability to conceal their illicit activities . The U .S . national security is
enhanced when financial systems are safeguarded from criminal abuse .




                                                                                                                                Prevented Terrorism and Promoted
                                                                                                                                             the Nation’s Security
94                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           Enhancing the Integrity and Transparency of the International Financial System: The Financial Crimes
           Enforcement Network (FinCEN), a Department bureau and TFI component, administers the Bank Secrecy
           Act (BSA) .

           The BSA requires financial institutions to file reports on certain types of financial activity, and establish
           appropriate internal controls to guard against money laundering, terrorist financing, and other types of illicit
           finance . These reports have a high degree of usefulness in criminal, tax, and regulatory matters . Documents
           filed by businesses, pursuant to the BSA requirements, are used by domestic and international law enforce­
           ment agencies to identify, detect, and deter money laundering . In addition, the FinCEN serves as the
           nation’s financial intelligence unit (FIU), to collect, analyze, disseminate, and exchange information about
           suspicious or unusual activity reported by the financial sector .

           To improve the consistency of the application of BSA rules regulating financial institutions, the FinCEN’s
           regulatory policy efforts focus on efficient and effective administration of the BSA . This is achieved through
           briefings to increase understanding of how the BSA’s regulatory requirements generate information for law
           enforcement . The FinCEN requires that financial institutions create policies, procedures, and systems to
           make the financial system transparent and protect it from becoming a conduit for financial crime . In fiscal
           year 2007, the FinCEN published amended BSA regulations which included:
               • A final rule imposing special measures against Banco Delta Asia, including its subsidiaries, Delta Asia
                 Credit Limited and Delta Insurance Limited, as a financial institution of primary money laundering
                 concern
              •	 An amendment regarding casino recordkeeping and reporting requirements
              •	 A final rule in connection with enhanced due diligence for correspondent accounts established or
                 maintained for certain foreign banks accounts thereby completing rulemaking pursuant to section 312
                 of the USA PATRIOT Act

           In addition, to improve consistency in the interpretation and application of BSA regulations, and advance
           the understanding of regulatory expectations, the FinCEN published guidance:
              •	 To assist mutual funds with compliance requirements on suspicious activities reporting
              •	 Questions and Answers on Customer Identification Programs (CIP) and Banks Serving as Insurance
                 Agents
              •	 On the application of the CIP regulation to give-up arrangements in the futures industry
              •	 On Requests by Law Enforcement for Financial Institutions to Maintain Accounts
              •	 On Suspicious Activity Report Supporting Documentation
              •	 On the Potential Money Laundering Risks related to Shell companies

           In fiscal year 2007, the FinCEN delivered complex analytical studies to authorities with 43 state regulators,
           on mortgage loan fraud, money laundering through the commercial real estate sector, and Shell companies .
           The studies contributed to the publication of guidance, for industry and regulatory examiners, about the
           vulnerabilities in these areas and compliance obligations .




Security
Part II – ANNUAL PERFORMANCE REPORT                                                                                                     95




In fiscal year 2007, the FinCEN continued enhancing outreach activities, participating in over 90 outreach
events to financial institutions ranging from banks to money services businesses . By using information, from
law enforcement partners, on type, location, and the activities of unregistered money services business, the
FinCEN focused on education initiatives to describe the BSA anti-money laundering program and the reg­
istration requirements . In addition, the FinCEN, collaboratively with the IRS, developed a strategy to focus
resources on ensuring BSA compliance by non-bank financial institutions .

Lastly, an action plan was implemented to address concerns among domestic and international policymakers,
law enforcement, and financial institutions, about the misuse of business entities, to facilitate money launder­
ing and other financial crimes . Civil money penalties were assessed against financial institutions for willful
violations of the BSA requirements .

Analytic Efforts in Support of Regulatory Functions: The FinCEN focuses on developing products and
services, to assist law enforcement in better utilizing resources, enhancing detection and deterrence of
domestic and international money laundering, terrorist financing, and other illicit activity . This includes
the exchange of information, with counterpart foreign government FIUs in 105 countries, members of the
Egmont Group .

In fiscal year 2007, the FinCEN continued to enhance its support to law enforcement agencies by focusing
on actionable analysis aimed at high-priority money laundering and terrorist financing targets, and collabo­
rating on analytical projects with stakeholders . In addition, the FinCEN continued to work with its Egmont
Group partners, to develop intelligence concerning illicit money flows across the northern and southwestern
borders of the United States .

Accessibility of BSA Data: The FinCEN improved the accessibility of BSA information by enhancing its IT
management capabilities, improving overall information infrastructure, and expanding access for authorized
law enforcement and regulatory users to efficiently query data when needed .

In response to a Congressional mandate, the FinCEN conducted a cost-benefit analysis, with the participa­
tion of financial services industry regulatory agencies, and law enforcement to determine the feasibility,
benefits, and costs to affected parties of a cross-border electronic funds transfer reporting requirement .

Improving BSA data quality and access remains a priority . In fiscal year 2007, the FinCEN established a
Data Management Council to develop a formal process for identifying, prioritizing, and addressing data
quality issues, in a consistent and documented fashion . The FinCEN continues to focus on promoting
electronic filing of BSA reports, to enhance speed, economy, and data quality . In addition, the FinCEN, in
collaboration with its BSA stakeholders, developed and launched its first enterprise-wide business transforma­
tion and IT modernization program, which is based on rigorous program management framework .

Fiscal Year 2007 Performance Measure Results: The FinCEN continued to increase activities to monitor
BSA compliance of financial institutions, examined by federal and state regulators By the end of fiscal year
2007, the FinCEN executed memoranda of understanding (MOU) governing the exchange of information
with 50 federal and state regulatory agencies . These agreements provide a solid foundation for FinCEN to
improve upon its ability to monitor industry compliance by providing vital data on various industry segments .




                                                                                                          Prevented Terrorism and Promoted
                                                                                                                       the Nation’s Security
96                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           Understandable guidance is critical to financial institutions, aiding in the establishment of appropriate BSA
           anti-money laundering compliance programs . In 2006, the FinCEN conducted a baseline survey of the
           Regulatory Resource Center customers rating regulatory guidance received as understandable, and established
           a baseline of 94 percent, with the target of maintaining a level of 90 percent; in fiscal year 2007, the FinCEN
           exceeded this target with a 91 percent rating .

           The FinCEN established a measure for the percentage of bank examinations conducted, by Federal Banking
           Agencies, indicating a systemic failure of the anti-money laundering program rule . To increase depository
           institution compliance with the BSA, this measure provides an assessment of FinCEN’s effectiveness to
           provide policy guidance and take action . Timely enforcement action communicates urgency to financial
           institutions, and is paramount to deterring non-compliance . The FinCEN works closely with its regulatory
           partners to take enforcement action against institutions that violate the compliance and enforcement provi­
           sions of the BSA .

           The FinCEN supports law enforcement and its regulatory industry partners by facilitating information shar­
           ing and providing analysis of BSA data . In fiscal year 2007, a survey of FinCEN’s customers found that 82
           percent rated FinCEN’s analytic reports as valuable .

           The BSA E-Filing System allows filing organizations to electronically file discrete and batched BSA forms, and
           send secure messages, and receive responses when appropriate . The BSA E-Filing system is used to issue advi­
           sories and system updates to the user community . In fiscal year 2007, the FinCEN surveyed users to deter­
           mine the overall satisfaction level; FinCEN exceeded its target, receiving a 94 percent user satisfaction rating .


            Outcome: Safer and more transparent U.S. and international financial systems
            Cost of related activities in trying to achieve this outcome: $110,988,680
                                                                          Fiscal Year   Fiscal Year          Fiscal Year   Fiscal Year
                               Performance Measure                        2006 Target   2006 Actual   Met?   2007 Target   2007 Actual   Met?
            Average time to Process Enforcement Matters (Years)                1             1         Y          1           1 .1        N
            Number of federal and state regulatory agencies with              45            48         Y         50            50         Y
            which FinCEN has concluded memoranda of understand­
            ing information sharing agreements
            Percentage of bank examinations conducted by the                 N/A           N/A        N/A     Baseline       5 .2%        Y
            Federal Banking Agencies indicating a systemic failure of
            the anti-money laundering program rule
            Percentage of customers finding FinCEN’s analytic reports        N/A           N/A        N/A     Baseline      82 .0%        Y
            highly valuable
            Percentage of customers satisfied with the BSA Direct          Baseline        92 .0%      Y      90 .0%        94 .0%        Y
            E-filing
            Percentage of Regulatory Resource Center customers rat­        Baseline        94 .0%      Y      90 .0%        91 .0%        Y
            ing the guidance received as understandable



           In fiscal year 2007, the Treasury Department’s estimated cost in trying to achieve the outcome “safer and
           more transparent U .S . and international financial systems” was $110 .9 million . The performance of this
           outcome is assessed through 6 performance measures, and in fiscal year 2007, the Department met 83 per­
           cent of their performance targets .




Security
Part II – ANNUAL PERFORMANCE REPORT                                                                                                      97




In fiscal year 2007, the FinCEN experienced a slight increase in the average processing time of cases by 21
days; this increase in processing time resulted in just missing the target of 1 .0 years average time to process
cases . The additional time taken for processing was the result of joint investigations with other enforcement
agencies . In the future, the FinCEN will consider the appropriate amount of time needed for joint enforce­
ment actions when establishing their target for this performance measure .

For the full suite of performance measures and associated information, refer to Appendix A .


Security - moving forward
It is difficult to measure activities related to preventing terrorism, and removing or reducing threats to the
nation’s financial system . Quantitative measures such as assets seized or blocked can be used; however, these
only partially describe the impact of this important work . In fiscal year 2007, the Department began devel­
oping a composite TFI measure that considers important factors related to the impact of economic sanctions
and financial actions, intelligence, law enforcement and regulatory activities, policymaking, and outreach
and diplomacy . In addition, this metric will contain measures and indicators, and a rating system to assess
impact on the two outcomes related to the Department’s goal of preventing terrorism and promoting the
nation’s security through strengthened international financial systems; the development of this measure will
be completed in fiscal year 2008 and will be reviewed with relevant stakeholders .

In fiscal year 2008, the Department will continue to apply pressure against threats to national security, when
diplomatic outreach may be unproductive and traditional military action may be ineffective or inappropriate,
and will leverage its authorities to defend against threats by detecting and excluding those who would use
these systems for illegal purposes or compromise U .S . national security interest, while keeping them free and
open to legitimate users .

During fiscal year 2008, the TFFC will develop strategies to combat rogue regimes and their corresponding
networks, specifically with regards to North Korea, Syria, and Iran, will be developed . In addition, this office
will develop and implement strategies aimed at combating the financial networks that support terrorism,
WMD proliferation, and organized crime in the Western Hemisphere, Africa, and the Middle East-South
Asia nexus . The TFFC will increase its outreach efforts to the financial and charitable sector, domestically
and internationally, to promote development and implementation of effective safeguards to combat terrorist
financing, money laundering, and illicit finance .

In fiscal year 2008, the OIA will continue to address emerging national security issues by expanding the
Department’s analytic cadre, further strengthening cooperation with the IC, leveraging overseas develop­
ment opportunities, creating a permanent intelligence production structure, and enhancing the Treasury
Department’s Intelligence Operations Center . Additionally, this office is strengthening the ability to protect
classified information by building sufficient Sensitive Compartmented Information Facility to meet the
Department’s classified information needs .

The OFAC, in fiscal year 2008, plans to enhance capacity to effectively investigate terrorist networks and
state sponsored terrorism, proliferations of WMD, foreign narcotics trafficking organizations, government
officials that exploit or steal, and other sanction targets . In addition, the OFAC will develop systems to
increase content management capabilities and improve the efficiency of sanctions’ program administration,



                                                                                                           Prevented Terrorism and Promoted
                                                                                                                        the Nation’s Security
98                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




           and will continue their coordination with financial regulators, and the charitable and private sectors to
           increase compliance for those programs .

           The Department strives to enhance the safety and transparency of the U .S . and international financial sys­
           tems . To accomplish this, in fiscal year 2008, the FinCEN will:
              •	 Continue to develop additional memoranda of understanding with a focus on state insurance 

                 commissioners

              •	 Continue to identify BSA compliance trends and patterns industry-wide and publish studies 

                 promoting awareness of emerging money laundering trends and vulnerabilities 

              •	 Continue efforts to enhance BSA regulations to provide clarity and for inclusion in a new chapter of
                 the Code of Federal Regulations
              •	 Continue efforts to match risk-based examination for BSA compliance with actual risks posed by
                 products, services, customers, and geographic locations served by financial institutions
              •	 Reduce excessive regulatory responsibilities to industry regarding BSA programmatic, recordkeeping,
                 and reporting requirements
              •	 Continue enforcement actions against financial institutions for willful violations of BSA requirements,
                 including joint or concurrent actions with federal and state regulatory agencies
              •	 Expand coordination with law enforcement and other regulatory agencies to identify and educate
                 unregistered and/or unlicensed money services businesses
              •	 Increase the focus on cross-border financial crimes
              •	 Begin implementation of advanced analytical and BSA data storage technologies
              •	 Implement innovative web-services and e-filing technologies
              •	 Enrich and standardize BSA data to maximize value for state and federal partners
              •	 Examine integration of BSA data with other state and federal sources
              •	 Establish effective data security and audit technologies to maximize BSA data confidentiality and
                 integrity




Security
Part II – ANNUAL PERFORMANCE REPORT                                                                                                     99




Management - Management and
 MANAGEMENT
Organizational
                                         Performance Cost - $763 Million
               Excellence *For information on calculating cost – see Appendix H
 STRATEGIC GOAL: Management and Organizational Excellence

 STRATEGIC OBJECTIVE:Enabled and effective Treasury Department

 STRATEGIC OUTCOMES AND VALUE CHAIN:
   •  A citizen-centered, results-oriented and strategically aligned organization (Management)
   •  Exceptional accountability and transparency (Management)




The Department of the Treasury strives to maintain public trust and confidence in U .S . and international
economic and financial systems, through exemplary leadership, best-in-class processes, and a culture of
excellence, integrity, and teamwork . The Treasury Department realizes its strategic goals by building a
strong institution that is citizen-centered, results-oriented, and efficient, while actively promoting innova­
tion . The Department works to implement initiatives and programs that benefit the American people .

Management’s responsibility is to create conditions that enable program goals to be accomplished, and
achieve organizational excellence . The Department continues to integrate policies and operational activities
to produce optimal value for the American public .


A citizen-centered, results-oriented and strategically aligned organization
The Treasury Department ensures that taxpayers receive the most efficient and effective use of their tax dol­
lars by building a strong institution that is dedicated to serving the public interest and focused on delivering
results .

Strategic Management - Renewing our Commitment to Excellence: In September of 2007, the
Department of the Treasury released its Strategic Plan for Fiscal Years 2007-2012 . To develop the plan,
the Department worked collaboratively with employees and senior management alike . After the goals and
objectives were developed, the Treasury Department took the opportunity to refine and test these against
a changing global environment . The Department of the Treasury went beyond linking performance to the
budget, and established an integrated management system to monitor continuous improvement and make
changes as necessary .




                                                                                                   Management and Organizational Excellence
100                                                  Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




             Typical strategic planning uses forecasting, based on the realities of today . This type of planning tends to be
             event-driven, and narrowly focused . The Department supplemented this approach by assessing the potential
             effect a wide range of factors could have on its organization . The Treasury Department’s goal is to man­
             age future uncertainty and act effectively in the face of future ambiguity . Understanding the future in the
             context of a broad set of possibilities, the Department tested the robustness of its mission and made some
             important changes to provide the Treasury Department and its stakeholders institutional longevity .

             Executing the Strategic Plan: To accomplish its strategic objectives effectively, the Department of the
             Treasury must link outcomes, strategy, budget, and the production of value into an integrated management
             system . This management system, based on a model of continuous improvement is shown here:




             The Strategic Planning process begins with an understanding of important national priorities and outcomes,
             which are then translated into broadly defined, intended results for the Department, which become strategic
             goals and objectives . Outcomes related to the goals and objectives are articulated, strategies are developed
             to achieve the outcomes, and then measures and indicators are identified to provide the means to assess
             progress .

             Once the Department’s strategic framework was established, performance planning and budgeting is used to
             determine funding that will achieve intended results . Long-term and annual targets for performance mea­
             sures are formulated . Funding will be tied to the level of performance that needs to be achieved . As part of
             the management process, a number of options can be executed to improve value for stakeholders .

             The Treasury Department will then execute and perform according to the plan, tracking progress on
             outcomes, and the cost to achieve them . As part of the Department’s continuous improvement strategy,
             comparisons of actual performance to desired targets and applicable benchmarks will be performed .
             Management will add value by continually striving to make changes that produce the most effective results
             and increased value for the American taxpayer .

             Although the Integrated Management System was developed in fiscal year 2007, with the Strategic Plan, it
             will be implemented during fiscal year 2008 .



Management
Part II – ANNUAL PERFORMANCE REPORT                                                                                                                           101




President’s Management Agenda: The Department of the Treasury is enabled through the principles of the
President’s Management Agenda (PMA) . The PMA is designed to improve management practices across
the federal government and transform it into a results-oriented, efficient, and citizen-centered enterprise .
Executing the PMA involves lowering the cost of doing business through competition, strengthening the
Department’s workforce, improving financial performance, increasing the use of information technology and
e-government capabilities, and integrating budget decisions with performance data .

In fiscal year 2007, the Department continued to be successful in its Human Capital Initiative; for the
Performance Improvement, Competitive Sourcing, Financial Performance, and E-Government Initiatives,
each had mixed results during the year; while the Improper Payments Initiative remained unchanged . In its
first year as a PMA initiative, the Credit Management Initiative received a mixed result rating .

 President’s Management Agenda
                                                   Status                               Fiscal Year 2007 Progress
                     Initiative
                                     FY 2005       FY 2006        FY 2007     Q1               Q2               Q3   Q4

                 Human Capital            Y           G              G         G               G                G    G

           Competitive Sourcing           G           G              Y         Y               R                Y    Y

          Financial Performance           R           R              Y         G               G                G    G

                 E-Government             R           Y              Y         R               G                G    Y

       Performance Improvement            Y           Y              Y         G               G                G    G

             Improper Payments            R           R              R         Y               Y                Y    Y

             Credit Management           N/A        N/A              Y        N/A              G                G    G

                 G   Green for Success         Y   Yellow for Mixed Results        R   Red for Unsatisfactory



Invest in people: The Department uses succession planning to develop emerging leaders . Targeted develop­

ment and training is used to close skill gaps; human capital flexibilities are used to attract and retain a diverse

talent pool . Management recognizes and rewards employees for their contributions toward achieving the

Department’s priorities and outcomes .


In fiscal year 2007, the Treasury Department executed its strategy to invest in its people . The Department’s 

Human Capital management programs were designed to strengthen its workforce by ensuring that diverse 

talent is attracted, developed, and retained .


Attracting Talent: Recruiting a high quality, diverse workforce is a Department priority, which will be 

accomplished by being an employer of choice through enhanced branding and outreach efforts, streamlined 

hiring business processes, and improvements in other key human capital areas that attract talented people .


Developing Talent: The Department of the Treasury develops its workforce to meet current and future 

organizational needs by identifying and developing emerging leaders, closing skills gaps, and building bench

strength, at all levels .


Retaining Talent: To retain its skilled and dedicated employees, the Department identified and removed the 

barriers, and created new career opportunities .

Fiscal year highlights include:





                                                                                                                          Management and Organizational Excellence
102                                                  Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                •	 Reduced the time-to-hire by leveraging web-based hiring solutions and providing improved job 

                   announcements

                •	 Achieved full certification for the Department’s Senior Executive Service (SES) pay-for-performance
                   system to enhance the ability to compete and retain a highly effective executive cadre
                •	 Achieved diversity hiring success through the employment of women and Hispanics, as compared to
                   government-wide numbers
                •	 Addressed the Department’s diversity need by developing a strategy for improving the recruitment of
                   individuals with disabilities, promoting the use of the Department of Labor’s Workforce Recruitment
                   Program, and training managers on providing reasonable accommodations to individuals with
                   disabilities
                •	 Began the process of assessing the competency levels in targeted Mission Critical Occupations to
                   identify current and future needs, which will lead to recruitment and employee development strategies
                   to reduce these gaps

             Invest in Technology: The Department will provide a secure information technology infrastructure, and use
             Enterprise Architecture and Earned Value Management (EVM) to establish the appropriate mix of transac­
             tion processing, and analytic and transformational applications that can be utilized effectively and efficiently
             across the Department and the federal government .

                •	 Capital Planning: Developing and issuing policy, implementing oversight procedures, and instituting
                   EVM metrics is the hallmark of a successful capital planning process . This combined with good
                   governance allows the Treasury Department to effectively manage its IT investment portfolio . The
                   development of solid business cases ensures spending on capital assets directly supports the mission, and
                   provides a return on investment equal to or better than the alternative use of funding . The Office of
                   the Chief Information Officer (OCIO) seeks to strengthen Department-wide processes and utilize best
                   practices for business case development to improve the integrity of reported financial and performance
                   data . In addition, the Department has implemented the best practice of integrating IT investment
                   decisions with security requirements and the Enterprise Architecture framework . It is a Department
                   goal for all portfolio investments to achieve a variance of less than ten percent for cost, schedule, and
                   performance .

                  Implementing EVM processes strengthens the oversight and accountability of IT investments and pro­
                  vides tools to maximize value, manage associated risks, and focus management attention as necessary .
                  In fiscal year 2007, the Department established a formal EVM policy to measure and analyze invest­
                  ment performance, and project and contract management . In addition, to manage large Departmental
                  IT investments more efficiently and effectively, the OCIO expanded oversight of the bureau governance
                  processes, increasing the integration of capital planning, budget, and contract management functions,
                  and provided a Department-wide Project Management training program .

                •	 Enterprise Architecture (EA): The Department of the Treasury, in an effort to realize efficiencies
                   in its processes, gain transparency, and provide a method of analysis for Enterprise-wide information
                   technology decision-making, utilizes an EA framework . This framework will provide a top-down
                   approach in the development of the enterprise structure, mapping and aligning IT development to the




Management
Part II – ANNUAL PERFORMANCE REPORT                                                                                                    103




     Department’s goals and objectives, driving the capital investment processes, and improving security by
     ensuring adherence to standards prior to execution of procurement .
   •	 Privacy: To achieve optimal levels of security, the Department continues to implement enhanced
      polices and practices to safeguard and protect citizen data . In fiscal year 2007, the Department
      launched a privacy awareness training course for all employees .
   •	 Cyber Security: The IG determined that the OCIO was not compliant with the Federal Information
      Security Management Act (FISMA) . The Department’s OCIO Cyber Security Program leads
      Department-wide initiatives to ensure protection of its systems and automated information assets,
      and ensure compliance with FISMA and other applicable federal regulations . In fiscal year 2007, the
      Department met its goal of encrypting 100 percent of its laptops, and continues to progress forward
      with its efforts to properly safeguard all of its information assets . It is the goal of OCIO to achieve 100
      percent compliance with Security Configuration installation and the industry standard of 90 percent
      maintenance by July 2009 .
   •	 E-Government: The E-Government organization provides leadership Department-wide for
      participation in related PMA initiatives . The focus for the organization is to collaborate government-
      wide and identify opportunities for participating in solutions that deliver significant productivity
      and performance gains . Expanding e-government products and services Department-wide improves
      internal efficiencies, increases access and effectiveness, and enhances service to the public .

Improved Financial Performance: During fiscal year 2007, the Treasury Department continued working
towards full compliance with the Federal Manager’s Financial Integrity Act (FMFIA) and Federal Financial
Management Improvement Act (FFMIA), and improved financial management processes to produce accurate
and timely information that supports operating, budget, and policy decisions . In addition, the Department
continues to emphasize the resolution of material weaknesses and completed 92 percent of the planned cor­
rective actions .

Again this year, the Department of the Treasury received an “unqualified” or clean audit opinion on its finan­
cial statements based on the successful three day close at the end of each month and the continuous enhance­
ment of the Department’s Financial Analysis and Reporting System . The Department continued to review
its financial reporting process and perform variance analysis on the quarterly financial statements to ensure its
financial data integrity . The Treasury Department actively participated in various interagency committees and
the Office of Management and Budget (OMB) transformation teams to address government-wide financial
management issues . In addition, the Department worked closely with OMB, the Government Accountability
Office, the FMS, and the Federal Accounting Standards Advisory Board on policy guidance, accounting
standards and practices to improve financial reporting and performance . In fiscal year 2007, the Treasury
Department took additional steps to reconcile material differences on transactions with other federal agencies .

Eliminating Improper Payments: In fiscal year 2007, the IRS continued its robust improvement efforts to
reduce improper payments for the EITC program; the only high risk program in the Treasury Department due to
erroneous payments . In addition to base compliance activities and redesign efforts, the IRS continues to evaluate
new ways of reducing erroneous EITC payments while maintaining participation by eligible taxpayers .

During the 2006 filing season, the IRS prevented approximately $460 million in incorrect refunds by detect­
ing and correcting errors during return processing . For the 2007 filing season, the IRS, through detection



                                                                                                   Management and Organizational Excellence
104                                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




             during processing, prevented over $400 million in incorrect refunds . These errors show a decreasing trend
             attributable to education, return preparation assistance, and electronic filing .

             Improving Credit Management: During fiscal year 2007, the Treasury Department participated, with the
             government’s five major creditor agencies, in an initiative to improve the management of federal credit pro­
             grams . The FMS’s Debt Management Services area specifically addressed delinquent debt collection issues in
             the areas of agency compliance with Debt Collection Improvement Act (DCIA) of 1996, program effective­
             ness and goals for improvement, effective management information reporting, controlling and measuring
             costs, and customer satisfaction . To address and improve agency compliance, Performance Expectation
             Agreements are currently being negotiated .

             During fiscal year 2007, to address this initiative, the Department completed actions to include:
                •	 Establishing a performance measure for debt collection as a percentage of delinquent debt referred to
                   the Treasury Department
                •	 Assessing agency progress toward use of administrative wage garnishment, centralized offset of federal
                   salary payments, and debtor bar provisions of the DCIA
                •	 Establishing benchmarks and goals for controlling costs and determining customer satisfaction
                •	 Utilizing receivable reporting to improve program management

             Competitive Sourcing: Through Competitive Sourcing, the Department of the Treasury utilizes public-private
             competition to effectively deliver services in a more efficient and cost effective manner to the American public .
             Competitive Sourcing allows the Department to look internally and externally for the best way to achieve its
             mission . Since 2003, the Treasury Department has completed a number of competitions to strengthen opera­
             tions related to a variety of commercial activities . In fiscal year 2008, the Department will continue to review
             positions and activities to ensure it is competitive, effective and efficient, and identify potential public-private
             competitions where competitive sourcing can be used effectively to close performance gaps .

             Performance Improvement: The Department of the Treasury’s progress to achieve improved performance has
             been successful . In fiscal year 2007, the Department completed and issued its updated strategic plan for fiscal
             years 2007–2012 . Once the Treasury Department’s plan is approved, the bureaus have one year to revise their
             strategic plans and align them with the Department’s plan . By June 2007, the Office of Strategic Planning
             and Performance Management had conducted strategic planning workshops with all of the bureaus, to develop
             and align their performance goals to the mission and the strategic goals and objectives of the Department .

             In addition, the updated strategic plan introduces the Integrated Management System, which is based on a
             model of continuous improvement, and integrates performance and budgeting . By integrating performance
             and budgeting, the Department will be able to determine the funding level necessary to achieve intended
             results, and options will be executed to produce increased value for stakeholders .

             Program Assessment Rating Tool (PART): Program evaluation is a core management tool used to allocate
             resources and promote efficiency and effectiveness . In addition to regular independent program evaluations
             conducted by the Treasury Department’s bureaus, the Department works with OMB to select program each
             year that will be evaluated or re-evaluated through the PART process . Programs are evaluated every five years
             through this process by the OMB .



Management
Part II – ANNUAL PERFORMANCE REPORT                                                                                                        105




The Table below details, to date, all of the Treasury Department’s programs that have received OMB PART
evaluation ratings . For a full list of PART evaluations see Appendix G .

 Program                                                  Bureau   Year PART Conducted   Rating
 Bank Enterprise Award                                     CDFI           2002           Results Not Demonstrated
 Office of Foreign Assets Control                           DO            2002           Results Not Demonstrated
 Earned Income Tax Credit                                   IRS           2002           Ineffective
 Tax Collection                                             IRS           2002           Results Not Demonstrated
 Consumer Product Safety Commission                        TTB            2002           Adequate
 International Development Association                      DO            2002           Adequate
 Bank Supervision                                          OCC            2002           Effective
 Thrift Supervision                                        OTS            2002           Effective
 Coin Production                                           Mint           2002           Effective
 African Development Fund                                   DO            2003           Results Not Demonstrated
 Administering the Public Debt                             BPD            2003           Effective
 Debt Collection                                           FMS            2003           Effective
 New Currency Manufacturing                                 BEP           2003           Effective
 Office of Technical Assistance                             DO            2003           Adequate
 Global Environment Facility                                DO            2004           Results Not Demonstrated
 Financial and Technical Assistance                        CDFI           2004           Adequate
 FMS Collections                                           FMS            2004           Effective
 IRS Taxpayer Advocate Service                              IRS           2004           Moderately Effective
 IRS Taxpayer Service                                       IRS           2004           Adequate
 New Markets Tax Credit                                    CDFI           2004           Adequate
 Mint Numismatic                                           Mint           2004           Effective
 Asian Development Fund                                     DO            2005           Results Not Demonstrated
 Collect the Revenue Program                               TTB            2005           Effective
 BSA Data Collection, Retrieval and Sharing               FinCEN          2005           Moderately Effective
 FMS Payments                                              FMS            2005           Effective
 IRS Criminal Investigations                                IRS           2005           Moderately Effective
 IRS Examinations                                           IRS           2005           Moderately Effective
 IRS Submission Processing                                  IRS           2005           Moderately Effective
 U .S . Mint Protection Program                            Mint           2005           Effective
 Protection and Accountability                             BEP            2006           Effective
 Bank Secrecy Act Administration                          FinCEN          2006           Results Not Demonstrated
 Bank Secrecy Act Analysis                                FinCEN          2006           Adequate
 Government-wide Accounting and Reporting                  FMS            2006           Moderately Effective
 Health Care Tax Credit Administration                      IRS           2006           Results Not Demonstrated
 IRS Retirement Savings Regulatory Program                  IRS           2006           Adequate
 Tropical Forest Conservation Act                           DO            2007           Moderately Effective
 Debt Restructuring for Heavily Indebted Poor Countries     DO            2007           Moderately Effective

The Treasury Department continues to work towards achieving strong PART scores by: (1) improving goals
and measures; (2) providing a training session that includes an exchange of lessons learned across bureaus;



                                                                                                       Management and Organizational Excellence
106                      Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            and (3) solid evidentiary procedures . Additional details of OMB
                            recommendations and actions planned or underway for each pro­
                            gram can be found in Appendix G of this report .

                            Figure 1, shows the Department’s program performance by the
                            number and percentage of programs in each rating category .

                            Figure 2 shows the percent of the Department’s programs receiving
                            passing PART evaluation ratings, of adequate or better, in the year
                            the programs were PARTed .

              Figure 1      Figure 3 shows the Department’s spending in millions, by rating
                            category .

                            BPD’s Administrative Resource Center (ARC): The OMB’s Line
       100%                 of Business initiative encourages federal agencies to use Shared
       80%                  Service Providers (SSP) for administrative services so they can
       60%                  focus directly on mission-related activities . Over 70 federal
                            entities now employ the services of the ARC, a designated SSP,
       40%
                            to reduce costs by delivering improved services in financial man­
       20%
                            agement, travel, human capital, procurement, and information
          0                 technology .

              Figure 2      The ARC, selected by OMB as a Center of Excellence for the
                            Financial Management Line of Business, provides core financial
                            systems service to 28 federal agencies, including 12 Treasury
                            bureaus and departmental reporting entities . Over the next two
                            years, the ARC plans to complete extensive information technol­
                            ogy infrastructure and software upgrades, resulting in the delay of
                            providing services to new customers until fiscal year 2010 .




              Figure 3




Management
Part II – ANNUAL PERFORMANCE REPORT                                                                                                                      107




 Outcome: A citizen-centered, results-oriented and strategically aligned organization
 Cost of related activities in trying to achieve this outcome: $574,933,070
                                                                Fiscal Year   Fiscal Year           Fiscal Year   Fiscal Year
                      Performance Measure                       2006 Target   2006 Actual   Met?    2007 Target   2007 Actual   Met?
 Number of open material weakness (significant manage­               2             1         N           1            0          N
 ment problems identified by GAO, the IGs and/or the
 Bureaus) (President’s Management Agenda) Targeted for
 Closure in FY 2007
 Complete investigations of EEO complaints within 180             50 .0%       20 .0%        N       50 .0%        51 .6%        Y
 days
 Operating expenses as a percentage of revenue--Consoli­          12 .0%        4 .0%        Y       12 .0%         4 .3%        Y
 dated/Integrated Administrative Management
 Operating Expenses as Percent of Revenue-Financial               12 .0%       17 .0%        N       12 .0%        15 .1%        N
 Mgmt Admin Support Services
 Operating Expenses as Percent of Revenue-Financial               12 .0%       10 .0%        Y       12 .0%         6 .7%        Y
 System, Consulting, and Training
 Injury and illness rate Treasury-ywide; including DO              2 .8           1          Y         2 .6        Est 1 .4      Y
 Percent of complainants informally contacting EEO (for            25%          25%          Y       30 .0%        29 .0%        N
 the purposes of seeking counseling or filing a complaint)
 who participate in the ADR process
 Management cost per Treasury employee ($) (E)                   $40 .27       $40 .59       N       $38 .21       $29 .64       Y
 (DISCONTINUED FISCAL YEAR 2008)
 KEY: Some measures have estimates for their actual fiscal year data – due to information not available at the time of publication
 of this document .



In fiscal year 2007, the Treasury Department’s estimated cost in trying to achieve the outcome “a citizen-
centered, results-oriented and strategically aligned organization” was $574 .9 million . The performance of
this outcome is assessed through 8 performance measures, and in fiscal year 2007, the Department met 63
percent of their performance targets .

The outcome “citizen-centered, results-oriented and strategically aligned organization” had 3 additional
performance measures not listed in the chart above . The results from these measures are tied directly to
the ACSI customer satisfaction survey, for the Treasury Franchise Fund, which was not completed this year .
They are currently annual performance measurements; however, they are under consideration to be changed
to semi-annual measurements for fiscal year 2008 .

For the full suite of performance measures and associated information, refer to Appendix A .


Exceptional accountability and transparency
Operations improve as a result of using clear and understandable reporting, proper internal controls, mean­
ingful performance measures, continuous assessment to achieve desired outcomes, and effective management .

Managing for Accountability: Achieving and maintaining exemplary accountability and transparency
is critical for the Treasury Department, as the primary financial agency for the U .S . Government . The
Department follows proper internal controls that serve to deter and eliminate fraud, waste, and abuse, while
increasing efficiency and effectiveness .



                                                                                                                     Management and Organizational Excellence
108                                                  Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




             The two independent Offices of the Inspector Generals and other examiners conduct audits and inves­
             tigations, abuses, and deficiencies in the Department’s programs, and recommend appropriate corrective
             actions . The Office of the Inspector General (OIG) performs audit and investigative responsibility for all
             organizations within the Treasury Department, except the IRS . The Treasury Inspector General for Tax
             Administration’s (TIGTA) audit and investigation services protect and promote the fair administration of the
             tax system and ensure that the IRS is accountable to the administration of internal revenue laws . Both IGs
             keep the Congress, the Secretary of the Treasury, and bureaus and Departmental management informed on
             issues, problems, and deficiencies in administering Department programs and operations, and any necessary
             corrective actions .

             Good management begins with accountability and responsibility for the people, property, and money that
             the Department manages . Internal control is a key tool to fulfill the Treasury Department’s obligations to
             the American people . It serves as the first line of defense in safeguarding assets and preventing and detecting
             errors and fraud .

             OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix A, Internal Control
             over Financial Reporting: The Treasury Department continues to strengthen and improve the execution of
             its mission through the application of sound internal controls over financial reporting .

             In fiscal year 2007, testing and assessments were completed Department-wide . No new material weaknesses
             were found through the assessment of financial reporting under A-123, Appendix A; however, the IRS con­
             tinues to address issues related to its revenue accounting system, one of its material weaknesses .

             The OIG auditors conduct financial, performance, and information technology audits within the Treasury
             Department . These audits are intended to save taxpayer dollars, improve the Department’s effectiveness and
             efficiency, and help prevent waste and detect fraud and abuse in Department programs and operations .

             The OIG investigators conduct a variety of investigations, including financial crimes, corruption, general
             crime, and employee misconduct . Additionally, the OIG investigators promote crime prevention and integ­
             rity awareness among the Department’s employees .

             During fiscal year 2007, the OIG completed 64 audit products and referred 188 cases for criminal, civil, or
             administrative action . Achievements included:
                •	 An OIG audit found the OFAC failed to complete enforcement actions on 295 cases during the period
                   under review; the potential penalty assessments for these cases totaled $3 .87 million . The OFAC has
                   planned or taken actions to improve penalty processing .
                •	 Following Hurricanes Katrina and Rita, an OIG audit noted areas where emergency procedures could
                   be enhanced to improve the timeliness and consistency of assessments of the financial institutions
                   operational conditions; the Department’s regulators agreed to modify their emergency procedures .
                •	 The OIG, with other investigative agencies, initiated a project to identify potentially fraudulent
                   federal benefit and assistance payments; resulting in the arrest of 20 individuals, the conviction of 14
                   individuals, with total restitution exceeding $530,950 and recoveries exceeding $85,404 .
                •	 A retired BEP employee was sentenced to nine months of incarceration, three years of supervised
                   release, and ordered to pay restitution of $37,200 as a result of a 2006 plea agreement to a guilty charge



Management
Part II – ANNUAL PERFORMANCE REPORT                                                                                                      109




     of possession of tools and materials for counterfeiting purposes, in connection with the theft of a
     number of partially printed sheets of $100 bills .
   •	 A joint OIG and U .S . Secret Service investigation resulted in the conviction of an individual related to
      a defrauding scheme in which the individual attempted to negotiate two fictitious financial obligations,
      one for $2 .9 million and the second for $5 .5 million, at different credit union locations in Washington,
      DC . In August, 2007, a federal jury found the individual guilty on one count of bank fraud and two
      counts of uttering fictitious obligations . The individual faces a maximum of 25 years in prison .
   •	 A joint OIG/FDIC investigation led to the conviction of three former Hamilton Bank executives for
      their participation in a scheme to fraudulently inflate the reported results of operations and financial
      condition of the bank and defraud the investing public and bank/securities regulators . In July 2006,
      two of the three were sentenced to 28 months incarceration, and in October 2006, all three were
      ordered to make restitution in the aggregate amount of $14,546, 569 . In addition, the third individual
      was ordered to make additional restitution of $17,233,345 .
   •	 The OIG, along with the Department of Labor’s OIG and the FBI, investigated a case of workers’
      compensation fraud perpetrated by a BEP employee . In February, 2007, the individual was found
      guilty on three counts of making false statements to obtain workers’ compensation, three counts of wire
      fraud, and one count of making false statements . In May, 2007, the former employee was sentenced to
      three years incarceration and three yeas supervised release and ordered to pay restitution of $290,000 .
   •	 An OIG investigation determined that a senor-level Department official engaged in sports gambling
      activities while on duty and issued a government credit card to further the illicit activities . The official
      resigned in November 2006 after being given notice proposing removal .

The TIGTA’s audit and investigative services promote and protect the fair administration of the internal rev­
enue laws, and their oversight is essential to the efficiency and equity of the federal tax administration system .

The TIGTA has two primary offices - the Office of Audit (OA) and the Office of Investigations (OI) . These
offices assist in maintaining taxpayers’ confidence in the federal tax system by ensuring that the IRS is man­
aged fairly and effectively, and violators of the public’s trust are detected and appropriately sanctioned .

Audit Program: The OA mission is to provide comprehensive coverage and oversight of all aspects of the
IRS’s daily operations . In addition, OA’s audits focus on the economy and efficiency of IRS functions, and
ensure taxpayers’ rights are protected and the taxpaying public is adequately served .

Each fiscal year, the OA develops an annual audit plan that communicates oversight priorities to Congress,
the Department, and the IRS . This office’s emphasis is on the major management challenges facing the IRS,
its progress in achieving strategic goals, eliminating systemic weaknesses, and response to the PMA initiatives .
By focusing on these critical areas, the OA ensures that TIGTA audits identify and recommend improve­
ments in IRS programs . In fiscal year 2007, the TIGTA issued 180 audit reports; highlights include:
   •	 Produced financial benefits of more than $3 .5 billion, and approximately 5 .7 million taxpayer accounts
      impacted in areas such as taxpayer burden, rights, and entitlements, as well as increased revenue/
      revenue protected, privacy, security, and protection of resources and reliability of information




                                                                                                     Management and Organizational Excellence
110                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                •	 Completed an assessment of the processing of individual income tax returns reporting deductions
                   for non-cash charitable contributions; it is estimated that 101,236 taxpayers could have claimed
                   unsubstantiated non-cash contributions totaling approximately $1 .8 billion
                •	 Completed an audit finding IRS employees lost at least 490 computers between January 2003 and June
                   2006, they did not properly encrypt data on the computer devices, and password controls over laptop
                   computers were not adequate; resulting in the likelihood that sensitive data for a significant number of
                   taxpayers had been unnecessarily exposed to potential identity theft and/or fraudulent schemes
                •	 Completed a review that found 77 percent of IRS employee and 72 percent of contractor employee
                   background investigations were not completed within established IRS baselines; resulting in an
                   increased risk that the IRS may be hiring unsuitable employees

             Investigations Program: The TIGTA has the statutory responsibility to protect the integrity of tax adminis­
             tration and ability of the IRS to collect revenue for the federal government . To accomplish this, the TIGTA’s
             OI investigates allegations of criminal violations and administrative misconduct by employees, ensures
             employee safety and data and infrastructure security, and protects against external attempts to corrupt tax
             administration .
                •	 Employee Integrity: The IRS’s ability to deliver taxpayer service, enforce tax laws effectively, and
                   collect the proper amount of taxes can be undermined by employee misconduct; over 50 percent
                   of current investigations involve alleged employee misconduct . These investigations of employee
                   misconduct include extortion, theft, taxpayer abuse, false statements, financial fraud, and unauthorized
                   access to confidential taxpayer records . In fiscal year 2007, approximately 81 percent of the 3,597
                   closed investigations generated positive results, including 1,663 cases of employee misconduct referred
                   for action and 206 cases accepted for criminal prosecution . In addition, the TIGTA opened 521 new
                   unauthorized access cases and closed 621 cases, 594 of which resulted in personnel action against IRS
                   employees .
                •	 Employee and Infrastructure Security: The TIGTA maintains IRS employee and infrastructure
                   security by conducting investigations of employees, facilities, and infrastructure that are sabotaged,
                   threatened, or assaulted . Potential threats to tax administration are identified by the TIGTA’s
                   administration of a Criminal Intelligence Program which utilizes law enforcement and intelligence
                   resources to proactively identify individuals and groups who may pose a threat to tax administration .
                •	 External Attempts to Corrupt Tax Administration: External attempts to corrupt tax administration
                   impede the IRS’s ability to collect revenue . The TIGTA’s investigations include bribes offered by
                   taxpayers to compromise IRS employees, the use of fraudulent IRS documentation to commit crimes,
                   taxpayer abuse by tax practitioners, impersonation of IRS employees, and the corruption of IRS
                   programs through procurement fraud . Taking a proactive approach and providing integrity and fraud
                   awareness presentations, can help reduce external attempts to corrupt tax administration . During fiscal
                   year 2007, the TIGTA worked to educate tax professionals by providing 101 awareness presentations to
                   8,784 tax practitioners and preparers at professional conferences .

             Highlights of the TIGTA’s investigations resulting in significant prosecutions or outcomes:
                •	 A national bank agreed to pay $16 .5 million in settlement claims related to the 2001 destruction of
                   tens of thousands of individual tax returns and checks that the bank was to process as an agent for the



Management
Part II – ANNUAL PERFORMANCE REPORT                                                                                                                      111




     Treasury Department; this settlement reimburses the federal government for lost interest on destroyed
     checks and costs incurred to obtain replacement checks from affected taxpayers
   •	 An individual was sentenced to a term of 51 months of imprisonment, $1,322,582 in restitution, and
      three years of supervision upon the release from prison, after pleading guilty to mail fraud, attempting
      to defeat the payment of tax, and impersonation
   •	 An employee of Public Affairs International, Inc . (PAI), pleaded guilty to conspiracy to defraud the
      United States and obstruction of a federal audit . From 2000 – 2003, as a result of false invoices from
      PAI employees’ under-reporting tax forum income and over-reporting expenses, creating no surplus
      income to apply to the management fees, the IRS paid PAI management fees totaling approximately
      $1,379,630


 Outcome: Exceptional transparency and accountability
 Cost of related activities in trying to achieve this outcome: $188,120,830
                                                                Fiscal Year   Fiscal Year           Fiscal Year   Fiscal Year
                      Performance Measure                       2006 Target   2006 Actual   Met?    2007 Target   2007 Actual   Met?
 Percent of statutory audits completed by the required date       100%          100%         Y        100%          100%         Y
 Percentage of Audit Products Delivered When Promised              N/A           N/A        N/A      Baseline      68 .0%        Y
 to Stakeholders
 Percentage of Recommendations Made That Have Been                 N/A           N/A        N/A      Baseline      90 .0%        Y
 Implemented
 Percentage of Results from Investigative Activities             70 .0%        79 .0%        Y       73 .0%        81 .0%        Y
 Audit opinion received on government-wide financial               Met           Met         Y         1 .0        Est 1 .0      Y
 statements
 Number of completed audit products                                 56            57         Y          56            64         Y
 Number of investigations referred for criminal prosecu­            85           144         Y         105           188         Y
 tion, civil litigation or corrective administrative action
 KEY: Some measures have estimates for their actual fiscal year data – due to information not available at the time of publication
 of this document .



In fiscal year 2007, the Treasury Department’s estimated cost in trying to achieve the outcome to achieve the
outcome “exceptional accountability and transparency” was $188 .1 million . The performance of this out­
come is assessed through 7 performance measures, and in fiscal year 2007, the Department met 100 percent
of them .

Although the OIG exceeded its performance target for the measure “Number of investigations referred for
criminal prosecution, civil litigation or corrective administrative action,” by 79 percent, this increase was the
result of the one time action of 70 referrals from a GAO investigation into Metro Check fraud .

For the full suite of performance measures and associated information, refer to Appendix A .


Management – moving forward
In fiscal year 2008, the Department will update the Human Capital Strategic Plan, incorporating the Diversity
Strategic Plan . The new HC Strategic Plan will align to and integrate with the revised Treasury Strategic Plan
for Fiscal Years 2007 – 2012 . The focus will continue on strategies to recruit, develop, and retain a high



                                                                                                                     Management and Organizational Excellence
112                          Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                               quality and diverse workforce, ensure continuity of
                                               leadership through effective succession management,
                                               enhance the value of HC workforce metrics, and
                                               improve HC management through feedback from
                                               agency-led HC management accountability reviews .
                                               In addition, the Treasury Department will have an
                                               HC Operating Plan with goals and initiatives that
                                               leverage current best practices, from internal and
                                               external organizations, for use by the bureaus for HC
                                               Strategic Management, and to generate new practices
                                               as a result of the collaborative activities that include
                                               transforming the role of the Human Capital profes­
                                               sional from a processing role to a more consultative/
                                               strategic partner .

                                               The Federal Human Capital Survey (FHCS): The
                                               FHCS reflects gathered data of federal employees’
         90%
                                               perceptions of workforce management conditions and
         75%                                   practices in their agencies . The survey assesses the
         60%                                   state of human capital management across the federal
                                               government and provides agency managers with
         45%
                                               useful information for improving agency management
         30%                                   practices . In addition to giving important
         15%                                   information about employee perceptions, the FHCS
             0%                                results provide valuable insight into what drives,
                                               motivates, and sustains exceptional performance and
                                               commitment to public service .

                  Figure 4                     The FHCS, administered by the Office of Personnel
                                               Management every two years, consists of 7 categories,
                                               with 7-10 questions in each . The chart below trends
                                               positive response data from the survey years of 2002,
         80%
         70%
                                               2004, and 2006, Department-wide as compared to
         60%                                   government-wide . Results indicate that employee
         50%                                   perceptions at the Treasury Department are consistent
         40%                                   with those of other federal employees in other
         30%                                   agencies . Data also indicates Department results are
         20%                                   slightly above 50 percent for positive responses in 4 of
         10%                                   the 7 categories . (See Figures 4 and 5.)
             0%
                                               To address survey results, many Department bureaus
                                               are implementing action plans that focus on areas
                                               for improvement . The Treasury Department’s goal is
                  Figure 5                     to attract and retain the best available talent and be




Management
Part II – ANNUAL PERFORMANCE REPORT                                                                                                   113




ranked high on list of the Partnership for Public Service’s “Best Places to Work in the Federal Government,”
enabling the Department to be seen as an employer of choice . To achieve this goal the Department of the
Treasury conducted an analysis of the FHCS results and identified areas that can positively impact Treasury’s
standing among other employers .

For fiscal year 2008, the Treasury Department’s IT leadership will continue to address areas for improvement,
such as improving its FISMA performance, strengthening the use of EVM in capital planning processes,
addressing the challenges of managing both major and non-major IT investments, and protecting personal
privacy . The OCIO will strategically leverage the resources and expertise within the Department to focus on
meeting the requirements in each initiative .

During fiscal year 2008, the Office of Strategic Planning and Performance Management will continue work­
ing with the Department’s bureaus and policy offices to develop meaningful performance measures that will
be used in formulating their strategic goals and objectives .

In addition, the Department of the Treasury will begin implementing the Integrated Management System .
With the strategic framework in place, performance planning and budgeting is used to determine funding
to achieve intended results . Long-term and annual targets for performance measures will be formulated and
funding will be tied to the level of performance necessary to achieve the Treasury Department’s objectives .
As part of the Department’s continuous improvement strategy, benchmarks will be established to compare
actual performance to targets . Management will add value by developing solutions that will produce effective
results and increased value for the American taxpayer .

The Department of the Treasury will continue to develop acceptable and meaningful performance mea­
sures for its policy offices, to demonstrate that it is achieving its strategic outcomes . By 2009, it is the
Department’s goal to have less than ten percent of its program dollars rated as not demonstrating results .

Although noting areas of progress, the IG issued the annual management and performance challenges
memorandum to the Secretary of the Treasury citing five repeat challenges which continue to represent risk
to the Department’s operations and its mission responsibilities . These challenges are:
   1 . Corporate Management
   2 . Management of Capital Investments
   3 . Information Security
   4 . Linking Resources to Results
   5 . Anti-money Laundering and Terrorist Financing/BSA Reporting

The TIGTA is faced with the challenge of adapting its oversight activities to increasingly complex and high-
risk issues associated with growing IRS operations; these issues include detection and investigation of crimes
in an electronic environment, fraudulent procurement activities, violations of taxpayer privacy, and the
increasing number of requests for IRS program reviews from Congress and other stakeholders .

In fiscal year 2008, the OIG will continue to focus its resources on auditing Treasury Department programs
that combat terrorist financing and money laundering .




                                                                                                  Management and Organizational Excellence
114                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




             In fiscal year 2008, the TIGTA will ensure continuous improvement in audit recommendations and plans to:
                •	 Continue addressing major management challenges such as security of the IRS, taxpayer protection and
                   rights, and providing quality taxpayer service operations
                •	 Monitor the IRS’s modernization efforts to identify challenges it may encounter in implementing new
                   programs and information systems
                •	 Continue to investigate complaints of wrongdoing that could potentially impact the integrity of tax
                   administration
                •	 Continue to conduct investigations in employee integrity, employee and infrastructure security, and
                   external attempts to corrupt tax administration
                •	 Conduct integrity awareness presentations to IRS employees, law enforcement agencies, tax

                   practitioners and community groups





Management
Part III: 

Annual Financial Report

PAGES 116-132 INTENTIONALLY LEFT BLANK
Part III – Annual Financial Report                                                                                                            133




                                                          Consolidated Balance Sheets
                                                              As of September 30, 2007 and 2006
                                                                          (In Millions)
ASSETS                                                                                                2007            2006
Intra-governmental Assets
      Fund Balance (Note 2)                                                                  $       74,767   $      71,153
      Loans and Interest Receivable (Note 3)                                                        236,932         245,206
      Advances to the Black Lung Trust Fund (Note 4)                                                 10,058           9,632
      Due From the General Fund (Note 4)                                                          9,052,624       8,540,195
      Accounts Receivable and Related Interest (Note 10)                                                466             483
      Other Intra-governmental Assets                                                                    32              78
Total Intra-governmental Assets                                                                   9,374,879       8,866,747
Cash, Foreign Currency, and Other Monetary Assets (Note 5)                                           92,330          63,892
Gold and Silver Reserves (Note 6)                                                                    11,062          11,062
Loans and Interest Receivable (Note 3)                                                                  175             288
Investments and Related Interest (Note 7)                                                            10,074           9,325
Reserve Position in the International Monetary Fund (Note 8)                                          4,464           6,621
Investments in International Financial Institutions (Note 9)                                          5,521           5,488
Tax, Other and Related Interest Receivables, Net (Note 10)                                           27,559          21,962
Inventory and Related Property, Net (Note 11)                                                           638             389
Property, Plant, and Equipment, Net (Note 12)                                                         2,086           2,182
Other Assets                                                                                             19              22
Total Assets (Note 13)                                                                       $    9,528,807   $   8,987,978
Heritage Asset (Note 12)

LIABILITIES
Intra-governmental Liabilities
       Federal Debt and Interest Payable (Notes 4 & 14)                                      $    3,974,788   $   3,673,117
       Other Debt and Interest Payable (Note 14)                                                     14,164          14,164
       Due to the General Fund (Note 4)                                                             328,973         306,352
       Other Intra-governmental Liabilities (Note 17)                                                   329             301
Total Intra-governmental Liabilities                                                              4,318,254       3,993,934
Federal Debt and Interest Payable (Notes 4 & 14)                                                  5,054,250       4,844,074
Certificates Issued to Federal Reserve Banks (Note 5)                                                 2,200           2,200
Allocation of Special Drawing Rights (Note 5)                                                         7,627           7,234
Gold Certificates Issued to Federal Reserve Banks (Note 6)                                           11,037          11,037
Refunds Payable (Notes 4 & 21)                                                                        1,684           1,701
D.C. Pensions Actuarial Liability (Note 15)                                                           8,992           9,068
Other Liabilities (Note 17)                                                                           3,664           3,816
Total Liabilities (Note 17)                                                                       9,407,708       8,873,064
       Commitments & Contingencies (Notes 3, 5, 12, & 16 )
NET POSITION
Unexpended Appropriations:
      Earmarked funds (Note 22)                                                                        200             202
      Other funds                                                                                   72,117          68,068
      Subtotal                                                                                      72,317          68,270
Cumulative Results of Operations:
      Earmarked funds (Note 22)                                                                      35,385          31,614
      Other funds                                                                                    13,397          15,030
      Subtotal                                                                                       48,782          46,644
Total Net Position (Note 18)                                                                 $      121,099   $     114,914
Total Liabilities and Net Position                                                           $    9,528,807   $   8,987,978

 The accompanying notes are an integral part of these financial statements




                                                                                                                              Financial Statements
134                                                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                                                          Consolidated Statements of Net Cost
                                                                            For the Years Ended September 30, 2007 and 2006
                                                                                                (In Millions)


                                                                                                                                       2007                        2006
                       Cost of Treasury Operations (Note 19):
                       Financial Program:
                       Gross Cost                                                                                           $        13,980            $         17,496
                       Less Earned Revenue                                                                                            (2,245)                    (5,083)
                       Net Program Cost                                                                                     $        11,735            $         12,413

                       Economic Program:
                       Gross Cost                                                                                           $          5,660           $          2,339
                       Less Earned Revenue                                                                                            (6,116)                    (1,151)
                       Net Program Cost                                                                                     $           (456)          $          1,188

                       Security Program
                       Gross Cost                                                                                           $            302           $              0
                       Less Earned Revenue                                                                                                 (2)                        0
                       Net Program Cost                                                                                     $            300           $              0

                       Management Program
                       Gross Cost                                                                                           $            883           $            987
                       Less Earned Revenue                                                                                              (443)                      (559)
                       Net Program Cost                                                                                     $            440           $            428

                       Total Program Gross Costs                                                                            $        20,825            $         20,822
                       Total Program Gross Earned Revenues                                                                            (8,806)                    (6,793)
                       Total Net Cost of Treasury Operations                                                                $        12,019            $         14,029


                       Federal Costs (Note 19):
                       Federal Debt Interest                                                                                $       432,153            $       403,459
                       Less Interest Revenue from Loans                                                                              (11,714)                   (12,593)
                       Net Federal Debt Interest Costs                                                                      $       420,439            $       390,866

                       Other Federal Costs                                                                                  $          8,863           $          8,940

                       Net Federal Costs                                                                                    $       429,302            $       399,806

                       Net Cost of Treasury Operations, Federal Debt Interest, and Other Federal Costs                      $       441,321            $       413,835

                        The accompanying notes are an integral part of these financial statements.




Financial Statements
Part III – Annual Financial Report                                                                                                                                  135




                                      Consolidated Statement of Changes in Net Position
                                                            For the Year Ended September 30, 2007
                                                                           (In Millions)

                                                                               Combined
                                                                              Earmarked       Combined All                          Consolidated
                                                                                  Funds        Other Funds       Eliminations               Total
UNEXPENDED APPROPRIATIONS
Beginning Balances                                                      $          202    $        68,068                       $        68,270

Budgetary Financing Sources:
      Appropriations Received (Note 18)                                            390           450,832                                451,222
      Appropriations Transferred In/Out                                              0                 27                                     27
      Other Adjustments                                                             (2)              (143)                                 (145)
      Appropriations Used                                                         (390)         (446,667)                             (447,057)
Total Budgetary Financing Sources                                                   (2)             4,049                                 4,047
Total Unexpended Appropriations                                         $          200    $        72,117                       $        72,317


CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                      $       31,614    $        15,030    $             0    $        46,644

Budgetary Financing Sources:
      Appropriations Used                                                          390           446,667                   0            447,057
      Non-exchange Revenue                                                         109                  7                (43)                 73
      Donations and Forfeitures of Cash/Equivalent                                 210                  0                  0                210
      Transfers In/out Without Reimbursement                                         0                 (8)                 0                  (8)
      Other                                                                         (1)                 0                  0                  (1)
Other Financing Sources (non exchange)
      Donation/Forfeiture of Property                                               73                  0                  0                  73
      Accrued Interest & Discount on Debt                                            0              7,632                  0              7,632
      Transfers In/out Without Reimbursement                                       (39)                15                  0                 (24)
      Imputed Financing Sources                                                     60              1,172              (492)                740
      Transfers to the General Fund and Other (Note 18)                            205            (12,498)                 0            (12,293)
Total Financing Sources                                                          1,007           442,987               (535)            443,459
Net Cost of Operations                                                           2,764          (444,620)                535          (441,321)
Net Change                                                                       3,771             (1,633)                 0              2,138

Cumulative Results of Operations                                        $       35,385    $        13,397    $             0    $        48,782

Net Position                                                            $       35,585    $        85,514    $             0    $       121,099

 The accompanying notes are an integral part of these financial statements.




                                                                                                                                                    Financial Statements
136                                                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                                             Consolidated Statement of Changes in Net Position
                                                                                   For the Year Ended September 30, 2006
                                                                                                  (In Millions)

                                                                                                      Combined
                                                                                                     Earmarked    Combined All                                Consolidated
                                                                                                         Funds     Other Funds            Eliminations                Total
                       UNEXPENDED APPROPRIATIONS
                       Beginning Balance                                                        $         202     $     62,980                            $        63,182

                       Budgetary Financing Sources:
                             Appropriation Received (Note 18)                                             298          417,468                                    417,766
                             Appropriations Transferred In/Out                                               0              14                                          14
                             Appropriations Used                                                          (298)       (412,116)                                  (412,414)
                             Other Adjustments                                                               0             (278)                                      (278)
                       Total Budgetary Financing Sources                                                     0           5,088                                      5,088
                       Total Unexpended Appropriations                                          $         202     $     68,068                            $        68,270


                       CUMULATIVE RESULTS OF OPERATIONS
                       Beginning Balances                                                       $      30,817     $     21,309        $             0     $        52,126

                       Budgetary Financing Sources:
                             Appropriations Used                                                          298          412,116                      0             412,414
                             Non-exchange Revenue                                                          76               10                    (30)                  56
                             Donations and Forfeitures of Cash/Equivalent                                  79                 0                     0                   79
                             Transfers In/Out without Reimbursement                                          0              (28)                    0                  (28)
                             Other                                                                         (12)             (37)                    0                  (49)
                       Other Financing Sources
                             Donation/Forfeiture of Property                                               61                 0                     0                   61
                             Accrued Interest & Discount on Debt                                             0           8,991                      0               8,991
                             Transfers In/Out Without Reimbursement                                        (45)             21                      0                  (24)
                             Imputed Financing Sources                                                     57            1,145                   (470)                732
                             Transfers to the General Fund and Other (Note 18)                             (69)        (13,810)                     0             (13,879)
                       Total Financing Sources                                                            445          408,408                   (500)            408,353
                       Net Cost of Operations                                                             352         (414,687)                   500            (413,835)
                       Net Change                                                                         797            (6,279)                    0               (5,482)
                       Cumulative Results of Operations                                         $      31,614     $     15,030        $             0     $        46,644
                       Net Position                                                             $      31,816     $     83,098        $             0     $       114,914

                        The accompanying notes are an integral part of these financial statements.




Financial Statements
Part III – Annual Financial Report                                                                                                                  137




                                          Combined Statements of Budgetary Resources
                                                     For the Years Ended September 30, 2007 and 2006
                                                                         (In Millions)


                                                                                                         2007             2006
Budgetary Resources
Unobligated balance, brought forward                                                               $    57,540    $     64,670
Recoveries of prior year unpaid obligations                                                               474               380
Budget authority:
   Appropriations (Note 18)                                                                            465,200         437,427
   Borrowing authority                                                                                     11                12
   Spending authority from offsetting collections:
      Earned:
          Collected                                                                                      9,937            9,310
          Change in receivables from Federal sources                                                       (66)              19
   Change in unfilled customer orders:
      Advance received                                                                                     17                25
      Without advance from Federal sources                                                                (125)              (51)
   Subtotal                                                                                            474,974         446,742
Non-expenditure transfers, net                                                                             25               134
Temporarily not available pursuant to Public Law                                                           90            (3,671)
Permanently not available                                                                              (10,123)          (5,164)
Total Budgetary Resources                                                                          $   522,980    $    503,091


Status of Budgetary Resources
Obligations incurred:
   Direct                                                                                          $   460,999    $    440,798
   Reimbursable                                                                                          4,531            4,753
   Subtotal                                                                                            465,530         445,551
Unobligated Balance:
   Apportioned                                                                                          13,525          14,309
   Exempt from apportionment                                                                            32,930          32,784
   Subtotal                                                                                             46,455          47,093
Unobligated balance not available                                                                       10,995          10,447
Total Status of Budgetary Resources                                                                $   522,980    $    503,091

 The accompanying notes are an integral part of these financial statements.


                                                                                                                      (continued)




                                                                                                                                    Financial Statements
138                                                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                                                 Combined Statements of Budgetary Resources
                                                                            For the Years Ended September 30, 2007 and 2006
                                                                                                (In Millions)

                       (Continued)
                                                                                                                                         2007                      2006


                       Change in Obligated Balance
                       Obligated balance, net:
                          Unpaid obligations brought forward, Oct. 1                                                           $       53,057            $       46,381
                          Uncollected customer payments from Federal sources brought forward                                             (609)                     (643)
                       Total unpaid obligated balance, net                                                                             52,448                    45,738
                       Obligations incurred, net                                                                                     465,530                   445,551
                       Gross outlays                                                                                                 (460,302)                 (438,494)
                       Recoveries of prior year unpaid obligations, actual                                                               (474)                     (380)
                       Change in uncollected customer payments from Federal sources                                                       191                        33
                       Obligated balance, net, end of period:
                          Unpaid obligations 
                                                                                         57,811                    53,057
                          Uncollected customer payments from Federal sources
                                                            (418)                     (609)
                       Total, unpaid obligated balance, net, end of period                                                             57,393                    52,448


                       Net Outlays
                          Gross outlays
                                                                                             460,302                   438,494
                          Offsetting collections
                                                                                       (8,192)                  (8,899)
                          Distributed offsetting receipts
                                                                            (16,040)                  (16,568)
                       Net Outlays                                                                                             $     436,070             $     413,027

                        The accompanying notes are an integral part of these financial statements.




Financial Statements
Part III – Annual Financial Report                                                                                                                   139




                                                       Statements of Custodial Activity
                                                     For the Years Ended September 30, 2007 and 2006
                                                                         (In Millions)


                                                                                                           2007             2006

Sources of Custodial Revenue (Note 21):

Revenue Received

Individual Income and FICA Taxes                                                                 $     2,201,464    $   2,034,209
Corporate Income Taxes                                                                                  395,320          380,426
Estate and Gift Taxes                                                                                    26,978           28,688
Excise Taxes                                                                                             67,766           72,774
Railroad Retirement Taxes                                                                                 4,718            4,673
Unemployment Taxes                                                                                        7,416            7,533
Deposit of Earnings, Federal Reserve System                                                              32,043           29,945
Fines, Penalties, Interest & Other Revenue                                                                3,084            3,324
Total Revenue Received                                                                                 2,738,789        2,561,572


Less Refunds                                                                                            (292,684)        (277,778)
Net Revenue Received                                                                                   2,446,105        2,283,794


Accrual Adjustment                                                                                        5,588              554
Total Custodial Revenue                                                                                2,451,693        2,284,348


Disposition of Custodial Revenue:

Amounts Provided to Fund Non-Federal Entities                                                               486              374
Amounts Provided to Fund the Federal Government (Note 21)                                              2,445,619        2,283,420
Accrual Adjustment                                                                                        5,588              554
Total Disposition of Custodial Revenue                                                                 2,451,693        2,284,348
Net Custodial Revenue                                                                            $             0    $           0

 The accompanying notes are an integral part of these financial statements.




                                                                                                                                     Financial Statements
140                                                               Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Notes to the
                          Financial Statements

                          1. Summary of Significant Accounting Policies

                          A. Reporting Entity
                          The accompanying financial statements include the operations of the U .S . Department of the Treasury
                          (Treasury Department), one of 25 Cabinet level agencies of the Executive Branch of the United States
                          Government, and certain custodial activities managed on behalf of the entire U .S . government . The follow­
                          ing paragraphs describe the activities of the reporting entity .

                          The Treasury Department was created by Act (1 Stat .65) on September 2, 1789 . Many subsequent acts
                          have affected the development of Treasury, delegating new duties to its charge and establishing the numer­
                          ous bureaus and divisions that now comprise the Treasury Department . As a major policy advisor to the
                          President, the Secretary has primary responsibility for formulating and managing the domestic and interna­
                          tional tax and financial policies of the U .S . Government .

                          Further, the Secretary is responsible for recommending and implementing United States domestic and inter­
                          national economic and fiscal policy; governing the fiscal operations of the government; maintaining foreign
                          assets control; managing the federal debt; collection of income and excise taxes; representing the United
                          States on international monetary, trade and investment issues; overseeing Departmental overseas operations;
                          and directing the activities of the Treasury Department in manufacturing coins, currency, and other products
                          for customer agencies and the public .

                          The Treasury Department includes Departmental Offices (DO) and nine operating bureaus . For financial
                          reporting purposes, DO is comprised of: International Assistance Programs (IAP), Office of Inspector
                          General (OIG), Treasury Forfeiture Fund, Treasury Franchise Fund, Exchange Stabilization Fund (ESF),
                          Community Development Financial Institutions Fund (CDFI), Office of D .C . Pensions (DCP), Treasury
                          Inspector General for Tax Administration (TIGTA), the Federal Financing Bank (FFB) and the Air
                          Transportation Stabilization Board (ATSB) .

                          The Treasury Department’s nine operating bureaus are: Office of the Comptroller of the Currency (OCC);
                          Bureau of Engraving and Printing (BEP); Financial Crimes Enforcement Network (FinCEN); Financial
                          Management Service (FMS); Internal Revenue Service (IRS); U .S . Mint (Mint); Bureau of the Public Debt
                          (BPD); Office of Thrift Supervision (OTS), and the Alcohol and Tobacco Tax & Trade Bureau (TTB) .

                          The Treasury Department’s financial statements reflect the reporting of its own entity activities, which
                          include appropriations it receives to conduct its operations and revenue generated from those operations .
                          They also reflect the reporting of certain non-entity (custodial) functions it performs on behalf of the U .S .
                          government and others . Non-entity activities include the collection of federal revenue, servicing the federal
                          debt, disbursing certain federal funds, and maintaining certain assets and liabilities for the U .S . government
                          as well as for others . The Treasury Department’s reporting entity does not include the “General Fund” of the
                          U .S . government, which maintains receipt, disbursement and appropriation accounts for all federal agencies .




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                     141




Transactions and balances among the Treasury Department’s entities have been eliminated from the
Consolidated Balance Sheets, the Consolidated Statements of Net Cost, and the Consolidated Statements of
Changes in Net Position .


B. Basis of Accounting & Presentation
The financial statements have been prepared from the accounting records of the Treasury Department
in conformity with accounting principles generally accepted in the United States, and the Office of
Management and Budget (OMB) Circular A-136, “Financial Reporting Requirements,” as amended .
Accounting principles generally accepted for federal entities are the standards prescribed by the Federal
Accounting Standards Advisory Board (FASAB) . FASAB is recognized by the American Institute of Certified
Public Accountants as the official accounting standards-setting body of the U .S . government .

These financial statements are provided to meet the requirements of the Government Management Reform
Act of 1994 . They consist of the Consolidated Balance Sheets, the Consolidated Statements of Net Cost,
the Consolidated Statements of Changes in Net Position, the Combined Statements of Budgetary Resources,
and the Statements of Custodial Activity . The statements and the related notes are prepared in a comparative
form to present both FY 2007 and FY 2006 information .

While these financial statements have been prepared from the books and records of the Treasury Department
in accordance with the formats prescribed by OMB, these financial statements are in addition to the finan­
cial reports used to monitor and control budgetary resources which are prepared from the same books and
records .

Throughout these financial statements, intra-governmental assets, liabilities, earned revenues, and costs have
been classified according to the entity for these transactions . Intra-governmental assets and liabilities are
those from or to other federal entities . Intra-governmental earned revenues are collections or accruals of
revenue from other federal entities, and intra-governmental costs are payments or accruals of expenditure to
other federal entities .

The financial statements should be read with the realization that they are for a component of a sovereign
entity, that liabilities not covered by budgetary resources cannot be liquidated without the enactment of an
appropriation, and that the payment of all liabilities other than for contracts can be abrogated by the sover­
eign entity .


C. Tax and Other Non-Entity Receivables
Tax receivables are not accrued until related tax returns are filed or assessments are made . Prepayments
of taxes are netted against liabilities . Accruals are made to reflect penalties and interest on tax receivables
through the balance sheet date . Tax receivables consist of unpaid assessments (taxes and associated penalties
and interest) due from taxpayers for which the Treasury Department can support the existence of a receivable
through taxpayer agreement, such as filing a tax return without sufficient payment, or a court ruling in favor
of Treasury . Tax receivables are shown on the balance sheet net of an allowance for doubtful accounts and
abatements . The allowance for doubtful accounts reflects an estimate of the portion deemed to be uncollect­
ible based on historical experience of similar taxes receivable .




                                                                                                          Notes to the Financial Statements
142                                                                Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          D. Inventory and Related Property
                          Inventories and related property include inventory, operating materials and supplies, and forfeited property .
                          The Treasury Department values inventories at either standard cost or lower of cost or market, except for fin­
                          ished goods inventories, which are valued at weighted average unit cost . All operating materials and supplies
                          are recorded as an expense when consumed in operations .

                          Forfeited property is recorded at estimated fair market value at the time of seizure as deferred revenue, and
                          may be adjusted to reflect the current fair market value at the end of the fiscal year . Property forfeited in
                          satisfaction of a taxpayers liability is recorded when title to the property passes to the U .S . government and a
                          corresponding credit is made to the related taxes receivable . Direct and indirect holding costs are not capital­
                          ized for individual forfeited assets .

                          Mortgages and claims on forfeited assets are recognized as a valuation allowance and a reduction of deferred
                          revenue from forfeited assets when the asset is forfeited . The allowance includes mortgages and claims on
                          forfeited property held for sale and a minimal amount of claims on forfeited property previously sold .

                          Revenue from the forfeiture of property is deferred until the property is sold or transferred to a state, local or
                          federal agency . Revenue is not recorded if the forfeited property is ultimately destroyed or cannot be legally
                          sold .


                          E. Loans and Interest Receivable - from Other Federal Agencies
                          Intra-governmental entity Loans and Interest Receivable from other federal agencies represent loans and
                          interest receivable held by the Treasury Department . No subsidy costs were recorded for loans purchased
                          from federal agencies or for guaranteed loans made to non-federal borrowers, because these are guaranteed
                          (interest and principal) by those agencies .

                          Intra-governmental non-entity Loans and Interest Receivable from other federal agencies represent loans
                          issued by Treasury to federal agencies on behalf of the U .S . government . The Treasury Department acts as an
                          intermediary issuing these loans, because the agencies receiving these loans will lend these funds to others to
                          carry out various programs of the Federal Government . Because of the Treasury Department’s intermediary
                          role in issuing these loans, the Treasury Department does not record an allowance or subsidy costs related to
                          these loans . Instead, loan loss allowances and subsidy costs are recognized by the ultimate lender, the federal
                          agency that issued the loans .


                          F. Advances to the Black Lung Trust Fund
                          Advances have been provided to the Department of Labor’s Black Lung Trust Fund from the General Fund
                          of the U .S . government . The Bureau of Public Debt accounts for the advances on behalf of the General
                          Fund of the U .S . government . Advances to the Black Lung Trust Fund are being accounted for pursuant to
                          the Benefits Revenue Act which states: “In the event that fund resources are not adequate to meet fund obli­
                          gations, then, Advances interest and principal are paid to the General Fund of the U .S . government when the
                          Secretary of the Treasury determines that funds are available in the trust fund for such purposes .” The Black
                          Lung Trust Funds are repayable with interest at a rate determined by the Secretary of the Treasury to be equal
                          to the current average market yield on outstanding marketable obligations of the United States with remain-



Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                       143




ing periods to maturity comparable to the anticipated period during which the advance will be outstanding .
Advances made prior to 1982 carried rates of interest equal to the average rate borne by all marketable
interest-bearing obligations of the United States then forming a part of the public debt .


G. Property, Plant, and Equipment
The Treasury’s Department’s property, plant, and equipment (PP&E) is recorded at cost and depreciated
using the straight line method over the estimated useful lives of the assets . Major alterations and renova­
tions are capitalized, while maintenance and repair costs are charged to expense as incurred . The Treasury
Department owns the Treasury building - a multi-use heritage asset . Multi-use heritage assets are assets of
historical significance for which the predominant use is general government operations . All acquisition,
reconstruction, and betterment costs for the Treasury Department building are capitalized as general PP&E
and depreciated over their service life .

The Treasury Department’s bureaus are diverse both in size and in operating environment . Accordingly,
Treasury’s internal use software capitalization policy thresholds range from $25,000 to $50,000 . For internal­
ly developed software, capitalized costs will include the full cost (direct and indirect cost) incurred during the
software development stage . Treasury also uses a capitalization threshold range for bulk purchases: $250,000
to $500,000 for non manufacturing bureaus and $25,000 to $50,000 for manufacturing bureaus . Bureaus
determine the individual items that comprised bulk purchases . In addition, the Treasury Department’s
bureaus may expense bulk purchases if they conclude that total period costs would not be materially dis­
torted and the cost of capitalization is not economically feasible .


H. Federal Debt
Debt and associated interest are reported on the accrual basis of accounting . Certain debt securities are
issued at a discount or premium . Discounts and premiums are amortized over the term of the security using
the effective interest rate method .


I. Pension Costs, Other Retirement Benefits, and Other Post Employment Benefits
The Treasury Department recognizes the full costs of its employees’ pension benefits . However, the liabili­
ties associated with these costs are recognized by the Office of Personnel Management (OPM) rather than
Treasury .

Most employees of the Treasury Department hired prior to January 1, 1984, participate in the Civil Service
Retirement System (CSRS), to which the Treasury Department contributes 8 .51% of salaries for regular
CSRS employees .

On January 1, 1987, the Federal Employees’ Retirement System (FERS) went into effect pursuant to Public
Law 99-335 . Employees hired after December 31, 1983, are automatically covered by FERS and Social
Security . A primary feature of FERS is that it offers a savings plan to which the Treasury Department auto­
matically contributes 1% of base pay and matches any employee contributions up to an additional 4% of
base pay . For most employees hired after December 31, 1983, the Treasury Department also contributes the
employer’s matching share for Social Security . For the FERS basic benefit the Treasury Department contrib­
utes 10 .7% for regular FERS employees .



                                                                                                            Notes to the Financial Statements
144                                                                Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Similar to federal retirement plans, OPM, rather than the Treasury Department, reports the liability for
                          future payments to retired employees who participate in the Federal Employees Health Benefits Program
                          (FEHBP) and Federal Employees Group Life Insurance (FEGLI) Program . The Treasury Department
                          reports the full cost of providing other retirement benefits (ORB) . The Treasury Department also recognizes
                          an expense and liability for other post employment benefits (OPEB), which includes all types of benefits
                          provided to former or inactive (but not retired) employees, their beneficiaries, and covered dependents .
                          Additionally, the Treasury Department’s OCC and OTS separately sponsor certain benefit plans for
                          their employees . OCC sponsors a defined life insurance benefit plan for current and retired employees .
                          Additionally, OTS provides certain health and life benefits for all retired employees that meet eligibility
                          requirements .


                          J. Special Drawing Rights (SDRs) Certificates Issued to Federal Reserve Banks
                          The Special Drawing Rights Act of 1968 authorized the Secretary of the Treasury to issue certificates, not to
                          exceed the value of SDRs holdings, to the Federal Reserve Banks in return for interest free dollar amounts
                          equal to the face value of certificates issued . The certificates may be issued to finance the acquisition of
                          SDRs from other countries or to provide resources for financing other ESF operations . Certificates issued
                          are to be redeemed by the Treasury Department at such times and in such amounts as the Secretary of the
                          Treasury may determine . Certificates issued to Federal Reserve Banks are stated at their face value . It is
                          not practical to estimate the fair value of Certificates Issued to Federal Reserve Banks since these certificates
                          contain no specific terms of repayment .


                          K. Federal Employee Benefits Payable - FECA Actuarial Liability
                          The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered
                          Federal civilian employees injured on the job, and employees who have incurred a work-related injury or
                          occupational disease . These future workers’ compensation estimates were generated from an application of
                          actuarial procedures developed to estimate the liability for FECA benefits . The actuarial liability estimates
                          for FECA benefits include the expected liability for death, disability, medical, and miscellaneous costs for
                          approved compensation cases .


                          L. Revenue and Financing Sources
                          The Treasury Department activities are financed either through exchange revenue it receives from others or
                          through non-exchange revenue and financing sources (such as appropriations provided by the Congress and
                          penalties, fines, and certain user fees collected) . User fees primarily include Internal Revenue Service reim­
                          bursable costs to process installment agreements and accompanying photocopy and reproduction charges .
                          Exchange revenues are recognized when earned; i .e . goods have been delivered or services have been rendered .
                          Non-exchange revenues are recognized when received by the respective Treasury Department collecting
                          bureau . Appropriations used are recognized as financing sources when related expenses are incurred or assets
                          are purchased . Revenue from reimbursable agreements is recognized when the services are provided . The
                          Treasury Department also incurs certain costs that are paid in total or in part by other federal entities, such
                          as pension costs . These subsidized costs are recognized on the Consolidated Statement of Net Cost, and the
                          imputed financing for these costs is recognized on the Consolidated Statement of Changes in Net Position .
                          As a result, there is no effect on net position . Other non-exchange financing sources such as donations and



Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                       145




transfers of assets without reimbursements also are recognized for the period in which they occurred on the
Consolidated Statement of Changes in Net Position .

The Treasury Department recognizes revenue it receives from disposition of forfeited property as non-
exchange revenue on the Consolidated Statement of Changes in Net Position . The costs related to the
forfeiture fund program are reported on the Consolidated Statement of Net Cost .


M. Custodial Revenues and Collections
Non-entity revenue reported on the Treasury Department’s Statement of Custodial Activity includes cash
collected and received by the Treasury Department, primarily taxes . It does not include revenue collected by
other Federal agencies, such as user fees and other receipts, which are remitted for general operating purposes
of the U .S . government or are earmarked for certain trust funds . The Statement of Custodial Activity is
presented on the “modified accrual basis .” Revenues are recognized as cash is collected . The Balance Sheets
include an estimated amount for taxes receivable and payable to the General Fund of the U .S . government at
September 30, 2007 and 2006 .


N. Tax Assessments and Abatements
Under Internal Revenue Code Section 6201, the Treasury Department is authorized and required to make
inquiries, determinations, and assessments of all taxes which have not been duly paid (including interest,
additions to the tax, and assessable penalties) under the law . Unpaid assessments result from taxpayers filing
returns without sufficient payment, as well as from tax compliance programs, such as examination, under-
reporter, substitute for return, and combined annual wage reporting . The Treasury Department also has
authority to abate the paid or unpaid portion of an assessed tax, interest, and penalty . Abatements occur
for a number of reasons and are a normal part of the tax administration process . Abatements may result in
claims for refunds or a reduction of the unpaid assessed amount .


O. Permanent and Indefinite Appropriations
Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and child
tax credits . These appropriations are not subject to budgetary ceilings established by Congress . Therefore,
refunds payable at year end are not subject to funding restrictions . Refund payment funding is recognized as
appropriations are used . Permanent indefinite authority for refund activity is not stated as a specific amount
and is available for an indefinite period of time . Although funded through appropriations, refund activity, in
most instances, is reported as a custodial activity of the Treasury Department, since refunds are, in substance,
a custodial revenue-related activity resulting from taxpayer overpayments of their tax liabilities .

The Treasury Department also receives two permanent and indefinite appropriations related to debt activ­
ity . One is used to pay interest on the public debt securities; the other is used to redeem securities that have
matured, been called, or are eligible for early redemption . These accounts are not annual appropriations;
and do not have refunds . Debt activity appropriations are related to the Treasury Department’s liability and
would be reported on the Treasury Department’s Balance Sheet . Permanent indefinite authority for debt
activity is available for an indefinite period of time .




                                                                                                            Notes to the Financial Statements
146                                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Additionally, the Treasury Department receives other permanent and indefinite appropriations to make
                          certain payments on behalf of the U .S . government . These appropriations are provided to make payments to
                          the Federal Reserve for services provided . They also include appropriations provided to make other disburse­
                          ments on behalf of the U .S . government, including payments made to various individuals as the result of
                          certain claims and judgments rendered against the United States .


                          P. Imputed Costs/Financing Sources
                          U .S . government entities often receive goods and services from other U .S . government entities without reim­
                          bursing the providing entity for all the related costs . These constitute subsidized costs which are recognized
                          by the receiving entity . An offsetting imputed financing source is also recognized by the receiving entity .
                          The Treasury Department recognized imputed costs and financing sources in fiscal years 2007 and 2006
                          to the extent directed by the OMB, such as: employees’ pension, post-retirement health and life insurance
                          benefits; other post-employment benefits for retired, terminated, and inactive employees, which includes
                          unemployment and workers compensation under the FECA; and losses in litigation proceedings .


                          Q. Income Taxes
                          As an agency of the Federal government, the Treasury Department is exempt from all income taxes imposed
                          by any governing body, whether it is a federal, state, commonwealth, local, or foreign government .


                          R. Use of Estimates
                          The Treasury Department has made certain estimates and assumptions relating to the reporting of assets,
                          liabilities, revenues, expenses, and the disclosure of contingent liabilities to prepare these financial statements .
                          Actual results could differ from these estimates . Financial statement line items subject to estimates include
                          tax receivables; depreciation; imputed costs; cost and earned revenue allocations; and, credit reform subsidy
                          costs .


                          S. Credit Risk
                          Credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower or a counter
                          party to perform in accordance with underlying contractual obligations . The Treasury Department takes on
                          possible credit risk when it makes direct loans or credits to foreign entities or becomes exposed to institutions
                          which engage in financial transactions with foreign countries . Given the history of the Treasury Department
                          with respect to such exposure and the financial policies in place in the U . S . government and other institu­
                          tions in which the United States participates, the Treasury Department has no expectation that credit losses
                          will be incurred in the foreseeable future . The Treasury Department also takes on credit risk related to loan
                          guarantees, committed but undisbursed direct loans and its Terrorism Risk Insurance Program . The extent
                          of the risk assumed by the Treasury Department is described in more detail in the notes to the financial
                          statements .


                          T. Earmarked Funds
                          Treasury has accounted for revenues and other financing sources for earmarked funds separately from other
                          funds . This method was adopted in accordance with the provisions of the Federal Accounting Standards



Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                          147




Advisory Board’s Statement of Federal Financial Accounting Standards (SFFAS) No . 27, Identifying and
Reporting Earmarked Funds, which became effective October 1, 2006 . This standard amended SFFAS No . 7,
Revenue and Other Financing Sources, by:
   • elaborating the special accountability needs associated with dedicated collections;
   • separating dedicated collections into two categories – earmarked funds and fiduciary activity; and
   • defining, and providing accounting and reporting guidance for earmarked funds .

U. Allocation Transfers
The Treasury Department adopted the allocation transfer provisions of OMB Circular No . A-136 Revised,
Financial Reporting Requirements, effective October 1, 2006 . The Treasury Department is a party to alloca­
tion transfers with other federal agencies as both a transferring (parent) entity and/or a receiving (child)
entity . Allocation transfers are legal delegations by one department of its authority to obligate budget
authority and outlay funds to another department . A separate fund account (allocation account) is created
in the U .S . Treasury as a subset of the parent fund account for tracking and reporting purposes . All alloca­
tion transfers of balances are credited to this account, and subsequent obligations and outlays incurred by
the child entity are charged to this allocation account as they execute the delegated activity on behalf of the
parent . Beginning in fiscal year 2007, parent federal agencies report both the proprietary and budgetary
activity and the child agency does not report any financial activity related to budget authority allocated from
the parent federal agency to the child federal agency . The Treasury Department had no significant allocation
transfers to report in fiscal year 2007 .

The Treasury Department allocates funds, as the parent, to the Department of Energy . OMB allows certain
exceptions to allocation reporting for certain funds . Accordingly, the Treasury Department has reported cer­
tain funds for which the Treasury Department is the child in the allocation transfer, but per OMB guidance,
will report all activities relative to these allocation transfers in the Treasury Department’s financial statements .
The Treasury Department receives allocation transfers, as the child, from the Agency for International
Development .




                                                                                                               Notes to the Financial Statements
148                                                                     Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          2. Fund Balance
                          Fund Balance with Treasury is the aggregate amount of the Treasury Department’s accounts with the U .S .
                          government’s central accounts from which the Treasury Department is authorized to make expenditures and
                          pay liabilities . It is an asset because it represents the Treasury Department’s claim to the U .S . government’s
                          resources . Fund balance with Treasury is not equivalent to unexpended appropriations, because it also
                          includes non-appropriated revolving and enterprise funds, suspense accounts, and custodial funds such as
                          deposit funds, special funds, and trust funds .

                          Fund Balances:
                          As of September 30, 2007 and September 30, 2006, fund balances consisted of the following (in millions):

                                                                                                                       2007                            2006
                            Appropriated Funds                                                            $          72,897               $          68,748
                            Revolving Funds                                                                              912                          1,539
                            Trust Funds                                                                                    8                             10
                            Clearing Funds                                                                                10                             13
                            Deposit Funds                                                                                542                            511
                            Special Funds                                                                                395                            332
                            Other Funds                                                                                    3                              0
                          Total Fund Balances                                                             $          74,767               $          71,153




                          As of September 30, 2007 and September 30, 2006, the status of fund balances consisted of the following (in
                          millions):

                          Status of Fund Balance with Treasury                                                            2007                         2006
                            Unobligated Balance – Available
                                                  $         17,843            $          21,606
                            Unobligated Balance – Unavailable
                                                          10,995                       10,447
                            Obligated Balance not yet Disbursed
                                                        57,310                       52,369
                            Subtotal                                                                                    86,148                       84,422

                            Adjustment for Non-Budgetary Funds                                                             556                          525
                            Adjustment for Borrowing Authority                                                           (5,716)                     (5,716)
                            Adjustment for Intra-Treasury Investments                                                    (5,280)                     (4,963)
                            Adjustment for Imprest Funds                                                                       (4)                        (4)
                            Adjustment for Other Budgetary Resources Not in Fund
                               Balance - Cash & Other Assets
                                                            (4,616)                     (6,756)
                            Authority Unavailable for Obligation
                                                        3,679                        3,645
                            Total Status of Fund Balance                                                      $         74,767            $          71,153



                          The above balances do not include unobligated balances related to the ESF . Accordingly, while ESF balances
                          are included on the Statement of Budgetary Resources (SBR), they are not a component of the Fund Balance




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                       149




with the Treasury . The ESF balances displayed on the SBR includes components of cash, foreign currency,
and other monetary assets (see Note 5) .

As of September 30, 2007 and September 30, 2006, the Treasury Department did not have any budgetary
authority in fund balance that was specifically withheld from apportionment by OMB . The balances in non­
entity funds, such as deposit funds, are being held in a fiduciary capacity by the Treasury Department for the
public or for another federal entity, such as the General Fund of the U .S . government . Such funds have an
offsetting liability equal to fund balance . See Note 8 regarding restrictions related to the line of credit held
on the U .S . Quota in the International Monetary Fund .


3. Loans and Interest Receivable
As of September 30, 2007 and September 30, 2006, intra-governmental loans (issued by the FFB) and inter­
est receivable consisted of the following (in millions):

Entity Intra-governmental:
                                        Loans      Interest         2007        Loans      Interest          2006
                                    Receivable   Receivable         Total   Receivable   Receivable          Total
Executive Office of the President   $     836    $       9    $     845     $    1,024   $     $13     $    1,037
Department of Agriculture               25,604         300        25,904        25,283         281         25,564
United States Postal Service             4,200           3         4,203         2,100           0          2,100
General Services Administration          2,151          38         2,189         2,192          39          2,231
Department of Housing & Urban
                                          791           96          887           884          107           991
Development
Department of Education                   315            4          319           155            2           157
Department of Defense                      70            1            71          171            3           174
Other agencies                             25            1            26           34            1             35
Subtotal – Entity                   $ 33,992     $     452    $ 34,444      $ 31,843     $     446     $ 32,289


The FFB issues the above loans to federal agencies for their own use or to private sector borrowers, whose
loans are guaranteed by the federal agencies . When a federal agency has to honor its guarantee because a
private sector borrower defaults, the federal agency that guaranteed the loan must obtain an appropriation
or use other resources to repay the FFB . Loan principal and interest are backed by the full faith and credit
of the U .S . government, except for loans to the U .S . Postal Service . The FFB has not incurred and does
not expect to incur any credit-related losses on its loans and accordingly, has not recorded an allowance for
uncollectible intra-governmental loans .




                                                                                                            Notes to the Financial Statements
150                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Non-Entity Intra-governmental
                                                                            Loans           Interest                 2007         Loans           Interest                2006
                                                                        Receivable        Receivable                 Total    Receivable        Receivable                Total
                          Department of Agriculture                     $       49,133    $          64     $       49,197    $       57,760    $         427    $       58,187
                          Department of Interior                                  345               513               858               391               663             1,054
                          Federal Communications Commission                       106                 0               106               449                 0              449
                          Department of Veterans Affairs                         1,047               27              1,074              980                 0              980
                          Railroad Retirement Board                              2,945               73              3,018             2,958               72             3,030
                          Small Business Administration                         11,366                0             11,366             9,303                0             9,303
                          Department of Housing & Urban Development              4,573                0              4,573             6,258                0             6,258
                          Department of Energy                                   2,241                (8)            2,233             2,482                3             2,485
                          Department of Education                           103,973                   0         103,973           105,522                   0        105,522
                          Export Import Bank of the U. S.                        4,364                0              4,364             4,911                0             4,911
                          Department of Homeland Security                       17,787              367             18,154            17,092              353            17,445
                          Other agencies                                         3,545               27              3,572             3,287                6             3,293

                          Subtotal – Non-Entity                         $ 201,425         $       1,063     $ 202,488         $ 211,393         $       1,524    $ 212,917
                          Total Intra-governmental Loans and Interest
                          Receivable – Entity and Non-Entity                                                $ 236,932                                            $ 245,206




                          Entity and Non-Entity Non-Federal:
                          As of September 30, 2007 and September 30, 2006, loans and interest receivable from non-federal entities
                          consisted of the following (in millions):

                                                                                                   Non-              2007                                Non-             2006
                                                                                Entity            entity             Total            Entity            entity            Total
                          Direct Loans                                      $      63         $     131         $     194         $     142         $     133        $     275
                          Interest Receivable                                       1                 2                 3                 0                87               87
                          Less: Allowance and Subsidy Cost                         (22)               0                (22)              (74)               0               (74)
                          Total Non-Federal Loans and Related Inter­
                          est Receivable                                    $      42         $     133         $     175         $      68         $     220        $     288




                          These amounts include certain loans and credits issued by the United States to various foreign governments .
                          The agreements with each debtor government vary as to dates, interest rates, method of payment, and billing
                          procedures . All such loans and credits represent legally valid and outstanding obligations of foreign govern­
                          ments, and the U .S . government has not waived or renounced its rights with respect to any of them . The
                          loans are due and payable in U .S . denominations .




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                     151




4. Due from the General Fund
   and Due to the General Fund
The Treasury Department is responsible for managing various assets and liabilities on behalf of the U .S . gov­
ernment as a whole . Due from the General Fund represents amounts required to fund liabilities managed by
Treasury on behalf of the U .S . government . Liabilities managed by the Treasury Department are comprised
primarily of the federal debt . Due to the General Fund represents assets held for the General Fund of the
U .S . government .

As of September 30, 2007 and September 30, 2006, Due from and Due to the General Fund, included the
following non-entity assets and liabilities (in millions):

                                                                                   2007                    2006
Liabilities Requiring Funding from the General Fund:
     Federal Debt and Interest Payable                                  $     5,054,250         $      4,844,074
     Federal Debt and Interest Payable - Intra-governmental                   3,974,788                3,673,117
     Refunds Payable                                                              1,684                    1,701
     Adjustment for Eliminated Liabilities                                       21,902                  21,303
Total Due from the General Fund                                         $     9,052,624         $      8,540,195


Assets to be Distributed to the General Fund:
Fund Balance                                                            $           222         $           224
Advance to the Black Lung Trust Fund                                             10,058                    9,632
Cash Held by the Treasury                                                        70,347                  44,090
Foreign Currency                                                                     91                      68
Custodial Silver and Gold held by the U.S. Mint without certificates                 25                      25
Loans and Interest Receivable - Intra-governmental                              202,488                 212,917
Loans and Interest Receivable                                                       133                     220
Accounts Receivable – Intra-governmental                                            368                     373
Tax and Other Non-Entity Receivables                                             27,395                  21,819
Miscellaneous Assets                                                                  9                      24
Adjustment for Eliminated Assets                                                 17,837                  16,960
Total Due to the General Fund                                           $       328,973         $       306,352




The Adjustment for Eliminated Intra-Treasury liabilities mainly represents investments in U .S . government
securities held by Treasury reporting entities that were eliminated against Federal Debt and Interest Payable .
The Adjustment for Eliminated Intra-Treasury assets mainly represents loans and interest payable owed by
reporting entities that are consolidated with Treasury, which were eliminated against Loans and Interest
Receivable held by the Bureau of the Public Debt .

On the Balance Sheet, Treasury reported $27,559 million in Tax, Other, and Related Interest Receivables
as of September 30, 2007 ($21,962 million as of September 30, 2006) . However, only $27,395 million is
reported as Due to the General Fund of the U .S . government ($21,819 million as of September 30, 2006) .




                                                                                                          Notes to the Financial Statements
152                                                                     Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          The difference is attributable to the exclusion of amounts which will be paid to others outside the U .S . gov­
                          ernment, and miscellaneous entity receivables (see Note 10) .


                          5. Cash, Foreign Currency, and Other Monetary Assets
                          Cash, foreign currency, and other monetary assets held as of September 30, 2007 and September 30, 2006
                          were as follows (in millions):

                                                                                                                          2007                         2006
                          Entity:
                            Cash                                                                             $               32          $               24
                            Foreign Currency                                                                            12,081                       10,664
                            Other Monetary Assets:
                               Special Drawing Rights                                                                    9,363                        8,710
                               Other                                                                                       153                          135
                          Subtotal – Entity                                                                             21,629                       19,533

                          Non-Entity:
                            Operating Cash of the U.S. Government                                                       69,701                       43,587
                            Foreign Currency                                                                                 91                          68
                            Miscellaneous Cash held by all Treasury sub-components                                         909                          704
                          Subtotal - Non-Entity                                                              $          70,701           $           44,359
                          Total Cash, Foreign Currency, and Other Monetary Assets                            $          92,330           $           63,892


                          Non-entity Operating Cash & Other Cash of the U .S . government held by Treasury disclosed above con­
                          sisted of the following (in millions):

                                                                                                                          2007                         2006
                          Operating Cash of the U.S. Government                                               $         69,797            $          46,676
                          Operating Cash - Federal Reserve Account                                                       5,539                        5,569
                          Subtotal                                                                                      75,336                       52,245
                          Outstanding Checks                                                                            (5,635)                      (8,658)
                          Total Operating Cash of the U.S. Government                                                   69,701                       43,587
                          Other Cash                                                                                       700                          588
                          Subtotal                                                                                      70,401                       44,175
                          Amounts Due to the Public                                                                        (54)                         (85)
                          Total Cash Due to the General Fund (See Note 4)                                     $         70,347            $          44,090



                          Entity
                          Entity cash, foreign currency, and other monetary assets primarily include Foreign Currency Denominated
                          Assets (FCDA), SDRs, and forfeited cash . SDRs and FCDAs are valued as of September 30, 2007 and
                          September 30, 2006, using current exchange rates plus accrued interest, at September 30, 2007 and 2006 .
                          “Other” includes U .S . dollars restricted for use by the International Monetary Fund (IMF), which are
                          maintained in two accounts at the Federal Reserve Bank of New York . FCDAs represent Foreign Currency



Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                     153




Agreements (swap agreements) between the Treasury Department and various countries that provide for
drawing of dollars by those countries and/or drawing of foreign currency by the Treasury Department . The
Treasury Department enters into these agreements through the ESF .

The foreign currency holdings are normally invested in interest bearing securities issued by or held through
foreign governments or monetary authorities . FCDAs with original maturities of three months or less,
(except for foreign currencies under swap agreements with developing countries) were valued at $7 .6 billion
as of September 30, 2007 ($6 .8 billion as of September 30, 2006) . Other FCDAs with maturities greater
than three months are also held and may at times include foreign currencies acquired under swap agreements
with developing countries . As of September 30, 2007, FCDAs with maturities greater than three months
were valued at $4 .5 billion ($3 .8 billion as of September 30, 2006) .

The SDRs are international reserve assets created by the IMF . It was created as a supplement to existing
reserve assets and on several occasions SDRs have been allocated by the IMF to members participating in
the IMF’s SDRs department . The SDRs’ value as reserve assets derive, essentially, from the commitments of
participants to hold and accept SDRs and to honor various obligations connected with its proper functioning
as a reserve asset .

The Special Drawing Rights Act of 1968 authorizes the Secretary of the Treasury to issue certificates, not
to exceed the value of SDR holdings, to the Federal Reserve Bank in return for interest free dollar amounts
equal to the face value of certificates issued . The certificates may be issued for the purpose of financing
the acquisition of SDRs from other countries or to provide resources for the financing of the Treasury
Department’s ESF activities . Certificates issued are to be redeemed by the Treasury Department at such
times and in such amounts as the Secretary of the Treasury may determine . As of September 30, 2007,
the value of the certificates issued to Federal Reserve Banks amounted to $2 .2 billion ($2 .2 billion as of
September 30, 2006) .

On a daily basis, the IMF calculates the value of the SDR using the market value, in terms of the U .S . dollar,
from the amounts of each of four freely usable weighted currencies, as defined by the IMF . These currencies
are the U .S . dollar, the European euro, the Japanese yen, and the British pound sterling . Treasury’s SDR
holdings (assets resulting from various SDR related activities including remuneration received on interest
earned on the U .S . reserve position – see note 8) and allocations from the IMF (liabilities of the U .S . com­
ing due only in the event of a liquidation of, or U .S . withdrawal from the SDR department of the IMF, or
cancellation of SDRs) are revalued monthly based on the SDR valuation rate calculated by the IMF .

Pursuant to the IMF Articles of Agreement, SDRs allocated to or otherwise acquired by the United States are
permanent resources unless:
    a . 	 canceled by the Board of Governors based on an 85% majority decision of the total voting power of
          the Executive Board of the IMF;
    b . 	the SDR Department of the IMF is liquidated;
    c . 	 the IMF is liquidated; or
    d . 	the United States chooses to withdraw from the IMF or terminate its participation in the SDR
         Department .




                                                                                                          Notes to the Financial Statements
154                                                               Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Except for the payment of interest and charges on SDRs allocations to the United States, the payment of
                          the Treasury Department’s commitment related to SDRs allocations is conditional on events listed above, in
                          which the United States has a substantial or controlling voice . Allocations of SDRs were made on January 1,
                          1970, 1971, 1972, 1979, 1980 and 1981 . Since 1981, the IMF has made no further allocations of SDRs .
                          As of September 30, 2007, the amount of SDR holdings of the United States was the equivalent of $9 .3
                          billion and the amount of SDR allocations to the United States was the equivalent of $7 .6 billion . As of
                          September 30, 2006, the amount of SDR holdings of the United States was the equivalent of $8 .7 billion
                          and the amount of SDR allocations to the United States was the equivalent of $7 .2 billion .

                          During FY 2007, the Treasury Department received remuneration on the U .S . reserve position in the IMF,
                          at the prevailing rates, in the amount of $107 million equivalent of SDRs ($210 billion equivalent of SDRs
                          during FY 2007), and paid the General Fund of the Federal Government $ .5 million ($ .5 million in FY
                          2006) in interest on these funds until they were transferred to the General Fund .


                          Non-Entity
                          Non-entity cash, foreign currency, and other monetary assets include the Operating Cash of the U .S .
                          government, managed by the Treasury Department . Also included is foreign currency maintained by vari­
                          ous U .S . and military disbursing offices . It also includes seized monetary instruments, undistributed cash,
                          and offers in compromises which are maintained as the result of the Treasury Department’s tax collecting
                          responsibilities .

                          The Operating Cash of the U .S . government represents balances from tax collections, other revenues, federal
                          debt receipts, and other various receipts net of checks outstanding, which are held in the Federal Reserve
                          Banks, foreign and domestic financial institutions, and in U .S . Treasury tax and loan accounts at commercial
                          banks .

                          Operating Cash of the U .S . government is either insured (for balances up to $100,000) by the Federal
                          Deposit Insurance Corporation (FDIC) or collateralized by securities pledged by the depository institutions
                          and held by the Federal Reserve Banks, or through securities held under reverse repurchase agreements .




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                      155




6. Gold & Silver Reserves, and Gold Certificates
   Issued to Federal Reserve Banks
The Treasury Department is responsible for safeguarding most of the U .S . government’s gold and silver
reserves in accordance with 31 USC 5117 . The consolidated Balance Sheets also reflects the value of the
gold being held in the Federal Reserve Bank of New York .

Gold reserves being held by the Treasury Department are offset by a liability for gold certificates issued
by the Secretary of the Treasury to the Federal Reserve as provided in 31 USC 5117 . Since 1934, Gold
certificates have been issued in non-definitive or book-entry form to the Federal Reserve . The Treasury
Department’s liability incurred by issuing the Gold Certificates is limited to the gold being held by the
Treasury Department at the legal standard value established by law . Upon issuance of gold certificates to the
Federal Reserve, the proceeds from the certificates are deposited into the operating cash of the U .S . govern­
ment . All of the Treasury Department’s certificates issued are payable to the Federal Reserve .

Gold and silver reserves are reported at the statutory rates of $42 .2222 per fine troy ounce (FTO) for gold
and $1 .292929292 per FTO for silver for the entire custodial reserves, which are in the custody of the U .S .
Mint and the Federal Reserve Bank of New York (FRBNY) . The U . S . Mint also holds gold and silver
reserves without certificates (See Note 4) . As of September 30, 2007 and September 30, 2006, the gold and
silver reserves consisted of the following (in millions):

                                                                            9/30/07                      9/30/07
                                        FTOs        Statutory Rate   Statutory Value   Market Rate   Market Value
Gold                             248,046,116             42.2222      $     10,473     $ 743.00      $   184,298
Gold Held by Federal Reserve      13,452,784             42.2222                568    $ 743.00            9,996
Subtotal - Gold                  261,498,900                          $     11,041                   $   194,294
Silver                            16,000,000        1.292929292                  21    $    13.65    $      $218
Total Gold and Silver Reserves                                        $     11,062                   $   194,512


                                                                            9/30/06                      9/30/06
                                        FTOs        Statutory Rate   Statutory Value   Market Rate   Market Value
Gold                             248,046,116    $        42.2222      $     10,473     $ 599.25      $   148,642
Gold Held by Federal Reserve      13,452,784             42.2222                568    $ 599.25            8,062
Subtotal - Gold                  261,498,900                          $    $11,041                   $   156,704
Silver                            16,000,000    $ 1.292929292                    21    $    11.55            185
Total Gold and Silver Reserves                                             $11,062                   $   156,889




                                                                                                           Notes to the Financial Statements
156                                                                  Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          7. Investments and Related Interest
                          Investments in U .S . government securities held by the Treasury Department entities have been eliminated
                          against the federal debt liability for financial reporting purposes (See Note 4) . The ESF holds most of the
                          Treasury Department’s other investments . Securities that the Treasury Department has both the positive
                          intent and ability to hold to maturity are classified as investment securities held to maturity and are carried
                          at historical cost, adjusted for amortization of premiums and accretion of discounts . Foreign investment
                          holdings are normally invested in interest bearing securities issued or held through foreign governments or
                          monetary authorities (see Note 5) . As of September 30, 2007 and September 30, 2006, entity investments
                          consisted of the following (in millions):

                                                        Cost/    Unamortized                                                     9/30/07
                          Type of                  Acquisition    (Premium)/                   Net           Interest         Investment        9/30/07
                          Investment                    Value        Discount           Investment         Receivable            Balance    Market Value
                          Euro Bonds           $        4,338    $        52        $       4,390      $         113      $       4,503     $     4,462
                          Japanese
                                                        5,520              9                5,529                  8              5,537           5,538
                          Government Bond
                          Other Investments                40              (6)                 34                  0                 34               34
                          Total Non-Federal    $        9,898    $        55        $       9,953      $         121      $      10,074     $    10,034


                                                        Cost/    Unamortized                                                     9/30/06
                          Type of                  Acquisition    (Premium)/                   Net           Interest         Investment        9/30/06
                          Investment                    Value        Discount           Investment         Receivable            Balance    Market Value
                          Euro Bonds           $        3,713    $        68        $       3,781      $         102      $       3,883     $     3,873
                          Japanese
                                                        5,386              4                5,390                  4              5,394           5,386
                          Government Bond
                          Other Investments                53              (5)                 48                  0                 48               48
                          Total Non-Federal    $        9,152    $        67        $       9,219      $         106      $       9,325     $     9,307




                          8. Reserve Position in the International Monetary Fund
                          The United States participates in the IMF through a quota subscription . Quota subscriptions are paid partly
                          through the transfer of reserve assets, such as foreign currencies or SDRs, which are international reserve
                          currency assets created by the IMF, and partly by making domestic currency available as needed through a
                          non-interest-bearing letter of credit . This letter of credit, issued by the Treasury Department and maintained
                          by the FRBNY, represents the bulk of the IMF’s holdings of dollars . Approximately one quarter of 1% of
                          the U .S . quota is maintained in cash balances in an IMF account at FRBNY .

                          While resources for transactions between the IMF and the United States are appropriated, they do not result
                          in net budgetary outlays . This is because U .S ./IMF quota transactions constitute an exchange of monetary
                          assets in which the United States receives an equal offsetting claim on the IMF in the form of an increase
                          in the U .S . reserve position in the IMF, which is interest-bearing and can be drawn at any time for balance
                          of payments needs . When the IMF draws dollars from the letter of credit to finance its operations and
                          expenses, the drawing does not represent a net budget outlay on the part of the United States because there is



Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                                             157




a commensurate increase in the U .S . reserve position . When the IMF repays dollars to the United States, no
net budget receipt results because the U .S . reserve position declines concurrently in an equal amount .

As of September 30, 2007, the U .S . quota in the IMF was 37 .1 billion SDRs, valued at approximately $57 .8
billion . (The quota as of September 30, 2006 was 37 .1 billion SDRs, valued at approximately $54 .8 bil­
lion .) The quota consisted of the following (in millions):

                                                                                                   2007                            2006
Letter of Credit /1                                                                   $          53,212               $          48,090
U .S . Dollars Held in Cash by the IMF /1                                                           152                                135
Reserve Position /2                                                                               4,464                           6,621
U.S Quota in the IMF                                                                  $          57,828               $          54,846

 1/ 	 This amount is included in entity appropriated funds under Note 2, Fund Balance with Treasury, and unexpended appropriations –
      Obligations/Undelivered orders .
 2/	 This amount is included in the Cumulative Results of Operations .




The U .S . reserve position is denominated in SDRs, as is the U .S . quota . Consequently fluctuations in the
value of the dollar with respect to the SDR results in valuation changes in dollar terms for the U .S . reserve
position in the IMF as well as the IMF letter of credit . The Treasury Department periodically adjusts these
balances to maintain the SDR value of the U .S . quota and records the change as a deferred gain or loss in
its cumulative results of operations . These adjustments, known as maintenance of value adjustments, are
settled annually after the close of the IMF financial year on April 30 . Such adjustments do not involve a
flow of funds . At April 30, 2007, the annual settlement with the IMF resulting from the depreciation of the
dollar against the SDR since April 30, 2006, called for a upward adjustment of the U .S . quota by $1 .793
billion (at April 30, 2006, the appreciation of the dollar against the SDR since April 30, 2005, called for an
downward adjustment of the U .S . quota by $1 .057 billion) and a corresponding decrease to Unexpended
Appropriations on the Statement of Changes in Net Position . The dollar balances shown above for the U .S .
quota include accrued valuation adjustments . At September 30, 2007, the Treasury Department recorded a
net deferred valuation gain in the amount of $258 .2 million ($76 .9 million valuation gain as of September
30, 2006) for deferred maintenance of value adjustments needed at year end .

The United States earns “remuneration” (interest) on its reserve position in the IMF except for the portion
of the reserve position originally paid in gold . Remuneration is paid quarterly and is calculated on the basis
of the SDR interest rate . (The SDR interest rate is a market-based interest rate determined on the basis of a
weighted average of interest rates on short-term instruments in the markets of the currencies included in the
SDR valuation basket .) Payment of a portion of this remuneration is deferred as part of a mechanism for
creditors and debtors to share the financial consequences of overdue obligations to the IMF, such as unpaid
overdue interest, and to similarly share the burden of establishing any contingency accounts deemed neces­
sary to reflect the possibility of non-repayment of relevant principal amounts . As overdue interest is paid,
previously deferred remuneration corresponding to the creditors’ share of the burden of earlier nonpayment
is included in the next payment of remuneration . The deferred remuneration corresponding to the creditors’
share of establishing the contingency accounts is usually paid when there are no longer any relevant overdue




                                                                                                                                  Notes to the Financial Statements
158                                                                      Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          obligations or when the IMF Executive Board determines to pay the remuneration . There was no deduction
                          in the remuneration paid by the IMF as a result of burden-sharing during FY 2007 . There was $3 million
                          deducted in the remuneration paid by the IMF as a result of burden-sharing during FY 2006 . For FY 2007
                          and 2006, the Treasury Department received $107 million and $210 million as remuneration (see note 5) .

                          In addition to quota subscriptions, the IMF maintains borrowing arrangements to supplement its resources
                          in times of crisis when IMF liquidity is low . The United States currently participates in two such arrange­
                          ments – the General Arrangements to Borrow (GAB) and the New Arrangements to Borrow (NAB) . There
                          were no U .S . loans outstanding under these arrangements in FY 2007 and FY 2006 . The dollar equivalent of
                          SDR 6 .7 billion has been appropriated to finance U .S . participation in the GAB and NAB; as of September
                          30, 2007, and September 30, 2006, this amounted to $10 .4 billion and $9 .9 billion, respectively, in standing
                          appropriations available for lending through the GAB or NAB as needed . As is the case for the U .S . quota
                          in the IMF, budgetary treatment of U .S . participation in the GAB and NAB does not result in net budgetary
                          outlays, since transactions under the GAB or NAB result in concurrent adjustments to the U .S . reserve posi­
                          tion in the IMF .


                          9. Investments in International Financial Institutions
                          The Treasury Department participates in Multilateral Development Banks (MDBs) to support poverty
                          reduction, private sector development, transition to market economies and sustainable economic growth
                          and development, thereby advancing United States’ economic, political, and commercial interests abroad .
                          The MDBs consist of the World Bank Group (International Bank for Reconciliation & Development,
                          International Finance Corporation, and Multilateral Investment Guarantee Agency), and five regional devel­
                          opment banks (the African, Asian, European, Inter-American, and North American institutions), as enumer­
                          ated in the table below . These investments are non-marketable equity investments valued at cost .

                          As of September 30, 2007 and September 30, 2006, investments in international financial institutions con­
                          sisted of the following (in millions):

                                                                                                                            2007                        2006
                          African Development Bank                                                               $            172            $           168
                          Asian Development Bank                                                                              458                        458
                          European Bank for Reconstruction & Development                                                      624                        611
                          Inter-American Development Bank                                                                   1,480                      1,477
                          International Bank for Reconstruction & Development                                               1,985                      1,985
                          International Finance Corporation                                                                   569                        569
                          Multilateral Investment Guarantee Agency                                                             45                         45
                          North American Development Bank                                                                     188                        175
                          Total                                                                                  $          5,521            $         5,488


                          Refer to Note 16 for a description of the contingent liability related to these institutions .




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                       159




10.        Accounts Receivable and Related Interest

A. Tax, Other, and Related Interest Receivables, Net
Tax, other, and related interest receivables include receivables from tax assessments, excise taxes, fees, penal­
ties, and interest assessed and accrued that were not paid or abated, reduced by an estimate for uncollectible
amounts . Also included is interest income due on monies deposited in Federal Reserve Banks .

As of September 30, 2007 and September 30, 2006, Tax, Other, and Related Interest Receivables, Net, con­
sisted of the following (in millions):

                                                                                    2007                     2006
Non-Entity:
IRS Federal Tax Receivable, Gross                                         $        98,016         $       $91,018
Less Allowance on Taxes Receivable                                                (72,007)                 (70,008)
Receivable, Deposit of Earnings, Federal Reserve                                    1,291                     774
Other Receivable & Interest                                                          105                       47
Less: Allowance on Other & Related Interest Receivable                                 (6)                      (6)
Total Tax, and Other Non-Entity Receivables, Net                          $        27,399         $        21,825

Entity:
Miscellaneous Entity Receivables & Related Interest                                  160                      137
Total Tax, Other & Related Interest Receivables, Net                      $        27,559         $        21,962




IRS federal taxes receivable constitute the largest portion of the receivables . IRS federal taxes receivable
consists of tax assessments, penalties, and interest which were not paid or abated, and which were agreed
to by either the taxpayer and IRS, or the courts . An allowance for doubtful accounts is established for the
difference between the gross receivables and the portion deemed collectible . The portion of tax receivables
estimated to be collectible and the allowance for doubtful accounts are based on projections of collectability
from a statistical sample of taxes receivable . The Treasury Department does not establish an allowance for
the receivable on deposits of Federal Reserve earnings .


B. Intra-governmental Accounts and Related Interest Receivable
Intra-governmental accounts receivable and interest mainly represents non-entity payments made by the
Treasury Department under the Contract Disputes Act ($364 million of the $466 million and $366 million
of the $483 million displayed for 2007 and 2006, respectively) . Unlike Judgment Fund payments, other fed­
eral agencies are required to reimburse the Treasury Department for payments made to contractors or federal
employees, on their behalf, under the Act . These amounts remain a receivable on the Treasury Department’s
books of the Financial Management Service and a payable on the other federal agencies’ books until reim­
bursement is made . The remaining amount displayed as intra-governmental accounts receivable and interest
is related to miscellaneous intra-governmental transactions by the Federal Reserve Banks, or through securi­
ties held under reverse repurchase agreements .




                                                                                                            Notes to the Financial Statements
160                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          11.         Inventory and Related Property, Net
                          Inventory and related property includes inventory, operating materials and supplies, and forfeited property
                          held by Treasury . The Treasury Department’s operating materials and supplies are maintained for the pro­
                          duction of bureau products . The Treasury Department maintains inventory accounts or balances (e .g ., met­
                          als, paper, etc .) for use in manufacturing currency and coins . The cost of these items is included in inventory
                          costs, and is recorded as cost of goods sold upon delivery to customers . Inventory for check processing
                          activities is also maintained .

                          As of September 30, 2007 and September 30, 2006, inventory and related property consisted of the follow­
                          ing (in millions):

                                                                                                                               2007                              2006
                          Operating materials and supplies held for use                                             $               15              $             $15
                          Operating materials and supplies held in reserve for future use                                           23                             23
                          Forfeited property                                                                                        85                             59
                          Inventory – raw materials                                                                                288                             81
                          Inventory – work in process                                                                              117                            142
                          Inventory – finished goods                                                                               121                             81
                          Total allowance for inventories and related property                                                     (11)                            (12)
                          Total Inventories and Related Property, Net                                               $              638              $             389




                          12. Property, Plant, and Equipment, Net
                          General Property, Plant and Equipment
                          As of September 30, 2007 and September 30, 2006, property, plant, and equipment consisted of the follow­
                          ing (in millions):

                                                                          Depreciation                                          Accumulated                   2007 Net
                                                                              Method        Service Life            Cost        Depreciation                Book Value
                          Buildings, structures and facilities                    S/L       3 - 50 years      $     658        $            (276)       $         382
                          Furniture, fixtures, and equipment                      S/L       2 - 20 years           3,271                  (2,503)                 768
                          Construction in progress                                N/A               N/A                 27                     0                   27
                          Land and land improvements                              N/A               N/A                 12                     0                   12
                          Internal use software                                   S/L       2 - 10 years           1,116                    (564)                 552
                          Internal use software in development                    S/L       2 - 30 years            148                        0                  148
                          Assets under capital lease                              S/L       2 - 25 years                25                   (12)                  13
                          Leasehold improvements                                  S/L       2 - 25 years            526                     (342)                 184
                          Total                                                                               $    5,783       $          (3,697)       $       2,086




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                                          161




                                               Depreciation                                       Accumulated                2006 Net
                                                   Method      Service Life           Cost        Depreciation             Book Value
Buildings, structures and facilities                     S/L   3 - 50 years   $       642        $         (249)       $         393
Furniture, fixtures, and equipment                       S/L   2 - 20 years       3,182                  (2,317)                 865
Construction in progress                                N/A            N/A             14                     0                   14
Land and land improvements                              N/A            N/A             12                     0                   12
Internal use software                                    S/L   2 - 10 years       1,027                    (431)                 596
Internal use software in development                     S/L   2 - 30 years            92                     0                   92
Assets under capital lease                               S/L   2 - 25 years            22                   (7)                   15
Leasehold improvements                                   S/L   2 - 25 years           487                  (292)                 195
Total                                                                         $   5,478          $       (3,296)       $       2,182




The Treasury Department leases land and buildings from the General Services Administration (GSA) to con­
duct most of its operations . GSA charges a standard level users fee which approximates commercial rental
rates for similar properties . The service life ranges are large due to the Treasury Department’s diversity of
held plant, property, and equipment .

Heritage Assets
The Treasury Department Complex (Main Treasury Building and Annex) was declared a national histori­
cal landmark in 1972 . The Treasury Department Complex is treated as a multi-use heritage asset and is
expected to be preserved indefinitely .


13. Non-Entity Assets
As of September 30, 2007 and September 30, 2006, non-entity assets consisted of the following (in millions):

                                                                                               2007                             2006
Intra-governmental Assets:
   Fund Balance (Note 2)                                                          $             874                $             753
   Loans and Interest Receivable (Note 3)                                                    202,488                         212,917
   Accounts Receivable and Related Interest (Note 10)                                           367                              372
   Advances to the Black Lung Trust Fund (Note 4)                                             10,058                           9,632
   Due from the General Fund (Note 4)                                                    9,052,624                         8,540,195
Total Non-Entity Intra-governmental Assets                                               9,266,411                         8,763,869


Cash, Foreign Currency, and Other Monetary Assets (Note 5)                                    70,701                          44,359
Gold & Silver Reserves (Note 6)                                                               11,062                          11,062
Loans and Interest Receivable (Note 3)                                                          133                              220
Tax, Other, and Related Interest Receivable, Net (Note 10)                                    27,399                          21,825
Miscellaneous Assets                                                                                 9                            11
Total Non-Entity Assets                                                           $      9,375,715                 $       8,841,346




                                                                                                                               Notes to the Financial Statements
162                                                                      Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Non-entity assets are those that are held by the Treasury Department but are not available for use by the
                          Treasury Department . Non-entity fund balance with Treasury represents unused balances of appropriations
                          received by various Treasury Department entities to conduct custodial operations such as the payment of
                          interest on the Federal debt and refunds of taxes and fees . Non-entity loans and interest receivable represents
                          loans managed by the Treasury Department on behalf of the U .S . government . These loans are provided
                          to federal agencies, and the Treasury Department is responsible for collecting these loans and transferring
                          the proceeds to the General Fund of the U .S . government . Non-entity cash, foreign currency, and other
                          monetary assets include the operating cash of the U .S . government, managed by the Treasury Department .
                          It also includes foreign currency maintained by various U .S . and military disbursing offices, as well as seized
                          monetary instruments .


                          14. Federal Debt & Interest Payable
                          The Treasury Department is responsible for administering the federal debt on behalf of the U .S . government .
                          The federal debt includes borrowings from the public as well as borrowings from federal agencies . The fed­
                          eral debt managed by the Treasury Department does not include debt issued by other governmental agencies
                          such as the Tennessee Valley Authority, or the Department of Housing and Urban Development .

                          The federal debt as of September 30, 2007 and September 30, 2006 was as follows (in millions):

                                                                                                                     FY 2007                        FY 2006
                          Intra-governmental

                          Beginning Balance                                                                 $      3,628,701               $      3,297,110
                          New Borrowings/Repayments                                                                  293,847                        331,591
                          Subtotal at Par Value                                                                    3,922,548                      3,628,701
                          Premium/(Discount)
                                                                           3,672                         (1,262)
                          Interest Payable Covered by Budgetary Resources 
                                           48,568                          45,678
                          Total                                                                             $      3,974,788               $      3,673,117


                          Owed to the Public                                                                         FY 2007                        FY 2006

                          Beginning Balance                                                                 $      4,843,121               $      4,601,239
                          New Borrowings/Repayments                                                                  206,184                        241,882
                          Subtotal at Par Value                                                                    5,049,305                      4,843,121
                          Premium/Discount                                                                            (39,441)                       (40,165)
                          Interest Payable Covered by Budgetary Resources                                             44,386                          41,118
                          Total                                                                             $      5,054,250               $      4,844,074



                          Debt held by the public approximates the U .S . government’s competition with other sectors in the credit
                          markets . In contrast, debt held by federal entities, primarily trust funds, represents the cumulative annual
                          surpluses of these funds (i .e . excess of receipts over disbursements plus accrued interest) that have been used
                          to finance general government operations .




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                                            163




Federal Debt held by Other Federal Agencies
Certain federal agencies are allowed to invest excess funds in debt securities issued by the Treasury
Department on behalf of the U .S . government . The terms and the conditions of debt securities issued are
designed to meet the cash needs of the U .S . government . The vast majority is non-marketable securities
issued at par value, but some are issued at market prices whose prices and interest rates reflect market terms .
The average interest rate for debt held by the federal entities in FY 2007 was 5 .1% (5 .2% in FY 2006) .

The federal debt also includes intra-governmental marketable debt securities that certain agencies are permit­
ted to buy and sell on the open market . The debt, at par value (not including interest receivable), owed to
federal agencies as of September 30, 2007 and September 30, 2006 was as follows (in millions):

                                                                                                     2007                          2006
Social Security Administration                                                        $          2,182,091            $       1,995,307
Office of Personnel Management                                                                     762,013                      722,042
Department of Defense Agencies                                                                     288,456                      259,961
Department of Health and Human Services                                                            361,294                      337,659
All Other Federal Entities - Consolidated                                                          328,694                      313,732
Total Federal Debt Held by Federal Entities                                           $          3,922,548            $       3,628,701

The above balances do not include premium/discount and interest payable .


Federal Debt Held by the Public
As of September 30, 2007 and September 30, 2006, Federal Debt held by the Public consisted of the
following:
                                                                                                           Average
                                    (at par value, in millions)                           Term       Interest Rates               2007
Marketable:
   Treasury Bills                                                              1 Year or Less                4.6%         $     954,607
   Treasury Notes                                                      Over 1 Year - 10 Years                4.4%             2,456,100
   Treasury Bonds                                                              Over 10 Years                 7.4%               560,922
   Treasury Inflation Protected Security (TIPS)                              5 Years or More                 2.3%               456,776
Total Marketable                                                                                                              4,428,405
Non-Marketable                                                    On Demand to Over 10 Years                 4.9%               620,900
Total Federal Debt (Public)                                                                                               $   5,049,305

                                                                                                           Average
                                    (at par value, in millions)                           Term       Interest Rates               2006
Marketable:
   Treasury Bills                                                              1 Year or Less                5.0%         $     908,474
   Treasury Notes                                                      Over 1 Year - 10 Years                4.2%             2,445,307
   Treasury Bonds                                                              Over 10 Years                 7.6%               534,473
   Treasury Inflation Protected Security (TIPS)                              5 Years or More                 2.3%               395,550
Total Marketable                                                                                                              4,283,804
Non-Marketable                                                    On Demand to Over 10 Years                 5.0%               559,317
Total Federal Debt (Public)                                                                                               $   4,843,121

The above balances do not include premium/discount and interest payable .



                                                                                                                                 Notes to the Financial Statements
164                                                                Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          The Treasury Department issues marketable bills at a discount and pays the par amount of the security upon
                          maturity . The average interest rate on Treasury bills represents the original issue effective yield on securities
                          outstanding as of September 30, 2007 and 2006, respectively . Treasury bills are issued with a term of one
                          year or less .

                          The Treasury Department issues marketable notes and bonds as long-term securities that pay semi-annual
                          interest based on the securities’ stated interest rates . These securities are issued at either par value or at an
                          amount that reflects a discount or a premium . The average interest rate on marketable notes and bonds
                          represents the stated interest rate adjusted by any discount or premium on securities outstanding as of
                          September 30, 2007 and 2006 . Treasury notes are issued with a term of over one year to 10 years and
                          Treasury bonds are issued with a term of more than 10 years . The Treasury Department also issues inflation–
                          indexed securities (TIPS) that have interest and redemption payments, which are tied to the Consumer
                          Price Index, a widely used measurement of inflation . TIPS are issued with a term of five years or more . At
                          maturity, TIPS are redeemed at the inflation-adjusted principal amount, or the original par value, whichever
                          is greater . TIPS pay a semi-annual fixed rate of interest applied to the inflation-adjusted principal .


                          Other Debt and Interest Payable
                          Borrowings outstanding are with the Civil Service Trust Fund, which is administered by the Office of
                          Personnel Management . The interest rates on these borrowings range from 4 .62% to 5 .62%, and the matu­
                          rity dates range from June 30, 2009 to June 30, 2019 . Borrowings began in 2005 .


                          15. District of Columbia (D.C.) Pensions Actuarial Liability
                          Pursuant to the Title XI of the Balanced Budget Act of 1997, as amended (the Act), on October 1, 1997,
                          the Treasury Department became responsible for certain District of Columbia retirement plans . The Act was
                          intended to relieve the District of Columbia Government of the burden of unfunded pension liabilities trans­
                          ferred to the District by the U .S . government in 1979 . To fulfill its responsibility, the Treasury Department
                          manages two funds -- the D .C . Teachers, Police Officers and Firefighters Federal Pension Fund (the D .C .
                          Federal Pension Fund), and the District of Columbia Judicial Retirement and Survivors Annuity Fund (the
                          Judicial Retirement Fund) . The Treasury Department is required to make annual amortized payments from
                          the General Fund of the U .S . government to the D .C . Federal Pension Fund and the Judicial Retirement
                          Fund . The actuarial cost method used to determine costs for the retirement plans is the Aggregate Entry
                          Age Normal Actuarial Cost Method . The actuarial liability is based upon long term assumptions selected by
                          the Treasury Department . The pension benefit costs incurred by the plans are included on the Consolidated
                          Statements of Net Cost .


                          D.C. Federal Pension Fund
                          The purpose of the D .C . Federal Pension Fund is to make federal benefit payments and pay necessary
                          administrative expenses for the District of Columbia Police Officers’, Firefighters’, and Teachers’ Retirement
                          Plans for benefits earned based upon service on or before June 30, 1997 . The amount paid into the D .C .
                          Federal Pension Fund from the General Fund of the U .S . government was $345 .4 million for FY 2007
                          ($285 .4 million during FY 2006) . As of September 30, 2007, the unobligated budgetary resources of the




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                        165




D .C . Federal Pension Fund was approximately $3 .6 billion, and the pension actuarial liability was $8 .9 bil­
lion, resulting in an unfunded liability of $5 .3 billion . (As of September 30, 2006, the unobligated budget­
ary resources of the D .C . Federal Pension Fund was approximately $3 .5 billion, and the pension actuarial
liability was $8 .9 billion, resulting in an unfunded liability of $5 .4 billion .) In FY 2007, the assumption for
the annual rate of investment return in FY 2008 is 4 .7% for the D .C . Federal Pension Fund with a gradual
increase to 6% by FY 2013; and, the assumption for the future annual rate of inflation and future cost-of­
living adjustments were 3 .5% . In FY 2006, the assumption for the annual rate of investment return was
4 .8% for the D .C . Federal Pension Fund with a gradual increase to 6% by FY 2012; and, the assumption
for the future annual rate of inflation and the future cost-of-living adjustments was 3 .5% . In FY 2007, the
assumption for the future annual rate of salary increases is 6 .5% for the police officers and firefighters (also
6 .5% during FY 2006), and 5 .5% for teachers (also 5 .5% during FY 2006) .


Judicial Retirement Fund
The purpose of the Judicial Retirement Fund was to make federal benefit payments and pay necessary admin­
istrative expenses of the Judges’ Retirement Plan for all benefits earned . The amount paid into the Judicial
Retirement Fund from the General Fund of the U .S . government was $7 .4 million for FY 2007 ($7 .4 million
during FY 2006) . As of September 30, 2007, the unobligated budgetary resources of the Judicial Retirement
Fund was approximately $114 .3 million, and the pension actuarial liability was $150 .1 million, resulting in an
unfunded liability of $35 .8 million . (As of September 30, 2006, the unobligated budgetary resources of the
Judicial Retirement Fund was approximately $107 .9 million, and the pension actuarial liability was $145 .7
million, resulting in an unfunded liability of $37 .8 million .) In FY 2007, the assumption for the future
annual rate of investment return was 6% for the Judicial Retirement Fund; and, the annual rate of inflation
and cost-of-living adjustments were 3 .5% . In FY 2007, the assumption for the annual rate of salary increases
was 3 .5% for judges . These economic assumptions are unchanged from FY 2006 .


16. Commitments and Contingencies

Legal Contingencies
The Department is a party in various administrative proceedings, legal actions, and claims including equal
opportunity matters which may ultimately result in settlements or decisions adverse to the Federal govern­
ment . These contingent liabilities arise in the normal course of operations and their ultimate disposition is
unknown . Treasury does not have any FY 2007 contingent liabilities where losses are determined to be prob­
able and amounts can be estimated . However, other significant contingencies exist where a loss is reasonably
possible or where a loss is probable and an estimate cannot be determined . The Department has disclosed
contingent liabilities where the conditions for liability recognition have not been met and the likelihood of
unfavorable outcome is more than remote . The Department does not accrue for possible losses related to
cases where the potential loss cannot be estimated or the likelihood of an unfavorable outcome is less than
probable .

In some cases, a portion of any loss that may occur may be paid by the Treasury’s Judgment Fund which is
separate from the operating resources of the Department . For those cases related to the Contract Disputes




                                                                                                             Notes to the Financial Statements
166                                                                Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Act of 1978 and awards under Federal anti-discrimination and whistleblower protection act, Treasury must
                          reimburse the Judgment Fund from future appropriations .

                          In the opinion of the Department’s management and legal counsel, based on information currently available,
                          the expected outcome of legal actions, individually or in the aggregate, will not have a materially adverse
                          effect on the Department’s financial statements, except for the legal actions described below which are pos­
                          sible significant contingencies .


                          Pending Legal Actions
                              •	 The American Council of the Blind and Others: Plaintiffs have filed suit against the Department
                                 under Section 504 of the Rehabilitation Act seeking the redesign of U .S . currency . A judge has ruled
                                 that the current U .S . currency design violates this Act and this ruling has been appealed . Should the
                                 appellate court find for the plaintiffs in this case, the Department may be required to make changes to
                                 U .S . currency that would result in capital investment costs of up to $320 million, as well as increased
                                 annual expenditures of up to $174 million . Any such costs would be charged to the Federal Reserve as
                                 part of the billing rate for the production of U .S . currency .
                              •	 Cobell v. Kempthorne (formerly Cobell v. Norton): Native Americans allege that the Department of
                                 Interior and the Department have breached trust obligations with respect to the management of the
                                 plaintiffs’ individual Indian monies . The plaintiffs have not made claims for specific dollar amounts
                                 in the Federal district court proceedings, but in public statements the tribes have asserted that the
                                 potential loss could reach $27 .5 billion .
                              •	 Tribal Trust Fund Cases: Numerous cases have been filed in which Native American Tribes seek a
                                 declaration that the U .S . has not provided the tribes with a full and complete accounting of their trust
                                 funds, and seek an order requiring the government to provide such an accounting . In addition, there
                                 are a number of other related cases for damages which do not name the Department as a defendant .
                                 It is probable that additional tribes may file claims . It is not possible at this time to determine the
                                 number of suits that may be filed or the amount of damages that may be claimed .
                              •	 Other Legal Actions: The Department is also involved in employment related legal actions (e .g .,
                                 Discrimination, Equal Employment Opportunity Commission, Merit System Protection Board, etc .)
                                 which were reported to be reasonably possible, but for which an estimate of potential loss cannot be
                                 determined at this time .

                          There are also other legal actions pending where the ultimate resolution of the legal actions, for which the
                          possibility of loss could not be determined, may materially affect Treasury’s financial position or results . As
                          of September 30, 2007, 28 legal claims amounting to approximately $126 million existed for which the pos­
                          sibility of loss could not be determined .




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                         167




Other Contingencies
Multilateral Development Banks (MDBs): The Treasury Department has subscribed to capital for certain
MDBs, portions of which are callable under certain limited circumstances to meet the obligations of the
respective MDBs . There has never been, nor is there anticipated, a call on the Treasury Department sub­
scriptions . As of September 30, 2007 and September 30, 2006, U .S . callable capital in MDBs was as follows
(in millions):

                                                                                 2007                          2006
African Development Bank                                                $       1,602                 $       1,513
Asian Development Bank                                                          5,911                         5,911
European Bank for Reconstruction and Development                                1,805                         1,803
Inter-American Development Bank                                                28,687                        28,687
International Bank for Reconstruction and Development                          22,641                        22,642
Multilateral Investment Guarantee Agency                                          301                           293
North American Development Bank                                                 1,275                         1,275
Total                                                                   $      62,222                 $      62,124




Terrorism Risk Insurance Program: The Terrorism Risk Insurance Act (TRIA) was signed into law on
November 26, 2002 . This law was enacted to address market disruptions resulting from terrorist attacks
on September 11, 2001 . The act helps to ensure available and affordable commercial property and casualty
insurance for terrorism risk, and simultaneously allows private markets to stabilize . If a certified act of terror­
ism occurs, insurers may be eligible to receive reimbursement from the Federal government for insured losses
above a designated deductible amount . Insured losses above this amount will be shared between insurance
companies and the Federal government . The Terrorism Risk Insurance Program is activated upon the certifi­
cation of an “act of terrorism” by the Secretary of the Treasury in concurrence with the Secretary of State and
the Attorney General .

The original TRIA program expired on December 31, 2005 . However, this program was subsequently
extended through December 31, 2007 when President Bush signed the Terrorism Risk Insurance Extension
Act of 2005 . This law includes the following changes: a reduced Federal role in terrorism risk insurance
markets by increasing insurer deductibles and the exclusion of certain types of previously covered insurance .
The act also reduces the Federal governments’ share of insured losses . Another noteworthy change is a
“Program Trigger” provision which precludes Federal payments unless insured losses from a certified terror­
ism event exceed $100 million in FY 2007 and $100 million in FY 2008 . Legislation has been introduced to
extend the program beyond 2007 .




                                                                                                              Notes to the Financial Statements
168                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          17. Liabilities

                          Liabilities Not Covered by Budgetary and Other Resources
                          As of September 30, 2007 and September 30, 2006, liabilities not covered by budgetary and other resources
                          consisted of the following (in millions):

                                                                                                                                    2007                  2006
                          Intra-governmental Liabilities Not Covered by Budgetary & Other Resources:
                             Federal Debt Principal, Premium/Discount (Note 14)                                          $   3,926,220           $   3,627,439
                             Other Intra-governmental Liabilities                                                                    105                   103
                          Total Intra-governmental Liabilities Not Covered by Budgetary & Other Resources                    3,926,325               3,627,542


                          Federal Debt Principal, Premium/Discount (Note 14)                                                 5,009,864               4,802,956
                          D.C. Pensions Liability (Note 15)                                                                         5,313                5,422
                          Other Liabilities                                                                                         1,037                1,055
                          Total Liabilities Not Covered by Budgetary & Other Resources                                   $   8,942,539           $   8,436,975




                          Other Liabilities
                          Total “Other Liabilities” displayed on the Balance Sheets consists of both liabilities that are covered and not
                          covered by budgetary resources . The amounts displayed of $3,664 million and $3,816 million, respectively,
                          at September 30, 2007 and September 30, 2006 consisted of the following (in millions):

                                                                                                                                    2007
                                                                                                                                       Non-
                                                                                                               Current               Current              Total
                          Intra-governmental
                          Unfunded Federal Workers Compensation Program Liability (FECA)                   $       44           $           58       $     102
                          Accounts Payable                                                                         46                       21              67
                          Other Accrued Liabilities                                                               158                        2             160
                          Total Intra-governmental                                                                248                       81             329


                          With the Public
                          Actuarial Federal Workers Compensation Program Liability (FECA)                            0                  573                573
                          Liability for Deposit Funds (Held by the Federal Government for Others) &
                                                                                                                  573                        0             573
                          Suspense Accounts
                          Accrued Funded Payroll and Benefits                                                     402                        0             402
                          Capital Lease Liabilities                                                                  2                       5               7
                          Accounts Payable & Other Accrued Liabilities                                          2,045                       64           2,109
                          Total with the Public                                                            $    3,022           $       642          $   3,664




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                              169




                                                                                                   2006
                                                                                                      Non-
                                                                                     Current        Current         Total
Intra-governmental
Unfunded Federal Workers Compensation Program Liability (FECA)                   $       51    $          66   $    117
Accounts Payable                                                                         60                0          60
Other Accrued Liabilities                                                               121                3        124
Total Intra-governmental                                                                232               69        301


With the Public
Actuarial Federal Workers Compensation Program Liability (FECA)                           0            601          601
Liability for Deposit Funds (Held by the Federal Government for Others) & Sus­
                                                                                        498                0        498
pense Accounts
Accrued Funded Payroll and Benefits                                                     343                0        343
Capital Lease Liabilities                                                                 1                3           4
Accounts Payable & Other Accrued Liabilities                                          2,336               34       2,370
Total with the Public                                                            $    3,178    $       638     $   3,816




18. Net Position
Unexpended Appropriations represents the amount of spending authorized as of year-end that is unliqui­
dated or unobligated and has not lapsed, been rescinded, or withdrawn . No-year appropriations remain
available for obligation until expended . Annual appropriations remain available for upward or downward
adjustment of obligations until expired .

Cumulative Results of Operations represents the net results of operations since inception, and includes
cumulative amounts related to investments in capitalized assets and donations and transfers of assets in and
out without reimbursement . Also included as a reduction in Cumulative Results of Operations are accruals
for which the related expenses require funding from future appropriations and assessments . These future
funding requirements include, among others (a) accumulated annual leave earned but not taken, (b) accrued
workers compensation, and (c) expenses for contingent liabilities .

The amount reported as “appropriations received” are appropriated from Treasury General Fund of the U .S .
government receipts, such as income taxes, that are not earmarked by law for a specific purpose . This amount
will not necessarily agree with the “appropriation received” amount reported on the Statement of Budgetary
Resources (SBR) because of differences between proprietary and budgetary accounting concepts and report­
ing requirements . For example, certain dedicated and earmarked receipts are recorded as “appropriations
received” on the SBR, but are recognized as exchange or non-exchange revenue (i .e . typically in special and
non-revolving trust funds) and reported on the Statement of Changes in Net Position in accordance with
Statement of Federal Financial Accounting Standards (SFFAS No .7 .)




                                                                                                                   Notes to the Financial Statements
170                                                               Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Transfers to the General Fund and Other
                          The amount reported as “Transfers to the General Fund and Other” on the Consolidated Statements of
                          Changes in Net Position under “Other Financing Sources” mainly represents the distribution of interest
                          revenue to the General Fund of the U .S . government of $12,393 million and $13,192 million, for the year
                          ended September 30, 2007 and year ended September 30, 2006, respectively . The interest revenue is accrued
                          on inter-agency loans held by the Treasury Department on behalf of the U .S . Government . A corresponding
                          balance is reported on the Consolidated Statement of Net Cost under “Federal Costs: Less Interest Revenue
                          from Loans .” The amount reported on the Consolidated Statement of Net Cost is reduced by eliminations
                          with Treasury bureaus .

                          The Treasury Department also includes seigniorage in “Transfers to the General Fund and Other .”
                          Seigniorage is the face value of newly minted circulating coins less the cost of production . The United States
                          Mint is required to distribute the seigniorage that it recognizes to the General Fund of the U .S . government .
                          The distribution is also included in “Transfers to the General Fund and Other .” In any given year, the
                          amount recognized as seigniorage may differ for the amount distributed to the General Fund by an insignifi­
                          cant amount due to timing differences .

                          Seigniorage in the amounts of $1 .032 billion and $682 million was recognized, respectively, for the year
                          ended September 30, 2007 and year ended September 30, 2006 . Distributions to the General Fund, includ­
                          ing seigniorage, amounted to $825 million and $750 million, respectively, for the years ended September 30,
                          2007, and September 30, 2006 .


                          19. Consolidated Statement of Net Cost & Net
                              Costs of Treasury Sub-organizations
                          The Treasury Department’s Consolidated Statement of Net Cost displays information on a consolidated
                          basis . The complexity of the Treasury Department’s organizational structure and operations requires that sup­
                          porting schedules for Net Cost be included in the notes to the financial statements . These supporting sched­
                          ules provide consolidating information, which fully displays the costs of each sub-organization (Departmental
                          Offices and each operating bureau) .

                          The classification of sub-organizations has been determined in accordance with SFFAS No . 4, “Managerial
                          Cost Accounting Concepts and Standards for the Federal Government” which states that the predominant fac­
                          tor is the reporting entity’s organization structure and existing responsibility components, such as bureaus,
                          administrations, offices, and divisions within a department .

                          Each sub-organization is responsible for accumulating costs . The assignment of the costs to Treasury-wide
                          programs is the result of using the following cost assignment methods: (1) direct costs; (2) cause and effect;
                          and (3) cost allocation .

                          Intra-Departmental costs/revenues resulting from the provision of goods and/or services on a reimburs­
                          able basis among Departmental sub-organizations are reported as costs by providing sub-organizations .
                          Accordingly, such costs/revenues are eliminated in the consolidation process .




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                    171




To the extent practical or reasonable to do so, earned revenue is deducted from the gross costs of the pro­
grams to determine their net cost . There are no precise guidelines to determine the degree to which earned
revenue can reasonably be attributed to programs . The attribution of earned revenues requires the exercise of
managerial judgment .

The Treasury Department’s Consolidated Statement of Net Cost also presents interest expense on the Federal
Debt and other Federal costs incurred as a result of assets and liabilities managed on behalf of the U .S .
government . These costs are not reflected as program costs related to the Treasury Department’s strategic plan
missions . Such costs are eliminated in the consolidation process to the extent that they involve transactions
with Treasury Department sub-organizations .

Other federal costs for the years ended September 30, 2007 and September 30, 2006 consisted of the follow­
ing (in millions):

                                                                                    2007                 2006
Credit Reform Interest on Uninvested Funds (Intra-governmental)             $      4,632         $       5,200
Resolution Funding Corporation                                                     1,987                 1,979
Judgment Claims and Contract Disputes                                              1,222                  677
Corporation for Public Broadcasting                                                  464                  460
Legal Services Corporation                                                           350                  328
All Other Payments                                                                   208                  296
Total                                                                       $      8,863         $      $8,940




FY 2007 Presentation Changes
The Government Performance Results Act (GPRA) requires that Federal agencies formulate Strategic Plans,
identify major strategic goals, and report performance and costs related to the goals . Under GPRA, strategic
plans are to be revised and updated every three years . Accordingly, Treasury updated the Departmentwide
Strategic Plan in FY 2007 by adding an additional goal applicable to FY 2007 and thereafter . The Security
Program Mission goal was added . It is defined as “Prevent Terrorism and Promote the Nation’s Security
Through Strengthened International Financial Systems .”

OMB Circular No . A-136 “Financial Reporting Requirements” requires that the presentation of the Statements
of Net Cost align directly with the goals and outcomes identified in the Strategic Plan . Accordingly, Treasury
has presented the gross costs and earned revenues in FY 2007 by the applicable mission goals in Treasury’s
FY 2007 Strategic Plan and the gross costs and earned revenues for FY 2006 by the applicable mission goals
in Treasury’s FY 2006 Strategic Plan . As a result, the FY 2007 Consolidated Statement of Net Cost is not
comparable to the FY 2006 Consolidated Statement of Net Cost .




                                                                                                         Notes to the Financial Statements
                                                                                                                                                                                                                    172




                                    19. Consolidated Statement of Net Cost & Net Costs of Treasury Sub-organizations (In Millions):

                                    FYE September 30, 2007                       Bureau of                                              Financial Crimes           Financial
                                                                               Engraving &         Bureau of the        Departmental        Enforcement         Management            Internal
                                    Program Costs:                                 Printing          Public Debt              Offices           Network              Service   Revenue Service        U.S. Mint




Notes to the Financial Statements
                                      Financial Program:
                                      Intra-governmental Gross Costs       $             0     $             76     $          1,395    $             0     $           171    $        3,967     $           0
                                      Less: Earned Revenue                               0                  (14)              (2,097)                 0                (144)               (45)               0
                                      Intra-governmental Net Costs                       0                   62                (702)                  0                  27             3,922                 0

                                      Gross Costs with the public                        0                  259                  474                  0                 981             8,049                 0
                                      Less: Earned Revenue                               0                    (3)                  0                  0                   0              (231)                0
                                      Net Costs with the public                          0                  256                  474                  0                 981             7,818                 0
                                            Net Cost: Financial Program                  0                  318                 (228)                 0               1,008            11,740                 0
                                      Economic Program:
                                      Intra-governmental Gross Costs                    81                    0                   69                  0                   0                 0               69
                                      Less: Earned Revenue                               (5)                  0                 (850)                 0                   0                 0                (9)
                                      Intra-governmental Net Costs                      76                    0                 (781)                 0                   0                 0               60

                                      Gross Costs with the public                     466                     0                2,593                  0                   0                 0            1,520
                                      Less: Earned Revenue                            (573)                   0               (3,033)                 0                   0                 0            (1,595)
                                      Net Costs with the public                       (107)                   0                 (440)                 0                   0                 0               (75)
                                            Net Cost: Economic Program                 (31)                   0               (1,221)                 0                   0                 0               (15)

                                      Security Program:

                                      Intra-governmental Gross Costs                     0                    0                  135                 51                   0                 0                 0

                                      Less: Earned Revenue
                              0                    0                  (13)                 (1)                 0                 0                 0
                                      Intra-governmental Net Costs                       0                    0                  122                 50                   0                 0                 0

                                      Gross Costs with the public                        0                    0                  126                 57                   0                 0                 0
                                      Less: Earned Revenue                               0                    0                    0                  0                   0                 0                 0
                                      Net Costs with the public                          0                    0                  126                 57                   0                 0                 0
                                            Net Cost: Security Program                   0                    0                  248                107                   0                 0                 0
                                      Management Program:
                                      Intra-governmental Gross Costs                     0                    0                  167                  0                   0                 0                 0
                                      Less: Earned Revenue                               0                    0                 (720)                 0                   0                 0                 0
                                      Intra-governmental Net Costs                       0                    0                 (553)                 0                   0                 0                 0

                                      Gross Costs with the public                        0                    0                  770                  0                   0                 0                 0
                                      Less: Earned Revenue                               0                    0                    0                  0                   0                 0                 0
                                      Net Costs with the public                          0                    0                  770                  0                   0                 0                 0
                                            Net Cost: Management Program                 0                    0                  217                  0                   0                 0                 0
                                                                                                                                                                                                                    Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                      Net Cost of Treasury Operations      $           (31)    $            318     $           (984)   $           107     $         1,008    $       11,740     $         (15)
                                                                                                                                                                                                      (continued)
                                    19. Consolidated Statement of Net Cost & Net Costs of Treasury Sub-organizations (In Millions):

                                    FYE September 30, 2007                     Office of the                           Alcohol, Tobacco
                                                                           Comptroller of the   Office of the Thrift             Tax and                          Eliminations and         9/30/2007
                                    Program Costs:                                 Currency            Supervision        Trade Bureau          Combined Total        Adjustments        Consolidated
                                      Financial Program:
                                      Intra-governmental Gross Costs       $               0    $                 0    $             14     $           5,623     $        (1,441)   $         4,182
                                      Less: Earned Revenue                                 0                      0                   0                (2,300)                291             (2,009)
                                      Intra-governmental Net Costs                         0                      0                  14                 3,323              (1,150)             2,173

                                      Gross Costs with the public                          0                      0                  35                 9,798                   0              9,798
                                      Less: Earned Revenue                                 0                      0                  (2)                 (236)                  0               (236)
                                      Net Costs with the public                            0                      0                  33                 9,562                   0              9,562
                                            Net Cost: Financial Program                    0                      0                  47                12,885              (1,150)           11,735
                                      Economic Program:
                                      Intra-governmental Gross Costs                      89                    30                   13                   351                 (48)               303
                                      Less: Earned Revenue                               (27)                   (16)                  0                  (907)                889                 (18)
                                                                                                                                                                                                         Part III – Annual Financial Report




                                      Intra-governmental Net Costs                        62                    14                   13                  (556)                841                285

                                      Gross Costs with the public                       548                    195                   35                 5,357                   0              5,357
                                      Less: Earned Revenue                              (669)                 (227)                   (1)              (6,098)                  0             (6,098)
                                      Net Costs with the public                         (121)                   (32)                 34                  (741)                  0               (741)
                                            Net Cost: Economic Program                   (59)                   (18)                 47                (1,297)                841               (456)

                                      Security Program:

                                      Intra-governmental Gross Costs                       0                      0                   0                   186                 (67)               119

                                      Less: Earned Revenue
                                0                      0                   0                    (14)                12                  (2)
                                      Intra-governmental Net Costs                         0                      0                   0                   172                 (55)               117

                                      Gross Costs with the public                          0                      0                   0                   183                   0                183
                                      Less: Earned Revenue                                 0                      0                   0                     0                   0                  0
                                      Net Costs with the public                            0                      0                   0                   183                   0                183
                                            Net Cost: Security Program                     0                      0                   0                   355                 (55)               300
                                      Management Program:
                                      Intra-governmental Gross Costs                       0                      0                   0                   167                 (54)               113
                                      Less: Earned Revenue                                 0                      0                   0                  (720)                277               (443)
                                      Intra-governmental Net Costs                         0                      0                   0                  (553)                223               (330)

                                      Gross Costs with the public                          0                      0                   0                   770                   0                770
                                      Less: Earned Revenue                                 0                      0                   0                     0                   0                  0
                                      Net Costs with the public                            0                      0                   0                   770                   0                770
                                            Net Cost: Management Program                   0                      0                   0                   217                 223                440
                                    Net Cost of Treasury Operations                    ($59)                 ($18)                 $94               $12,160               ($141)           $12,019
                                                                                                                                                                                             continued




Notes to the Financial Statements
                                                                                                                                                                                                         173
                                                                                                                                                                                                                     174




                                    19. Consolidated Statement of Net Cost & Net Costs of Treasury Sub-organizations (In Millions):




Notes to the Financial Statements
                                    FYE September 30, 2006                       Bureau of                                              Financial Crimes           Financial
                                                                               Engraving &         Bureau of the        Departmental        Enforcement         Management     Internal Revenue
                                    Program Costs:                                 Printing          Public Debt              Offices           Network              Service             Service        U.S. Mint
                                      Economic Program:
                                      Intra-governmental Gross Costs       $             0     $              0     $            198    $             0     $             0    $              0    $           0
                                      Less: Earned Revenue                               0                    0                 (706)                 0                   0                   0                0
                                      Intra-governmental Net Costs                       0                    0                 (508)                 0                   0                   0                0

                                      Gross Costs with the public                        0                    0                2,003                  0                   0                   0                0
                                      Less: Earned Revenue                               0                    0               (1,026)                 0                   0                   0                0
                                      Net Costs with the public                          0                    0                  977                  0                   0                   0                0
                                            Net Cost: Economic Program                   0                    0                  469                  0                   0                   0                0

                                      Financial Program:
                                      Intra-governmental Gross Costs                    83                   73                1,617                 51                 165              3,829                72
                                      Less: Earned Revenue                               (6)                (17)              (2,127)                 (1)              (136)                (47)               (8)
                                      Intra-governmental Net Costs                      77                   56                 (510)                50                  29              3,782                64

                                      Gross Costs with the public                     418                   236                1,206                 49                 943              7,869            1,526
                                      Less: Earned Revenue                            (471)                   (3)                  0                  0                   0                (166)          (1,633)
                                      Net Costs with the public                        (53)                 233                1,206                 49                 943              7,703              (107)
                                            Net Cost: Financial Program                 24                  289                  696                 99                 972             11,485               (43)

                                      Management Program:
                                      Intra-governmental Gross Costs                     0                    0                  158                  0                   0                   0                0
                                      Less: Earned Revenue                               0                    0                 (818)                 0                   0                   0                0
                                      Intra-governmental Net Costs                       0                    0                 (660)                 0                   0                   0                0

                                      Gross Costs with the public                        0                    0                  881                  0                   0                   0                0
                                      Less: Earned Revenue                               0                    0                    0                  0                   0                   0                0
                                      Net Costs with the public                          0                    0                  881                  0                   0                   0                0
                                            Net Cost: Management Program                 0                    0                  221                  0                   0                   0                0
                                      Net Cost of Treasury Operations      $            24     $            289     $          1,386    $            99     $           972    $        11,485     $         (43)
                                                                                                                                                                                                       (continued)
                                                                                                                                                                                                                     Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007
                                    19. Consolidated Statement of Net Cost & Net Costs of Treasury Sub-organizations (In Millions):


                                    FYE September 30, 2006                     Office of the                            Alcohol, Tobacco
                                                                           Comptroller of the    Office of the Thrift      Tax and Trade                         Eliminations and         9/30/2006
                                    Program Costs:                                 Currency             Supervision               Bureau        Combined Total       Adjustments        Consolidated
                                      Economic Program:
                                      Intra-governmental Gross Costs       $              12     $                 3    $            13     $             226    $           (21)   $           205
                                      Less: Earned Revenue                                 (3)                    (2)                 0                  (711)               705                  (6)
                                      Intra-governmental Net Costs                         9                       1                 13                  (485)               684                199

                                      Gross Costs with the public                         78                     18                  35                 2,134                  0              2,134
                                      Less: Earned Revenue                               (96)                    (22)                 (1)              (1,145)                 0             (1,145)
                                      Net Costs with the public                          (18)                     (4)                34                   989                  0                989
                                            Net Cost: Economic Program                    (9)                     (3)                47                   504                684              1,188

                                      Financial Program:
                                                                                                                                                                                                        Part III – Annual Financial Report




                                      Intra-governmental Gross Costs                      62                     25                  13                 5,990             (1,359)             4,631
                                      Less: Earned Revenue                               (17)                    (12)                 0                (2,371)               280             (2,091)
                                      Intra-governmental Net Costs                        45                     13                  13                 3,619             (1,079)             2,540

                                      Gross Costs with the public                       422                     160                  36                12,865                  0             12,865
                                      Less: Earned Revenue                              (517)                  (201)                  (1)              (2,992)                 0             (2,992)
                                      Net Costs with the public                          (95)                    (41)                35                 9,873                  0              9,873
                                            Net Cost: Financial Program                  (50)                    (28)                48                13,492             (1,079)            12,413

                                      Management Program:
                                      Intra-governmental Gross Costs                       0                       0                  0                   158                (52)               106
                                      Less: Earned Revenue                                 0                       0                  0                  (818)               259               (559)
                                      Intra-governmental Net Costs                         0                       0                  0                  (660)               207               (453)

                                      Gross Costs with the public                          0                       0                  0                   881                  0                881
                                      Less: Earned Revenue                                 0                       0                  0                     0                  0                  0
                                      Net Costs with the public                            0                       0                  0                   881                  0                881
                                            Net Cost: Management Program                   0                       0                  0                   221                207                428
                                      Net Cost of Treasury Operations      $             (59)    $               (31)   $            95     $          14,217    $          (188)   $        14,029




Notes to the Financial Statements
                                                                                                                                                                                                        175
176                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          20. Additional Information Related to the
                              Combined Statements of Budgetary Resources
                          Federal agencies are required to disclose additional information related to the Combined Statements of
                          Budgetary Resources (per OMB Circular A-136, “Financial Reporting Requirements”) as amended . In
                          accordance with SFFAS No . 7, the Department must report the value of goods and services ordered and obli­
                          gated which have not been received . This amount includes any orders for which advance payment has been
                          made but for which delivery or performance has not yet occurred . The information for the fiscal years ended
                          September 30, 2007 and September 30, 2006 was as follows (in millions):

                                                                                                                               2007                        2006
                          Undelivered orders at the end of the period                                                 $      56,304              $       51,382
                          Available borrowing and contract authority at the end of the period                         $        5,716             $        5,720




                          Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations
                                                                                                                               2007                        2006
                          Obligations Incurred
                            Direct - Category A                                                                       $        6,525             $        8,832
                            Direct - Category B                                                                              14,197                      13,652
                            Direct - Exempt from Apportionment                                                              440,277                    418,314
                          Total Direct                                                                                      460,999                    440,798

                            Reimbursable - Category B                                                                          3,344                      3,739
                            Reimbursable - Exempt from Apportionment                                                           1,187                      1,014
                          Total Reimbursable                                                                                   4,531                      4,753

                          Total Direct and Reimbursable                                                               $     465,530              $     445,551




                          Reconciliation of the President’s Budget
                          The Budget of the United States (also known as the President’s Budget), with actual numbers for FY 2007, was
                          not published at the time that these financial statements were issued . The President’s Budget is expected to
                          be published in January 2008 . It will be available from the United States Government Printing Office . The
                          following chart displays the differences between the Combined Statement of Budgetary Resources (SBR) in
                          the FY 2006 Performance and Accountability Report and the actual FY 2006 balances included in the FY
                          2008 President’s Budget (PB) .




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                                                                  177




                 Reconciliation of FY 2006 Combined Statement of Budgetary Resources
                             To the FY 2008 President’s Budget (in millions)
                                                                                        Outlays (net
                                                                     Budgetary          of offsetting        Offsetting                            Obligations
                                                                     Resources          collections)          Receipts         Net Outlays           Incurred

Statement of Budgetary Resources Amounts                         $ 503,091           $ 429,595          $     (16,568)      $ 413,027           $ 445,551

Included in the Treasury Chapter of the President’s
Budget (PB) but not in the Statement of Budgetary
Resources (SBR):
IRS non-entity tax credit payments (1)                                 55,930               55,930                 (25)           55,905              55,930
Tax and Trade Bureau (TTB) non-entity
                                                                           360                  360	                                  360                 360
   collections for Puerto Rico
Non-Treasury offsetting receipts included
                                                                                                                  188                 188
  in Treasury chapter of PB
Treasury offsetting receipts considered to be “General
                                                                                                                  (481)              (481)
   Fund” transaction for reporting purposes (2)
Continued dumping subsidy – U.S. Customs                                   476                  226                                   226                 226
Other                                                                         (2)                                  (31)                (31)              (129)
Subtotal	                                                              56,764               56,516               (349)            56,167              56,387

Included in the SBR but not in the Treasury chapter
of the PB:
Treasury resources shown in non-Treasury
                                                                       (39,698)             (3,978)                                (3,978)           (10,746)
   chapters of the PB, included in SBR (3)
Offsetting collections net of collections shown in PB                   (9,225)                                   (192)              (192)
Treasury offsetting receipts shown in other
                                                                                                                  204                 204
   chapters of PB, part of which is in SBR
Unobligated balance carried forward, recoveries
                                                                        (1,024)                                                                           (40)
  of prior year funds and expired accounts
Exchange Stabilization Fund resources
  not shown in PB (4)                                                  (25,732)                                                                          (245)
Treasury Financing Accounts (CDFI & ATSB)                                 (694)                (633)              118                (515)               (670)
IRS user fees and 50% Transfer Accounts and Capital
                                                                            (77)
   Transfers to General Fund not included in PB
Other                                                                       (28)                   1                 (1)                                     2
Subtotal                                                              (76,478)              (4,610)               129              (4,481)           (11,699)

Trust Fund – Comptroller of the Currency (OCC) (5)                                              111                                   111

President’s Budget Amounts*	                                     $ 483,377           $ 481,612          $    (16,788)       $ 464,824           $ 490,239

1. These are primarily Earned Income Tax Credit and Child Tax Credit payments that are reported with refunds as custodial activities in Treasury’s financial
    statements and thus are not reported as budgetary resources.
2. These are receipt accounts that Treasury manages on behalf of other agencies and considers to be “General Fund” receipts rather than receipts of the
    Treasury reporting entity.
3. The largest of these resources relate to Treasury’s International Assistance Programs.
4. Exchange Stabilization Fund (ESF) is a self sustaining component that finances its operations with the buying and selling of foreign currencies to regulate
   the fluctuations of the dollar. Because of the nature of the activities of the component, it does not receive appropriations, and therefore is excluded from
   the PB.
5. Negative outlay for OCC included in both Analytical Perspectives and the Appendix.
 *Per President’s Budget for FY 2008 – Budgetary Resources and Outlays are from the Analytical Perspective.	 Offsetting Receipts and Obligations Incurred
   are from the Appendix.


                                                                                                                                                       Notes to the Financial Statements
178                                                               Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Legal Arrangements Affecting Use of Unobligated Balances
                          The use of unobligated balances is restricted based on annual legislation requirements or enabling authorities .
                          Funds are presumed to be available for only one fiscal year unless otherwise noted in the annual appropria­
                          tion language . Unobligated balances in unexpired fund symbols are available in the next fiscal year for new
                          obligations unless some restrictions had been placed on those funds by law . In those situations, the restricted
                          funding will be temporarily unavailable until such time as the reasons for the restriction have been satisfied
                          or legislation has been enacted to remove the restriction .

                          Amounts in expired fund symbols are not available for new obligations, but may be used to adjust obliga­
                          tions and make disbursements that were recorded before the budgetary authority expired or to meet a bona
                          fide need that arose in the fiscal year for which the appropriation was made .


                          21. Collection and Disposition of Custodial Revenue
                          The Treasury Department collects the majority of federal revenue from income and excise taxes . Collection
                          activity, by revenue type and tax year, was as follows for the fiscal years ended September 30, 2007 and
                          September 30, 2006 (in millions):

                                                                                         Tax Year
                                                                                                                                                 2007
                                                                     2007               2006             2005         Pre-2005             Collections
                          Individual Income and FICA Taxes   $ 1,408,591         $ 750,587          $ 23,861         $ 18,425          $    2,201,464
                          Corporate Income Taxes                 253,376            116,342              2,938           22,664               395,320
                          Estate and Gift Taxes                        45             16,162             1,571            9,200                26,978
                          Excise Taxes                             49,660             17,807                90              209                67,766
                          Railroad Retirement Taxes                 3,576              1,127                 1               14                 4,718
                          Unemployment Taxes                        5,198              2,041                51              126                 7,416
                          Federal Reserve Earnings                 26,255              5,788                 0                 0               32,043
                          Fines, Penalties, Interest
                             & Other Revenue                        2,661                423                 0                 0                3,084
                          Subtotal                              1,749,362           910,277            28,512            50,638             2,738,789
                          Less Amounts Collected for
                            Non-Federal Entities                                                                                                 (486)
                          Total                                                                                                        $    2,738,303




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                            179




                                                            Tax Year
                                                                                                                  2006
                                          2006             2005             2004       Pre-2004             Collections
Individual Income and FICA Taxes   $ 1,309,338       $ 690,831         $ 17,307       $ 16,733          $    2,034,209
Corporate Income Taxes                  259,140         103,803             1,669          15,814              380,426
Estate and Gift Taxes                        50          18,806             1,240           8,592               28,688
Excise Taxes                             53,488          18,999               91             196                72,774
Railroad Retirement Taxes                 3,577           1,094                0               2                 4,673
Unemployment Taxes                        5,080           2,276               52             125                 7,533
Federal Reserve Earnings                 24,141           5,804                0               0                29,945
Fines, Penalties, Interest
   & Other Revenue                        2,888             436                0               0                 3,324
Subtotal                           $ 1,657,702       $ 842,049         $ 20,359       $ 41,462          $    2,561,572
Less Amounts Collected for
  Non-Federal Entities                                                                                            (374)
Total                                                                                                   $    2,561,198




Amounts reported for Corporate Income Taxes collected in FY 2007 include corporate taxes of $10 billion
for tax year 2008 . (Similarly, amounts reported for Corporate Income Taxes collected in fiscal year 2006
include corporate taxes of $10 billion for tax year 2007 .) Individual Income and FICA Taxes, includes $72
billion in payroll taxes collected from other federal agencies . Of this amount, $12 billion represents the por­
tion paid by the employers . (The comparable amounts for FY 2006 are $71 billion in payroll taxes collected
from other federal agencies and $12 billion paid by the employers .)

Amounts Provided to Fund the Federal Government
For the fiscal years ended September 30, 2007 and September 30, 2006, collections of custodial revenue
transferred to other entities were as follows (in millions):

                                                                                    2007                          2006
Department of Interior                                                  $            288            $              250
General Fund                                                                   2,445,331                     2,283,170
Total                                                                   $      2,445,619            $        2,283,420




                                                                                                                 Notes to the Financial Statements
180                                                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          Federal Tax Refunds Paid
                          Refund activity, broken out by revenue type and by tax year, was as follows for the fiscal years ended
                          September 30, 2007 and September 30, 2006 (in millions):

                                                                                   Tax Year
                                                                      2007               2006               2005            Pre-2005       2007 Refunds
                          Individual Income and FICA Taxes        $   1,823       $ 235,151          $    17,839        $      6,242       $       261,055
                          Corporate Income Taxes                      1,241             8,122              4,278              14,509                28,150
                          Estate and Gift Taxes                           0               256                490                   223                969
                          Excise Taxes                                 416                570                253               1,131                 2,370
                          Railroad Retirement Taxes                       0                  5                  1                    7                 13
                          Unemployment Taxes                              0                75                 16                    36                127
                          Total                                   $   3,480       $ 244,179          $    22,877        $     22,148       $       292,684



                                                                                   Tax Year
                                                                      2006              2005                2004            Pre-2004       2006 Refunds
                          Individual Income and FICA Taxes        $    612        $ 225,503          $    13,465        $      5,606       $       245,186
                          Corporate Income Taxes                      1,238             8,805              3,906              16,514                30,463
                          Estate and Gift Taxes                        429                240                332                   279               1,280
                          Excise Taxes                                    0               479                 46                   178                703
                          Railroad Retirement Taxes                       0               (31)                15                    19                  3
                          Unemployment Taxes                              0                86                 19                    38                143
                          Total                                   $   2,279       $ 235,082          $    17,783        $     22,634       $       277,778




                          Federal Tax Refunds Payable
                          As of September 30, 2007 and September 30, 2006, refunds payable to taxpayers consisted of the following
                          (in millions):

                                                                                                                            2007                     2006
                          Alcohol, Tobacco Tax and Trade Bureau                                                     $          9               $        6
                          Internal Revenue Service                                                                       1,675                       1,695
                          Total                                                                                     $    1,684                 $     1,701




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                    181




22. Earmarked Funds
Earmarked funds are financed by specifically identified revenues, often supplemented by other financing
sources, which remain available over time . These specifically identified revenues and other financing sources
are required by statute to be used for designated activities or purposes . SFFAS No . 27 “Identifying and
Reporting Earmarked Funds” issued by the FASAB defines the following three criteria for determining an
earmarked fund: 1) A statute committing the Federal Government to use specifically identified revenues
and other financing sources only for designated activities, benefits or purposes; 2) Explicit authority for the
earmarked fund to retain revenues and other financing sources not used in the current period for future use
to finance the designated activities, benefits, or purposes; and 3) A requirement to account for and report on
the receipt, use, and retention of the revenues and other financing sources that distinguishes the earmarked
fund from the Government’s general revenues .

The majority of Treasury’s earmarked fund activities are attributed to the ESF and the pension and retire­
ment funds managed by the Office of DCP . In addition, several Treasury bureaus operate with “public
enterprise revolving funds” and receive no appropriations from the Congress . These bureaus are the BEP, the
U .S . Mint, the OCC, and the OTS . Other miscellaneous earmarked funds are managed by the BPD, the
DO, the FMS/FMD, and the TFF .

The following is a list of earmarked funds and a brief description of the purpose, accounting, and uses of
these funds .

Exchange Stabilization Fund (ESF)
  ESF      20X4444         Exchange Stabilization Fund

D.C. Pensions
  DCP      201099          Fines, penalties & forfeitures
  DCP      20X1713         Federal payment – D .C . Judicial Retirement
  DCP      20X1714         Federal payment – D .C . Federal Pension Fund
  DCP      20X5511         D .C . Federal Pension Fund
  DCP      20X8212         D .C . Judicial Retirement and Survivor’s Annuity Fund

Public Enterprise Revolving Fund
  BEP      20X4502         Bureau of Engraving & Printing Public Enterprise Fund
  MNT 20X4159              Public Enterprise Revolving Fund
  OCC      20X8413         Assessment Funds
  OTS      20X4108         Public Enterprise Revolving Fund

Other Earmarked Funds
  BPD      2061738         Payments to the Terrestrial Wildlife Habitat Restoration
  BPD      20X5080         Gifts To Reduce Public Debt
  BPD      20X5080 .001 Gift To Reduce Public Debt




                                                                                                         Notes to the Financial Statements
182                                                                Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            BPD      20X8207          Lower Brule Sioux Tribe Terrestrial Wildlife Habitat Restoration Trust Fund
                            BPD      20X8209          Cheyenne River Sioux Terrestrial Wildlife Habitat Restoration Trust Fund
                            DO       20X5407          Sallie Mae Assessments
                            DO       20X5816          Confiscated and Vested Iraqi Property and Assets
                            DO       20X8790          Gifts and Bequests Trust Fund
                            FMD      205445           Debt Collection
                            FMD      20X5081          Presidential Election Campaign
                            FMD      20X8902          Esther Cattell Schmitt Gift Fund
                            FMS      200/15445        Debt Collection Special Fund
                            FMS      201/25445        Debt Collection Special Fund
                            FMS      202/35445        Debt Collection Special Fund
                            FMS      203/45445        Debt Collection Special Fund
                            FMS      204/55445        Debt Collection Special Fund
                            FMS      205/65445        Debt Collection Special Fund
                            FMS      206/75445        Debt Collection Special Fund
                            FMS      207/85445        Debt Collection Special Fund
                            IRS      20X5510          Private Collection Agent Program
                            TFF      20X5697          Treasury Forfeiture Fund

                          The ESF uses funds to purchase or sell foreign currencies, to hold U .S . foreign exchange and SDR assets, and
                          to provide financing to foreign governments . ESF accounts and reports its holdings to FMS on the SF224,
                          “Statement of Transactions,” as well as to the Congress and Treasury’s policy office . The Gold Reserve Act
                          of 1934, Bretton Woods Agreement Act of 1945, P .L . 95-147 and P .L . 94-564 established and authorized
                          the use of the Fund . SDR in the IMF, Investments in U .S . Securities (BPD), and Investments in Foreign
                          Currency Denominated assets are the sources of revenues or other financing sources . ESF’s earnings and real­
                          ized gains on foreign currency denominated assets represent inflows of resources to the Government, and the
                          revenues earned are the result of intra-governmental inflows .

                          D .C . Pension Funds provide annuity payments for retired D .C . teachers, police officers, judges, and firefight­
                          ers . The sources of revenues are through annual appropriations, employees’ contributions, and interest earn­
                          ings from investments . All proceeds are earmarked . Note 15 provides detailed information on various funds
                          managed by the Office of DCP .

                          These Treasury’s four non-appropriated bureaus, BEP, Mint, OCC, and OTS, operate “public enterprise
                          funds” account for the revenue and expenses related to the production and sale of numismatic products
                          and circulating bureaus coinage (Mint), the currency printing activities (BEP), and support of oversight
                          functions of banking (OCC) and thrift operations (OTS) . 31 USC 142 established the revolving fund for
                          the BEP to account for revenue and expenses related to the currency printing activities . Public Law 104-52
                          (31 USC §5136) established the Public Enterprise Fund for the U .S . Mint to account for all revenue and
                          expenses related to the production and sale of numismatic products and circulating coinage . Revenues and
                          other financing sources at the Mint are mainly from the sale of numismatic and bullion coins, and the sale
                          of circulating coins to the Federal Reserve Banks system . 12 USC 481 established the Assessment Funds for



Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                      183




the OCC, and 103 Stat . 278 established the Public Enterprise Revolving Fund for the OTS . Revenue and
financing sources are from the bank examination and assessments for the oversight of the national banks,
savings associations, and savings and loan holding companies . These earmarked funds do not directly con­
tribute to the inflows of resources to the government; however, revenues in excess of costs are returned to the
General Fund of the U .S . government . There are minimal transactions with other government agencies .

There are other earmarked funds at several Treasury bureaus, such as donations to the Presidential Election
Campaign Fund, funds related to the debt collection program, gifts to reduce public debt, and other enforce­
ment related activities . Public laws, statutory laws, U .S . Code, and the Debt Collection Improvement Act,
established and authorized the use of these funds . Sources of revenues and other financing sources include
contributions, cash and property seized in enforcement activities, public donations, the sale of forfeited prop­
erties, and debt collection .


Intra-governmental Investments in Treasury Securities
The Federal government does not set aside assets to pay future benefits or other expenditures associated with
earmarked funds . Treasury bureaus and other Federal agencies invest some of the earmarked funds that
they collect from the public . The funds are invested in securities issued by the Treasury Bureau of Public
Debt (BPD), which are shown a Treasury’s balance sheet as “Federal Debt and Interest Payable” (under
Intra-Governmental Liabilities) . The cash collected by BPD is deposited in the General Fund of the U .S .
Government, which uses the cash for general government purposes .

The investments provide the Treasury bureaus and other Federal agencies with authority to draw upon the
General Fund of the U .S . Government to make future benefit payments or other expenditures . When
Treasury bureaus or other Federal agencies require redemption of these securities to make expenditures, the
Government finances those expenditures out of accumulated cash balances, by raising taxes or other receipts,
by borrowing from the public or repaying less debt, or by curtailing other expenditures . This is the same
way that the Government finances all other expenditures .

The securities are an asset to the Treasury bureaus and other Federal agencies and a liability of the BPD .
The General Fund of the United States Government is liable to BPD . Because Treasury bureaus and other
Federal agencies are parts of the U .S . Government, these assets and liabilities offset each other from the
standpoint of the Government as a whole . For this reason, they do not represent an asset or a liability in the
U .S . government-wide financial statements . In addition, because BPD is a subcomponent of the Treasury
Department reporting entity, balances related to the investments made by Treasury bureaus are eliminated
from these consolidated financial statements . However, the General Fund of the U .S . Government remains
liable to BPD for the eliminated balances (see Note 4) .




                                                                                                           Notes to the Financial Statements
                                                                                                                                                                                                                                                             184




                                    Summary Information for Earmarked Funds as of and for the Year ended September 30, 2007

                                                                                                                      Exchange                                            Public                     Other        Combined
                                                                                                                   Stabilization                                      Enterprise                Earmarked        Earmarked                        FY 2007




Notes to the Financial Statements
                                                                                                                           Fund          D.C. Pensions          Revolving Funds                     Funds            Funds    Eliminations*         Totals
                                    Balance Sheet

                                    ASSETS:

                                    Fund Balance                                                               $             0
         $             0           $          439           $          265    $        704                     $       704
                                    Investments & Related Interest – Intra-governmental                                 16,439                    3,856                    1,124                      482          21,901     $    21,901               0
                                    Cash, Foreign Currency & Other Monetary Assets                                      21,445                        0                        0                       28          21,473                          21,473
                                    Investments & Related Interest                                                      10,040                        0                        0                        0          10,040                          10,040
                                    Other Assets                                                                             0                       45                    1,259                       90           1,394              10           1,384
                                    Total Assets                                                               $        47,924          $         3,901           $        2,822           $          865    $     55,512     $    21,911     $    33,601

                                    LIABILITIES:
                                    Intra-governmental Liabilities                                             $             0          $             0           $           24           $          198    $        222     $         13    $       209
                                    Certificates Issued to Federal Reserve Banks                                         2,200                        0                        0                        0           2,200                           2,200
                                    Allocation of Special Drawing Rights                                                 7,627                        0                        0                        0           7,627                           7,627
                                    Other Liabilities                                                                       51                    9,042                      592                      193           9,878                           9,878
                                    Total Liabilities                                                                    9,878                    9,042                      616                      391          19,927               13         19,914

                                    NET POSITION:
                                    Unexpended Appropriations                                                              200                        0                        0                        0             200                             200
                                    Cumulative Results of Operations                                                    37,846                   (5,141)                   2,206                      474          35,385                          35,385
                                    Total Liabilities and Net Position                                         $        47,924          $         3,901           $        2,822           $          865    $     55,512     $         13    $    55,499

                                    Statement of Net Cost

                                    Gross Cost                                                                 $           703          $           446           $        2,997           $          234    $       4,380    $         56    $     4,324
                                    Less Earned Revenue                                                                 (3,864)                    (160)                  (3,120)                       0           (7,144)         (1,036)        (6,108)
                                    Total Net Cost of Operations                                               $        (3,161)         $           286           $         (123)          $          234    $      (2,764)   $       (980)   $    (1,784)

                                    Cumulative Results of Operations

                                    Beginning Balance                                                                 $34,685                  ($5,209)                  $1,816                     $322          $31,614               $0        $31,614

                                    Budgetary Financing Sources                                                              0                      354                        0                      354             708              40             668
                                    Other Financing Sources                                                                  0                        0                      267                       32             299             (16)            315
                                    Total Financing Sources                                                                  0                      354                      267                      386           1,007              24             983
                                    Net Cost of Operations                                                               3,161                     (286)                     123                     (234)          2,764             980           1,784
                                    Net Change                                                                           3,161                       68                      390                      152           3,771           1,004           2,767
                                    Total Cumulative Results of Operations                                            $37,846                  ($5,141)                  $2,206                     $474          $35,385          $1,004         $34,381
                                                                                                                                                                                                                                                             Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                    *The eliminations reported above include both inter and intra eliminations for the Earmarked Funds. The total eliminations amount will not agree with the
                                       eliminations reported in the Statement of Changes in Net Position, which include eliminations for Other Funds.
                                    Summary Information for Earmarked Funds as of and for the Year ended September 30, 2006

                                                                                                                      Exchange                                            Public                     Other         Combined
                                                                                                                   Stabilization                                      Enterprise                Earmarked         Earmarked                        FY 2006
                                                                                                                           Fund          D.C. Pensions          Revolving Funds                     Funds             Funds    Eliminations*         Totals
                                    Balance Sheet

                                    ASSETS:

                                    Fund Balance                                                               $              0
        $              0          $          400           $          234     $        634                     $      634
                                    Investments & Related Interest – Intra-governmental                                 15,736                    3,862                      993                      322           20,913     $    20,913               0
                                    Cash, Foreign Currency & Other Monetary Assets                                      19,351                         0                        0                      19           19,370                          19,370
                                    Investments & Related Interest                                                       9,278                         0                        0                       0            9,278                           9,278
                                    Other Assets                                                                              0                      48                    1,132                       61            1,241                7          1,234
                                    Total Assets                                                               $        44,365          $         3,910           $        2,525           $          636     $     51,436     $    20,920     $    30,516

                                    LIABILITIES:
                                    Intra-governmental Liabilities                                             $              0         $              0          $          151           $          178     $        329     $         15    $      314
                                                                                                                                                                                                                                                               Part III – Annual Financial Report




                                    Certificates Issued to Federal Reserve Banks                                         2,200                         0                        0                       0            2,200                           2,200
                                    Allocation of Special Drawing Rights                                                 7,234                         0                        0                       0            7,234                           7,234
                                    Other Liabilities                                                                        46                   9,119                      558                      134            9,857                           9,857
                                    Total Liabilities                                                                    9,480                    9,119                      709                      312           19,620               15        $19,605

                                    NET POSITION:
                                    Unexpended Appropriations                                                              200                         0                        0                       2              202                            202
                                    Cumulative Results of Operations                                                    34,685                   (5,209)                   1,816                      322           31,614                          31,614
                                    Total Liabilities and Net Position                                         $        44,365          $         3,910           $        2,525           $          636     $     51,436     $         15    $    51,421

                                    Statement of Net Cost

                                    Gross Cost                                                                 $           377          $         1,069           $        2,879           $          184     $      4,509     $         46    $     4,463
                                    Less Earned Revenue                                                                 (1,710)                    (163)                  (2,988)                       0            (4,861)           (882)        (3,979)
                                    Total Net Cost of Operations                                               $        (1,333)         $           906           $          (109)         $          184     $       (352)    $       (836)   $      484

                                    Cumulative Results of Operations

                                    Beginning Balance                                                          $        33,352          $        (4,596)          $        1,729           $          332     $     30,817     $          0    $    30,817

                                    Budgetary Financing Sources                                                               0                     293                       (11)                    159              441               28           413
                                    Other Financing Sources                                                                   0                        0                      (11)                     15                4              (21)            25
                                    Total Financing Sources
                                                                  0                     293                       (22)                    174              445                7           438
                                    Net Cost of Operations                                                               1,333                     (906)                     109                     (184)             352             835            (483)

                                    Net Change                                                                           1,333                     (613)                       87                      (10)            797             842             (45)
                                    Total Cumulative Results of Operations                                     $        34,685          $        (5,209)          $        1,816           $          322     $     31,614     $       842     $    30,772
                                    *The eliminations reported above include both inter and intra eliminations for the Earmarked Funds. The total eliminations amount will not agree with the
                                       eliminations reported in the Statement of Changes in Net Position, which include eliminations for Other Funds.




Notes to the Financial Statements
                                                                                                                                                                                                                                                               185
186                                                                          Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                          23. Reconciliation of Net Cost of Operations to Budget
                          The Reconciliation of Net Cost of Operations to Budget explains the difference between the budgetary net
                          obligations and the proprietary net cost of operations . In previous years this reconciliation was accomplished
                          by presenting the Statement of Financing as a basic financial statement . Effective for fiscal year 2007, the
                          Office of Management and Budget (OMB) and the Chief Financial Officers Council, decided that this
                          reconciliation would be better placed and understood as a footnote rather than a basic statement . For FY
                          2007, OMB did not prescribe a format for this reconciliation in OMB Circular A-136, “Financial Reporting
                          Requirements,” as amended, so that preparers might develop a more robust presentation tailored to their
                          agency . As of September 30, 2007 and September 30, 2006, the Reconciliation of Net Cost of Operations
                          to Budget consisted of the following (in millions):

                                                                                                                                   2007                     2006
                          RESOURCES USED TO FINANCE ACTIVITIES
                          Budgetary Resources Obligated:
                            Obligations Incurred                                                                         $      465,530           $     445,551
                            Less: Spending Authority from Offsetting Collections and Recoveries                                  (10,237)                 (9,683)
                            Obligations Net of Offsetting Collections and Recoveries                                            455,293                 435,868
                            Less: Offsetting Receipts                                                                            (16,040)                (16,568)
                            Net Obligations                                                                                     439,253                 419,300

                          Other Resources:
                            Donations and Forfeiture of Property                                                                      73                      61
                            Financing Sources for Accrued & Discount on the Debt                                                  7,632                    8,991
                            Transfers In/Out Without Reimbursement                                                                   (24)                     (24)
                            Imputed Financing from Cost Absorbed by Others                                                          740                      732
                            Transfers to the General Fund and Other (Note 18)                                                    (12,293)                (13,879)
                            Net Other Resources Used to Finance Activities                                                        (3,872)                 (4,119)
                            Total Resources Used to Finance Activities                                                          435,381                 415,181

                          RESOURCES USED TO FINANCE ITEMS NOT PART
                          OF ThE NET COST OF OPERATIONS
                            Change in Budgetary Resources Obligated for Goods, Services,
                              and Benefits Ordered but not yet Provided                                                           4,788                    6,690
                            Credit Program Collections that Increase Liabilities for Loans
                              Guarantees or Allowances for Subsidy                                                                   (94)                     (37)
                            Adjustment to Accrued Interest & Discount on the Debt                                                 4,385                   10,496
                            Other (primarily non-exchange portion of offsetting receipts)                                        (14,089)                (14,711)
                            Total Resources Used to Finance Items Not Part of the Net Cost of Operations                          (5,010)                  2,438
                            Total Resources Used to Finance the Net Cost of Operations                                          440,391                 412,743

                            Total Components of Net Cost of Operations that will Require
                               or Generate Resources in Future Periods                                                               (18)                    564

                            Total Components of Net Cost of Operations that will not Require or Generate Resources                  948                      528
                            Total Components of Net Cost of Operations That Will Not
                               Require or Generate Resources in the Current Period                                                  930                    1,092
                            Net Cost of Operations                                                                       $      441,321           $     413,835




Notes to the Financial Statements
Part III – Annual Financial Report                                                                                                    187




Required Supplemental
Information (Unaudited)

Introduction
This section provides the Required Supplemental Information as prescribed by Office of Management and
Budget (OMB) Circular A-136, “Financial Reporting Requirements.”


Other Claims for Refunds
The Department has estimated that $21 .4 billion may be payable as other claims for tax refunds . This esti­
mate represents amounts (principal and interest) that may be paid for claims pending judicial review by the
Federal courts or internally . The total estimated payout (including principal and interest) for claims pending
judicial review by the federal courts is $8 .8 billion and by appeals is $5 .9 billion . Although these refund
claims have been deemed to be probable, they do not meet the criteria in SFFAS No . 5 for reporting the
amounts in the Balance Sheet or for disclosure in the notes to the financial statements . However, they meet
the criteria in SFFAS No . 7 for inclusion as supplemental information .


Federal Tax Receivable, Net
In accordance with SFFAS No . 7, some unpaid tax assessments do not meet the criteria for financial state­
ment recognition as discussed in the Note 1 to the financial statements . Although compliance assessments
and write-offs are not considered receivables under federal accounting standards, they represent legally
enforceable claims of the federal government . There is, however, a significant difference in the collection
potential between compliance assessments and receivables .

The components of the total unpaid assessments at September 30, 2007 were as follows (in billions):

Total Unpaid Assessments                                 $     263,000
Less: Compliance Assessments                                   (65,000)
     Write Offs                                               (100,000)
Gross Federal Taxes Receivable                           $      98,000
Less: Allowance for Doubtful Accounts                          (72,000)
Federal Taxes Receivables, Net                           $      26,000


To eliminate double counting, the compliance assessments reported above exclude trust fund recovery
penalties, totaling $6 billion, assessed against officers and directors of businesses who were involved in the
non-remittance of federal taxes withheld from their employees . The related unpaid assessments of those busi­
nesses are reported as taxes receivable or write-offs, but the Department may also recover portions of those
businesses’ unpaid assessments from any and all individual officers and directors against whom a trust fund
recovery penalty is assessed .

Internal Revenue Service (IRS)
The unpaid assessments balance represents assessments resulting from taxpayers filing returns without suf­
ficient payment; as well as from the IRS’s enforcement programs such as examination, under-reporter, substi­
tute for return, and combined annual wage reporting . A significant portion of this balance is not considered
a receivable . Also, a substantial portion of the amounts considered receivables is largely uncollectible .



                                                                                             Required Supplemental Information (Unaudited)
188                                                               Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Under federal accounting standards, unpaid assessments require taxpayer or court agreement to be considered
                         federal taxes receivable . Assessments not agreed to by taxpayers or the courts are considered compliance
                         assessments and are not considered federal taxes receivable . Due to the lack of agreement, these compliance
                         assessments are less likely to have future collection potential than those unpaid assessments that are consid­
                         ered federal taxes receivable .

                         Assessments with little or no future collection potential are called write-offs . Write-offs principally consist of
                         amounts owed by deceased, bankrupt or defunct taxpayers, including many failed financial institutions liq­
                         uidated by the FDIC and the former Resolution Trust Corporation (RTC) . As noted above, write-offs have
                         little or no future collection potential, but statutory provisions require that these assessments be maintained
                         until the statute for collection expires .




Required Supplemental Information (Unaudited)
                                                FY 2007 Statement of Budgetary Resources Disaggregated by Sub-organization Accounts (in Millions):

                                                                                                                                                                                 Financial                                                                                                 Alcohol and
                                                                                                                  Bureau of                                                        Crimes             Financial              Internal                     Office of the         Office     Tobacco Tax         9/30/2007
                                                                                                                  Engraving        Bureau of the        Departmental          Enforcement          Management               Revenue            U.S.     Comptroller of        of Thrift      and Trade         Combined
                                                                                                                  & Printing         Public Debt              Offices             Network               Service              Service         Mint*       the Currency      Supervision         Bureau               Total
                                                Budgetary Resources
                                                Unobligated balance brought forward                              $        96        $          12       $       55,802        $          13        $         249        $        551     $      (21)    $          598     $       238     $         2     $      57,540
                                                Recoveries of prior year unpaid obligations                                                     9                  124                    1                    9                 182           144                                   2               3               474
                                                Budget Authority:
                                                    Appropriations                                                                       437,706                 5,499                   73               11,056             10,775                                                                91            465,200
                                                    Borrowing authority                                                                                             11                                                                                                                                                11
                                                    Spending authority from offsetting collections:
                                                    Earned:
                                                        Collected                                                        572                   16                6,222                    1                  198                 111         1,863                 708             243               3             9,937
                                                        Change in receivable from federal sources                          6                                        (18)                                                           1            (55)                                                                  (66)
                                                    Change in unfilled customer order:
                                                        Advance received                                                   1                                         13                   1                                                       2                                                                    17
                                                        Without advance from federal sources                                                                       (133)                                        2                  6                                                                                 (125)
                                                        Anticipated for rest of year, without advances
                                                    Subtotal                                                             579             437,722                11,594                   75               11,256             10,893          1,810                 708             243             94            474,974
                                                Non-expenditure transfers, net                                                                  (2)                  22                                                           5                                                                                    25
                                                Temporarily not available pursuant to Public Law                                                (5)                  (34)                                                                      129                                                                     90
                                                                                                                                                                                                                                                                                                                              Part III – Annual Financial Report




                                                Permanently not available                                                                  (7,412)               (1,270)                                   (1,197)               (72)          (172)                                                              (10,123)
                                                Total Budgetary Resources                                        $       675        $    430,324        $       66,238        $          89        $      10,317        $    11,559      $   1,890      $        1,306     $       483     $       99      $     522,980
                                                Status of Budgetary Resources
                                                Obligations incurred
                                                    Direct                                                                          $    430,291        $        9,875        $          76        $       9,857        $    10,807                                                        $       93      $     460,999
                                                    Reimbursable                                                 $       563                  17                   960                    2                  202                 90      $   1,837      $          638     $       219              3              4,531
                                                    Subtotal                                                             563             430,308                10,835                   78               10,059             10,897          1,837                 638             219             96            465,530
                                                Unobligated Balance
                                                    Apportioned                                                          112                   4                12,971                    8                  206                 171            53                                                                13,525
                                                    Exempt from apportionment                                                                  4                31,964                                        30                                                   668             264                            32,930
                                                    Subtotal                                                             112                   8                44,935                    8                  236                171             53                 668             264                            46,455
                                                Unobligated balance not available                                                              8                10,468                    3                   22                491                                                                 3             10,995
                                                Total Status of Budgetary Resources                              $       675        $    430,324        $       66,238        $          89        $      10,317        $    11,559      $   1,890      $        1,306     $       483     $       99      $     522,980
                                                Relationship of Obligations to Outlays
                                                Obligated balance, net
                                                    Unpaid obligations brought forward                           $       101        $          62       $       50,598        $          20        $         257        $      1,532     $     309      $          118     $        40     $       20      $      53,057
                                                    Uncollected customer payments from
                                                         Federal sources brought forward                                  (33)                 (1)                 (456)                                       (37)               (15)           (62)                (4)                             (1)              (609)
                                                Total unpaid obligated balance, net                                       68                  61                50,142                   20                  220               1,517           247                114                40            19              52,448
                                                Obligations incurred, net                                               563             430,308                 10,835                   78               10,059             10,897          1,837                638              219             96            465,530
                                                Gross Outlays                                                           (561)           (430,303)                (5,872)                 (80)              (9,974)           (10,806)        (1,792)              (605)            (216)           (93)          (460,302)
                                                Recoveries of prior year unpaid obligations, actual                                             (9)                (124)                  (1)                   (9)             (182)          (144)                                 (2)            (3)              (474)
                                                Change in uncollected customer payments from federal sources               (6)                  (1)                152                    (1)                   (2)                (7)           56                                                                  191
                                                    Obligated balance net, end of period
                                                    Unpaid obligations                                                   102                   57               55,442                   16                  332               1,440           209                 152              42             19             57,811
                                                Uncollected customer payments from federal sources                        (39)                  (1)                (307)                                      (39)                (22)           (6)                 (4)                                             (418)
                                                Total unpaid obligated balance, net, end of period                        63                   56               55,135                   16                  293               1,418           203                 148              42             19             57,393
                                                Net Outlays
                                                    Gross outlays                                                       561              430,303                 5,872                   80                9,974             10,806          1,792                605              216             93            460,302
                                                    Offsetting collections                                              (572)                  (16)              (4,475)                  (1)                (198)              (111)        (1,865)              (708)            (243)            (3)             (8,192)
                                                    Distributed offsetting receipts                                                       (13,773)                 (565)                                   (1,545)              (157)                                                                             (16,040)
                                                Net Outlays                                                      $        (11)      $    416,514        $          832        $          79        $       8,231        $    10,538      $      (73)    $         (103)    $        (27)   $       90      $     436,070

                                                * The difference between U.S. Mint’s balances reported above and U.S. Mint’s Statement of Budgetary Resources is due to immaterial year-end adjustments by the U.S. Mint.




Required Supplemental Information (Unaudited)
                                                                                                                                                                                                                                                                                                                              189
190                                                             Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Deferred Maintenance
                         In FY 2007, the Department had no material amounts of deferred maintenance to report on vehicles, build­
                         ings, and structures owned by the Department .

                         Treasury bureaus use a specific methodology in determining deferred maintenance . Logistic personnel use
                         condition assessment surveys and/or the total life-cycle cost methods to determine deferred maintenance and
                         acceptable operating condition of an asset . Periodic condition assessments, physical inspections, and review
                         of manufacturing and engineering specifications, work orders, building, and other structure logistics reports
                         can be used under these methodologies .




Required Supplemental Information (Unaudited)
Part III – Annual Financial Report                                                                                   191




Other Accompanying
Information (Unaudited)

This section provides Other Accompanying Information as
prescribed by OMB Circular A-136, “Financial Reporting.
Requirements”


Prompt Payment
The Prompt Payment Act requires Federal agencies to make timely
payments to vendors for supplies and services, to pay interest
penalties when payments are made after the due date, and to take
cash discounts only when they are economically justified . Treasury
bureaus report Prompt Payment data on a monthly basis to the
Department, and periodic quality control reviews are conducted
by the bureaus to identify potential problems . The amount of
                                                                      $5,000
interest penalties decreased in FY 2007 .
                                                                      $4,000

                                                                      $3,000

                                                                      $2,000

                                                                      $1,000

                                                                         $0




                                                                      9.00%
     300
                                                                      8.00%
                                                                      7.00%
                                                                      6.00%
     200
                                                                      5.00%
                                                                      4.00%
                                                                      3.00%
     100
                                                                      2.00%
                                                                      1.00%
                                                                      0.00%
       0




   0.009%                                                             3.00%
   0.008%
                                                                      2.50%
   0.007%
   0.006%                                                             2.60%
   0.005%
                                                                      1.50%
   0.004%
   0.003%                                                             1.00%
   0.002%
                                                                      0.50%
   0.001%
   0.000%                                                             0.00%




                                                                               Other Accompanying Information (Unaudited)
192                                                              Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Tax Gap
                         Reducing the tax gap is at the heart of IRS’ enforcement programs . The tax gap is the difference between
                         what taxpayers should pay and what they actually pay due to not filing tax returns, not paying their reported
                         tax liability on time, or failing to report their correct tax liability . The tax gap, about $345 billion based on
                         updated FY 2007 estimates, represents the amount of noncompliance with the tax laws . Underreporting tax
                         liability accounts for 82% of the gap, with the remainder almost evenly divided between non-filing (8%) and
                         underpaying (10%) . The IRS remains committed to finding ways to increase compliance and reduce the tax
                         gap, while minimizing the burden on the vast majority of taxpayers who pay their taxes accurately and on
                         time .

                         The tax gap is the aggregate amount of tax (i .e ., excluding interest and penalties) that is imposed by the tax
                         laws for any given tax year but is not paid voluntarily and timely . The tax gap arises from the three types of
                         noncompliance: not filing required tax returns on time or at all (the non-filing gap), underreporting the cor­
                         rect amount of tax on timely filed returns (the underreporting gap), and not paying on time the full amount
                         reported on timely filed returns (the underpayment gap) . Of these three components, only the underpay­
                         ment gap is observed; the non-filing gap and the underreporting gap must be estimated . Each instance of
                         noncompliance by a taxpayer contributes to the tax gap, whether or not the IRS detects it, and whether or
                         not the taxpayer is even aware of the noncompliance . Obviously, some of the tax gap arises from intentional
                         (willful) noncompliance, and some of it arises from unintentional mistakes .

                         The collection gap is the cumulative amount of tax, penalties, and interest that has been assessed over many
                         years, but has not been paid by a certain point in time, and which the IRS expects to remain uncollectible .
                         In essence, it represents the difference between the total balance of unpaid assessments and the net taxes
                         receivable reported on the IRS’ balance sheet . The tax gap and the collection gap are related and overlapping
                         concepts, but they have significant differences . The collection gap is a cumulative balance sheet concept for a
                         particular point in time, while the tax gap is like an income statement item for a single year . Moreover, the
                         tax gap estimates include all noncompliance, while the collection gap includes only amounts that have been
                         assessed (a small portion of all noncompliance) .


                         Tax Burden
                         The Internal Revenue Code provides for progressive rates of tax, whereby higher incomes are generally
                         subject to higher rates of tax . The graphs below present the latest available information on income tax
                         and adjusted gross income (AGI) for individuals by AGI level and for corporations by size of assets . For
                         individuals, the information illustrates, in percentage terms, the tax burden borne by varying AGI levels . For
                         corporations, the information illustrates, in percentage terms, the tax burden borne by these entities by vari­
                         ous sizes of their total assets . The graphs are only representative of more detailed data and analysis available
                         from the Statistics of Income (SOI) office .




Other Accompanying Information (Unaudited)
Part III – Annual Financial Report                                                                                                                 193




                                                    Individual Income Tax Liability
                                                            Tax Year 2005

                                    Number of                                   Total   Average AGI per       Average income      Income tax as
    Adjusted Gross Income     taxable returns                 AGI        income tax     return (in whole     tax per return (in    a percentage
    (AGI)                      (in thousands)       (in millions)       (in millions)            dollars)       whole dollars)            of AGI
    Under $15,000                    36,889     $      197,723      $         3,239      $        5,360       $             88            1.6%
    $15,000 under $30,000            29,739            655,562              23,308               22,044                   784             3.6%
    $30,000 under $50,000            24,596            961,071              60,187               39,075                 2,447             6.3%
    $50,000 under $100,000           28,867          2,033,408             179,382               70,441                 6,214             8.8%
    $100,000 under $200,000          10,831          1,434,585             190,599             132,452                 17,598            13.3%
    $200,000 or more                  3,541          2,081,299             471,549             587,772               133,168             22.7%
    Total                           134,463     $    7,363,648      $      928,264




                                                                                                            Other Accompanying Information (Unaudited)
194                                                     Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                                 Corporation Tax Liability
                                                     Tax Year 2004

                                             Income subject to tax   Total income tax after credits (in   Percentage of income tax after
       Total Assets (in thousands)                   (in millions)                           millions)         credits to taxable income
       Zero Assets                           $             15,385                  $            4,076                            26.5%
       $1 under $500                                        8,436                               1,536                            18.2%
       $500 under $1,000                                    4,081                                 960                            23.5%
       $1,000 under $5,000                                 12,215                               3,519                            28.8%
       $5,000 under $10,000                                 7,562                               2,446                            32.3%
       $10,000 under $25,000                               10,694                               3,511                            32.8%
       $25,000 under $50,000                               10,076                               3,282                            32.6%
       $50,000 under $100,000                              12,037                               3,918                            32.5%
       $100,000 under $250,000                             23,779                               7,529                            31.7%
       $250,000 or more                                   753,124                            193,658                             25.7%
       Total                                 $            857,389                  $         224,435                             26.2%




Other Accompanying Information (Unaudited)
Part IV – Appendix A                                                                                                         195




                                           Part IV:
                                           APPENDICES

                             Appendix A:
 Full Report of the Treasury
                                          Department’s Fiscal Year 2007
                                          Performance Measures
                             Appendix B:
 Completeness and Reliability
                                          of Performance Data
                             Appendix C:
 Improper Payments Information
                                          Act and Recovery Act
                             Appendix D:
 Management Challenges
                                          and Responses
                             Appendix E:
          Material Weaknesses, Audit
                                                   Follow-up, and Financial Systems
                             Appendix F:
          Organizational Structure
                             Appendix G:           Program Assessment Rating
                                                   Tool (PART) Evaluations
                             Appendix H: Cost by Outcome Determination
                             Appendix I:           Glossary of Acronyms

                       Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
THIS PAGE INTENTIONALLY LEFT BLANK
Part IV – Appendix A                                                                                                                               197




Appendix A:
Full Report of the Treasury Department’s
Fiscal Year 2007 Performance Measures
by Focus and Strategic Goal

FY 2007 PERFORMANCE SUMMARY
This section reports the results of Department of the Treasury’s official performance measures by focus
and strategic goal, and further by bureau/organization, for which targets were set in the fiscal year 2007
Performance Plan, as presented in the Fiscal Year 2008 Congressional Justification for Appropriations and
Performance Plans . For each performance measure, there is a definition of the measure, performance levels
and targets for three previous fiscal years (where available), the performance target and actual for the report­
ing year, and proposed performance targets for the next fiscal year (where available) . The report examines
unrealized performance targets and presents actions for improvement .

The purpose of the Treasury Department’s strategic management effort is to develop effective performance
measures to achieve the Department’s goals and objectives, and the activities that will improve results delivered
to the American public . In the final performance plan, for fiscal year 2007 and transmitted to Congress as
part of the fiscal year 2008 budget, the Department detailed its performance targets .

Overall, the Department of the Treasury established 130 performance targets in fiscal year 2007 . Of these, 5
are baseline and 8 were discontinued . Of the remaining 117 measures, Treasury met or exceeded 95 targets
and did not meet 22 of its performance targets .

 Fiscal Year 2007 Treasury-wide Performance Summary
    Total Measures       Target Met          Target Unmet          Baseline            Discontinued             N/A
        130              94 (72%)             23 (18%)              5 (4%)               8 (6%)                  0




Definitions and Other Important Information
Determination of Official Measures: A rigorous process is followed to maintain internal controls when
establishing or modifying performance measures . To be included in the PAR report, a performance measure
must be in the performance budget for the year in question, and must be approved by the Performance
Reporting System administrator .

Actuals: For most of the measures included in this report, the fiscal year 2007 actual data is final . Some
of the actual data for fiscal year 2007 are estimates at the time of publication, which are indicated by an
asterisk (*) . Actual data for these estimated measures will be presented in the Fiscal Year 2009 Congressional
Justification for Appropriations and the Fiscal Year 2008 Performance and Accountability Report . The actual
data for previous years throughout this report is the most current data available and may not reflect previous
editions of the Performance and Accountability Report and the Congressional Justification .

Targets: The targets shown for fiscal year 2008 are proposed targets and are subject to change . The final tar­
gets will be presented in the Fiscal Year 2009 Congressional Justification for Appropriations . Also included
in this report are the previous year’s final targets for each performance measure .




                                             Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
198                                                                      Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Target Met?: For each fiscal year that there is a target and an actual number, the report tells the reader
                         whether the target was met or not . If the target is met, “Y” will be shown . If the target was not met, “N”
                         will be shown .

                         Definition: All performance measures in this report have a detailed definition describing the measure and
                         summarizing the calculation .

                         Source: The basis for the data is included in this report .

                         Future Plans/Explanation for Shortfall: If a performance target is not met, the report includes an expla­
                         nation as to why Treasury did not meet its target, and what it plans to do to improve performance in the
                         future . If a performance target is met, the report includes what future plans Treasury has to either match fis­
                         cal year 2007 performance, or improve on that performance in future years . Explanations may also include
                         justification for any expected degradation in performance .

                         Not Available: Some measures indicated as “Not Available” did not have actual data available at the time the
                         Fiscal Year 2007 Performance and Accountability Report was published . Some data will be available after
                         publication and will be reported in the Fiscal Year 2008 Performance and Accountability Report and the
                         Fiscal Year 2009 Congressional Justification for Appropriations .

                         Discontinued: Some measures will be discontinued in the Fiscal Year 2009 Congressional Justification for
                         Appropriations and the Fiscal Year 2007 Performance and Accountability Report . New measures are some­
                         times developed in order to better measure performance; when this happens, the measure being replaced is
                         discontinued, and an explanation is provided .

                         Baseline Measures: There are 5 new fiscal year 2007 measures included in this report . These measures
                         undergo a process where new baseline values (data actual and targets determined for the very first time) are
                         established during the current fiscal year . Baseline values facilitate target-setting in the future .

                         Additional Information: Additional Information relating to Treasury’s performance management can be
                         found at http://www .treas .gov/offices/management/budget/planningdocs/index .html

                            Legend:
                            *         Indicates actual data is estimated and subject to change
                            Oe        Outcome Measure
                            E         Efficiency Measure
                            Ot        Output Measure




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                       199




STRATEGIC GOAL: Effectively Managed
                U.S. Government Finances

Strategic Outcome:
Revenue collected when due through a fair and uniform application of the law

 Measure: Timeliness of Critical Filing Season Tax Products to the Public (%) (E)
                                                           FY 2004        FY 2005          FY 2006          FY 2007          FY 2008
                                            Target           75              80               92              85 .2              86
                                            Actual           76             91 .4             83              83 .5
                                       Target met?            Y              Y                N                N
 Definition: The percentage of Critical Tax Products, paper and electronic, made available to the public timely . Critical Tax
 Products are business tax products, Tax Exempt and Government Entities and miscellaneous tax products . This measure contains
 two components: (1) percentage of paper tax products that meet the scheduled start to ship date within five business days of
 the actual start to ship date and (2) percentage of scheduled electronic tax products that is available on the Internet within five
 business days of the ok-to-print date . The intent is to have the tax products available to the public 30 days before the form is
 required to be filed .
 Indicator Type: Measure
 Data Capture and Source: Publishing Services Data (PSD) System
 Data Verification and Validation: Nightly processes provide analysts and management with reports concerning production status,
 missing data problems, and past due situations .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: For fiscal year 2007, the Timeliness of Critical Filing Season Tax Products to the Public
 was 83 .5 percent, 1 .7 percentage points below the fiscal year 2007 target of 85 .2 percent and 0 .6 percent above the prior year’s
 performance of 83 .0 . The late passage of Extender Legislation affecting state and local sales taxes and education expenses was
 the primary cause for the IRS not meeting this target . More than 1,000 tax product revisions affecting 137 of the 164 filing
 season products used by taxpayers were changed with no impact to the start of the filing season . A total of 27 tax products
 were delayed . Eleven tax products were directly impacted by the Extender legislation and the remaining sixteen were indirectly
 impacted by the Extender legislation as a result of workload modifications to accommodate priority forms and publications .
 These products were originally scheduled for processing between October and December 2006 .




                                                     Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
200                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Timeliness of Critical Other Tax Products to the Public (%) (E)
                                                                                     FY 2004           FY 2005         FY 2006         FY 2007         FY 2008
                                                                       Target       Baseline             80              85             79 .6             86
                                                                       Actual          76                80             61 .2            84
                                                                  Target met?           Y                 Y               N               Y
                            Definition: The percentage of Critical Other Tax Products, paper and electronic, made available to the public timely . Critical
                            Other Tax Products are business tax products, Tax Exempt and Government Entities and miscellaneous tax products . This
                            measure contains two components: (1) percentage of paper tax products that meet the scheduled start to ship date within five
                            business days of the actual start to ship date and (2) percentage of scheduled electronic tax products that is available on the
                            Internet within five business days of the ok-to-print date . The intent is to have the tax products available to the public 30 days
                            before the form is required to be filed .
                            Indicator Type: Measure
                            Data Capture and Source: Publishing Services Data System (PSD)
                            Data Verification and Validation: Nightly processes provide analysts and management with reports concerning production status,
                            missing data problems, and past due situations .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: The IRS expects performance to increase for fiscal year 2008 . Standardized and measurable
                            processes will be used to manage the quality and timeliness of tax product revision resulting from new and late legislation .


                            Measure: Taxpayer Self Assistance Rate
                                                                                     FY 2004           FY 2005         FY 2006         FY 2007         FY 2008
                                                                       Target                           42 .5           45 .7           48 .6            51 .5
                                                                       Actual                           42 .5           46 .8           49 .5
                                                                  Target met?         N/A                 Y               Y               Y
                            Definition: The percent of contacts that are resolved by automated self-assistance applications .
                            Indicator Type: Measure
                            Data Capture and Source: Enterprise Telephone Data (ETD) Snapshot Report, Accounts Management Information Report
                            (AMIR), Internet Refund/Fact of Filing Project Site, MIS Reporting Tool, Electronic Tax Administration (ETA) Website,
                            Microsoft Excel Spreadsheet tracking (Kiosk Visits)
                            Data Verification and Validation: Automated Calls Answered + Web Services Completed Divided by: Assistor Calls Answered
                            + Automated Calls Answered + Web Services Completed + Electronic Interactions + Customer Accounts Resolved (Paper),
                            Taxpayer Assistance Centers Contact . This measure summarizes the following self-service activities: telephone automated calls
                            answered, and web services compared to the volume of all interactions, including correspondence and amended returns, elec­
                            tronic interactions such as from electronic interactions such as ETLA, & I-EAR and assistor calls answered .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: The IRS expects performance to continue to increase as more taxpayers choose to use auto­
                            mated applications to resolve issues and questions instead of more traditional methods such as contact with the IRS by telephone
                            and correspondence .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        201




 Measure: Percent of Individual Returns Filed Electronically (%) (Oe)
                                                            FY 2004        FY 2005           FY 2006          FY 2007        FY 2008
                                             Target           45              51               55                 57           61 .8
                                             Actual           47              51              54 .1              57 .1
                                        Target met?            Y              Y                 N                 Y
 Definition: Number of electronically filed individual tax returns divided by the total individual returns filed .
 Indicator Type: Measure
 Data Capture and Source: Work Planning and Control reports from W&I Submission Processing campuses .
 Data Verification and Validation: 1 . At each Submission Processing Center, managerial oversight is used to ensure that the balanc­
 ing instructions for the Balance Forward Listing are followed and that necessary adjustments are made . 2 . Management Officials
 review “II” Report prior to its release to Headquarters personnel . 3 . Headquarters Personnel release preliminary data for peer and
 managerial review prior to releasing data for the measure .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: The e-File participation rate is projected to increase to 61 .8 percent in 2008 based on cur­
 rent experience, historical growth, increased advertising, marketing, and expanded e-File programs and do not reflect gains from
 any mandates .


 Measure: Percent of Business Returns Processed Electronically (%) (Oe)
                                                            FY 2004        FY 2005           FY 2006          FY 2007        FY 2008
                                             Target        Baseline           17              18 .6              19 .5         20 .8
                                             Actual          17 .4           17 .8            16 .6              19 .1
                                        Target met?            Y              Y                 N                 N
 Definition: The number of electronically filed business returns divided by the total business returns filed .
 Indicator Type: Measure
 Data Capture and Source: Work Planning and Control reports from W&I Submission Processing campuses .
 Data Verification and Validation: 1 . At each Submission Processing Center, managerial oversight is used to ensure that the balanc­
 ing instructions for the Balance Forward Listing are followed and that necessary adjustments are made . 2 . Management Officials
 review Program Analysis Report prior to its release to Headquarters personnel . 3 . Headquarters Personnel release preliminary
 data for peer and managerial review prior to releasing data for the measure .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: For fiscal year 2007, 19 .1 percent of the business returns processed were filed electroni­
 cally . This is two percent below the plan of 19 .5 percent and 15 percent above the prior year’s performance of 16 .6 percent .
 For the fiscal year, business returns processed are running more than 500,000 above total projections . Of this overall increase
 over total projections, those from paper submissions are almost 800,000 above projections, while those from electronic submis­
 sions are almost 475,000 below projections . The majority of the electronic submission under run continues to be employment
 returns (primarily Forms 941, Employer’s Quarterly Federal Tax Return) and corporation returns (primarily Forms 1120, U .S .
 Corporation Income Tax Return) . The combination of e-File being under schedule and the total business returns (paper and
 e-File combined) being over schedule exacerbates the percentage of business returns e-Filed .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
202                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Customer Accuracy - Tax Law Phones (%) (Oe)
                                                                                   FY 2004         FY 2005          FY 2006          FY 2007         FY 2008
                                                                      Target         85               82               90              91               91
                                                                      Actual         80               89              90 .9           91 .2
                                                                 Target met?          N               Y                  Y              Y
                            Definition: The percentage of correct tax law answers provided by a telephone assistor . The measure indicates how often customers
                            receive the correct answer to their tax law inquiry based upon all available information and Internal Revenue Manual required
                            actions .
                            Indicator Type: Measure
                            Data Capture and Source: Quality reviewers on the Centralized Quality staff complete a data collection instrument as calls are
                            reviewed . Data is input to the Quality Review Database for product review and reporting .
                            Data Verification and Validation: Field 715 on the DCI is coded by the CQRS monitor as calls are reviewed . Data is input to the
                            NQRS . The NQRS contains several levels of validation that occur as part of the review process . The input records are validated
                            requiring entries and combinations of entries based upon the relationships inherent in different product lines or based upon an
                            entry in a quality attribute . The national reviews conducted by CQRS site staff on telephone product lines are sampled by local
                            management and management officials at the CQRS site . In addition, every review is available on-line to the site for verification
                            purposes . Sites monitor their review records daily and have a small rebuttal period to contest any review .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: The IRS will maintain Tax law Accuracy at 91 percent in fiscal year 2008 . The type and
                            complexity of tax law questions changes each year as new and often complex tax laws are enacted .


                            Measure: Customer Accuracy - Customer Accounts (Phones) (%) (Oe)
                                                                                   FY 2004         FY 2005          FY 2006          FY 2007         FY 2008
                                                                      Target         89              89 .8             92             93 .3            93 .5
                                                                      Actual         89              91 .5            93 .2           93 .4
                                                                 Target met?          Y               Y                  Y              Y
                            Definition: The percentage of correct answers provided by a telephone assistor . The measure indicates how often customers receive
                            the correct answer to their account inquiry and/or had their case resolved correctly based upon all available information and
                            Internal Revenue Manual required actions .
                            Indicator Type: Measure
                            Data Capture and Source: Quality reviewers on the Centralized Quality staff complete a data collection instrument as calls are
                            reviewed . Data is input to the Quality Review Database for product review and reporting .
                            Data Verification and Validation: Field 715 on the DCI is coded by the CQRS monitor as calls are reviewed . Data is input to the
                            NQRS . The NQRS contains several levels of validation that occur as part of the review process . The input records are validated
                            requiring entries and combinations of entries based upon the relationships inherent in different product lines or based upon an
                            entry in a quality attribute . The national reviews conducted by CQRS site staff on telephone product lines are sampled by local
                            management and management officials at the CQRS site . In addition, every review is available on-line to the site for verification
                            purposes . Sites monitor their review records daily and have a small rebuttal period to contest any review .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: Incremental improvement in performance is expected in fiscal year 2008 and beyond with
                            the development of new online tools for assistors to research taxpayer questions .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        203




 Measure: Customer Service Representative (CSR) Level of Service (%) (Oe)
                                                            FY 2004        FY 2005           FY 2006          FY 2007             FY 2008
                                             Target           83              82               82                82                 82
                                             Actual           87             82 .6             82               82 .1
                                        Target met?            Y              Y                 Y                Y
 Definition: The relative success rate of taxpayers that call for toll-free services seeking assistance from a Customer Service
 Representative .
 Indicator Type: Measure
 Data Capture and Source: Enterprise Telephone Database (ETD)
 Data Verification and Validation: 1 . Validation of monthly report data by W&I P&A staff . 2 . The JOC validates CSR LOS data
 prior to publication of the weekly official Snapshot report . Independent weekly CSR LOS source data is also gathered and vali­
 dated by comparing data with the data used to produce the official Snapshot report .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: The IRS will continue to properly staff toll-free sites in order to maintain the CSR Level of
 Service target of 82 percent .


 Measure: Customer Contacts Resolved per Staff Year (E)
                                                            FY 2004        FY 2005           FY 2006          FY 2007             FY 2008
                                             Target                          7261             7477             7702                8000
                                             Actual                          7585             7414             7648
                                        Target met?          N/A               Y                N                N
 Definition: The number of Customer Contacts resolved in relation to time expended based on staff usage . Customer Contacts
 Resolved are derived from all telephone and paper inquiries received by Accounts Management, in which all required actions
 have been taken, and the taxpayer has been notified as appropriate . The measure includes all self-service, Internet-based applica­
 tions, such as the “Where’s My Refund?” service available on www .irs .gov .
 Indicator Type: Measure
 Data Capture and Source: Contacts resolved volumes are derived from internal telephone management systems and modernization
 project websites . Staff year data is extracted from the weekly Work Planning & Control report and consolidated and included in
 the weekly resource usage report .
 Data Verification and Validation: 1 . Data is compiled from several sources (see individual components below) . Each area is respon­
 sible for component accuracy: Enterprise Telephone Data (ETD) Snapshot Report, Accounts Management Information Report
 (AMIR), Internet Refund/Fact of Filing, MIS Reporting Tool, Electronic Tax Administration (ETA) Website, Work Planning &
 Control (WP&C) Report, Resource Allocation Report (RAR) .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: The Customer Contacts Resolved per Staff Year target was set using preliminary FTE levels .
 For fiscal year 2007, the actual was 7,648, within one percent of the target of 7,702 . The IRS completed almost 4 million
 additional web services than projected . During the latter part of the fiscal year, an emphasis was placed on reducing inventory
 levels in the Accounts Management paper programs, resulting in more FTE spent than were used in calculating the target .
 Completing a web service is defined as providing a service requested by a taxpayer or tax practitioner through self-assist internet-
 based applications such as Internet Refund Fact of Filing (“Where’s My Refund”), Transcript Delivery System, Preparer Tax
 Identification Number, Internet-EIN, Prior Year Earned Income Option, and Disclosure Authorizations .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
204                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Refund Timeliness - Individual (paper) (%) (E)
                                                                                      FY 2004        FY 2005          FY 2006          FY 2007         FY 2008
                                                                       Target                         98 .4            99 .2            99 .2            99 .2
                                                                       Actual                         98 .3            99 .3            99 .1
                                                                  Target met?          N/A              N                Y                N
                            Definition: The percentage of refunds resulting from processing Individual Master File paper returns issued within 40 days or less .
                            Indicator Type: Measure
                            Data Capture and Source: Submission Processing Measures Analysis and Reporting Tool (SMART) . Data is extracted from a
                            Generalize Mainframe Framework computer run that processes data input by the processing centers .
                            Data Verification and Validation: The calculation for Refund Timeliness is a ratio of untimely IMF paper refunds in a sample
                            compared against the total number of IMF paper refunds reviewed in a sample . The result of the ratio is weighted against the
                            entire volume of refund returns a center has processed on a monthly basis . The monthly results are tabulated to determine the
                            performance rating at the corporate and site level .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: The IRS was within one percent of target . For fiscal year 2007, Refund Timeliness was 99 .1
                            percent, 0 .1 percentage point below the fiscal year 2007 target of 99 .2 percent . Delays associated with taxpayer identification
                            number processing, including: increases in the number of Individual Taxpayer Identification Number (ITIN) applications;
                            verification of required documentation (which is often submitted in a foreign language); and ITIN System stability issues that
                            caused work stoppages during the peak processing season were the sources for delay . Assignment of an ITIN must be completed
                            before the associated tax return can be processed and any refund claim released for processing .


                            Measure: Criminal Investigations Completed (Ot)
                                                                                      FY 2004        FY 2005          FY 2006          FY 2007          FY 2008
                                                                       Target          3400           3895             3945             4000             4025
                                                                       Actual          4387           4104             4157             4269
                                                                  Target met?            Y              Y                Y                Y
                            Definition: The total number of subject criminal investigations completed during the fiscal year, including those that resulted in
                            prosecution recommendations to the Department of Justice as well as those discontinued due to a lack of prosecution potential .
                            Indicator Type: Measure
                            Data Capture and Source: Criminal Investigations Management Information System (CIMIS)
                            Data Verification and Validation: The guidance and direction given by upper management to first line managers is that the first
                            line managers should review their individual work group CIMIS data tables at the beginning of each month . The use of this pro­
                            cedure will assure that system input errors are corrected no later than 30 days after the error is initially reported in the monthly
                            CIMIS data tables . Additionally, national standard monthly reports and statistical information are circulated among the senior
                            staff and headquarter analysts for their review and use . If the published information on the official critical measure appears to be
                            out of line with what is normal or expected, headquarters analysts or senior staff request that the CI research staff verify that the
                            published and circulated information and/or report is accurate . If the published and circulated information is not accurate, then
                            the CI research staff corrects the error and issues revised data for the month .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: The IRS will continue to monitor performance and adjust program focus as necessary to
                            ensure efforts garner the greatest deterrent effect possible .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        205




 Measure: Conviction Rate (%) (Oe)
                                                            FY 2004         FY 2005        FY 2006          FY 2007          FY 2008
                                             Target        Baseline              92           92               92              92
                                             Actual          92 .2              91 .2         92             90 .2
                                        Target met?           Y                  N            Y                N
 Definition: The percent of adjudicated criminal cases that result in convictions . The conviction rate is defined as the total number
 of cases with CIMIS status codes of guilty plea, nolo-contendere, judge guilty, or jury guilty divided by these status codes and
 nolle prosequi, judge dismissed and jury acquitted .
 Indicator Type:
 Data Capture and Source: Cases are tracked in CIMIS with frequent updates to the status code .
 Data Verification and Validation: Criminal Investigation management dictates that the lead agent assigned to the investigation and/
 or the agent’s manager(s) input investigation data directly into CIMIS . Agents and management directs first line managers to
 review individual work group CIMIS reports for accuracy each month to ensure any system input errors or omissions are cor­
 rected within 30 days of the initial issuance of the monthly data tables . (Rev . 1-07) Standardized reports extract data related to
 the status codes sited above on a monthly basis . This calculation is performed monthly .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: The fiscal year 2007 conviction rate was 90 .2 percent, 1 .8 percentage points below the 92
 percent target rate . The drop in fiscal year 2007 appears to be largely attributable to an increase in dismissals, many involv­
 ing complex legal issues and multiple defendants . Some of these dismissals were appealed by the government . It is possible
 to materially reduce the number of dismissals by selecting less sophisticated cases, however, over the past five years, Criminal
 Investigation demonstrated that investigating sophisticated high dollar, high impact legal source income cases fosters effective
 deterrence, although these cases entail risk .


 Measure: Number of Convictions (Oe)
                                                            FY 2004         FY 2005        FY 2006          FY 2007          FY 2008
                                             Target                        Baseline         2260             2069             2135
                                             Actual                             2151        2019             2155
                                        Target met?          N/A                 Y            N                Y
 Definition: Convictions are the total number of cases with Criminal Investigation Management Information System (CIMIS)
 status codes of guilty plea, nolo-contendere, judge guilty, or jury guilty .
 Indicator Type:
 Data Capture and Source: Standardized reports extract data related to the status codes sited above on a monthly basis .
 Data Verification and Validation: Cases are tracked in CIMIS with frequent updates to the status code .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: The IRS will continue to monitor Criminal Investigation’s performance and adjust program
 focus as necessary to ensure efforts garner the greatest deterrent effect possible .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
206                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Conviction Efficiency Rate (Cost per Conviction) ($) (E)
                                                                                      FY 2004          FY 2005          FY 2006           FY 2007          FY 2008
                                                                        Target                                          339565            314008           325895
                                                                        Actual                                          328750            301788
                                                                   Target met?         N/A               N/A                Y                Y
                            Definition: The cost of CI’s program divided by the number of convictions . The number of convictions is the total number of
                            cases with the following CIMIS statuses: guilty plea, nolo contendere, judge guilty or jury guilty . The Criminal Investigation
                            financial plan includes all appropriations and reimbursements for the entire year . It is the fully loaded cost, including employees’
                            salaries, benefits, and vacation time, as well as facility costs (office space, heating, cleaning, computers, security, etc .), and other
                            overhead costs .
                            Indicator Type:
                            Data Capture and Source: The final fiscal year-end expenses as documented in IFS plus corporate costs as determined by the Chief
                            Financial Officer divided by the number of convictions reported for the year . The source: CI Management Information System
                            (CIMIS) and the Integrated Financial System (IFS)
                            Data Verification and Validation: Criminal Investigation management dictates that the lead agent assigned to the investigation and/
                            or the agent’s manager(s) input investigation data directly into CIMIS . Agents and management are to enter status updates into
                            CIMIS within five calendar days of the triggering event . Further, upper management directs first line managers to review indi­
                            vidual work group CIMIS reports for accuracy each month to ensure any system input errors or omissions are corrected within
                            30 days of the initial issuance of the monthly data tables . The CFO, Associate CFO for Internal Financial Management, and
                            Associate CFO Corporate Performance Budgeting ensure the functionality and accuracy of the Integrated Financial System-the
                            Service’s core accounting system of records . (Rev . 1-07)
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: The IRS will continue to monitor Criminal Investigation’s performance and adjust program
                            focus as necessary to ensure efforts garner the greatest deterrent effect possible .


                            Measure: Field Exam Embedded Quality (Oe)
                                                                                      FY 2004          FY 2005          FY 2006           FY 2007          FY 2008
                                                                        Target                                          Baseline             87               87
                                                                        Actual                                            85 .9             85 .9
                                                                   Target met?         N/A               N/A                Y                N
                            Definition: The score awarded to a reviewed Field Examination case by a Quality Reviewer using the Examination Quality
                            Measurement System (EQMS) quality standards .
                            Indicator Type: Measure
                            Data Capture and Source: Monthly reports supplied from the EQMS database .
                            Data Verification and Validation: new measure - verification and validations will be supplied
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: For fiscal year 2007, Field Examination Embedded Quality was 85 .9 percent, 1 .1 percent­
                            age points (a statistically insignificant amount) short of the fiscal year 2007 target of 87 percent . The fiscal year 2007 target
                            assumed a 10 percent improvement factor in the previously weakest quality attributes . Although the 10 percent increase did
                            not occur, there were significant improvements in several other attributes that brought IRS close to the target . Actions taken to
                            improve the quality score included studying the consistency between front-line manager Embedded Quality Review System and
                            the National Quality Review System processes that produced the measurements . In addition, an Exam Process Challenge Team
                            was established to improve the audit process, with focus on the quality attributes in most need of enhancement .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                       207




 Measure: Office Exam Embedded Quality (%) (Oe)
                                                           FY 2004        FY 2005          FY 2006          FY 2007          FY 2008
                                            Target                                         Baseline            89                 89
                                            Actual                                           88 .2            89 .4
                                       Target met?          N/A             N/A                  Y             Y
 Definition: The score awarded to a reviewed Office Examination case by a Quality Reviewer using the Examination Quality
 Measurement System (EQMS) quality standards .
 Indicator Type: Measure
 Data Capture and Source: Examination Quality Measurement System
 Data Verification and Validation: new measure - verification and validations will be supplied
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: For fiscal year 2008 and beyond the IRS will use results to drive improvements in work
 products and help improve the taxpayer’s experience .


 Measure: Examination Quality - Industry (%) (Oe)
                                                           FY 2004        FY 2005          FY 2006          FY 2007          FY 2008
                                            Target           80              78               80               88                 90
                                            Actual           74              77               85               87
                                       Target met?           N               N                   Y             N
 Definition: The average of the percentage of critical quality attributes passed on Industry cases (corporations, S-corps (pass
 through corporations) and partnerships with assets over $10 million) reviewed .
 Indicator Type: Measure
 Data Capture and Source: The Large & Mid-Size Business (LMSB) Quality Measurement System (LQMS) database .
 Data Verification and Validation: There are controls and validity checks built into the ERCS database that ensure that is captures
 all closed cases . The LQMS Industry Review Team Managers regularly review the work being performed by the Reviewers . Each
 Review Group has two senior Review Team Leaders (GS-14 employees) and they are actively involved in overseeing the reviews
 being conducted by their team members . The groups have regularly scheduled meetings at which consistent determinations on
 issues is reviewed by the entire group of Reviewers . The team of Managers and Analysts that prepare the quarterly reports are
 involved in reviewing the conclusions for mistakes and inconsistencies . The Industry LQMS Program Managers also performs
 reviews of the work processes in the Industry LQMS Groups .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: The Exam Quality - Industry score of 87 percent was one percentage point (a statistically
 insignificant amount) below the fiscal year 2007 target of 88 percent because of scores slightly below expectations in three of the
 four quality measurement technical standards as well as in the administrative procedures standard . The three technical standards
 were: Planning the Examination, Inspection/Fact Finding, and Workpapers & Reports . The Quality Assurance Staff continued
 to focus on the importance of meeting the Technical Standards through direct feedback to field teams, partnering with the
 industries in Quality Improvement Efforts, Quality Quotes, Quarterly Reports and outreach to field teams . In addition, while
 the field completed the Administrative Procedures Checksheet at a higher percentage than in prior fiscal years, there were still
 some instances where all administrative procedures were not properly documented . The Quality Assurance Staff continued to
 stress the importance of properly completed Administrative Procedures Checksheets and ensured all administrative and statutory
 requirements were properly executed and documented .




                                                     Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
208                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Examination Quality - Coordinated Industry (%) (Oe)
                                                                                    FY 2004          FY 2005          FY 2006          FY 2007          FY 2008
                                                                       Target         70               90               92               97               97
                                                                       Actual         87               89               96               96
                                                                  Target met?          Y                N                Y                N
                            Definition: The average of the percentage of critical elements passed on Coordinated Industry cases reviewed .
                            Indicator Type: Measure
                            Data Capture and Source: The Large & Mid-Size Business (LMSB) Quality Measurement System (LQMS) database .
                            Data Verification and Validation: The Examination Teams make a reasonable effort to keep the CEMIS database accurate and
                            timely with milestone completion information . The LQMS Industry Review Team Managers regularly review the work being
                            performed by the Reviewers . Each Review Group has two senior Review Team Leaders (GS-14 employees) and they are actively
                            involved in overseeing the reviews being conducted by their team members . The groups have regularly scheduled meetings at
                            which consistent determinations on issues is reviewed by the entire group of Reviewers . The team of Managers and Analysts
                            that prepare the quarterly reports are involved in reviewing the conclusions for mistakes and inconsistencies . The Coordinated
                            Industry LQMS Program Managers also performs reviews of the work processes in the Coordinated Industry LQMS Groups .
                            The review of Specialty issues (such as International, Engineering, Economist, etc .) is done by Specialists in those areas .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: The Exam Quality – Coordinated Industry score was 96 percent, one percentage point (a
                            statistically insignificant amount) below the fiscal year 2007 target of 97 percent . The IRS did not meet its target due to sev­
                            eral factors related to the examination planning process, specifically identification of material issues and mandatory referrals to
                            specialists . Another contributing factor was missing or unsigned Administrative Procedures Documents . The IRS continues to
                            focus on the importance of meeting the Auditing Standards through direct feedback to field teams, partnering with the indus­
                            tries in Quality Improvement Efforts, Quality Quotes, Quarterly Reports and outreaches to IRS field teams .


                            Measure: Percentage of Voluntary Compliance in Filing Tax Payments Timely and Accurately (in terms of revenue) (Revenue %) (Oe)
                                                                                    FY 2004          FY 2005          FY 2006          FY 2007          FY 2008
                                                                       Target         82               84               86               86               87
                                                                       Actual        81 .2            86 .3            87 .2            86 .37
                                                                  Target met?          N                Y                Y                Y
                            Definition: The portion of total taxpayers that file payments on or before the scheduled due date, without notification of any
                            delinquency .
                            Indicator Type: Measure
                            Data Capture and Source: Late filed tax payments are maintained in the Federal Excise Tax system (FET) .
                            Data Verification and Validation: The Unit Supervisor has the capability to run canned reports to identify late filed returns and
                            payments in FET .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: TTB will continue to perform outreach programs and audits which provide training for
                            industry members as well as providing a TTB presence .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                       209




 Measure: Percentage of Voluntary Compliance in Filing Tax Payments Timely and Accurately (in terms of number of compliant
 industry members) (%) (Oe)
                                                           FY 2004        FY 2005          FY 2006         FY 2007          FY 2008
                                            Target                            70              74              74               75
                                            Actual                            70            75 .95            75
                                       Target met?          N/A               Y                Y              Y
 Definition: The portion of total taxpayers that file payments on or before the scheduled due date, without notification of any
 delinquency .
 Indicator Type: Measure
 Data Capture and Source: TTB maintains late-filed tax payments in FETS .
 Data Verification and Validation: TTB runs reports to identify late-filed returns and payments in FET .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: TTB will continue to perform outreach programs and audits which provide training for
 industry members as well as providing a TTB presence .


 Measure: Percentage of Total Tax Receipts Collected Electronically (%) (E)
                                                           FY 2004        FY 2005          FY 2006         FY 2007          FY 2008
                                            Target           98               98              98              98               98
                                            Actual          97 .3             98              98              98
                                       Target met?           N                Y                Y              Y
 Definition: The portion of total tax collected from taxpayers via electronic funds transfer (EFT) .
 Indicator Type: Measure
 Data Capture and Source: Data on tax payments made electronically are recorded in Cashlink (Deposit reporting and cash con­
 centration system) . The Revenue Accounting Unit retrieves the wire transfer information from Cashlink . The detail records are
 input into the Electronic Wire Transfer table using the Federal Excise Tax System .
 Data Verification and Validation: When the tax return is processed the system displays all unmatched EFT messages for the tax­
 payer . The NRC selects the payment that matches the tax return . The system then records the control number of the tax return
 in the Electronic Wire Transfer table, updates the Returns table to show the return closed and posts tax liability and payment
 transactions to the Audit table .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: TTB will continue to educate industry members on electronic filings in fiscal year 2008 .




                                                     Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
210                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Percentage Collected Electronically of Total Dollar Amount of Federal Government Receipts (%) (Oe)
                                                                                     FY 2004          FY 2005         FY 2006          FY 2007          FY 2008
                                                                        Target          81              82               83               80               80
                                                                        Actual          81              79               79               79
                                                                   Target met?          Y               N                N                Y
                            Definition: Electronic collections data are retrieved from the CA$H-LINK system, which encompasses eight collection systems .
                            Indicator Type: Measure
                            Data Capture and Source: This measure considers the percentage of government collections that are collected by electronic
                            mechanisms (Electronic Federal Tax Payment System, Plastic Card, FEDWIRE Deposit System, and Automated Clearinghouse
                            (ACH)) compared to total government collections . The system receives deposit and accounting information from local deposito­
                            ries and provides detailed accounting information to STAR, FMS’ central accounting and reporting system .
                            Data Verification and Validation: The agencies that report collections are responsible for ensuring the deposit reports are correct .
                            Financial institutions and Federal agencies report deposits into the CA$H-LINK deposit reporting system using an Account
                            Key which identifies the collection mechanism (lockbox, which is non-electronic or ACH, electronic) through which the collec­
                            tion was made . FMS analysts gather deposit information from CA$H-LINK reports and then report totals and percentages on
                            a monthly Collections Summary Report and on the Total Government Collections Report . The Total Government Collections
                            Report totals all deposits divided into electronic/non-electronic mechanisms and tax and non-tax totals within the mechanisms .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: FMS fell short of its goal by 1 percent due to the large number of paper 1040 tax remitters .
                            IRS charges a fee for most filers who file 1040 electronically, which discourages filers from using it . Excluding those months
                            when IRS lockbox processing is at its peak, electronic collections totaled 85–88 percent . FMS will continue to work closely with
                            IRS to reduce the mandate threshold for paying electronically to encourage a greater percentage of 1040 electronic filers . Pre-
                            enrollment of newly issued taxpayer IDs, greater taxpayer acceptance of other electronic transactions mechanisms (direct deposit,
                            online banking), continued IRS promotion of the website and batch filer services will all contribute to increase electronic tax
                            collections . FMS is also working with agencies to promote the use of web and electronic technologies for revenue collection .


                            Measure: Unit Cost to Process a Federal Revenue Collection Transaction ($) (E)
                                                                                     FY 2004          FY 2005         FY 2006          FY 2007          FY 2008
                                                                        Target      Baseline            1 .4            1 .37            1 .33             1 .3
                                                                        Actual         1 .4             1 .2             1 .1          Est 1 .19
                                                                   Target met?          N                Y               Y                 Y
                            Definition: The unit cost to process a revenue collection transaction .
                            Indicator Type: Measure
                            Data Capture and Source: The cost data is captured through an activity based costing process . The unit cost is the calculated ratio
                            of total direct and indirect costs over total government-wide collection transactions .
                            Data Verification and Validation: At the end of each year actual costs for collections are accumulated and calculated for electronic
                            and non-electronic collections . In addition, the number of transactions is calculated for each collection system . This information
                            is calculated in conjunction with and verified by the program office, and is reviewed by senior level executives .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2007 performance goal . FMS will continue to expand electronic
                            collection tools to other agencies in an effort to improve efficiency and keep costs low .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                       211




 Measure: Amount of Delinquent Debt Collected per $1 Spent ($) (E)
                                                           FY 2004        FY 2005             FY 2006        FY 2007          FY 2008
                                            Target                         41 .09              36 .4          36 .5            36 .75
                                            Actual                         36 .23             39 .97        Est 42 .09
                                       Target met?          N/A              N                   Y              Y
 Definition: This measure shows the efficiency of the Debt Collection program . The costs include all debt collection activities and
 all funding sources .
 Indicator Type: Measure
 Data Capture and Source: Collection of data and reporting on the cost of the debt collection program are performed on an annual
 basis .
 Data Verification and Validation: Data from FMS’collection program systems is validated against data contained in FMS’ Debt
 Management Accounting System by program staff and verified by senior management . Program costs are derived from FMS’
 accounting system and budget reports . The methodology and the origin of the data are consistent from year to year .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: FMS will continue to look for efficiencies to lower program costs by streamlining debt man­
 agement systems while increasing delinquent debt collected .


 Measure: Amount of Delinquent Debt Collected Through all Available Tools ($ billions) (Ot)
                                                           FY 2004        FY 2005             FY 2006        FY 2007          FY 2008
                                            Target           2 .9             3                 3 .1           3 .2             3 .3
                                            Actual            3             3 .25              3 .34          3 .76
                                       Target met?            Y               Y                  Y              Y
 Definition: This measure provides information on the total amount collected, in billions, through debt collection tools operated
 by Debt Management Services .
 Indicator Type: Measure
 Data Capture and Source: The process of collecting and reporting the debt collection data is performed on a monthly basis . The
 methodology and the origin of the data are consistent from month to month . The collection data is generated by the program
 systems (TOP and DMSC) and is reported on a monthly basis . The tools include: tax refund offset, administrative offset, private
 collection agencies, demand letters, and credit bureau reporting . FMS also collects debt through the State debt program and tax
 levy .
 Data Verification and Validation: The data from the program systems is validated against the data contained in the Debt
 Management Account System (DMAS) .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: FMS had record collections in fiscal year 2007 as a result of program efficiencies, streamlin­
 ing systems and increased volumes in the Federal Payment Levy program . For the future, FMS will continue these efforts as well
 as work to incorporate additional payment types into the payment offset and levy programs .




                                                     Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
212                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Percentage of Delinquent Debt Referred to FMS for Collection Compared to Amount Eligible for Referral (%) (Ot)
                                                                                      FY 2004          FY 2005           FY 2006             FY 2007    FY 2008
                                                                        Target          90                92                93                 94           95
                                                                        Actual          99                97                95                100
                                                                   Target met?           Y                 Y                Y                   Y
                            Definition: The measure tracks the percentage of the dollar volume of debt referred to the total dollar volume that is eligible for
                            referral .
                            Indicator Type: Measure
                            Data Capture and Source: The process of collecting and reporting the debt collection data is performed on a monthly basis . The
                            methodology and the origin of the data are consistent from month to month . The referral data is contained in the program sys­
                            tems (TOP and DMSC) . The referral data is loaded from the files received from Federal Program Agencies (AFPAs) .
                            Data Verification and Validation: The agencies are responsible for certifying the debt referrals to Treasury .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: FMS has met the target performance measure for fiscal year 2007 . FMS will continue to
                            keep up its efforts in educating and encouraging agencies to refer all eligible delinquent debt in a timely manner .


                            Measure: BSM Project Cost Variance by Release/Subrelease (E)
                                                                                      FY 2004          FY 2005           FY 2006             FY 2007    FY 2008
                                                                        Target                                              0                  10           10
                                                                        Actual                                              0                  10
                                                                   Target met?         N/A               N/A                Y                   Y
                            Definition: Percent variance by release/sub-release of a BSM funded project’s initial, approved cost estimate versus current,
                            approved cost estimate . Cost variances less than or equal to +/- 10 percent are categorized as being within acceptable thresholds .
                            Cost variances greater than +/- 10 percent are considered outside acceptable thresholds .
                            Indicator Type: Measure
                            Data Capture and Source: The data is collected from the approved and enacted Expenditure Plan and subsequent modifications
                            resulting from changes to project cost plans as approved via the BSM Governance Procedures and documented by the Resource
                            Management Office .
                            Data Verification and Validation: The baseline data will be reviewed/validated by the Program Performance Management (PPM)
                            Team and Manager . To indicate the baseline is valid and approved, the manager will send a notification that the data (Excel
                            spreadsheets) may be placed in the PPM shared library . Before the measure is reported, the PPM Team and Manager will review/
                            validate the report . The PPM Manager will provide the monthly report to the Deputy Associate CIO for Business Integration for
                            approval . Concurrence will be obtained from the Associate CIO for BSM . To indicate the report is validated and approved, the
                            manager will send a notification to store the report in the PPM shared library and report on Improvement Measure externally .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: The IRS will continue reporting on the cost variance measure in accordance with the
                            agreed upon performance methodology . Variance exceeding the +/- 10 percent threshold is subject to IRS change notification
                            process review, Executive Steering Committee approval and, if applicable, Modernization and Information Technology Services
                            Enterprise Governance Committee approval . Cost variances exceeding +/- 10 percent or $1 million require Congressional noti­
                            fication . At each review juncture, management ensures that proposed project changes as reported in the BSM expenditure plan
                            are valid and that mitigation plans are in place when applicable .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        213




 Measure: BSM Project Schedule Variance by Release/Subrelease (E)
                                                            FY 2004        FY 2005         FY 2006         FY 2007          FY 2008
                                             Target                                           0               10              10
                                             Actual                                           0               10
                                        Target met?          N/A             N/A              Y               Y
 Definition: Percent variance by release/sub-release of a BSM funded project’s initial, approved schedule estimate versus current,
 approved schedule estimate . Schedule variances less than or equal to +/- 10 percent are categorized as being within acceptable
 thresholds . Schedule variances greater than +/- 10 percent are considered outside acceptable thresholds .
 Indicator Type: Measure
 Data Capture and Source: The data is collected at the time of Expenditure Plan creation and subsequent modifications resulting
 from changes to project schedule plans as approved via the BSM Governance Procedures and documented by the Resource
 Management Office .
 Data Verification and Validation: The baseline data will be reviewed/ validated by the Program Performance Management (PPM)
 Team and Manager . To indicate the baseline is valid and approved, the manager will send a notification that the data (Excel
 spreadsheets) may be placed in the PPM shared library . Before the measure is reported, the PPM Team and Manager will review/
 validate the report . The PPM Manager will provide the monthly report to the Deputy Associate CIO for Business Integration for
 approval . Concurrence will be obtained from the Associate CIO for BSM . To indicate the report is validated and approved, the
 manager will send a notification to store the report in the PPM shared library and report on Improvement Measure externally .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: The IRS will continue reporting on the schedule variance measure in accordance with the
 agreed upon performance methodology . Variance exceeding the +/- 10 percent threshold is subject to IRS change notification
 process review, Executive Steering Committee approval and, if applicable, Modernization and Information Technology Services
 Enterprise Governance Committee approval . Schedule variances exceeding +/- 10 percent or $1 million require Congressional
 notification . At each review juncture, management ensures that proposed project changes as reported in the BSM expenditure
 plan are valid and that mitigation plans are in place when applicable .
 For additional information, refer to detailed table in Part II .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
214                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Health Care Tax Credit Cost ($) per Taxpayer Served (E)
                                                                                    FY 2004         FY 2005          FY 2006          FY 2007          FY 2008
                                                                       Target                                                          14 .25           13 .97
                                                                       Actual                                                          14 .93
                                                                  Target met?          N/A            N/A              N/A               N
                            Definition: Costs associated with serving the taxpayers including program kit correspondence, registration and program participa­
                            tion . [IFS Monthly Disbursement – (83 percent IT Cost + 60 percent Program Management Costs + Special Projects and Costs
                            + (IRS Non-Labor Costs – Printing))] divided by Taxpayers Served * 1 .6 Where Taxpayers Served is the unique count of SSNs
                            for primary candidates that are enrolled, and/or interact with the customer contact center including correspondence and pro­
                            gram kits, 1 .6 is a factor attributed to the average number of taxpayers served per primary enrollee, to reflect affected Qualified
                            Family Members .
                            Indicator Type: Measure
                            Data Capture and Source: IRS costs and exclusions: IFS disbursement report Accenture costs and exclusions: Monthly Work
                            Request report . Taxpayers served: Health Care Tax Credit Siebel system provides data extracts to the HCTC reporting database,
                            and further queries and reports are created from there .
                            Data Verification and Validation: 1 . Health Care Tax Credit Program office reviews IFS disbursement . 2 . Health Care Tax Care
                            PMO team reviews and checks Contractor costs and exclusions . 3 . PMO reporting team verifies the source data against previous
                            months of IFS data and Work Request data .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: For fiscal year 2007, the Cost Per Taxpayer Served was $14 .93, sixty eight cents above the
                            fiscal year 2007 target of $14 .25 . The shortfall was a result of having to absorb a one-time expense to purchase Health Care Tax
                            Credit Program Kits for taxpayers at a cost of $300,000 to replace outdated supplies . The $300,000 cost was not factored in
                            when the target was set .


                            Measure: Health Care Tax Credit Sign-up Time (Days) (Ot)
                                                                                    FY 2004         FY 2005          FY 2006          FY 2007          FY 2008
                                                                       Target                                        Baseline            97               97
                                                                       Actual                                          98 .7            93 .3
                                                                  Target met?          N/A            N/A              N/A               Y
                            Definition: The calculation of this measure is the median number of calendar days that elapse per registration from the date the
                            Program Kit is mailed to the date the first payment is received from the participant . This is calculated based on queries and
                            reports from system data .
                            Indicator Type:
                            Data Capture and Source: 1 . Dates captured in system during operations . 2 . Data queried by Health Care Tax Credit Program
                            Evaluation and Reporting team . 3 . Measure calculated by Health Care Tax Credit Program Evaluation and Reporting team .
                            Source: Siebel via Microsoft Systems Reporting
                            Data Verification and Validation: 1 . Data is reviewed by Health Care Tax Credit Program Evaluation and Reporting function and
                            compared with previous months . 2 . Diagnostic reports will be available for further review
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: In fiscal year 2008, the Health Care Tax Credit will continue to explore program enhance­
                            ments and efficiences to minimize the time it takes taxpayers to enroll for the Health Care Tax Credit . As the population of the
                            Health Care Tax Credit participants grows due to newly proposed legislation, the Health Care Tax Credit Program will imple­
                            ment process improvements to handle the increased demand .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                       215




 Measure: TEGE Determination Case Closures (Ot)
                                                           FY 2004        FY 2005          FY 2006         FY 2007          FY 2008
                                            Target        141000          131700           112400          118200           102650
                                            Actual        143877          126481           108462          109408
                                       Target met?           Y               N               N                N
 Definition: Cases established and closed on the Employee Plans-Exempt Organizations Determination System (EDS) includes all
 types of tax exempt and employee plan application cases .
 Indicator Type: Measure
 Data Capture and Source: Tax Exempt and Government Entities (TE/GE) Determination System (EDS) Table 2A
 Data Verification and Validation: 1 . Group managers review data entered on closing documents by determination specialists prior
 to approving the case for closing . 2 . Error registers/reports are generated for data not meeting system consistency checks .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: The IRS fell short of the combined target of 118,200 determination case closures by seven
 percent . This was caused by several factors . First, workload in this area is driven by external demand; for various reasons,
 the IRS received 12,000 fewer applications than expected . Responding to customer requests, the IRS extended certain filing
 deadlines . In addition, following a major revision to the user fee schedule for determination, a large number of submissions
 were returned to applicants due to incorrect user fees . Finally, legislative changes in the Pension Protection Act shifted workload
 priorities toward a number of time-consuming cases, resulting in fewer closures overall .


 Measure: Automated Collection System (ACS) Accuracy (%) (Oe)
                                                           FY 2004        FY 2005          FY 2006         FY 2007          FY 2008
                                            Target        Baseline           88              88              91               92
                                            Actual           89             88 .5            91             92 .9
                                       Target met?           Y               Y                Y               Y
 Definition: Percent of taxpayers who receive the correct answer to their ACS question .
 Indicator Type: Measure
 Data Capture and Source: The Centralized Quality Review System (CQRS) monitors the calls as they are reviewed . Data is input
 to the Quality Review Database for product review and reporting .
 Data Verification and Validation: 1 . CQRS management samples QRDbv2 records and validates that sample plans have been fol­
 lowed . 2 . CQRS management reviews QRDbv2 employee input DCIs for consistency and coding . 3 . CQRS tracks and reviews
 rebuttals quarterly, and an annual sample of each product line’s rebuttals are performed . 4 . A rebuttal web site is used to share
 technical and coding issues in CQRS .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: The IRS’ focus on process and performance reviews coupled with the feedback loop and
 identification of training needs will continue in 2008 to drive accuracy up .




                                                     Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
216                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Examination Coverage - Individual (%) (Oe)
                                                                                    FY 2004          FY 2005          FY 2006          FY 2007         FY 2008
                                                                       Target                            .9                  .9           1               1
                                                                       Actual                            .9                 1             1
                                                                  Target met?        N/A                Y                   Y             Y
                            Definition: The sum of all individual returns closed by SB/SE, W&I, and LMSB (Field Examination and Correspondence
                            Examination) divided by the total individual return filings for the prior calendar year . In fiscal year 2005, Automated
                            Underreported (AUR) cases were included as part of this measure . In fiscal year 2006, AUR is covered as a separate measure . The
                            new methodology was applied to prior year actual and fiscal year 2006 plan number .
                            Indicator Type: Measure
                            Data Capture and Source: The data comes from the Audit Information Management System (AIMS) closed case data base, the
                            automated underreporter Management Information System for Top Level Executives (MISTLE) reports and Research projections
                            for individual return filings .
                            Data Verification and Validation: new measure - verification and validations will be supplied
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: Maintenance of balanced coverage, identification of tax avoidance transactions and reduc­
                            tion of the tax gap will continue to be priorities in fiscal year 2008 .


                            Measure: Examination Coverage - Business Corporations >$10 million (%) (Oe)
                                                                                    FY 2004          FY 2005          FY 2006          FY 2007         FY 2008
                                                                       Target                           7               7 .5             8 .2            6 .8
                                                                       Actual                          7 .8             7 .4             7 .2
                                                                  Target met?        N/A                Y               N                 N
                            Definition: The number of Large and Mid-Size Business customer returns with assets greater than $10 million examined and
                            closed during the current fiscal year, divided by filing of the same type returns from the preceding calendar year .
                            Indicator Type: Measure
                            Data Capture and Source: The number of returns examined and closed during the Fiscal Year is from the Audit Information
                            Management System (AIMS) closed case database, accessed via A-CIS (an MS Access application) . Filings are from Document
                            6186, which is issued by the Office of Research, Analysis and Statistics .
                            Data Verification and Validation: 1 . Examination Support & Processing (ESP) group (SBSE) validates data on AIMS (Detroit serv­
                            er) and makes necessary correction . 2 . LMSB picks closing codes and downloads data down to (A-CIS) Access database (Atlanta
                            server) . Charles Johnson (Plantation, FL) validates data, uploads to A-CIS . 3 . LMSB - Chicago downloads LMSB version of data
                            and performs data validation before providing data to CPP . 4 . The information is Document 6186 is validated by the Office of
                            Research, Analysis and Statistics before it is released .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: The Exam Coverage – Business score was 7 .2 percent, one percentage point below the fiscal
                            year 2007 target of 8 .2 percent . Key factors contributing to the shortfall, included the implementation of currency and cycle
                            time initiative, which resulted in substantially more current coordinated industry cases (CIC) that contain fewer cycles and
                            fewer returns; increased time spent on the Compliance Assurance Program (cases addressing issues in a pre-filing environment),
                            which resulted in less numbers of closed returns from a comparable CIC examination; and the rollout of the Issue Management
                            System, (a case management tool used during the examination process) which consumed more agent time than planned .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        217




 Measure: Examination Efficiency – Individual (E)
                                                            FY 2004        FY 2005          FY 2006          FY 2007          FY 2008
                                             Target                          121              121              136              136
                                             Actual                          121              128              137
                                       Target met?           N/A              Y                Y                Y
 Definition: The sum of all individual returns closed by SB/SE, W&I, and LMSB (Field Examination and Correspondence
 Examination) divided by the Total Full Time Equivalents (FTE) expended in examining those individual returns . In fiscal year
 2005, Automated Underreporter (AUR) cases were included as part of this measure . In fiscal year 2006, AUR Efficiency is cov­
 ered as a separate measure . The new methodology was applied to prior year actual and fiscal year 2006 plan number .
 Indicator Type: Measure
 Data Capture and Source: The data comes from the Audit Information Management System (AIMS) closed case data base, the
 automated underreporter Management Information System for Top Level Executives (MISTLE) reports and Exams time report­
 ing system and the Integrated Financial System .
 Data Verification and Validation: Closures and AIMS Closures – 1 . Case closing documents are reviewed for accuracy during
 sample reviews by managers and quality reviewers . 2 . AIMS data is validated prior to distribution . 3 . Queries used to retrieve
 data are reviewed for thoroughness and accuracy . Frivolous Filers (Non-AIMS Closures) – 1 . Cases are reviewed by managers for
 accuracy, timeliness and completeness at any point in the process . 2 . Headquarters Analyst reconciles WP&C data to Summary
 Report in order to validate data . SB/SE AUR: Closures – 1 . Managerial review samples (phone calls, open and closed cases) .
 2 . Checks and balances exist in the AUR Control System to validate the input . 3 . Sample physical review of cases closed on the
 AUR Control System by Program Analysis System (“PAS”) for accuracy and appropriateness of actions .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Future plans include leveraging National Research Program data to improve return selection
 criteria, steamline automation, emphasis on multi-year non-compliance, and utilization of risk analysis/assessment in all business
 processes .


 Measure: AUR Efficiency (E)
                                                            FY 2004        FY 2005          FY 2006          FY 2007          FY 2008
                                             Target                         1701             1759              1932             1808
                                             Actual                         1701             1832              1956
                                       Target met?           N/A              Y                Y                Y
 Definition: The sum of all individual returns closed by AUR in SB/SE and W&I divided by the Total staff years expended in rela­
 tion to those individual returns . Effective: 10/2006
 Indicator Type: Measure
 Data Capture and Source: Each case initiated in AUR results in a closure either in the pre-notice or notice phases . All closing
 actions are posted on the system through the use of process codes that describe the reason& type of closure . Pre-notice closures
 (no taxpayer contact) include screen outs (discrepancy accounted for on the return), transfers and referrals . Pre-notice closures
 are included in the Efficiency Measure numerator . Notice phase closures can be posted at the CP2501, CP2000 or Statutory
 phases . Tax examiners evaluate taxpayer/practitioner responses to the notice and close cases using process codes that denote
 the respondent’s full or partial agreement or disagreement, no change to the original tax liability, transfer or referral . Time:
 Examiners complete Form 3081 to record time charged to each program code . The Form 3081 is input onto the WP&C system
 and a Resource Allocation Report generated . Source: Management Information System for Top Level Executives (MISTLE) .
 Data Verification and Validation: : Closures – 1 . AUR run controls are reviewed to see if the weekend processing has been completed
 and are accurate . 2 . MISTLE Reports are reviewed with other AUR reports to see if processing has been completed and are accurate .
 3 . MISTLE reports are reviewed to see if information is complete and accurate . Time – 1 . Managers review Form 3081 prior to input
 to verify that time is appropriately charged . 2 . WP&C monitored to ensure appropriate time usage .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: The IRS will leverage the process improvements implemented in fiscal year 2007 to improve
 workload selection and productivity, and reduce the number of cases closed without taxpayer contact .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
218                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: AUR Coverage (%) (E)
                                                                                    FY 2004         FY 2005          FY 2006         FY 2007         FY 2008
                                                                       Target                       Baseline           2 .3            2 .5            2 .7
                                                                       Actual                          2 .2            2 .4            2 .5
                                                                  Target met?         N/A              Y                Y               Y
                            Definition: The sum of all individual returns closed, by SB/SE and W&I AUR divided by the total individual return filings for
                            the prior calendar year . Effective: 10/2006
                            Indicator Type: Measure
                            Data Capture and Source: NUMERATOR: The sum of all individual returns closed will be extracted as follows: SB/SE AUR:
                            AUR MISTLE Report W&I AUR: AUR MISTLE Report DENOMINATOR: The source for the total individual return filings
                            for the prior calendar year is the Office of Research Projections of return filings as shown in IRS Document 6187 (Table 1A ) .
                            AUR MISTLE AUR Management Information System for Top Level Executives (MISTLE) .
                            Data Verification and Validation: 1 . AUR run controls are reviewed to see if the weekend processing has been completed and are
                            accurate . 2 . MISTLE reports are reviewed with other AUR reports to see if processing has been completed and are accurate .
                            3 . MISTLE reports are reviewed to see if information is complete and accurate .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: The IRS will leverage the process improvements implemented in fiscal year 2007 to improve
                            workload selection and productivity, and reduce the number of cases closed without taxpayer contact .


                            Measure: Collection Coverage - Units (%) (Oe)
                                                                                    FY 2004         FY 2005          FY 2006         FY 2007         FY 2008
                                                                       Target                                          52               54              54
                                                                       Actual                                          54               54
                                                                  Target met?         N/A             N/A               Y               Y
                            Definition: The volume of collection work disposed (closed) compared to the volume of collection work available . The new
                            methodology for fiscal year 2006 includes balance due and delinquent return cases still in notice status whereas, the fiscal year
                            2005 methodology only considered those accounts or investigations in delinquent status (Taxpayer Delinquent Account (TDA)
                            and Taxpayer Delinquent Investigation (TDI) statuses) . The new methodology was applied to recalculate the prior actual and the
                            fiscal year 2006 plan number .
                            Indicator Type: Measure
                            Data Capture and Source: The data comes from the Collection Activity Report (CAR .)
                            Data Verification and Validation: 1 . Changes to programming of Collection Activity Reports are generally made once a year . Those
                            changes are tested and verified by program analysts at headquarters before the first new report is released . Monthly spot checks
                            are also done to verify they match the data sent to the DataMart . 2 . Accuracy of Automated Offer in Compromise database is
                            validated by management checks in the operating units .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: The Collection Coverage score was 52 percent, two percentage points below the fiscal year
                            2007 target of 54 percent . The number of collection cases closed in fiscal year 2007 increased over fiscal year 2006; however,
                            the increase in closures did not keep pace with the growth in new receipts . The available inventory grew by 1 .8 million over
                            the projected level for fiscal year 2007 primarily because Individual Master File (IMF) balance due first notices increased 1 .08
                            million and IMF delinquent return first notices increased 500,000 over projected levels . Approximately one third of the new
                            receipts appear to be related to compliance assessments and the remaining two thirds appears to be related to taxpayer behavior .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                       219




 Measure: Collection Efficiency (E)
                                                           FY 2004        FY 2005          FY 2006           FY 2007          FY 2008
                                            Target                        Baseline           1650             1723             1751
                                            Actual                         1514              1677             1828
                                       Target met?          N/A               Y                Y                Y
 Definition: Total work (delinquent accounts, investigations, offer-in-compromise, automated substitution for return) divided
 by the total Full Time Equivalent (FTE) realized in field collection and in campus collection . The new methodology for fiscal
 year 2006 includes balance due and delinquent return cases still in notice status whereas, the fiscal year 2005 methodology only
 considered accounts or investigations in delinquent status (Taxpayer Delinquent Account (TDA) and Taxpayer Delinquent
 Investigation (TDI) statuses) . The new methodology was applied to recalculate the prior actual and the fiscal year 2006 plan
 number .
 Indicator Type: Measure
 Data Capture and Source: The data comes from the Collection Activity Report (CAR) and the Integrated Financial System (IFS) .
 Data Verification and Validation: 1 . Changes to programming of Collection Activity Reports are generally made once a year . Those
 changes are tested and verified by program analysts at headquarters before the first new report is released . Monthly spot checks
 are also done to verify they match the data sent to the DataMart . 2 . Accuracy of Automated Offer in Compromise database is
 validated by management checks in the operating units .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: The IRS was within one percent of target . The fiscal year 2007 Collection Efficiency rate of
 1,720 is 2 .5 percent above fiscal year 2006 performance and 0 .2 percent below the fiscal year 2007 target of 1,723 . Automated
 Collection System Taxpayer Delinquency Investigation (TDI) inventory available was below projections, resulting in more time
 applied to Taxpayer Delinquent Accounts (TDA) . This resulted in the lower efficiency rate because TDA cases take more hours
 to complete than TDI cases .


 Measure: Field Collection Embedded Quality
                                                           FY 2004        FY 2005          FY 2006           FY 2007          FY 2008
                                            Target                                           84 .2             86               86
                                            Actual                                           84 .2             84
                                       Target met?          N/A             N/A                Y                N
 Definition: The number of EQ quality attributes that are scored as “met” by an independent centralized review staff divided by
 the total attributes measured (mets + not mets) in a sample of closed cases . All measured attributes have the same weight when
 calculating the score .
 Indicator Type: Measure
 Data Capture and Source: Monthly reports supplied from the EQMS database .
 Data Verification and Validation: Cases are sent to the review sites to be reviewed . The cases are then reviewed and results are
 recorded into the CQMS EQ database . A validity check is conducted by EQ review site management . Once the data has been
 validated the information is transmitted to the EQ website .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: The Field Collection Embedded Quality score was 84 percent, two percentage points below
 the fiscal year 2007 target of 86 percent . Although the Field Collection quality score improved over last fiscal year, the fiscal year
 2007 target was established assuming Embedded Quality would be fully implemented at the start of fiscal year 2007 . However,
 implementation was delayed until March 2007, and the first quarterly report was not available until June 2007 . These reports
 provide managers with data that allows them to focus improvements on specific attributes . Quality remains a core goal of the
 Collection organization and is emphasized in both the Collection Program letter and the business plans for fiscal year 2008 . The
 IRS took the following actions to improve quality results: 1) conducted quarterly reviews in each area to ensure consistent appli­
 cation of the quality attributes and evaluated trends in order to identify areas that require additional rating guidance and clarity .
 The IRS will continue these reviews in fiscal year 2008; 2) developed quality improvement action plans for each Collection area,
 which focused on specific elements that dropped 5 percent or more in each attribute .



                                                     Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
220                                                                          Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Unit Cost to Process an Excise Tax Return ($) (E)
                                                                                      FY 2004           FY 2005         FY 2006           FY 2007         FY 2008
                                                                         Target                                         Baseline            76                0
                                                                         Actual                                            76               61
                                                                   Target met?          N/A              N/A               Y                 Y
                            Definition: The cost of resources that it takes to process one excise tax return .
                            Indicator Type: Measure
                            Data Capture and Source: Capturing excise tax returns: Tax returns are submitted via mail and the Pay .gov system . Mail submis­
                            sions are assigned a unique control number and dates of receipt are logged into the Integrated Revenue Information System
                            (IRIS) . Pay .gov assigns a unique number and date of submission automatically . This information is then transmitted and consoli­
                            dated in IRIS . TTB generates a report from IRIS indicating the number of tax returns processed . Capturing resource cost data:
                            NRC captures resource expenses in the Status of Funds Report in Discoverer (Oracle Financial Reporting System) .
                            Data Verification and Validation: Capturing excise tax returns: TTB reconciles the returns received vs . logged returns daily .
                            Capturing resource cost data: Resource data is captured and available four times a day in Discoverer .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: This measure will undergo a new baseline year as the methodology for calculating the mea­
                            sure and legislative actions require changes .


                            Measure: Cumulative Percentage of Excise Tax Revenue Audited Over 3 Years (%) (Ot)
                                                                                      FY 2004           FY 2005         FY 2006           FY 2007         FY 2008
                                                                         Target                           65               90               12                74
                                                                         Actual                           82               93               16
                                                                   Target met?          N/A                Y               Y                 Y
                            Definition: The portion of total excise tax revenue that is audited in the fiscal years covered in the 5-year period .
                            Indicator Type: Measure
                            Data Capture and Source: TTB tracks completion of all scheduled audits .
                            Data Verification and Validation: Audit results – we designed the audit to verify and validate the accuracy of the revenue collected
                            for the entity(ies) audited in the given fiscal year .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: TTB plans to resume its audits of large taxpayers in fiscal year 2008 which will significantly
                            increase it percentage of excise tax revenue audited .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        221




 Measure: Resources as a Percentage of Revenue (%) (E)
                                                            FY 2004        FY 2005             FY 2006     FY 2007          FY 2008
                                             Target                            .4                 .34         .34              .34
                                             Actual                           .37                 .31         .31
                                       Target met?           N/A              Y                   Y           Y
 Definition: Represents the amount of resources expended to collect taxes, divided by the amount of taxes collected .
 Indicator Type: Measure
 Data Capture and Source: Taxes collected is captured by the Federal Excise Tax database; expense data is maintained in Oracle
 Financials .
 Data Verification and Validation: Both of these components represent information that is subject to annual audits and routine
 reconciliation .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: TTB continues to find reengineering/electronic methods and means that allows the organi­
 zation to make the best use of its Collect the Revenue resources .


 Measure: Average Tax Compliance Cost for Individuals and Small Businesses ($) (Oe) [DISCONTINUED FY 2007]
                                                            FY 2004        FY 2005             FY 2006     FY 2007          FY 2008
                                             Target            0              0                   0      Discontinued    Discontinued
                                             Actual            0              0                   0
                                       Target met?             Y              Y                   Y          N/A
 Definition: This measures the cost for individuals and small business to satisfy their tax obligations, including the amount of time
 spent filling out tax forms
 Indicator Type: Measure
 Data Capture and Source: IRS tax data
 Data Verification and Validation: The Treasury Department and the IRS are in the process of developing a model for measuring the
 compliance burden on individual taxpayers . This model will be used to develop and evaluate proposals to reduce the compliance
 burden on individuals, including proposals to simplify the tax laws .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: This measure is Discontinued for fiscal year 2007 .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
222                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Strategic Outcome:
                         Government financing at the lowest possible cost over time

                            Measure: Cost per Debt Financing Operation ($) (E)
                                                                                     FY 2004           FY 2005          FY 2006         FY 2007          FY 2008
                                                                        Target                        Baseline          133683          228409           249679
                                                                        Actual                        126828            148926         216801*
                                                                   Target met?         N/A                Y                N               Y
                            Definition: This performance measure divides debt financing operations costs, determined by an established cost allocation meth­
                            odology, by the number of auctions and buybacks .
                            Indicator Type: Measure
                            Data Capture and Source: The number of debt financing operations is captured in the Auction Information Calendar (AIC) and
                            on-line at TreasuryDirect .gov . Costs are captured in BPD’s administrative accounting system .
                            Data Verification and Validation: Analysts manually count the number of auctions in the AIC and cross-reference this number
                            to the historical information query on-line at www .TreasuryDirect .gov to determine the number of debt financing operations .
                            Senior management regularly reviews the cost allocation methodology and the allocations are updated at least annually .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: Based upon the third quarter year-to-date figures, the cost per debt financing operation is
                            below the fiscal year 2007 target of $228,409 . The projected cost for fiscal year 2008 of $249,679 includes increases for inflation
                            and the estimated cost of replacing the legacy auction system, which will provide Treasury debt managers the ability to bring new
                            types of securities to market . *Cost per item estimated until year-end costs are finalized .
                            * Final data for this measure was not available at the time of publication . This data is an estimate .


                            Measure: Percent of Auction Results Released in 2 Minutes +/- 30 Seconds (%) (Oe)
                                                                                     FY 2004           FY 2005          FY 2006         FY 2007          FY 2008
                                                                        Target          95               95                95             95                95
                                                                        Actual        99 .53             95               100            99 .1
                                                                   Target met?          Y                 Y                Y               Y
                            Definition: This measures the elapsed time from the auction close to the public release of the auction results . The annual percent­
                            age of auctions meeting the release time target of 2 minutes plus or minus 30 seconds is calculated for the fiscal year .
                            Indicator Type: Measure
                            Data Capture and Source: BPD’s automated auction processing systems
                            Data Verification and Validation: For each auction, analysts verify and validate the system time stamps that record the auction close
                            and auction posting times .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: In fiscal year 2007, Public Debt surpassed its performance target of releasing auction results
                            within two minutes, plus or minus 30 seconds, 95 percent of the time . In light of the fact that BPD is introducing a new auc­
                            tion system, the Bureau is considering changing its performance goals for fiscal year 2008 .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        223




 Measure: Cost per TreasuryDirect Assisted Transaction ($) (E)
                                                            FY 2004         FY 2005          FY 2006          FY 2007          FY 2008
                                             Target                        Baseline            7 .75            6 .16            7 .05
                                             Actual                          8 .51             4 .97           6 .03*
                                        Target met?          N/A               Y                Y                Y
 Definition: This performance measure divides TreasuryDirect customer service transaction costs, determined by an established cost
 allocation methodology, by the number of customer requests completed with assistance by a customer service representative .
 Indicator Type: Measure
 Data Capture and Source: For customer service transactions received by mail and for some requests received by phone or internet,
 Public Debt (BPD) obtains volumes from an automated tracking system . Simple phone and internet requests are manually
 counted . Costs are captured in BPD’s administrative accounting system .
 Data Verification and Validation: The accuracy of the system-generated volumes is verified twice a year by customer service staff
 performing manual counts . Senior management regularly reviews the cost allocation methodology and the allocations are
 updated at least annually .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Based upon the third quarter year-to-date figures, the cost per TreasuryDirect assisted trans­
 action is below the fiscal year 2007 target of $6 .16, and fiscal year 2008 costs will be $7 .05 . Public Debt will reallocate resources
 to handle a changing mixture of customer transactions that result from a growing number of accounts and an expansion of
 services available in TreasuryDirect . *Cost per item estimated until year-end costs are finalized .
 * Final data for this measure was not available at the time of publication . This data is an estimate .


 Measure: Cost per TreasuryDirect Online Transaction ($) (E)
                                                            FY 2004         FY 2005          FY 2006          FY 2007          FY 2008
                                             Target                        Baseline            2 .99            2 .96            2 .44
                                             Actual                          3 .43             3 .06           2 .79*
                                        Target met?          N/A               Y                N                Y
 Definition: This performance measure divides TreasuryDirect online transaction costs, determined by an established cost allocation
 methodology, by the number of TreasuryDirect online transactions .
 Indicator Type: Measure
 Data Capture and Source: Workload figures are captured from information stored in TreasuryDirect . Costs are captured in Public
 Debt’s administrative accounting system .
 Data Verification and Validation: Workload figures are electronically verified by the Treasury Direct system . Senior management
 regularly reviews the cost allocation methodology and the allocations are updated at least annually .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Based upon the third quarter year-to-date figures, the cost per TreasuryDirect online transac­
 tion is below the fiscal year 2007 target of $2 .96 . As more customers purchase book-entry securities through TreasuryDirect,
 Public Debt forecasts the cost of an online transaction will be $2 .44 for fiscal year 2008 . *Cost per item estimated until year-end
 costs are finalized .
 * Final data for this measure was not available at the time of publication . This data is an estimate .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
224                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Percentage of Retail Customer Service Transactions Completed Within 12 Business Days (%) (Oe)
                                                                                     FY 2004           FY 2005          FY 2006         FY 2007          FY 2008
                                                                        Target          90               90                90              90               90
                                                                        Actual         92 .5            88 .7              98            99 .43
                                                                   Target met?          Y                 N                Y               Y
                            Definition: The length of time to complete a customer service transaction is measured from the date each transaction is received
                            to the date it is completed .
                            Indicator Type: Measure
                            Data Capture and Source: For customer service transactions received by mail and for some requests received by phone or e-mail,
                            Public Debt uses an automated tracking system that measures the length of time it takes to complete the transactions . Simple
                            phone and internet requests are manually tracked .
                            Data Verification and Validation: The accuracy of system-generated data is crosschecked at least twice a year by customer service
                            staff performing manual counts .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: BPD’s retail securities service surpassed its target of 90 percent in fiscal year 2007 . Future
                            goals are to complete 90 percent of transactions within 12 business days in fiscal year 2008, 11 business days in fiscal year 2009
                            and 10 business days in fiscal year 2010 . Sufficient funding, efficiencies gained from improved work processes and an increase in
                            electronic transactions will allow Public Debt to meet these goals .


                            Measure: Cost per Federal Funds Investment Transaction ($) (E)
                                                                                     FY 2004           FY 2005          FY 2006         FY 2007          FY 2008
                                                                        Target                        Baseline           90 .15          72 .33           73 .12
                                                                        Actual                          88 .74           62 .64          59 .93*
                                                                   Target met?         N/A                Y                Y               Y
                            Definition: This performance measure divides the federal funds investment costs, determined by an established cost allocation
                            methodology, by the number of issues, redemptions, and interest payments for more than 200 trust funds, as well as the Treasury
                            managed funds .
                            Indicator Type: Measure
                            Data Capture and Source: The automated investment accounting system captures and reports transaction counts . Costs are cap­
                            tured in Public Debt’s administrative accounting system .
                            Data Verification and Validation: Accountants review transaction reports for reasonableness and any unusual trends are investigated .
                            Senior management regularly reviews the cost allocation methodology and the allocations are updated at least annually .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: Based upon third quarter year-to-date figures, the cost per federal funds investment transac­
                            tion is forecasted to be below the target of $72 .33 . Due to inflationary cost increases and constant transaction volumes, Public
                            Debt establishes a target for fiscal year 2008 of $73 .12 . *Cost per item estimated until year-end costs are finalized .
                            * Final data for this measure was not available at the time of publication . This data is an estimate .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                       225




 Measure: Percentage of Government Agency Customer Initiated Transactions Conducted Online (%) (Oe)
                                                           FY 2004         FY 2005          FY 2006          FY 2007          FY 2008
                                            Target                        Baseline            65                75               80
                                            Actual                          72 .7            97 .03           97 .31
                                       Target met?          N/A               Y                Y                Y
 Definition: Public Debt (BPD) administers three programs in which government agencies conduct transactions: 1 . Government
 Account Series Securities (Federal Investments) 2 . Treasury Loans Receivable (Borrowings) 3 . State and Local Government Series
 securities . Prior to an initiative to make BPD systems available on the internet, customers faxed all requests to Public Debt,
 and BPD manually entered the transactions into the various systems . BPD’s long-term goal is to have 80 percent of customer-
 initiated transactions completed online by the end of fiscal year 2008 .
 Indicator Type: Measure
 Data Capture and Source: Total transaction counts are captured from the investment accounting systems in automated reports that
 differentiate online transactions from other transactions entered into the systems .
 Data Verification and Validation: Accountants review the total online transaction counts for reasonableness and unusual volumes
 are investigated .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: In an effort to expand on-line investment services to its federal, state and local customers,
 the Bureau of the Public Debt surpassed its fiscal year 2007 performance target of 75 percent . In August 2005, State and Local
 Government Series (SLGS) regulations required that SLGS securities customers submit investment transactions on-line via the
 SLGSafe internet application . Public Debt expects that the investment on-line percentages will remain at the current level in
 future years .




                                                     Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
226                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Strategic Outcome:
                         Timely and accurate payments at the lowest possible cost

                            Measure: Percentage of Treasury Payments and Associated Information Made Electronically (%) (Oe)
                                                                                   FY 2004         FY 2005         FY 2006          FY 2007         FY 2008
                                                                      Target         75              76               78              78               79
                                                                      Actual         75              76               77              78
                                                                 Target met?         Y                Y               N                Y
                            Definition: The portion of the total volume of payments that is made electronically by FMS . Electronic payments include trans­
                            fers through the automated clearinghouse and wire transfer payments through the FEDWIRE system .
                            Indicator Type: Measure
                            Data Capture and Source: The volume of payments is tracked through FMS’ Production Reporting System . The amount and
                            number of payments are also maintained under accounting control .
                            Data Verification and Validation: Accounting controls provide verification that the number of payments, both checks and EFT, is
                            accurately tracked and reported . The number of inquires made against Federal check payments, whether disbursed by FMS or by
                            other agencies, is separately tracked and reported . Additionally, payment files are balanced with payment authorizations that are
                            electronically certified and submitted to FMS by Federal program agencies . The Federal Reserve Banks also validate the payment
                            files .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2007 performance goal . FMS will continue to implement the
                            successful Go-Direct Campaign to expand and market the use of electronic media to deliver federal payments, improve service
                            to payment recipients, and reduce government program costs . FMS is also working with the Social Security Administration to
                            develop a Universal Direct Deposit plan which will require newly enrolled beneficiaries to receive payments electronically unless
                            they do not have a bank account . In addition, FMS will roll out a nationwide debit card program called Direct Express to target
                            the un-banked customers of benefit payments .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                           227




     Measure: Percentage of Paper Check and Electronic Funds Transfer (EFT) Payments Made Accurately and on Time (%) (Oe)
                                                               FY 2004        FY 2005          FY 2006          FY 2007          FY 2008
                                                Target          100             100              100              100              100
                                                Actual          100             100              100              100
                                           Target met?           Y               Y                Y                Y
     Definition: Accurately refers to the percentage of check and EFT payments that FMS makes which are not duplicate or double
     payments . On time means that FMS releases checks to the U .S . Postal Service and EFT payments to the Federal Reserve Bank
     such that normal delivery by them results in timely receipt by payees .
     Indicator Type: Measure
     Data Capture and Source: Accuracy data is captured through FMS’ Regional Financial Centers which submit statistics on dupli­
     cate payments and data for the performance measure . The payments are balanced with payment certifications submitted to FMS
     by Federal Program Agencies . On time data on check and EFT volumes are captured monthly in a report from FMS’ Production
     Reporting System .
     Data Verification and Validation: Accuracy is ensured through payment processes and accounting systems that are subject to
     numerous internal controls and audit reviews . RFC managers validate payment controls . Systems and accounting reports are
     used to independently validate payment accuracy and identify the number of duplicate payments . RFCs balance the input to the
     PRS with a payment control file . The volume of checks released to the USPS is verified against the volume of checks listed on
     Postal Form 3600 . USPS timeliness is ensured through Form 3600, which contains the time and date of release of checks from
     RFCs to the USPS . For EFT timeliness verification, the volume of payments released is verified against the volume of payments
     listed on the transmission report which also states the time and date of transmission from an RFC to the Federal Reserve Bank .
     Data Accuracy: Reasonable

     Data Frequency: Quarterly

     Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2007 performance goal . FMS plans to continue to issue 100 per­
     cent of payments accurately and on-time . The Secure Payment System (SPS) used by program agencies to certify checks, ACH,
     or wire payments to recipients in a secure environment is a critical component in achieving the performance goal .



     Measure: Unit Cost for Federal Government Payments ($) (E)
                                                               FY 2004        FY 2005          FY 2006          FY 2007          FY 2008
                                                Target            0              .35              .35              .39              .38
                                                Actual            .35            .355             .37              .38
                                           Target met?           N               N                N                Y
     Definition: Unit cost combines both paper and electronic payment mechanisms and includes the aftermath processes (reconcilia­
     tion and claims) for both types of payment mechanisms .
     Indicator Type: Measure
     Data Capture and Source: The cost data is captured through an activity based costing process . The unit cost is the calculated ratio
     of cost per payment .
     Data Verification and Validation: At the end of each fiscal year, actual costs for issuing payments are accumulated and calculated for
     checks and EFT payments . This information is calculated in conjunction with and verified by the program office and is reviewed
     by senior executives . Additional accounting controls provide verification that the number of payments is accurately tracked and
     reported .
     Data Accuracy: Reasonable
     Data Frequency: Annually
     Future Plans/Explanation for Shortfall: FMS plans to continue its efforts in improving efficiencies in payment delivery by concen­
     trating on expanding electronic payments through a variety of programs . *Unit measure is estimated until costs are finalized .
 .




                                                         Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
228                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Strategic Outcome:
                         Accurate, timely, useful, transparent and accessible financial information

                            Measure: Percentage of Government-wide Accounting Reports Issued Accurately (%) (Oe)
                                                                                    FY 2004          FY 2005          FY 2006          FY 2007          FY 2008
                                                                       Target         100              100              100              100              100
                                                                       Actual         100              100              100              100
                                                                  Target met?          Y                Y                Y                Y
                            Definition: All Government-wide financial data that FMS publishes relating to U .S . Treasury cash-based accounting reports (i .e .,
                            the Daily Treasury Statement, the Monthly Treasury Statement, and the Annual Combined Report) will be 100 percent accurate .
                            Indicator Type: Measure
                            Data Capture and Source: A monthly tracking system reports on the various published statements and monitors errata as it per­
                            tains to this data .
                            Data Verification and Validation: There are no errors in any of the published government-wide financial information .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2007 performance goal . In the future, FMS will continue to
                            revamp government-wide accounting processes to provide more useful and reliable financial information on a regular basis . FMS
                            is building and implementing a system to improve the exchange of financial information among FMS, Federal Program Agencies
                            (FPA), Office of Management and Budget and the banking community . Once completed, this Government-wide Accounting
                            Modernization Project will comprehensively replace current government-wide accounting functions and processes that are both
                            internal and external to FMS . It will improve the reliability, usefulness, and timeliness of the government’s financial information,
                            provide FPAs and other users with better access to that information, and will eliminate duplicate reporting and reconciliation
                            burdens by agencies . FMS is also moving forward on a project called Financial Information Reporting Standardization which
                            will integrate budgetary and proprietary accounting data as well as several accounting data collection systems to improve the
                            integrity and accuracy of government-wide financial information and reports .


                            Measure: Percentage of Government-wide Accounting Reports Issued Timely (%) (E)
                                                                                    FY 2004          FY 2005          FY 2006          FY 2007          FY 2008
                                                                       Target         100              100              100              100              100
                                                                       Actual         100              100              100              100
                                                                  Target met?          Y                Y                Y                Y
                            Definition: All Government-wide financial data that FMS publishes relating to U .S . Treasury cash-based accounting reports (i .e .,
                            the Daily Treasury Statement, the Monthly Treasury Statement, and the Annual Combined Report) will be on time 100 percent
                            of the time .
                            Indicator Type: Measure
                            Data Capture and Source: A monthly reporting system is used to track the release dates to the public of all of the various govern­
                            ment-wide statements .
                            Data Verification and Validation: Procedures are in place to validate that the statements are released on time to the public 100
                            percent of the time .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2007 performance goal . FMS is building and implementing a
                            system to improve the exchange of financial information among FMS, Federal Program Agencies (FPA), Office of Management
                            and Budget (OMB) and the banking community . Once completed, this Government-wide Accounting (GWA) Modernization
                            Project will comprehensively replace current government-wide accounting functions and processes that are both internal and
                            external to FMS . It will improve the reliability, usefulness, and timeliness of the government’s financial information .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        229




 Measure: Cost Per Summary Debt Accounting Transaction ($) (E)
                                                            FY 2004         FY 2005          FY 2006         FY 2007          FY 2008
                                             Target                        Baseline           11 .59          10 .98           10 .88
                                             Actual                          12 .62           10 .96          8 .93*
                                        Target met?          N/A               Y                Y               Y
 Definition: This performance measure divides summary debt accounting transaction costs, determined by an established cost allo­
 cation methodology, by the number of summary debt accounting transactions .
 Indicator Type: Measure
 Data Capture and Source: Public debt accounting systems capture and report transaction counts . Costs are captured in Public
 Debt’s administrative accounting system .
 Data Verification and Validation: Accountants review transactional activity reports for reasonableness and any unusual trends are
 investigated . Senior management regularly reviews the cost allocation methodology and the allocations are updated at least
 annually .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Based upon third quarter year-to-date figures, the cost per summary debt accounting trans­
 action is forecasted to be below the fiscal year 2007 target of $10 .98 . Due to inflationary cost increases and constant transaction
 volumes, Public Debt establishes a target for fiscal year 2008 target of $10 .88 . Public Debt will continue to maintain and sup­
 port strong accounting controls to ensure integrity of the operations and accuracy of the information provided to the public .
 *Cost per item estimated until year-end costs are finalized .
 * Final data for this measure was not available at the time of publication . This data is an estimate .


 Measure: Release Federal Government-wide Financial Statements on Time (Oe)
                                                            FY 2004         FY 2005          FY 2006         FY 2007          FY 2008
                                             Target            1               1                1               1                1
                                             Actual          Met             Met               Met            Met*
                                        Target met?            Y               Y                Y               Y
 Definition: This report is the audited consolidated financial report of the federal government required by the Government
 Management Reform Act .
 Indicator Type: Measure
 Data Capture and Source: Data are collected from the audited financial results of all federal agencies and is audited by GAO .
 Data Verification and Validation: Report is released to the public with a release date that can be independently verified . Due date is
 established by Treasury/OMB policy decision since it exceeds the statutory requirement of March 31 .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: In fiscal year 2007, the Treasury Department’s Office of Domestic Finance plans to released
 the federal government-wide financial statements on time . The Treasury Department has met this performance target since fiscal
 year 2004, and expects to continue to meet its targets in fiscal year 2008 and fiscal year 2009 . The prompt release of this state­
 ment is important because it represents the culmination of the recent government-wide campaign to accelerate the issuance of
 financial reporting . Treasury also manages the government’s cash position to ensure that funds are available on a daily basis to
 cover federal payments and to maximize investment earnings and minimize borrowing costs . The Department has also met its
 goal of receiving audit opinions on government-wide financial statements, and has plans to meet it fiscal year 2009 targets .
 * Final data for this measure was not available at the time of publication . This data is an estimate .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
230                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Unit Cost to Manage $1 Million Dollars of Cash Flow
                                                                                     FY 2004           FY 2005          FY 2006       FY 2007          FY 2008
                                                                        Target                                          Baseline       10 .69           11 .6
                                                                        Actual                                           8 .50         9 .70*
                                                                   Target met?         N/A              N/A                Y             Y
                            Definition: This Unit Cost Measure assesses Government Wide Accounting’s (GWA’s) Cost to Manage Government Operations .
                            The Government Operations consists of total GWA costs which consist of all Directorates, Systems, Administrative Overhead,
                            and major initiatives performed within GWA . On a monthly basis the Cost-per-Million of Cash Flow managed by GWA is
                            calculated .
                            Indicator Type: Measure
                            Data Capture and Source: The Total GWA Cost data is retrieved from the year ending Cost Accounting Report . The Operating
                            Cash, which is rounded in millions, is determined from the final DTS of each month for the fiscal year . The ratio of total costs
                            to GWA per month over Deposits and Withdrawals (Excluding Transfers) gives us the cost to manage $1 Million dollars of
                            cash flow . This ratio is calculated for GWA alone to determine controllable costs, and using Information Resources / TWAI and
                            Management Overhead to determine the uncontrollable costs attributed to GWA .
                            Data Verification and Validation: At the beginning of each month, the actual operating cash of the United States in the form of
                            Deposits and Withdrawals is obtained from the Last Daily Treasury Statement (DTS) of the previous month . GWA total costs
                            are broken down and retrieved from the Cost Accounting Report that is prepared at the end of the fiscal year . This informa­
                            tion is verified and excludes Financial Services . Additional data is retrieved from this source and included in the report and is
                            reviewed by senior executives .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2007 performance goal . Cash flow was higher in fiscal year 2007
                            than initially estimated . When cash flow increases, it drives the cost per million down . Though cash flow is beyond the control
                            of FMS, FMS plans to continue its efforts in improving efficiencies and lowering its costs in managing the nation’s money .
                            * Final data for this measure was not available at the time of publication . This data is an estimate .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        231




Strategic Outcome:
Effective cash management

 Measure: Variance Between Estimated and Actual Receipts (annual forecast) (%) (Oe)
                                                            FY 2004         FY 2005           FY 2006          FY 2007      FY 2008
                                             Target            5                5                5                5            5
                                             Actual           3 .8              5               3 .9             2 .1
                                        Target met?            Y               Y                 Y                Y
 Definition: Percentage error measures the accuracy of the Mark receipts forecasts produced monthly by the Office of Fiscal
 Projections . It measures the relative amount of error or bias in Office of Fiscal Projections receipts forecasts .
 Indicator Type: Measure
 Data Capture and Source: The Office of Fiscal Projections within the Office of the Fiscal Assistant Secretary compiles receipts
 data by major categories (i .e ., withheld income taxes, individual taxes, FICA, corporate, customs deposits, estate and excise) as
 well as by types of collection mechanisms (electronic and paper coupons) . The Office of Fiscal Projections is also responsible for
 forecasting the daily tax receipts in order to manage the federal government’s cash flow . Data on monthly and daily federal tax
 receipts of actual and forecasts are compiled by the office and are used to report on the United States’ monthly, weekly, and daily
 cash position in addition to determining the optimal financing for cash management .
 Data Verification and Validation: The percentage error is computed by subtracting the forecast value of tax receipts from the actual
 (At -Ft), and dividing this error of forecast by the actual value, and then multiplying it by 100 . PEt = ((At - Ft)/At) *100 At is
 actual value of receipts at time t, and Ft is forecasted value of receipts at time t . The average percentage error is more general
 measure that will be used to compare the relative error in the forecasts . This measure adds up all the percentage errors at each
 point and divides them by the number of time point APE = |(?t=1TPEt)|/T where PEt is the percentage error of forecasts in (1)
 and T is the total number of time point . The absolute value of the average percentage error will be used to measure the magni­
 tude of error or bias in the receipts forecasts .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: In fiscal year 2008, the tolerance will continue to be 5 percent . To exceed this performance
 measure in fiscal year 2007, the Office of Fiscal Projections continued to meet monthly with senior staff in the Office of
 Macroeconomic Analysis (Office of the Assistant Secretary for Economic Policy) and the Office of Tax Analysis (Office of the
 Assistant Secretary for Tax Policy) . The meetings focused on identifying revisions to key macro-economic variables and indicators
 and the identifying impact that revisions in these variables would have on short-term receipt forecasts . Additionally, the Office
 of Fiscal Projections analysts speak almost daily with Tax Policy analysts, providing information and insight on actual daily cash
 flows and receiving guidance on the short-term implications of current flows on future tax collections . The value of these meet­
 ings is evident in the annual performance in fiscal year 2007 (a cumulative error of 2 .1 percent) . This process will be continued
 in fiscal year 2008 and revised, if necessary, to ensure that this year’s target is met .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
232                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         STRATEGIC GOAL: U.S. and World Economies Perform
                                         at Full Economic Potential

                         Strategic Outcome:
                         Strong U.S. economic competitiveness

                            Measure: FTE - Number of Full-Time Equivalent Jobs Created or Maintained in Underserved Communities by Businesses Financed by
                            CDFI Program Awardees and New Markets Tax Credit (NMTC) Allocatees (Oe)
                                                                                   FY 2004         FY 2005          FY 2006         FY 2007          FY 2008
                                                                      Target        5852            26995           29158            34009           28676
                                                                      Actual        9212            23656           22329            35022
                                                                 Target met?         Y                N               N                Y
                            Definition: An employee that works at least a 35-hour workweek is considered a full-time equivalent (FTE) . In calculating the
                            number of FTEs, part-time employees are combined into FTEs . For example, two part-time employees that each work 17 .5
                            hours per week are combined to count as one FTE . Jobs maintained are jobs at the business at the time the loan or investment is
                            made . Jobs created are new jobs created after the loan or investment is made . Jobs created and maintained serve as an important
                            indicator of the economic vitality of underserved areas . Underserved communities are those that qualify as CDFI Program Target
                            Markets (which include a specific geography called an Investment Area or a specific community of people with demonstrated
                            lack of access to credit, equity, or financial services called a Low-Income Targeted Population or an Other Targeted Population) .
                            Underserved communities are also those that qualify as New Markets Tax Credit (NMTC) Low Income Communities .
                            Indicator Type: Measure
                            Data Capture and Source: Each awardee and allocatee collects and tracks job data in its own management information system(s) .
                            The information is self-reported by awardees and allocatees . Many organizations track the number of jobs projected to be cre­
                            ated . A smaller number collect annual information on actual number of jobs created . Some do not collect the data and respond
                            “don’t know .” Each CDFI Financial Assistance awardee and NMTC Allocatee is required to complete a Transaction Level Report .
                            CDFI awardees report FTE data in the Institution Level Report or Transaction Level Report, while NMTC Allocatees report
                            FTE data in the Transaction Level Report only .
                            Data Verification and Validation: The Fund will collect FTE through the annual Institution Level and Transaction Level Reports .
                            Data provided is compared to the awardees’ and allocatees’ actual financial statements for accuracy and “reasonableness” as
                            defined by the Fund . Awardees and allocatees are contacted regarding any discrepancies .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: The Fund will continue to capture and monitor the number of jobs CDFIs create from
                            the Community Investment Impact System (CIIS) . The proposed target has been recalibrated to take a two year average of the
                            actual performance, which should be more in-line with future performance .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                         233




 Measure: Private Dollars - Dollars of Private and Non-CDFI Fund Investments That CDFIs are Able to Leverage Because of Their CDFI
 Fund Financial Assistance. ($ millions) (Oe)
                                                             FY 2004        FY 2005          FY 2006        FY 2007          FY 2008
                                              Target          669             500             1100            861              643
                                              Actual          1300           1800             1400            778
                                        Target met?             Y              Y                Y              Y
 Definition: This measure represents the dollars of private and non-CDFI Fund investments that CDFIs are able to leverage
 because of their CDFI Fund Financial Assistance (FA) award . For CDFIs, leverage is defined as the one-to-one non-federal
 match (as required by the FA program), plus funds the CDFI is able to leverage with CDFI Fund FA grant and equity dollars,
 plus dollars that the awardees’ borrowers leverage for projects . (Project leverage example - Of the total financing needed for a
 housing development is $5 million and the awardee lends $1 million, while other investors lend the remaining $4 million, then
 the $4 million is the project leverage) .
 Indicator Type: Measure
 Data Capture and Source: FA award disbursements are made once CDFIs provide documentation showing that they have received
 or been committed matching funds . Disbursements of FA are tracked by the Financial Manager and are used as the proxy for
 matching funds raised . The CDFI Program annual Institution Level Report captures the leverage ratio for FA grants and equity
 dollars, as well as project level leverage .
 Data Verification and Validation: CDFI awardees’ one-to-one match is equal to the amount disbursed to awardees . The FA grant
 and equity dollar leverage ratio is taken from the awardees’ financial statements . (In most cases, the financial statements have
 been audited .) Project level leverage is reported by the awardee and is not verifiable by the Fund .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: The shortfall was due to a drop of FA disbursements from $51M to $40M and FA Equity &
 Grant Disbursements from $44M to $36M . Previous fiscal year projections and actual performance were higher than the Fund’s
 estimates . Moving forward, the Fund has recalibrated the projection leverage which should be more in-line with the actual
 performance .


 Measure: Administrative Costs per Financial Assistance (FA) Application Processed (E)
                                                             FY 2004        FY 2005          FY 2006        FY 2007          FY 2008
                                              Target                        Baseline          5130           6920             6920
                                              Actual                         5130             8710          7180*
                                        Target met?           N/A              Y                N              N
 Definition: The cost per application for Financial Assistance (FA) applications .
 Indicator Type: Measure
 Data Capture and Source: The Fund will analyze the cost of materials as well as staff time and contractor’s time to determine the
 total fixed and variable cost per application .
 Data Verification and Validation: The Fund will conduct an analysis of the total cost of processing a single FA application . The
 analysis will include both fixed and variable costs for the project .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Estimate . Function of allocated costs and number of applications received . Percent increase
 in applications higher than percent increase in allocated costs (compared to prior year) . The future targets were based on the
 fiscal year 2007 (draft) actual costs . We assume that any increase in future costs will be offset by a corresponding increase in the
 number of applications received . However, we have virtually no ability to control the number of applications received, and so
 we have little ability to control the actual future administrative cost to process an application .
 * Final data for this measure was not available at the time of publication . This data is an estimate .




                                                       Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
234                                                                          Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Percent of Electronically Filed Certificate of Label Approval Applications (%) (E)
                                                                                     FY 2004          FY 2005           FY 2006          FY 2007          FY 2008
                                                                         Target         7                16               27                47                48
                                                                         Actual         10               25               38                51
                                                                   Target met?          Y                Y                 Y                Y
                            Definition: Calculated by dividing the number of e-Filed applications by the total Certificate of Label Approval applications
                            (COLA) submissions (paper and electronic) .
                            Indicator Type: Measure
                            Data Capture and Source: Data is captured through the COLAs Online database system . There are periodic statistical reports,
                            searches, and queries that are generated .
                            Data Verification and Validation: Checks will be developed as the COLAs Online database is developed .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: TTB will continue to perform outreach programs which provide training for industry mem­
                            bers as well as providing a TTB presence .



                            Measure: Unit Cost to Process a Wine Certificate of Label Approval
                                                                                     FY 2004          FY 2005           FY 2006          FY 2007          FY 2008
                                                                         Target                                                          Baseline             34
                                                                         Actual                                                             34
                                                                   Target met?         N/A              N/A               N/A               Y
                            Definition: This is the allocated cost of the resources used in processing the COLA divided by the number of COLAs .
                            Indicator Type: Measure
                            Data Capture and Source: The COLA online database .
                            Data Verification and Validation: Capturing excise tax returns: TTB reconciles the returns received vs . logged returns daily .
                            Capturing resource cost data: Resource data is captured and available four times a day in Discoverer .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: This is a baseline measure and the final number will be entered into the system at the end of
                            the fiscal year .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        235




 Measure: Total Assets - Annual Percentage Increase in the Total Assets of Native CDFIs (%) (Oe)
                                                            FY 2004         FY 2005          FY 2006         FY 2007          FY 2008
                                             Target        Baseline           35                33             33               15
                                             Actual           39              103              182             19
                                        Target met?           Y                Y                Y               N
 Definition: Measure the percent change in total assets that Native CDFIs report from one year to the next . The Fund will calcu­
 late: [Total Assets in Current Year - Total Assets in Previous Year] / [Total Assets in Previous Year]
 Indicator Type: Indicator
 Data Capture and Source: The Native CDFIs financial data is captured through the annual Institution Level Report .
 Data Verification and Validation: Native CDFIs report their total assets to the Fund in their Institution Level Report . The Fund
 verifies the total assets reported against the organization’s submitted balance sheet . Organizations are contacted regarding any
 discrepancies in the data reported . The Fund compares the total assets of CDFIs from year-to-year .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: The Fund has designated 39 certified CDFIs that serve Native Communities . The Fund
 captures financial information for all CDFIs through a web-based system called CIIS (Community Impact Investment System) .
 However, CDFIs are not required to provide this information . For fiscal year 2007 Native Assets, 11 of 39 certified CDFIs
 reported in CIIS over a two or three year period . This was the sample size that the Fund used to determine a 19 percent increase
 for Native Assets . Previous actual performance the past two fiscal years were much higher than the proposed target . In moving
 forward for the Fund to provide a more consistent, repeatable, and accurate actual performance reporting, the Fund will only use
 data reported in CIIS . Additionally, the arbitrary proposed target of 33 percent for each new fiscal year will be changed to take
 a two year average of the actual performance . In this case, the 33 percent proposed target for fiscal year 2008 will be changed to
 15 percent based on the data available in CIIS .


 Measure: Administrative Costs per Number of Bank Enterprise Award (BEA) Applications Processed ($) (E)
                                                            FY 2004         FY 2005          FY 2006         FY 2007          FY 2008
                                             Target                        Baseline           1280            1455             1455
                                             Actual                          1280             1630           1950*
                                        Target met?          N/A               Y                N               N
 Definition: The fixed and variable cost per application for Bank Enterprise Award (BEA) applications .
 Indicator Type: Measure
 Data Capture and Source: The Fund will analyze the cost of materials as well as staff time and contractor’s time to determine the
 total cost per application .
 Data Verification and Validation: The Fund will conduct an analysis of the total cost of processing a single BEA application . The
 analysis will include both fixed and variable costs for the project .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Estimate . Function of allocated costs and number of applications received . Percent increase
 in allocated costs higher than percent increase in number of applications received (compared to prior year) . The future targets
 were based on the fiscal year 2007 (draft) actual costs . We assume that any increase in future costs will be offset by a cor­
 responding increase in the number of applications received . However, we have virtually no ability to control the number of
 applications received, and so we have little ability to control the actual future administrative cost to process an application .
 * Final data for this measure was not available at the time of publication . This data is an estimate .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
236                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Increase Activity - Increase in Community Development Activities Over Prior Year for All BEA Program Applicants
                            ($ millions) (Oe)
                                                                                     FY 2004           FY 2005          FY 2006          FY 2007         FY 2008
                                                                        Target         307               134               81             100              180
                                                                        Actual         307               103              318             227
                                                                   Target met?          Y                 N                Y                Y
                            Definition: This measures the Bank Enterprise Award (BEA) applicants’ increase in qualified community development activites
                            over prior year .
                            Indicator Type: Measure
                            Data Capture and Source: Each BEA Program applicant is required to submit an application containing a Report of Transactions .
                            The BEA Program Unit administers the BEA application . All reports are submitted electronically and the data is stored in the
                            Fund’s databases .
                            Data Verification and Validation: The data is self-reported by applicants during the application process .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: Actual Increased Activity of BEA Program Applicants totaled $227 million in fiscal year
                            2007, surpassing the Fund’s Final Target of $100 million by nearly 127 percent . Annual Increased Activity targets are based on
                            a five-year historical projection model . Based on the number of applications and volume of increased activity demonstrated over
                            the past five funding rounds, the Fund expects to meet or exceed its fiscal year 2008 Final Target of $180 million .


                            Measure: Administrative Costs per Number of Native American CDFI Assistance (NACA) Applications Processed ($) (E)
                                                                                     FY 2004           FY 2005          FY 2006          FY 2007         FY 2008
                                                                        Target                        Baseline           10050            9090            9090
                                                                        Actual                         10050             8130            13510*
                                                                   Target met?         N/A                Y                Y               N
                            Definition: The Fund will determine the total cost associated with Native American CDFI Assistance (NACA) applications based
                            on fixed and variable costs .
                            Indicator Type: Measure
                            Data Capture and Source: The Fund will capture this information through budget documentation .
                            Data Verification and Validation: The Fund will determine the total cost of a single NACA application based on material costs as
                            well as the amount staff and contractor time per application .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: Estimate . Function of allocated costs and number of applications received . Percent increase
                            in allocated costs higher than percent increase in number of applications received (compared to prior year) . Due to very small
                            number of applications, small change in number of applications or allocated costs can have a significant effect on this measure .
                            The future targets were based on the fiscal year 2007 (draft) actual costs . We assume that any increase in future costs will bee
                            offset by a corresponding increase in the number of applications received . However, we have virtually no ability to control
                            the number of applications received, and so we have little ability to control the actual future administrative cost to process an
                            application .
                            * Final data for this measure was not available at the time of publication . This data is an estimate .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                         237




 Measure: Private Equity - Amount of Investments in Low-Income Communities that Community Development Entitites (CDEs) Have
 Made with Capital Raised Through Their New Markets Tax Credit (NMTC) Tax Credit Allocations ($ billions) (Oe)
                                                               FY 2004         FY 2005          FY 2006        FY 2007          FY 2008
                                              Target        Baseline           1 .4            1 .6            2 .1             2 .5
                                              Actual            .1             1 .1             2              2 .5
                                        Target met?            Y                N               Y               Y
 Definition: Amount of investments in Low Income Communities that Community Development Entitites have made with capi­
 tal raised through their New Markets Tax Credits (NMTC) allocations . The Fund will report NMTC Qualified Low-Income
 Community Investments (QLICIs) that are supported by NMTC Qualified Equity Investments (QEIs) .
 Indicator Type: Measure
 Data Capture and Source: The Fund will capture the data in the CDEs’ annual Institution Level and Transaction Level Reports .
 Data Verification and Validation: CDEs will attract private sector equity in the form of QEIs . CDEs will have 12 months to invest
 these QEIs in QLICIs . The CDEs will self-report QLICIs in their annual Transaction Level Report . The Fund uses these reports
 for research, reporting, and compliance . The Fund is confident that CDEs will accurately report, as the consequence of misinfor­
 mation may be recapture of the New Markets Tax Credits .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: “From 2005 thru 2007, the number of loans as a result of the NMTC program for qualified
 low income community investments in real estate/business support increased from 249 to 545 with an associated loan amount
 increasing from $855M to $2 .5B . An additional 37 CDEs participated during this reporting period with a cumulative total of
 128 for the entire program . For the new fiscal year, an additional 63 allocatees (press release 6/1/07) were designated so next
 year’s performance should meet if not exceed the proposed target .



 Measure: Administrative Costs per Number of New Markets Tax Credit (NMTC) Applications Processed ($) (E)
                                                             FY 2004         FY 2005         FY 2006         FY 2007          FY 2008
                                              Target                         Baseline         5390            4875             4875
                                              Actual                          5390            4360           5320*
                                        Target met?           N/A               Y               Y               N
 Definition: The cost per application for New Markets Tax Credit (NMTC) applications .
 Indicator Type: Measure
 Data Capture and Source: The Fund will analyze the cost of materials as well as staff time and contractor’s time to determine the
 total fixed and variable cost per application .
 Data Verification and Validation: The Fund will conduct an analysis of the total cost of processing a single NMTC application .
 The analysis will include both fixed and variable costs for the project .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Estimate . Function of allocated costs and number of applications received . Percent increase
 in allocated costs higher than percent increase in number of applications received (compared to prior year) . The future targets
 were based on the fiscal year 2007 (draft) actual costs . We assume that any increase in future costs will bee offset by a cor­
 responding increase in the number of applications received . However, we have virtually no ability to control the number of
 applications received, and so we have little ability to control the actual future administrative cost to process an application .
 * Final data for this measure was not available at the time of publication . This data is an estimate .




                                                       Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
238                                                                            Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: U.S. Unemployment Rate (%) (Oe)
                                                                                    FY 2004          FY 2005         FY 2006          FY 2007            FY 2008
                                                                      Target           5 .6            5 .3            5 .2              5 .1         Discontinued
                                                                      Actual           5 .4            5 .1            4 .6              4 .5
                                                                Target met?            Y                Y               Y                Y
                            Definition: The percentage of the U .S . labor force reported as unemployed in the last quarter of the reference fiscal year .
                            Indicator Type: Measure
                            Data Capture and Source: Data are collected from the U .S . Department of Labor, Bureau of Labor Statistics
                            Data Verification and Validation: Data are drawn from the U .S . Department of Labor, Bureau of Labor Statistics and checked twice
                            to make sure the data are accurate .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: The Treasury Department recognizes that this measure is actually an indicator . The
                            Department does not have control over the success of this measure . A more meaningful measure will be developed in fiscal year
                            2008


                            Measure: U.S. Real Gross Domestic Product (GDP) Growth Rate (%) (Oe)
                                                                                     FY 2004         FY 2005         FY 2006          FY 2007            FY 2008
                                                                      Target           3 .5            3 .6            3 .4              3 .3         Discontinued
                                                                      Actual           4 .5            3 .6             3               2 .4
                                                                Target met?            Y                Y               N                N
                            Definition: Real GDP is the most comprehensive measure of economic activity and is compiled throughout the year to reflect
                            developments in each calendar quarter .
                            Indicator Type: Measure
                            Data Capture and Source: Data are provided by the Department of Commerce, Bureau of Economic Analysis (BEA) .
                            Data Verification and Validation: Data is drawn from the Department of Commerce,Bureau of Economic Analysis, and checked
                            twice to make sure the data is accurate .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: Real GDP grew more slowly than expected largely due to weakness in the homebuilding
                            sector, which is slumping after several years of above-average growth . The decline in homebuilding activity has been deeper than
                            expected . The Treasury Department recognizes that this measure is actually an indicator . The Department does not have control
                            over the success of this measure . A more meaningful measure will be developed in fiscal year 2008




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                       239




 Measure: Percentage of Licensing Applications and Notices Completed within Established Timeframes (%) (Oe)
                                                           FY 2004        FY 2005          FY 2006          FY 2007          FY 2008
                                            Target           95              95               95               95               95
                                            Actual           96              96               94               96
                                       Target met?            Y              Y                N                Y
 Definition: This measure reflects the extent to which OCC meets its established timeframes for reaching decisions on licensing
 applications and notices . The OCC’s timely and effective approval of corporate applications and notices contributes to the
 nation’s economy by enabling national banks to engage in corporate transactions and introduce new financial products and
 services .
 Indicator Type: Measure
 Data Capture and Source: The Chief Counsel’s office uses the Corporate Activity Information System (CAIS) to identify applica­
 tions completed during the fiscal year . For each filing, the actual decision date is compared to the target action date to determine
 whether the application was completed within established standards . The percentage is determined by comparing the number of
 licensing applications processed within the required timeframes to the total number of licensing applications processed during
 the fiscal year . The processing time is the number of calendar days from the date of OCC receipt to the date of OCC’s decision .
 The established processing timeframe depends on the application type and if the application qualifies for expedited processing .
 Data Verification and Validation: The Licensing Department tracks processing of all applications and notices through the
 Corporate Activity Information System (CAIS) . The analyst who is assigned the application will verify the accuracy of the CAIS
 data as the application is processed . The senior analyst or manager who approves the final decision also verifies the accuracy of
 the CAIS data .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: OCC plans to maintain its high level of timeliness in completing licensing applications
 and notices by hiring qualified staff as vacancies arise; providing staff training through annual conferences and rotational assign­
 ments, revising licensing manuals to address new circumstances and changed policies; and maintaining frequent communications
 between Headquarters office management and licensing analysts and District Office staff .


 Measure: Percentage of Permit Application (original and amended) Processed by the National Revenue Center within 60 days (%) (E)
                                                           FY 2004        FY 2005          FY 2006          FY 2007          FY 2008
                                            Target                           67               80               80               80
                                            Actual                           81               86             85 .09
                                       Target met?          N/A              Y                Y                Y
 Definition: The portion of permit applications (original and amended) that are processed with sixty days of receipt at the NRC .
 Indicator Type: Measure
 Data Capture and Source: NRC generates statistical reports, searches and queries . In-place data integrity controls exist within the
 application to validate the data .
 Data Verification and Validation: NRC maintains data in the IRIS database that reflects receipt date and issued or closed date .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: TTB reengineered its function in this area in fiscal year 2005 . The immediate returns on
 that reengineering work became immediately evident as TTB continues to find ways to maintain increased permit levels with
 similar FTE levels .




                                                     Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
240                                                                           Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Percentage of COLA Approval Applications Processed within 9 Calendar Days of Receipt (%) (E) (This measure will become
                            inactive beginning in FY 2008.)
                                                                                    FY 2004         FY 2005           FY 2006          FY 2007            FY 2008
                                                                     Target           60               30               55                45           Discontinued
                                                                     Actual           23               50               44                42
                                                                Target met?           N                Y                 N                N
                            Definition: The percentage of Certificate of Label Applications (COLA) processed electronically and by paper within 9 days of
                            receipt .
                            Indicator Type: Measure
                            Data Capture and Source: Data is captured thru the COLAs Online data base system . There are periodic statistical reports,
                            searches, and queries that are generated .
                            Data Verification and Validation: There are statistical reports, searches and queries that are generated . In addition, there are data
                            integrity controls in place within the application to validate the data .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: This measure will be discontinued in fiscal year 2008 as TTB incorporates new COLA mea­
                            sures . Also, this measure has lost its apples-to-apples comparisons as complexity in industry marketing has changed significantly
                            since the measure was developed in the early 1990s .




                         Strategic Outcome:
                         Competitive capital markets
                         There are currently NO measures for this outcome .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        241




Strategic Outcome:
Free trade and investment

 Measure: Number of New Free Trade Agreement (FTA) Negotiations and Bilateral Investment Treaty (BIT) Negotiations Underway or
 Completed (Oe)
                                                            FY 2004         FY 2005          FY 2006         FY 2007           FY 2008
                                             Target                            5                 9               7          Discontinued
                                             Actual                            7                12              10
                                        Target met?          N/A               Y                Y                Y
 Definition: The number of international trade or investment agreements underway or completed during the period and the number
 of those that reflect commitments to high standards such as that includes new commitments by a foreign government to open
 its financial services markets to U .S . providers . It includes bilateral agreements and multilateral undertakings (e .g ., WTO) from
 which the U .S . benefits .
 Indicator Type: Measure
 Data Capture and Source: International Affairs staff and U .S . Trade Representative’s office reporting .
 Data Verification and Validation: : Based upon a count by International Affairs staff responsible for such negotiations and verifiable
 by reference to U .S . Trade Representative’s office of financial services and investment .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: Treasury is committed to working with foreign governments to open financial services mar­
 kets to U .S . providers . This goal is accomplished by increasing the number of new Free Trade Agreement (FTA) negotiations and
 Bilateral Investment Treaty (BIT) negotiations . Treasury continues to seek strong commitments from U .S . trading partners in
 these negotiations to ensure those markets are available to the U .S . on a fair and open basis . Once implemented, these agreements
 serve as a core element of U .S . trading partner’s economic infrastructure and help enhance international economic and financial
 stability . Treasury is on track to surpass its target to negotiate seven such agreements in fiscal year 2007 . The Trade Promotion
 Authority, the authority for negotiating trade agreements, expired in 2007 . Given this uncertainty, it is difficult to predict the
 future trade agenda . This measure will be discontinued for fiscal year 2008, and will be replaced with a trade metric that expands
 the scope of treaties and agreements .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
242                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Strategic Outcome:
                         Prevented or mitigated financial and economic crises

                            Measure: Percentage of National Banks with Composite CAMELS Rating 1 or 2 (%) (Oe)
                                                                                    FY 2004          FY 2005          FY 2006          FY 2007         FY 2008
                                                                       Target         90               90               90               90               90
                                                                       Actual         94               94               95               96
                                                                  Target met?          Y                Y                Y                Y
                            Definition: This measure reflects the overall condition of the national banking system at fiscal year-end . Bank regulatory agencies
                            use the Uniform Financial Institutions Rating System, CAMELS, to provide a general framework for assimilating and evaluating
                            all significant financial, operational and compliance factors inherent in a bank . Evaluations are mde on: Capital adequacy, Asset
                            quality, Management, Earnings, Liquidity, and Sensitivity to Market Risk . The rating scale is 1 through 5 where 1 is the highest
                            rating granted .
                            Indicator Type: Indicator
                            Data Capture and Source: The Supervisory Information office identifies the current composite ratings from Examiner View (EV)
                            and Supervisory Information System (SIS) at fiscal year-end . The number of national banks at fiscal year-end is obtained from
                            the Federal Reserve Board’s National Information Center database . The percentage is determined by comparing the number of
                            national banks with current composite CAMELS ratings of 1 or 2 to the total number of national banks at fiscal year-end .
                            Data Verification and Validation: Either quarterly or semi-annually, an independent reviewer compares a sample of Reports of
                            Examination to the Examiner View (EV) and Supervisory Information System (SIS) data to ensure the accuracy of the recorded
                            composite ratings . Any discrepancies between the supporting documentation and the systems data are reported to the respective
                            Assistant Deputy Comptroller or Deputy Comptroller for corrective action .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: To sustain this level of achievement, the OCC will execute its Bank Supervision Operating
                            Plan that focuses on credit quality, allowance of loan and lease losses (ALLL) adequacy, off-balance-sheet activities, liquidity and
                            interest rate risk management, consumer protection, and Bank Secrecy Act/Anti-money Laundering compliance . The OCC also
                            will continue recruiting entry-level examiners, aligning supervision resources to the areas of greatest risk, training the examiner
                            staff, and enhancing examination guidance .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                      243




 Measure: Rehabilitated Problem National Banks as a Percentage of the Problem National Banks One Year Ago (CAMELS 3, 4 or 5)
 (%) (Oe)
                                                          FY 2004        FY 2005         FY 2006          FY 2007         FY 2008
                                           Target           40              40              40              40               40
                                           Actual           40              44              46              52
                                      Target met?           Y               Y               Y                Y
 Definition: This measure reflects the successful rehabilitation of problem national banks during the past twelve months . Problem
 banks can ultimately reach a point where rehabilitation is no longer feasible . The OCC’s early identification of and intervention
 with problem banks can lead to successful remediation of problem banks .
 Indicator Type: Indicator
 Data Capture and Source: The Supervisory Information office in OCC’s headquarters office uses Examiner View (EV) and the
 Supervisory Information System (SIS) to identify and compare the composite CAMELS ratings for problem banks from twelve
 months prior to the current period composite CAMELS ratings for the same banks . The percentage is determined by comparing
 the number of national banks that have upgraded composite CAMELS ratings of 1 or 2 from composite CAMELS ratings of 3,
 4 or 5 to the total number of national banks that had composite CAMELS ratings of 3, 4 or 5 twelve months ago .
 Data Verification and Validation: Either quarterly or semi-annually, an independent reviewer compares a sample of Reports of
 Examination to the Examiner View (EV) and Supervisory Information System (SIS) data to ensure the accuracy of the recorded
 composite ratings . Any discrepancies between the supporting documentation and the systems data are reported to the respective
 Assistant Deputy Comptroller or Deputy Comptroller for corrective action .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: To sustain this level of achievement, the OCC will execute its Bank Supervision Operating
 Plan that focuses on banks with the highest degree of problems and to work with those banks to resolve their problems in
 order to ensure the national banking system remains stable and strong . The OCC also will continue its recruiting of entry-level
 examiners, aligning supervision resources to the areas of greatest risk, training the examiner staff, and enhancing examination
 guidance .




                                                    Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
244                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Percentage of National Banks that are Categorized as Well Capitalized (%) (Oe)
                                                                                     FY 2004          FY 2005           FY 2006          FY 2007          FY 2008
                                                                        Target          95               95               95                95               95
                                                                        Actual          99               99               99                99
                                                                   Target met?          Y                 Y                Y                Y
                            Definition: This measure reflects whether the national banking system is well capitalized at fiscal year-end . The Federal Deposit
                            Insurance Act established a system of prompt corrective action (PCA) that classifies insured depository institutions into five cat­
                            egories (well capitalized; adequately capitalized; undercapitalized, significantly undercapitalized; and critically undercapitalized)
                            based on their relative capital levels . The purpose of PCA is to resolve the problems of insured depository institutions at the least
                            possible long-term cost to the deposit insurance fund .
                            Indicator Type: Indicator
                            Data Capture and Source: National banks file quarterly Reports of Condition and Income with the Federal Finance Institution
                            Examination Council through the Federal Deposit Insurance Corporation’s data processing center . The Supervisory Information
                            office reviews the Reports of Condition and Income (i .e ., call reports) for each quarter to identify national banks that meet all
                            of the criteria for a well capitalized institution . The number of national banks at fiscal year-end is obtained from the Federal
                            Reserve Board’s National Information Center database . The percentage is determined by comparing the number of national
                            banks that meet all of the established criteria for being well capitalized to the total number of national banks at fiscal year-end .
                            Data Verification and Validation: The banks’ boards of directors attest to the accuracy of the reported data . The reliability of these
                            quarterly reports is evaluated by OCC examiners during bank examinations .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: To sustain this level of achievement, the OCC will execute its Bank Supervision Operating
                            Plan that focuses on the capitalization levels of all national banks to ensure that our examination process focuses on banks that
                            have or may develop problems related to capitalization levels . The OCC also will continue its recruiting of entry-level examiners,
                            aligning supervision resources to the areas of greatest risk, training the examiner staff, and enhancing examination guidance .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        245




 Measure: Percentage of National Banks with Consumer Compliance Rating of 1 or 2 (%) (Oe)
                                                            FY 2004        FY 2005          FY 2006           FY 2007          FY 2008
                                             Target           94              94               94               94               94
                                             Actual           96              94               94               97
                                        Target met?           Y               Y                Y                 Y
 Definition: This measure reflects the national banking system’s compliance with consumer laws and regulations . Bank regulatory
 agencies use the Uniform Financial Institutions Rating System, Interagency Consumer Compliance Rating, to provide a general
 framework for assimilating and evaluating significant consumer compliance factors inherent in a bank . Each bank is assigned a
 consumer compliance rating based on an evaluation of its present compliance with consumer protection and civil rights statutes
 and regulations, and the adequacy of its operating systems designed to ensure continuing compliance . Ratings are on a scale of 1
 through 5 in increasing order of supervisory concern .
 Indicator Type: Indicator
 Data Capture and Source: The Supervisory Information office identifies the number of banks with current consumer compliance
 ratings of 1 or 2 and the total number of national banks from Examiner View (EV) and Supervisory Information System (SIS)
 subject to consumer compliance examinations at fiscal year-end . The percentage is determined by comparing the number of
 national banks with current consumer compliance ratings of 1 or 2 to the total number of national banks subject to consumer
 compliance examinations at fiscal year-end .
 Data Verification and Validation: Consumer compliance ratings are assigned at the completion of each consumer compliance
 examination . These ratings are entered into OCC’s management information systems, Examiner View (EV) and Supervisory
 Information System (SIS), by the banks’ Examiner-in-Charge and reviewed and approved by the Supervisory Offices’ Assistant
 Deputy Comptroller (Mid-Size/Community banks) or Deputy Comptroller (Large banks) .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: To sustain this level of achievement, the OCC will execute its Bank Supervision Operating
 Plan that encourages and ensures that national banks have strong compliance management functions in place . The OCC also
 will continue its recruiting of entry-level examiners, aligning supervision resources to the areas of greatest risk, training the exam­
 iner staff, and enhancing examination guidance .



 Measure: Total OCC Costs Relative to Every $100,000 in Bank Assets Regulated ($) (E)
                                                            FY 2004        FY 2005          FY 2006           FY 2007          FY 2008
                                             Target                                         Baseline           9 .55            9 .55
                                             Actual                                           8 .84            8 .89
                                        Target met?          N/A             N/A               Y                 Y
 Definition: This measure reflects the efficiency of OCC operations while meeting the increasing supervisory demands of a growing
 and more complex national banking system .
 Indicator Type: Measure
 Data Capture and Source: OCC costs are those reported as total program costs on the annual audited Statement of Net Cost .
 Banks assets are those reported quarterly by national banks on their Reports of Condition and Income .
 Data Verification and Validation: OCC’s financial statements and controls over the data are audited by an independent accountant
 each year . National banks file quarterly Reports on Condition and Income with the FFIEC through the FDIC’s data process­
 ing center . The banks’ boards of directors attest to the accuracy of the reported data . The reliability of these quarterly reports is
 evaluated by OCC examiners during bank examinations .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: OCC will continue to evaluate our examination and management processes to ensure effi­
 cient operations .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
246                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Percent of Thrifts with Composite CAMELS Ratings of 1 or 2 (%) (Oe)
                                                                                     FY 2004          FY 2005          FY 2006          FY 2007           FY 2008
                                                                        Target         90                90               90               90               90
                                                                        Actual         93                94               93               93
                                                                   Target met?          Y                Y                Y                 Y
                            Definition: On December 9, 1996, the FFIEC adopted the CAMELS rating system as the internal rating system to be used by
                            the Federal and State regulators for assessing the safety and soundness of financial institutions on a uniform basis . The CAMELS
                            rating system puts increased emphasis on the quality of risk management practices . “CAMELS” stands for Capital adequacy,
                            Asset quality, Management, Earnings, Liquidity and Sensitivity to market risk . OTS assigns a composite CAMELS rating to
                            savings associations at each examination and may adjust the rating between examinations if the association’s overall condition
                            has changed . New savings associations are typically not assigned a composite CAMELS rating until the first examination . OTS
                            adjusts the level of supervisory resources devoted to an association based on the composite rating . The CAMELS rating is based
                            upon a scale of 1 through 5 in increasing order of supervisory concern .
                            Indicator Type: Measure
                            Data Capture and Source: Composite CAMELS ratings are stored in and retrieved from the online Examination Data System .
                            OTS calculates this measure by dividing the number of savings associations having a composite CAMELS rating of 1 or 2 by the
                            total number of OTS-regulated savings associations that have been assigned a composite CAMELS rating .
                            Data Verification and Validation: Summary and detail reporting of CAMELS ratings are available online through the Examination
                            Data System and are provided to each association at the conclusion of an exam . The composite rating is used semi-annually in
                            the assessment process . The Assistant Managing Director, Examinations and Supervision – Operations continuously monitors
                            the status of exam ratings . Quarterly press releases provide a summary of the thrift industry’s CAMELS ratings to the public .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: OTS plans to maintain its current high level of achievement for this measure . The fiscal year
                            2008 Budget/Performance Plan describes the goals, strategies, and priorities that will guide OTS’s operations . OTS will continue
                            tailoring supervisory examinations to the risk profile of the institutions, while effectively allocating resources to oversee and assess
                            the safety and soundness and consumer compliance record of the thrift industry .



                            Measure: Percent of Thrifts that are Well Capitalized (%) (Oe)
                                                                                     FY 2004          FY 2005          FY 2006          FY 2007           FY 2008
                                                                        Target         95                95               95               95               95
                                                                        Actual        99 .4             99 .5            99 .9             99
                                                                   Target met?          Y                Y                Y                 Y
                            Definition: Capital absorbs losses, promotes public confidence and provides protection to depositors and the FDIC insurance
                            funds . It provides a financial cushion that can allow a savings association to continue operating during periods of loss or other
                            adverse conditions . The Federal Deposit Insurance Act established a system of prompt corrective action (PCA) that classifies
                            insured depository institutions into five categories (well-capitalized; adequately capitalized; undercapitalized, significantly under­
                            capitalized; and critically undercapitalized) based on their relative capital levels . The purpose of PCA is to resolve the problems of
                            insured depository institutions at the least possible long-term cost to the deposit insurance fund .
                            Indicator Type: Measure
                            Data Capture and Source: PCA ratings are stored in the Examination Data System and can also be found in the Thrift Overview
                            Report and off-site financial monitoring reports . OTS calculates this measure by dividing the number of savings associations that
                            are well capitalized by the total number of OTS-regulated institutions .
                            Data Verification and Validation: The Assistant Managing Director, Examinations and Supervision – Operations monitors and
                            validates the capital measures . Quarterly press releases provide capital measures to the public .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: OTS plans to maintain its current high level of achievement for this measure . The fiscal year
                            2008 Budget/Performance Plan describes the goals, strategies, and priorities that will guide OTS’s operations . OTS will continue
                            tailoring supervisory examinations to the risk profile of the institutions, while effectively allocating resources to oversee and assess
                            the safety and soundness and consumer compliance record of the thrift industry .



Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                       247




 Measure: Percent of Safety and Soundness Exams Started as Scheduled (%) (Ot)
                                                           FY 2004        FY 2005           FY 2006          FY 2007          FY 2008
                                            Target           90              90               90               90               90
                                            Actual           94              93               94               95
                                       Target met?            Y               Y                Y                Y
 Definition: OTS examines savings associations every 12-18 months for safety and soundness, compliance and consumer protec­
 tion laws . OTS performs safety and soundness examinations of its regulated savings associations consistent with the requirements
 in the Federal Deposit Insurance Corporation Improvement Act of 1991 (FDICIA) as amended by the Riegle Community
 Development and Regulatory Improvement Act of 1994 . When safety and soundness or compliance issues are identified during
 its risk-focused examinations, OTS acts promptly to ensure association management and directors institute corrective actions to
 address supervisory concerns . OTS staff often meets with the savings association’s board of directors after delivery of the Report
 of Examination to discuss findings and recommendations .
 Indicator Type: Measure
 Data Capture and Source: When a savings association is examined, OTS staff enters into the Examination Data System the exami­
 nation type, examination beginning and completion dates, report of examination mail date, and CAMELS or equivalent ratings .
 The percentage success rate for this measure is calculated by dividing the number of examinations that were started by the num­
 ber of examinations that were scheduled to be started during the review period .
 Data Verification and Validation: Data regarding safety and soundness examinations started as scheduled are available from the
 Examination Data System . The System reports assist in scheduling examinations and monitoring past performance . When neces­
 sary, management determines why standards are not being met and will initiate steps to improve performance .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: OTS plans to maintain its current high level of achievement for this measure . The Fiscal
 Year 2008 Budget/Performance Plan describes the goals, strategies, and priorities that will guide OTS’s operations . OTS will
 continue tailoring supervisory examinations to the risk profile of the institutions, while effectively allocating resources to oversee
 and assess the safety and soundness and consumer compliance record of the thrift industry .




                                                     Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
248                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Total OTS Costs Relative to Every $100,000 in Savings Association Assets Regulated ($) (E)
                                                                                     FY 2004           FY 2005          FY 2006        FY 2007          FY 2008
                                                                        Target                                          Baseline        14 .33           14 .33
                                                                        Actual                                           13 .46         13 .9*
                                                                   Target met?         N/A              N/A                Y              Y
                            Definition: Beginning in fiscal year 2006, OTS included a performance measure that reflects the efficiency of its operations while
                            meeting the increasing supervisory demands of a growing and more complex thrift industry . This measure supports OTS’s ongo­
                            ing efforts to efficiently use agency resources . The efficiency measure is impacted by the relative size of the savings associations
                            regulated . As of June 30, 2006, 63 percent of all savings associations have total assets of less than $250 million and are generally
                            community-based organizations that provide retail financial services in their local markets . In addition, the measure does not
                            include over $7 trillion in assets of holding company enterprises regulated by OTS .
                            Indicator Type: Measure
                            Data Capture and Source: The OTS expenses published in OTS’s annual audited financial statement are used in this calculation .
                            If the performance measure calculation is provided before the audited financial statement is available, the estimated expenses are
                            derived from OTS’s Budget Variance System . The OTS regulated assets are published in the OTS quarterly press release of thrift
                            industry financial highlights and are derived from the institutions’ quarterly Thrift Financial Reports . The measure is calculated
                            by dividing total fiscal year expenses by total thrift assets .
                            Data Verification and Validation: OTS expenses are verified during the annual CFO audit and reflect those published in the OTS
                            annual audited financial statements . The industry’s assets are reported by OTS’s regulated institutions in the quarterly Thrift
                            Financial Report, edited and verified by OTS staff, and then published in the OTS quarterly press release and available to the
                            public on the OTS Internet site . OTS allows amendments from the industry for six months after the filing date .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: This estimate uses thrift asset data as of June 30, 2007 and estimated year-end 2007 OTS
                            expenses (OTS’s auditors have not yet completed our 2007 financial statement audit) . This is just an estimate and may change .
                            OTS plans to maintain its current high level of achievement for this measure . The Fiscal Year 2008 Budget/Performance Plan
                            describes the goals, strategies, and priorities that will guide OTS’s operations . OTS will continue tailoring supervisory examina­
                            tions to the risk profile of the institutions, while effectively allocating resources to oversee and assess the safety and soundness
                            and consumer compliance record of the thrift industry .
                            * Final data for this measure was not available at the time of publication . This data is an estimate .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        249




 Measure: Percentage of Grant and Loan Proposals Containing Satisfactory Frameworks for Results Measurement (%) (Oe)
                                                            FY 2004        FY 2005             FY 2006     FY 2007        FY 2008
                                             Target                        Baseline              90           90              90
                                             Actual                           78                 88           92
                                       Target met?           N/A              Y                  N            Y
 Definition: The percentage of grant and loan project proposals that contain a satisfactory framework for measuring project results
 (such as outcome indicators, quantifiable and time-bound targets, etc .) This information is measured on an annual basis .
 Indicator Type: Measure
 Data Capture and Source: MDB monthly operational report, special requests to MDBs for loan and grant approvals, MDB annual
 reports and U .S . voting positions
 Data Verification and Validation: Data provided by the MDB is compared with Treasury MDB Office vote history database and
 internal supporting memoranda .
 Data Accuracy: Reasonable
 Data Frequency: Semi-Annually
 Future Plans/Explanation for Shortfall: To help ensure that the multilateral development banks (MDBs) demonstrate results of their
 development assistance, the MDB office will continue to closely monitor the percentage of grants and loan proposals containing
 satisfactory frameworks for results measurements . Over the past few years, most of the MDBs have made substantial progress
 towards developing frameworks that measure the results of their development assistance . For fiscal year 2007, the annual target
 of 90 percent of grants and projects with results measurement frameworks was met, with 92 percent of project results frame­
 works meeting our test .



 Measure: Level of MDB Grant Financing and Satisfactory Results Measurements (African Development Bank/AFDF Grants)
 ($ millions) (Oe) [DISCONTINUED FY 2007]
                                                            FY 2004        FY 2005             FY 2006     FY 2007        FY 2008
                                             Target          294             216                870      Discontinued   Discontinued
                                             Actual           65              46                700           0
                                       Target met?            N               N                  N           N/A
 Definition: Captures the portion of resources provided to borrowers from each Multilateral Development Banks (MDB) in the
 form of grants and whether such grant financing contains a satisfactory results measurement framework . MDA provide financial
 support and professional advice for economic and social development activities in developing countries .
 Indicator Type: Measure
 Data Capture and Source: MDB monthly operational report, special requests to MDBs for loan and grant approvals, MDB annual
 reports and U .S . voting positions . This information is measured on an annual basis .
 Data Verification and Validation: Data provided by the MDB is compared with Treasury MDB Office vote history database and
 internal supporting memoranda .
 Data Accuracy: Reasonable
 Data Frequency: Semi-Annually
 Future Plans/Explanation for Shortfall: This measure is Discontinued for fiscal year 2007 .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
250                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Level of MDB Grant Financing and Satisfactory Results Measurements (Grants as a % of IDA FY Commitment) (Oe)
                            [DISCONTINUED FY 2007]
                                                                                     FY 2004          FY 2005             FY 2006     FY 2007        FY 2008
                                                                        Target          22              19 .6              30 .4    Discontinued   Discontinued
                                                                        Actual         18 .8            21 .4               25
                                                                   Target met?          N                Y                  N           N/A
                            Definition: The portion of resources provided to borrowers from each Multilateral Development Banks (MDB) in the form of
                            grants and whether such grant financing contains a satisfactory results measurement framework . MDB provide financial support
                            and professional advice for economic and social development activities in developing countries .
                            Indicator Type: Measure
                            Data Capture and Source: MDB monthly operational report, special requests to MDBs for loan and grant approvals, MDB annual 

                            reports and U .S . voting positions . This information is measured on an annual basis .

                            Data Verification and Validation: Data provided by the MDB is compared with Treasury MDB Office vote history database and 

                            internal supporting memoranda .

                            Data Accuracy: Reasonable 

                            Data Frequency: Semi-Annually 

                            Future Plans/Explanation for Shortfall: This measure is Discontinued for fiscal year 2007 .





                            Measure: Level of MDB Grant Financing and Satisfactory Results Measurements (Grants as a % of AFDF FY Commitment) (Oe)
                            [DISCONTINUED FY 2007]
                                                                                     FY 2004          FY 2005             FY 2006     FY 2007        FY 2008
                                                                        Target          21              19 .5               35      Discontinued   Discontinued
                                                                        Actual         39 .2            21 .8              30 .5         0
                                                                   Target met?          Y                Y                  N           N/A
                            Definition: The portion of resources provided to borrowers from each Multilateral Development Banks (MDB) in the form of
                            grants and whether such grant financing contains a satisfactory results measurement framework . MDBs provide financial support
                            and professional advice for economic and social development activities in developing countries .
                            Indicator Type: Measure
                            Data Capture and Source: MDB monthly operational report, special requests to MDBs for loan and grant approvals, MDB annual
                            reports and U .S . voting positions . This information is measured on an annual basis .
                            Data Verification and Validation: Data provided by the MDB is compared with Treasury MDB Office vote history database and
                            internal supporting memoranda .
                            Data Accuracy: Reasonable
                            Data Frequency: Semi-Annually
                            Future Plans/Explanation for Shortfall: This measure is Discontinued for fiscal year 2007 .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        251




 Measure: Encourage Movement Towards Flexible Exchange Rate Regimes (Oe) [DISCONTINUED FY 2007]
                                                            FY 2004        FY 2005             FY 2006       FY 2007          FY 2008
                                             Target                           0                   4      Discontinued     Discontinued
                                             Actual                           3                   2             0
                                       Target met?           N/A              Y                  N            N/A
 Definition: Encouraging large economies with fixed or rigid exchange rate regimes to adopt flexible exchange rate regimes is a
 key to addressing global imbalances and assuring sustained global growth . International Affairs staff engages in and support
 economic dialogue with these countries, such as China, and provide technical assistance and support so those countries will be
 able to transition from fixed to flexible regimes . This measure captures the work Treasury is doing to support the transition, and
 shows the number of actions Treasury has taken to encourage flexible exchange rate regimes . Source: International Affairs staff
 tracks and accounts for actions undertaken during the reporting period .
 Indicator Type: Measure
 Data Capture and Source: International Affairs staff tracks and accounts for actions undertaken during the reporting period .
 Data Verification and Validation: Publicly available accounts of meetings (press, etc .), communiques issued flowwing multilateral or
 bilateral meetings .
 Data Accuracy: Reasonable
 Data Frequency: Semi-Annually
 Future Plans/Explanation for Shortfall: This measure is Discontinued for fiscal year 2007 .



 Measure: Percent of Thrifts with Compliance Examination Ratings of 1 or 2 (%) (Oe)
                                                            FY 2004        FY 2005             FY 2006       FY 2007          FY 2008
                                             Target           90              90                 90            90                90
                                             Actual           94              94                 93            97
                                       Target met?             Y              Y                   Y             Y
 Definition: A uniform, interagency compliance rating system was first approved by the Federal Financial Institutions Examination
 Council (FFIEC) in 1980 . The FFIEC rating system was designed to reflect, in a comprehensive and uniform fashion, the nature
 and extent of an association’s compliance with consumer protection statutes, regulations and requirements . The Compliance
 Rating System is based upon a scale of 1 through 5 in increasing order of supervisory concern . OTS began to combine safety
 and soundness and compliance examinations in 2002 to attain exam efficiencies and to improve risk assessment . Using compre­
 hensive exam procedures, compliance with consumer protection laws is reviewed at more frequent intervals, which has improved
 the quality of the examination process .
 Indicator Type: Measure
 Data Capture and Source: Compliance examination ratings are stored in the Examination Data System . OTS calculates this mea­
 sure by dividing the number of OTS-regulated savings associations that received a compliance examination rating of 1 or 2 on
 their most recent examination by the total number of OTS-regulated savings associations that have been assigned a compliance
 examination rating .
 Data Verification and Validation: Summary and detail reporting of compliance ratings are available online through the Examination
 Data System . The Assistant Managing Director, Examinations and Supervision – Operations monitors the status of compliance
 exam ratings .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: OTS plans to maintain its current high level of achievement for this measure . The Fiscal
 Year 2008 Budget/Performance Plan describes the goals, strategies, and priorities that will guide OTS’s operations . OTS will
 continue tailoring supervisory examinations to the risk profile of the institutions, while effectively allocating resources to oversee
 and assess the safety and soundness and consumer compliance record of the thrift industry .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
252                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Strategic Outcome:
                         Decreased gap in the global standard of living

                            Measure: Improve International Monetary Fund (IMF) Effectiveness and Quality Through Periodic Review of IMF Programs (%) (Oe)
                                                                                     FY 2004          FY 2005          FY 2006           FY 2007          FY 2008
                                                                        Target                           90               90               90               90
                                                                        Actual                           78              100               100
                                                                   Target met?        N/A                N                Y                 Y
                            Definition: This measure tracks efforts by International Affairs (IA) staff to monitor quality of IMF country programs and ensure
                            the application of appropriately high standards . IA staff endeavors to review each country program and provide a synopsis and
                            recommendation for action at least one week before each program is voted on by the IMB Board . The measure tracks the per­
                            centage of times the staff review is completed in a timely manner (at least one week before Board action) to allow for alterations
                            in language if deemed necessary .
                            Indicator Type: Measure
                            Data Capture and Source: International Affairs staff tracks and accounts for actions undertaken during the reporting period .
                            Data Verification and Validation: Publicly available accounts of meetings (press, etc .), communiqués issued following multilateral or
                            bilateral meetings .
                            Data Accuracy: Reasonable
                            Data Frequency: Semi-Annually
                            Future Plans/Explanation for Shortfall: In cases when documents do not come out at least two weeks ahead of the Board date, the
                            performance measure is adjusted accordingly .


                         Strategic Outcome:
                         Commerce enabled through safe secure U.S. notes and coins

                            Measure: Manufacturing Costs for Currency (dollar costs per thousand notes produced) ($) (E)
                                                                                     FY 2004          FY 2005          FY 2006           FY 2007          FY 2008
                                                                        Target         35                31              28 .5            32 .5             33
                                                                        Actual        28 .06           28 .83           27 .49           28 .71
                                                                   Target met?          Y                Y                Y                 Y
                            Definition: An indicator of currency manufacturing efficiency and effectiveness of program management . This standard is devel­
                            oped annually based on the past year’s performance, contracted price factors, and anticipated productivity improvements . Actual
                            performance comparison against the standard depends on BEP’s ability to meet annual spoilage, efficiency, and capacity utiliza­
                            tion goals established for this product line .
                            Indicator Type: Measure
                            Data Capture and Source: Cost data is collected through BEP’s accrual-based cost accounting system .
                            Data Verification and Validation: BEP’s accrual-based cost accounting system is audited annually as part of the financial statement
                            audit .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: Final Manufacturing costs for currency for the fiscal year were $28 .71 per thousand notes
                            produced . BEP is in the process of switching from a 32 notes per sheet printing press to a 50 notes per sheet printing process . This
                            change will provide cost savings and economies of scale and will enhance the Bureau’s ability to meet or exceed this measure .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        253




 Measure: Percent of Currency Notes Delivered to the Federal Reserve that Meet Customer Quality Requirements (%) (Oe)
                                                            FY 2004         FY 2005          FY 2006          FY 2007           FY 2008
                                             Target          99 .9           99 .9             99 .9            99 .9            99 .9
                                             Actual          100             99 .9             99 .9            100
                                        Target met?           Y                Y                Y                 Y
 Definition: A qualitative indicator reflecting the Bureau’s ability to provide a quality product . All notes delivered to the Federal
 Reserve go through rigorous quality inspections . These inspections ensure that all counterfeit deterrent features, both overt and
 covert are functioning as designed .
 Indicator Type: Measure
 Data Capture and Source: Quality inspections are performed at each Federal Reserve Bank . Any discrepancies found are reported
 to BEP on a per shipment basis .
 Data Verification and Validation: Quality review audits are performed by internal BEP auditors on all Federal Reserve inspection
 systems as well as the procedures followed in reporting data to BEP . These audits are conducted on an annual basis with addi­
 tional audits performed upon request by Federal Reserve Banks .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: For fiscal year 2007 100 percent of Currency notes delivered to the Federal Reserve met
 customer quality requirements . BEP is bringing new manufacturing equipment online that will enhance the Bureau’s ability to
 meet or exceed this measure .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
254                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Cost per 1000 Coin Equivalents ($) (E)
                                                                                    FY 2004           FY 2005          FY 2006          FY 2007          FY 2008
                                                                       Target         9 .78            7 .03            6 .62            7 .27             7 .15
                                                                       Actual         7 .93            7 .42            7 .55            7 .23
                                                                  Target met?           Y               N                 N                Y
                            Definition: Cost per 1000 coin equivalents is the cost of production (conversion cost) divided by the number of products made .
                            Conversion costs are controllable costs within manufacturing . Those costs include manufacturing payroll, non-payroll, and
                            depreciation costs . To determine the coin equivalents, an equivalency factor is assigned to each circulating denomination and
                            numismatic product based on the resources it takes to make the product (indexed against the resources it takes to make one
                            product – the quarter) . The production quantity for each product is multiplied by the equivalency factor, resulting in a coin
                            equivalent quantity . Thus, all denominations and products are equivalized to a quarter .
                            Indicator Type: Measure
                            Data Capture and Source: Conversion costs are pulled from financial reports from the accounting system . Production data is
                            pulled from the enterprise resource planning system via queries and converted to coin equivalents .
                            Data Verification and Validation: United States Mint analysts review the data pulled from the accounting system for reasonableness
                            and accuracy on a monthly basis .
                            Data Accuracy: Reasonable
                            Data Frequency: Monthly
                            Future Plans/Explanation for Shortfall: Fiscal Year 2007 Conversion costs were $7 .47 per 1000 CEs, or 3 percent above the target of
                            $7 .27 . This is an improvement of one percent from the fiscal year 2006 result of $7 .55 . The fiscal year 2007 target was based on
                            a production forecast of 26,669 million coin equivalents (CEs) . However, during fiscal year 2007, production was 23,174 million
                            CEs (a 15 percent reduction from the forecasted CEs) . The Mint did not meet the target due to the lower CE production levels
                            (which would warrant a higher target) and some additional costs incurred during fiscal year 2007 . Coin equivalent production
                            volumes are lower than expected due to reduced demand for bullion products, this causes fixed costs to be spread over fewer
                            products . Conversion costs have not reduced as much as the coin equivalents because of additional labor, materials, and process
                            costs associated with the new Presidential $1 coins . In order to improve results, several projects are in progress or in the planning
                            stages . These projects would expand the use of digital design and engraving to reduce some process costs, and automate material
                            movement in the production of dollar coins . Coin equivalent production increased to 21 .1 billion in fiscal year 2006 compared
                            with 19 .9 billion in fiscal year 2005, an increase of six percent . The associated conversion cost increased to $159 million from
                            $147 million in fiscal year 2005, an increase of eight percent . The increase in conversion cost between fiscal year 2006 and fiscal
                            year 2005 is the result of rising energy costs, replenishment of shipping and packaging supplies, overtime to support new numis­
                            matic products, and a 21 percent increase in depreciation expense . In fiscal year 2006, the United States Mint completed training
                            for many manufacturing managers on lean manufacturing processes and for sales and marketing staff on project management
                            techniques . This training will serve to eliminate unnecessary or redundant practices and should lead to improvements in plant
                            productivity and reductions in controllable operating costs .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                       255




 Measure: Order Fulfillment (%) (Oe)
                                                           FY 2004         FY 2005          FY 2006          FY 2007          FY 2008
                                            Target            0               0               95               96                96
                                            Actual            0              94               95               98
                                       Target met?            Y               Y                Y                Y
 Definition: This measure will track order fulfillment in both the circulating and numismatic products . Each component will
 be scaled by its percentage of the total revenue to create an index . The formula for this measure is [(circulating shipments/
 circulating orders) (circulating revenue/total revenue) + (numismatic orders shipped within 7 days/numismatic orders requiring
 shipping) (numismatic revenue/total revenue)] The numismatic revenue and total revenue components exclude bullion revenue .
 Indicator Type: Measure
 Data Capture and Source: United States Mint analysts maintain circulating orders and shipment data in a database . Numismatic
 orders data are pulled via a query from the United States Mint’s order management system . Revenue data are from the account­
 ing system .
 Data Verification and Validation: Order Fulfillment is a new measure that tracks the overall order fulfillment for the circulating
 coins shipped to the Federal Reserve and the numismatic coins sold to the public . The measure captures the percentage of orders
 that are shipped in a timely manner . Each component will be scaled by its percentage of the total revenue to create an index . The
 formula for this measure is [ (circulating shipments/circulating orders) (circulating revenue/total revenue) + (numismatic orders
 shipped within 7 days/numismatic orders requiring shipping) (numismatic revenue/total revenue) ] . United States Mint analysts
 review the data for reasonableness and accuracy regularly .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: The United States Mint order fulfillment performance at 98 percent for fiscal year 2007
 surpassed the target of 96 percent . This improves upon the fiscal year 2006 result of 95 percent by three percentage points .
 This measure indexes the order fulfillment rates of two business lines, circulating and numismatic, by their respective revenues .
 This performance means that 98 percent of revenues are from products delivered on-time . The Mint will continue to foster a
 close relationship with the Federal Reserve to ensure that the order fulfillment rate for circulating coins remains high . Customer
 service to numismatic customers remains a priority, and Mint personnel will continue to closely monitor numismatic order
 fulfillment .


 Measure: Currency Shipment Discrepancies per Million Notes (%) (Oe)
                                                           FY 2004         FY 2005          FY 2006          FY 2007          FY 2008
                                            Target            .01             .01              .01              .01              .01
                                            Actual            .01             0                .01              .01
                                       Target met?            Y               Y                Y                Y
 Definition: A qualitative indicator reflecting BEP’s ability to provide effective product security and accountability . This measure
 refers to product overages or underages of as little as a single currency note in shipments of finished notes to the Federal Reserve
 Banks .
 Indicator Type: Measure
 Data Capture and Source: The customer captures this data and report to BEP on a monthly basis .
 Data Verification and Validation: BEP reports product discrepancy data based on monthly information provided by the customer .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: Currency shipment discrepancies percent per million notes for fiscal year 2007 was  .01 per­
 cent . BEP is bringing new inspection equipment online that will enhance the Bureau’s ability to meet or exceed this measure .




                                                     Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
256                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Security Costs per 1000 Notes Delivered ($) (E)
                                                                                     FY 2004           FY 2005          FY 2006         FY 2007          FY 2008
                                                                        Target       Baseline           5 .95             6 .25           6 .00            5 .65
                                                                        Actual         5 .95            5 .75              6              5 .92
                                                                   Target met?          Y                 Y                Y               Y
                            Definition: An indicator reflecting the cost of providing effective and efficient product security and accountability . This standard
                            is developed annually based on the past year’s cost performance and anticipated cost increases . The formula used to calculate this
                            measure is the total cost pf security divided by the number of notes produced divided by 1000 .
                            Indicator Type: Measure
                            Data Capture and Source: Cost data is collected through BEP’s accrual-based cost accounting system . This standard is developed
                            annually based on the past year’s cost performance and anticipated cost increases .
                            Data Verification and Validation: BEP’s accrual-based cost accounting system is audited annually as part of the financial statement
                            audit .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: Security costs per 1000 notes delivered for fiscal year 2007 was $5 .92 . This represents a
                            decline in cost with respect to fiscal year 2006 numbers . We expect this trend to continue as we deploy new technologies that
                            enhance security and enable more effectives use of police force resources .



                            Measure: Total Losses ($) (Oe)
                                                                                     FY 2004           FY 2005          FY 2006         FY 2007          FY 2008
                                                                        Target           0            250000             15000           10000            5000
                                                                        Actual         3109             1135               0               0*
                                                                   Target met?          N                 Y                Y               Y
                            Definition: The United States Mint performs its protection function by minimizing the vulnerability to theft or unauthorized
                            access to critical assets . The measure is comprised of the sum of three elements 1 . Financial Losses: Losses that have been report­
                            ed, investigated and verified as unrecoverable; from a . Strategic reserves (Theft of Treasury Reserves) b . Coining products (Theft
                            from the production facilities) c . Sales of products to the public (Theft by fraud) d . Other losses (Other theft) . 2 . Productivity
                            losses: The cost of intentional damage or destruction of United States Mint production capability and the cost to utilize alterna­
                            tive productivity as needed as a result of the intentional damage or destruction . 3 . Intrusion losses: The cost to repair and/or
                            recover from intentional intrusions into United States Mint facilities and systems, either physically or electronically .
                            Indicator Type: Measure
                            Data Capture and Source: The United States Mint Police maintains a secure database of monthly reports on incidents included in
                            the categories above . Any theft or fraud amount determined as unrecoverable is assessed on a case-by-case basis . In the event that
                            cost information is needed, data on the value of United States Mint assets and costs are in the ERP system .
                            Data Verification and Validation: Analysts in the Protection organization compile and analyze the incident data on a monthly basis .
                            Protection senior management reviews the total losses report for reasonableness and accuracy and reports to United States Mint
                            management on a quarterly basis .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: The United States Mint is initiating a review the Total Losses measure and as a result, the
                            fiscal year 2007 result is not yet available . The fiscal year 2007 results will be reported in subsequent budget reports and in the
                            fiscal year 2008 annual report . The Mint Police is strengthening procedures and relationships with law enforcement partners
                            with the goal of minimizing risks to persons, assets, and property .
                            * Final data for this measure was not available at the time of publication . This data is an estimate .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        257




 Measure: Protection Cost per Square Foot ($) (E)
                                                            FY 2004        FY 2005           FY 2006          FY 2007           FY 2008
                                             Target            0            31 .86              32             32 .99            32 .5
                                             Actual         32 .51          32 .43            32 .49           31 .75
                                        Target met?           N               N                 N                Y
 Definition: Protection cost per square foot is the Protection operating costs divided by the area of usable space in square feet that
 the United States Mint Police protects . Usable space is defined as 90 percent of total square footage . The year-to-date result is
 then annualized on a straight-line basis .
 Indicator Type: Measure
 Data Capture and Source: The Protection costs are automatically pulled from the United States Mint’s accounting system on
 a monthly basis . The square footage is relatively stable and is monitored by the Protection office and United States Mint
 management .
 Data Verification and Validation: United States Mint analysts review the data for reasonableness and accuracy on a monthly basis .
 Data Accuracy: Reasonable
 Data Frequency: Monthly
 Future Plans/Explanation for Shortfall: Protection cost per square foot is $31 .75 for fiscal year 2007, lower than the target of
 $32 .99 by 4 percent . This result is an improvement of 2 percent from the fiscal year 2006 result of $32 .49 . The Mint police
 made efforts to curtail some travel expenses, and actual expenses related to a planned buyout authority ended up lower than
 expected . The Mint Police will continue efforts to contain costs, while maintaining proper operations to fulfill protection
 responsibilities . Projects to automate entry and exit at facilities are expected to reduce the need for staffing costs associated with
 these functions .



 Measure: Cycle Time (E)
                                                            FY 2004        FY 2005           FY 2006          FY 2007           FY 2008
                                             Target           53              53                67               75         Discontinued
                                             Actual           85              69                72               61
                                        Target met?           N               N                 N                Y
 Definition: Cycle time is the length of time from when material enters a production facility until it is delivered to the customer .
 Indicator Type:
 Data Capture and Source: Data for each element is pulled from the United States Mint’s Enterprise Resource Planning system .
 Data Verification and Validation: United States Mint analysts review the data pulled from the accounting system for reasonableness
 and accuracy on a monthly basis .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: This measure is being discontinued in fiscal year 2008 .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
258                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         STRATEGIC GOAL: Prevented Terrorism and
                                         Promoted the Nation’s Security
                                         through Strengthened
                                         International Financial Systems

                         Strategic Outcome:
                         Removed or reduced threats to national security from terrorism, proliferation of weapons
                         of mass destruction, narcotics trafficking and other criminal activity on the part of rogue
                         regimes, individuals, and their support networks

                            Measure: Number of Countries that are Assessed for Compliance with the Financial Action Task Force (FATF) 40+9
                            Recommendations (Ot)
                                                                                    FY 2004         FY 2005          FY 2006          FY 2007          FY 2008
                                                                       Target                       Baseline            45               6               12
                                                                       Actual                          49               5                6
                                                                  Target met?        N/A               Y                N                Y
                            Definition: TFFC is the lead Treasury component and representative to the Financial Action Task Force (FATF) . As such, TFFC is
                            responsible for leading international efforts to identify and close money laundering and terrorist financing vulnerabilities in the
                            international financial system, and to ensure that countries throughout the world comply with international anti-money laun­
                            dering/counter-terrorist financing standards . In concert with the international community, Treasury is deploying a three-prong
                            strategy that 1) objectively assesses all countries against the FATF 40+9, 2) provides capacity-building assistance for key countries
                            in need and 3) isolates and punishes those countries and institutions that facilitate terrorist financing . TFI is working with
                            international bodies like FATF, IMF (International Monetary Fund) and World Bank to ensure compliance . The IMF and World
                            Bank have adopted the FATF 40+9 and they use those standards to assess countries for compliance .
                            Indicator Type: Measure
                            Data Capture and Source: Data collected by the Department of Treasury’s Office of Terrorism and Financial Intelligence (TFI);
                            Terrorist Financing and Financial Crimes (TFFC) .
                            Data Verification and Validation: TFFC data undergoes multiple quality checks to ensure accuracy .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: Assessing compliance for the FATF 40+9 recommendations is crucial to identifying money
                            laundering and terrorist financing vulnerabilities, and is one of the most effective levers to encourage reforms . Through partici­
                            pation by international bodies such as FATF, IMF, and World Bank, assessments for compliance with FATF’s standards should
                            become more widespread . Treasury will continue efforts to increase assessments and international cooperation, which will allow
                            TFFC to pursue vital international initiatives relating to trade-based money laundering, cross border funds reporting, and the
                            abuse of charities for terrorist financing, for example . Growth in the number of countries assessed reflects increased acceptance
                            of key international standards and should focus attention on key money laundering and terrorist financing issues and remaining
                            implementation challenges .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        259




 Measure: Increase the Number of Outreach Engagements with the Charitable and International Financial Communities (Ot)
                                                            FY 2004        FY 2005          FY 2006          FY 2007          FY 2008
                                             Target                        Baseline           105              70                  70
                                             Actual                           95              45               85
                                       Target met?           N/A              Y                N                Y
 Definition: The effectiveness of the USG’s efforts to combat terrorist financing and other forms of illicit finance depends upon
 the understanding and cooperation of the domestic and international private sector, particularly the financial services industries
 and other vulnerable sectors such as charities . The Office of Terrorist Finance and Financial Crimes (TFFC) outreach engage­
 ments allows the USG to assess first-hand domestic and international Anti-money Laundering and Combating the Financing of
 Terrorism (AML/CFT) practices by governments and private institutions alike and engage with these entities to ensure that they
 safeguard themselves and the financial system against illicit activity . When followed-up consistently, this outreach has proven to
 be one of our most efficacious tools for changing behavior, raising awareness, and improving capacity among foreign govern­
 ments as well as domestic and foreign institutions with gaps in their AML/CFT programs .
 Indicator Type: Measure
 Data Capture and Source: Data collected by the Department of Treasury’s Office of Terrorism and Financial Intelligence (TFI);
 Terrorist Financing and Financial Crimes (TFFC) .
 Data Verification and Validation: Department of the Treasury’s TFI data based on outreach events .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Engagement with the international and charitable sectors has always played a key role in
 TFFC’s work . Bilateral and multilateral engagements with the public and private sectors have enabled TFFC to promote and
 promulgate greater transparency and accountability in financial systems worldwide . Looking ahead to fiscal year 2008, TFFC
 aims to broaden and deepen these engagements yet further by improving USG understanding of private sector challenges, private
 sector understanding of illicit financing threats, and implementation of effective AML/CFT safeguards across the private and
 charitable sectors . *These figures do not include classified initiatives .



 Measure: Percent of Forfeited Cash Proceeds Resulting from High-impact Cases (%) (Oe)
                                                            FY 2004        FY 2005          FY 2006          FY 2007          FY 2008
                                             Target           75              75              75               75                  75
                                             Actual         83 .95            81             72 .93           84 .18
                                       Target met?            Y               Y                N                Y
 Definition: A “high impact case” is a case, based on designation or executive order, resulting in a cash forfeiture equal to or
 greater than $100,000 . This measure is calculated by dividing the amount of cash forfeited in amounts equal to or greater than
 $100,000 (as measured by individual deposits that are equal to or greater than $100,000) divided by the total amount of cash
 forfeitures to the Fund (as of the end of the year, or other reporting period .)
 Indicator Type: Measure
 Data Capture and Source: The Treasury Forfeiture Fund is able to capture this data on a monthly basis and the source of the data
 is the Detailed Collection Report (DCR) .
 Data Verification and Validation: The source of the data that supports our performance calculation comes from the general ledger of
 the Treasury Forfeiture Fund which data is audited annually pursuant to our financial statement audit . Therefore, the annual finan­
 cial statement audit process serves to “verify and validate” the data used to support our performance measure on an annual basis .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: Our final performance against the 2007 target is 84 .18 percent . “The Treasury Forfeiture
 Fund exceeded its annual target of 75 percent for high-impact forfeitures, reflecting a banner year for forfeiture revenue in fiscal
 year 2007 . Management will continue to emphasize high-impact forfeitures to our participating bureaus and to fund those cat­
 egories of expense that enhance the bureaus’ ability to pursue this type of case . Our target performance of 75 percent continues
 to be appropriate for this performance measure .”




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
260                                                                          Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Number of Open Civil Penalty Cases that are Resolved within the Statute of Limitations Period (Ot)
                                                                                     FY 2004         FY 2005          FY 2006          FY 2007          FY 2008
                                                                         Target                      Baseline            85               85              120
                                                                         Actual                         85               85               296
                                                                    Target met?        N/A              Y                Y                Y
                            Definition: Timely imposition of civil penalties plays a major role in deterring and appropriately punishing violations of sanctions
                            by U .S . persons . OFAC receives a very high volume of law enforcement referrals regarding potential violations . It is devising
                            strategies to reduce the backlog of civil penalty and enforcement actions and increase efficiency in drafting warning and caution­
                            ary letters, assessing penalties, negotiating penalty resolutions and processing monetary penalties .
                            Indicator Type: Measure
                            Data Capture and Source: OFAC database .
                            Data Verification and Validation: TBD
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: Timely imposition of civil penalties plays a major role in deterring and appropriately punish­
                            ing violations of sanctions by U .S . person . OFAC receives a very high volume of law enforcement referral regarding potential
                            violations . In fiscal year 2008, OFAC will continue to devise strategies to reduce the backlog of civil penalty and enforcement
                            actions and increase efficiency in drafting warnings and cautionary letters, assessing penalties, negotiating penalty resolutions and
                            processing monetary penalties . In fiscal year 2007, 296 civil penalty cases were resolved within the statute of limitations . This
                            satisfied the target of 85 cases, which had been established in fiscal year 2006 . OFAC has assessed this target and decided to raise
                            it to 120 cases for fiscal year 2008 and fiscal year 2009 .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        261




Strategic Outcome:
Safer and more transparent U.S. and international financial systems

 Measure: Average Time to Process Enforcement Matters (in years) (E)
                                                            FY 2004         FY 2005          FY 2006           FY 2007          FY 2008
                                             Target           1 .2            1 .1               1                1                1
                                             Actual            1              1 .3               1               1 .1
                                        Target met?           Y                N                Y                 N
 Definition: The average time to process an enforcement matter is determined from the date a case is referred from the Office of
 Compliance to the date the charging (or action) letter is issued .
 Indicator Type: Measure
 Data Capture and Source: The data for this measure is captured through an internal database that stores enforcement matters . The
 database records the date cases are received, the analyst assigned, the statute of limitations date, and the date each case was closed .
 Data Verification and Validation: The enforcement matters are entered into the automated log and evaluated to determine whether
 there is enforcement potential through a civil monetary penalty or otherwise . FinCEN has established time management guide­
 lines to reduce the average processing time for civil penalty cases .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: FinCEN works closely with its regulatory partners to take enforcement action against institu­
 tions that systemically and egregiously violate the provisions of the BSA, including through imposition of civil money penalties
 in appropriate matters . Timely enforcement action communicates urgency to financial institutions, and is paramount to deter­
 ring non-compliance . In fiscal year 2007, FinCEN experienced a slight increase in the average processing time, exceeding the
 1 .0 year average by 21 days, resulting in an average of 1 .1 years . This was the result of two enforcement cases that closed in the
 fourth quarter of fiscal year 2007 after abnormally long periods of time . Each of those enforcement actions was taken on a joint/
 concurrent basis with both the Department of Justice and the respective financial supervisor(s), which also had to complete their
 respective investigations . Moreover, the process of coordination with other interested government authorities, which itself is a
 Departmental priority, will often require longer time periods than unilateral actions . As such, the time periods of these two cases
 were outliers, and FinCEN will reconsider in the future whether the processing time target is appropriate for joint enforcement
 actions, as the timing of the announcement of these will not necessarily reflect when FinCEN has completed its enforcement
 review .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
262                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Number of Federal and State Regulatory Agencies with which FinCEN has Concluded Memoranda of Understanding/
                            Information Sharing Agreements
                                                                                    FY 2004         FY 2005          FY 2006          FY 2007          FY 2008
                                                                        Target                      Baseline            45               50              52
                                                                        Actual                         41               48               50
                                                                   Target met?        N/A              Y                Y                Y
                            Definition: This measure tracks the number of Memoranda of Understanding agreements the Office of Compliance concludes
                            with other regulators of targeted jurisdictions . This measure is meaningful because it tracks our progress in sharing information
                            on Bank Secrecy Act compliance with the regulatory agencies that either have delegated authority to examine for Bank Secrecy
                            Act compliance or are expending resources to review for Bank Secrecy Act compliance under other authorities (for example,
                            many states have Bank Secrecy Act-style laws/regulations or have laws that require compliance with all applicable laws and
                            regulations) . Some states must pass legislation to permit information sharing with the Financial Crimes Enforcement Network .
                            Ultimately, information derived from these agreements will allow us to meet the intermediate outcome measure of improving
                            our ability to monitor industry compliance .
                            Indicator Type: Measure
                            Data Capture and Source: Office of Compliance-maintained list of Memorandum of Understanding agreements with targeted
                            regulators .
                            Data Verification and Validation: List can be checked against signed Memorandum of Understanding agreements in files . A
                            monthly list is prepared for the regulators .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: FinCEN continues to increase compliance activities to monitor financial institutions exam­
                            ined for BSA compliance by state and federal regulators through entering into memoranda of understanding (MOU) to exchange
                            information . In 2007, FinCEN executed two additional such agreements and has met its fiscal year 2007 target of 50 . MOUs help
                            ensure effective application of the BSA regulations across all regulated financial service industries by providing a solid foundation
                            for FinCEN to improve upon its ability to monitor industry compliance by providing vital data on various industry sectors .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                       263




 Measure: Percentage of Customers Finding FinCEN’s Analytic Reports Highly Valuable
                                                           FY 2004         FY 2005         FY 2006          FY 2007          FY 2008
                                            Target                                                         Baseline            79
                                            Actual                                                            82
                                       Target met?          N/A             N/A             N/A                Y
 Definition: The percentage of customers (domestic law enforcement and foreign financial intelligence units finding FinCEN’s
 analytical reports highly valuable . This is composite measure compiled from survey results . The survey looks at the impact of
 FinCEN’s analysis products, such as whether the product was used to open a new investigation, whether it generated new leads,
 or whether it provided information previously unknown .
 Indicator Type: Measure
 Data Capture and Source: Annual Surveys
 Data Verification and Validation: The vendor survey team developed questionnaires for customers, with FinCEN input . They con­
 ducted e-mail and/or telephone surveys of FinCEN’s customers in the investigative/intelligence community, financial community
 and inhouse customers . A comprehensive report and presentation was provided at the conclusion of the survey .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: FinCEN supports law enforcement and its regulatory industry partners by facilitating infor­
 mation sharing and providing analyses of BSA information and measures the percentage of customers finding FinCEN’s analytic
 reports highly valuable . FinCEN has revised this measure as a result of the fiscal year 2006 PART process to more accurately target
 its disparate audiences as well as its different products . The reformulated measure more closely ties to how BSA information is
 used by law enforcement, regulators and international partners to identify, investigate, and prevent abuse of the financial system .
 In fiscal year 2007 FinCEN surpassed its target of 78 percent with 82 percent of its customers finding the analytic products highly
 valuable .


 Measure: Percentage of Customers Satisfied with the BSA E-Filing (Oe)
                                                           FY 2004         FY 2005         FY 2006          FY 2007          FY 2008
                                            Target                                        Baseline            90               90
                                            Actual                                           92               94
                                       Target met?          N/A             N/A               Y                Y
 Definition: The measure will assess the components of BSA Direct . This will begin with the E-Filing component of BSA Direct
 in fiscal year 2006 . Feedback will be used to improve the system and customize it for user populations . This measure is linked
 to the performance goal “Accelerate the secure flow of financial information from the industries subject to the Bank Secrecy Act
 requirements to the law enforcement agencies that use it .” The measure is meaningful because it tracks our progress toward serv­
 ing the number of law enforcement and regulatory agency users accessing the BSA information through BSA Direct to support
 their own cases and investigations .
 Indicator Type: Measure
 Data Capture and Source: Active status user survey
 Data Verification and Validation: Survey information is captured in a database .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: FinCEN conducted a survey of the users of the BSA E-Filing system to determine the
 overall satisfaction level and to identify where improvements are needed . FinCEN meet its target with 94 percent of respondents
 satisfied . The fiscal year 2007 target was to maintain at a least 90 percent satisfaction level . The information and the technology
 used to facilitate analysis are at the core of FinCEN’s mission to deter and detect criminal activity, and safeguard financial sys­
 tems from abuse by promoting transparency in the U .S . and international financial systems .




                                                     Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
264                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Percentage of Bank Examinations Conducted by the Federal Banking Agencies Indicating a Systemic Failure of the Anti-
                            money Laundering Program Rule
                                                                                     FY 2004          FY 2005          FY 2006          FY 2007          FY 2008
                                                                        Target                                                          Baseline            5 .2
                                                                        Actual                                                             5 .2
                                                                  Target met?         N/A               N/A              N/A                Y
                            Definition: The percentage of bank examinations that reveal the existence of systemic compliance failure (i .e ., demonstrated
                            by cited violations of the anti-money laundering program rule) is a meaningful measure because it provides an intermediate
                            assessment of the effectiveness of the efforts of the Regulatory Policy and Programs Division’s three offices in providing policy
                            guidance and taking formal and informal compliance and enforcement actions to increase financial industry compliance with the
                            Bank Secrecy Act . At the present time, the only financial sector from which we are receiving useful data to quantify this measure
                            is the banking sector supervised and examined for Bank Secrecy Act compliance by the Federal Banking Agencies .
                            Indicator Type:
                            Data Capture and Source: The Federal Banking Agencies aggregated information provided pursuant to the Memorandum of
                            Understanding executed in 2004 with FinCEN .
                            Data Verification and Validation: This information can be validated from the quarterly aggregate reports provided to FinCEN by
                            each agency pursuant to the Memorandum of Understanding of 2004 .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: As part of the 2006 Program Assessment Rating Tool (PART) process, FinCEN established
                            a measure for the percentage of bank examinations conducted by the Federal Banking Agencies indicating a systemic failure of
                            the anti-money laundering program rule and established an fiscal year 2007 baseline of 5 .2 percent . Due to a three month time
                            lag in data availability, this result is based on three quarters of fiscal year 2007 data . This measure provides an assessment of the
                            effectiveness of FinCEN’s efforts in providing policy guidance and taking formal and informal compliance and enforcement
                            actions to increase depository institution compliance with the BSA .


                            Measure: Percentage of Regulatory Resource Center Customers Rating the Guidance Received as Understandable
                                                                                     FY 2004          FY 2005          FY 2006          FY 2007          FY 2008
                                                                        Target                           0                                 90                90
                                                                        Actual                                            94               91
                                                                  Target met?         N/A               N/A               Y                Y
                            Definition: The percentage of financial institution customers who contact the Resource Center and respond to a survey, who find
                            the information/response/guidance received was understandable . Providing guidance that is understandable is a desired result and
                            is critical for for financial institutions to establish programs that comply with the BSA .
                            Indicator Type: Measure
                            Data Capture and Source: Resource Center customer records and survey data .
                            Data Verification and Validation: Results and data will be captured and verified by a professional survey consultant .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: FinCEN met its target . FinCEN conducted a survey of the Regulatory Resource Center
                            customers rating regulatory guidance received as understandable and met its target with 91 percent satisfied . The target was to
                            maintain at least a 90 percent level . Providing understandable guidance to financial institutions is critical to their establishing
                            anti-money laundering programs that comply appropriately with the BSA .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                         265




 Measure: Percentage of Customers Finding FinCEN’s Analytic Support Valuable (%) (Oe) [DISCONTINUED FY 2007]
                                                             FY 2004        FY 2005         FY 2006          FY 2007           FY 2008
                                              Target                           0               75         Discontinued     Discontinued
                                              Actual                           73              69                0
                                         Target met?          N/A              Y               N               N/A
 Definition: This performance measure, starting in fiscal year 2005, combines data from surveys on strategic analytical products,
 investigative case reports, and investigative targets .
 Indicator Type: Measure
 Data Capture and Source: Bi-annual surveys
 Data Verification and Validation: The results had a margin of error of + or - 6 .1 percentage points at a 95 percent confidence level .
 The results were validated using standard statistical models . An average score tracking the value of the three analytical products
 will be used to establish an overall indicator of the value of analytic support .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Measure being revised through the fiscal year 2006 PART Process .




                                                       Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
266                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         STRATEGIC GOAL: Management and
                                         Organizational Excellence

                         Strategic Outcome:
                         A citizen-centered, results-oriented and strategically aligned organization

                            Measure: Number of Open Material Weakness (significant management problems identified by GAO, the IGs and/or the bureaus)
                            (President’s Management Agenda) Targeted for Closure in FY 2007 (Oe)
                                                                                   FY 2004          FY 2005          FY 2006          FY 2007          FY 2008
                                                                       Target          6                4               2                1                3
                                                                       Actual          8                7               1                0
                                                                  Target met?         N                N                N                N
                            Definition: Treasury seeks to reduce and eventually eliminate the material weaknesses that currently exist within Treasury, while
                            simultaneously taking actions which will serve to avoid new material weaknesses . Material weaknesses are significant problems
                            with an organization’s internal controls, systems’ reliability, controls on waste, fraud or abuse, mission performance, and compli­
                            ance with laws and regulations .
                            Indicator Type: Measure
                            Data Capture and Source: Identified by the General Accounting Office, Treasury’s Inspectors General, and/or Treasury bureaus .
                            Data Verification and Validation: Certification statement issued by head of bureau . Independent review to validate material weak­
                            ness has been corrected .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: More time is needed to observe the effects of completed actions to improve IRS’s controls
                            over systems modernization, so this material weakness could not be closed in fiscal year 2007 .



                            Measure: Complete Investigations of EEO Complaints Within 180 Days (%) (Oe)
                                                                                    FY 2004         FY 2005          FY 2006          FY 2007          FY 2008
                                                                       Target         40               50               50               50              50
                                                                       Actual         31               36               20              51 .6
                                                                  Target met?         N                N                N                Y
                            Definition: The average time it takes to complete investigations of Equal Employment Opportunity (EEO) complaints .
                            Indicator Type: Measure
                            Data Capture and Source: The Annual Federal EEO Statistical Report of Discrimination Complaints and the Department’s
                            Complaint Tracking System are the primary sources of data .
                            Data Verification and Validation:
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: Treasury is on target to meet its goal of completing investigations of EEO complaints within
                            180 days . In fiscal year 2007, Treasury instituted service level standards to assess the performance of the Treasury Complaint
                            Mega Center, which processes all EEO complaints for all Treasury bureaus . This is part of our initiative to improve our oversight
                            of the Center, and to ensure we are working to continuously improve operations . The establishment of a Chief, Complaint
                            Operations position is needed to assist in efforts to hold the Center accountable for the improvement in quality and reduction in
                            timeframes to process complaints .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                           267




 Measure: Operating Expenses as a Percentage of Revenue – Consolidated/Integrated Administrative Management (%) (E)
                                                               FY 2004        FY 2005         FY 2006         FY 2007        FY 2008
                                                Target            0              4              12              12              12
                                                Actual            4              4               4              4 .3
                                           Target met?           N               Y               Y               Y
 Definition: The Franchise Fund will either maintain or decrease their operating (administrative) expenses as a percentage of rev­
 enue year to year .
 Indicator Type: Measure
 Data Capture and Source: The data is captured in Oracle Financials system and reported through Oracle’s Discoverer Reporting
 system . Measure is calculated as Operating Expenses divided by Total Revenue .
 Data Verification and Validation: External auditors perform routine audits of financial statements . Operating Expenses are part of
 the financial statements .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall:




 Measure: Operating Expenses as a Percentage of Revenue – Financial Management Administrative Support (%) (E)
                                                               FY 2004        FY 2005         FY 2006         FY 2007        FY 2008
                                                Target            0              11             12              12              12
                                                Actual            9              9              17             15 .1
                                           Target met?           N               Y               N              N
 Definition: The Franchise Fund will either maintain or decrease their operating (administrative) expenses as a percentage of rev­
 enue year to year .
 Indicator Type: Measure
 Data Capture and Source: The data is captured in Oracle Financials system and reported through Oracle’s Discoverer Reporting
 system . Measure is calculated as Operating Expenses divided by Total Revenue .
 Data Verification and Validation: External auditors perform routine audits of financial statements . Operating Expenses are part of
 the financial statements .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall:




                                                         Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
268                                                                            Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Operating Expenses as a Percentage of Revenue – Financial Systems, Consulting and Training (%) (E)
                                                                                       FY 2004         FY 2005          FY 2006         FY 2007         FY 2008
                                                                           Target         0               12               12              12              12
                                                                           Actual         14              11               10             6 .7
                                                                      Target met?         N               Y                Y               Y
                            Definition: The Franchise Fund will either maintain or decrease their operating (administrative) expenses as a percentage of rev­
                            enue year to year .
                            Indicator Type: Measure
                            Data Capture and Source: The data is captured in Oracle Financials system and reported through Oracle’s Discoverer Reporting
                            system . Measure is calculated as Operating Expenses divided by Total Revenue .
                            Data Verification and Validation: External auditors perform routine audits of financial statements . Operating Expenses are part of
                            the financial statements .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall:




                            Measure: Injury and Illness Rate Treasury-wide, including DO (Oe)
                                                                                       FY 2004         FY 2005          FY 2006         FY 2007         FY 2008
                                                                           Target        3 .12             3              2 .8            2 .6            1 .4
                                                                           Actual        3 .94            2 .8             1              1 .4*
                                                                      Target met?         N               Y                Y               Y
                            Definition: The number of reported work-related injuries and illnesses Treasury-wide .
                            Indicator Type: Measure
                            Data Capture and Source: Safety and Health Information Management System
                            Data Verification and Validation: Data are collected from the Safety and Health Information Management system
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: In fiscal year 2004, the Department of Labor recognized Treasury for reducing the total
                            injury and lost time injury rates by more than 10 percent each, well below the recommended three percent for all federal agen­
                            cies . In 2007, Treasury continued its aggressive occupational safety and health program and had a 1 .4 percent reduction . In
                            February 2007, Treasury received an award from the Department of Labor for reducing injuries and illnesses, including those
                            that resulted in time away from work, more than any other Federal Agency .
                            * Final data for this measure was not available at the time of publication . This data is an estimate .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        269




 Measure: Percent of Complainants Informally Contacting EEO (for the purposes of seeking counseling or filing a complaint) Who
 Participate in the ADR Process (%) (Oe)
                                                            FY 2004        FY 2005          FY 2006          FY 2007         FY 2008
                                             Target                           25               25               30              30
                                             Actual                           25               25               29
                                        Target met?          N/A               Y               Y                N
 Definition: Equal Employment Opportunity (EEO) contact means an instance where an EEO Counselor or an ADR Intake
 Officer performs the counseling duties described in Chapter 2 of MD 110 (Government-wide managing directive on EEO) .
 This is the same information which is reported in Part One; Section one of 462 reports (Government-wide EEO report) .
 Participation means both parties agree to enter an ADR process .
 Indicator Type: Measure
 Data Capture and Source: Treasury’s automated Complaint Tracking System .
 Data Verification and Validation: Data is periodically reviewed to ensure accuracy .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
  Future Plans/Explanation for Shortfall: Treasury has set a goal of 30 percent participation in Alternative Dispute Resolution (ADR)
 for individuals who contact an EEO counselor and request EEO counseling . There is no requirement established by the Equal
 Opportunity Commission to establish a goal for ADR, but the EEO community in Treasury believes the establishment of a goal
 would be a way to measure our success in improving ADR processes . For fiscal year 2007, Treasury was at 29 percent, slightly
 less than our goal for the year . In fiscal year 2008, we have the same goal, and will concentrate on improving ADR marketing
 and developing a survey to assess why individuals choose not to participate .



 Measure: Management Cost per Treasury Employee ($) (E)
                                                            FY 2004        FY 2005          FY 2006          FY 2007         FY 2008
                                             Target                            0             40 .27           38 .21       Discontinued
                                             Actual                         39 .33           40 .59           29 .64
                                        Target met?          N/A              N                N                Y
 Definition: Total amount obligated for Treasury’s strategic objective, M5B, divided by total amount of Treasury FTEs (excluding
 IRS employees) .
 Indicator Type: Measure
 Data Capture and Source: Total amount obligated for M5B is taken from year end execution reports . The total amount of Treasury
 FTEs is taken by each bureau (except IRS) from the Department of Agriculture’s National Finance Center database .
 Data Verification and Validation: Treasury’s Office of Performance Budgeting staff carefully checks and verifies data .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: This measure is being discontinued in fiscal year 2008 .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
270                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Bureau Performance Plans for Supervisors, Managers, and SES Members Contain Elements that Link to the Bureau
                            Mission (%) (Oe) [DISCONTINUED FY 2007]
                                                                                     FY 2004          FY 2005          FY 2006         FY 2007          FY 2008
                                                                        Target         75               100              100        Discontinued     Discontinued
                                                                        Actual         77               100              100              0
                                                                  Target met?           Y                Y                Y              N/A
                            Definition: The overall percentage of bureaus whose performance plans for supervisors, managers, and SES members contain ele­
                            ments that specifically link to the bureau mission .
                            Indicator Type: Measure
                            Data Capture and Source: Data will include bureau feedback in response to questions posed by the Office of Human Resources
                            Strategy and Solutions, bureau results from using the Office of Personnel Management’s Performance Appraisal and Assessment
                            Tool to assess their performance management systems, and submission of sample bureau performance plans .
                            Data Verification and Validation: The DASWM office will identify gaps in bureau plans and, as needed, discussions related to miti­
                            gation strategies will be held when appropriate .
                            Data Accuracy: Reasonable
                            Data Frequency: Annually
                            Future Plans/Explanation for Shortfall: This measure is being discontinued in fiscal year 2007 .




                         Strategic Outcome:
                         Exceptional accountability and transparency

                            Measure: Percent of Statutory Audits Completed by the Required Date (%) (E)
                                                                                     FY 2004          FY 2005          FY 2006         FY 2007          FY 2008
                                                                        Target         100              100              100             100                100
                                                                        Actual         100              100              100             100
                                                                  Target met?           Y                Y                Y               Y
                            Definition: Legislation mandating certain audit work generally prescribes, or authorizes OMB to prescribe, the required comple­
                            tion date for recurring audits and evaluations, such as those for annual audited financial statements . For other types of mandated
                            audit work, such as a Material Loss Review (MLR) of a failed financial institution, the legislation generally prescribes a time-
                            frame to issue a report (6 months for an MLR, as an example) from the date of an event that triggers the audit .
                            Indicator Type: Measure
                            Data Capture and Source: The date OIG issues an audit, attestation engagement, or evaluation report is printed on the cover . The
                            required dates may vary each year and are specified in different legislation .
                            Data Verification and Validation: Official audit files and the dates on the reports themselves support the performance data .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                           Future Plans/Explanation for Shortfall: OIG expects to complete 100 percent of statutory audits by the required dates in fiscal year
                           2008 .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                      271




 Measure: Percentage of Audit Products Delivered When Promised to Stakeholders
                                                          FY 2004        FY 2005         FY 2006         FY 2007        FY 2008
                                           Target                                                       Baseline           60
                                           Actual                                                          68
                                      Target met?          N/A             N/A            N/A               Y
 Definition: The likelihood that our products will be used is enhanced if they are delivered when needed to support Congressional
 and Internal Revenue Service (IRS) decision making . To determine whether our products are timely, we track the percentage of
 our products that are delivered on or before the day we committed to (Contract date) because it is critical that our work be done
 on time for it to be used by the IRS or the Congress .
 Indicator Type: Measure
 Data Capture and Source: Information regarding Contract dates and actual delivery dates for audits is maintained on the TCMIS .
 MIS Coordinators in the Office of Audit’s Operating/Business Units monitor overall data accuracy and maintain secure controls
 over key milestone and “Contract” data entries .
 Data Verification and Validation: Summary data used for purposes of reporting on this measure are extracted, from the Office
 of Audit’s TeamCentral Management Information System (TCMIS), analyzed and summarized by personnel in our Office of
 Management and Policy . A qualified staff member independent of the process validates the progress related statistics . TCMIS
 data are reviewed and validated monthly by MIS Coordinators, Audit Managers and Directors .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: TIGTA OA goal for Percentage of Audit Products Delivered When Promised to Stakeholders
 is 60 percent . This year was a baseline year . TIGTA OA met that goal by the end of September . The actual performance as of
 September 30th was 68 percent . TIGTA OA closed 180 audit reports during fiscal year 2007 . During the month of September,
 22 audit reports were finalized . For those 22 final reports, TIGTA OA individually extracted the audit reports from its manage­
 ment information system to determine or project if the promised date was met . TIGTA OA determined that 16 of the 22 audits
 met their promised delivery dates . TIGTA OA will continue to monitor and evaluate the performance for fiscal year 2008 and
 make any adjustments if deemed appropriate .




                                                    Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
272                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Percentage of Recommendations Made That Have Been Implemented
                                                                                    FY 2004         FY 2005          FY 2006          FY 2007          FY 2008
                                                                       Target                                                         Baseline           80
                                                                       Actual                                                            90
                                                                  Target met?        N/A              N/A              N/A               Y
                            Definition: The TIGTA Office of Audit (OA) makes recommendations designed to improve administration of the federal tax sys­
                            tem . The Internal Revenue Service (IRS) must implement these recommendations in order for our work to produce financial or
                            non-financial benefits . This measure assesses our effect on improving the IRS’ accountability, operations, and services . Since the
                            IRS needs time to act on recommendations, we track the percentage of recommendations that we made four (4) years ago that
                            have since been implemented, rather than the results of our activities, during the fiscal year in which the recommendations are
                            made . This timeframe is used because four (4) years is the point at which TIGTA-OA believes that if a recommendation has not
                            been implemented, it is not likely to be .
                            Indicator Type: Measure
                            Data Capture and Source: The IRS records recommendations in the Department’s JAMES as they are issued . Summary data
                            regarding the status of the IRS’s corrective actions taken in response to our recommendations are provided to the Office of Audit
                            via JAMES reports . Our Office of Management and Policy monitors implementation of recommendations as the IRS submits
                            updated information to the JAMES .
                            Data Verification and Validation: Through a formal process, each audit team identifies the number of recommendations included
                            in each report and the IRS enters the findings and corresponding recommendations into the Department of the Treasury’s
                            (the Department) Joint Audit Management Enterprise System (JAMES) . The database is updated frequently . Our Office of
                            Management and Policy receives summary data and monitors the data regularly to make sure the recommendations reported as
                            implemented have been accurately recorded, as well as to accumulate data in regard to progress in meeting this measure . A quali­
                            fied staff member independent of the process validates the progress related statistics .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: TIGTA OA goal for Percentage of Past Recommendations Implemented is 80 percent . This
                            was a baseline year . TIGTA OA met that goal at the end of September . TIGTA OA will continue to monitor and evaluate the
                            performance for fiscal year 2008 and make any adjustments if deemed appropriate .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        273




 Measure: Percentage of Results from Investigative Activities (%) (Oe)
                                                            FY 2004         FY 2005          FY 2006        FY 2007          FY 2008
                                             Target            0              67                70             73               76
                                             Actual           64              82                79             81
                                        Target met?           Y                Y                Y              Y
 Definition: Investigative reports resulting in Criminal, Civil or Administrative adjudication or the identification of matters of
 security or investigative interest .
 Indicator Type: Measure
 Data Capture and Source: The total number of investigative cases closed along with the total number of completed Criminal, Civil
 and Administrative Actions is extracted from the Performance and Results Information System (PARIS) .
 Data Verification and Validation: Reports of Investigation and PARIS are reviewed for consistency by Special Agents in Charge
 prior to closing the investigation . Additionally, independent reviews are conducted periodically of each field office where samples
 of closed investigations are quality reviewed by the Operations Division Inspection Team to ensure accuracy of the PARIS data .
 Periodic tests of PARIS data are also conducted to ensure accuracy .
 Data Accuracy: Reasonable
 Data Frequency: Monthly
 Future Plans/Explanation for Shortfall: TIGTA OI will continue to measure performance consistent with fiscal year 2007 criteria .
 TIGTA OI increased its measure by 5 percent over fiscal year 2007 . TIGTA OI will monitor and evaluate fiscal year 2008 perfor­
 mance and may make adjustments if deemed appropriate . The fiscal year 2009 target will be determined based on evaluation of the
 fiscal year 2008 performance results .



 Measure: Audit Opinion Received on Government-wide Financial Statements (Oe)
                                                            FY 2004         FY 2005          FY 2006        FY 2007          FY 2008
                                             Target            1               1                1               1                1
                                             Actual          Met             Met               Met            Met*
                                        Target met?           Y                Y                Y              Y
 Definition: This is the independent audit opinion rendered on the financial statements by GAO . Treasury expects to receive a
 disclaimed audit opinion until fiscal year 2007 .
 Indicator Type: Measure
 Data Capture and Source: GAO is the statutorily prescribed auditor .
 Data Verification and Validation: Opinion is included in the published financial report and is also available directly from GAO .
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Domestic Finance plans to continue receiving audit opinions from GAO as it has since fiscal
 year 2002 .
 * Final data for this measure was not available at the time of publication . This data is an estimate .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
274                                                                         Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            Measure: Number of Completed Audit Products (Ot)
                                                                                     FY 2004          FY 2005          FY 2006          FY 2007           FY 2008
                                                                        Target          48               53               56               56               56
                                                                        Actual          49               54               57               64
                                                                   Target met?          Y                 Y               Y                Y
                            Definition: Audits, attestation engagements, and evaluations: (1)promote economy, efficiency, and effectiveness of Treasury pro­
                            grams and operations; (2)prevent and detect fraud, waste, and abuse in those programs and operations; (3)keep the Secretary and
                            the Congress fully informed; and (4)help the federal government to be accountable to the public .
                            Indicator Type: Measure
                            Data Capture and Source: OIG audits, attestation engagements, and evaluations result in sequentially numbered written products .
                            Data Verification and Validation: Official audit files support the performance data .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: OIG expects to complete 56 audit products in fiscal year 2008 and 60 in fiscal year 2009 .




                            Measure: Number of Investigations Referred for Criminal Prosecution, Civil Litigation or Corrective Administrative Action (Oe)
                                                                                     FY 2004          FY 2005          FY 2006          FY 2007           FY 2008
                                                                        Target          15               72               85              105               105
                                                                        Actual          23               85              144              188
                                                                   Target met?          Y                 Y               Y                Y
                            Definition: In order to protect the integrity and efficiency of Treasury programs it is important that findings of criminal or civil
                            misconduct be referred to the Justice Department, state and/or local governments for prosecution and litigation in a timely
                            manner . Criminal and civil convictions have a greater impact and carry a greater deterrent effect when they are prosecuted
                            expeditiously . Some investigations will identify violations of the Ethical Standards of conduct, Federal Acquisition Regulations,
                            or other administrative standards, which do not rise to the level of criminal or civil prosecution . In these cases it is important
                            that OIG findings are reported to the bureau or office in a timely manner to allow them to take administrative action against the
                            individuals engaging in misconduct .
                            Indicator Type: Measure
                            Data Capture and Source: This data will be retrieved from the Investigations case management systems .
                            Data Verification and Validation: All case files from fiscal year 2003 and fiscal year 2009 will be reviewed to ensure that the case
                            data is correct and supported by documentation .
                            Data Accuracy: Reasonable
                            Data Frequency: Quarterly
                            Future Plans/Explanation for Shortfall: Exceeded target significantly due to 64 one-time referrals for a GAO investigation into
                            Metro Check fraud, and 10 one-time referrals for a cyber initiative . Actual without the one-time referrals would have been 114,
                            which still exceeded target .




Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix A                                                                                                                                        275




 Measure: Number of Total Taxpayer Accounts Potentially Impacted as a Result of Audit Activities ($ millions) (Ot) [DISCONTINUED FY
 2007]
                                                            FY 2004        FY 2005           FY 2006       FY 2007         FY 2008
                                             Target          13 .4            13              14 .5    Discontinued     Discontinued
                                             Actual          49 .7            2 .8             1 .8           0
                                        Target met?            Y              N                 N           N/A
 Definition: This indicator measures the number of taxpaying entities that benefit from audit recommendations . The benefits
 include: insuring taxpayers receive refunds when warranted and are granted due process when the IRS conducts its return filing
 and compliance programs; decreasing the number, time or cost of contacts with the IRS by compliant taxpayers; increasing pro­
 tection of taxpayer account and financial information; and improving security over tax administration systems .
 Indicator Type: Measure
 Data Capture and Source: Data is entered into a centralized database and verified against draft and final report documents .
 Data Verification and Validation: Data on taxpaying entities impacted by protection of rights and entitlements, taxpayer burden,
 and improved privacy and security results from individual audits . All factual information in audit reports is supported by audit
 evidence . A qualified auditor independent of the review validates this data .
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: This measure is being discontinued in fiscal year 2007 .




                                                      Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
276                                                                    Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                                                       This page intentionally left blank


Full Report of the Treasury Department’s Fiscal Year 2007 Performance Measures by Focus and Strategic Goal
Part IV – Appendix B                                                                                                                      277




Appendix B:
Completeness and Reliability
of Performance Data

Treasury’s Commitment to Quality
Performance Measurement
Bureaus to rate the data for each performance measure as having:
   •	 Reasonable Accuracy: Judged to be sufficiently accurate for program management and performance
      reporting purposes (specified in OMB Circular A-11, Section 230-4(f )) .
   •	 Questionable or Unknown Accuracy: Judged to be materially inadequate (specified in OMB Circular
      A-11, Section 230-4(f ) as “materially inadequate”) .
   •	 Where statistical confidence intervals are available, these are provided instead of the rating statements .
      More verification efforts were added in fiscal year 2001 – fiscal year 2003, when bureaus were required
      to address any data reliability issues regarding their performance measures in the Assurance Statements
      required by the Federal Managers’ Financial Integrity Act (FMFIA) and the Federal Financial
      Management Improvement Act (FFMIA) .

Procedures for Conducting Review of the Department’s Performance Measure Data
The Department of the Treasury’s Office of Strategic Planning and Performance Management (OSPPM) pre­
pares the annual report on performance measures, and monitors component-submitted performance infor­
mation and data . Based on an audit finding in fiscal year 2006, it was determined that improvements to the
internal control process for performance measures were needed . Improvements to the process included:
   •	 All measures will now be categorized by audit priority as high, medium, or low, based on the 

      relationship to achieving the Department’s goals

   •	 A representative sample of measures are selected every fiscal quarter
   •	 Supporting documentation from that sample is reviewed for accuracy and completeness
   •	 All measure calculations are verified and data sources validated
   •	 Information related to the measure audit is maintained in hard-copy form and can be reviewed at any
      time
As a result, performing this process will uncover any potential data or calculation error and will provide
additional assurances on the integrity of the information and data presented in the annual performance and
accountability report .




                                                                                              Completeness and Reliability of Performance Data
278                                                                     Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Completeness of Data
                         Not Available: 	 The following performance measures did not have any data available for this Report, but
                                          will have final numbers presented in the fiscal year 2008 Congressional Justification for
                                          Appropriations:

                                Bureau     Performance Measure



                         Discontinued: The following performance measures were discontinued in Fiscal Year 2007 and will not have
                                       data available for this Report:

                                Bureau     Performance Measure
                                    DO     Level of MDB grant financing and satisfactory results measurements (AfDB/AfDF Grants)
                                    DO     Level of MDB grant financing and satisfactory results measurements (Grants as a percent of IDA fiscal year
                                           commitment)
                                    DO     Level of MDB grant financing and satisfactory results measurements (Grants as a percent of AfDF fiscal year
                                           commitment)
                                    DO     Encourage movement towards flexible exchange rate regimes
                                    DO     Bureau performance plans for supervisors, managers, and SES members contain elements that link to the bureau
                                           mission
                                    IRS    Average tax compliance cost for individuals and small businesses
                                 FinCEN    Percentage of customers finding FinCEN’s analytic support valuable
                                  TIGTA    Number of total taxpayer accounts potentially impacted as a result of audit activities


                         Baseline: The following measures established baseline values and targets in fiscal year 2007 .

                                Bureau     Performance Measure
                                   TTB     Unit cost to process a Wine Certificate of Label Approved
                                 FinCEN    Percentage of bank examinations conducted by the Federal Banking Agencies indicating a systemic failure of the
                                           anti-money laundering program rule
                                 FinCEN    Percentage of customers finding FinCEN’s analytic reports highly valuable
                                    IRS    HCTC Cost per Taxpayer Served
                                  TIGTA    Percentage of audit products delivered when promised to stakeholders
                                  TIGTA    Percentage of recommendations made that have been implemented


                         Data Reliability: Performance data presented in this report meets the standards for reliability set forth in
                                         OMB Circular A-11, Section 230-5(f ) . There is neither a refusal nor a marked reluctance
                                         by agency managers or Government decision makers to use the data in carrying out their
                                         responsibilities .




Completeness and Reliability of Performance Data
Part IV – Appendix C                                                                                                                       279




Appendix C:

Improper Payments Information Act



The Improper Payments Information Act of 2002 (IPIA) requires agencies to annually review their programs
and activities to identify those susceptible to significant improper payments . According to OMB Circular
A-123, Appendix C, Requirements for Effective Measurement and Remediation of Improper Payments
(A-123, Appendix C), “significant” means that an estimated error rate and a dollar amount exceed the
threshold of 2 .5% and $10 million of total program funding . A-123, Appendix C also requires the agency
to implement a corrective action plan that includes improper payment reduction and recovery targets .

Some federal programs are so complex that developing an annual error rate is not feasible . The government-
wide Chief Financial Officers Council developed an alternative for such programs to assist them in meeting
the IPIA requirements . Agencies may establish an annual estimate for a high-risk component of a complex
program (e .g ., a specific program population) with Office of Management and Budget (OMB) approval .
Agencies must also perform trend analyses to update the program’s baseline error rate in the interim years
between detailed program studies . When development of a statistically valid error rate is possible, the reduc­
tion targets are revised and become the basis for future trend analyses .

I. 	 Description of the Department’s risk assessment(s) performed subsequent to compiling its full
     program inventory and risk-susceptible programs.

Each year, a comprehensive inventory of the funding sources for all programs and activities is developed and
distributed to the Department’s bureaus and offices . If program or activity funding is at least $10 million,
Risk Assessments are required at the payment type level (e .g ., payroll, contracts, vendors, travel, etc .) . For
those payment types resulting in high risk assessments that comprise at least 2 .5 percent and $10 million of
a total funding source, (1) statistical sampling must be performed to determine the actual improper payment
rate, and (2) a Corrective Action Plan must be developed and submitted to the Department and OMB for
approval .

Responses to the Risk Assessments produce a score that falls into pre-determined categories of risk . The fol­
lowing table describes the actions required to be taken at each risk level:

 Risk Level                                                Required Action(s)
 High Risk > 2 .5% Error Rate & > $10 Million              Corrective Action Plan
 Medium Risk                                               Review Payment Controls for Improvement
 Low Risk                                                  No Further Action Required

The Risk Assessments performed across the Department in FY 2007 resulted in all programs and activities
as low and medium risk susceptibility for improper payments except for the Internal Revenue’s (IRS) Earned
Income Tax Credit (EITC) program . The EITC’s high-risk status is well-documented, having been previ­
ously identified in the former Section 57 of OMB Circular A-11, and has been deemed a complex program
for the purposes of the IPIA .




                                                                                             Improper Payments Information Act and Recovery Act
280                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         II.	 Describe the statistical sampling process conducted to estimate the improper payment rate for
                              each program identified.


                         Earned Income Tax Credit
                         The Earned Income Tax Credit (EITC) is a refundable federal tax credit that offsets income taxes owed by
                         low income workers and, if the credit exceeds the amount of taxes owed, provides a lump-sum payment to
                         those who qualify .

                         Discussions between the Department, the IRS, and OMB did not result in identification of a viable error
                         rate measurement, however, IRS plans to conduct an annual EITC compliance study, as a component of
                         the multi-year National Research Program (NRP) . Meanwhile, progress is being made on the action items
                         included in the Corrective Action Plan .

                         The rest of this section explains how the IRS currently develops its erroneous payment projections . The
                         most recent projection is based on a Tax Year (TY) 2001 reporting compliance study that estimated the level
                         of improper overclaims for fiscal year 2007 to range between $10 .4 - $12 .3 billion and 23 percent (lower
                         bound) to 28 percent (upper bound) of approximately $44 .5 billion in total program payments .


                         National Research Program (NRP) Analysis
                         The complexity of the EITC program, the nature of tax processing, and the expense of compliance studies
                         preclude statistical sampling on an annual basis to develop error rates for comparison to reduction targets .

                         Under the TY 2001 NRP reporting compliance study, individual income tax returns filed during calendar
                         year 2002 for TY 2001 were randomly selected for examination .1 This selection method allows the measures
                         for the entire NRP individual income tax return population to be estimated from the results of the NRP pro­
                         gram sample returns . Because one of the objectives of the NRP is to provide data for compliance measure­
                         ment, NRP procedures and data collection differed from those followed in standard examination programs .
                         NRP classification and examination procedures were more comprehensive in scope and depth than those for
                         standard examination programs . These expanded procedures were designed to provide a very accurate deter­
                         mination of what taxpayers should have reported on their returns .

                         Estimates of various compliance measures for individual income taxpayers can be calculated by comparing
                         the NRP sample case results—the estimate of what taxpayers should have reported on their returns—to what
                         these taxpayers voluntarily reported on their returns and then projecting the sample results to the population .
                         The projection to the population is done using weights assigned to each return . These weights reflect the
                         number of returns in the population that the sample return represents .

                         The TY 2001 NRP individual income tax return study covered filers of individual income tax returns .
                         About 6,400 of the approximately 44,400 returns in the regular NRP sample were EITC claimants . About
                         1,600 other returns (the “calibration sample”) were included in the TY 2001 NRP Individual Income Tax
                         Study . These returns went through a somewhat different examination process and they were not used for


                           1 The NRP used a stratified, random sample design . Returns are grouped into predefined categories or “strata” and selected randomly
                             within each stratum .




Improper Payments Information Act and Recovery Act
Part IV – Appendix C                                                                                                                    281




these calculations . The NRP study results for this EITC claimant subset of NRP returns were the primary
source of data for the improper payments estimates . Other data and information sources used for the
estimates included IRS Enforcement Revenue Information System (ERIS) data (which tracks assessments
and collections from IRS enforcement-related activities), Treasury Department estimates of the effect of the
EITC provisions in the Economic Growth and Tax Relief Reconciliation Act of 2001 (EGTRRA) on errone­
ous EITC claims, and Treasury Department fiscal year 2006 EITC budget estimates .

The general approach for developing the fiscal year 2007 set of EITC improper payments estimates involved
the following steps: (1) estimating an improper payment rate for TY 2001 using the NRP data, (2) adjusting
the TY 2001 rate to reflect the estimated impact of the EITC-related EGTRRA provisions, (3) estimating
EITC claims for fiscal year 2002 - fiscal year 2007 by projecting TY 2001 claims forward using the growth
rates implicit in Treasury Department budget outlay estimates, and (4) multiplying the adjusted improper
payment rate by the estimated claims to calculate estimated improper payments for each fiscal year .

The Department estimates that as a component of the upcoming NRP analysis, the next EITC compliance
study will be completed in fiscal year 2009 .

III. Describe the Corrective Action Plans for reducing the estimated rate of improper payments for
     the EITC program.

The IRS uses a two-pronged approach to reduce erroneous EITC payments:
    1 . 	Continually seek opportunities to increase program efficiency within existing resources – in other
         words, make the base program better; and
    2 . 	Test potential business process enhancements to reduce error and then request implementation fund­
         ing if the tests prove successful .


Base Program
In 2007, the IRS spent approximately $161 million to prevent more than $2 .6 billion from being paid in
error . Three areas of activity compose the bulk of this spending:
   •	 Examinations – the IRS identifies tax returns for examination and holds the EITC portion of the
      refund until an audit can be conducted . This is the only ongoing IRS audit program where exams are
      conducted before a refund is released . The examination closures and enforcement revenue protected in
      the charts below do not include test initiatives .
   •	 Math Error – this refers to an automated process in which IRS identifies math or other statistical
      irregularities and automatically prepares an adjusted return for a taxpayer . Congressional approval is
      required for math error use .
   •	 Document Matching – involves comparing income information provided by the taxpayer with

      matching information (e .g ., W-2s, 1099s) from employers to identify discrepancies .





                                                                                          Improper Payments Information Act and Recovery Act
282                                                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         The chart below shows significant results from fiscal year 2002 through fiscal year 2007 . In fiscal year 2007
                         alone, the IRS conducted 499,881 examinations, issued 400,000 math error notices, and closed 394,217
                         document matching reviews .

                           Compliance Activities
                           (thousands)
                                                                                                                                                                    FY02-FY08
                                                          FY02            FY03*            FY04*        FY05*        FY06*        FY07**             FY08***          Total
                                   Examinations        373,508          422,033           472,022     527,969       517,617      499,881             500,000        3,313,030
                           Math Error Notices**        993,387          699,277           624,590     515,890       460,316      400,000             400,000        4,093,460
                            Document Matching                                             300,000     324,419       364,020      394,217             390,000        1,772,656
                              *Restated actual
                              **Preliminary estimates
                              ***Estimate based on fiscal year 07 preliminary data


                         These activities had a significant effect . We project that continued enforcement efforts will protect a total of
                         $15 .25 billion in revenue through fiscal year 2008 .

                           Enforcement Revenue Protected
                           ($ billions)
                                                                                                                                                                     FY02-FY08
                                                           FY02            FY03*            FY04*           FY05*      FY06*        FY07**            FY08***          Total
                                     Examinations          0 .95            1 .00           1 .12           1 .35      1 .50         1 .50             1 .50            8 .92
                            Math Error Notices**           0 .42            0 .65           0 .62           0 .52      0 .46         0 .41             0 .41            3 .49
                              Document Matching                                             0 .25           0 .53      0 .60         0 .73             0 .73            2 .84
                                             TOTAL         1 .37            1 .65           1 .99           2 .40      2 .56         2 .64             2 .64           15 .25
                           *Restated actual
                           **Preliminary estimates
                           ***Estimate based on fiscal year 07 preliminary data



                         Business Process Enhancements
                         In 2003 and 2004, the IRS received a total of $75 million to fund a number of EITC business process
                         improvement initiatives . These initiatives, referred to as the “Investment Portfolio,” included the use of
                         private sector solutions to better identify egregious cases, apply appropriate collection methods, assign and
                         manage case inventory more efficiently, catch problems with amended returns, improve communications
                         with taxpayers, better focus on under-reported income, and explore use of new notices to improve taxpayer
                         response . The entire initiative process was managed using a project management governance structure
                         known as the Enterprise Life Cycle which, among other requirements, includes a business case analysis to jus­
                         tify investment choices . It was conceived, designed, and implemented in three separate releases over a three
                         year period . Here are the estimated benefits of the EITC Investment Portfolio . These estimates represent the
                         low end of the range of estimates of revenue protected from the EITC Investment Portfolio:

                           Enforcement Revenue Protected ($ billions)
                                                                                  FY05              FY06               FY07                  FY08               FY02-FY08 Total
                                              Investment Portfolio                0 .06             0 .06              0 .06                 0 .06                   0 .24




Improper Payments Information Act and Recovery Act
Part IV – Appendix C                                                                                                                                                                                                   283




Testing New Business Processes
In addition to building new solutions for existing business processes, the IRS is developing options for
certain EITC taxpayers to certify they meet a key eligibility requirement before receiving the credit . This
analysis is scheduled to be completed in fiscal year 2008 . This process could potentially affect a significant
portion of EITC taxpayers and is the subject of careful evaluation . If the IRS concludes the process should
be implemented, it will request additional funding to expand the scope of its existing EITC activities .

Finally, the IRS has a number of other activities it is using to combat program error . This past year saw the
second year of a study to address egregious EITC return preparers . In addition, the IRS is partnering with
two states to share information to prevent erroneous payments . The IRS has developed new strategies to
prevent duplicate claims of qualifying children and annual enterprise research strategy in partnership with
internal and external organizations to better focus EITC compliance and outreach activities . The research
strategy includes a multi-dimensional database that tracks behavioral patterns of EITC claimants and qualify­
ing children over a period of years .

IV. EITC Improper Payment Reduction Outlook

The reduction outlook for EITC improper payments is as follows:

 Improper Payment Reduction Outlook
 ($ in millions)
                                                                                   CY+1 Est Outlays




                                                                                                                               CY+2 Est Outlays




                                                                                                                                                                           CY+3 Est Outlays
                 PY Outlays




                                                 CY Outlays




                                                                                                       CY+1 IP%




                                                                                                                                                   CY+2 IP%




                                                                                                                                                                                               CY+3 IP%
                                                                                                                    CY+1 IP$




                                                                                                                                                                CY+2 IP$




                                                                                                                                                                                                            CY+3 IP$
     Program




                                                               CY IP%


                                                                          CY IP$
                               PY %


                                        PY $




     EITC
    Upper
               $42 .1         28%     $11 .6 $44 .5           28%       $12 .3 $46 .2                 28%         $12 .8 $47 .1                   28%         $13 .0 $48 .1                   28%         $13 .3
   Bound
 Estimate
     EITC      $42 .1         23%     $9 .8    $44 .5         23%       $10 .4 $46 .2                 23%         $10 .8 $47 .1                   23%         $11 .0 $48 .1                   23%         $11 .2
    Lower
   Bound
 Estimate
 Outlays: Following prior methodology, the amount shown is the total EITC claimed .
 IP % and IP $: These estimates follow the prior approach which provided a range for improper payments .
 Note: The Improper Payment percentage and Estimated Outlay columns reflect a constant error rate pending the development of an annual error rate
    measurement .
 CY: Current year; PY: Prior year



Recovery Act
V. The Department’s Recovery Auditing Program

Section 831 of the Defense Authorization Act for Fiscal Year 2002 added a new subchapter to the U .S . Code
(31 U .S .C 3561-3567), also known as the Recovery Auditing Act, that requires agencies that enter into con­
tracts with a total value in excess of $500,000,000 in a fiscal year carry out a cost-effective program for iden­
tifying errors made in paying contractors and for recovering amounts erroneously paid to the contractors .
A required element of such a program is the use of recovery audits and recovery activities . In accordance



                                                                                                                                                                     Improper Payments Information Act and Recovery Act
284                                                                                                     Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         with Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility for Internal
                         Control, Appendix C, reporting on recovery auditing is required annually .

                         In fiscal year 2007, the Department issued contracts totaling $5 .1 billion . The annual Improper Payments
                         Information Act Risk Assessment process includes a review of pre-payment controls that minimize the likeli­
                         hood and occurrence of improper payments . For Recovery Act compliance, Treasury requires each bureau
                         and office to review their post-payment controls and report on recovery auditing activities, contracts issued,
                         improper payments made, and recoveries achieved . Bureaus and offices may use recovery auditing firms to
                         perform many of the steps in their recovery program and identify candidates for recovery action .

                         The Department considers both pre-payment and post-payment reviews to identify payment errors a good
                         management practice that should be included among basic payment controls . All of the Department’s
                         bureaus use some form of recovery auditing techniques to identify improper payments during post-payment
                         reviews . At times, bureaus may use the services of recovery auditors to help them identify payment anoma­
                         lies and target areas for improvement . However, the Department has extensive contract payment controls
                         that are applied at the time each payment is processed, making recovery activity minimal . The low level of
                         improper payments in 2007 did not require any Treasury bureau to develop a management improvement
                         program under Recovery Act guidance .
                                                Review for CY Reporting




                                                                                Reviewed and Reported




                                                                                                                                            Amounts Recovered CY




                                                                                                                                                                                                       Amounts Recovered PY



                                                                                                                                                                                                                                Identified for Recovery
                                                                                                              Amounts Identified for




                                                                                                                                                                       Amounts Identified for




                                                                                                                                                                                                                                                              Recovered (CY+PYs)
                                                Amount Subject to




                                                                                                                                                                                                                                Cumulative Amts.




                                                                                                                                                                                                                                                              Cumulative Amts.
                                                                                Actual Amount




                                                                                                                                                                       Recovery PYs
                                                                                                              Recovery CY




                                                                                                                                                                                                                                (CY+PYs)
                               Agency




                                                                                CY




                           Treasury     $5,165,142,777                    $4,446,856,805                  $843,230                     $821,667                    $2,305,424                   $1,442,708                    $3,148,654                  $2,264,375



                         For FY 2007, the total number of contracts subject to review was 41,593; the total number reviewed was
                         28,756, for a total program cost of approximately $2 .9 million dollars .


                         VI. Management Accountability

                         The Secretary of the Treasury has delegated responsibility for improper payments to the Assistant Secretary
                         for Management/Chief Financial Officer (ASM/CFO) . Improper payments falls under the Department’s
                         management control program . A component of the management control program is risk assessments, which
                         are an extension of each bureau’s annual improper payment review process . Through Treasury Directive
                         40-04, executives and other managers are required to have management control responsibilities as part of
                         their annual performance plans . With oversight mechanisms such as the Treasury CFO Council and IRS’s
                         Financial and Management Control, Executive Steering Committee, managerial responsibility and account­
                         ability in all management control areas are visible and well documented .

                         Improper payments are a separate initiative under the President’s Management Agenda and have been moni­
                         tored for improvement as a material weakness under the Federal Managers’ Financial Integrity Act . Managers
                         who are responsible and accountable for reducing the level of EITC overclaims have been identified, while




Improper Payments Information Act and Recovery Act
Part IV – Appendix C                                                                                                                       285




other senior and mid-level officials have responsibility for monitoring progress in this area as bureau and
program internal control officers .


VII.     Resources Requested in the FY 2008 Budget Submission to Congress

Several new initiatives were requested in the IRS fiscal year 2008 President’s Budget submission which relate
to the enforcement of tax laws . However, the only initiative approved in the President’s Budget, Increase
Individual Taxpayer Compliance, addressed reducing the tax gap and non-EITC audit coverage .


VIII.    Limiting Statutory and Regulatory Barriers

A number of factors serve as barriers to reducing overclaims in the EITC program . These include:
   •	 The complexity of the tax law
   •	 The structure of the Earned Income Tax Credit
   •	 Confusion among eligible claimants
   •	 High program turnover
   •	 Unscrupulous return preparers
   • Fraud
No one of these factors can be considered the primary driver of program error . Furthermore, the interaction
among the factors makes addressing the credit’s erroneous claims rate, while balancing the need to ensure the
credit makes its way to taxpayers who are eligible, extremely difficult .


IX. Other Factors

Since June 2003, the IRS has focused on reducing erroneous EITC overclaims by implementing a five-point
initiative that serves to:
   •	 Reduce the backlog of pending EITC examinations to ensure that eligible taxpayers whose returns are
      being examined receive their refunds quickly .
   •	 Minimize the burden and enhance the quality of communications with taxpayers by improving the
      existing audit process .
   •	 Encourage eligible taxpayers to claim the EITC by increasing outreach efforts and making the 

      requirements for claiming the credit easier to understand .

   •	 Ensure fairness by refocusing compliance efforts on taxpayers who claimed the credit but were ineligible
      because their income was too high .
   •	 Pilot a certification effort to substantiate qualifying child residency eligibility for claimants whose
      returns are associated with a high risk for error .

As part of this initiative, in fiscal year 2005, the IRS completed the following tests designed to evaluate new
ways of reducing erroneous EITC payments while maintaining participation by eligible taxpayers:




                                                                                             Improper Payments Information Act and Recovery Act
286                                                               Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                            •	 Filing Status Test: Reviewed filing status claims to ensure they were correct . IRS selected claimants
                               whose filing status had changed to one that increased the value of the credit (generally, from married
                               filing joint to head of household);
                            •	 Misreporting Income (Automated Underreporter) Test: Enhanced error detection through the
                               automated underreporter program . This test focused not on the number of cases IRS reviewed, but on
                               improved selection methodologies .

                         In FY 2006, IRS initiated the final year of the Qualifying Child test, which required EITC claimants to cer­
                         tify that they met the qualifying child residency requirement before paying out the refund . In FY 2007, the
                         test focused on improved selection methodology . Preliminary data from this test indicate both a compliance
                         and deterrence impact .

                         Careful analysis of the final results of these tests will be imperative to assessing their effectiveness in reducing
                         erroneous EITC overclaims while maintaining high participation rates by eligible taxpayers .




Improper Payments Information Act and Recovery Act
Part IV – Appendix D                                                                                                                287




Appendix D:

Management Challenges and Responses



Each year, the Inspectors General issue Semiannual Reports to Congress that include specific management
challenges facing the Department . These challenges are sent to the Secretary at the end of each fiscal year
and cite the challenges for the upcoming fiscal year .

The letters sent to the Secretary and the Secretary’s responses are reflected on the following pages for each
respective Inspector General .




                                                                                                     Management Challenges and Responses
288                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                      This page intentionally left blank


Management Challenges and Responses
Part IV – Appendix D                                                                                                               289




                                                      October 24, 2007




INFORMATION MEMORANDUM FOR SECRETARY PAULSON



FROM:	       Dennis S . Schindel
             Acting Inspector General

SUBJECT:	 Management and Performance Challenges Facing the
          Department of the Treasury (OIG-CA-08-005)


The Reports Consolidation Act of 2000 requires that we provide you with our perspective on the most seri­
ous management and performance challenges facing the Department of the Treasury, for inclusion in the
Department’s annual performance and accountability report . We believe it is important to note that manage­
ment and performance challenges do not necessarily represent a deficiency in management or performance .
Instead, most of them represent inherent risks associated with Treasury’s mission, organizational structure, or
the environment in which it operates . As a result, the Department can take steps to mitigate these challenges
but not entirely eliminate them; as such, they require constant management attention .

This year, we continue to report the same five challenges we reported last year: (1) Corporate Management,
(2) Management of Capital Investments, (3) Information Security, (4) Linking Resources to Results, and (5)
Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement . In addition to these five
management and performance challenges, we want to bring to your attention two additional areas that are
of increasing concern to our office . These areas are: the potential impact of worsening real estate and credit
markets on Treasury’s regulators, and the effect of stagnant or reduced budgets on the Department’s control
environment . While we have not specifically declared these areas as management and performance chal­
lenges, we continue to monitor their impact on the Department’s programs and operations .

    Challenge 1 – Corporate Management

    Starting in 2004, we identified corporate management as an overarching management challenge . In
    short, Treasury needs to provide effective corporate leadership in order to improve performance as a
    whole . Inherent in this is the need for clear lines of accountability between corporate, bureau, and
    program office management; enterprise solutions for core business activities; consistent application of
    accounting principles; and effective oversight of capital investments and information security . With nine
    bureaus and a number of program offices, Treasury is a highly decentralized organization . We believe
    the Department has made progress in building up a sustainable corporate control structure . The chal­
    lenge now is to maintain emphasis on corporate governance and institutionalize these efforts to ensure
    that capital investments are properly managed, information about government operations and citizens is
    adequately secured, and financial resources used by Treasury can be linked to operational results . These
    matters are discussed in more detail in the following challenges .




                                                                                                    Management Challenges and Responses
290                                                           Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           Challenge 2 – Management of Capital Investments

                           Managing large capital investments, particularly information technology (IT) investments, is a dif­
                           ficult challenge facing any organization whether in the public or private sector . In prior years we have
                           reported on a number of capital investment projects that either failed or had serious problems . In
                           light of this, with hundreds of millions of procurement dollars at risk, Treasury needs to be vigilant in
                           this area as it proceeds with its telecommunications transition to TNet, implementation of Homeland
                           Security Presidential Directive – 12, Policy for a Common Identification Standard for Federal Employees
                           and Contractor, the anticipated renovation of the Treasury Annex, and other large capital investments .

                           During the last year, the Secretary and Deputy Secretary continued to emphasize that effective man­
                           agement of major IT investments is the responsibility of all Treasury executives . Additionally, the
                           Department significantly increased the number of IT investments that are monitored through the Office
                           of Management and Budget (OMB) quarterly high-risk reporting process . The Department also plans
                           to reinstitute a governance board consisting of senior management officials to provide executive decision-
                           making on, and oversight of, IT investment planning and management and to ensure compliance with
                           the related statutory and regulatory requirements .

                           Challenge 3 – Information Security

                           Despite notable accomplishments, the Department needs to improve its information security program
                           and practices to achieve compliance with the Federal Information Security Management Act of 2002
                           (FISMA) and OMB requirements . Our 2007 FISMA evaluation found that the Department made
                           progress in addressing previously reported deficiencies in the areas of certification and accreditation,
                           information security training, plans of actions and milestones, system inventory, and incident response .
                           However, our evaluation disclosed a significant deficiency in configuration management . Specifically, we
                           noted that Treasury did not have adequate configuration management to provide the security necessary
                           to protect against common and dangerous threats .

                           During 2006, OMB issued Memorandum 06-16, Protection of Sensitive Agency Information (M 06-16),
                           requiring agencies to perform specific actions to protect certain personally identifiable information . Last
                           year, we reported that our evaluation of Treasury’s compliance with M 06 16 disclosed that Treasury
                           still faced significant challenges to meet these requirements . We will be performing follow-up work
                           to determine if Treasury has progressed in resolving these issues . However, as a significant action, the
                           Department recently established the Personally Identifiable Information Risk Management Group
                           (PIIRMG) consisting of senior management officials . The purpose of this group is to help manage and
                           contain breaches of personally identifiable information . Our office, along with the Treasury Inspector
                           General for Tax Administration, participates in the PIIRMG in an advisory role .

                           Challenge 4 – Linking Resources to Results

                           Because the Department has not fully developed and incorporated managerial cost accounting (MCA)
                           into its business activities, the Department cannot adequately link financial resources to operating
                           results . This inhibits comprehensive program performance reporting and meaningful cost benefit analy­
                           ses of the Department’s programs and operations .




Management Challenges and Responses
Part IV – Appendix D                                                                                                                 291




   We have noted progress in this area, but more needs to be accomplished to implement an effective MCA
   program Treasury-wide . In 2006, we reported that the Department developed a high-level MCA imple­
   mentation plan, but specific action items were not completed and certain target dates were missed . This
   year, Treasury established a Chief Financial Officer (CFO) Council workgroup to address MCA require­
   ments . This workgroup is comprised of representatives from all of the Treasury offices and bureaus and
   is led by the Deputy CFO . We are also participating with the workgroup in an advisory capacity . The
   workgroup (1) developed a charter that was approved by the Treasury CFO Council, (2) surveyed cur­
   rent bureau MCA practices, (3) summarized bureau cost allocation methodologies for major expenses,
   and (4) defined organizational MCA needs . The Department expects to have a viable MCA program in
   place in Fiscal Year 2008 . At that time, we plan to assess Treasury’s progress in relation to this challenge .

   Challenge 5 – Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement

   Treasury faces unique challenges in carrying out its responsibilities under the Bank Secrecy Act (BSA)
   and USA Patriot Act to prevent and detect money laundering and terrorist financing . While the
   Financial Crimes Enforcement Network (FinCEN) is the Treasury bureau responsible for administer­
   ing BSA, a large number of federal and State entities participate in efforts to ensure compliance with
   BSA . These entities include the five federal banking regulators, the Internal Revenue Service (IRS), the
   Securities and Exchange Commission, the Department of Justice, and state regulators . Many of these
   entities also participate in efforts to ensure compliance with U .S . foreign sanction programs administered
   by Treasury’s Office of Foreign Assets Control (OFAC) .

   The dynamics and challenges for Treasury of coordinating the efforts of multiple entities, many external
   to Treasury, are difficult . In this regard, FinCEN and OFAC have entered into memoranda of under­
   standing (MOU) with many federal and State regulators in an attempt to build a consistent and effective
   process . Long-term data, however, is not yet available to make an overall determination of the effective­
   ness of the MOUs .

   Recently, federal regulators and the Department of Justice have participated with FinCEN in assess­
   ing fines, often in the tens of millions of dollars, against financial institutions which have not been
   maintaining effective BSA compliance programs . While this is a sign that regulators are more willing
   to aggressively enforce BSA requirements, it is also a sign that not all financial institutions, despite years
   of warnings, have implemented effective or adequate programs . At the same time, the financial services
   industry has often complained about regulatory burden . To this end, Treasury has taken steps to clarify
   program and reporting requirements, and must continually monitor and balance the needs of law
   enforcement with these concerns .

   In Fiscal Year 2006, the number of BSA reports filed increased to 17 .6 million, from 15 .6 million in
   Fiscal Year 2005 . Although these reports are critical to law enforcement, past audits have shown that
   many contain incomplete or erroneous data . Also, the Patriot Act increased the types of financial
   institutions required to file these reports . The regulation of certain industries, such as casinos, insurance
   companies, jewelers, and money service businesses, is the responsibility of IRS as a default regulator . IRS
   has often struggled to conduct examinations of many of these entities and recently postponed examina­
   tions of jewelers, which were supposed to start in January 2006, until at least Fiscal Year 2008 .




                                                                                                      Management Challenges and Responses
292                                                              Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                              Given the criticality of this management challenge to the Department’s mission, we will continue to
                              devote a significant portion of our audit resources to this challenge . Last year we reported that we
                              planned to review the effectiveness of (1) FinCEN’s Office of Compliance, and (2) the MOUs that have
                              been established . Due to resource constraints and other required work, we have yet to initiate these
                              reviews but hope to do so during Fiscal Year 2008 .

                       In addition to these five management challenges, we want to bring to your attention two areas that are of
                       increasing concern . As mentioned at the beginning of this memorandum, while we have not declared these
                       areas as management challenges, we continue to monitor their impact on the Department’s programs and
                       operations .

                              •   Recently, conditions in the real estate market have worsened. At the same time, credit markets are
                                  being impacted by problems associated with subprime loans . Together, these events are putting
                                  pressure on financial institutions, including those supervised by the Office of the Comptroller
                                  of the Currency and the Office of Thrift Supervision (OTS) . For example, in September the
                                  OTS-supervised NetBank failed, representing the largest financial institution failure since 2001 .
                                  Accordingly, Treasury needs to ensure it has the capability to monitor and take prompt action to
                                  address potential problems at other institutions should economic conditions worsen .

                              •   Many Federal agencies, including Treasury, are facing an increasingly difficult budget environment.
                                  In these situations agencies tend to rely on attrition and hiring freezes to address budget shortfalls .
                                  While in the short term this strategy may work, longer term it often leads to a less than optimal
                                  mix of positions and skills, ultimately impacting an agency’s ability to meet its mission for many
                                  years . Additionally, agencies tend to cut certain operations that are viewed as non-mission related,
                                  particularly those involved in review and monitoring functions, including contractor oversight –
                                  fundamental elements of a strong control environment . Over time, such actions could lead to the
                                  deterioration of the control environment and compromise both the effectiveness and integrity of
                                  programs and operations .

                       We would be pleased to discuss our views on these management and performance challenges in more detail .

                       cc:	           Peter B . McCarthy, Assistant Secretary for Management
                                      and Chief Financial Officer




Management Challenges and Responses
Part IV – Appendix D                                  293




                       Management Challenges and Responses
294                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




Management Challenges and Responses
Part IV – Appendix D                                  295




                       Management Challenges and Responses
296                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




Management Challenges and Responses
Part IV – Appendix D                                  297




                       Management Challenges and Responses
298                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




Management Challenges and Responses
Part IV – Appendix D                                                                                                                299




                                                       October 29, 2007




MEMORANDUM FOR SECRETARY PAULSON


FROM:	          J . Russell George
                Inspector General


SUBJECT:	 Management and Performance Challenges Facing the Internal
          Revenue Service for Fiscal Year 2008


The Reports Consolidation Act of 20001 requires that the Treasury Inspector General for Tax Administration
(TIGTA) summarize, for inclusion in the Department of the Treasury Accountability Report for Fiscal Year
2007, its perspective of the most serious management and performance challenges confronting the Internal
Revenue Service (IRS or Service) . The top 10 challenges in order of priority are:
    1 . Modernization;
    2 . Tax Compliance Initiatives;
    3 . Security;
    4 . Providing Quality Taxpayer Service Operations;
    5 . Complexity of the Tax Law;
    6 . Human Capital;
    7 . Erroneous and Improper Payments;
    8 . Taxpayer Protection and Rights;
    9 . Processing Returns and Implementing Tax Law Changes During the Tax Filing Season; and
    10 . Using Performance and Financial Information for Program and Budget Decisions .

TIGTA’s assessment of the major IRS management challenge areas for Fiscal Year 2008 has not changed
substantially from the prior year . While the IRS has continued to address each challenge area, TIGTA was
unable to remove any challenge areas at this time . However, TIGTA did make one important change to the
priority of the challenges . Human Capital moved from last place to sixth in terms of importance in our view
and Using Performance and Financial Information for Program and Budget Decisions moved from sixth
place to tenth .

One reason for this change is last year, the Office of Personnel Management reported that approximately
60 percent of the Federal Government’s 1 .6 million white-collar employees and 90 percent of about 6,000
Federal executives will be eligible for retirement over the next 10 years . Along with a retiring workforce, the
IRS faces gaps in talent because of changes in the knowledge, skills, and competencies in occupations needed
to meet its mission . The IRS needs to strengthen its efforts and use of available flexibilities to acquire,


 1 31 U .S .C . § 3516(d) (2000) .




                                                                                                     Management Challenges and Responses
300                                                                    Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                       develop, motivate, and retain talent . Strategic human capital management must be the centerpiece of the
                       IRS’s change management strategy .

                       The following is a discussion of each of the challenges:

                       Modernization of the Internal Revenue Service
                       The Business Systems Modernization (Modernization) program is a complex effort to modernize IRS tech­
                       nology and related business processes . It involves integrating thousands of hardware and software compo­
                       nents while replacing outdated technology and maintaining the current tax system .

                       The Modernization program is in its ninth year and has received approximately $2 .3 billion for contrac­
                       tor services . Additionally, the IRS had spent $220 million through Fiscal Year 2006 and planned to
                       spend an additional $45 million in Fiscal Year 2007 to manage the Modernization program . According
                       to the IRS’s original plan, the Modernization program should be near the halfway point in Calendar Year
                       2007 . However, due to receiving less funding than initially anticipated and having difficulties in managing
                       contractor work, the IRS has not completed as many Modernization projects as planned . For example,
                       the Customer Account Data Engine is the foundation of the Modernization program . The IRS originally
                       planned to complete replacement of its Individual Master File with the Customer Account Data Engine in
                       2005 .2 The current estimated completion date for this replacement is 2012 .

                       Although the IRS has made advances in its Modernization effort, it has not maintained anticipated progress .
                       TIGTA has previously reported that inconsistent compliance with project development controls has contrib­
                       uted to delays in project deliveries, increased development costs, and reduced capabilities .3 Since Fiscal Year
                       2002, TIGTA’s Modernization program annual assessments have cited the following four specific challenges
                       the IRS needs to overcome to deliver a successful modernization effort:
                           1 . 	 Implement planned improvements in key management processes and commit necessary resources to
                                 enable success;
                           2 . 	 Manage the increasing complexity and risks of the Modernization program;
                           3 . 	 Maintain the continuity and strategic direction with experienced leadership; and
                           4 . 	 Ensure that contractor performance and accountability are effectively managed .

                       These challenges continue to exist .

                       Accordingly, since solutions to the IRS’s serious and intractable financial management problems largely
                       depend upon the success of the IRS’s Modernization efforts, in January 2005 the financial management
                       risk was combined with the Modernization risk into the Business Systems Modernization high-risk area .4
                       Modernization remains a high risk for the IRS .



                        2	 The Individual Master File is the IRS database that stores individual taxpayer account information .
                        3	 Treasury Inspector General for Tax Administration, Ref . No . 2007-20-121, Annual Assessment of the Business Systems Modernization
                           Program (2007) .
                        4 In January 2005, the Government Accountability Office (GAO) combined its two previous high-risk areas, IRS Business Systems
                           Modernization and IRS Financial Management, into one Business Systems Modernization high-risk area . See U .S . Gov’t Accountability
                           Office, GAO-05-207, High Risk Series: An Update (2005) .




Management Challenges and Responses
Part IV – Appendix D                                                                                                                                         301




Tax Compliance Initiatives
A similarly compelling challenge confronting the IRS is tax compliance . Tax compliance initiatives include
the administration of tax regulations, collection of the correct amount of tax for businesses and individu­
als, and oversight of tax-exempt and government entities . Late in Fiscal Year 2007, the Department of the
Treasury (Department) issued a report on improving voluntary compliance .5 The report outlines steps that
the IRS plans to take to increase voluntary compliance and reduce the tax gap .

    Business and Individual
    The IRS defines the gross tax gap as the difference between the estimated amount taxpayers owe and the
    amount they voluntarily and timely pay for a tax year . The IRS estimated that the gross tax gap for Tax
    Year 2001 was $345 billion . TIGTA evaluated the reliability of the IRS-developed tax gap figures and
    concluded that the IRS still does not have sufficient information to completely and accurately assess the
    overall tax gap and voluntary compliance rate .6 The IRS has significant challenges in both obtaining
    complete and timely data, and developing the methods for interpreting the data . Although better data
    will help the IRS further identify noncompliant segments of the population, broader strategies and bet­
    ter research are also needed to determine what actions are most effective in addressing noncompliance .

    The IRS must continue to seek accurate measures of the various components of the tax gap and the
    effectiveness of actions taken to reduce it . This information is critical to the IRS for strategic direction,
    budgeting, and staff allocation . Additionally, the IRS Oversight Board has adopted an 86 percent volun­
    tary compliance goal by 2009, and Senate Finance Committee Chairman Max Baucus has asked for a 90
    percent voluntary compliance goal by 2017 .

    As the IRS takes steps to improve compliance, TIGTA’s reviews will help gauge the IRS’s progress in
    achieving the specific long-term compliance objectives . The Department also needs these measures
    for tax policy purposes, and Congress needs this information to help develop legislation that improves
    the effectiveness of the tax system . For example, the IRS may never significantly reduce the number of
    miscellaneous income and wage statements with mismatched names and identification numbers without
    legislative changes . TIGTA reports and those of the Government Accountability Office (GAO) have
    long called for legislative changes to address fundamental and systemic problems associated with inac­
    curate identification numbers on miscellaneous income and wage statements . In a recent review, TIGTA
    was successful in manually matching 50 percent of the sampled information documents containing
    incorrect names and identification numbers to taxpayer accounts .7 Based on that sample, TIGTA pro­
    jected that approximately 6,000 individuals had not filed tax returns, although the statements reported
    they had earned, on average, about $104,000 .

    Tax-Exempt Entities
    The IRS continues to face challenges in administering programs focused on tax-exempt organizations
    to ensure that they comply with applicable laws and regulations to qualify for tax-exempt status . The

 5	 Internal Revenue Service, U .S . Dep’t of the Treasury, Reducing the Federal Tax Gap: A Report on Improving Voluntary Compliance (2007) .
 6	 Treasury Inspector General for Tax Administration, Ref . No . 2006-50-077, Some Concerns Remain About the Overall Confidence That Can
    Be Placed in Internal Revenue Service Tax Gap Projections (2006) .
 7	 Treasury Inspector General for Tax Administration, Ref . No . 2007-30-159, Mismatched Names and Identification Numbers on Information
    Documents Could Undermine Strategies for Reducing the Tax Gap (2007) .




                                                                                                                              Management Challenges and Responses
302                                                                      Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           IRS has noted that the nonprofit community has not been immune from the recent trends toward bad
                           corporate practices that have been highlighted in the for-profit area .8 Recent concerns involve a highly
                           noncompliant credit counseling industry, differentiating tax-exempt hospitals from for-profit hospitals,
                           and seemingly excessive compensation and loans to executives of charitable organizations .

                           TIGTA has made recommendations that would improve the IRS’s oversight of filing compliance by
                           political entities and State and local governments, enhance its ability to identify and address abusive
                           tax-avoidance transactions within the tax-exempt sector, and identify potential terrorist activities related
                           to tax-exempt organizations . Furthermore, TIGTA recommended additional improvements to assure
                           that timely, accurate, and complete information returns are received for employee benefit plans and
                           that referrals of noncompliance are examined timely . We also noted that the IRS must develop better
                           research tools, improve training to trace funds through complex transactions, and develop the ability to
                           analyze data to determine high-risk noncompliant areas . The IRS agreed with TIGTA’s recommenda­
                           tions and initiated corrective actions to address these concerns .

                       Security of the Internal Revenue Service
                       Millions of taxpayers entrust the IRS with sensitive financial, personal and other data that are processed by
                       and stored on IRS computer systems . Reports of identity thefts from both the private and public sectors
                       have heightened awareness of the need to protect this data . The risk that sensitive data or computer systems
                       could be compromised and computer operations disrupted continues to increase . These vulnerabilities are
                       due to internal factors, such as the increased connectivity of computer systems and increased use of portable
                       laptop computers; and external factors, such as the volatile threat environment resulting from increased
                       terrorist and hacker activity . The IRS has designated computer security as a material weakness under the
                       Federal Managers’ Financial Integrity Act of 1982 .9

                       Section 301 of the Federal Information Security Management Act (FISMA)10 requires each Federal agency
                       to report annually to the Office of Management and Budget and Congress on the effectiveness of its security
                       programs and to perform an annual independent evaluation of its information security program and prac­
                       tices . During 2007, the IRS Modernization and Information Technology Services organization and represen­
                       tatives from each IRS operating unit have partnered to improve the IRS’s compliance with FISMA . Efforts
                       continued this year to develop an enterprise-wide approach to help employees understand their responsibili­
                       ties for securing IRS systems and data .

                       The IRS has made steady progress in complying with FISMA requirements since the law’s enactment in
                       2002 and states it continues to place a high priority on efforts to improve its security program . However, the
                       Service still needs to do more to adequately secure its systems and data . The most significant areas of con­
                       cern are annual testing of security controls and contingency plans, implementation of configuration manage­


                        8	 Written Statement of Mark W . Everson, Commissioner of Internal Revenue, Before the Committee on Finance, United States Senate
                           Hearing on Exempt Organizations: Enforcement Problems, Accomplishments, and Future Direction, April 5, 2005 .
                        9	 31 U .S .C . §§ 1105, 1106, 1108, 1113, 3512 (2000) . The Federal Managers’ Financial Integrity Act (FMFIA) requires that agency man­
                           agement establish and maintain effective internal controls to achieve the objectives of: 1) effective and efficient operations; 2) reliable
                           financial reporting; and 3) compliance with applicable laws and regulations . The FMFIA also requires the head of each Executive agency
                           to report annually to the President and the Congress on the effectiveness of the internal controls and any identified material weaknesses
                           in those controls . Reporting material weaknesses under FMFIA is not limited to weaknesses over financial reporting .
                        10 Pub . L . No . 107-347, tit . III, 116 Stat . 2899, 2946 (2002) (codified as amended at 44 U .S .C . §§ 3541-49) .




Management Challenges and Responses
Part IV – Appendix D                                                                                                                                             303




ment standards,11 and privacy requirements for protecting personally identifiable information . Additionally,
phishing schemes are a growing security concern .12 In Fiscal Year 2006, TIGTA worked closely with the IRS
to create a joint IRS-TIGTA reporting site . By September 30, 2007, approximately 18,700 complaints had
been received and 435 different phishing schemes had been identified . TIGTA’s FISMA evaluations and
other audits led to the conclusion that sufficient attention is not yet being given by the IRS to the security of
sensitive systems .

Providing Quality Taxpayer Service Operations
Since the late 1990s, the IRS has increased its delivery of quality customer service to taxpayers . The first goal
in the IRS’s current strategic plan is to improve taxpayer service . However, since the late 1990s, the IRS has
allocated over time more resources to its collection, examination, and criminal investigation functions and
fewer resources to taxpayer service functions . As a result of this resource shift and other factors, in July 2005,
Congress requested that the IRS develop a five-year plan, including an outline of which services the IRS
should provide and how it will improve services for taxpayers . The IRS developed the plan, the Taxpayer
Assistance Blueprint, in two phases .

The focus of the Blueprint is on services that support the needs of individual filers who file or should file the
Form 1040 series tax returns .13 The plan states that the initiative will address the challenges of effectively
and efficiently aligning service content, delivery, and resources with taxpayer and partner expectations .14
The Phase I report identified strategic improvement themes by researching IRS services relative to taxpayers’
needs and preferences . The Phase II report was designed to validate those themes through further research of
taxpayers’ service preferences and to create the strategic plan for service delivery .

The IRS is already facing challenges with its Blueprint . For the Phase I report, the conclusions and strategic
improvement themes were valid; however, not all information was accurate or consistent . Given the impor­
tance of this plan as the IRS moves forward, inaccuracies and inconsistencies will put the plan at risk of
improperly aligning service content, delivery, and resources with taxpayer and partner expectations .

Complexity of the Tax Law
Simplicity, transparency, and ease of administration are interrelated and desirable features of a tax system .
Over the years, the Federal tax system, especially the Federal income tax, has become more complex, less
transparent, and subject to frequent revision . Tax complexity and frequent revisions to the Internal Revenue
Code make it more difficult and costly for taxpayers who want to comply with the system’s requirements
and for the IRS to explain and enforce the tax laws . Tax law complexity results in higher costs for both tax



 11 Configuration management is a collection of processes and tools that promote network consistency, track network change, and provide
    up-to-date network documentation and visibility . By building and maintaining configuration management standards, several benefits
    may be achieved, such as increased security, improved network availability and lower costs .
 12 Phishing is the act of sending an email to a user falsely claiming to be an established legitimate enterprise in an attempt to scam the user
    into surrendering private information that could be used for identity theft .
 13 The Form 1040 series tax returns include any IRS tax forms that begin with “1040” such as the U .S . Individual Income Tax Return
    (Form 1040), U .S . Individual Income Tax Return (Form 1040-A), and Income Tax Return for Single and Joint Filers With No Depen­
    dents (Form 1040EZ) .
 14 Partners encompass all service providers including community-based stakeholders, practitioners, commercial preparers, and software
    vendors .




                                                                                                                                  Management Challenges and Responses
304                                                                     Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                       administration and tax compliance . Simplification and reform have the potential of reducing the tax gap by
                       billions of dollars .

                       Tax law complexity continues to challenge the IRS and taxpayers . For example, TIGTA recently determined
                       that the IRS regulations for like-kind exchanges are complex and may be unclear to taxpayers .15 Little pub­
                       lished information exists regarding the IRS’s position on like-kind exchanges involving second and vacation
                       homes . This absence of clarification leaves unrebutted the sales pitch of like-kind exchange promoters who
                       may encourage taxpayers to improperly claim deferral of capital gains through “tax-free” exchanges .16 These
                       complexities hamper IRS efforts to provide assistance to taxpayers . Without meaningful simplification, the
                       complexities of the current tax code will likely continue to contribute to the tax gap .

                       Human Capital
                       The Government Performance and Results Act of 199317 was enacted to bring more accountability to Federal
                       agencies for how they spent their budget and how well they fulfilled their public service roles . In 2001, the
                       President’s Management Agenda designated Strategic Management of Human Capital as the first of its five
                       governmentwide initiatives . Despite significant focus and progress over the past few years, the GAO has
                       designated human capital as a “high risk” governmentwide concern and recently reported that ample oppor­
                       tunities exist for agencies to improve . The GAO also reported that a governmentwide framework to advance
                       human capital reform is needed .18

                       The Federal workforce is aging, and agencies are dealing not only with retirements and staff turnover,
                       but also with the unique challenges of the 21st Century . The IRS recognizes that it must be prepared to
                       respond to an increasing and more demanding population, a more global and multi-lingual environment,
                       and an increasing number of taxpayers who have complex financial holdings and the means and motive to
                       resist paying their taxes .19 In addition, the IRS, along with other Federal agencies, is slowly moving toward
                       changing pay, classification, and performance management systems to transition to a more market-based and
                       performance-oriented culture . While the IRS has made some progress in these areas, the strategic manage­
                       ment of human capital remains one of the IRS’s major management challenges .

                       TIGTA has conducted audits in areas such as recruiting, workforce planning, training delivery, and employee
                       turnover . As a result of these audits, we have made a significant number of recommendations for improve­
                       ment . The IRS has agreed with these recommendations and stated it plans to take corrective actions . In
                       2008, TIGTA will begin executing a broad strategy for assessing human capital initiatives at an IRS agency-
                       wide level and will focus on key portions of the IRS’s Human Capital strategy .




                        15 A like-kind exchange is also known as a “1031 exchange,” referring to Section 1031 of the Internal Revenue Code . In essence, a like-
                           kind exchange is a way of deferring capital gains taxes by reinvesting proceeds from a sale into a similar asset .
                        16 As reported in Treasury Inspector General for Tax Administration, Ref . No . 2007-30-172, Like-Kind Exchanges Require Oversight to
                           Ensure Taxpayer Compliance (2007), many promoters of like-kind exchanges refer to them as “tax-free” exchanges, not “tax-deferred”
                           exchanges .
                        17 Pub . L . No . 103-62, 107 Stat . 285 (codified as amended in scattered sections of 5 U .S .C ., 31 U .S .C ., and 39 U .S .C .) .

                        18 U .S . Gov’t Accountability Office, GAO-07-310, High Risk Series: An Update (2007) .

                        19 Internal Revenue Service, Publ’n No, 3744, IRS Strategic Plan: 2005–2009 (revised 6-2004) .





Management Challenges and Responses
Part IV – Appendix D                                                                                                                                                     305




Erroneous and Improper Payments
As defined by the Improper Payments Information Act of 2002,20 an improper payment is any payment that
should not have been made or that was made in an incorrect amount (including overpayments and under­
payments) under statutory, contractual, administrative, or other legally applicable requirements . It includes
any payment to an ineligible recipient, any payment for an ineligible service, any duplicate payment, pay­
ments for services not received, and any payment that does not account for credit for applicable discounts .
For the IRS, improper and erroneous payments generally involve improperly paid refunds, tax return filing
fraud, or overpayments to vendors or contractors . Some tax credits, such as the Earned Income Tax Credit
and the Education Credit, provide opportunities for abuse in income tax claims . The IRS estimated that
between 27 percent and 32 percent of the $31 billion in Earned Income Tax Credits claimed on TY 1999
returns should not have been paid .21 The IRS’s Criminal Investigation function is responsible for detecting
and combating tax refund fraud through its Questionable Refund Program, which was established to address
the serious problem of refund fraud, now estimated to exceed $1 billion annually . On September 29, 2006,
the Criminal Investigation function reported that during Processing Year 2006, it had identified more than
44,700 fraudulent refund returns claiming approximately $232 .3 million in refunds during Processing Year
2006 . In contrast, through September 13, 2007, the Criminal Investigation function identified approxi­
mately 200,900 fraudulent returns claiming about $1 .3 billion in refunds during Processing Year 2007 .

Although the IRS has taken actions to improve the Questionable Refund Program, TIGTA continues to
have concerns with many of the procedures that have been implemented . For example, in January 2006 the
National Taxpayer Advocate reported that automatically preventing a future year’s tax return refund was a
significant problem with the Questionable Refund Program .22 According to the National Taxpayer Advocate,
future refunds were being frozen until taxpayers filed a certain number of legitimate returns even though
there was little evidence to suggest that taxpayers were likely to repeat refund fraud after the initial attempts .
As a result, the IRS Office of Refund Crimes discontinued placing a freeze on future years’ refund returns
and instead identified certain high-risk categories as exceptions to this process . This revised procedure
concerns us because we believe the future year freeze is an effective means for protecting revenue, when con­
sidered along with the procedural changes to notify taxpayers of refund freezes .

Taxpayer Protection and Rights
The IRS continues to dedicate significant resources and attention toward implementing the taxpayer rights
provisions of the Internal Revenue Service Restructuring and Reform Act of 1998 (RRA 98) .23 Annual audit
reports are mandated for the following taxpayer-rights provisions:
    • Notice of Levy
    •	 Restrictions	on	the	Use	of	Enforcement	Statistics	to	Evaluate	Employees
    •	 Fair	Debt	Collection	Practices	Act	Violations
    •	 Notice	of	Lien


 20 Pub . L . No . 107-300, 116 Stat . 2350 (2002) .

 21 Treasury Inspector General for Tax Administration, Ref . No . 2005-40-093, The Earned Income Tax Credit Income Verification Test Was 

    Properly Conducted (2005) .
 22 1 National Taxpayer Advocate, 2006 Annual Report to Congress (2006) .
 23 Pub . L . No . 105-206, 112 Stat . 685 (codified as amended in scattered sections of 2 U .S .C ., 5 U .S .C . App ., 16 U .S .C ., 19 U .S .C ., 23
    U .S .C ., 26 U .S .C ., 31 U .S .C ., 38 U .S .C ., and 49 U .S .C .) .




                                                                                                                                          Management Challenges and Responses
306                                                                      Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           •	 Seizures
                           •	 Illegal	Protestor	Designations
                           •	 Assessment	Statute	of	Limitations
                           •	 Restrictions	on	Directly	Contacting	Taxpayers	Instead	of	Authorized	Representatives
                           •	 Separated	or	Divorced	Joint	Filer	Requests

                       In general, the IRS has improved its compliance with these statutory taxpayer rights provisions . For example,
                       TIGTA believes the IRS’s efforts to ensure that managers are not using enforcement statistics, production
                       goals or quotas to evaluate employees are generally effective and are helping protect the rights of taxpayers .
                       Nonetheless, there is still room for improvement with respect to certain provisions . TIGTA continues to
                       identify instances in which there is no documentation that taxpayers were advised of their rights when agree­
                       ing to extend the period of time the IRS has to assess taxes . TIGTA also continues to identify instances in
                       which IRS employees refer to taxpayers as Illegal Tax Protesters or similar designations .

                       Some IRS management information systems do not track cases that require mandatory annual audit cov­
                       erage .24 Thus, neither TIGTA nor the IRS could evaluate the Service’s compliance with certain RRA 98
                       provisions .

                       Processing Returns and Implementing Tax Law Changes During the Tax Filing Season
                       Each filing season tests the IRS’s ability to implement tax law changes made by Congress . It is during the
                       filing season that most individuals file their income tax returns and call the IRS with questions about specific
                       tax laws or filing procedures . Correctly implementing tax law changes is a continuing challenge because the
                       IRS must identify the tax law changes; revise the various tax forms, instructions, and publications; and repro­
                       gram the computer systems used for processing returns . Changes to the tax laws have a major effect on how
                       the IRS conducts its activities, what resources are required, and how much progress can be made on strategic
                       goals . Congress frequently changes the tax laws; thus, some level of change is a normal part of the IRS
                       environment . However, certain types of changes can significantly impact the IRS in terms of its quality and
                       effectiveness of service and in how taxpayers perceive the Service . For example, the 2007 Filing Season was
                       successful but demanding for the IRS . Before the filing season began, the IRS Commissioner told Congress
                       that the IRS was at high risk due to high-profile administrative changes such as the Telephone Excise Tax
                       Refund and the Split Refund option . Late enactment of the Tax Relief and Health Care Act of 200625 added
                       additional risk to the 2007 Filing Season .

                       Potential changes to the Alternative Minimum Tax (AMT) may pose a significant challenge for the IRS for
                       the 2008 Filing Season . The AMT originally was created as a parallel tax system in 1969 to prevent 155
                       wealthy people from avoiding taxes through excessive exemptions, credits and other deductions . Because it
                       was not indexed for inflation, the AMT increasingly affects people with more modest incomes by denying
                       deductions such as personal exemptions, property taxes and medical expenses .




                        24 Treasury Inspector General for Tax Administration, Ref . No . 2007-40-119, Fiscal Year 2007 Statutory Review of Disclosure of Collection
                           Activity	With	Respect	to	Joint	Returns (2007); Treasury Inspector General for Tax Administration, Ref . No . 2007-40-118, Fiscal Year 2007
                           Statutory Review of Restrictions on Directly Contacting Taxpayers (2007) .
                        25 Pub . L . No . 109-432, 120 Stat . 2922 .




Management Challenges and Responses
Part IV – Appendix D                                                                                                                                      307




Unless Congress acts, the AMT will gradually impose $1 .35 trillion in additional taxes on U .S . households
over the next decade, including as many as 23 million families for Tax Year 2007 . A series of temporary
measures that index the AMT for inflation have limited the tax's reach to about 4 million households annu­
ally . Lawmakers have not yet renewed the temporary fix for Tax Year 2007 . A delay in legislation renewing
the temporary fix could significantly disrupt the tax filing season because the IRS would need time to print
new tax forms and reprogram computers .

Using Performance and Financial Information for Program and Budget Decisions
While the IRS has made some progress in using performance and financial information for program and
budget decisions, this area is still a major challenge . The IRS lacks a comprehensive, integrated system that
provides accurate, relevant, and timely financial and operating data that describes performance measures,
productivity, and associated costs of IRS programs . In addition, the IRS cannot produce timely, accurate,
and useful information needed for day-to-day decisions, which inhibits its ability to address financial man­
agement and operational issues in order to fulfill its responsibilities . TIGTA has continued to report that
various IRS management information systems are insufficient to enable IRS management to measure costs,
determine if performance goals have been achieved, or monitor progress in achieving program goals . For
example, TIGTA reported that progress is being made in addressing the reliability of Trust Fund Recovery
Penalty (TFRP) transaction information recorded in taxpayer accounts (a long-term material weakness); how­
ever significant work remains . Specifically, as of May 2007, there were nearly 50,000 TFRP-related errors in
taxpayers’ accounts that the IRS needs to correct before implementing the systemic posting of payments on
TFRP assessments beginning in March 2008 .26

Conclusion
These are the 10 major IRS management challenges issues for the IRS in Fiscal Year 2008 . TIGTA’s FY
2008 Annual Audit Plan contains our planned audits, inspections, and evaluations and is organized by
these challenges . If you have questions or wish to discuss TIGTA’s views on these management and perfor­
mance challenges in greater detail, please contact me at (202) 622-6500 .

cc:	            The Deputy Secretary
                Assistant Secretary for Management and Chief Financial Officer
                Acting Commissioner of Internal Revenue




  26 Treasury Inspector General for Tax Administration, Ref . No . 2007-10-183, Progress Has Been Made in Improving the Accuracy of Trust
     Fund Recovery Penalty Transactions; However, Significant Work Remains (2007) .




                                                                                                                           Management Challenges and Responses
308                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                      This page intentionally left blank


Management Challenges and Responses
Part IV – Appendix D                                  309




                       Management Challenges and Responses
310                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




Management Challenges and Responses
Part IV – Appendix D                                  311




                       Management Challenges and Responses
312                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




Management Challenges and Responses
Part IV – Appendix D                                  313




                       Management Challenges and Responses
314                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




Management Challenges and Responses
Part IV – Appendix D                                  315




                       Management Challenges and Responses
316                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




Management Challenges and Responses
Part IV – Appendix D                                  317




                       Management Challenges and Responses
318                                   Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                      This page intentionally left blank


Management Challenges and Responses
Part IV – Appendix E                                                                                                                      319




Appendix E:

Material Weaknesses, Audit Follow-up, 

and Financial Systems


This section consists of detailed descriptions of the Department’s material weakness inventory, including a
summary of actions taken and planned to resolve the weaknesses; tracking and follow-up activities related to
the Department’s audit inventory; an analysis of potential monetary benefits arising from audits performed
by the Department’s Inspectors General; and an update on the Department’s financial systems framework .


Treasury’s Material Weaknesses
Management may declare audit findings or internal situations as a material weakness whenever a condition
exists that may jeopardize the Treasury mission or continued operations . Material weaknesses are required in
these instances by the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) and the Federal Financial
Management Improvement Act of 1996 (FFMIA) .


Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
The FMFIA requires agencies to establish and maintain internal control . The Secretary must annually
evaluate and report on the controls (Section 2) and financial systems (Section 4) that protect the integrity of
federal programs . The requirements of FMFIA serve as an umbrella under which other reviews, evaluations,
and audits should be coordinated and considered to support management’s assertion about the effectiveness
of internal control over operations, financial reporting, and compliance with laws and regulations . Treasury
has six material weaknesses under Section 2 of the FMFIA, summarized as follows:

         Summary of FMFIA and FFMIA Material Weaknesses               Section 2   Section 4            Total
                                Balance at the Beginning of FY 2007      5           1                   6
                               Closures/Downgrades during FY 2007        0           0                   0
                                        Reassessed during FY 2007        1          (1)                  0
                                  New MW declared during FY 2007         0           0                   0
                                      Balance at the End of FY 2007      6           0                   6


Below are detailed descriptions of Treasury’s six material weaknesses:




                                                                                   Material Weaknesses, Audit Follow-up, and Financial Systems
320                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           Material Weakness Description
                           Internal Revenue Service - Improve Modernization Management Controls and Processes.
                           The IRS needs to improve its Business Systems Modernization program . Key elements:
                            •  Assess the recommendations from the Special Studies and Reviews of the Business Systems Modernization program and
                               projects
                             •  Implement and institutionalize procedures for validating contractor-developed costs and schedules
                             •  Establish effective contract management practices
                             •  Complete a human capital strategy
                             •  Improve configuration management practices
                                                  Actions Completed                                                What Remains to be Done
                            ✓  Study and review recommendations assessed and                    ❑  Allow assessment time to observe long-term effect of
                                implemented where warranted                                         actions completed
                            ✓  Formal process for contractor-developed cost and schedule        ❑  Targeted Downgrade/Closure: FY 2008
                                evaluation implemented
                            ✓  Contract management policy and procedures developed
                                and implemented
                            ✓  Human Capital Plan completed
                            ✓  Configuration management policies and practices
                                improved and implemented


                           Material Weakness Description
                           Internal Revenue Service – Reduce Earned Income Tax Credit (EITC) Overclaims.
                           The IRS has high erroneous payment error rates within the EITC program . Key elements:
                            •  Review and implement the EITC Task Force Recommendations to reduce overclaims
                             •  Develop enhanced initiatives to reduce overclaims in existing EITC programs
                             •  Develop focused initiatives to educate the EITC population
                             •  Identify new ways to administer the EITC by partnering with state, federal, and private organizations and through the
                               productive use of proactive research initiatives
                                                  Actions Completed                                                What Remains to be Done
                            ✓  Assessed and implemented Task Force recommendations              ❑  Partner with OMB to develop more accurate error rate
                                where warranted                                                     estimates
                            ✓  Conducted special studies to identify solutions for 3 key        ❑  Monitor plan for improper payment reduction
                                overclaim areas                                                 ❑  Identify opportunities to reduce the number of erroneous
                            ✓  Met all of the Improper Payment Information Act of                  and improper payments by analyzing the results from the
                               2002 (IPIA) requirements for the EITC by providing                  first year of the multi-year National Research Program
                               a current estimate of error, an explanation of the                  study, which is designed to provide an annual update of
                               methodology, and an action plan to reduce error                     the EITC error rate and will enable IRS to more quickly
                            ✓  Completed second phase of the return preparers’                     explore research-based, cost-effective approaches to
                               compliance study and, through due diligence visits,                 improve EITC participation and minimize errors
                               reduced erroneous refunds by assessing 8,554 due                 ❑  Continue to identify and investigate high-impact fraud
                               diligence penalties against 219 of the preparers visited            and tax scheme promoters
                            ✓  Developed and implemented a robust enterprise research           ❑  Complete development of a new Concept of Operations,
                               strategy in partnership with internal and external                  a multi-year vision that will drive development of
                               organizations to support the IRS goals of reducing                  expanded and new EITC Program strategic initiatives,
                               erroneous claims and increasing participation of EITC-              including a paid preparer strategy
                               eligible taxpayers                                               ❑  Targeted Downgrade/Closure: FY 2008
                            ✓  Conducted the first, nationwide EITC Awareness Day for
                               EITC-eligible taxpayers




Material Weaknesses, Audit Follow-up, and Financial Systems
Part IV – Appendix E                                                                                                                                      321




 Material Weakness Description
 Internal Revenue Service – Computer Security.
 The IRS has various computer security controls that need improvement . Key elements:
  •  Adequately restrict electronic access to and within computer network operational components
  •  Adequately ensure that access to key computer applications and systems is limited to authorized persons for authorized
     purposes
  •  Adequately configure system software to ensure the security and integrity of system programs, files, and data
  •  Appropriately delineate security roles and responsibilities within functional business, operating, and program units, as required
     by the Federal Information Security Management Act (FISMA)
  •  Appropriately segregate system administration and security administration responsibilities
  •  Sufficiently plan or test the activities require to restore certain critical business systems when unexpected events occur
  •  Effectively monitor key networks and systems to identify unauthorized activities and inappropriate system configurations
  •  Provide sufficient technical security-related training to key personnel
  •  Certify and accredit 90% of all systems

                        Actions Completed                                                 What Remains to be Done
  ✓  Delineated responsibilities for carrying out security            ❑  Restrict electronic access to and at the operating system
     management activities within organizational units across              level of network operational components
     IRS as well as the expectation of performance of security-       ❑  Control access to systems software and applications
     related tasks associated with individual roles
                                                                      ❑  Implement configuration management and change
  ✓  Ensured that one individual cannot independently control            control to safeguard the security and integrity of system
     all key aspects of a process or computer-related operation          programs, files, and data
     for systems administration
                                                                      ❑  Monitor user activity on network operating devices,
  ✓  Encrypted all laptop data and tapes used in electronic              operating systems, and applications
     data exchange
                                                                      ❑  Provide training development, delivery, and evaluation for
  ✓  Updated IRS mandatory employee training to reflect                  security responsibilities to key personnel
     recent policy guidance and reinforced employee
                                                                      ❑  Certify 90% of total systems
     responsibilities related to the protection of sensitive
     information and the use of encryption tools                      ❑  Targeted Downgrade: FY 2009
  ✓  Completed all required FISMA activities related to
     contingency plan testing on all of the 260 application/
     systems in the master inventory and live disaster recovery
     tests for all major applications




                                                                                                   Material Weaknesses, Audit Follow-up, and Financial Systems
322                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           Material Weakness Description
                           Financial Management Service – Consolidated Government-wide Financial Statements.
                           The government does not have adequate systems, controls, and procedures to properly prepare the Consolidated Government-
                           wide Financial Statements . Key elements:
                            •  The government lacks a process to obtain information to effectively reconcile the reported excess of revenue over net costs
                               with the budget surplus
                             •  Weaknesses in financial reporting procedures in internal control over the process for preparing the Consolidated Financial
                               Statements
                                                  Actions Completed                                                 What Remains to be Done
                            ✓  Developed a model to provide analysis of unreconciled             ❑  Create the reciprocal category for the Treasury General
                                transactions that affect the change in net position                   Fund
                            ✓  Accounted for intra-governmental differences through              ❑  Implement changes identified by the Fiscal Assistant
                               formal consolidating and elimination accounting entries               Secretary as a result of their review of the Reporting
                               using all reciprocal fund categories including the General            Entity definitions per the Financial Accounting Standards
                               Fund                                                                  Advisory Board (FASAB) criteria
                            ✓  Established a process to ensure that Federal agencies             ❑  Establish traceability from agency footnotes to
                               submit complete closing packages to GAO                               the Consolidated Financial Statements (CFS) for
                                                                                                     completeness
                                                                                                 ❑  Include all disclosures as appropriate
                                                                                                 ❑  Include all loss contingencies as appropriate
                                                                                                 ❑  Targeted Downgrade/Closure: FY 2011



                           Material Weakness Description
                           Treasury Departmental Offices – Lack of Substantial Compliance with the Federal Information Security Management Act (FISMA).
                           Key elements:
                            •  Need to establish a Departmental Offices Headquarters Information Technology Security Program
                             •  The Treasury Chief information Officer needs to implement the Treasury Communications System disaster recovery plan and
                               ensure bureau connectivity to the backup facility is established for uninterrupted services
                             •  Provide effective oversight to ensure Treasury’s compliance with the FISMA and track bureaus inventories and Plans of
                               Actions and Milestones to ensure all systems are certified and accredited .
                                                  Actions Completed                                                 What Remains to be Done
                            ✓  Departmental Offices Headquarters Information                     ❑  Implement a configuration management baseline that is
                                Technology Security Program developed and                             compliant with OMB requirements .
                                implemented                                                      ❑  Targeted Downgrade/Closure: FY 2008*
                            ✓  The Treasury Communications System Disaster Recovery
                                Plan (including connectivity and backup capability)
                                developed, tested, and implemented
                            ✓  Policy and procedures issued and infrastructure in place to
                                allow for tracking of systems and plans of action                 *subject to change pending further review




Material Weaknesses, Audit Follow-up, and Financial Systems
Part IV – Appendix E                                                                                                                                           323




 Material Weakness Description
 Internal Revenue Service – Accounting for Revenue.
 The IRS needs to have detail data to support custodial financial reporting for revenue . Key elements:
  • 	Inability to provide detailed support for large types of revenue for employment and excise taxes
   • 	Lack of effective custodial supporting systems/subsidiary detail
   • 	Subsidiary ledger does not track and report one Trust Fund Recovery Penalty (TFRP) balance
   • 	Untimely posting of TFRP assessments and untimely review of TFRP accounts
   • 	Lack of a single, integrated general ledger to account for tax collection activities and the costs of conducting those activities
   • 	Inability to generate and report reliable cost-based performance data for collection activities to make informed resource

     allocation decisions

   • 	IRS’s general ledger for its custodial activities does not use the standard federal accounting classification structure
                         Actions Completed                                                    What Remains to be Done
  ✓  Custodial Detail Database (CDDB) enhanced to analyze                 ❑  Completion of CDDB Releases to provide a single,
     and classify larger percentage of unpaid payroll tax                    integrated subsidiary ledger using standard federal
     accounts                                                                accounting classification structure .

  ✓  Enhanced CDDB to begin journalizing tax debt
                        ❑  Targeted Downgrade/Closure: FY 2010

     information weekly to IRS’s general ledger

  ✓  Expanded CDDB capabilities to provide means to trace

     payments and refunds at point of receipt

  ✓  Timing of certification of excise tax receipts accelerated




Federal Financial Management 

Improvement Act of 1996 (FFMIA)

The FFMIA requires agencies to have financial management systems that substantially comply with the
Federal financial management systems requirements, standards promulgated by the Federal Accounting
Standards Advisory Board (FASAB), and the U .S . Standard General Ledger (USSGL) at the transaction level .
Financial management systems shall have general and application controls in place in order to support man­
agement decisions by providing timely and reliable data . The Secretary shall make a determination annually
about whether the agency’s financial management systems substantially comply with the FFMIA . If the
systems are found not to be compliant, management shall develop a remediation plan to bring those systems
into substantial compliance . Management shall determine whether non-compliances with FFMIA should
also be reported as non-conformances with Section 4 of FMFIA .

The IRS Accounting for Revenue material weakness is reported as a non-compliance material weakness under
FFMIA . This material weakness is not reported as a non-conformance material weakness under Section 4 of
FMFIA .




                                                                                                        Material Weaknesses, Audit Follow-up, and Financial Systems
324                                                               Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         Audit Follow-Up Activities
                         During FY 2007, Treasury made steady progress in both the general administration of management control
                         issues throughout the Department and the timeliness of the resolution of all findings and recommenda­
                         tions identified by the Office of the Inspector General (OIG), the Treasury Inspector General for Tax
                         Administration (TIGTA), the Government Accountability Office (GAO), and external auditors . During
                         the year, Treasury continued to provide enhancements to the tracking system called the “Joint Audit
                         Management Enterprise System” (JAMES) . JAMES is a Department-wide, interactive, Web-based system
                         accessible to the OIG, TIGTA, Bureau management, Departmental management, and others . The system
                         contains tracking information on audit reports from issuance through completion of all corrective actions
                         required to address findings and recommendations contained in an audit report .


                         Potential Monetary Benefits
                         The Inspector General Act Amendments of 1988, Public Law 101-504, require that the Inspectors General
                         and the Secretaries of Executive Agencies and Departments submit semiannual reports to the Congress on
                         actions taken on audit reports issued that identify potential monetary benefits . The Department consolidates
                         and analyzes all relevant information for inclusion in this report . The information contained in this section
                         represents a consolidation of information provided separately by the Office of the Inspector General (OIG),
                         the Treasury Inspector General for Tax Administration (TIGTA), and Department management .

                         In the course of their audits, the Inspectors General periodically identify questioned costs, make recommen­
                         dations that funds be put to better use, and identify measures that demonstrate the value of audit recommen­
                         dations to tax administration and business operations . “Questioned costs” include:
                             •	 a cost that is questioned because of an alleged violation of a provision of a law, regulation, contract, or
                                other requirement governing the expenditure of funds;
                             •	 a finding, at the time of the audit, that such costs are not supported by adequate documentation (i .e .,
                                an unsupported cost); or
                             •	 a finding that expenditure of funds for the intended purpose is unnecessary or unreasonable .

                         The Department regularly reviews progress made by the bureaus in realizing potential monetary benefits
                         identified in audit reports, and coordinates with the auditors as necessary to ensure the consistency and
                         integrity of information on monetary benefit recommendations being tracked .

                         The statistical data in the following summary table and charts represent audit report activity for the period
                         from October 1, 2006, through September 30, 2007 . The data reflect information on reports that identified
                         potential monetary benefits issued by the OIG and TIGTA .




Material Weaknesses, Audit Follow-up, and Financial Systems
Part IV – Appendix E                                                                                                                                                                 325




 Audit Report Activity With Potential Monetary Benefits For Which Management Has Identified Corrective Actions (OIG and TIGTA)
 October 1, 2006 through September 30, 2007
 (Dollars in Millions)
                                            Questioned Costs              Better Used Funds              Revenue Enhancements                      Totals
                                                                                                                                         Report
                                        Reports          Dollars       Reports             Dollars       Reports          Dollars        Total*       Total Dollars
              Beginning Balance                8           $39 .2             5            $115 .3           16       $14,197 .2             28        $14,351.7
                     New Reports             11              13 .1            6               15 .8           8             1,808 .8         24             1,837.7
                               Total         19              52 .3           11              131 .1          24           16,006 .0          52           16,189.4
                  Reports Closed               7             16 .4            4              121 .4          12           15,307 .7          23           15,445.4
            a. Realized or Actual              6             42 .7            2              111 .1           3                90 .2         11               244.0
     b. Unrealized - Written off               3              1 .1            2              10 .3   1
                                                                                                             12          15,217 .5   2
                                                                                                                                             17           15,228.9
                  Ending Balance             12           $36.0               7               $9.7           12             $698.3           29              $744.0
 * Report total column may not add across due to inclusion of reports in multiple categories .
 1 This category includes one report, with $9 .86 million written off, for which IRS management did not concur with TIGTA’s projected benefits .
 2 This category includes two reports, with $85 .2 million written off, for which TIGTA does not agree with the IRS that the benefits have not been real­
   ized; one report, with $6 billion written off, for which legislation is needed to realize the benefit; one report, with $1 .17 billion written off, for which IRS
   management did not agree with TIGTA’s recommended corrective action; and four reports, with $829 .4 million written off, for which IRS management
   did not concur with TIGTA’s projected benefits .



The following table provides a snapshot of OIG and TIGTA audit reports with significant recommendations
reported in previous semiannual reports for which corrective actions had not been completed as of September
30, 2006 and September 30, 2007, respectively . There were no “Undecided Audit Recommendations” dur­
ing the same periods .

 Significant Unimplemented Recommendations
                                                          September 30, 2006                                                  September 30, 2007
                                                   OIG                            TIGTA                               OIG                           TIGTA
                                            No. of Reports                   No. of Reports                    No. of Reports                  No. of Reports
                Unimplemented                       9                                 37                              14                             39


The following table presents a summary of TIGTA and OIG audit reports that were open for more than a
year with potential monetary benefits at the end of the PAR Report Year .

 Number of Reports Open for More than One Year (Dollars in Millions)
                                        PAR Report Year                       FY 2005                              FY 2006                         FY 2007
                       TIGTA            No. of Reports                            17                                 15                              10
                                       Projected Benefits                    $7,581 .8                        $ 13,097 .6                          $66 .5
                         OIG            No. of Reports                            0                                  0                                1
                                       Projected Benefits                         $0                                 $0                            $29 .4



The following table presents a summary of TIGTA and OIG audit reports on which management decisions
were made on or before September 30, 2006, but the final actions have not been taken as of September 30,
2007 .




                                                                                                                              Material Weaknesses, Audit Follow-up, and Financial Systems
326                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           Details of the Audit Reports on Which Management Decisions Were Made On or Before
                           September 30, 2006, But Final Actions Have Not Been Taken as of September 30, 2007
                           (Dollars In Thousands)
                                                                                                        Funds Put   Revenue
                                                       Report Issue                        Questioned   to Better   Enhance­                Due Date/Reason for
                            Bureau     Report Number      Date         Brief Description     Costs         Use        ment       Total             Delay
                                 IRS   2003-30-071     3/14/2003      Improvements                       3,000 .0               3,000 .0 Delayed to
                                                                      could be made                                                      1/15/08 . IRS has
                                                                      to the Schedule                                                    decided to con­
                                                                      K-1 matching                                                       sider mandating
                                                                      program by                                                         e-filing at the time
                                                                      increasing the use                                                 each form is to be
                                                                      of electronic or                                                   converted in the
                                                                      scannable data                                                     Modernized e-file
                                                                                                                                         environment .
                           FY 2003          1                                                            3,000.0                3,000.0
                                 IRS   2004-10-128     7/28/2004      LOU:                     684 .0                             684 .0 Delayed to
                                                                      Contractor’s                                                       10/15/08 . The
                                                                      documentation                                                      action pursuant to
                                                                      was not adequate                                                   this recommenda­
                                                                      to support the                                                     tion and recovery
                                                                      tax forum income                                                   of management
                                                                      and expenses                                                       fees paid by the
                                                                                                                                         contractor are con­
                                                                                                                                         tingent on the U .S .
                                                                                                                                         Attorney’s Office
                                                                                                                                         timeline .
                                 IRS 2004-20-014       11/19/2003 The IRS should                25 .0                  180 .5     205 .5 Due 10/31/2007
                                                                  use the planned
                                                                  Travel and
                                                                  Reimbursement
                                                                  Accounting
                                                                  System long-term
                                                                  travel authoriza­
                                                                  tion processing
                                                                  enhancements to
                                                                  assure that IRS
                                                                  periodically reas­
                                                                  sesses employee
                                                                  travel plans
                                 IRS 2004-20-142       8/26/2004      The IRS                             200 .0                  200 .0 Due 12/31/2010
                                                                      should ensure
                                                                      the Storage
                                                                      Strategy Study
                                                                      addresses the data
                                                                      storage capacity
                                                                      deficiency and
                                                                      recommends a
                                                                      cost-effective
                                                                      Virtual tape
                                                                      system solution
                                                                      to reduce main­
                                                                      tenance and tape
                                                                      shipping costs
                                                                                                                                  Table continued on next page 




Material Weaknesses, Audit Follow-up, and Financial Systems
Part IV – Appendix E                                                                                                                                         327




 Details of the Audit Reports on Which Management Decisions Were Made On or Before
 September 30, 2006, But Final Actions Have Not Been Taken as of September 30, 2007
 (Dollars In Thousands)
                                                                             Funds Put   Revenue
                            Report Issue                        Questioned   to Better   Enhance­                    Due Date/Reason for
 Bureau     Report Number      Date         Brief Description     Costs         Use        ment           Total             Delay
      IRS 2004-30-170       9/21/2004      Improvements are                              29,670 .0      29,670 .0 Due 12/15/2007
                                           needed for pro­
                                           cessing income
                                           tax returns of
                                           controlled corpo­
                                           rate groups
 FY 2004          4                                                709.0        200.0    29,850.5       30,759.5
      IRS 2005-30-013       12/2/2005      Contractor                                        135 .0         135 .0 Delayed to
                                           provides more                                                           12/15/2008 .
                                           training to                                                             Additional time
                                           its personnel                                                           is needed to com­
                                           emphasizing                                                             plete the pilot and
                                           unreasonable                                                            evaluate the results .
                                           costs per the FAR
                                           and applicable
                                           supplements
      IRS 2005-1c-175       9/29/2005      Contractor                81 .8                                   81 .8 Due 9/15/2008
                                           provides more
                                           training to
                                           its personnel
                                           emphasizing
                                           unreasonable
                                           costs per the FAR
                                           and applicable
                                           supplements
 FY 2005          2                                                  81.8                   135.0          216.8
      BEP OIG-06-010        12/2/2005      Full cost of                                  29,400 .0      29,400 .0 Due 3/1/2008
                                           BEP’s Currency
                                           Operations is not
                                           reflected in its
                                           billing rates .
      IRS 2006-10-126       8/25/2006      Develop methods                                   112 .1         112 .1 Due 1/15/2008
                                           for ensuring more
                                           timely deposits
                                           of Tax Exempt/
                                           Government
                                           Entities Division
                                           customer pay­
                                           ments of $50,000
                                           or more .
                                                                                                           Table continued on next page 




                                                                                                      Material Weaknesses, Audit Follow-up, and Financial Systems
328                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           Details of the Audit Reports on Which Management Decisions Were Made On or Before
                           September 30, 2006, But Final Actions Have Not Been Taken as of September 30, 2007
                           (Dollars In Thousands)
                                                                                                        Funds Put   Revenue
                                                       Report Issue                        Questioned   to Better   Enhance­               Due Date/Reason for
                            Bureau     Report Number      Date         Brief Description     Costs         Use        ment       Total            Delay
                                 IRS 2006-1c-142       9/25/2006      The IRS              32,373 .7                           32,373 .7 Due 8/15/2009
                                                                      Contracting
                                                                      Officer should
                                                                      use the results
                                                                      of the Defense
                                                                      Contract
                                                                      Auditing Agency
                                                                      (DCAA) report
                                                                      to fulfill his/
                                                                      her duties in
                                                                      awarding and
                                                                      administering
                                                                      contracts .
                                 IRS 2006-1c-147       9/28/2006      The IRS                   22 .1                               22 .1 Due 9/15/2009
                                                                      Contracting
                                                                      Officer should
                                                                      use the results
                                                                      of the DCAA
                                                                      report to fulfill
                                                                      his/her duties
                                                                      in awarding and
                                                                      administering
                                                                      contracts
                           FY 2006          4                                              32,395.8                 29,512.1   61,907.9
                               TOTAL        11                                             33,186.6      3,200.0    59,497.6   95,884.2




Material Weaknesses, Audit Follow-up, and Financial Systems
Part IV – Appendix E                                                                                                                    329




PLAN FOR FINANCIAL MANAGEMENT SYSTEMS FRAMEWORK

Overview
 The Department of the Treasury’s financial management systems structure consists of financial and mixed
systems maintained by the Treasury bureaus and the Department-wide Financial Analysis and Reporting
System (FARS) . The bureau systems process and record the detailed financial transactions and submit
summary-level information to FARS on a scheduled basis . FARS maintains the key financial data necessary
for consolidated financial reporting . In addition, the FARS modules also maintain data on performance
management and the status of audit-based corrective actions . Under this systems structure, the bureaus are
able to maintain financial management systems that meet their specific business requirements . On a sched­
uled basis, the required financial and performance data is submitted to FARS to meet Departmental analysis
and reporting requirements . The Department uses FARS to produce its periodic financial and performance
reports as well as the annual Performance and Accountability Report . This structured financial systems envi­
ronment enables Treasury to receive an unqualified audit opinion and supports its required financial manage­
ment reporting and analysis requirements .

The FARS structure consists of the following components: bureau core and financial management systems
that process and record detailed financial transactions; the Treasury Information Executive Repository (TIER)
data warehouse; CFO Vision to produce monthly financial statements and analyze financial results; the Joint
Audit Management Enterprise System (JAMES) to capture information on audit findings, recommendations
and planned corrective actions; and the Performance Reporting System (PRS) to track the status of key per­
formance measures . Bureaus submit summary-level financial data to TIER on a monthly basis, within three
business days of the month-end . This data is then used by CFO Vision to generate financial statements
and reports on both a Department-wide and bureau-level basis . This structure enables the Department to
produce its monthly and audited annual financial statements . During fiscal year 2007, Treasury continued
to upgrade its FARS applications to take advantage of improvements in system technology . This included a
pilot roll-out of CFO Vision to several Treasury bureaus, which will provide them with direct system access
for enhanced reporting capabilities .

Treasury continues with its plans to enhance the financial management systems structure . As of September
2007, the Department’s inventory of financial management systems lists 64 financial and mixed systems
compared to 69 in September 2006 . As part of the Department’s enhancement effort, twelve Treasury
bureaus and reporting entities are cross-serviced for core financial systems by the Bureau of Public Debt’s
Administrative Resource Center (ARC) . Cross-servicing enables these bureaus to have access to core financial
systems without having to maintain the necessary technical and systems architectures . In addition, as part
of the Department’s implementation of the e-Travel initiative, bureaus have eliminated their legacy travel
systems .


Continued Improvement
Treasury’s target financial management systems structure will build upon the current FARS foundation . As
processing and reporting requirements change and FARS is expanded to collect additional financial data, it
may be necessary to implement additional applications to support these new requirements . FARS will pro­
vide management with the appropriate tools needed to analyze Department and bureau performance .



                                                                                 Material Weaknesses, Audit Follow-up, and Financial Systems
330                                                               Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                         In fiscal year 2005, the IRS implemented the Integrated Financial System (IFS) as its new core financial sys­
                         tem . IFS provides core financial accounting, budget management, cost management, labor projections, plan
                         development, and reporting capabilities . The IRS received an unqualified audit opinion in the first year of
                         IFS operation and continues to receive clean audit opinions . The Government Accountability Office (GAO)
                         did not identify any significant deficiencies or material weaknesses related to the IFS system during its audit
                         of the IRS’s financial statements . In fiscal year 2008, the IRS will continue to focus on the operation and the
                         maintenance of the IFS system .

                         The Custodial Detail Data Base (CDDB), implemented by the IRS in fiscal year 2006, serves as the subsid­
                         iary ledger for unpaid assessments and contains detailed transaction level data . CDDB supported the IRS’s
                         fiscal year 2006 financial audit by providing the ability to correctly classify portions of the duplication related
                         to unpaid payroll taxes .

                         During fiscal year 2007, the IRS successfully completed a second phase of the CDDB project, implementing
                         an interface between CDDB and the Interim Revenue Accounting and Control System (IRACS) data base
                         for the posting of unpaid assessments . Once IRACS is redesigned and the data are posted to the new IRACS
                         general ledger accounts, the IRS financial systems will be in substantial compliance with the Federal Financial
                         Management Improvement Act (FFMIA) .

                         The interface between CDDB and IRACS allowed the IRS to (a) post unpaid assessment data from CDDB
                         using the same financial classifications that are used for the financial statements, (b) post duplicate and
                         non-duplicate transactions related to unpaid payroll taxes, and (c) post related accrued penalty and interest
                         figures for the first time . The IRS also completed the programming for CDDB Release 2B in June 2007 . In
                         November 2007, the IRS will begin posting revenue transactions to CDDB, which will serve as the revenue
                         sub-ledger and maintain transaction level details . In fiscal year 2009, IRACS will be redesigned to serve as
                         the financial system for custodial reporting to conform to the U .S . Government Standard General Ledger
                         (USSGL) structure . The redesign will allow posting of amounts from CDDB as the sub-ledger to the proper
                         general ledger accounts .

                         In fiscal year 2007, the IRS also delivered new filing capabilities for the Customer Account Data Engine
                         (CADE), the replacement for the decades-old Master File legacy system . CADE posted over 11 .2 million
                         returns and issued 10 .9 million refunds which totaled in excess of $11 .6 billion . CADE will continue to
                         increase the number of returns posted and refunds issued, while maintaining additional accounts in the
                         CADE database .

                         As previously indicated, the Bureau of Public Debt’s Administrative Resource Center cross-services twelve
                         Treasury bureaus and reporting entities for core financial systems . In addition to the cross-servicing for core
                         financial systems, Treasury bureaus are also being cross-serviced for other financial management services, such
                         as electronic travel and human resource processing . This cross-servicing has resulted in a reduction in the
                         number of financial management systems maintained by the Department .




Material Weaknesses, Audit Follow-up, and Financial Systems
Part IV – Appendix E                                                                                                                      331




Federal Financial Management Improvement Act (FFMIA) Compliance
As of September 30, 2007, the Treasury Department’s financial management systems were not in substantial
compliance with FFMIA due to deficiencies with the IRS’s financial management systems . The IRS has
a remediation plan in place to correct the deficiencies . For each FFMIA recommendation, the remedia­
tion plan identifies specific remedies, target dates, responsible officials, and resource estimates required for
completion . This plan is reviewed and updated on a quarterly basis .

The Custodial Detail Data Base (CDDB) is a financial data warehouse that leverages existing legacy assets to
address the critical financial material weaknesses reported by the Government Accountability Office (GAO) .
Release 1 of CDDB uses the files from the subsidiary ledger of unpaid assessments to support the annual
financial statement audit .

In fiscal year 2007, the IRS implemented the interface to post unpaid assessments from the CDDB to the
Interim Revenue Accounting and Control System (IRACS) database . The IRS also completed the program­
ming to input revenue transactions to the CDDB warehouse to serve as the sub-ledger for revenue and pro­
viding transaction level details . CDDB incrementally builds to FFMIA compliance, and each CDDB future
release addresses one or more of the material weaknesses in financial reporting . The IRS incorporated addi­
tional milestones for developing Releases 2 and 3 into its material weakness and FFMIA remediation action
plans, and will continue to report on remediation activities related to future releases of CDDB . In fiscal
year 2009, the IRACS will be redesigned to serve as the financial system for custodial reporting to conform
to the U .S . Government Standard General Ledger (USSGL) structure . The redesign will allow posting of
amounts from CDDB as the sub-ledger to the proper general ledger accounts . With full implementation of
all CDDB releases and this redesign of IRACS, the IRS expects to be in substantial compliance with FFMIA .




                                                                                   Material Weaknesses, Audit Follow-up, and Financial Systems
332                                                           Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                                              This page intentionally left blank


Material Weaknesses, Audit Follow-up, and Financial Systems
Part IV – Appendix F                           333




Appendix F:
Organizational Structure




                           Organizational Structure
334                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           This page intentionally left blank


Organizational Structure
Part IV – Appendix G                                                                                                                                      335




Appendix G:
Program Assessment Rating
Tool (PART) Evaluations

 Departmental Office                                                                                             FY PARTed: FY 2002
 Program: Economic and Trade Sanctions - Office of Foreign Asset Control
 Rating: Results Not Demonstrated
 OMB Found:
  •  The program lacks long-term performance goals with specific targets .
  •  The program has not yet instituted annual performance goals to determine the effectiveness of its sanctions .
  •  The program is lacking unit cost measures .
 In Response, DO:
  •  Developed a qualitative assessment on the impact of OFAC’s sanctions programs . OFAC has conducted one qualitative
     assessment on the impact of economic sanctions against Colombian drug cartels, published in March 2007 . This is a demon­
     strative, narrative report that identifies the policy purpose of sanctions against Colombian narcotics traffickers, how OFAC
     developed a program to address this policy, and it provides specific examples that are both indicative of how OFAC actions
     meet the purposes of the sanctions and their overall impact . OFAC intends to issue additional qualitative reports in this vein
     on other sanctions programs, including the possibility of issuing shorter reports that highlight accomplishments . OFAC has
     numerous sanctions programs, such as its Foreign Narcotics Kingpin program and WMD programs, which could be the sub­
     ject of upcoming reports .


 Internal Revenue Service                                                                                        FY PARTed: FY 2002
 Program: Earned Income Tax Credit
 Rating: Ineffective
 OMB Found:
  •  The program has failed to reduce EITC erroneous payments to acceptable levels . While IRS prevents roughly $1 billion in
     erroneous EITC payments per year, 27 to 32 percent of all EITC payments were still made in error for 1999 . The magnitude
     of this error rate is the reason for the rating of “ineffective .”
  •  IRS has a strong planning process closely linked to its budget process, but it has not yet used outcome information for this
     program to set performance targets that allow it to demonstrate results .
  •  IRS has made numerous management improvements in recent years . However, its financial management systems do not pro­
     vide the information needed to make effective day to day management decisions .
  In Response, IRS:
  •  Completed development of a new Concept of Operations, a multi-year vision that will drive development of expanded and
     new EITC Program strategic initiatives . Include a Paid Preparer strategy with goals of establishing indicators to define levels
     of preparer non-compliance and developing treatment alternatives that align treatment intensity with level of paid-preparers’
     behavior; and goal of establishing an outreach and education component which will leverage various partners . Measures will
     be developed once the specific solutions in our Concept of Operations are established . Since paid preparers prepare 70 percent
     of EITC returns, the Service plans to include compliance and outreach focus on them to influence EITC error .




                                                                                                             Program Assessment Rating Tool (PART) Evaluations
336                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           Community Development Financial Institution                                                                          FY PARTed: FY 2002
                           Program: Bank Enterprise Award
                           Rating: Results Not Demonstrated
                           OMB Found:
                            •  This program is unable to measure results because it can not determine how awardees would behave in the absence of the
                               program .
                            In Response, CDFI is:
                            •  Working with Congress to consolidate this program into a more efficient and effective federal program within the
                               Department of Commerce and the Department of Housing and Urban Development .


                           Departmental Office                                                                                                  FY PARTed: FY 2002
                           Program: International Development Association
                           Rating: Adequate
                           OMB Found:
                            •  The International Development Association is in the process of improving its performance measurement and performance-
                               based budget allocations . In the latest donor negotiation, the World Bank and its donors agreed to significantly expand and
                               improve the result measurement framework to increase the Association’s effectiveness in achieving key development results in
                               areas such as education .
                            •  The latest donor negotiation agreed to implement reforms to significantly improve the ability of the poorest countries to
                               handle their debts . In particular, the International Development Association will increase the share of funding for grants for
                               the most debt-vulnerable countries to roughly 30 percent, making progress towards the President’s goal of 50 percent .
                            •  The International Development Association is improving transparency and access to its information . The United States
                               helped secure significant improvements by insisting on a review of the World Bank’s internal financial controls and the
                               disclosure of individual country’s performance scores under the International Development Association’s new performance
                               measurement system .
                           In Response, DO is:
                            •  In fiscal year2006, Congress authorized U .S . contributions of $950 .0 million per year from 2006 to 2008 to institute reforms
                               agreed to for the fourteenth replenishment to the International Development Association (IDA) . For fiscal year2006 and
                               fiscal year2007 Congress did not fully fund the President’s request, appropriating $940 .5 million and $909 .150 million
                               respectively . Presently, U .S . arrears to IDA as of end-fiscal year2007 total $377 .9 million . For fiscal year2008, the President’s
                               budget request included $950 .0 million for the U .S . annual commitment and $110 million to pay a part of U .S . arrears to
                               IDA .
                            •  Due to U .S . efforts, the development of the IDA14 Results Measurement System (RMS) was a major development in the
                               broader effort to improve IDA’s effectiveness and track the impact of its resources . By most institutional measures, the quality
                               of IDA’s programs and achieved development impact, has improved over the past several years, while the U .S . continues to
                               push for further progress . The IDA14 RMS data is updated by replenishment, a three-year cycle, and the next update will be
                               in November, 2007 .
                            •  The World Bank, working in collaboration with the IMF, recently developed a robust framework for annual monitoring of
                               debt levels and debt sustainability for grant as well as debt relief recipients . This debt sustainability framework is being used
                               to determine the grant level of IDA individual country allocations with 100 percent grant financing for the poorest and most
                               debt distressed countries . IDA is also working to increase the technical assistance it provides for debt capacity management .




Program Assessment Rating Tool (PART) Evaluations
Part IV – Appendix G                                                                                                                                       337




 Office of Thrift Supervision                                                                                     FY PARTed: FY 2002
 Program: Thrift Supervision
 Rating: Effective
 OMB Found:
  •  The program contributes to the safety and soundness of the banking industry .
  •  The program recently developed new goals that are outcome-oriented and program measurements which are clear and the
     program is efficiently and effectively managed .
  •  The program is not unique because other Federal agencies perform similar types of regulatory functions in the banking
     industry .
 In Response, OTS is:
  •  Working with Federal banking regulatory agencies to align outcome goals and related measures to allow for greater compari­
     son of program performance in the industry .
  •  Conducting comprehensive examination for both Safety and Soundness and Compliance instead of two separate examinations
     and providing one consolidated report of examination to institutions .
  •  Examining long-term systemic risks in the industry .

 Internal Revenue Service                                                                                         FY PARTed: FY 2002
 Program: Tax Collection
 Rating: Results Not Demonstrated
 OMB Found:
  •  IRS collection of unpaid taxes yields substantial revenue ($18 billion in 2001) . However, IRS does not work enough col­
     lection cases with its current resources, work processes and technology to ensure fair tax enforcement . Each year billions of
     dollars of unpaid taxes goes uncollected .
  •  IRS has been working to make management improvements in the last several years, including implementing good output
     measures . However, its financial management systems do not provide the information needed to make effective day to day
     management decisions .
  •  IRS has a strong planning process closely linked to its budget process . IRS is currently developing improved collection out­
     come measures and goals .
 In Response, IRS is:
  •  Implementing new tools in 2007 to segment collection workload according to risk to ensure IRS takes the right action to secure
     delinquent taxes .
  •  Implementing legislation - including strong taxpayer rights protections - allowing IRS to hire private collection agents to help
     secure delinquent tax debt (full implementation by January 2008) .
  •  Reviewing the effectiveness of the revised collection performance measures of workload coverage and efficiency . Information
     from these measures will be used in the development of the 2008 budget .




                                                                                                              Program Assessment Rating Tool (PART) Evaluations
338                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           U.S. Mint                                                                                                       FY PARTed: FY 2002
                           Program: Coin Production
                           Rating: Effective
                           OMB Found:
                            •  The Mint has established performance measures focused on customer satisfaction and improving cost efficiencies . For
                               instance, the Mint reports the results of a Federal Reserve Board Customer Satisfaction survey .
                            •  The Mint needs to improve customer satisfaction survey scores .
                            •  The Mint has shown some efficiency improvements in achieving reduced manufacturing costs . The Mint has achieved a 19
                               percent reduction in manufacturing costs since 1997 .
                           In Response, Mint is:
                            •  Reducing the maintenance down time of coin manufacturing machinery .
                            •  Competing customer service and order mailing staff to determine if contractors could handle these functions more efficiently .
                            •  Establishing a performance target to reduce the time required to process raw materials into produce coins .

                           Alcohol & Tobacco Tax and Trade Bureau                                                                          FY PARTed: FY 2002
                           Program: Consumer Product Safety Commission
                           Rating: Adequate
                           OMB Found:
                            •  The program has a clear and unique Federal role as the only Federal agency with the authority to identify and address risks
                               posed by over 15,000 types of consumer products .
                            •  Long-term goals and annual performance measures are concrete, measurable, and directly support the agency’s mission . CPSC
                               is on track to achieve its long-term performance goal of a 20 percent reduction in the death rate from fires involving con­
                               sumer products by 2013 . Annual performance measures were revised to better indicate performance .
                            •  CPSC recently improved its management practices by developing a better way to systematically review its current regulations .
                           In Response, TTB is:
                            •  Establishing broader, more comprehensive long-term goals consistent with CPSC’s overall mission .
                            •  Ensuring budget requests are explicitly tied to the accomplishment of annual and long-term performance goals, and that
                               resource needs are presented clearly in the budget .


                           Office of the Comptroller of the Currency                                                                       FY PARTed: FY 2002
                           Program: Bank Supervision
                           Rating: Effective
                           OMB Found:
                            •  The program contributes to the safety and soundness of the banking industry .
                            •  The program goals are outcome-oriented, program measurements are clear, and the program is efficiently and effectively
                               managed .
                            •  The program is not unique in that other Federal agencies perform similar types of regulatory functions in the banking
                               industry .
                           In Response, OCC is:
                            •  Developing common measures of performance for the Federal banking regulatory agencies so each program’s performance can
                               be compared and best practices can be shared .




Program Assessment Rating Tool (PART) Evaluations
Part IV – Appendix G                                                                                                                                         339




 Departmental Office                                                                                                FY PARTed: FY 2003
 Program: Office of Technical Assistance
 Rating: Adequate
 OMB Found:
  • 	Independent evaluations have not assessed the program’s effectiveness . State and Treasury Inspectors General and the

     Government Accountability Office have reviewed aspects of the program, but none has evaluated effectiveness in advising

     foreign governments .

  • 	Budget requests are not explicitly tied to accomplishment of goals such as increases in annual per capita income, and resource
     needs are not presented in a complete and transparent manner in the program’s budget .
  • 	The program does not routinely measure and achieve efficiencies in program execution . The program lacks efficiency mea­
     sures to compare relative costs .
  In Response, DO is:
  • 	Implementing the Project Management Tracking System .
  • 	Developing long-term and annual measures and targets .

 Departmental Office                                                                                                FY PARTed: FY 2003
 Program: African Development Fund
 Rating: Results Not Demonstrated
 OMB Found:
  •  The African Development Fund is starting to improve its performance measurement and use of performance-based funding
     allocations . In the latest donor negotiation, the Fund and donors agreed to implement better results measurement for key
     development goals, such as education, and reconfirmed the allocation of funding towards better-performing countries, but
     more remains to be done .
  •  In the negotiations, the Fund and donors agreed to reforms to improve the ability of the poorest countries to handle their
     debts . In particular, they agreed that grants to assist the poorest countries will be expanded based on countries’ debt vulner­
     ability . Grants are expected to rise to more than one-third of the Fund’s assistance .
  •  Accountability and transparency require additional improvements . The Bank Group has established a new anti-corruption
     and fraud unit and improved internal financial controls . The Bank Group is also expanding public access to its documents but
     more remains to be done .
 In Response, DO is:
  •  Working with Congress to secure $136 million annually for the period 2006 to 2008 to fund the U .S . commitment to the
     latest African Development Fund replenishment .
  •  Monitoring the Fund’s effectiveness in achieving its development objectives, including its progress in measuring and meeting
     development objectives across-the-board .
  •  Working with Fund and other donors to improve the ability of developing countries to handle their debt, including providing
     grants to the most debt-vulnerable countries using the Fund .




                                                                                                                Program Assessment Rating Tool (PART) Evaluations
340                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           Bureau of Engraving and Printing                                                                                  FY PARTed: FY 2003
                           Program: New Currency Manufacturing
                           Rating: Effective
                           OMB Found:
                            •  The program’s New Currency program has a clear purpose, is well planned, and is managed effectively .
                            •  The program met the initial production and timeline goals of its New Currency program with the rollout of the new twenty
                               dollar bill in 2003 .
                            •  The program has adequate long-term targets and timeframes, including planned rollouts of counterfeit deterrent features for
                               use in future generation notes through the next 7 to 10 years .
                           In Response, BEP is:
                            •  Working closely with the Advanced Counterfeit Deterrent Steering Committee to identify and evaluate future counterfeit
                               deterrent designs .
                            •  Continuing to work with the Advanced Counterfeit Deterrent Steering Committee to assess the impact of New Currency on
                               counterfeiting performance measures across government .
                            •  Monitoring its design and overhead costs related to the manufacture of New Currency to ensure the most efficient production
                               and distribution of future denominations .


                           Financial Management Services                                                                                     FY PARTed: FY 2003
                           Program: Debt Collection
                           Rating: Effective
                           OMB Found:
                            •  The program has a clear purpose, is well designed, well managed, and generally meets or exceeds its annual performance
                               targets . In 2005, the program collected $3 .25 billion in delinquent debts owed to Federal agencies and States, up from $2 .84
                               billion in 2002 .
                            •  The program has the potential to collect additional delinquent debt . Its effective performance indicates that it is capable of
                               taking on additional debt collection activities . Legislation to increase and enhance debt collection opportunities should be
                               sought .
                           In Response, FMS is:
                            •  Establishing annual performance measures for collections and referrals of debt by agencies . Listed are examples of collec­
                               tion tools and initiatives used by FMS to achieve long-term measures: 1) Administrative Wage Garnishment (AWG), 2)
                               DebtCheck, 3) Continuous Agency Outreach 4) President’s Management Agenda (PMA), 5) Receivables Reporting
                            •  Examining, through the Federal Contractor Tax Compliance Task Force consisting of FMS, IRS, and the Center for Medicare
                               and Medicaid Services, the issue of how best to incorporate CMS payments to Medicare providers into the Federal Payment
                               Levy Program .
                            •  Fully funding FMS’ Debt Collection Budget Activity by fee revenues in fiscal year 2008, as a result of increased debt revenues .
                            •  Supporting numerous legislative proposals enabling them to significantly enhance their debt collection opportunities . Listed
                               are some of the debt collection enhancement proposals for 2007-08: 1) (26 U .S .C . 6402) Offsets of past-due, legally enforce­
                               able state unemployment compensation debts against overpayment; this proposal will allow FMS to offset federal tax refunds
                               to collect past-due state unemployment compensation debts . This proposal is contained in President’s fiscal year 2008
                               Budget and Briefed Senate finance 4/13/07 . 2) (21 U .S .C . 3716) Eliminate the Ten-year period of Offset . This proposal will
                               eliminate the ten-year limitation on the collection of delinquent non-tax deferral debts by administrative offset . This proposal
                               is contained in President’s fiscal year 2008 Budget and Briefed Senate Finance 4/13/07 . 3) Allow the IRS to issue its due
                               process notice for levy after the levy has been served . Contained in President’s fiscal year 2008 Budget . Briefed Senate Finance
                               4/13/07 .Under consideration for inclusion in Senate Finance Committee “Good Government” bill . 4) Allow the offset of
                               federal tax refunds for delinquent state tax for out-of-state residents . This will allow FMS to offset federal income tax refunds
                               for delinquent state tax debt of residents who currently reside in a different state . Under consideration for inclusion in Senate
                               Finance “Good Government” bill .
                            •  Evaluating and updating the debt long-term measure as part of FMS’ Strategic Plan update . For 2007, FMS has a target of
                               $3 .2 billion in collections .




Program Assessment Rating Tool (PART) Evaluations
Part IV – Appendix G                                                                                                                                        341




 Bureau of Public Debt                                                                                             FY PARTed: FY 2003
 Program: Administering the Public Debt
 Rating: Effective
 OMB Found:
  •  The Bureau of the Public Debt has a clear purpose and is well designed and managed .
  •  The program meets it annual performance goals and continues to improve targets for subsequent fiscal years .
  •  The program lacks long-term performance measures and targets .
 In Response, BPD:
  •  Created goals for the following programs: Wholesale Securities Services, Government Agency Investment Services, and
     Summary Debt Accounting programs .
  •  Plans to develop a new long-term PART goal for its Retail Securities program by the end of fiscal year 2010 .

 Financial Management Services                                                                                     FY PARTed: FY 2004
 Program: Collections
 Rating: Effective
 OMB Found:
  •  The program has a clear purpose, is well designed, well managed, and generally meets or exceeds its annual performance
     targets . In 2005, the program collected $3 .25 billion in delinquent debts owed to Federal agencies and States, up from $2 .84
     billion in 2002 .
  •  The program has the potential to collect additional delinquent debt . Its effective performance indicates that it is capable of
     taking on additional debt collection activities . Legislation to increase and enhance debt collection opportunities should be
     sought .
 In Response, FMS is:
  •  Has initiated a comprehensive effort to streamline, modernize and improve the processes and systems supporting Treasury’s
     collections and cash management program . This effort will improve financial performance by enabling FMS and government
     agencies to more effectively manage financial transaction information and improve the efficiency of the collections informa­
     tion reporting processes .
  •  Partnered with the State of Illinois to pilot joint Federal and state tax payments through the Electronic Federal Tax Payment
     System (EFTPS) . An evaluation is underway to determine whether this pilot can be expanded cost-effectively to additional
     states . For Fiscal Year 2007, EFTPS processed more than 90 million payments, an increase of 8 percent, over fiscal year 2006;
     and collected more than $2 .09 trillion, representing an increase in receipts of over 8 percent from last year .
  •  Will continue to promote its other electronic collection mechanisms such as: 1) Electronic Check Processing (ECP) System
     which converts paper checks received at a lockbox to electronic debits or truncates the checks and processes the images via
     Check 21 . All non-tax lockbox collections will be collected through ECP by the end of 2007 and we expect to convert tax
     lockbox collections by the end of 2009; 2) Pay .gov collects money for 99 Federal agencies . FMS will be working with a
     number of Federal agencies, including the Departments of Housing and Urban Development and Education to move their
     large cash flows to Pay .gov; 3) The Paper Check Conversion Over the Counter (PCC OTC) System converts paper checks to
     electronic debits or truncates the checks and processes the images via Check 21 . PCC OTC supports 32 Federal agencies in
     the U .S . and overseas; 4) TGAnet, a web-based deposit reporting system for over-the-counter collections, is now capable of
     supporting activity for both domestic and international deposits . FMS will continue to convert more agencies and banks to
     TGAnet over the next few years .
  •  Will operate within budgetary resources .




                                                                                                               Program Assessment Rating Tool (PART) Evaluations
342                                                                        Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           U.S. Mint                                                                                                       FY PARTed: FY 2004
                           Program: Numismatic
                           Rating: Effective
                           OMB Found:
                            •  The program has made enormous strides over the past several years to streamline the production of numismatic products .
                               Between 1999 and 2003, the Mint reduced costs by 38 percent and reduced workforce by 50 percent . During that same time
                               period, production levels increased by 46 percent .
                            •  The Mint has an excellent internal management structure that is able to receive and analyze real-time financial, production,
                               and other operating data on a daily basis . This enables the Mint to respond quickly to changing production and customer
                            •  The Mint is making significant progress toward meeting its inventory turnover target of 4 .2 in 2005, which reflects the num­
                               ber of times per year the Mint works through its inventory . This measure improved 27 percent from 1 .96 in 2003 to 2 .48 in
                               2004 . By improving performance, the Mint reduces costs associated with inventory and the production planning process runs
                               more efficiently .
                           In Response, Mint is:
                            •  Continuing substantial progress toward reaching the Mint’s target goal for inventory turnover .
                            •  Continuing to streamline the production of numismatic products in order to reduce costs to improve efficiency .

                           Internal Revenue Service                                                                                        FY PARTed: FY 2004
                           Program: Taxpayer Advocate Service
                           Rating: Moderately Effective
                           OMB Found:
                            •  The quality of the Advocate’s case work on behalf of taxpayers has improved from 71 percent with quality standards in 2001
                               to 90 .5 percent in 2004 .
                            •  Taxpayer hardship cases caused by flaws in IRS’ business processes have declined from 217,081 in 2001 to 129,382 in 2004
                               as the Advocate has worked with IRS program managers to improve processes .
                            •  During the assessment, the program set goals and developed an efficiency measure . These include achieving a 100 percent
                               closure-to-receipts ratio through 2010, 95 percent case quality score by 2009, and 4 .53 (out of 5) customer satisfaction score
                               by 2009 . Efficiency is measured by counting the reduction in the quantity of taxpayer problems resulting from flaws in IRS’
                               business processes .
                           In Response, IRS is:
                            •  Developing a unit cost measure for its casework by 2006 (delayed to 2008) .
                            •  Exploring other means to measure its effectiveness in solving systemic problems leading to taxpayer hardship . IRS will report
                               its findings in 2006 for possible inclusion in its fiscal year 2008 Budget .
                            •  Improving case quality to 91 .5 percent by 2006, 93 percent by 2009, and 95 percent by 2014 .




Program Assessment Rating Tool (PART) Evaluations
Part IV – Appendix G                                                                                                                                      343




 Departmental Office                                                                                             FY PARTed: FY 2004
 Program: Global Environment Facility
 Rating: Results Not Demonstrated
 OMB Found:
  •  The Global Environment Facility has been very slow to implement the reforms agreed to in 2002 as part of the last donor
     negotiation, the GEF-3 replenishment . Several of those reforms are incomplete, such as some performance related reforms .
     Several of these issues remain part of the current negotiations begun in 2005 to replenish the Facility’s funding .
  •  The Facility has not yet fully instituted key performance improvements . For example, the Facility has not fully instituted
     improvements in the measurement of environmental results and implementation of a system to prioritize the allocation of its
     funding based on country performance and environmental benefit .
  •  The Facility lacks strong anti-corruption mechanisms . These include, for example, setting high standards, independent audit
     functions, financial disclosure and codes of ethics, obtaining clean annual external financial audits, and implementing pro­
     curement based on best practices .
 In Response, DO is:
  •  Working with the Facility donors to fully implement a performance-based funding allocation system based on relative country
     performance and environmental benefit . (In 2005, the GEF agreed to a performance-based allocation framework . It is now
     operational for two-thirds of GEF resources) .
  •  Working with the Facility and donors to establish ambitious long-term performance goals and measures and undertaking
     more rigorous evaluations of project performance . (The GEF-4 Replenishment agreement includes ambitious performance
     goals and measures, and in 2007, the GEF instituted a performance measurement framework . The GEF Evaluation Office
     has enhanced the quality of project evaluation . The GEF Evaluation Office has enhanced the quality of project evaluation) .
  •  Working with the Facility and donors to strengthen anti-corruption mechanism, including establishing high fiduciary stan­
     dards and achieving clean annual audits from independent external auditors . (In June 2007, the GEF established minimum
     fiduciary standards, consistent with best international practice, for all agencies that receive GEF funding) .


 Internal Revenue Service                                                                                        FY PARTed: FY 2004
 Program: Taxpayer Service
 Rating: Adequate
 OMB Found:
  •  IRS has significantly improved taxpayer service and maintained high levels of customer satisfaction in recent years . In 2001,
     the IRS was able to answer only 62 percent of taxpayer calls . In 2005, IRS had improved this to 83 percent with a 94 percent
     customer satisfaction rate .
  •  IRS continues to have trouble with the accuracy of answers . In 2004, IRS estimates only 80 percent of tax law calls were
     answered accurately (improved to 89 percent in 2005) . Accuracy is a significant challenge given the complexity of the tax
     code .
  •  IRS has developed a strong set of balanced measures (quality, customer satisfaction and results) to understand its taxpayer
     service performance . During the assessment, the IRS added an efficiency measure (customer contacts per staff year) for this
     program .
 In Response, IRS is:
  •  Converting to cost based efficiency measures for the 2007 budget (e .g ., cost per call answered) and adding efficiency measures
     for service processes for management . (Delayed until 2008)
  •  Improving the accuracy of tax law telephone information provided to taxpayers to 90 percent accuracy by 2010 .
  •  Improving program performance by researching the impact of taxpayer service programs on voluntary compliance and report­
     ing findings by 2007 . (Delayed until 2008)




                                                                                                             Program Assessment Rating Tool (PART) Evaluations
344                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           Community Development Financial Institution                                                                      FY PARTed: FY 2004
                           Program: Financial and Technical Assistance
                           Rating: Adequate
                           OMB Found:
                            •  This program duplicates several Federal, state and private community and economic efforts .
                            •  The program has long-term and annual performance measures but has not the opportunity to demonstrate success in accom­
                               plishing its long-term goals .
                           In Response, CDFI is:
                            •  Not taking any action because fewer than ten states administer CDFI programs and none of these state programs fully meet
                               the capital needs of the CDFIs in its state . Furthermore, there are too few private sector equity investments available to meet
                               CDFIs needs for capital .


                           Community Development Financial Institution                                                                      FY PARTed: FY 2004
                           Program: New Markets Tax Credit
                           Rating: Adequate
                           OMB Found:
                            •  The program has established meaningful long-term and annual performance measures .
                            •  The program needs to measure progress towards achievement of its goals .
                           In Response, CDFI is:
                            •  Establishing and refining baselines and targets for its long-term and annual measures .
                            •  Conducting an independent evaluation of the program in 2006 .

                           Departmental Office                                                                                              FY PARTed: FY 2005
                           Program: Asian Development Fund
                           Rating: Results Not Demonstrated
                           OMB Found:
                            •  The Fund recently agreed to improve its performance measurement and performance-based allocations . In the latest donor
                               negotiations, the AsDF-9 replenishment, the Fund and donors adopted several important reforms to improve performance
                               and to implement results measurement, including launching the Managing for Results action plan . These reforms remain to
                               be implemented and expanded in the future .
                            •  AsDF-9 agreed to reforms to improve the ability of the poorest countries to handle their debts . In particular, it established a
                               new program to give 30 percent of funding in the form of grants to these countries . These reforms remain to be implemented .
                            •  Transparency and accountability in the Bank Group are improving . AsDF-9 requires more transparency through improved
                               information disclosure and communication policies . The Bank Group’s anti-corruption and auditing procedures require
                               improvements .
                           In Response, DO is:
                            •  Working with Congress to secure $115 million annually for the period 2006 to 2009 to fund the U .S . commitment to the
                               latest Asian Development Fund replenishment (AsDF-9) .
                            •  Monitoring the Fund’s improvements and implementation of measures to show its effectiveness in achieving development
                               goals, including its progress in meeting development objectives across-the board .
                            •  Working with Fund and other donors to improve the ability of developing countries to handle their debt, including increasing
                               the amount of grants for the most debt-vulnerable Asian countries .




Program Assessment Rating Tool (PART) Evaluations
Part IV – Appendix G                                                                                                                                        345




 Financial Crimes Enforcement Network (FinCEN)                                                                     FY PARTed: FY 2005
 Program: Bank Secrecy Act (BSA) Data, Collection, Retrieval and Sharing
 Rating: Moderately Effective
 OMB Found:
  •  The program has long-term performance measures that focus on the program’s purpose and strategic goals, but more work is
     needed to measure the quality of data collected . The program is looking at how to measure data quality .
  •  Federal managers are held accountable for cost, schedule and performance results . However, some activities are managed by
     another entity and are outside the scope of the performance measures .
  •  The program can show improved efficiencies and cost effectiveness for collecting and sharing data . The program has been able
     to show substantial increases in the number of users directly accessing data, the share of filings submitted electronically, and
     improved cost effectiveness for costs per form e-Filed .
 In Response, FinCEN is:
  •  Reducing filing burden on the financial community, including streamlining reporting obligations and increasing feedback and
     notices to filers .
  •  Working with stakeholders to identify additional steps on how to increase efficiency in completing and filing required reports .
  •  Implementing the BSA Data Management framework to increase the quality of BSA data and review progress of this imple­
     mentation to identify ways to simplify or improve the process .
  •  Implementing a minimum of two releases of system changes to address between 20-25 percent of prioritized issues .

 Internal Revenue Service                                                                                          FY PARTed: FY 2005
 Program: Criminal Investigations
 Rating: Moderately Effective
 OMB Found:
  •  The tax gap, the difference for a given year between taxes legally owed and taxes actually paid, for 2001 (latest available figure)
     is estimated to be between $312 and $353 billion . Criminal Investigation is one of the major IRS programs intended to mini­
     mize this revenue loss .
  •  Research suggests that higher levels of criminal sentences lead to higher tax compliance . IRS has succeeded in raising convic­
     tions in recent years . They rose from 1,926 in 2002 to 2,215 in 2005 . However, they remain low by historical standards (in
     1996 convictions totaled 2,915) .
  •  IRS has set long term goals and efficiency measures . However, it has difficulty measuring compliance in a timely manner due
     to the complexity and expense involved and in holding employees accountable for performance due to legal restrictions .
 In Response, IRS is:
  •  Exploring methods for measuring the impact of criminal investigations on tax compliance . IRS will report on its progress by
     the end of 2006 .
  •  Implementing a new information management system in 2006 to enhance investigative case tracking and improve efficiency .
  •  Developing methods to improve case prioritization in 2006 to ensure that cases yield the greatest impact on compliance .




                                                                                                               Program Assessment Rating Tool (PART) Evaluations
346                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           Internal Revenue Service                                                                                           FY PARTed: FY 2005
                           Program: Examinations
                           Rating: Moderately Effective
                           OMB Found:
                            •  The tax gap, the difference for a given year between taxes legally owed and taxes actually paid, for 2001 (latest available figure)
                               is estimated to be between $312 and $353 billion . Examination is one of the major IRS programs intended to minimize this
                               revenue loss .
                            •  After dropping substantially in the late 1990s, IRS’ audit rates have begun to rise and will continue to increase, largely
                               through productivity growth . IRS’ audit rate has grown from a low of 1 .49 percent (i .e ., less than two returns in one hundred
                               audited) in 2001 to 3 .09 percent in 2005 .
                            •  IRS has set long term goals and efficiency measures . However, it has difficulty measuring compliance in a timely manner due
                               to the complexity and expense involved and in holding employees accountable for performance due to legal restrictions . It also
                               needs cost based efficiency measures .
                           In Response, IRS is:
                            •  Researching tax compliance of S-corporations (a popular business form where profits are taxed only once passed through to
                               the owners) based on a statistically valid sample of the filing population .
                            •  Improving tools for selecting the most productive audit cases by 2007 using the detailed compliance information gathered in
                               the recent individual tax gap study .
                            •  Introducing cost based efficiency measures by 2008 (e .g ., enforcement revenue/program budget) .

                           Internal Revenue Service                                                                                           FY PARTed: FY 2005
                           Program: Submission Processing
                           Rating: Moderately Effective
                           OMB Found:
                            •  More Americans are electronically filing their taxes . Electronic filing is growing more than 10 percent per year . However, this
                               growth is not sufficient for IRS to meet the legislative goal of 80 percent electronic filing by 2007 . Congress has not yet acted
                               on the Administration’s proposals to accelerate the increase in electronic filing .
                            •  Every return converted from paper to electronic filing saves the IRS $2 .15 in processing costs . More importantly, electroni­
                               cally filed returns have a less than one percent error rate compared to five percent for paper filed returns, saving taxpayers time
                               and money . Finally, according to the annual American Customer Satisfaction Results report electronic filers have high satisfac­
                               tion rates .
                            •  Based on IRS’ recently completed tax gap study, approximately 13 percent of refund dollars (excluding earned income tax
                               credit refunds) are paid in error . With current third party reporting and technology, IRS is unable to identify and prevent
                               these errors during processing .
                           In Response, IRS is:
                            •  Seeking legislative changes to promote electronic filing, including greater authority to require electronically-filed returns .
                            •  Setting goals by 2007 for reduced taxpayer filing burden resulting from the time and expense of preparing and filing their
                               returns .
                            •  Using a single cost based efficiency measure by 2008 (cost per return processed) .




Program Assessment Rating Tool (PART) Evaluations
Part IV – Appendix G                                                                                                                                      347




 U.S. Mint                                                                                                       FY PARTed: FY 2005
 Program: Protection Program
 Rating: Effective
 OMB Found:
  •  The Mint has developed adequate long-term performance measures with ambitious targets and timeframes . The Mint’s target
     for total losses is $250,000 in 2005 and $0 in 2010 .
  •  Mint’s Protection program has a clear purpose, is well planned, and managed effectively . However, it is somewhat duplicative
     of other Federal efforts aimed at protecting money, such as the Bureau of Engraving and Printing, and the Federal Reserve
     Police forces .
  •  The Mint regularly achieves its annual performance goals and works with other law enforcement partners to assess threat lev­
     els and assist in achieving future goals . The Mint is a participant in the multi-agency Counter-Terrorism Program .
 In Response, Mint is:
  •  Continuing to assess and implement ways in which the cost of protection per square foot can be minimized .
  •  Continuing to improve employee confidence in the United States Mint protection program .

 Alcohol & Tobacco Tax and Trade Bureau                                                                          FY PARTed: FY 2005
 Program: Collect the Revenue
 Rating: Effective
 OMB Found:
  •  The “Collect the Revenue” program has a clear purpose and is well designed to achieve its goals . TTB administers and ensures
     compliance with portions of the Internal Revenue Code dealing with collection of excise taxes on alcohol, tobacco, firearms
     and ammunitions and regulation of those manufacturers .
  •  The program has developed adequate long-term performance measures with ambitious targets and timeframes . TTB measures
     the percent of voluntary compliance in filing tax payments and will increase this target from 82 percent in 2004 to 92 percent
     in 2010 .
  •  The program has not developed adequate baselines for its annual performance measures . Three out of the four annual mea­
     sures do not have baselines .
 In Response, TTB is:
  •  Collaborating with other state and federal agencies to increase education outreach to regulated taxpayers, to increase voluntary
     compliance in filing tax payments .
  •  Simplifying tax forms in order to reduce taxpayer burden .




                                                                                                             Program Assessment Rating Tool (PART) Evaluations
348                                                                       Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           Financial Management Services                                                                                    FY PARTed: FY 2005
                           Program: FMS Payments
                           Rating: Effective
                           OMB Found:
                            •  The assessment found that the program has a clear purpose, is well managed, and generally meets its annual performance
                               targets . In 2005, the Program issued 100 percent of payments accurately and on time, and 76 percent of these payments were
                               made electronically (approximately 725 million of the 952 million total payments) .
                            •  The program must continue its effort towards an all-electronic Treasury . Each payment transaction that occurs electronically
                               saves the taxpayer about 75 cents and is more secure for the recipient .
                           In Response, FMS is:
                            •  Working with federal agencies to reduce the number of paper check payments and increasing the number of more efficient
                               and secure electronic payments . This reflects FMS’ efforts to work toward its 2010 goal of 90 percent of all payments made
                               electronically .
                            •  Continuing to promote its electronic payment mechanisms such as Stored Value Card (SVC), a smartcard, similar to a credit/
                               debit card, using an encrypted computer chip to process “electronic money” stored on the card and the Internet Payment
                               Platform (IPP) which provides a centralized electronic invoicing and payment information portal accessible to all participants
                               in federal payment transactions: agencies, payment recipients, and FMS .
                            •  Implementing Go Direct, a nationwide campaign to encourage current Federal check recipients to switch to direct deposit .
                               Go Direct has converted one million check recipients to direct deposit since its inception .
                            •  Implementing a pilot program, Direct Express, this is targeted at the un-banked, to disburse benefit payments through debit
                               cards .
                            •  Developing plans entitled Universal Direct Deposit which will require at some future date, which all newly enrolled beneficia­
                               ries receive payments electronically unless they do not have a bank account .


                           Bureau of Engraving and Printing                                                                                 FY PARTed: FY 2006
                           Program: Protection and Accountability
                           Rating: Effective
                           OMB Found:
                            •  This program is on track to reduce security costs by 43 percent from 2006 to 2012 . To do so, this program contracts with the
                               private sector, provides an incentive program to employees exceeding aggressive performance standards, and has implemented
                               a suggestion program that awards employees with a share of cost savings . From 2004 to 2006, BEP has saved over $1 .3 mil­
                               lion implementing employee suggestions .
                            •  This program maintains high consistency and reliability standards, demonstrated by its ISO 9001 certification . ISO is an
                               internationally recognized quality assurance program .
                            •  Guarding against theft is a priority of this program . However, since 2003 the Bureau reported two incidents of theft . After
                               each incident the program requested independent security professionals to conduct threat assessments of facilities and pro­
                               cesses . The program has been highly responsive to deficiencies found during these evaluations and has worked to implement
                               all recommendations .
                           In Response, BEP is:
                            •  Performing in-depth, annual assessments of the program’s security and accountability by an internal group not associated
                               with the program . In addition, performing in-depth assessments of the program’s security and accountability by contracting
                               with an outside group on a 2- to 3-year cycle . BEP continues to ensure the accountability of product and the safeguarding of
                               innovative counterfeit-deterrent technologies through stringent testing oversight, physical inventories; unannounced compli­
                               ance reviews, and independent audits of the quality management system which directly impacts security and accountability
                               monitoring .
                            •  Ensuring that proper accountability and security features are identified and addressed during each stage of acquisition and
                               instillation of new equipment . The BEP’s Internal Control Policy Committee have developed policies to ensure that from
                               concept, through solicitation to factory inspection and Bureau acceptance of new production equipment, accountability and
                               security personnel are directly involved to ensure that proper accountability and security features are identified and addressed
                               during each stage of acquisition and installation . In addition, if space is being reconfigured for production processes, the
                               Office of Security provides clearance to ensure proper camera coverage and two-person compliance .
                            •  Updating and revising its strategic plan, focusing on enhancing the Protection and Accountability program .



Program Assessment Rating Tool (PART) Evaluations
Part IV – Appendix G                                                                                                                                      349




 Financial Crimes Enforcement Network                                                                            FY PARTed: FY 2006
 Program: Bank Secrecy Act Administration
 Rating: Results Not Demonstrated
 OMB Found:
  •  The program has no long-term performance measures or targets to indicate accomplishment of its mission, but it has annual
     performance goals . The annual performance goals focus on BSA implementation .
  •  Questions have been raised concerning compliance and burden issues relating to the regulations that the Financial Crimes
     Enforcement Network (FinCEN) issues . FinCEN is currently performing a cost-benefit analysis, including a review of the
     regulatory burden, of a contemplated cross-border wire transfer reporting system .
  •  Although FinCEN has made progress in executing memoranda of understanding governing the exchange of information with
     federal and state regulatory agencies, additional time is needed to ensure BSA compliance in more vulnerable industries, par­
     ticularly money services businesses . The indicators developed will be long-term, outcome measures for the program .
 In Response, FinCEN is:
  •  Expanding outreach efforts to certain targeted industries to augment their understanding of the value of BSA data . The
     FinCEN has developed a BSA value presentation for standard outreach presentations and training sessions targeted toward
     depository institutions presented by the FinCEN . In fiscal year 2008, the FinCEN will continue including the BSA value
     presentation in standard outreach presentations, with a focus on expanding use of presentations to involve other covered
     industries
  •  Developing a long-range plan to expand compliance oversight and reporting by state regulators for newly covered industries .
     FinCEN is currently in discussions with the IRS, the federal banking agencies, and state regulatory agencies and their associa­
     tions to develop a long-range plan for compliance oversight over the money services business industry
  •  Developing measures to assess the impact of program activities on preventing the misuse of the financial system by those
     engaged in illicit activities . By the end of fiscal year 2007, the FinCEN will review options with management for possible
     measures
  •  Meeting with staff from the Office of Information and Regulatory Policy and OMB to discuss the tools and methods they
     employ when making cost/benefit decisions related to regulations .




                                                                                                             Program Assessment Rating Tool (PART) Evaluations
350                                                                      Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           Financial Management Services                                                                                  FY PARTed: FY 2006
                           Program: Government-wide Accounting and Reporting
                           Rating: Moderately Effective
                           OMB Found:
                            •  The program has a clear purpose, is well managed, and meets or exceeds its current performance targets . In 2006, 100 percent
                               of Government-wide accounting reports were issued accurately and on time .
                            •  The program must develop a baseline for its efficiency performance measure . While FMS has unit cost, timeliness, and accu­
                               racy measures in its internal and external performance reporting that are used to manage for improved efficiency, at the time
                               of this PART evaluation, a baseline for the new unit cost measure had yet not been established .
                            •  More work needs to be done in order to achieve a clean opinion on the Financial Report of the U .S . Government .
                               Improvement is needed on material weaknesses in the areas of accounting data compilation/consolidation and reconciliation
                               of intra-governmental reporting differences .
                           In Response, FMS is:
                            •  Developing a baseline for the efficiency performance measure that measures the unit cost to manage one million dollars of
                               cash flow .
                            •  Modernizing long standing federal accounting processes, through two major initiatives, and providing agencies with meth­
                               odologies and tools to improve the accuracy and consistency of their financial data: 1) The Government-wide Accounting
                               (GWA) Modernization project which will replace existing government-wide accounting functions and processes . This project
                               will improve the reliability, usefulness, and timeliness of the government’s financial information, provide agencies and other
                               users with better access to that information, and will eliminate duplicate reporting and reconciliation burdens by agencies,
                               resulting in significant government-wide savings . It will also improve the budgetary information being collected from the
                               agencies at the transaction level . 2) The Financial Information and Reporting Standardization (FIRST) initiative integrates
                               budget and financial reports from Federal Program Agencies . FIRST will improve the consistency of the budgetary and pro­
                               prietary accounting data recorded in agency financial statements and reported to FMS through its trial balance .
                            •  Taking the following actions to address un-reconciled intergovernmental transactions: 1) Requiring comprehensive intergov­
                               ernmental accounting data from agencies on a quarterly basis that will allow FMS to provide data to all federal agencies for
                               them to better analyze and reconcile intergovernmental differences . 2) Working with the CFO Council and OMB to enforce
                               the business rules for intra-governmental transactions and to organize the Dispute Resolution Committee . 3) Encouraging
                               greater auditor participation by requiring agency auditors to more closely scrutinize intergovernmental out-of-balance con­
                               ditions with other agencies . 4) Moving forward on the FIRST initiative which is being designed to provide authoritative
                               information contained in Treasury’s central accounting system to the agencies to facilitate the reconciliation process for spe­
                               cific intra-governmental transactions .




Program Assessment Rating Tool (PART) Evaluations
Part IV – Appendix G                                                                                                                                         351




 Financial Crimes Enforcement Network                                                                                FY PARTed: FY 2006
 Program: Bank Secrecy Act Analysis
 Rating: Adequate
 OMB Found:
  •  While the program has long-term performance measures in place, more time is needed to gauge the usefulness and impact of
     the program’s analysis activities .
  •  FinCEN currently administers a survey to its customers to evaluate the impact and usefulness of its analytic reports, but more
     work is needed to develop a method for better assessing the law enforcement impact of FinCEN’s analytic products .
  •  Although the Treasury Office of Inspector General has recently conducted an evaluation of the program’s internal processes
     in conducting analysis of BSA data, no evaluations to date have been conducted on the effectiveness of FinCEN’s analysis of
     BSA data in combating terrorism, money laundering and financial crime .
 In Response, FinCEN is:
  •  Developing a plan to improve the survey response rate from domestic law enforcement . FinCEN has devised a plan to
     improve its survey response rate .
  •  Evaluating the feasibility of better assessing law enforcement impact of FinCEN’s products . During fiscal year 2007, FinCEN
     is taking steps, including meeting with stakeholders, to evaluate the options for better assessing the law enforcement impact
     related to the utility of BSA data . In fiscal year 2008, based on the information collected, FinCEN will draft a recommenda­
     tion on the next steps to implement a process to collect information that would quantify the impact of utilization of BSA data
     to law enforcement
  •  Developing measures to assess the impact of FinCEN’s efforts to strengthen anit-terrorist financing and anti-money laun­
     dering programs worldwide; in fiscal year 2007, FinCEN determined that an annual customer survey would be the most
     appropriate mechanism . The FinCEN is identifying international liaison activities that could be utilized to measure impact,
     drafting a survey to solicit customer input, and creating a database to capture requisite contact information for potential
     respondents . The FinCEN plans to administer the survey and review and analyze the response rate in fiscal year 2008 .


 Internal Revenue Service                                                                                            FY PARTed: FY 2006
 Program: Health Care Tax Credit
 Rating: Results Not Demonstrated
 OMB Found:
  •  This tax credit has low participation . This can be attributed to the time it takes for other agencies to identify potentially
     eligible workers and for the Internal Revenue Service (IRS) to enroll them . Another likely cause is the affordability of coverage
     to potential recipients . It is also possible that many of those identified as potentially eligible may ultimately not to qualify .
  •  This program’s performance measures do not adequately capture the program’s success in providing access to the credit to
     potential beneficiaries . These measures cost per taxpayer served and customer satisfaction, do provide useful management
     information . The program also has not coordinated performance goals with the other agencies involved in implementing this
     program .
  •  The IRS successfully implemented this unique tax credit in 2003 . This required the creation of a new process outside of
     the normal tax filing system in a short timeframe . Since that time, in response to the low take up, the IRS has successfully
     reduced the cost of administering the credit by 50 percent .
 In Response, IRS is:
  •  Working with other participating federal agencies to developing long term goals by 2011 that capture the program’s success in
     providing access to the tax credit to potential beneficiaries .
  •  Working with partner federal agencies to find ways to improve access to the tax credit for eligible workers .
  •  Continuing to focus on administrative changes to lower program cost and improve taxpayer service .




                                                                                                                Program Assessment Rating Tool (PART) Evaluations
352                                                                      Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                           Internal Revenue Service                                                                                        FY PARTed: FY 2006
                           Program: Retirement Savings Regulatory Program
                           Rating: Adequate
                           OMB Found:
                            •  The Internal Revenue Service (IRS) cooperates with the Department of Labor and the Pension Benefit Guarantee
                               Corporation to protect retirement investors and to ensure that retirement related tax breaks are used for the intended pur­
                               poses . Tax breaks to retirement plans encourage savings total more than $100 billion per year .
                            •  Preliminary data from the program’s compliance study show that retirement plans are in compliance with legal standards
                               80 percent of the time . The IRS is working to improve this level by increasing enforcement efforts and improving targeting .
                               This compliance study is a critical element in this effort because it gives the IRS better information on the sources of non­
                               compliance .
                            •  IRS has had trouble processing requests for regulatory approval from retirement plans in a timely manner (less than 120 days) .
                               It is working to improve its performance in this area by implementing a new staggered schedule for retirement plan renewal
                               requests and improving productivity .
                           In Response, IRS is:
                            •  Working to nearly double enforcement efforts by 2011 in order to improve retirement plan compliance to 80 percent .
                            •  Improving efficiency, processing timeliness and case targeting through a new information management system and other
                               inventory selection tools implemented in 2007 .
                            •  Introducing cost based efficiency measures by 2008 .

                           Departmental Offices                                                                                            FY PARTed: FY 2007
                           Program: Debt Restructuring for Highly Indebted Poor Countries
                           Rating: Moderately Effective
                           OMB Found:
                            • The Enhanced Heavily Indebted Poorest Country Initiative has made significant changes to provide deeper debt reduction
                               for more countries, to allow for faster debt relief depending on country performance, and to encourage increased expenditures
                               related to poverty reduction .
                            •  Since this initiative was launched, there has been substantial progress in the number of countries that have qualified for debt
                               relief, the reduction of debt burdens, and increases in poverty-reducing expenditures .
                            •  However, improvements are needed to assure that disbursements between Treasury and creditor agency accounts are timely .
                           In Response, DO is:
                            •  Devising a program efficiency measure to improve record keeping of debt obligations and outlays between Treasury and credi­
                               tor agencies .
                            •  Developing proposals for increasing the number of creditors that make use of World Bank/IMF Debt Sustainability
                               Framework in their decisions about lending to low-income countries .
                            •  Developing an improved system of subsidy outlay from the debt reduction program account to the debt reduction financing
                               accounts .




Program Assessment Rating Tool (PART) Evaluations
Part IV – Appendix G                                                                                                                                     353




 Departmental Office                                                                                            FY PARTed: FY 2007
 Program: Tropical Forest Conservation Act
 Rating: Moderately Effective
 OMB Found:
  •  The Administration has developed a tool to help manage and measure the success of existing and pending agreements . This
     evaluation sheet measures the success of country boards and oversight committees in developing a strategic plan that specifies
     key objectives, conservation and funding priorities, target dates in meeting those objectives, and key efficiency measures .
  •  While the program measures the loss of forest cover in TFCA program countries, the program has been unable to measure its
     impact on increasing tropical forest conservation .
 In Response, DO is:
  •  Using information presented in evaluation sheets for existing programs to develop recommendations for improved program
     management, and to justify future funding requests .
  •  Tracking findings and implement recommendation of independent evaluations of existing programs with additional emphasis
     on effects of the programs on the beneficiary country’s forests .
  •  Refining the timing of fund obligation and outlays for the cost of debt reduction .




                                                                                                            Program Assessment Rating Tool (PART) Evaluations
354                                                 Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                                                    This page intentionally left blank


Program Assessment Rating Tool (PART) Evaluations
Part IV – Appendix H                                                                                                                    355




Appendix H:

Cost by Outcome Determination



The cost for an outcome was determined using the following method:


Process
Performance cost is determined for each bureau . These costs represent Treasury responsibility segments that
directly or indirectly contribute to the production of outputs through costing methodologies or cost finding
techniques that are most appropriate to the segment’s operating environment . The costs are accumulated, by
segment, in Treasury’s Department-wide data warehouse from balances recorded by the segments using the
United States Standard General Ledger (USSGL) . Performance cost includes imputed costs, depreciation,
losses, and other expenses not requiring budgetary resources . These costs exclude any Department accounts
that do not contribute to the cost of the agency, such as the Exchange Stabilization Fund and the Federal
Financing Bank . Performance cost will be less than the total gross cost reported on the Statement of Net
Cost in this report .

The Working Capital Fund (WCF), a resource that is funded through bureau contributions for corporate
use, is removed from the Departmental Office’s performance cost because it is already accounted for in each
bureau’s performance cost .

The percent of a bureau’s budget by each budget activity is calculated .

The bureau’s performance cost is allocated to a budget activity based on the percentage of that activity in the
total bureau budget .

The performance cost of each budget activity is then allocated across strategic plan outcomes . The allocation
is based on the percentage of the budget activity (primarily labor) that is attributed to a particular outcome .

Information is maintained in a flat file in Excel and pivot tables are used to calculate costs by area, outcome
and budget activity .


Accuracy of the Data
The performance cost information is considered reasonably accurate .

The allocation percentages for budget activities are considered accurate; these are direct calculations from
enacted budget numbers, and include both direct and reimbursable dollars .

The allocation percentages for budget activities to outcomes are reasonably accurate . These are estimates
based on examination of work in each of the budget activities by the office manager or budget examiner .




                                                                                                               Cost by Outcome Determination
356                                                                    Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                        Example Calculation 1 – Cost is allocated to only one outcome
                        Bureau: IRS

                        Total Bureau Fiscal year 2007 budget (direct and reimbursable): $10,964,788,000 .

                        Budget activity: Filing and Account Services

                        Budget activity portion of the total bureau budget: $1,679,805,522

                        Percentage of the bureau budget for this budget activity: 15 .32%

                        Total performance cost of the IRS for fiscal year 2007: $12,015,098,523 .

                        Performance cost of Filing and Account Services budget activity: 15 .32% x $12,015,098,523 = 

                        $1,840,713,094 .


                        The Filing and Account Services budget activity is 100% allocated to the outcome of “Revenue collected

                        when due through a fair and uniform application of the law” . Therefore, the entire amount of the perfor­

                        mance cost for this budget activity, or $1,840,713,094, is allocated to this outcome .



                        Example Calculation 2 – Cost is allocated to multiple outcomes
                        Bureau: Departmental Offices
                        Total Bureau Fiscal year 2007 budget (direct and reimbursable): $288,966,000
                        Budget activity: Economic Policies and Programs
                        Budget activity portion of the total bureau budget: $39,993,000
                        Percentage of the bureau budget for this budget activity: 13 .84%
                        Total performance cost of Departmental Offices (less working capital fund) for fiscal year 2007:
                        $346,959,000
                        Performance cost of Economic Policies and Programs budget activity: 13 .84% x $346,959,000 =
                        $48,019,478 .

                        The Economic Policies and Programs budget activity gross cost of $48,019,478 is allocated to outcomes
                        based on the following table:

                          Budget Activity                                                         Percent               Gross Cost Allocation
                          Effective cash management                                                      10%                 $          4,801,947 .80
                          Strong U .S . economic competitiveness                                         30%                 $         14,405,843 .41
                          Competitive capital markets                                                    10%                 $          4,801,947 .80
                          Free trade and investment                                                      10%                 $          4,801,947 .80
                          Prevented or mitigated financial and economic crises                           35%                 $         16,806,817 .31
                          Decreased gap in global standard of living                                     5%                  $          2,400,973 .90




Cost by Outcome Determination
Part IV – Appendix I                                                                                               357




Appendix I:
Glossary of Acronyms


 AML            Anti-money Laundering
 ASAP           Automated Standard Application for Payments
 BEP            Bureau of Engraving and Printing
 BIT            Bilateral Investment Treaties
 BPD            Bureau of the Public Debt
 BSA            Bank Secrecy Act
 CAFTA - DR     Central American Free Trade Agreement–Dominican Republic
 CAMELS         Capital adequacy, Asset quality, Management Earnings, Liquidity, and Sensitivity
 CDE            Community Development Entities
 CDFI           Community Development Financial Institutions
 COLA           Certificates of Label Approval
 CTF            Counter-Terrorism Financing
 CIP            Customer Identification Program
 EA             Enterprise Architecture
 e-File         Electronic Filing
 EFT            Electronic Funds Transfer
 EFTPS          Electronic Federal Tax Payment System
 EGRPRA         Economic Growth and Regulatory Paperwork Reduction Act
 EITC           Earned Income Tax Credit
 EVM            Earned Value Management
 FATF           Financial Action Task Force
 FDIC           Federal Deposit Insurance Corporation
 FFMIA          Federal Financial Management Improvement Act
 FHCS           Federal Human Capital Survey
 FinCEN         Financial Crimes Enforcement Network
 FISMA          Federal Information Security Management Act
 FIU            Financial Intelligence Unit
 FMFIA          Federal Managers’ Financial Integrity Act
 FMS            Financial Management Service
 FPA            Federal Program Agencies
 FRB            Board of Governors of the Federal Reserve System
 FTA            Free Trade Agreement
 GDP            Gross Domestic Product
 HIPC           Heavily Indebted Poor Countries
 HUD            Department of Housing and Urban Development
 IC             Intelligence Community
 IDB            Inter-American Development Bank



                                                                                                   Glossary of Acronyms
358                                             Department of the Treasury – Performance and Accountability Report – Fiscal Year 2007




                       IDD      Office of International Debt Policy
                       IFC      International Financial Corporation
                       IG       Inspector General
                       IMF      International Monetary Fund
                       IRS      Internal Revenue Service
                       IRS-CI   Internal Revenue Service Criminal Investigation
                       IT       Information Technology
                       ITFC     Iraq Threat Financial Cell
                       MDB      Multilateral Development Banks
                       MDRI     Multilateral Debt Relief Initiative
                       MOU      Memoranda of Understanding
                       NMTC     New Market Tax Credit
                       OA       Office of Audit
                       OCC      Office of the Comptroller of the Currency
                       OCIO     Office of the Chief Information Officer
                       OECD     Organization for Economic Cooperation and Development
                       OFAC     Office of Foreign Asset Control
                       OFP      Office of Fiscal Projections
                       OI       Office of Investigations
                       OIA      Office of Intelligence Analysis and Security Programs
                       OIG      Office of the Inspector General
                       OMB      Office of Management and Budget
                       OTS      Office of Thrift Supervision
                       PAI      Public Affairs International Inc .
                       PAR      Performance and Accountability Report
                       PART     Program Assessment Rating Tool
                       PMA      President’s Management Agenda
                       SES      Senior Executive Service
                       SVC      Stored Value Card
                       TAB      Taxpayer Assistance Blueprint
                       TEOAF    Treasury Executive Office for Asset Forfeiture
                       TETR     Taxpayer Excise Tax Refund
                       TFFC     Terrorist Financing and Financial Crimes
                       TFI      Terrorism and Financial Intelligence
                       TIGTA    Treasury Inspector General for Tax Administration
                       TTB      Alcohol & Tobacco Tax and Trade Bureau
                       WMD      Weapons of Mass Destruction
                       WTO      World Trade Organization




Glossary of Acronyms
Treasury On-line                                    www.treas.gov

Alcohol and Tobacco Tax And Trade Bureau            www.ttb.gov

Community Development Financial Institutions Fund   www.treas.gov/cdfi

Comptroller of the Currency                         www.occ.treas.gov

Bureau of Engraving & Printing                      www.bep.treas.gov

Financial Crimes Enforcement Network                www.treas.gov/fincen

Financial Management Service                        www.fms.treas.gov

Internal Revenue Service                            www.irs.gov

U.S. Mint                                           www.usmint.gov

Bureau of the Public Debt                           www.publicdebt.treas.gov

Office of Thrift Supervision                        www.ots.treas.gov
www.treas.gov
